<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2020</title>
<body><pre>[Senate Hearing 116-]
[From the U.S. Government Publishing Office]




 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2020

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]
             Prepared Statement of Aclara Technologies, LLC
    As a leading technology provider to electric, gas and water 
utilities, Aclara Technologies, LLC respectfully urges you to 
prioritize smart water network infrastructure spending, as well as 
funding to improve the performance, efficiency, and safety of our 
Nation's energy and water distribution infrastructure in the Fiscal 
Year 2020 Interior and Environment Appropriations bill. We thank you 
for this opportunity to express our support for this funding and 
appreciate your consideration.
    Aclara Technologies, LLC (``Aclara'') provides smart infrastructure 
technologies to electric, gas and water utilities, with offerings in 
advanced metering, methane sensing, device networking and 
communications, data management, analytics, and customer service. Over 
1,000 utilities in 36 countries rely on proven Aclara solutions
    We currently have 950 Aclara clients located in all 50 States and 
employ over 1,600 staff in the United States and over 150 
internationally. Smart technologies make energy and water use more 
efficient and allow utilities to provide better services to their 
clients. Companies like Aclara prove that smart technologies mean jobs, 
not just at Aclara, but also at utilities in the form of installation 
and monitoring jobs.
    Aclara offers its strong support for the advancement of 
technologies that can improve our Nation's energy and water 
distribution networks by providing enhanced monitoring, detection, and 
control capabilities. These technologies are an important and cost-
effective way to increase reliability, efficiency, and safety of our 
ageing infrastructure. Supporting the advancement of these technologies 
will be crucial as the country's energy and water distribution networks 
continue to age and as the risks for utilities and network operators 
rise.
Water Infrastructure
    Although many of our Nation's water and wastewater systems have 
been around for more than a century, water infrastructure spending has 
received a significantly smaller and decreasing share of total 
infrastructure investment. According to the Value of Water Campaign, 
over the past 40 years the percentage of overall Federal infrastructure 
spending has been steady for roads and bridges, but has decreased for 
water infrastructure.\1\ The Congressional Budget Office found that 
Federal spending on water infrastructure decreased from $76 per person 
in 1977 to just $11 per person in 2014, and EPA estimates that the 
country's water and wastewater infrastructure will need more than $650 
billion over the next two decades to maintain current levels of 
service. We are pleased that the administration's previous two budget 
requests (fiscal year 2018 and fiscal year 2019) retained funding for 
important programs like WIFIA and the SRFs, and we urge you to 
prioritize water infrastructure spending in fiscal year 2020 and 
beyond.
---------------------------------------------------------------------------
    \1\ http://www.waterweek.us/wp-content/uploads/2017/03/Value-of-
Water-Economic-Benefits-of-Investing-in-Water-Infrastructure.pdf.
---------------------------------------------------------------------------
    Moving and treating water requires an extensive infrastructure of 
pipes and plants and offers opportunities for energy and water 
efficiency at every step. Water leaks cost many cities as much as 10 to 
30 percent loss of their water, leaks that also waste a lot of energy. 
The EPA estimates that drinking water and wastewater systems account 
for 30 to 40 percent of total energy consumed by municipalities. As 
much as 8.4 billion kilowatts is wasted each year moving water 
nationwide. Due to ageing infrastructure, significant energy savings 
are possible through the use of leak detection and pressure monitoring 
technologies.
    Water system efficiency and smart water networks should be a 
clearly stated goal of any investments made in our Nation's water 
infrastructure. Water distribution systems should be modernized in a 
way that increases water and energy efficiency and enables customers 
and utilities to interact with it as never before. This will require 
smart water networks that facilitate the collection of data via sensors 
along distribution networks, advanced analytics, and the incorporation 
of communications technologies to optimize performance, preempt 
problems, and allow for rapid response.
    The Environmental Protection Agency, through its Office of Water, 
should help to advance the utilization of infrastructure solutions such 
as distribution network leak detection, pressure monitoring, and 
sanitary and combined sewer monitoring technologies during upgrades to 
water and wastewater systems to optimize water delivery performance, 
reduce energy usage, limit water waste in distribution systems, and 
enhance modeling of sewer collection networks. This will help to 
improve operations, maintenance, and capital expenditure in planning 
and budgeting, and increase spatial and temporal monitoring data 
available on U.S. water quality and quantity.
    One key aspect of smart water networks is advanced metering 
infrastructure (AMI). AMI can offer communities multiple advantages to 
improve their management of water, reducing water and energy waste, and 
decrease costs for distributors, operators, and consumers. AMI provides 
benefits beyond those available from older automatic ``drive-by'' meter 
reading (AMR) technologies that read meters monthly only to support 
customer billing. Detailed consumption data provided by AMI can help 
reduce water use in many ways, including:

  --Detects system leaks--Non-revenue water costs utilities $4.9 
        billion per year. AMI can help drastically reduce water leaks 
        and associated costs by creating a continuous flow of 
        information from advanced meters, combined with advanced data 
        analytics, that enables water suppliers to rapidly and 
        precisely identify water losses and conservation opportunities.
  --Helps consumers save water (and money)--AMI allows for hourly data 
        to be made available to end consumers. Providing this kind of 
        detailed water use information to consumers through an 
        associated consumer engagement application or customer portal 
        is proven to increase conservation, thereby saving consumers 
        money on their monthly water bills.
  --Leverages existing advanced metering investments to reduce cost--
        for example, Aclara's technologies can also leverage existing 
        gas metering infrastructure, eliminating some infrastructure 
        and deployment costs. California's major gas utilities have 
        already deployed Aclara, providing the umbrella infrastructure 
        for a ``hybrid'' communication system that water utilities can 
        use. Harnessing existing networks can significantly reduce 
        deployment time and allow rapid realization of conservation 
        benefits. In these shared networks, Aclara technology is used 
        to split meter reads for different utility companies, keeping 
        the costs of data collection low. Aclara, and its competitors 
        in the AMI space, offer the technology needed to separate the 
        collected data for each utility and provide the security to 
        prevent commingling of each utility's data.
  --Enables smart pressure management to save energy--AMI enables 
        improved water pressure management of utility systems, which 
        consists of automatically modulating flow and pressure 
        according to water demand, keeping pressure constant at the 
        service points. Besides reducing leakage and bursts, smart 
        pressure management lowers operating costs by reducing site 
        visits and energy costs from maintaining unnecessary high 
        pressure. Smart pressure management requires a wireless 
        communications system including sensors that measure pressure 
        at critical points, software that analyses the pressure status 
        at such points and calculates responses to achieve a desired 
        pressure, and a controller device to prompt smart pumps or 
        valves whose use can save energy.
  --Provides resilience during and following natural disasters--for 
        example, Aclara's system in New York City, which serves more 
        than 9 million people, weathered Hurricane Sandy with minimal 
        disruption. Aclara's water meter transmission units have a 20 
        year battery life and its data collectors offer a rugged, 
        weather-proofed design that stores 28 days of data with a 14 
        day back up battery life. Deployments offer redundancy so that 
        if an individual data collector is disabled, another collector 
        can continue to obtain meter data for that area, offering 
        resiliency critical after earthquakes, floods or other 
        disasters.

    In addition to ensuring funds are dedicated to the advancement of 
water efficiency technologies, we also urge you to support 
appropriations for technologies to make our wastewater systems 
``smarter,'' particularly when it comes to sanitary sewer overflows 
(SSOs). SSOs can be extremely costly, and many wastewater system owners 
don't know about spills until well after the fact, which can further 
increase the cost of remediation. SSO monitoring technologies can help 
to mitigate these costs and can help to prevent SSOs from happening in 
the first place. For example, Aclara's solutions provide detailed 
information about how sewer collection systems are operating and can 
alert operators when part of the system is operating poorly, thereby 
allowing proactive correction and pipe cleaning to prevent a spill. In 
addition, the data can be used to generate reports needed for 
regulatory concerns (thus decreasing overhead costs) and also allows 
for enhanced modeling of sewer collection networks to improve 
maintenance and capital expenditure planning and budgeting.
    Aclara believes that technologies that improve the performance, 
efficiency, and safety of the country's energy and water distribution 
networks are essential to our economic growth, health and safety, and 
overall resiliency. We urge you to ensure that fiscal year 2020 
appropriations, as well as any potential infrastructure package put 
together during this congress, includes funds for the advancement of 
technologies that will make our water and natural gas distribution 
networks smarter, safer, and more efficient. We urge a prioritization 
of water infrastructure spending. Again, thank you for providing this 
opportunity to submit testimony. We would also appreciate the 
opportunity to brief you or your staff on the status of these 
technologies and how additional research can help their advancement. We 
look forward to working with you.

Contact Information
Kara Saul Rinaldi
Government Affairs Representative
Aclara
717 Kennebec Ave, Takoma Park MD 20912
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="630802110223020d0d071a0f4d000c0e">[email&#160;protected]</a>

    [This statement was submitted by Kumi Premathilake, Senior Vice 
President, Advanced Metering Infrastructure.]
                                 ______
                                 
           Prepared Statement of the Alliance to Save Energy
 fiscal year 2020 appropriations for the u.s. environmental protection 
           agency, energy star, and other voluntary programs
    Thank you for the opportunity to provide testimony today in support 
of fiscal year 2020 appropriations for ENERGY STAR and other voluntary 
programs administered by the U.S. Environmental Protection Agency 
(EPA).
    The Alliance to Save Energy is a non-profit, bipartisan collation 
of business, government, environmental, and consumer-interest leaders 
that advocates for enhanced U.S. energy productivity to achieve 
economic growth; a cleaner environment; and greater energy security, 
affordability, and reliability. The Alliance enjoys the participation 
of nearly 130 businesses and organizations that collectively represent 
at least $615 billion in market capital. The Alliance was founded in 
1977 by Senators Charles Percy (R-Illinois) and Hubert Humphrey (D-
Minnesota), and today has 14 Members of Congress serving on an Honorary 
Board of Advisors.
    Energy efficiency is our country's greatest energy resource--
creating jobs, stimulating economic activity, enhancing energy 
security, lowering harmful emissions, and improving U.S. 
competitiveness in global markets. Energy efficiency gains made since 
1973 have cut energy waste dramatically to fuel the U.S. economy more 
productively. Thanks in part to Federal energy efficiency programs, 
including ENERGY STAR and other voluntary programs managed by the EPA, 
the U.S. today generates twice as much gross domestic product (GDP) 
from each unit of energy we consume when compared to 1980.\1\
---------------------------------------------------------------------------
    \1\ In 1980, the U.S. consumed 78 quads (quadrillion British 
thermal units (BTUs)) while GDP was $6.4 trillion, which produces an 
energy productivity ratio of 82.6. This compares to energy productivity 
of 176.4 in 2017 (i.e., 96.8 quads and GDP of $17 trillion). Energy 
consumption data is from the Energy Information Administration. GDP 
(real dollars, 2009) is provided by the Bureau of Economic Analysis.
---------------------------------------------------------------------------
    As energy efficiency has increased, so have stable, good-paying 
jobs. More than 2.3 million American workers design, manufacture, 
install, and repair devices, appliances, equipment and buildings that 
deliver cost-effective savings, representing one-third of the entire 
energy-related workforce. Most of these are construction and 
manufacturing jobs. In fact, members of the Subcommittee on Interior, 
Environment, and Related Agencies represent over 735,000 Americans 
employed in whole or in part in the energy efficiency sector (see Table 
1).\2\
---------------------------------------------------------------------------
    \2\ National Association of State Energy Officials (NASEO) and 
Energy Futures Initiative (EFI), ``Energy Employment By State--2019,'' 
March 2019, https://www.usenergyjobs.org. Last accessed May 14, 2019.

              TABLE 1. ENERGY EFFICIENCY SECTOR JOBS IN STATES REPRESENTED BY SUBCOMMITTEE MEMBERS
----------------------------------------------------------------------------------------------------------------
             Member                     State           Jobs          Member               State          Jobs
----------------------------------------------------------------------------------------------------------------
Lisa Murkowski.................  Alaska............     4,617   Tom Udall.........  N.M...............     5,636
Chairwoman.....................                                 Ranking Member....
----------------------------------------------------------------------------------------------------------------
Lamar Alexander................  Tenn..............    53,006   Dianne Feinstein..  Calif.............   318,542
----------------------------------------------------------------------------------------------------------------
Roy Blunt......................  Mo................    41,845   Patrick Leahy.....  Vt................    11,035
----------------------------------------------------------------------------------------------------------------
Mitch McConnell................  Ky................    25,530   Jack Reed.........  R.I...............    12,773
----------------------------------------------------------------------------------------------------------------
Shelley Moore Capito...........  W.Va..............     6,844   Jon Tester........  Mont..............     8,673
----------------------------------------------------------------------------------------------------------------
Cindy Hyde-Smith...............  Miss..............    15,403   Jeff Merkley......  Ore...............    42,547
----------------------------------------------------------------------------------------------------------------
Steve Daines...................  Mont..............     8,673   Chris Van Hollen..  Md................    70,530
----------------------------------------------------------------------------------------------------------------
Marco Rubio....................  Fla...............   118,412
----------------------------------------------------------------------------------------------------------------
Total Energy Efficiency Sector Jobs: 735,393....................................................................
----------------------------------------------------------------------------------------------------------------

    The contributions of Federal energy efficiency programs to the long 
history of economic, environmental and security benefits to our country 
are difficult to overstate. And, notwithstanding the tremendous gains 
already made, the opportunities to continue to drive cost-effective 
energy efficiency improvements are even greater. Therefore, the 
Alliance respectfully urges your support for fiscal year 2020 
appropriations at or above current levels for ENERGY STAR and the 
following voluntary programs:

                              ENERGY STAR

  --The Alliance recommends at least $50 million for ENERGY STAR in 
        fiscal year 2020.
  --The Alliance opposes the implementation of a fee-based funding 
        model for ENERGY STAR, which is unnecessary, and which would 
        erode the program's integrity.
  --ENERGY STAR enjoys brand awareness of more than 90 percent, which 
        makes it the most widely recognized symbol for energy 
        efficiency, and is extremely cost-effective. For every extra 
        dollar Americans invested in energy efficiency under ENERGY 
        STAR, they reduced their energy bills by an average of $4.50. 
        Since 1992, managed jointly by EPA and the U.S. Department of 
        Energy, ENERGY STAR has helped families and businesses save 
        $450 billion on utility bills, while reducing greenhouse gas 
        emissions by 3.1 billion metric tons.
  --ENERGY STAR serves broad constituencies across every State in the 
        country, working with over 16,000 partners. ENERGY STAR 
        includes almost 1,800 manufacturing partners of over 70 
        different product categories, who sold more than 300 million 
        qualified products in the U.S. in 2016. About 50 percent of the 
        commercial building floor space in the U.S. has been 
        benchmarked for tracking and analyzing energy consumption using 
        ENERGY STAR's Portfolio Manager. ENERGY STAR also counts almost 
        3,000 home builder partners who constructed over 1.9 million 
        certified new homes since 1995. In 2016, families living in 
        ENERGY STAR certified homes saved over $360 million on utility 
        bills, and 91,000 energy efficiency improvement projects on 
        existing homes were completed by Home Performance with ENERGY 
        STAR partners in 2017. More than 700 utilities, State and local 
        governments, and nonprofits across the country use ENERGY STAR 
        in their own energy efficiency programs and rely on it to 
        reliably and affordably meet their energy needs.

        OTHER VOLUNTARY PROGRAMS THAT PROMOTE ENERGY EFFICIENCY

  --The Alliance recommends at least level funding for Environmental 
        Programs and Management--Clean Air and--Water Quality 
        Protection in Fiscal Year 2020 accompanied by clear direction 
        to EPA to continue administering its portfolio of voluntary and 
        partnership programs that encourage energy efficiency practices 
        in industry and deliver savings across the energy sector.
  --The Combined Heat and Power Partnership aims to reduce pollution 
        from electricity and thermal power generation by working with 
        industry and other stakeholders to develop new projects.
  --The SmartWay Transport Partnership with the freight transportation 
        industry supports efforts to improve the fuel efficiency of 
        vehicles. This program has worked with more than 3,700 shippers 
        and logistics companies to save almost $33.4 billion in fuel 
        since 2004.
  --Natural GasSTAR, which includes the Methane Challenge Program, is a 
        partnership with industry that supports the identification and 
        implementation of technologies that reduce methane pollution 
        and provides public recognition of high achievements.
  --AgStar promotes the use of biogas recovery systems to reduce 
        methane emissions from livestock waste.
  --WaterSense offers homeowners, consumers, and businesses information 
        about water-efficient products market by a recognizable and 
        trusted label.
  --Other programs, such as the State and Local Energy and Environment 
        Program and the State and Local Energy Efficiency Action 
        Network, are important collaborations between the public and 
        private sectors that provide specific and tailored technical 
        assistance and platforms for sharing information and best-
        practices.

             NATIONAL VEHICLE AND FUEL EMISSIONS LABORATORY

  --The Alliance recommends at least $117 million in Science and 
        Technology--Clean Air, including at least level funding in 
        vehicle and fuel standards and in greenhouse gas reporting,
  --This laboratory is a global leader that oversees vehicle fuel 
        economy and emissions testing, which are closely related. The 
        laboratory manages programs that also address fuel economy 
        labels, the Green Vehicle Guide, fuel standards, and nonroad 
        engines.
    The Alliance also urges the Subcommittee on Interior, Environment, 
and Related Agencies to oppose the inclusion of any bill amendments or 
report language that could undermine or prevent the EPA from continuing 
to successfully manage ENERGY STAR and other voluntary programs. 
Furthermore, in light of the Government Accountability Office 
impoundment finding concerning the Advanced Research Projects Agency-
Energy program, the Alliance continues to recommend clear and direct 
instructions to the EPA in report language to obligate and expend 
appropriated funds consistent with Congressional intent and in a timely 
manner. With respect to ENERGY STAR, the Alliance encourages the 
subcommittee to reject the administration's proposal to implement a 
fee-based mechanism to fund the program. Similar proposals have been 
suggested by previous administrations and repeatedly denied by 
Congress.
    Unpredictable energy costs and growing consumer and business demand 
make today's investments in energy efficiency ever more vital to 
America's economic health and energy security. It is important to 
emphasize that ENERGY STAR and these other EPA programs are voluntary 
initiatives that work with private-sector partners and support their 
efforts to increase business opportunities while reducing energy waste. 
The wide-ranging benefits of ENERGY STAR and these other voluntary 
programs, realized across the entire U.S. economy and accrued to even 
those who do not choose to participate, are worthy of your support in 
fiscal year 2020.
    Thank you for your consideration.
                                 ______
                                 
         Prepared Statement of the American Alliance of Museums
    Chairwoman Murkowski, Ranking Member Udall, and Members of the 
subcommittee, thank you for allowing me to submit this testimony. My 
name is Laura Lott and I am the President and CEO of the American 
Alliance of Museums (AAM). We urge your support for at least $167.5 
million each in fiscal year 2020 funding for the National Endowment for 
the Arts (NEA) and the National Endowment for the Humanities (NEH), as 
well as sufficient funding for the Smithsonian Institution. We also 
request your support for the Historic Preservation Fund, including at 
least $60 million for State Historic Preservation Offices (SHPOs), $20 
million for Tribal Historic Preservation Offices (THPOs) and $22.5 
million for competitive grants to preserve the sites and stories of the 
Civil Rights Movement. We request funding of $16 million for the Save 
America's Treasures program. In addition, we would like to work with 
you to explore ways to minimize the damage to our Nation's museums from 
future government shutdowns.
    Before detailing these funding priorities for the museum field, I 
want to express my appreciation for the increases enacted in fiscal 
year 2019. The additional funds for the NEH, NEA, and historic 
preservation activities will enhance museums' work to enrich their 
communities and preserve our many heritages. The subcommittee's choice 
to make these investments in fiscal year 2019 speaks volumes about its 
commitment to our Nation's cultural institutions and heritage. AAM 
remains deeply troubled by continuous proposals from the current 
administration to slash many of these priorities, and we look forward 
to working with you-our bipartisan allies-to reject them.
    Representing more than 35,000 museum professionals and volunteers, 
institutions-including aquariums, art museums, botanic gardens, 
children's museums, cultural museums, historic sites, history museums, 
maritime museums, military museums, natural history museums, 
planetariums, presidential libraries, science and technology centers, 
and zoos-and corporate partners serving the museum field, the Alliance 
stands for the broad range of the museum community.

    Museums are essential in their communities for many reasons:

  --Museums are economic engines and job creators.--According to 
        Museums as Economic Engines: A National Report, U.S. museums 
        support more than 726,000 jobs and contribute $50 billion to 
        the U.S. economy per year. The economic activity of museums 
        generates more than $12 billion in tax revenue, one-third of it 
        going to State and local governments. For example, the total 
        financial impact that museums have on the economy in the State 
        of Alaska is $280 million, including supporting 3,240 jobs. For 
        New Mexico it is a $298 million impact supporting 4,934 jobs. 
        This impact is not limited to cities: more than 25 percent of 
        museums are in rural areas. The import of these data is not the 
        numbers alone--but the point that museums give back 
        tremendously to their communities in numerous ways--including 
        economically. The Federal funding for NEA, NEH, and the other 
        programs does not stay in Washington, DC, but it goes back to 
        communities across the Nation. And it is leveraged many times 
        over by private philanthropy, and State and local investments.
  --Museums are key education providers.--Museums spend more than $2 
        billion yearly on education activities; the typical museum 
        devotes 75 percent of its education budget to K-12 students, 
        and museums receive approximately 55 million visits each year 
        from students in school groups. Children who visited a museum 
        during kindergarten had higher achievement scores in reading, 
        math and science in third grade than children who did not, 
        including children most at risk for delays in achievement. 
        Museums help teach the State and local curriculum in subjects 
        ranging from art and science to history, civics, and 
        government. Museums have long served as a vital resource to 
        homeschool learners. It is not surprising that in a 2017 public 
        opinion survey, 97 percent of respondents agreed that museums 
        were educational assets in their communities. The results were 
        statistically identical regardless of political persuasion or 
        community size.

    The National Endowment for the Humanities is an independent Federal 
agency created by Congress in 1965. Grants are awarded to nonprofit 
educational institutions-including museums, colleges, universities, 
archives, and libraries-for educational programming and the care of 
collections. NEH supports museums as institutions of lifelong learning 
and exploration, and as keepers of our cultural, historical, and 
scientific heritages that can foster critical dialogues on challenging 
issues of our time.
    In fiscal year 2018, as a whole, the National Endowment for the 
Humanities awarded 826 grants totaling more than $67 million to 
institutions across the U.S., including museums. Many of NEH's 
divisions and offices support museums:

  --The Office of Challenge Grants offers matching grants to support 
        much needed capacity building and infrastructure projects at 
        museums.
  --The Division of Public Programs offers grants that bring the ideas 
        and insights of the humanities to life in museums by supporting 
        exhibitions, community conversations, and place-based history. 
        Additionally, Positions in the Public Humanities supplements 
        provide professional development opportunities for new museums 
        professionals.
  --The Division of Preservation and Access provides funding to museums 
        for efforts to preserve and provide access to our Nation's rich 
        cultural heritage.
  --The Division of Education Programs supports programs that bring 
        educators to museums for intensive summer training programs on 
        humanities topics.
  --The Office of Digital Humanities offers grants to support 
        innovations in technology at museums, universities, and other 
        institutions.
  --The Division of Research supports scholarly research that many 
        museums use to inform exhibitions and public programming.

    In calendar year 2018, 218 NEH-funded permanent and traveling 
exhibitions were open around the Nation, providing life-long learning 
opportunities to a wide public audience. Humanities councils in every 
State and U.S. territory sponsor family literacy programs, speakers' 
bureaus, cultural heritage tourism, exhibitions, and live performances. 
In 2018, 55 State councils supported 2,389 exhibitions, 10,097 
discussion events, 166 preservation projects, and 769 local history 
programs. In total, all State council programs reached an audience of 
more than 137 million people. State councils also awarded more than 
3,000 grants to partners in their communities.

    Here are just two examples of how NEH funding was used to support 
museums' work in your communities:

  --The Pratt Museum in Homer, Alaska, received a $300,000 award for an 
        ongoing project through fiscal year 2019 to implement a 
        permanent exhibition in its new facility to explore the 
        interconnectedness of people and place in the Kachemak Bay 
        region of Alaska. This region is home to culturally diverse 
        coastal communities which make their living predominantly from 
        the sea.
  --The Museum of Indian Arts and Culture in Santa Fe, New Mexico, 
        received a $460,000 award in fiscal year 2018 for Here, Now, 
        and Always: Renovation and Renewal--an implementation of a 
        reinterpretation of a permanent exhibition on Native American 
        art of New Mexico and the Southwest.

    The National Endowment for the Arts makes art accessible to all and 
provides leadership in arts education. Established in 1965, NEA 
supports great art in every congressional district. Its grants to 
museums help them exhibit, preserve, and interpret visual material 
through exhibitions, residencies, publications, commissions, public art 
works, conservation, documentation, services to the field, and public 
programs.
    Since 2010, the NEA has collaborated with Blue Star Families and 
the U.S. Department of Defense on Blue Star Museums, a program which 
provides free museum admission to active duty military and their 
families all summer long. In 2018, more than 2,000 museums in all 50 
States participated, reaching on average more than 900,000 military 
members and their families.
    In 2018, the NEA provided more than 100 awards directly to museums, 
totaling more than $3.73 million. The Arts Endowment's report, U.S. 
Trends in Arts Attendance and Literary Reading: 2002-2017, notes that 
in 2017, 23.7 percent of U.S. adults (57.5 million people) visited an 
art museum or gallery. That share of adults represents an increase of 
12.9 percent from 2012 to 2017. Attendance rates were helped by 
increases among: African Americans, 18-24 year-olds, 35-44 year-olds, 
and adults who received only ``some college'' education. Communities' 
demands on museums continue to climb, increasing pressure to serve more 
people with limited financial and human resources. Receiving a grant 
from the NEA confers prestige on supported projects, strengthening 
museums' ability to attract matching funds from other public and 
private funders. On average, each dollar awarded by the Arts Endowment 
leverages up to $9 dollars from other public and private sources. The 
Federal role of the NEA is uniquely valuable. No other funder-public or 
private-funds the arts in every State and the U.S. territories. Forty 
percent of NEA's grant funds are distributed to State arts agencies for 
re-granting.

    Here are two examples of how NEA funding was used to support 
museums' work in your communities:

  --In fiscal year 2019, the Anchorage Museum in Anchorage, Alaska, 
        received a $30,000 award to support SEED Lab, an artist and 
        designer residency program that will respond to community needs 
        through solutions, equity, energy, and design (SEED). SEED Lab 
        will be a space for exhibitions created by the resident artists 
        and designers, and will include free-access community programs, 
        studio spaces, and a lab to explore art and design solutions to 
        unique community challenges, including urban migration, threats 
        to traditional ways of life affected by the State's eroding 
        coastline, and the need for a new energy economy.
  --In fiscal year 2018, the Wheelwright Museum of the American Indian 
        in Santa Fe, New Mexico, received a $30,000 award to support an 
        exhibition by sculptor and installation artist Rose B. Simpson 
        and an accompanying catalogue. Simpson is a member of Santa 
        Clara Pueblo's Naranjo family of artists and scholars and is 
        the daughter of acclaimed sculptor Roxanne Swentzell.

    In addition to these direct grants, NEA's Arts and Artifacts 
Indemnity program also allows museums to apply for Federal indemnity on 
major exhibitions, saving them as much as $30 million in insurance 
costs every year and making many more exhibitions available to the 
public-all at virtually no cost to the American taxpayer.
    The Smithsonian Institution comprises some of the most visited 
museums in the world. The National Museum of African American History 
and Culture has captivated audiences from around the globe, 
underscoring the power of our national museums to educate and inspire. 
We support funding increases that would allow these world-class museums 
to undertake critical collections care, make needed technology 
upgrades, conduct cutting edge research of every type, and increase 
access for all.
    The Historic Preservation Fund is the funding source of 
preservation awards to States, Tribes, local governments, and 
nonprofits. State and Tribal Historic Preservation Offices carry out 
the historic preservation work of the Federal Government on State and 
Tribal lands. These duties include making nominations to the National 
Register of Historic Places, reviewing the impact of Federal projects, 
providing assistance to developers seeking a rehabilitation tax credit, 
working with local preservation commissions, and conducting 
preservation education and planning. This Federal-State-local 
foundation of America's historic preservation program was established 
by the National Historic Preservation Act. Historic preservation 
programs are not only essential to protecting our many heritages; they 
also serve as economic development engines and job creators. We urge 
you to provide at least $60 million for SHPOs and at least $20 million 
for THPOs.
    We applaud recent funding for the Save America's Treasures program, 
and urge you to provide $16 million in fiscal year 2020 funding. From 
1999 to 2010, total Federal funding of $315 million for 1,287 Save 
America's Treasures projects leveraged an additional $400 million in 
non-Federal funds, and created more than 16,000 jobs nationwide. These 
projects protected some of America's most iconic and endangered 
artifacts, including the American flag that inspired the Star Spangled 
Banner. We also applaud the investment in competitive grants to 
preserve the sites and stories of the Civil Rights Movement. Grants for 
this initiative are currently helping museums and historic sites around 
the country conserve endangered structures, document stories, and share 
resources with the public. We support fiscal year 2020 funding of $22.5 
million for these Civil Rights Movement grants.
    I hope that my testimony helps make it clear why these priorities 
are of critical importance to the Nation and how they provide a 
worthwhile return on investment to the American taxpayer.
                                 ______
                                 
          Prepared Statement of the American Battlefield Trust
                              introduction
    Madame Chairman and members of the subcommittee, thank you for the 
opportunity to submit testimony to you today. My name is James 
Lighthizer, and I am the president of the American Battlefield Trust. I 
respectfully request that the Senate Appropriations Subcommittee for 
Interior, Environment, and Related Agencies fund the Battlefield Land 
Acquisition Grants Program, administered by the National Park Service's 
American Battlefield Protection Program, at its authorized amount of 
$10 million.
    The American Battlefield Trust is a national nonprofit organization 
dedicated to preserving America's remaining Revolutionary War, War of 
1812 and Civil War battlefields. Thanks to the generosity of our 
300,000 members and supporters, the American Battlefield Trust has 
protected more than 50,000 acres of critically important battlefield 
land in 24 States.
    The Battlefield Land Acquisition Grants Program is an authorized 
competitive matching grants program that requires a 1 to 1 Federal/non-
Federal match, although on most occasions the Federal dollars are 
leveraged much more than 1 to 1. The program promotes cooperative 
partnerships between State and local governments and the private sector 
to protect high priority battlegrounds outside existing National Park 
Service boundaries.
            outdoor classrooms and military training grounds
    America's battlefields are irreplaceable parts of our shared 
national heritage. When preserved, these battlefields serve as outdoor 
classrooms to educate current and future generations about the defining 
moments in our country's history. They are living memorials, not just 
to the soldiers who fought and died there, but to all who have proudly 
worn our Nation's uniform.
    Preserved battlefields are also economic drivers for communities, 
generating tourism dollars that are extremely important to State and 
local economies. Battlefield visitors, who typically travel in groups 
and as part of families, tend to stay longer and spend more than other 
types of tourists.
    Additionally, battlefields serve as training grounds for our men 
and women in uniform in the form of customized battlefield tours known 
as ``staff rides.'' Preserved battlefields are frequently used by the 
modern military to place officers and enlisted ranks alike in the shoes 
of combat commanders, asking them to make difficult choices, in the 
face of daunting obstacles, over the same terrain. The American 
Battlefield Trust is proud to work with the Marine Corps University 
Foundation and others to host staff rides on battlefields we own and 
have protected.
                         origins of the program
    In 1990, Congress created the Civil War Sites Advisory Commission 
(CWSAC), a blue-ribbon panel composed of lawmakers, historians and 
preservationists, to examine the status of America's Civil War 
battlefields. Three years later, the Commission released a report 
identifying the most important Civil War battlegrounds, prioritizing 
them according to preservation status and historic significance. In 
addition, the Commission also recommended that Congress establish a 
Federal matching grant program to encourage private sector investment 
in battlefield preservation. The Commission's proposal for Federal 
matching grants was the genesis of today's Battlefield Land Acquisition 
Grants Program.
    In addition, the National Defense Authorization Act for fiscal year 
2015 (Public Law 113-291) reauthorized the battlefield acquisition 
grants program and expanded its eligibility to include Revolutionary 
War and War of 1812 battlefields, in addition to Civil War 
battlefields. Similar to Civil War battlefields, funding for 
Revolutionary War and War of 1812 battlefield preservation is targeted 
toward sites reviewed and prioritized in a 2007 study by the National 
Park Service.
    Since the program was first funded in fiscal year 1999, grants have 
been used to protect more than 32,000 acres of hallowed ground in 20 
States. Among the battlefields that have been preserved using this 
program are: Antietam, Maryland; Bentonville, North Carolina; 
Brandywine, Pennsylvania; Champion Hill, Mississippi; Chancellorsville, 
Virginia; Chattanooga, Tennessee; Gettysburg, Pennsylvania; Hanging 
Rock, South Carolina; Harpers Ferry, West Virginia; Kettle Creek, 
Georgia; Mill Springs, Kentucky; Prairie Grove, Arkansas; Princeton, 
New Jersey; Sackets Harbor, New York; Wilson's Creek, Missouri; and 
Wood Lake, Minnesota. It is important to note that grants are awarded 
for acquisition of lands from willing sellers only; there is not--and 
never has been--any eminent domain authority.
                        urgent need for funding
    The American Battlefield Trust wishes to thank the subcommittee for 
its previous support of this valuable program. We recognize that these 
are difficult economic times and appreciate the constraints on this 
subcommittee.
    However, we must point out that the clock is ticking on the 
remaining battlefields of the Revolutionary War, War of 1812 and Civil 
War. The American Battlefield Trust estimates that, in the next decade, 
most unprotected battlefield land will be either developed or 
preserved. Further, with the commemoration of the 250th anniversary of 
the American Revolution only a few years away, there is no better time 
to preserve these historic shrines and prepare for the influx of 
visitors expected at that time. The program has enjoyed full funding 
for the past four fiscal years, and the Trust and its partners strive 
diligently to put these funds to use in a timely manner. There is no 
shortage of land that can be saved.
                               conclusion
    The Revolutionary War, the War of 1812 and the Civil War were 
defining moments in our country's history. America's battlefields are 
important to understanding who we are as a nation, and where we come 
from. They are open spaces and outdoor classrooms that commemorate the 
sacrifices of those who fought and died on these fields, and those who 
serve our Nation honorably in the armed forces. The Battlefield Land 
Acquisition Grant Program has been an irreplaceable tool for preserving 
these hallowed grounds.
    Madame Chairman Murkowski and Ranking Member Udall, I sincerely 
hope you and your subcommittee will consider our request to provide 
funding of the American Battlefield Protection Program's Battlefield 
Land Acquisition Grants Program at its authorized level of $10 million. 
We look forward to working closely with you as we continue our 
important work to preserve America's sacred battlefield lands. Thank 
you.

    [This statement was submitted by O. James Lighthizer, President.]
                                 ______
                                 
                 Prepared Statement of American Forests
    Chairwoman Murkowski, Ranking Member Udall, and Members of the 
subcommittee, thank you for the opportunity to submit written testimony 
on American Forests' fiscal year 2020 appropriations recommendations 
for U.S. Forest Service programs.
    American Forests was established at a pivotal time in the Nation's 
history, barely 10 years after the Civil War and during a period of 
tremendous development and industrial expansion. Forests were being cut 
down at an alarming rate to make way for new farms, towns and railways, 
and timber barons were exploiting what then seemed like an 
inexhaustible resource. Since that time, we have supported progress, 
but not at all costs. Instead, over the last 140+ years we have 
advocated for using science to manage and conserve our forestlands so 
they will be with us and work for us for generations. We have helped 
develop the U.S. Forest Service and the national forest system. We have 
funded more than 1,000 forest restoration projects in every State. We 
have planted nearly 60 million trees, which has included expanding the 
tree canopy in dozens of major cities and urban areas.
    For years, we have testified to the economic value of our forests 
from cities to wilderness and have underscored the importance of 
addressing rising threats to forest health. We sincerely thank the 
committee for fiscal year 2019 funding levels, which rejected the 
drastic cuts proposed by the administration and provide the Forest 
Service with important tools and resources to manage all our Nation's 
forests.
    This year, the Nation witnessed loss and destruction from wildfire 
at levels we have never seen before. In fact, over the last decade, 
each year has been worse than the last and this trajectory shows no 
signs of changing. At American Forests, we believe our forests are 
struggling to adapt to a 'new normal' of extremes: extreme drought, low 
humidity, high winds, shortened 'cold spells'. These extremes produce 
dramatic tree mortality and high intensity wildfire in the West, and 
changing tree species composition and declining forest health in the 
East.
    To adapt forests to this 'new normal' will often require more 
active forest management, including harvesting dead and dying trees, 
reforestation, reintroducing controlled fire and other measures. More 
active forest management will require increased Federal and private 
investment and level of effort sufficient to halt this crisis. Consider 
California's forests, where over 147 million trees have died since 
2010, with roughly 85 percent of those located in the Sierra Nevada. If 
we do nothing, many areas will experience fires so intense that they 
cannot be reforested and will transition to a shrub ecosystem. The best 
hope for sustaining forests like those in the Sierra will be to thin 
areas with dead and declining trees, while restoring a more resilient 
forest and using controlled burns more frequently. But it's not only 
western forests. A recent University of Florida study found that 
southeastern forests are already seeing a changing mixture of tree 
species in response to prolonged drought. Dangerous forest pests are 
reaching farther north into New England as its climate warms. New 
stresses are coming to all of America's forests.
    The ``Fire Funding Fix'' enacted as part of the fiscal year 2018 
Omnibus appropriations bill was a critical step forward. It will allow 
the U.S. Forest Service to stop diverting funds away from forest 
management. This will provide additional resources to support forest 
restoration on America's 193 million acres of national forests, but we 
must do much more. The Forest Service needs to rebuild its staff and 
forestry resources to adequately manage the crisis that is now 
impacting our forests and to help our forests achieve long-term health 
and resilience. The question is whether we can shift our thinking and 
resources quickly enough.
    To address this crisis, American Forests respectfully urges the 
Committee to consider significantly increasing investments in the 
following key programs:
                         national forest system
Vegetation Management & Watershed Management
Fiscal year 2018 enacted: $180 million; fiscal year 2019: $180 million; 
        American Forests fiscal year 2020 request: $371.4 million
    Reforestation of our national forests, especially after destructive 
wildfires, should be a national priority. Nearly 9 million acres of 
national forests have burned since 2010--a significant increase 
resulting from the harsh 'new normal' conditions. Funding levels for 
this program need to be recalibrated to match this new scale of 
reforestation needs. The forest service estimates $371.4 million to 
reforest 1 million acres. Therefore, American Forests recommends 
resetting program funding to $371.4M which would allow the Forest 
Service to reforest 1 million acres of national forest.
Collaborative Forest Landscape Restoration Program (CFLRP)
Fiscal year 2018 enacted: $40 million; fiscal year 2019: $40 million; 
        American Forests fiscal year 2020 request: $80 million.
    A well-documented success at improving forest health and safety, 
CFLRP promotes job stability, a reliable wood supply, and forest health 
while reducing emergency wildfire costs and risks. Increased funding 
levels would allow for additional projects to be selected across the 
country while capitalizing on the growing energy and successes of 
collaborative management and shared stewardship.
Forest and Rangeland Research
Fiscal year 2018 enacted: $297 million; fiscal year 2019: $ 300 
        million; American Forests fiscal year 2020 request: $315 
        million with $83 million allocated to the Forest Inventory 
        Analysis.
    The USFS's Forest and Rangeland Research program provides essential 
support for urban and wildland forestry research activities. This 
program focuses on understanding conditions and trends in our Nation's 
urban and community forests and in providing tools and best management 
practices--which is critical for addressing the ``new normal'' these 
forests face. Agency researchers help policymakers and practitioners 
understand the environmental, economic, and social services that trees 
and forests provide. We urge the subcommittee to continue including 
language in Interior Appropriations reports encouraging the Forest 
Service to maintain a strong and vibrant urban forest research program.
                       state and private forestry
Urban and Community Forestry (U&CF)
Fiscal year 2018 enacted: $28.5 million; fiscal year 2019: $29.5 
        million; American Forests fiscal year 2020 request: $50 million
    By 2050, 90 percent of Americans will live in cities and towns 
where currently there are 136 million acres of trees and forests. U&CF 
is the core Federal forestry program that helps these forests and trees 
adapt to the ``new normal''. Through this program, the Forest Service 
provides critical technical and financial support to cities and towns 
across the Nation to enhance tree and forest cover, prepare for storms 
and other disturbance events, contain threats from native and invasive 
pests, and maximize the economic, social, and ecological benefits of 
their tree resources. States and partner organizations leverage Federal 
support through the program by at least 2:1 (or in many cases 
significantly more). Considered a model of Federal-State collaboration, 
U&CF consistently increases communities served, brings together diverse 
partners and resources, and has lasting impacts on communities of all 
sizes but the program needs to be recalibrated to reflect the scale of 
its mission.
Cooperative Forestry/Forest Legacy Program
Fiscal year 2018 enacted: $67.025 million; fiscal year 2019: $63.990 
        million; American Forests fiscal year 2020 request: $100 
        million
    Since authorization in 1990, the Forest Legacy Program has 
protected 2.8 million acres of private forests through voluntary 
conservation easements held by States. Forests conserved through this 
program must be managed to provide economic and social benefits to the 
public. The Forest Service recently studied four FLP regions and found 
the properties support between 280 and 2,500 jobs, contribute an 
average of $140 per acre to gross regional product from timber 
harvesting, tree planting, maple syrup, hunting, fishing, birding, and 
snowmobiling on the lands. In addition, the study found 34-60 percent 
of total project cost was covered by non-Federal partners which is at 
least 10 percent greater than required by the program.
Community Forests and Open Space Conservation Program (CFP)
Fiscal year 2018 enacted: $4 million; fiscal year 2019: $4 million; 
        American Forests fiscal year 2020 request: $10 million
    CFP has made substantial progress in preserving forests by 
increasing opportunities for Americans to connect with forests in their 
own communities and fostering new public-private partnerships. It 
provides financial assistance grants to local governments, Tribes, and 
qualified nonprofit organizations to acquire and establish working 
community forests that provide public benefits. Projects are selected 
through a competitive process that evaluates community benefits, 
contribution to landscape conservation initiatives, and likelihood of 
land conversion.

    [This statement was submitted by Alexandra Murdoch, Vice President 
of Policy.]
                                 ______
                                 
           Prepared Statement of the American Hiking Society
    On behalf of the thousands of diverse trail users our 220 
collective organizations represent, we urge appropriators to adequately 
invest in our Nation's trails.\1\ Trails provide access to our public 
lands for hiking, biking, horseback riding, off-highway vehicles, and 
other motorized and non-motorized recreation. They are also the gateway 
to nearly every facet of outdoor recreation, including fishing, 
hunting, wildlife viewing, camping, and more. A failure to maintain and 
manage our Nation's trails stymies economic growth and access to 
healthy outdoor recreation.
---------------------------------------------------------------------------
    \1\ Full list of signatories available here: https://
americanhiking.org/?p=40292&preview=true.
---------------------------------------------------------------------------
    Recent data from the Department of Commerce's Bureau of Economic 
Analysis (BEA) calculated that outdoor recreation generated $734 
billion in economic activity in 2016, surpassing other sectors such as 
agriculture, petroleum and coal. Outdoor recreation makes up 2.2 
percent percent of U.S. GDP, supports 4.5 million jobs and is growing 
faster than the economy as a whole.\2\
---------------------------------------------------------------------------
    \2\ Bureau of Economic Analysis, Outdoor Recreation, https://
www.bea.gov/data/special-topics/outdoor-recreation (last visited March 
25, 2019).
---------------------------------------------------------------------------
    According to the Outdoor Industry Association, trail centered 
activities directly generate over $594 billion \3\ and nearly 3.5 
million jobs.\4\ On federally managed land, outdoor recreation 
contributes more than $64.6 billion to the national economy and 
supports more than 623,000 jobs annually.\5\
---------------------------------------------------------------------------
    \3\ OUTDOOR INDUSTRY ASSOCIATION, OUTDOOR RECREATION ECONOMY 18 
(2017), available at https://outdoorindustry.org/wp-content/uploads/
2017/04/OIA_RecEconomy_FINAL
_Single.pdf. Trail centered activities generated $594,311,835,880 from 
including retail spending, salaries, and Federal and State taxes.
    \4\ Id. Trail centered activities create 3,476,845 jobs.
    \5\ OUTDOOR INDUSTRY ASSOCIATION, OUTDOOR RECREATION ECONOMY 15 
(2017), available at https://outdoorindustry.org/wp-content/uploads/
2017/04/OIA_RecEconomy_FINAL
_Single.pdf; ``Forest Service Makes it Easier for Visitors to Enjoy 
National Forests and Grasslands.'' U.S. Forest Service, https://
www.fs.fed.us/news/releases/forest-service-makes-it-easier-visitors-
enjoy-national-forests-and-grasslands.
---------------------------------------------------------------------------
    The management of our Nation's trails is largely supported by trail 
organizations and citizen volunteers who leverage government resources 
to maintain and expand our trails. On the National Trails System alone, 
since 1995, hundreds of thousands of citizen volunteers have 
contributed more than 19 million hours to build and maintain National 
Scenic and Historic Trails, and nonprofit trail organizations have 
contributed more than $200 million toward trail stewardship projects, a 
total value of $577.4 million.\6\ This historical and ongoing public 
``sweat equity'' investment has led to an increased recognition of the 
importance of adequate Federal funding for our public lands and trails 
to maintain quality visitor experiences. It is our collective belief 
that Congress must restore the proper appropriated funding levels that 
have been cut over the decades that our Federal land management 
agencies so desperately need. We maintain that current levels are 
inadequate but recognize the political realities of this challenge. 
Consequently, we strive to temper the recommendations to ensure at the 
very least current funding is maintained and not further reduced. 
However, we believe that restored and adequate funding is not only 
desperately needed but fully warranted.
---------------------------------------------------------------------------
    \6\ Partnership for the National Trails System, Contributions 
Sustaining the National Scenic and Historic Trails (2018), http://
pnts.org/new/partnership-for-the-national-trails-system-gold-sheet-of-
volunteer-contributions-in-2018/.
---------------------------------------------------------------------------
    We encourage the committee to adopt the following funding requests 
and report language, so the Federal Government can continue to benefit 
from private contributions and volunteer labor as well as provide 
inexpensive, healthy outdoor recreation options for your constituents:
                         forest service (usfs)
    National Forest trails benefit everyone and receive increasing 
public use each year. Collectively, the National Forests provide 
157,000 miles of trails for activities ranging from hiking, biking, 
horseback riding, off-highway vehicle usage, groomed winter trails for 
cross-country skiing and snowmobiling, and access points for ``river 
trails.'' Yet this trail system is increasingly stressed and 
maintenance cannot keep pace with the growing demand due to inadequate 
funding. The lack of maintenance threatens public access to National 
Forests and could endanger the public safety if funding does not keep 
pace with public visitation.
Action:
  --Maintain Capital Improvement and Maintenance, Trails as individual 
        funding line item.

    --Justification: A dedicated line item in the Forest Service budget 
            helps to ensure that Congress' desire to help clear the 
            maintenance backlog is met, and funds are not used for 
            other purposes.

  --Fund Capital Improvement and Maintenance, Trails budget at $100 
        million to address trail maintenance backlog and implementation 
        of the National Forest System Trail Stewardship Act.

    --Justification: In 2016, Congress passed what was termed ``the 
            most bipartisan bill in Congress''--the National Forest 
            System Trails Stewardship Act--to address its trail 
            maintenance backlog, including doubling the output by 
            volunteers and partners. But the USFS has yet to fully 
            implement the Act due, in part, to a lack of resources and 
            declining levels of staffing which hampers its ability to 
            negotiate and oversee volunteer and cost-share agreements. 
            The agency recently launched a 10-Year Sustainable Trails 
            Stewardship Challenge and modest funding is needed to 
            comprehensively address the well-documented trail 
            maintenance backlog (GAO-13-618).

  --Allocate Capital Improvement & Maintenance (CMTL) Trails funds for 
        the National Trails Systems

    --Report Language: ``Congress expects the Forest Service to 
            allocate $8.826 million from this account to support 
            development and maintenance of the 5 national scenic and 
            one national historic trail it administers and $1.3 million 
            to manage parts of 16 national scenic and historic trails 
            administered by the Park Service and the Bureau of Land 
            Management that cross National Forests. The Forest Service 
            will report to the Interior Appropriations Subcommittee on 
            how the fiscal year 2020 funds have been allocated and what 
            has been accomplished with them and will include specific 
            allocations for these trails in its fiscal year 2021 budget 
            request.''
    --Justification: In fiscal year 2019, as has been past practice for 
            two decades, the USFS did not allocate specific Capital 
            Improvement & Maintenance (CMTL) Trail funds for each of 
            the six national scenic and historic trails that it 
            administers, as well as portions of the 17 other trails 
            that it manages within the national forests for fiscal year 
            2019.

  --Maintain Recreation, Heritage & Wilderness at fiscal year 2019 
        enacted level of $261 million

    --Report Language: ``Within the fund provided, $500,000 is made 
            available to support infrastructure and trails development, 
            and to build the capacity of local user groups and 
            partnership organizations for all National Recreation Areas 
            administered by the Forest Service established after 
            1997.''
    --Justification: The National Forests and Grasslands provide a 
            great diversity of outdoor recreational opportunities, 
            connecting the American public with nature in an unmatched 
            variety of settings and activities.

  --Restore Legacy Roads & Trails as a separate line item and fund 
        program at $50 million

    --Report Language: ``For fiscal year 2020, Legacy Roads & Trails 
            should be reinstated as a separate line item in the USFS 
            budget with $50,000,00 distinctly designated for urgently 
            needed road and trail repair, maintenance and storm-
            proofing, fish passage barrier removal, and road 
            decommissioning, especially in areas where Forest Service 
            roads may be contributing to water quality problems in 
            streams and water bodies which support threatened, 
            endangered or sensitive species or community water 
            sources.''
    --Justification: Legacy Roads & Trails funding is significantly 
            impactful, improving more than 11,000 miles of trails and 
            5,000 miles of roads. Dedicated funding is necessary for 
            continuing the success of this program. Legacy Roads and 
            Trails contributes funding to support projects that include 
            the maintenance and treatments of roads that also go a long 
            way towards improving our watershed health.
                      national park service (nps)
    National Parks and the world-class experiences their 18,844 miles 
of trails provide are one of the most unifying forces in America. Well-
maintained trails improve the quality of visitor experiences and 
enhance visitor safety. Yet the agency's deferred maintenance has grown 
significantly under several administrations and the associated 
reductions in adequate appropriations.
Action:
  --Park Service Operations for the National Trails System must be 
        maintained at a minimum of $16.5 million

    --Justification: The National Park Service has administrative 
            responsibility for 23 National Scenic and Historic Trails 
            established by Congress. Adequate funding is essential for 
            keeping these popular trails accessible to the public.

  --Maintain funding for the Rivers, Trails, & Conservation Assistance 
        (RTCA) program at $10.033 million

    --Justification: The RTCA program brings the expertise of over a 
            century of land management to the greater recreation 
            community. When a community asks for assistance with a 
            project, National Park Service staff provide free critical 
            tools for success, on-location facilitation, and planning 
            expertise, which draw from project experiences across the 
            country and adapt best practices to a community's specific 
            needs.

  --Restore the Challenge Cost Share program, funding at $1.5 million

    --Justification: Challenge Cost share leverages private donations 
            with public funding to maximize trail maintenance 
            resources. This Program is intended to support specific 
            National Park Service mission-related projects that align 
            with goals of local project partners. These partnerships 
            promote improved access and opportunities for outdoor 
            recreation, environmental stewardship, and education in our 
            National Parks, National Trails and/or Wild and Scenic 
            Rivers.

  --Restore funding for Volunteers in Parks programs funding at $8 
        million

    --Justification: Volunteers in Parks leverages private donation 
            with public funding to maximize trail maintenance 
            resources.

  --Fund Visitor Services subactivity, Youth Partnership Programs, at 
        $10.95 million

    --Justification: The Youth Partnership Program in part funds the 
            Public Land Corps program, which provides education and 
            work opportunities for men and women aged 16-30. The NPS 
            utilizes non-profit youth serving organizations to perform 
            critical natural and cultural resource conservation 
            projects at NPS sites. Without funding, projects completed 
            by youth crews through these programs would not be 
            accomplished. These projects range from masonry 
            apprenticeships on historic structures to Tribal land 
            improvements; to engaging other youth through coordination 
            of culturally-based workshops and outdoor recreation clubs.
                    bureau of land management (blm)
    The BLM manages 13,468 miles of trails over 245 million surface 
acres in the United States-more than any other Federal land management 
agency. Most of the country's BLM-managed public land is located in 12 
Western States, including Alaska, and contains a diversity of 
landscapes that often provide the public less structured but 
nonetheless diverse and superlative recreational opportunities. BLM 
recreation resources and visitor services support strong local 
economies. More than 120 urban centers and thousands of rural towns are 
located within 25 miles of BLM lands.
Action:
  --Fund National Conservation Lands at $84 million

    --Justification: National Conservation Lands funds enhance 
            recreational access, conserve the Nation's heritage and 
            manage these nationally recognized resources.

  --Fund National Conservation Lands--National Scenic Historic Trails, 
        subactivity Recreation Resources Management at $9.9 million

    --Justification: Recreation Resources Management funding preserves 
            and provides public access to and allows for the enjoyment 
            of the 16 National Scenic and Historic trails across BLM 
            managed land.

  --Increase Challenge Cost Share program funding at $3 million

    --Justification: Challenge Cost Share funds leverage private 
            donation for public benefit, to maximize funding for trail 
            maintenance and construction. Recreation projects build 
            trails, obliterate road and trails, and enhance visitor 
            recreation experiences on public lands. Projects improve 
            and stabilize Riparian areas and washed out bridges or 
            walkways. Overall, projects also include support for 
            environmental education, University research, and 
            interactive youth initiatives based on the programs within 
            the BLM.
                   u.s. fish & wildlife service (fws)
    Located in every U.S. State and territory, and within an hour's 
drive of nearly every major U.S. city, National Wildlife Refuges 
provide incredible opportunities for outdoor recreation, including 
hiking, hunting, fishing, birding, boating and nature photography 
across 2,100 miles of trails. More than 37,000 jobs are reliant on 
refuges.
Action:
  --Maintain Refuge Visitor Services at $73.319 million

    --Justification: Refuge Visitor Services provides funding for trail 
            maintenance across FWS managed land.
       land & water conservation fund (lwcf)--across all agencies
    Congress recently showed overwhelming bipartisan support for the 
Land and Water Conservation Fund (LWCF) when it permanently 
reauthorized the program in S. 47, the John D. Dingell, Jr. 
Conservation, Management, and Recreation Act. Building upon this 
support, the committee must ensure that full funding of the program is 
provided at the $900 million level.
Action:
  --Fund LWCF at the $900 million

    --Justification: The LWCF has funded nearly 1,000 trail projects 
            across the country and countless other recreation and 
            conservation projects in thousands of communities in every 
            State. It's time for Congress to fulfill its promise to 
            provide full funding to the LWCF.

  --Include within this appropriation $33.4M for National Scenic and 
        Historic Trails projects

    --Justification: Many of the projects offer a unique opportunity to 
            acquire lands that will help protect trails or close 
            existing gaps between sections of these Congressionally-
            designated trails. Once land is acquired, volunteers and 
            private funding stand ready to build/maintain the trails. 
            This funding will protect 41 tracts along six national 
            scenic and six national historic trails.
21st century conservation service corps (21csc)--doi, usda (usfs), and 
                            commerce (noaa)
    With the establishment of the 21st Century Conservation Service 
Corps (21CSC) as part of the Natural Resources Management Act of 2019, 
Congress recognized the need to address modern conservation, 
recreation, forestry, and infrastructure projects through cost-
effective partnerships with Corps. We encourage you to continue this 
focus and make the additional investments necessary to carry its intent 
forward and put more young adults and recent veterans to work on the 
thousands of unmet needs on our public lands.
Action:
  --Conservation Corps Report Language

    --Report Language: ``The Secretary of the Interior and the 
            Secretary of Agriculture are encouraged to utilize, where 
            practicable, Conservation Corps programs like the Public 
            Lands Corps, 21st Century Conservation Service Corps, other 
            related partnerships with Federal, State, local, Tribal or 
            non-profit groups that serve young adults and veterans.''
                                 ______
                                 
    Prepared Statement of the American Indian Alaska Native Tourism 
                           Association, Inc.
    Thank you Chairman Murkowski and Ranking Member Udall, and Members 
of the subcommittee, for the opportunity to provide written testimony 
on behalf of the American Indian Alaska Native Tourism Association, 
Inc. (AIANTA) on the importance of the Native American Tourism and 
Improving Visitor Experience Act of 2016 (NATIVE Act).
    AIANTA is the only organization specifically dedicated to advancing 
Indian Country tourism across the United States. AIANTA helps Tribes 
develop, sustain and grow tourism destinations through technical 
assistance, training and educational resources. Our mission is to 
define, introduce, grow and sustain American Indian, Alaska Native and 
Native Hawaiian Tourism that honors traditions and values.
                        fiscal year 2020 request
    The American Indian Alaska Native Tourism Association (AIANTA) 
requests a program amount of $5,400,000 for fiscal year 2020 to be 
included in the Bureau of Indian Affairs Community Development Central 
Oversight account to implement the Native American Tourism and 
Improving Visitor Experience Act of 2016 (NATIVE Act), including via 
cooperative agreements with Tribes and Tribal organizations.
    In fiscal year 2018 and again in fiscal year 2019, $3,400,000 was 
appropriated through Committee report language to be used by the Bureau 
of Indian Affairs Community Development Central Oversight account for 
NATIVE Act implementation.
                          native act progress
    The NATIVE Act is designed to ``enhance and integrate Native 
American Tourism, empower Native American communities, increase 
coordination and collaboration between Federal Tourism assets, and 
expand heritage and cultural tourism opportunities in the United 
States.''
    Since its passage and enactment, AIANTA was designated the lead 
Tribal organizational role in implementation of the NATIVE Act through 
a Memorandum of Understanding with the U.S. Department of the Interior 
and the U.S. Department of Commerce signed in September, 2018. The lead 
role is natural to AIANTA because of its mission, which perfectly 
aligns with language of the NATIVE Act, as does the Tribal nonprofit 
organization's goals and ongoing projects and initiatives.
                        fiscal year 2020 funding
    Tribes in tourism, with AIANTA as their facilitator and convener, 
are requesting $5,400,000 in fiscal year 2020 to ensure implementation 
of the NATIVE Act accelerate. The funds will create opportunities for 
Native American, Native Hawaiian and Alaska Native Tribes, Tribal 
tourism programs and Tribal members as outlined in the NATIVE Act 
implementation plan developed by AIANTA and a 5-year cooperative 
agreement between BIA and AIANTA. Implementation efforts using the 
funds will include technical assistance, training, curriculum 
development, professional tourism certification, a state-of-the-art 
Tribal tourism destination website, Tribal product assessment and 
development, training and marketing in domestic and international 
outreach, improved research, data collection and analysis, inclusion in 
Federal agency management planning across the Federal Government and 
Federal tourism and recreation websites.
    In support of the NATIVE Act, AIANTA intends to expand and 
formalize partnerships to include working more closely with the U.S. 
Department of Commerce and its divisions: National Travel and Tourism 
Office, International Trade Administration and Economic Development 
Administration and enter into a cooperative agreement to integrate 
Tribes into the research and development programs offered by Commerce.
    AIANTA will continue to work with the National Endowment for the 
Arts, National Endowment for the Humanities, Institute for Museum and 
Library Science, Administration for Native Americans, and in 
Smithsonian projects to ensure tourism Tribes are well represented in 
all Federal grant programs.
    AIANTA will continue to work with the National Park Service, Bureau 
of Land Management, and U.S. Forest Service to ensure tourism Tribes 
are included in their management plans; collaborate with the U.S. 
Department of Labor on tourism workforce development and the U.S 
Department of Agriculture on Tribal tourism rural development 
opportunities.
    In addition, $2,000,000 of the $5,400,000 is requested for support 
of on-the-ground Tribal tourism planning, studies and projects for 
Tribes and Tribal organizations funded through the BIA Division of 
Energy and Economic Development in partnership with AIANTA and 
educational institutions that specialize and support economic 
development.
    indian country tourism contributes billions to the u.s. economy
    Currently, tourism is a leading opportunity for jobs and economic 
development in Indian Country. In some rural and remote communities, it 
is one of the only viable opportunities for household income. Indian 
Country tourism has a bright future that lies in the more than one 
billion leisure travelers in the world, and the interest of 
international visitors in the American Indian culture and what their 
communities offer--memorable and unique experiences, warm hospitality 
and unusual landscapes.
    According to U.S. Department of Commerce statistics, approximately 
1.9 million overseas visitors traveled to an Indian Country nation or 
destination in 2016 (most recent report). In total, those visitors 
represented approximately $8.5 billion in visitor spending across the 
country for that same year. Furthermore, these visitors are pre-
disposed to spend more time in the U.S. and spend more money. Since 
AIANTA began working on international marketing and outreach, 
visitation to Native American communities from overseas has grown from 
700,000 in 2007 to 1.9 million in 2016, an increase of 180 percent.
    According to the U.S. Department of Commerce, when overseas 
travelers visit Tribal lands, they stay longer in the U.S.--an average 
of 12 additional days. Which means they spend about twice as much money 
as the average overseas traveler while they are here. They visit more 
States and cities, use more rental cars, and take more domestic 
flights. They visit more National Parks, small towns, art galleries and 
museums, fine restaurants, and cultural heritage sites compared to all 
overseas visitors. (Source: U.S. Department of Commerce National Travel 
and Tourism Office Inbound International Visitor Survey)
    With the targeted assistance and support of the NATIVE Act, AIANTA 
believes Tribes can significantly expand domestic and international 
visitors to Indian Country within 5 years. Currently, the only data 
available estimating overseas visitors to Indian Country is collected 
by the U.S. Department of Commerce. Based on this data, there were 1.9 
million overseas visitors to Indian Country in 2017, spending an 
estimated $8.5 billion per year throughout the United States. In the 
next 5 years, overseas visitors to Indian Country are projected to grow 
to 2.2 million and $9.4 billion annually. The increase represents 
approximately 4300 jobs. With additional NATIVE Act funding, more 
domestic visitors and their spending and job creation in Indian Country 
can be tracked.
  success of the native act secured through the aianta/bia partnership
    For a decade, through its cooperative agreement/grant with BIA 
Division of Transportation, AIANTA has nurtured a network of Federal 
agency, university and tourism industry partners and engaged national 
Indian and non-Indian nonprofits to leverage those Federal resources 
into an effective Tribal tourism network. With our partners, AIANTA and 
BIA have accomplished many milestones, including:

  --Delivered Tribal tourism technical assistance, created Tribal 
        tourism curricula and developed a professional certificate-
        training program in cultural tourism and conducted webinar 
        trainings.
  --Established a national Tribal destinations web site, 
        NativeAmerica.Travel, for Tribes to market their destinations 
        directly to the world's travelers.
  --Expanded partnerships to improve data collection and analysis.
  --Developed the first national resource database of Indian Country 
        tourism assets to begin to demonstrate the growth and impact of 
        cultural tourism for Indian Country and the greater U.S.A. 
        economy and is expanding the database to identify proposed 
        development and needs (technical assistance and training, 
        infrastructure, connectivity, marketing, funding and more).
  --Gained national and regional recognition through grants and awards 
        from private and public entities to further create 
        opportunities for Tribes in tourism.
  --Established a presence for Tribes and Tribal businesses in 
        international travel markets-participating in world travel 
        marketplaces in Europe as well as IPW, U.S. Travel 
        Association's leading international inbound travel trade show 
        in the U.S. and venturing into the United Kingdom and Italian 
        markets.
  --Encouraged project partnerships between Tribes and national parks 
        and national public lands, conducted educational sessions in 
        agritourism, organized a Federal land management working group, 
        and discussed next steps in collaboration with the Federal 
        agencies.
      accelerating tribal tourism development through native act 
                             implementation
    Fiscal year 2020 funding will:

  --Improve visitor data collection and analysis. Decision-making, 
        business planning, applying for loans and attracting capital 
        all require data collection and analysis. AIANTA cannot cite 
        the number of.
  --tourism assets or domestic visitation to Indian Country because 
        there is inadequate data. The data collection and analysis 
        provision of the NATIVE Act will improve this deficiency.
  --Support the consultation process that provides for collaboration 
        and cooperation between Federal agencies and Tribes on Tribal 
        tourism priorities.
  --Promote greater awareness to Tribes on Federal programs that can 
        support tourism capacity building and tourism infrastructure.
  --Increase international and domestic awareness of Tribal tourism 
        destinations.
  --Integrate Native American, Alaska and Hawaiian Native culture into 
        the visitor experience on public lands.
  --Increase tourism product and amenity development in Indian Country, 
        promoting a better visitor experience.
  --Create innovative visitor portals between Tribes and parks, 
        landmarks, heritage and cultural sites that showcase the 
        diversity of indigenous people related to Federal lands.
  --Improve access to transportation programs that assist Tribal 
        community capacity building for tourism and trade, including 
        planning for visitor enhancement and safety.

    We are supported in the implementation of the NATIVE Act by the 
U.S. Travel Association, Affiliated Tribes of Northwest Indians, Alaska 
Federation of Natives, All Pueblo Council of Governors, Nevada Inter-
Tribal Council, Intertribal Transportation Association, Sitka Tribes of 
Alaska and many other organizations and Tribes.
                               conclusion
    On behalf of Indian Country, AIANTA thanks Congress for its support 
of Tribal tourism. We look forward to working with this subcommittee, 
the Department of Interior and all Federal agencies included in the 
NATIVE Act mandate to assist tourism Tribes and share the results with 
you and all our Congressional supporters. Increased funding will help 
Tribes initiate programs and create business in Tribal tourism, while 
supporting cultural perpetuation in the arts, language, historic 
preservation, conservation and agriculture.

    [This statement was submitted by Camille L. Ferguson, Executive 
Director.]
                                 ______
                                 
  Prepared Statement of the American Institute of Biological Sciences
    The American Institute of Biological Sciences (AIBS) appreciates 
the opportunity to provide testimony in support of appropriations for 
the United States Geological Survey (USGS), Environmental Protection 
Agency (EPA), United States Fish and Wildlife Service (USFWS), and 
Smithsonian Institution for fiscal year 2020. We encourage Congress to 
provide the USGS with $1.2 billion in fiscal year 2020 and at least 
$234 million for the Ecosystems mission area within USGS. We further 
request that Congress provide EPA Science and Technology with at least 
$760 million, which was equal to the fiscal year 2014 enacted level. We 
also request the restoration of funding for Science Support in USFWS to 
the fiscal year 2019 enacted level of $17.3 million. Lastly, we urge 
Congress to provide new funding to the Smithsonian Institution and at 
least $53 million to support scientific and curatorial work within the 
National Museum of Natural History in fiscal year 2020.
    AIBS is a scientific association dedicated to promoting informed 
decisionmaking that advances biological research and education for the 
benefit of science and society. AIBS works to ensure that the public, 
legislators, funders, and the community of biologists have access to 
information to guide informed decisionmaking.
                         u.s. geological survey
    The USGS provides unbiased, independent research, data, and 
assessments that are needed by public and private sector decision-
makers. Data generated by the USGS save taxpayers money by enabling 
more effective management of water and biological resources and 
providing essential geospatial information that is needed for 
commercial activity and natural resource management. The data collected 
by the USGS are not available from other sources.
    The Ecosystems activity within USGS is integral to the agency's 
other science mission areas. It conducts research required to 
understand the impacts of such things as water use and natural hazards 
on environmental systems. The USGS conducts research on and monitors 
fish, wildlife, and vegetation-data that informs management decisions 
by other Interior bureaus.
    Biological science programs, housed within the Ecosystems program 
area, collect and analyze long-term data not available from other 
sources. Other agencies, universities, and the private sector do not 
gather or maintain these data. The knowledge generated by USGS is used 
by Federal and State natural resource managers to maintain healthy and 
diverse ecosystems while balancing the needs of public use.

    Examples of successful USGS Ecosystem initiatives include:

  --Development of comprehensive geospatial data products that 
        characterize the risk of wildfires on all lands in the United 
        States. These products are used to allocate firefighting 
        resources and to plan wildfire fuel reduction projects. These 
        tools require current and accurate information about plant 
        species distribution, biomass (e.g. amount of energy available 
        for fire), and how different animals within the landscape 
        influence the distribution of this vegetation.
  --Development and evaluation of control measures and other management 
        interventions for Asian carp, sea lamprey, Burmese pythons, and 
        other invasive species that cause billions of dollars in 
        economic losses to fisheries, hydropower, recreation, and many 
        other industries.
  --Development of the scientific understanding needed to combat the 
        spread of avian flu, white-nose syndrome, chronic wasting 
        disease, and other diseases spread by wildlife in North 
        America, including diseases with the capacity to jump from wild 
        populations to livestock, agricultural systems, and humans.

    The President's fiscal year 2020 budget request restructures the 
Ecosystems mission area to include programs formerly under Land 
Resources and Environmental Health mission areas, specifically the 
National and Regional Climate Adaptation Science Centers, significant 
portions of Land Change Science, and Contaminant Biology. The budget 
does not merely reposition these programs, it proposes deep cuts 
(nearly 35 percent) to this important work. These cuts will harm USGS 
scientific research.

    Among the proposed cuts are:

  --Elimination of curation and research on fish, amphibians, reptiles, 
        and mammals that is conducted by the Biological Survey Unit at 
        the Smithsonian Institution. USGS has more than a million 
        specimens of birds, mammals, amphibians, and reptiles that are 
        housed at the Smithsonian for the benefit of the USGS and 
        Department of the Interior. These curatorial and research 
        positions are required to maintain and use these specimens and 
        the data associated with them. This management arrangement has 
        been in place since 1889. Elimination of this program 
        jeopardizes the ability of the USGS to access timely and 
        accurate data required for biodiversity research that informs 
        species management decisions by other State and Federal 
        agencies.
  --Elimination of the Cooperative Research Units (CRUs). CRUs are 
        located on 40 university campuses in 38 States. These research 
        centers are a cost-effective way for USGS to leverage research 
        and technical expertise affiliated with these universities to 
        conduct actionable research, provide technical assistance, and 
        develop scientific workforces through graduate education and 
        mentoring programs.
  --Reduced wildlife and fisheries research. The proposal includes 
        reductions for species-specific research. USGS conducts this 
        research for the benefit of Federal and State stakeholders. 
        Without these research programs, USFWS, the National Park 
        Service, and other Interior bureaus will lack the data required 
        to fulfill agency missions to manage wildlife, as these 
        agencies do not have scientific research capacities. Moreover, 
        the USGS is a non-regulatory agency, which means that its 
        research is independent of the entities responsible for 
        developing and implementing rules and regulations.
  --Reduced research on diseases. USGS is the leading Federal agency 
        conducting research on wildlife and fish diseases. The deep 
        cuts proposed to Toxicological and Pathogenic Diseases would 
        crush the agency's ability to provide other agencies with 
        critical research, information, and technical assistance needed 
        to economically and effectively control and limit disease 
        spread and risk.
  --Reduced research on ecosystems of concern. This research is a 
        critical component of efforts to restore important national 
        resources, such as the Everglades and the Chesapeake Bay. The 
        Arctic ecosystem research and monitoring program addresses the 
        needs of Native communities, and also promotes public health 
        throughout the U.S. by monitoring avian influenza, which can 
        spread to humans.

    The President has also proposed drastic cuts to climate research. 
The National and Regional Climate Adaptation Science Centers (formerly 
regional Climate Science Centers) are responsible for developing the 
science and tools to address the effects of climate change on land, 
water, wildlife, fish, ecosystems, and communities. These centers play 
a vital role in addressing the impacts of unique weather patterns on 
ecosystem health in different areas across the country and are slated 
for a 46 percent budget cut under the new structure. This is 
irresponsible.
    We are pleased that the Invasive Species Program was spared from 
large cuts in the administration's request and we urge Congress to 
reject the deep cuts to other parts of the Ecosystems mission area. We 
understand USGS's efforts to realign programs to improve operational 
efficiency, but the devastating budget cuts proposed will hamper long-
term data collection initiatives, lead to critical data loss, and 
undermine the Nation's ability to address national challenges.
    We request Congress fund USGS at $1.2 billion in fiscal year 2020, 
with at least $234 million for the Ecosystems mission area and restore 
funding for the Biological Survey Unit, CRUs, and ecosystems and 
climate research.
                    environmental protection agency
    Funding for EPA Science and Technology supports valuable research 
used to identify and mitigate environmental problems. EPA research 
informs decisions made by public health and safety managers, natural 
resource managers, businesses, and other stakeholders concerned about 
air and water pollution, human health, and land management and 
restoration. This program provides the scientific basis upon which EPA 
monitoring and enforcement programs are built.
    Despite the important role of EPA Science and Technology research, 
the proposed funding level for fiscal year 2020 is roughly half of what 
the program received in fiscal year 2002 and 35 percent below the 
fiscal year 2019 enacted level. We are concerned to see the proposed 
eliminations of the Science to Achieve Results (STAR) Research Grants 
and the Global Change Research program, which develops scientific 
information that allows policy makers, stakeholders, and society to 
respond to climate change. These programs are important parts of the 
Federal Government's ability to ensure that people have clean air and 
water. The proposal also eliminates the Marine Pollution and National 
Estuary programs which are critical for protecting marine and coastal 
ecosystems.
    Please provide at least $760 million in fiscal year 2020 to support 
scientific research at the EPA.
                     u.s. fish and wildlife service
    The President's budget request once again eliminates the Science 
Support program within USFWS. In fiscal year 2019, Congress allocated 
$17.3 million for the program. This program provides scientific 
information needed by USFWS, such as research on conservation of 
priority species prior to Endangered Species Act listing, the impacts 
of energy production on wildlife, and best management practices for 
combating invasive species, and needs to be restored.
                        smithsonian institution
    The Smithsonian Institution's National Museum of Natural History 
(NMNH) is a valuable Federal partner in the curation and research on 
scientific specimens. The scientific experts at the NMNH care for 140 
million specimens and ensure the strategic growth of this 
internationally recognized scientific research institution. To increase 
the availability of these scientific resources to researchers, 
educators, other Federal agencies, and the public, NMNH is working on a 
multi-year effort to digitize its collections. That effort will 
substantially increase the scientific uses of these collections.
    NMNH has also been working to strengthen curatorial and research 
staffing and to backfill positions left open by retirements and budget 
constraints. The current staffing level is insufficient to provide 
optimal care for the collections. Future curatorial and collections 
management staffing levels may be further jeopardized given the 
proposed funding cuts at science agencies, such as the USGS, that 
support staff positions at NMNH.
    The budget for NMNH has remained flat over the past 2 years. We 
urge Congress to provide NMNH with at least $53 million in fiscal year 
2020 to allow the museum to undertake critical collections care, make 
needed technology upgrades, and conduct cutting edge research.
                               conclusion
    We urge Congress to reject the administration's budget request for 
fiscal year 2020 and continue the bipartisan tradition of investing in 
our Nation's scientific capacity. Thank you for your thoughtful 
consideration of this request.

    [This statement was submitted by Jyotsna Pandey, Ph.D., Public 
Policy Manager, and Robert Gropp, Ph.D., Executive Director.]
                                 <greek-l>
                                 ______
                                 
        Prepared Statement of the American Samoa Government deg.
   Letter From the Office of the Governor, American Samoa Government


 
 
 
April 1, 2019
 
Senator Richard Shelby, Chairman     Senator Patrick Leahy, Vice
Committee on Appropriations           Chairman
United States Capitol, S-128         Committee on Appropriations
Washington, DC 20510                 United States Capitol, S-146A
                                     Washington, DC 20510
 
Senator Lisa Murkowski, Chairwoman   Senator Tom Udall, Ranking Member
Subcommittee on Interior Appropria-  Subcommittee on Interior Appropria-
  tions                                tions
131 Dirksen Senate Office Building   125 Hart Senate Office Building
Washington, DC 20510                 Washington, DC 20510
 


    Dear Chairman Shelby, Vice Chairman Leahy, Chairwoman Murkowski and 
Ranking Member Udall:

    I am writing with regard to the fiscal year 2020 Interior, 
Environment and Related Agencies appropriations bill. As you craft your 
bill, I would respectfully request that you provide at least the level 
of funding you provided in fiscal year 2019 for American Samoa 
Operations Grants within the Territorial Assistance program.
    In the best of times American Samoa faces serious financial 
challenges. Unlike other American territories, American Samoa does not 
enjoy the economic benefits of a robust tourism industry or the 
presence of a military installation. We have one significant private 
sector employer and our remote location makes it more expensive to do 
business from American Samoa than from other islands in the region or 
from Asia, placing us at a competitive disadvantage as we seek to 
attract more businesses.
    Our fragile economic position has been further challenged since we 
were victimized by Cyclone Gita in February 2018. Gita devastated our 
agricultural sector and caused widespread damage across the territory, 
something the Committee recognized in its Fiscal Year 2019 Interior 
Appropriations Report:

        ``American Samoa.--The Committee is concerned about the 
        longterm impact of Cyclone Gita on American Samoa, particularly 
        as it relates to impending increase in the minimum wage and how 
        that will impact American Samoa's economy and its ability to 
        recover.''

    I would be remiss if I did not take this opportunity to thank the 
Committee for including $5 million in supplemental nutrition assistance 
for American Samoa in the pending Fiscal Year 2019 Disaster 
Supplemental bill. Our hope is that this number will be increased to a 
total of $18 million so that the final amount will provide adequate 
assistance to our 2,600 farmers who lost an entire growing season, 
depriving them of not only their livelihood for the year but also the 
food with which these subsistence/backyard farmers feed themselves and 
their 13,000 dependents.
    It is in this overall context that I ask for your assistance with 
regard to the American Samoa Operations Grants program. As you well 
know the President's budget for fiscal year 2020 proposes funding of 
$21,529,000, a reduction of more than 9 percent from the $23,720,000 
included in the fiscal year 2019 Consolidated Appropriations Act. While 
the difference in those amounts, $2,191,000, is no more than a rounding 
error in a $4 trillion Federal budget, it makes a very significant 
difference to our government's ability to provide essential services to 
our 60,000 citizens given our economic circumstances.
    Your thoughtful consideration of this request would be greatly 
appreciated.

Sincerely,

Lolo M. Moliga,
Governor of American Samoa

cc:  Honorable David Bernhardt, Acting Secretary of the Department of 
the Interior
  Honorable Douglas Domenech, Assistant Secretary, Office of Insular & 
International Affairs
  Honorable Lemanu Peleti Mauga, Lieutenant Governor
                                 ______
                                 
     Prepared Statement of the American Shore & Beach Preservation 
                              Association

                                                     April 11, 2019

 
 
 
The Honorable Lisa Murkowski
Chairwoman
Interior & Environment, Senate
 Appropriations Committee
U.S. Senate
Washington, DC 20510
                                            The Honorable Betty McCollum
The Honorable Tom Udall                     Chairwoman
Ranking Member                              Interior & Environment,
Interior & Environment, Senate               House Appropriations
 Appropriations Committee                    Committee
U.S. Senate                                 U.S. House of
Washington, DC 20510                         Representatives
                                            Washington, DC 20515
 
 


Dear Chairwomen Murkowski and McCollum and Ranking Members Udall and 
Joyce:

    Since 1926, the American Shore & Beach Preservation Association 
(ASBPA), a 501(c)3 non-profit, has been dedicated to preserving, 
protecting and enhancing our coasts by merging science and public 
policy. Our members are industry, local government officials, academics 
and residents of coastal districts; we are advocates for healthy 
coastlines.
    Testimony for Senate Interior, Environment and related agencies 
Appropriations subcommittee for fiscal year 2020, for the U.S. 
Geological Survey and Bureau of Ocean Energy Management.
1.  Provide $46 million for the U.S. Geological Survey (USGS) Coastal-
        Marine Hazards and Resources Program (CMHRP)
    Coastal shoreline counties contribute $6.9 trillion to our GDP \1\. 
Coastal habitats including beaches, wetlands, mangroves and estuarine 
systems are some of the most ecologically productive and economically 
important on earth.\2\ But perhaps most importantly to communities that 
live along a coast, a healthy coastline provides protection of life and 
property from the hazards of living by the water--storm surge, waves, 
and sea level rise. With this in mind, we ask you to increase funding 
for USGS CMHRP beyond the administration's request.
---------------------------------------------------------------------------
    \1\ NOAA, State of the Coast, 2012. http://
stateofthecoast.noaa.gov/.
    \2\ Barbier, Et al, ``The value of estuarine and coastal ecosystem 
services'', Ecological Monographs, 2011. http://www.esajournals.org/
doi/pdf/10.1890/10-1510.1.
---------------------------------------------------------------------------
    The research done by USGS CMHRP is critical for helping make 
coastal communities more resilient to extreme weather and less reliant 
on Federal recovery funds. Working with its partners, the CMHRP 
delivers actionable assessments of coastal hazards and helps to develop 
effective strategies for achieving more-resilient communities. For 
example, CMHRP plans to develop improved methodologies to measuring 
shoreline change data that covers not only sandy, but also coral and 
wetland shorelines. Leveraging this data and through enhancement of 
existing models, the CMHRP will be able to extend forecasts and 
projections of shoreline position to span time scales from single 
storms to the end of the current century. Federal, State, Tribal, 
local, and private-sector end-users incorporate these analyses to 
better understand, anticipate, and reduce their risks through science-
based decisionmaking. Increased funding for the CMHRP will allow for 
improved real-time and long-term storm forecasts, as well as data 
characterizing protective dunes and beaches.
    ASBPA also strongly supports USGS's agency-wide efforts to provide 
critical tools and data to support coastal research and therefore 
improved coastal decisionmaking. Whether by tracking hydrologic 
contaminants, deploying tools to improve flood mapping or providing 
coastal LIDAR and imagery data-sets, USGS provides critical information 
to the entire coastal scientific community. These programs should be 
supported and funded to help improve the United States' ability to plan 
and prepare for coastal hazards.
2.  Increase funding to the Bureau of Ocean Energy Management (BOEM) 
        Marine Minerals Program (MMP) for environmental studies and to 
        support:
          a. Conveyance of Sand Resources
          b. National Offshore Sand Inventory
          c.  Marine Mineral Information System

    As a means of improving their resilience to coastal hazards, 
communities are increasingly looking towards marine sediment for 
nature-based protection. The BOEM Marine Minerals Program (MMP) 
facilitates access to non-energy marine minerals, particularly sand and 
gravel, for shore protection and coastal restoration projects. The 
National Offshore Sand Inventory and the Marine Mineral Information 
System are excellent resources for managers to understand available 
resources while facilitating the sustainable and efficient management 
of our offshore marine minerals. As communities continue to increase 
their resilience and assess their adaptation options, BOEM MMP will be 
a critical piece to their success.
    Additionally, funding for environmental studies in the MMP will 
support the scientific research and long-term monitoring of these 
resources that will help reduce the impacts of these activities. For 
example, in fiscal year 2018, BOEM worked cooperatively with the Civil 
Works and Regulatory Programs of the U.S. Army Corps of Engineers to 
prepare several environmental documents and conduct independent reviews 
evaluating the potential impacts from beach nourishment and coastal 
restoration projects, including the dredging of Outer Continental Shelf 
(OCS) sand and its placement on recipient beaches. These efforts are 
vital to ensuring that the potential impacts of OCS activities on the 
environment are understood and that appropriate protective measures are 
applied.
    ASBPA also supports BOEM's proposed creation of a specific Marine 
Minerals budget activity line in fiscal year 2020.
3.  Increase funding to U.S. Fish & Wildlife Service (USFWS) to address 
        permitting needs and reduce the consultation backlog
    Consultation with resource agencies helps identify effective 
mitigation practices to avoid or minimize harm to protected or managed 
species and habitat. Considering the backlog in consultation provided 
by the USFWS and the increase in coastal restoration and shore 
protection projects, ASBPA encourages an increase in funding to USFWS 
permitting resources to address these needs while still maintaining 
thorough and necessary permitting review.

Sincerely,
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Derek Brockbank
Executive Director

cc:  Sens. Richard Shelby, Pat Leahy; Reps. Nita Lowey, Kay Granger; 
Chairs & Ranking Members, Appropriations Committee
                                 ______
                                 
   Prepared Statement of the American Society for the Prevention of 
                           Cruelty to Animals
    On behalf of our over 2 million supporters, the American Society 
for the Prevention of Cruelty to Animals (ASPCA) appreciates this 
opportunity to submit testimony to the House Appropriations 
Subcommittee on Interior, Environment and Related Agencies. Founded in 
1866, the ASPCA is the first humane organization established in the 
Americas and serves as the Nation's leading voice for animal welfare. 
We request that the subcommittee consider the following concerns when 
making fiscal year 2020 appropriations.
                        wild horses and the blm
    In the over 45 years since Congress charged the Bureau of Land 
Management (BLM) with protecting our country's wild horses and burros, 
Americans have witnessed the agency's Wild Horse and Burro Program 
deteriorate into a continuous cycle of costly roundups and removals 
with little regard for the preservation-focused mandate specified in 
the Wild Free-Roaming Horses and Burros Act or on-range management of 
the herds. Our wild horses and burros should be revered as historical 
icons, treated humanely, and managed fairly and respectfully on our 
public lands. Recognizing that the BLM's Wild Horse and Burro Program 
is in dire need of an overhaul, the ASPCA has partnered with a diverse 
group of stakeholders to propose a non-lethal, humane, and long-term 
approach to on-range management that would implement a sweeping 
fertility control program on the range and eventually release the BLM 
from a continuous cycle of round-ups, removals, and holdings. We 
appreciate BLM's acknowledgement of the need for reform in the Wild 
Horse and Burro Program and are encouraged by their recognition of the 
need for long-term strategies for on-range management that will require 
substantial investment of resources. This approach will, within a few 
years, provide significant relief for the range and enable all the 
stakeholders to come together around a single solution. It is critical 
for the agency to commit to non-lethal management rather than pressing 
to relax legal restrictions on sale to slaughter or mass killing of 
healthy horses. It is also critical for the agency to augment its 
capacity for gathers and focus its attention on the high priority HMAs 
where horses, wildlife and the range are most at risk. It is imperative 
that robust fertility control work begin immediately.
Prohibit BLM Funding for Euthanasia or Sale of Wild Horses as 
        Management Methods
    In December 2004, Congress passed the Consolidated Appropriations 
Act for fiscal year 2005, which amended the Wild Free-Roaming Horses 
and Burros Act to allow for the sale of certain wild horses and burros. 
This instant transfer of title from the U.S. Government to the 
individual purchaser strips key protections for wild mustangs and 
burros, making them vulnerable to the still-thriving horse slaughter 
industry. Additionally, we take issue with the characterization of 
large-scale killing of healthy wild horses as ``euthanasia.'' The 
agency currently has the authority to euthanize old, sick or injured 
horses, but not healthy horses, as a means of population control. If 
allowed, destruction of healthy horses would most likely be 
accomplished using gunshot from some distance. That is not humane 
euthanasia.
    In past appropriations bills, Congress has repeatedly confirmed its 
opposition to the slaughter of our Nation's wild horses and burros; it 
did so most recently in the fiscal year 2019 Consolidated 
Appropriations Act, the current funding vehicle for the Department of 
Interior. The ASPCA requests that the subcommittee continue to include 
the following language: ``Appropriations herein made shall not be 
available for the destruction of healthy, unadopted, wild horses and 
burros in the care of the Bureau or its contractors or for the sale of 
wild horses and burros that results in their destruction for processing 
into commercial products.''
Prohibit Forest Service Funding for Euthanasia or Sale of Wild Horses 
        as Management Methods
    Past appropriations bills have not explicitly prohibited the Forest 
Service, which also manages wild horses and burros under the 1971 Act, 
from managing horses through lethal methods. This loophole was recently 
exploited when managers of the Modoc National Forest proposed selling 
wild horses from the Devil's Garden herd without limits on slaughter. 
The House Interior subcommittee has included new language to address 
this deficiency in their draft fiscal year 2020 bill. The ASPCA 
requests that the subcommittee include the following language in the 
Senate bill: ``Funds appropriated to the Forest Service shall not be 
available for the destruction of healthy, unadopted, wild horses and 
burros in the care of the Forest Service or its contractors or for the 
sale of wild horses and burros that results in their destruction for 
processing into commercial products.''
implement Existing, and Explore New, Methods for On-Range and Off-Range 
        Management
    The Wild Free-Roaming Horses and Burros Act makes clear that on-
range management should be preferred over roundup and removal as the 
primary method of wild horse management. BLM has multiple options at 
its disposal to follow that guidance. Effective, humane management will 
require a multifaceted approach. We suggest that the following 
strategies be implemented simultaneously:

  --Conduct targeted gathers and removals at densely populated Herd 
        Management Areas (HMAs) to reduce herd size in the short term.
  --Treat gathered horses with fertility control prior to returning 
        them to the range. This program should continue until 80-90 
        percent of mares on the range have been treated, followed by 
        continued consistent fertility control.
  --Relocate horses in holding facilities, and those taken off the 
        range, to large cost-effective pasture facilities funded 
        through public-private partnerships.
  --Promote adoptions in order to reduce captive populations and costs.

    The four tiers of this approach--gathers and removals, fertility 
treatment, public-private partnerships, and adoptions--are crucial to 
the ultimate success of the program. Failure to effectively implement 
any part of this program jeopardizes the success of a holistic and 
sustainable wild horse and burro program. If employed correctly, this 
plan will result in a natural population decline over the next decade. 
We support this humane, effective, and financially sustainable 
approach.
    The ASPCA appreciates BLM's public acknowledgement that fertility 
control methods must be a significant part of wild horse population 
management. Porcine Zona Pellucida (PZP), the contraceptive vaccine 
that has been used for decades to manage horse and deer populations, is 
registered by EPA and commercially available. In fiscal year 2018, the 
BLM administered 702 fertility control treatments.\1\ If PZP is to be a 
serious part of the solution, its use must be increased to levels that 
will significantly impact population growth. A 2013 National Academy of 
Sciences report noted the promising capabilities of this and other 
forms of chemical fertility control.\2\ The ASPCA recommends that the 
subcommittee direct BLM to prioritize the use of fertility control to 
stem the population growth of wild horse and burro herds.
---------------------------------------------------------------------------
    \1\ ``Program Data.'' U.S. Department of the Interior, Bureau of 
Land Management. April 27, 2018. https://www.blm.gov/programs/wild-
horse-and-burro/about-the-program/program-data.
    \2\ ``Using Science to Improve the BLM Wild Horse and Burro 
Program: A Way Forward.'' National Research Council. The National 
Academies Press, 2013.
---------------------------------------------------------------------------
    The ASPCA strongly encourages the subcommittee to prioritize and 
robustly fund humane on-range management methods, and innovative and 
humane off-range programs, as it crafts the fiscal year 2020 Interior 
appropriations bill.

    [This statement was submitted by Nancy Perry, Senior Vice 
President, Government Relations.]
                                 ______
                                 
            Prepared Statement of the Americans for the Arts
    Chairman Murkowski, Ranking Member Udall, and Members of the 
subcommittee, thank you for the opportunity to submit written testimony 
in support of Federal funding for the National Endowment for the Arts 
(NEA) at no less than $167.5 million for fiscal year 2020, a $12.5 
million increase over fiscal year 2019 funding. This would also match 
the funding level that the U.S. House Appropriations Interior 
Subcommittee approved on May 15, 2019.
    Americans for the Arts is the leading nonprofit organization for 
advancing the arts and arts education in America. We have more than 55 
years of service and are dedicated to representing and serving the more 
than 5,000 local arts agencies in every State. Together we work to 
ensure that every American has access to the transformative power of 
the arts. I appreciate the opportunity to provide public comment on the 
budget request for the NEA.
    I was deeply troubled by the administration's short-sightedness for 
the proposed fiscal year 2018, 2019, and 2020 budgets calling for the 
elimination of the NEA. I commend the bipartisan work from this 
committee, and Congress, in rejecting those requests, and I know that I 
speak for the arts community in our appreciation to Congress in 
appropriating an additional $2 million in funds for the NEA in fiscal 
year 2019 over fiscal year 2018.
    Receiving consecutive years of incremental funding increases, the 
NEA's investment in every congressional district in the country now 
contributes to a $804.2 billion arts and culture industry in America 
according to our U.S. Department of Commerce, representing 4.3 percent 
of the annual GDP. The Nation's arts and culture industry supports 5 
million jobs and yields a $25 billion trade surplus for our country.\1\
---------------------------------------------------------------------------
    \1\ U.S. Bureau of Economic Analysis, https://www.bea.gov/system/
files/2019-03/acpsa0319.pdf
---------------------------------------------------------------------------
    This recent study by the U.S. Bureau of Economic Analysis also 
found that 13 States had an average annual growth rate above the 
national average of 5.9 percent, as measured over the three-year period 
of 2014-2016. These States were the fastest-growing for the percentage 
of their gross State product coming from arts and cultural industries 
and include: California (7.8 percent), Tennessee (7.8 percent), Florida 
(7.1 percent), Montana (6.6 percent), and Oregon (6.5 percent).
    Further, every NEA grant dollar leverages at least $9 in private 
and other public funds, generating more than $500 million in matching 
support. This leveraging power far surpasses the required non-Federal 
match of at least 1:1 and illustrates why Federal support for the arts 
is uniquely valuable. The Federal investment in the arts helps power 
the creative economy across the country.
    Proportionally, the NEA's budget is just 0.004 percent of the 
Federal budget. That amounts to 47 cents per capita. In fact, the NEA 
budget has been losing its share of Federal discretionary spending and 
failing to keep pace with inflation since 1992 when the appropriation 
was for $176 million. When adjusted for inflation, the NEA's 1992 
budget would today be more than twice the current budget.\2\
---------------------------------------------------------------------------
    \2\ Americans for the Arts, https://www.americansforthearts.org/
sites/default/files/1.%20National%20Endowment%20for%20the%20Arts_0.pdf
---------------------------------------------------------------------------
    Regarding our request for fiscal year 2020, we hope that the NEA 
will receive funding at the same level as the recent high point of 
$167.5 million, which Congress appropriated on a bipartisan basis in 
fiscal year 2010.
    We estimate that a $12.5 million increase, based on current NEA 
programming would provide:

  --An increase in the total amount for direct endowment grants by 
        about $6 million.
  --An increase in the total number of direct grants by about 210.
  --An increase of $4 million to the NEA's State partnership agreement, 
        which would result in about 2,000 additional State grants.
  --With the NEA estimation of a 9:1 return for each direct grant 
        dollar, an 8 percent funding level increase would be expected 
        to leverage an additional $40 million in non-Federal matching 
        support.

    NEA grants are remarkably far-reaching, and they touch many 
communities which have fewer opportunities to experience the arts. 
According to the NEA, the majority of direct grants go to small- and 
medium-sized organizations, which often support projects for audiences 
that otherwise might not have access to arts programming. In fiscal 
year 2017:

  --Small-sized organizations (less than $500,000 in prior year 
        expenditures) received 31 percent of the NEA's direct grants;
  --Medium-sized organizations ($500,000 to $2 million in prior year 
        expenditures) received about 34 percent; and
  --Large organizations (over $2 million) received 35 percent of direct 
        grant awards.

    In examining the communities that NEA grants touch, it is important 
to note that:

  --40 percent of NEA-supported activities take place in high-poverty 
        neighborhoods;
  --36 percent of NEA grants go to organizations that reach underserved 
        populations such as people with disabilities, people in 
        institutions, and veterans; and
  --33 percent of NEA grants serve low-income audiences.\3\
---------------------------------------------------------------------------
    \3\ National Endowment for the Arts, https://www.arts.gov/sites/
default/files/NEA_Quick_Facts_2018_V.1.pdf.

    I'd like to highlight one very important NEA initiative--that of 
the Creative Forces program. An increase in funding for the NEA is 
vital in order to sustain and expand important work that serves the 
needs of military service members and veterans who have been diagnosed 
with traumatic brain injury (TBI) and psychological health conditions. 
Much of this work is being supported through targeted programs such as 
the NEA's Creative Forces Military Healing Arts Network (administered 
through a cooperative agreement with Americans for the Arts), as well 
as community arts engagement programs receiving Federal grants and 
State and local arts agencies. The modest investment in government 
funding for arts and health in the military is instrumental in allowing 
military service members and veterans to heal and successfully 
reintegrate into society and their communities, as well as supporting 
military families and caregivers in their pathway to health and well-
being.
    The Creative Forces program--currently at 11 clinical sites--
utilizes 14 NEA-funded and four DoD/VA-funded creative arts therapists 
(CATs), who are integrated into interdisciplinary treatment teams 
providing art therapy, music therapy, dance/movement therapy, and 
creative writing instruction for service members with TBI and 
associated psychological health issues. In 2018, more than 16,000 
patient encounters took place, and over 3,000 new patients were served. 
Additionally, the program significantly invests in related research, 
with 11 new studies underway and nine already published.
    Throughout the country, we see an increase of arts and military 
programs funded by State and local public and private sources catalyzed 
by the Federal investment. Many of the creative arts therapies and 
community arts engagement programs that are making a difference in the 
lives of our military service members, veterans, their families, and 
caregivers are being documented and networked through Americans for the 
Arts' National Initiative for Arts & Health in the Military. Several 
examples here are administered and take place in your districts:

  --The Montana Museum of Arts & Culture at the University of Montana 
        in Missoula, Montana, features an exhibit of the POW collection 
        of art by veteran and artist Ben Steele. Mr. Steele, 98, who 
        lives in Billings, is a World War II veteran and Bataan Death 
        March survivor. As a prisoner he created drawings documenting 
        the Japanese invasion of the Philippines and the capture of 
        POWs. These artworks are among the very few firsthand accounts 
        of the Bataan Death March.
  --Thalia Mara Hall in Jackson, Mississippi, with the Sonny Montgomery 
        VA Center hosted the 2016 National Creative Arts Festival Stage 
        Show. Each year approximately 120 Veterans from VA medical 
        facilities across the Nation exhibit their artwork or perform 
        musical, dance, drama, or original writing selections that are 
        chose from year-long competitions held at their local 
        facilities.
  --Military Experience & the Arts in Morgantown, West Virginia, works 
        with veterans and their families to publish creative prose, 
        poetry, and artwork. Volunteers include college professors, 
        professional authors, veterans' advocates, and clinicians. 
        Veterans and their families pay nothing for the services.
  --The Spiva Center for the Arts in Joplin, Missouri, is designated 
        nationally as a Blue Star Museum, a collaboration between the 
        NEA, Blue Star Families, the Department of Defense, and Museums 
        Across America. Spiva Center for the Arts' Vet Art program was 
        established in early 2017 to serve military veterans in the 
        Joplin region. Vet Art offers free art workshops to veterans 
        and their families providing camaraderie, reintegration into 
        their communities, and an outlet for self-expression.

    Continuing and expanding creative arts therapies and community arts 
engagement programs is essential to reaching military veterans with TBI 
and post-traumatic stress. For example, 85 percent of military patients 
say art therapy is helpful to their healing and military patients 
consistently rate art therapy among the top four treatments out of more 
than 40 health interventions offered.
    This work is vital for active duty military, staff, veterans, their 
families, and caregivers across the military, public, private, and 
nonprofit sectors. It will advance the policy, practice, and quality 
use of arts and creativity as tools for health in the military, better 
ensuring the readiness, resilience, and retention, while assisting the 
eventual reintegration from military to civilian life.
    In sum, Federal funding fosters investment, spurs job-related 
growth, expands educational opportunities, helps our country, and 
provides for the preservation of our heritage.
    Thank you for your consideration and support of at least $167.5 
million for the NEA in the fiscal year 2020 budget, and, as always, we 
stand ready to assist and remain focused on increasing funding for the 
Endowments in the coming months.
                                 ______
                                 
           Prepared Statement of the Animal Welfare Institute
    The Animal Welfare Institute, a national animal welfare advocacy 
nonprofit organization, asks the subcommittee to maintain adequate 
funding levels for crucial wildlife programs and to include measures to 
protect wild horses, bats, and other at-risk species.
  bureau of land management (blm)--wild free-roaming horses and burros
    The BLM continues to mismanage America's wild horses and burros, 
relying on an endless cycle of costly removals from public lands 
instead of implementing viable solutions, such as immunocontraception 
to control fertility rates and manage these animals in their natural 
habitats. We ask the Committee to urge the agency to implement the use 
of the porcine zona pellucida (PZP) vaccine, as per the National 
Academy of Sciences recommendation. Moreover, we strongly support the 
continued inclusion of the Committee's language to ensure that the BLM 
does not destroy wild horses and burros: ``Appropriations herein made 
shall not be available for the destruction of healthy, unadopted, wild 
horses and burros in the case of the Bureau or its contractors or for 
the sale of wild horses and burros that results in their destruction 
for processing into commercial products.''
    The BLM is attempting for the third time to move forward with a 
controversial experiment using federally protected horses that would 
subject wild mares to an invasive surgical procedure known as 
``ovariectomy via colpotomy,'' which involves blindly locating the 
ovaries and severing them using a rod-like tool while the animal 
remains conscious. In its report on wild horse management, the NAS 
explicitly warned BLM against using this procedure due to the risks of 
serious complications. We ask the Committee to include language 
ensuring that funds shall not be made available to implement the 
``ovariectomy via colpotomy'' experiments, as well as report language 
directing the BLM to forgo using wild horse and burro management 
methods that the NAS has recommended against using.
          forest service--wild free-roaming horses and burros
    In the fall of 2018, the Forest Service announced that it would 
sell rounded-up wild horses from the Devil's Garden wild horse 
territory without restrictions or limitations on slaughter. The FS has 
traditionally abided by Congress's clear intent on this matter--namely, 
the explicit restrictions enacted through the Interior appropriations 
bill to prevent the BLM from selling wild horses for slaughter. 
However, the FS now contends that the agency is not covered by this 
language, and seeks to move forward with plans to sell federally 
protected wild horses ``without limitation.'' Appropriations language 
is needed to clarify that the FS is similarly bound by restrictions 
regarding the commercial destruction of wild horses. We urge the 
Committee to incorporate language that mirrors the provisions that bar 
the BLM from facilitating the destruction of healthy, unadopted wild 
horses and burros. The recently released fiscal year 2020 House 
Interior bill includes such language, so we urge the Senate to do the 
same.
                             trophy hunting
    We urge you to include language prohibiting the use of funds for:

  --Issuing any permit authorizing import into or export from the 
        United States of a sport-hunted species that is listed or 
        proposed to be listed under section 4(c) as a threatened 
        species or endangered species.
  --Issuing any permit authorizing import from any country of a sport-
        hunted threatened or endangered species until the Secretary 
        determines that the country where the animal was killed 
        adequately provides for the conservation, monitoring, and 
        reporting for that species, including but not limited to:
      (A)  the country where the animal was killed has a management 
            plan for that species based on the best available science 
            that addresses existing threats to the species; provides a 
            significant conservation benefit to the species; formally 
            coordinates with adjacent countries to protect 
            transboundary populations; and ensures that any take is 
            sustainable and does not contribute to the species' decline 
            in either the short-term or long-term according to current 
            population estimates derived through use of the best 
            available science;
      (B)  the management plan required in subsection (3)(A) is fully 
            funded and is being actively implemented; and
      (C)  the country where the animal was killed demonstrates 
            transparency, accountability, and verifiability in 
            governance to ensure that any benefits, including revenue 
            from such taking, materially, directly, and substantially 
            benefits the conservation of that species.
  --Issuing any permit authorizing import from any country of a sport-
        hunted threatened or endangered species until the Secretary has 
        made a finding, after public notice and comment pursuant to 
        section 553 of title 5 USC, that hunting of the species in such 
        country enhances the propagation or survival of the species.
  --Issuing any permit authorizing import of a sport-hunted trophy of 
        an elephant or lion taken in Tanzania, Zimbabwe, or Zambia.

    In 2014 the U.S. Fish and Wildlife Service (FWS) issued a rule 
banning the importation of African elephant trophies from Tanzania and 
Zimbabwe into the United States. A 2016 decision by the U.S. District 
Court of the District of Columbia upheld FWS's 2014 ban, finding that 
sport hunting of elephants in Zimbabwe would not enhance the survival 
of the species. In addition, the FWS suspended imports of sport-hunted 
African lions after they were listed under the Endangered Species Act 
in 2015. However, since October 2017, FWS has tried to reverse the bans 
on importing both African elephant and lion trophies. In March 2018, in 
apparent disregard for President Trump's negative comments regarding 
trophy hunting, the agency issued a memo announcing that decisions 
about whether to approve importation of sport-hunted elephant and lion 
trophies would be made on a ``case-by-case basis,'' rather than having 
rules that apply to specific species and countries of origin.
              international wildlife conservation council
    We urge you to include language prohibiting the use of funds for 
the International Wildlife Conservation Council of the United States 
Fish and Wildlife Service.
    The stated goal of the International Wildlife Conservation Council 
is to boost public awareness of the ``benefits that result from U.S. 
citizens traveling to foreign nations to engage in hunting.'' However, 
trophy hunting is unethical, unpopular, and of unproven conservation 
value. Furthermore, the IWCC is duplicative of other councils and a 
wasteful use of government funding. The Federal Advisory Committee Act 
requires that ``new advisory committees should be established only when 
they are determined to be essential and their number should be kept to 
the minimum necessary.'' This council is not essential, and its 
function is already covered by the very broad mandate of the Wildlife 
and Hunting Heritage Conservation Council. Despite its nonessential 
function, this 18-person council meets twice per year with ``travel 
expenses, including per diem,'' covered by US taxpayer dollars. The 
makeup of this new council is also of significant concern, with 
designated seats for representatives of the firearms and ammunition 
industries, who have no scientific or conservation expertise. There is 
no seat at the table for experts with a scientific or conservation 
focus. Furthermore, the Trump administration has already abandoned 
other, more legitimate and effective efforts to address these issues. 
For instance, the administration has not held a meeting of the Wildlife 
Trafficking Advisory Council or the Federal Interagency Task Force on 
Wildlife Trafficking created by President Obama.
            trapping-funding request: $300,000 over 3 years
    We urge you to direct the Secretary to institute a 3-year pilot 
program that replaces the use of body-gripping traps by agency 
personnel with humane alternative methods and equipment with only 2 
exceptions: When the body-gripping trap is used either to (1) control 
documented, invasive species to achieve resource management objectives 
where humane alternative methods are documented to have been 
ineffective; or (2) protect a species that is listed as an endangered 
or threatened under the Endangered Species Act of 1973 (16 U.S.C. 1531 
et seq.) or is treated by the Forest Service as a sensitive species and 
where humane alternative methods are documented to have been 
ineffective. The exceptions apply only under the following conditions: 
(1) such use of a body-gripping trap is in accordance with applicable 
State and Federal law; (2) prior to using a body-gripping trap, all 
available humane alternative methods for such control or protection, 
respectively, are attempted; and (3) such attempts are documented in 
writing, and such documentation is maintained at the headquarters of 
the department that employs the individual engaging in such attempt, 
and is published on the department's website.
    Body-gripping traps, such as strangling snares, Conibear traps, 
steel-jaw leghold traps, and enclosed foothold traps, are inhumane and 
inherently nonselective. The nontarget animals caught in these traps 
include threatened and endangered species, as well as family pets. 
These traps do not belong on public lands where families enjoy spending 
time outdoors, and where anyone who trips a trap can become a victim.
      u.s. fish and wildlife service: ecological services funding
    We are deeply concerned by a lack of adequate funding for 
Ecological Services, and urge the Committee to commit the maximum 
possible funding to this crucial program area responsible for 
implementing the Endangered Species Act. The fiscal year 2019 funding 
level of $247.8 million is barely sufficient for the agency to carry 
out basic administrative functions required under the ESA, and does not 
enable the staffing necessary to address the backlog of hundreds of 
species awaiting listing decisions or other time-sensitive actions 
mandated by the law. ES requires a budget of at least $486 million 
across its five programs to begin to make up for lost ground and put 
species on the path to recovery. Critically, this includes ensuring 
every listed species receives a minimum of $50,000 per year for 
recovery.
                national wildlife refuge system funding
    We support the administration's proposed fiscal year 2020 increase 
of $23 million for the National Wildlife Refuge System, given the 
crucial role that refuges across the country play in species 
conservation and nonconsumptive outdoor recreation.
                usfws: office of law enforcement funding
    We support the administration's proposed fiscal year 2020 increase 
of $327,000 for the Office of Law Enforcement at FWS. In particular, we 
support the increase of $986,000 for the wildlife trafficking account. 
The OLE is one of the most important lines of defense for wildlife both 
at home and abroad.
                  usfws: international affairs funding
    We support the administration's proposed fiscal year 2020 increase 
of $807,000 for International Affairs. In particular, we support the 
additional $1 million for the wildlife trafficking account. The 
activities undertaken by IA build capacity and develop partnerships 
with other nations for species conservation, which enables maximum 
cooperation in fighting the terrorist organizations and international 
crime syndicates that profit from wildlife trafficking. It is important 
to ensure adequate funding to continue implementing Public Law 114-231, 
the Eliminate, Neutralize, and Disrupt (END) Wildlife Trafficking Act 
of 2016. Additionally, adequate funding for implementation of 
agreements made under the Convention on International Trade in 
Endangered Species of Wild Fauna and Flora (CITES) facilitates 
international cooperation and solidifies the US's leadership role on 
conservation issues.
                      white-nose syndrome in bats
    We urge the Committee to maintain funding amounts and directives 
from S. Rpt. 115-276, as endorsed by the fiscal year 2019 Consolidated 
Appropriations Act, H. Rpt. 116-9: Fish and Wildlife Service Science 
Support, $3.5 million (including $2 million for species recovery); FWS 
Wildlife Program, $2.5 million for WNS studies; and to continue to lead 
on and implement the North American Bat Monitoring Program.
    Thanks to consistent funding from Congress, the USFWS and its 
partners have made great strides in understanding and responding to 
WNS. The success of the national plan is heartening not only for the 
long term survival of bats but also for being a template for responding 
to future disease outbreaks. According to USFWS scientist Jeremy 
Coleman, who oversees the plan, ``the multidisciplinary efforts 
spearheaded by USFWS represent the kinds of strategy needed for future 
responses to such epidemics. WNS and other fungal pathogens-diseases-
that harm wildlife are on the rise, due to increased human visits to 
previously remote places . . . and also climate change . . . ''

    [This statement was submitted by Nancy Blaney, Director, Government 
Affairs.]
                                 ______
                                 
   Prepared Statement of the Asian and Pacific Islander Americans in 
   Historic Preservation, Hispanic Access Foundation, and Latinos in 
                         Heritage Conservation

 
 
 
The Honorable Lisa Murkowski         The Honorable Tom Udall
Chairman                             Ranking Member
Subcommittee on Interior,            Subcommittee on Interior,
 Environment and Related Agencies     Environment and Related Agencies
Senate Committee on Appropriations   Senate Committee on Appropriations
131 Dirksen Senate Office Building   131 Dirksen Senate Office Building
Washington, DC 20510                 Washington, DC 20510
 


Chairman Murkowski and Ranking Member Udall:

    Asian and Pacific Islander Americans in Historic Preservation, 
Hispanic Access Foundation, Latinos in Heritage Conservation, and the 
undersigned 43 groups and 66 individuals encourage the Committee on 
Appropriations to support the Underrepresented Communities Civil Rights 
Grant with a $30 million appropriation for fiscal year 2020.
    Funded through the National Park System's Historic Preservation 
Fund (HPF), the Underrepresented Communities Civil Rights Grant program 
would use non-tax payer dollars to partner with States and Tribes to 
help save important places in our communities. The HPF provides 
matching grants to State and Tribal historic preservation offices to 
support surveys of historic resources, training, nominations to the 
National Register of Historic Places, and grants to local 
jurisdictions. HPF was established in 1977, is currently authorized at 
$150 million per year, and is funded by Outer Continental Shelf oil 
lease revenues, not tax dollars. These funds are spent locally on 
preservation projects, with selection decisions made at the State 
level. In short, it makes preservation possible.
    Historic preservation projects assisted by grants like the existing 
African American Civil Rights Grant Program generate billions of 
dollars in heritage tourism annually, while helping public and private 
partners tell unique and powerful stories of the African American 
struggle for equality in the 20th Century.
    The expansion of the program to the Underrepresented Communities 
Civil Rights Grants will increase the program's impact by not only 
documenting, interpreting, and preserving the sites and stories related 
to a more inclusive story of American history, but also increasing the 
audience appeal for such projects. This proposed program expansion is 
an opportunity to multiply the economic impact of the existing program 
across the United States.
    A review by the National Historic Landmarks Committee found that 
less than 8 percent (8 percent) of designated landmarks specifically 
represented the stories of Native Americans, African Americans, 
American Latinos, Asian Americans, Pacific Islanders, women, LGBTQ, and 
other underrepresented groups. There are few sites associated with 
these groups despite their long histories in the United States from the 
earliest settlement of the country to the economic development of the 
West to the desegregation of public schools in the 20th century and 
political influence in the 21st.
    Including women, these groups make up more than 50 percent of the 
U.S. population. Representation matters; this Federal grant will allow 
us to narrate our stories, which may be misrepresented or otherwise 
ignored within a larger society, with accuracy and dignity. This 
promotes understanding and compassion and has the power to lessen 
social inequalities.
    All Americans should be able to see themselves, their history, and 
their potential in both our collective story and our national 
landscape. As you consider fiscal year 2020 funding levels, we hope 
that you will continue the broad bi-partisan support for this National 
Park Service grant program that is vitally important to preserving so 
many more of our great American stories.

    Sincerely,

Asian and Pacific Islander Americans in Historic Preservation
Hispanic Access Foundation
Latinos in Heritage Conservation

Co-Signed by:

2021
African American Community, Cultural, and Educational Society
Alamo City Democracy Project
American Anthropological Association
American Association for State and Local History
American Cultural Resources Association
Asian American Studies Department and Center, UCLA
Coalition for American Heritage
Connecticut Trust for Historic Preservation
Curba
Chispa, League of Conservation Voters
Documents of Resistance
Esperanza Peace and Justice Center
Filipino American National Historical Society--Metro New York City 
Chapter
Filipino American National Historical Society
GLBT Historical Society
Hispanic Federation
Indiana Landmarks
Landmarks Illinois
Latino Outdoors
National LGBTQ Center for the Arts
National Parks Conservation Association
National Trust for Historic Preservation
Native American Land Conservancy
Native Womens Wilderness
Nature For All
OCA Greater Chicago
Pratt Institute
Preservation Chicago
Preservation Texas
Society for American Archaeology
Society for Historical Archaeology
Spanish Heritage Foundation of Riverside
St. Mary's University
Tataviam Land Conservancy
The National Council of Asian Pacific Americans (NCAPA)
Turning Wheel--University of San Diego
UC Davis Library/Bulosan Center for Filipino Studies
University of California, Riverside Public History Program
University of Houston
University of Maryland, College Park
UT Austin
Westside Preservation Alliance
      
Stuart Berman
Cathie Bond
Tanya Bowers
Caroline Calderon
Antonia Castaneda, PhD
Marsh Davis
Rachel Delgado
Lisa DiChiera
John Dichtl
xenia diente
Doreen Duran
Maria Espinosa
Henry Flores
Moises Garcia
John Gonzalez
Jaylyn Gough
Sarah Zenaida Gould, PhD
Catherine Gudis, PhD
Estella Habal, PhD
Lawana Holland-Moore
Celeste Hong
Judy Jauregui
Rita Jirasek
Nicole Johnson
Lewis Kasner
Alvina Lai
Kristi Lin
Kelly Lizarraga
Mary Losh
Jose Madrid
Michelle Magalong, PhD
Magda Mankel
Nancy Melendez
Mabel Menard
Ward Miller
Jane Montanaro
Helen Mora
Beatrice Moreno
Sehila Mota Casper
Ron Muriera
Adam Natenshon
Kim Orbe
Gregg Orton
Alberto Pulido
Ray Rast, PhD
paul ruiz
RoxanneRyce-Paul
Graciela Isabel Sanchez
Allan Jason Sarmiento
Erica Schultz
Mary Lu Seidel
Antonio Serna
Carol Shull
Monica Sosa
Alan Spears
Roberto Tejada
Evan Thompson
Edward Torrez
Joseph Trujillo
Sharon Trujillo-Kasner
Karen Umemoto, PhD
Luis Villa
Bill Watanabe
Shayne Watson
Lily Anne Welty Tamai
      
                                 ______
                                 
   Prepared Statement of the Assiniboine and Sioux Rural Water System
         fort peck reservation rural water system ($3,210,000)
    The Assiniboine and Sioux Rural Water Supply System (ASRWSS) 
submits this testimony in strong support of continued Operations, 
Maintenance, and Replacement Costs associated with the Fort Peck 
Reservation Rural Water System in the Bureau of Indian Affairs' 
Construction Account. The water system is authorized by an act of 
Congress (Public Law 106-382).
    The Assiniboine and Sioux Rural Water Supply System Board is a 
newly tribally chartered agency charged with the construction and 
operation of the Assiniboine and Sioux Rural Water Supply System, which 
is the part of the Fort Peck Reservation Rural Water System that is on 
the Fort Peck Indian Reservation. We are strong partners with Dry 
Prairie Rural Water Supply System, which operates the part of the 
Project that is off the Reservation.
    The most basic of governmental function is the delivery of clean, 
safe drinking water and we are honored that the Fort Peck Tribal 
Executive Board has entrusted to us this most basic duty of government. 
The ASRWSS wants to thank the subcommittee for the full funding of 
Operations, Maintenance, and Replacement (OM&R) costs of the Water 
Project at $2,634,000 in fiscal year 2019.
    As the Project works toward completion our OM&R needs continue to 
increase. Thus, for fiscal year 2020 we will need an additional 
$576,000 for total level of funding at $3.210 million OM&R funding for 
the Fort Peck Reservation Rural Water System for fiscal year 2020, 
within appropriations to the Bureau of Indian Affairs (BIA) 
Construction account.
    This funding increase of $576,000 is necessary for this System to 
safely operate with the correct level of staff and operating supplies, 
including chemicals. The System will provide drinking water to more 
than 20,000 residents in Northeast Montana in 2020 and several social 
and governmental agencies, including the BIA Agency Office, Poplar 
Schools, and Poplar hospital, Medicine Lake National Wildlife Refuge, 
Fort Union Trading Post National Historic site, as well as several 
towns including Wolf Point, Frazier, Culbertson, and Medicine Lake. The 
population served at the end of 2016 was less than 10,000. By the end 
of 2020, a projected 98 percent of the current Reservation Service 
population will be served.
    The Fort Peck Reservation Rural Water System was authorized by the 
Fort Peck Reservation Rural Water System Act of 2000, Public Law 106-
382. The measure ensures a safe and adequate municipal, rural and 
industrial water supply for the residents of the Fort Peck Indian 
Reservation and assists the citizens of Roosevelt, Sheridan, Daniels, 
and Valley Counties in Montana develop safe and adequate municipal, 
rural and industrial water supplies.

    As noted in the President's previous budget requests:

        Groundwater from shallow alluvial aquifers . . . for the 
        municipal systems . . . is generally poor with concentrations 
        of iron, manganese, sodium, sulfates, bicarbonates and total 
        dissolved solids above recommended standards.

    We must timely remedy this health risk.

    The Project called for the construction of a single treatment plant 
on the Missouri River near Poplar, Montana that distributes water 
through 3,200 miles of pipeline to both the Reservation Tribal system 
and, through three interconnections, to the Dry Prairie system. A 
single water source on the Missouri River replaced nearly two dozen 
individual community water sources ensuring a clean, plentiful and safe 
water supply.
    As a result of the success of the Fort Peck Reservation Rural Water 
System, both on the Assiniboine and Sioux Reservation and off-
Reservation communities, alternative water sources have been capped. 
There is no safe, reliable alternative if the on-Reservation 30,000 
square foot water treatment plant, Missouri River intake, pumping 
stations and related infrastructure were to cease operations.
    The Federal legislation authorizing the Fort Peck Reservation Rural 
Water System requires that the OM&R of the Assiniboine and Sioux Rural 
Water Supply System--the portion on the Reservation that is held in 
trust by the Federal Government--be paid in full by the BIA as a 
Federal obligation. This is consistent with the Federal trust 
responsibility to the Tribes who were promised a permanent home when we 
agreed to move to the Reservation. A permanent home requires safe 
drinking water. If this funding is not made available to the Tribes, 
this system will have to shut down and all of the people, towns, and 
Federal, Tribal, State, public and private agencies, and businesses 
will have no source of drinking water.
    Thus, the $3.210 million requested in fiscal year 2020 for the OM&R 
of this vital infrastructure project is critical. At about 1 percent of 
the total $300-plus million Federal investment in the project, the OM&R 
costs to protect public health and the Federal investment made over the 
last 17 years is a wise and prudent use of Federal funds--and 
represents good stewardship of the Federal investment of taxpayer funds 
in the infrastructure project.
    The increased funding of $576,000, over the fiscal year 2019 level 
for the OM&R of the Project, is needed as the Project buildout 
continues and has increased the population served by the rural water 
system. The expansion of the system requires additional personnel and 
other costs (power, chemicals, repairs, replacements and improvements) 
to operate and maintain the water treatment plant and associated 
facilities, including the intake, pipelines, pumping stations and 
reservoirs, to continue to meet the expanded service. Already, short-
life components of the rural water system must be replaced to maintain 
the peak efficiency and reliability of the system.
    If Congress does not appropriate the required funds for OM&R, as 
the law states, then this System will not operate, and the people of 
Northeast Montana will have no drinking water.
    Again, we thank the subcommittee for the continued support of the 
Fort Peck Reservation Rural Water System.

    [This statement was submitted by Bill Whitehead, Chairman.]
                                 ______
                                 
Prepared Statement of the Assiniboine and Sioux Tribes of the Fort Peck 
                              Reservation
    I am Floyd Azure, Chairman of the Assiniboine and Sioux Tribes of 
the Fort Peck Reservation. I would like to thank the Senate 
Appropriations Subcommittee for the opportunity to submit testimony 
concerning fiscal year 2020 appropriations for the Bureau of Indian 
Affairs (BIA) and Indian Health Service (IHS).
    The Fort Peck Reservation is in northeast Montana, 40 miles west of 
the North Dakota border, and 50 miles south of the Canadian border, 
with the Missouri River defining its southern border. The Reservation 
encompasses over two million acres of land. We have approximately 
12,000 enrolled Tribal members, with approximately 7,000 Tribal members 
living on the Reservation. We have a total Reservation population of 
approximately 11,000 people.
    Congress has long recognized that the foundation for economic 
development and prosperity in Indian Country lay in community 
stability, which begins with infrastructure such as safe drinking 
water, roads, public safety, and healthcare. We thank the subcommittee 
for its longs standing support of Tribal programs within the Bureau of 
Indian Affairs, Bureau of Indian Education and Indian Health Service 
which are core Federal programs serving the Fort Peck Reservation and 
our members. We cannot support the President's budget proposal which 
proposes cuts to programs vital to Tribes. In our view, reducing funds 
for these Federal program--critical to addressing the many challenges 
facing Tribal governments and Indian people--is poor policy.
     human services: substance abuse, suicide, indian child welfare
    We appreciate the subcommittee's continued commitment to addressing 
substance abuse and the consequential challenges that arise from this 
plague. When someone is suffering from addiction it is not just the 
person who is impacted, but the entire family. For Tribal communities, 
it is the entire Tribe that bears the impacts of families torn apart by 
substance abuse. We face higher poverty, higher foster care rates, 
higher suicide rates, and in the end our people die at far younger ages 
than the rest of the United States.
    This last summer we had a rash of heroin overdoses, including two 
fatal overdoses in 1 month. Every month a child is born testing 
positive for meth or some other drug. We have entire families that are 
using, from grandmothers to grandchildren. There is no doubt that 
addiction is the leading cause of the 100 children that we have in 
foster care now. We, as a people, cannot survive if we do not 
acknowledge that what we are doing now is not working.
    This level of social dysfunction in communities is no doubt the 
cause of the high suicide rate in our communities. The suicide rate on 
Montana Reservations is 22 percent higher than the rest of Montana. And 
for Fort Peck, a 2016 study indicated that 13 percent of our youth 
attempted suicide, that means that more than 1 in 10 of our children 
have tried to take their own lives.
    While these statistics are startling, the tragedy is overwhelming 
for our families and communities because each of these statistics is a 
child, mother, father, sister, or brother. This last summer on our 
Reservation Michael Lee, a 13-year old boy took his life. This boy, 
this baby really, had a family that loved him. He played sports. He was 
determined to go to college. In many people's minds he had so much 
promise and was fortunate to have a family to support him. But 
something happened to him and we lost this child. Who knows what we as 
a Tribe lost because this young man lost hope and took his own life. He 
could have been a Tribal leader, a teacher, a scientist, a doctor, or 
maybe what we need most, a strong role model as a father. I can only 
tell you that it is time that we stop burying our children and start 
working together to combat this tragedy.
    We would urge the Members of the subcommittee to continue to 
emphasize the need for additional mental health and substance abuse 
treatment services in Indian Country. In particular, we support the 
effort to develop a Special Behavioral Pilot Program similar to the 
Special Diabetes for Indians Program to combat behavioral/mental health 
issues among American Indian and Alaska Natives in a holistic and 
culturally appropriate way. We know that having a consistently funded 
program directly targeted to combating diabetes has reduced amputations 
and lowered diabetes rates throughout Indian Country. It is time that 
we have the same kind of program to target behavioral and mental health 
issues that our Tribal members face.
    We also continue support the increased funding for BIA Social 
Service Programs, including our Indian Child Welfare programs, and the 
Tiwahe Initiative. We have to address these issues in a holistic 
fashion. We must work with individuals as they work to rebuild their 
lives and their families. We cannot look at a person as one 
dimensional. The same person who is dealing with addiction is often 
dealing with child custody issues, health issues, housing issues, and 
criminal issues. Thus, we need a team of people and programs to work 
collaboratively with a person to attack each of these challenges. These 
challenges can and often do overwhelm Tribal members. But if they know 
that there is a network of Tribal services and programs and dedicated 
people to help them stand on their own and work through their life's 
challenges, they can gain the confidence to improve themselves and 
return to their families and community as productive individuals.
                          bia road maintenance
    We are again appreciative of subcommittee's recognition of the 
importance of transportation safety and economic development on Indian 
reservations by increasing fiscal year 2020 funding for the BIA Road 
Maintenance Program to $35.8 million. Motor Vehicle deaths on 
Reservations is one of the leading causes of deaths in Indian Country 
and the poor condition of our roads is no doubt a leading factor in 
this.
               fort peck reservation rural supply system
    I want to express my appreciation to the subcommittee for its 
continued support of the Fort Peck Reservation Rural Water System. The 
full funding that the subcommittee provided in fiscal year 2019 is 
critical to the continued operation of this vital project. I also fully 
endorse the funding request of the Assiniboine and Sioux Rural Water 
Board, a newly chartered Tribal Agency now charged with the 
construction and operation and maintenance of this critical rural water 
system.
                               conclusion
    We thank the subcommittee for the opportunity to present testimony 
concerning the Bureau of Indian Affairs and Indian Health Service 
fiscal year 2020 budget.
                                 ______
                                 
Prepared Statement of the Association of Air Pollution Control Agencies
    On behalf of the Association of Air Pollution Control Agencies 
(AAPCA),\1\ thank you for the opportunity to submit written testimony 
regarding the fiscal year 2020 budget for the U.S. Environmental 
Protection Agency (EPA). AAPCA's State and local members are directly 
responsible for planning and implementing air quality regulations 
designed to protect public health, and believe that stable and adequate 
resources are core to fulfilling Clean Air Act obligations. As your 
subcommittee begins the fiscal year 2020 appropriations process, AAPCA 
members specifically request that State and local air quality 
management grants under the State and Tribal Assistance Grant (STAG) 
program be funded at a level at least equal to fiscal year 2019.
---------------------------------------------------------------------------
    \1\ AAPCA is a national, non-profit, consensus-driven organization 
focused on assisting State and local air quality agencies and personnel 
with implementation and technical issues associated with the Federal 
Clean Air Act. AAPCA represents more than 45 State and local air 
agencies, and senior officials from 22 State environmental agencies sit 
on the AAPCA Board of Directors. AAPCA is housed in Lexington, Kentucky 
as an affiliate of The Council of State Governments. More information 
regarding AAPCA can be found at: www.cleanairact.org.
---------------------------------------------------------------------------
    The Consolidated Appropriations Act, 2019 (H.J. Res. 31), signed 
into law on February 15 of this year, provided approximately $3.605 
billion in funding for the STAG program. Of this funding, $1.077 
billion was directed to categorical grants, including $228.219 million 
for State and Local Air Quality Management Grants and $87 million for 
the Diesel Emission Reductions Grant program, an increase of $12 
million from fiscal year 2018 enacted levels.\2\
---------------------------------------------------------------------------
    \2\ H.J.Res.31--Consolidated Appropriations Act, 2019 (Public Law 
116-6). Funding levels prior to rescissions.
---------------------------------------------------------------------------
    The investment in these programs, which can make up to an average 
of 27 percent of environmental agency budgets,\3\ provide critical 
assistance to State and local air agencies, which maximize these funds 
through strict budgeting, creative programming, and best practices. 
Activities that are funded include a broad range of responsibilities 
essential to fulfilling Clean Air Act mandates, include planning, 
training, developing emissions inventories and rules, modeling, 
monitoring, permitting, inspections, and enforcing key elements of the 
National Ambient Air Quality Standards (NAAQS), air toxics, and 
regional haze programs. By amplifying Federal grant resources, 
especially under Section 103 and 105 of the Clean Air Act, agencies 
have achieved significant success in air quality.\4\
---------------------------------------------------------------------------
    \3\ https://www.ecos.org/wp-content/uploads/2018/03/fiscal year 18-
EPA-Budget-Letter.pdf.
    \4\ AAPCA, State Air Trends & Successes: The StATS Report, April 
22, 2019
---------------------------------------------------------------------------
    The President's budget proposal for fiscal year 2020 was released 
by the White House on March 11, 2019, and requests $6.068 billion for 
U.S. EPA, or $2.76 billion (31 percent) less than appropriated by 
Congress in fiscal year 2019.\5\ U.S. EPA's Fiscal Year 2020 
Justification of Appropriation Estimates for the Committee on 
Appropriations details a proposed 35 percent reduction in funding for 
the STAG program, including a nearly 45 percent reduction in 
categorical grants.\6\ The budget request for U.S. EPA also seeks a 30 
percent decrease in funds for State and local air quality management 
grants, along with the proposed elimination of several air quality 
programs.
---------------------------------------------------------------------------
    \5\ https://www.whitehouse.gov/wp-content/uploads/2019/03/budget-
fy2020.pdf.
    \6\ https://www.epa.gov/planandbudget/cj.
---------------------------------------------------------------------------
    AAPCA recognizes that your subcommittee is in the early stages of 
the fiscal year 2020 appropriations process and appreciates that 
Congress did not adopt figures similar to those proposed by the 
administration for the past two fiscal years. In fact, since fiscal 
year 2009 the annual change in funding for State and local air quality 
management grants has been less than 3 percent, with an average of $230 
million provided each of those years.\7\ AAPCA members believe that 
these long-term, stable resources have had consequential impacts on air 
pollution control efforts that have been able to accommodate 
substantial national economic and population growth.\8\
---------------------------------------------------------------------------
    \7\ Figures assume dollars not adjusted for inflation.
    \8\ U.S. EPA, Our Nation's Air: Status and Trends Through 2017, 
July 31, 2018. Section: Air Quality Improves as America Grows.
---------------------------------------------------------------------------
    In addition to funding State and local air quality management 
grants at a level at least equal to fiscal year 2019, AAPCA members 
would also like to highlight the importance of retaining funding for 
fine particulate matter (PM<INF>2.5</INF>) monitoring under Section 103 
of the Clean Air Act, rather than through Section 105. Section 103 does 
not require State and local agencies to match funds, as is stipulated 
in Section 105. Should this funding authority be transitioned as 
proposed,\9\ agency budgets could be adversely impacted.
---------------------------------------------------------------------------
    \9\ U.S. EPA, ``fiscal year 2020 National Program Manager Guidance 
Monitoring Appendix,'' March 2019. DRAFT.
---------------------------------------------------------------------------
    As your subcommittee develops the budget for U.S. EPA through the 
appropriations process, AAPCA members ask for continued stability and 
support of funding to carry out core Clean Air Act activities. 
Appropriately funded State and local air quality management grants 
underscore foundational components of cooperative Federalism, allowing 
air agencies to continue the important and essential work that has 
driven success in air quality and provide stability for entities that 
rely on their expertise.
    Thank you for your attention to this testimony. AAPCA's State and 
local members look forward to working with your Subcommittee as 
Congress develops its priorities for fiscal year 2020 appropriations. 
If you have any questions, please contact Mr. Jason Sloan, Executive 
Director, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="640e17080b050a240717034a0b16034a">[email&#160;protected]</a>

 Sincerely,
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Nancy Vehr
 Administrator, Air Quality Division,
 Wyoming Department of Environmental
   Quality
 President, AAPCA
                                 ______
                                 
  Prepared Statement of the Association of Fish and Wildlife Agencies
    Thank you for the opportunity to submit recommendations for fiscal 
year 2020 appropriations. The Association of Fish and Wildlife 
Agencies' (AFWA) mission, which has not changed significantly from our 
founding in 1902, is to protect State agency authority to conserve and 
manage the fish and wildlife within their borders, and all 50 States 
(States) are members. We strive to facilitate cooperation between State 
and Federal agencies, conservation NGOs, and private landowners to 
conserve our Nation's fish, wildlife, and their habitats.
    Thank you for the final fiscal year 2019 funding levels for fish, 
wildlife, and conservation programs, and we look forward to working 
with you as we enter another challenging budget cycle and fiscal 
environment to enact consistent funding levels with fiscal year 2019, 
and in some cases higher. Fish and wildlife conservation programs need 
funding today to preclude more costly Federal endeavors tomorrow. We 
will not succeed by trying to balance the budget on the backs of 
conservation programs. A continuation of this policy will prove only to 
be costlier in the long-term.
             united states fish and wildlife service (fws)
    Fish and Aquatic Conservation (FAC).--Of priority is the National 
Fish Hatchery Operations line item that supports the Aquatic Animal 
Drug Approval Partnership (AADAP), Fish Health Centers, Fish Technology 
Centers, Fish Hatcheries, Fish Passage, the National Fish Habitat 
Partnership, Wild Fish Health Survey, and Mass Marking program all of 
which meet needs of States, Tribes, and the Federal Government. The 
need for FDA-approved drugs for use in aquaculture and fisheries 
management is a national challenge, and AADAP provides the 
``cornerstone'' of partnership efforts. AFWA recommends maintaining 
fiscal year 2019 funding levels for National Fish Hatchery Operations 
and programs, and we request $11 million more for the mass marking 
initiative in the Pacific Northwest and the Great Lakes region, of 
which $4.5 million is for the Great Lakes region. Funding for the 
deferred maintenance of the National Fish Hatchery System must be 
increased to avoid hatchery system failures.
    AFWA is concerned that the FWS is not utilizing its fiscal year 
2018 and fiscal year 2019 increased AADAP line item appropriations 
fully and in a timely manner, and current spending is not sufficient to 
meet the intent of the program or the needs of State and private 
partners. Also, failure of equipment or structure at one of the 
National Fish Hatchery System (NFHS) facilities could result in the 
loss of species that provide for recreational opportunities, unique 
genetic strains of imperiled species, and multiple year classes of 
species used for restoration efforts. There are about $180 million in 
deferred maintenance needs for the NFHS, and of the previous 
appropriations directed to the FWS for deferred maintenance. We 
appreciate Congress addressing deferred maintenance needs for the NFHS 
and National Wildlife Refuge System (NWRS) in fiscal year 2018 and 
fiscal year 2019, but not enough funds are being allocated to the NFHS.
    Aquatic Habitat and Species Conservation.--We support funding the 
National Fish Habitat Action Plan at $7.2 million to provide funding 
for coordination and restoration projects to the 20 approved fish 
habitat partnerships across the country with projects benefitting fish 
and fish habitat, anglers, and local communities. Fish Passage needs 
far outweigh the resources for species management and replacement of 
unsafe transportation infrastructure. We support funding Fish Passage 
at fiscal year 2018 levels and strongly support incorporating 
additional fish passage funding into Federal infrastructure plans. We 
request Congress restore funding for implementation of State Aquatic 
Nuisance Species (ANS) management plans to $4.4 million, without 
compromising other ANS programs. Further, $25 million is needed to 
implement the national Asian carp management and control plan in 
``Mississippi River and Tributaries''.
    National Wildlife Refuge System.--We support funding NWRS 
Operations and Maintenance at no less than $510 million in fiscal year 
2020.
    Habitat Conservation.--AFWA recommends maintain funding at fiscal 
year 2019 levels but requests no less than $2,500,000 in additional 
funds to support the Partners in Fish and Wildlife Program for 
voluntary conservation of wildlife migration corridors and habitats to 
support implementation of Secretarial Order (SO) 3362.
    State and Tribal Wildlife Grants.--The State and Tribal Wildlife 
Grants program is the only Federal program available to States to 
leverage non-Federal funds to conserve over 12,000 State Species of 
Greatest Conservation Need identified in State Wildlife Action Plans to 
prevent them from becoming threatened or endangered. This investment in 
voluntary, proactive, and State-led conservation is needed now to 
address the list of declining species and to preclude an increase in 
Federal expenditures in the future under the Endangered Species Act 
(ESA). Further, this program is not well suited to implement SO3362, 
and the Association supports funding those activities out of a 
different account. The Association recommends $90 million for the State 
and Tribal Wildlife Grants Program in fiscal year 2020, same as the 
fiscal year 2010 enacted level. To truly address these growing 
challenges, we ask Congress to enact the Recovering America's Wildlife 
Act, which would provide States and their conservation partners with 
the dependable resources to do proactive, non-regulatory fish and 
wildlife conservation--a modern enhancement in how we finance the full 
array of diverse fish and wildlife conservation for current and future 
generations.
    AFWA recommends no less than $42 million for the North American 
Wetlands Conservation Fund in fiscal year 2020.
    Ecological Services (ES) & Cooperative Endangered Species 
Conservation Fund (CESCF).--The FWS needs additional resources in ES to 
address a growing workload and to increase FWS recovery efforts for 
federally listed species. Insufficient funds to meet growing demands 
has resulted in ongoing policy riders stemming from ESA tensions, some 
of which can be alleviated with increased funding. We support increased 
funding for ES and recommend $85 million for the CESCF in fiscal year 
2020. Further, we support sufficient funding for success of the 
Recovery Challenge Grant Program.
    We recommend $5 million for the Neotropical Migratory Bird 
Conservation Fund and recommends maintaining fiscal year 2019 funding 
for the Multinational Species Conservation Fund.
    Science Applications (SA).--SA provides a critical science 
coordination functions such as Species Status Assessments, regional 
science initiatives to address threats to wildlife and habitats across 
broad landscapes, integrated scientific efforts for elusive species 
like wolverine, and support on White-nose Syndrome. We recommend 
increasing fiscal year 2019 levels for SA activities by at least $5 
million to facilitate implementation of SO3362 and the wildlife 
migration corridor initiative and to fund important regional State-
Federal partnerships and research efforts which are supported by the 
States.
    Migratory Bird Conservation Program (MBCP).--The FWS and States 
share management jurisdiction for migratory birds, and migratory bird 
conservation represents one of the most successful State-Federal 
cooperative partnerships for over 80 years, but the program suffers 
from chronic under-funding of traditional functions and activities, 
making it particularly vulnerable to unanticipated problems and single 
points of failure. The FWS has gone to great lengths to protect the 
core functions, but more funding is needed to retain sufficient staff, 
fill key vacancies, and support science to inform decisionmaking. AFWA 
supports robust funding for the MBCP near fiscal year 2010 levels with 
a total budget of $55 million, including full funding of the Migratory 
Bird Joint Ventures at $19.9 million, allowing us to accomplish shared 
State and Federal responsibilities.
    The Association recommends $450 million for the Land and Water 
Conservation Fund in fiscal year 2020. We support robust funding for 
the State-side programs of the LWCF. Many rural communities rely on the 
State-side programs for playgrounds, sports courts, and other 
amenities.
    The Association recommends $76.5 million for the Forest Legacy 
Program in fiscal year 2020.
                 united states geologial survey (usgs)
    Ecosystems.--AFWA strongly supports an increase of $6.6 million in 
appropriations for the Cooperative Fish and Wildlife Research Unit 
Program (CRU) to $25 million. The CRU program provides critically 
important scientific and technical support for State and Federal fish 
and wildlife managers through collaborative scientific projects that 
address the Nation's most critical fish and wildlife management needs 
and inform policy decisions. This increase will enable USGS to fill the 
39 current staff vacancies nationwide and establish new research units 
in Indiana, Kentucky, Michigan, and Nevada. AFWA supports the National 
Cooperators Coalition's testimony on CRUs. Further, we support the 
Ecosystems Science Centers and the National Wildlife Health Center, 
which provides critical scientific support and coordination on Chronic 
Wasting Disease (CWD) and financial support to the Southeastern 
Cooperative Wildlife Disease Study at the University of Georgia, which 
provides essential diagnostic and veterinary support services to 42 
States. We request Congress increase funds to the Fisheries Program by 
no less than $3.5 million to avoid fish center closures across the 
country, loss of critical research on the health of wild fisheries 
which is imperative to State and Federal managers, and the loss of 
jobs. It is also imperative that Congress provide an additional $1 
million to support implementation of a National Academies of Sciences 
study on the transmission of Chronic Wasting Disease in deer species, 
which will be managed in part by USGS Ecosystems. We support 
maintaining fiscal year 2019 funding at a minimum for the remaining 
BLIs in USGS Ecosystems.
    Core Science Systems.--AFWA supports maintaining funding for USGS 
Core Science Systems including for the Integrated Taxonomic Information 
System, Biodiversity Information Serving Our Nation, and the USGS 
database of Species of Greatest Conservation Need.
                     bureau of land managment (blm)
    Additional needs for wildlife habitat, migration corridors, and 
conservation--AFWA supports additional resources to BLM to manage wild 
horses and burros at appropriate management levels to reduce herd 
impacts on native fish and wildlife and competition for food, water, 
and resources. AFWA also supports increased funding for ongoing sage-
grouse, sagebrush, wildfire, and invasive species activities. Many 
partnerships have been generated through BLM's sage-grouse efforts and 
actions through the DOI SO 3362. This will require additional funds for 
an array of activities to address identified barriers to wildlife 
migrations, facilitate habitat connectivity, and implement actions to 
reduce wildlife-highway conflicts. AFWA supports an additional $10 
million for Wildlife Habitat Management, Wild Horse and Burros, 
Rangeland Management, Oil and Gas Management, and Land and Water 
Conservation Funds to meet these needs. We support a $5 million 
increase for Rangeland Improvement and Bighorn sheep disease 
prevention, and $10 million in additional funds for Wildlife Habitat 
Management (1170) are needed to address invasive species affecting 
habitat quantity and quality on big game winter range, summer range, 
and in migration corridors. This would supplement existing funding 
through the range management program that addresses management of 
invasive species. Finally, AFWA recommends the subcommittee reinitiate 
BLM's Cost-Share Challenge Grant Program under Wildlife Habitat 
Management at $10 million to leverage current momentum and partnerships 
to accomplish more wildlife habitat goals and mission objectives. 
Further, we do not support funds being redirected away from accounts 
intended to benefit fish, wildlife, and habitat to pay for the 
management of wild horses and burros.
                  united states forest service (usfs)
    The President's fiscal year 2020 budget request recommends a merger 
of multiple BLIs to simplify time coding, increase efficiencies, and 
simplify accounting processes. However, AFWA is concerned that 
combining into one BLI Hazardous Fuels with Wildlife and Fisheries 
Management and others could result in funds being diverted away from 
fish and wildlife programs. We look forward to working with you on a 
solution that provides accountability and simplification.
    Reinvesting in Habitat and Access.--Thank you for your work in the 
115th Congress to end the problem of fire-borrowing. Now Congress must 
ensure that the funds made available by stabilizing the agency budget 
against rising firefighting costs are reinvested back into the programs 
and natural resources that have fiscally suffered from previous fire-
borrowing activities. AFWA recommends increasing funding for forest 
health and management, fish and wildlife habitat, recreation, and 
access in the fiscal year 2020 appropriations.
    Research and Development.--AFWA strongly supports maintaining 
funding for Research and Development for fisheries and wildlife program 
areas in fiscal year 2020.
                 environmental protection agency (epa)
    Finally, we recommend maintaining fiscal year 2019 funding for all 
Geographic Programs, the National Estuaries Program, and the Beach/Fish 
Safety Program.
                                 ______
                                 
     Prepared Statement of the Association of State Drinking Water 
                             Administrators
    Summary of Request: The Association of State Drinking Water 
Administrators (ASDWA) submits the following recommendations for fiscal 
year 2020 appropriations on behalf of the drinking water programs in 
the 50 States, 5 territories, District of Columbia, and Navajo Nation. 
ASDWA requests funding for two programs that ensure public health 
protection and that will result in enhancing economic stability and 
prosperity in American cities and towns. ASDWA requests $125 million 
for the Public Water System Supervision (PWSS) program and $1.30 
billion for the Drinking Water State Revolving Loan Fund (DWSRF) 
program. ASDWA also requests $45 million for three drinking water grant 
programs to address lead in schools and communities.
overview: the importance of safe drinking water for our communities and 
        the economy & the role of state drinking water programs
    States need sustained Federal support to maintain public health 
protection and to support the needs of the water systems they oversee. 
State drinking water programs strive to meet the Nation's public health 
protection goals through two principal funding programs: the Public 
Water System Supervision (PWSS) Program and the Drinking Water State 
Revolving Loan Fund (DWSRF) Program. These two programs provide most of 
the funding for States to work with drinking water utilities to ensure 
that American citizens will have safe and adequate water supplies.
    Vibrant and sustainable communities, their citizens, workforce, and 
businesses all depend on a safe and reliable supply of drinking water. 
Economies only grow and sustain themselves when they have safe and 
reliable water supplies. Over 90 percent of the population receives 
water used for bathing, cooking, and drinking from a water system that 
is overseen by State drinking water program personnel. Water systems--
as well as the cities, villages, schools, and businesses they support--
rely on State drinking water programs to ensure they comply with all 
applicable Federal requirements.
    In addition to the water we drink in our homes, water produced by 
water systems is also used to fight fires, transport wastewater, cook, 
wash clothes and dishes, as well as by businesses for manufacturing, 
food processing, and cooling. State drinking water programs must have 
adequate funding to protect public health and maintain the economic 
health of communities. Incidents such as the chemical spill in 
Charleston, West Virginia, algal toxins in the water for Toledo, Ohio 
and Salem, Oregon, and the lead leaching from service lines into the 
water supply in Flint, Michigan all serve as stark reminders of the 
critical nature of the work that State drinking water programs do--
every day--and the reason why the funding for State drinking water 
programs must be not only be sustained but enhanced. More recently, the 
discovery of Per- and Polyfluoroalkyl Substances (PFAS) contamination 
adds to the urgency of the need for funding.
state drinking water programs: how they operate, why support is needed, 
                and justifications for requested amounts
The Public Water System Supervision (PWSS) Program
    How the PWSS Program Operates: To meet the requirements of the 
SDWA, States have accepted primary enforcement responsibility for 
oversight of regulatory compliance and technical assistance efforts for 
more than 150,000 public water systems to ensure that potential health-
based violations do not occur or are remedied in a timely manner. This 
involves 91 federally regulated contaminants and the complexity of 
regulations has increased in the past decade. Beyond the contaminants 
covered by Federal drinking water regulations, States are also 
implementing an array of proactive initiatives to protect public health 
from ``source to tap.'' These include source water assessments and 
protections, technical assistance for water treatment and distribution, 
and enhancement of overall water system performance. Recently, many 
States have begun to set drinking water standards for non-federally 
regulated contaminants, such as PFAS. State activities go well beyond 
simply ensuring compliance at the tap and these activities have to be 
efficient given continued resource and funding constraints.
    Why Adequate Support is Needed: States will be unable to protect 
public health without increased Federal funding. Inadequate Federal 
support for State drinking water programs has several negative 
consequences. For example, consider the proposed Long-Term Revisions to 
the Lead and Copper Rule (LT-LCR). As part of ASDWA's comments on EPA's 
Federalism Consultation, ASDWA conducted a Costs of States' Transaction 
Study. The resulting data estimated that the costs of States' staff 
time for the LT-LCR would be in the range of 72%-95 percent of current 
PWSS funding. Without additional funding, this important rule will be 
an unfunded mandate for States. Many States are facing difficult 
choices on what implementation activities to not do, such as providing 
less technical assistance to systems that need it. Others are looking 
to EPA for assistance, which is challenged by similar resource 
constraints and lack of ``on the ground'' expertise. States want to 
offer the flexibilities allowed under existing rules to local water 
systems, however, fewer State resources mean less opportunity to work 
individually with water systems to improve their systems and protect 
public health.
    State drinking water programs are already hard pressed financially 
and the funding gap continues to grow. State-provided funding and fees 
to the water systems have historically compensated for insufficient 
Federal funding, but State budgets have been less able to bridge this 
funding gap in recent years. Insufficient Federal support for this 
critical program increases the likelihood of scenarios that put the 
public's health at risk. The administration's fiscal year 2020 request 
of $67.9 million represents a 33 percent decrease for PWSS funding from 
the $101.9 million that was appropriated for the PWSS program in fiscal 
year 2019. This level of funding has not been seen since 1995, nearly 
25 years ago. This is an untenable situation, as the long-standing 
regulatory oversight remains constant and several non-regulatory 
actions such as addressing PFAS, algal toxins, and providing oversight 
for the development of water systems' inventories of lead service lines 
have increased States' workloads. States always step in to help solve 
problems and return systems to providing safe water as quickly as 
possible. Any reduction in Federal funding for State water programs, no 
matter how small, exacerbate the existing financial difficulties.
    For the PWSS Program in Fiscal Year 2020, ASDWA Respectfully 
Requests $125 Million: The number of regulations requiring State 
implementation and oversight as well as performance expectations 
continue to grow while the Federal funding support has been essentially 
``flat-lined.'' Inflation has further eroded these static funding 
levels. The requested funding amount is based on ASDWA's December 2013 
Resource Needs Report and begins to fill the above-described resource 
gap. The funding gap identified in the 2013 report is compounded by 
inflation and non-regulatory activities yields a total funding gap of 
73.3 percent for State drinking water programs, as outlined in ASDWA's 
2018 Beyond Tight Budgets report. Increased PWSS funds are urgently 
needed for implementing existing drinking water rules, taking on new 
initiatives, and to account for the eroding effects of inflation. It is 
a small price to pay for protecting the health of the Nation.
The Drinking Water State Revolving Loan Fund Program
    How the DWSRF Program Operates: Drinking water in the U.S. is among 
the safest and most reliable in the world, but it is threatened by 
aging infrastructure. Through low interest loans provided by the DWSRF, 
States help water utilities overcome this threat. Since its inception, 
the DWSRF has touched millions of Americans through projects that 
enhance drinking water capabilities at water utilities. In the core 
DWSRF program, $19.8 billion in cumulative Federal capitalization 
grants since 1997 have been leveraged by States into over $38.2 billion 
in infrastructure loans to 14,500 communities, large and small, across 
the country. 26 percent of the cumulative DWSRF assistance, including 
negative interest loans and principal forgiveness, has been provided to 
disadvantaged communities. Such investments pay tremendous dividends--
both in supporting our economy and in protecting our citizens' health. 
For every $1 invested in the DWSRF from the Federal Government, $1.95 
has gone to help communities. States have effectively and efficiently 
leveraged Federal dollars with State contributions.
    An important feature of the DWSRF program is the State ``set-
aside'' fund component, a key reason to fully fund this critical 
program. Set-asides function provide a process for States to work with 
water systems to maintain compliance and avoid violations. States may 
reserve up to 31 percent of these funds for a variety of critical 
tasks, such as increasing the technical, managerial, and financial 
capacity of water systems, providing training and certification for 
water system operators, and continuing wellhead and source water 
protection efforts. Set-asides are an essential source of funding for 
States' core public health protection programs and these efforts work 
in tandem with infrastructure loans. However, as PWSS funds have 
remained stagnant, State programs have increasingly relied on the DWSRF 
set-asides to perform critical tasks and fill the gap between PWSS 
funds and the true funding it takes to run an effective State program. 
As States have been forced to utilize additional funding through set-
asides, the DWSRF is losing out not only on those funds for that year, 
but the revolving aspect is lost as well. Increased funding for the 
PWSS program would help alleviate States using the full 31 percent of 
the set-asides, allowing for more infrastructure investment through the 
loan fund.
    Drinking Water Infrastructure Investment is Well Below the 
Documented Need: EPA's 6th Drinking Water Needs Survey concluded that 
$427.6 billion of capital investment was needed for the next 20 years. 
The total translates to $21.4 billion annually. Continued investment is 
needed for aging treatment plants, storage tanks, pumps, and 
distribution lines that carry water to our Nation's homes, businesses, 
and schools. The DWSRF must continue to be a key part of the 
infrastructure solution. Unlike other water infrastructure funding 
programs, the DWSRF offers project subsidization for disadvantaged 
communities, funds for training and technical assistance, and is a 
fundamental funding mechanism for many medium and small utilities who 
would pay much higher interest rates if forced to use the bond market. 
The DWSRF plays a key role in keeping water rates affordable for many 
communities. Having access to low-interest loans allows water systems 
to pass on the savings to their rate payers while working towards full-
cost pricing of their water service.
    For the DWSRF Program in Fiscal Year 20, ASDWA Respectfully 
Requests $1.30 Billion: Multiple years of flat DWSRF funding has only 
exacerbated the Nation's infrastructure challenges. The DWSRF program 
was funded at $1.30 billion for fiscal year 2018 and fiscal year 2019, 
a $300 million increase from previous years of steady funding, however, 
more is required. In America's Water Infrastructure Act (Public Law 
115-270), Congress authorized a plan to increase the funding of the 
DWSRF over time so that States can increase their staff and expand 
their expertise in conjunction with the increased funding. ASDWA fully 
supports the authorized increased funding. Physical water 
infrastructure improvements coupled with critical assistance 
initiatives funded by the DWSRF are essential to support public health 
protection as well as a sustainable economy. Funding the DWSRF at the 
recently authorized $1.30 billion level will better enable the DWSRF to 
meet the SDWA compliance and public health protection goals.
Three EPA Drinking Water Grant Programs to Address Lead in Schools and 
        Communities
    ASDWA Respectfully Requests $45 Million for Three Drinking Water 
Grant Programs: In fiscal year 2019 appropriations, Congress funded the 
Voluntary School and Childcare Lead Testing Grant program at $25 
million and the Lead Reduction Grant program at $15 million. ASDWA 
requests Congress continue the same appropriation for fiscal year 2020. 
In 2018, Public Law 115-270 authorized $5 million for a new EPA grant 
program to provide assistance to local educational agencies for the 
replacement of drinking water fountains manufactured prior to 1988. 
ASDWA also requests that Congress appropriate the $5 million 
authorization for this new grant in fiscal year 2020. Addressing lead 
contamination in schools' water is a priority for State drinking water 
programs and funding these two additional grant programs will provide 
significant public health impacts, particularly for children.
    Conclusion: ASDWA recommends Congress adequately fund State 
drinking water programs in the Federal fiscal year 2020 budget in order 
to protect public health and drinking water across the Nation. States 
are willing and committed partners, however, additional Federal 
financial assistance is needed to meet the ongoing and ever growing 
regulatory, infrastructure, and security needs. A strong State drinking 
water program supported by the Federal-State partnership will ensure 
that the quality of drinking water in this country will continue to 
improve so the public knows that a glass of water is safe to drink no 
matter where they live.
                                 ______
                                 
      Prepared Statement of the Association of Zoos and Aquariums
    The Association of Zoos and Aquariums (AZA) is pleased to submit 
the following testimony in support of funding for Endangered Species 
Recovery and the Recovery Challenge Grant program for fiscal year 2020. 
First, we thank the members of the subcommittee for increasing funding 
for endangered species through the Recovery account and working with 
our partners at the U.S. Fish and Wildlife Service (USFWS) to create 
the Recovery Challenge Grant program in fiscal year 2018. We recognize 
the positive impact this funding has had on our recovery goals and 
encourage you to continue prioritizing these important functions.
    Founded in 1924, the Association of Zoos and Aquariums is a 501(c)3 
non-profit organization dedicated to the advancement of zoos and 
aquariums in the areas of conservation, education, science, and 
recreation. AZA's 233 accredited aquariums, nature centers, science 
centers and zoos (identified in the addendum to this letter) annually 
see more than 195 million visitors, collectively generate more than $22 
billion in annual economic activity, and support more than 208,000 jobs 
across the country. In 2017, AZA-accredited facilities spent $220 
million on field conservation in 128 countries benefiting 863 species 
and subspecies. Within those 863 species and subspecies, 281 are listed 
under the Endangered Species Act (ESA).
    We manage numerous large scale conservation initiatives that 
involve many AZA committees, scientific advisory groups, the USFWS, and 
other conservation partnership organizations. Successful ongoing 
recovery and reintroduction initiatives with AZA members include the 
black-footed ferret, the American Burying Beatle, the Golden Lion 
Tamarin, the American red wolf, the Karner blue butterfly, multiple 
fresh water mussels species, and many others. The unique expertise and 
on the ground experience brought to the table by our members is 
unparalleled and has proved extremely valuable to species recovery.
    One of our member organizations doing exemplary work is San Diego 
Zoo Global (SDZG), which holds an extensive record as a longtime leader 
in endangered species recovery. Their Institute for Conservation 
Research houses the largest, multidisciplinary, zoo-based research team 
with more than 150 researchers and staff who are leading experts in 
their field. SDZG carries out carefully tailored species recovery plans 
in partnership with the USFWS, a dedicated coalition of domestic and 
international nonprofit organizations, academic research centers, and 
other zoos. To date, San Diego Zoo Global has bred more than 165 
endangered species and reintroduced more than 40 endangered species 
into native habitats.
    Moreover, San Diego Zoo Global (SDZG) plays a vital role in the 
highly successful public-private partnership to save the California 
condor which has seen the species go from a low of 22 birds to now 
reaching around 500. Together, the USFWS, State agencies, San Diego Zoo 
Global, The Peregrine Fund, Oregon Zoo, Los Angeles Zoo, Ventana 
Wildlife Society, and several other nonprofit partners have provided 
critical genetic management, breeding, rearing, and release to recover 
the California condor. And in 2015, the California condors reached a 
crucial milestone: for the first time in their recovery, more birds 
hatched and fledged than died in the wild.
    Although the AZA and SDZG, along with partners, are investing 
significant resources in the conservation and recovery of the 
California condor and other species, the fight to save these species 
from extinction is far from over. Continued environmental threats make 
condors reliant on costly management efforts including propagation, 
rearing, monitoring, regular trapping, testing, and treatment carried 
out by nonprofit partners. With limited funding for recovery efforts, 
it is more important than ever to invest Federal funding in programs 
that leverage the significant resources and expertise of outside 
partners that can help the USFWS accomplish its recovery objectives in 
the most effective and efficient way. The Recovery Challenge Grants 
program created in fiscal year 2018 recognizes this and has been an 
incredibly important step towards encouraging this valuable ``Multi-
Partner Recovery'' model.
    With these goals in mind, as the Committee develops the fiscal year 
2020 Interior, Environment, and Related Agencies Appropriations bill, 
we urge you to continue to provide robust funding for endangered 
species recovery and prioritize longstanding recovery efforts in which 
existing resources and partner expertise can be most effectively 
leveraged. Specifically, we request an increase for Endangered Species 
Act Recovery actions generally to $100 million and request an increase 
in funding for the Recovery Challenge Grant program to $8 million. This 
funding will enable critical recovery partnerships to sustain their 
work so that we can realize the goal of full recovery for condors and 
other critically endangered species.
    Thank you for your attention to this important request.

Sincerely,
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 
 
 
Douglas G. Myers                          Daniel M. Ashe
President/CEO                             President and CEO
San Diego Zoo Globals                     Association of Zoos & Aquarium
 

                                ADDENDUM

San Diego Zoo Global, California
The Peregrine Fund, Idaho
Association of Zoos and Aquariums, USA

      AZA Member Institutions:

Abilene Zoological Gardens, Texas
Adventure Aquarium, New Jersey
African Safari Wildlife Park, Ohio
Akron Zoological Park, Ohio
Alaska SeaLife Center, Alaska
Albuquerque Biological Park, New Mexico
Alexandria Zoological Park, Louisiana
Aquarium of Niagara, New York
Aquarium of the Bay, California
Aquarium of the Pacific, California
Arizona Sonora Desert Museum, Arizona
Audubon Aquarium of the Americas, Louisiana
Audubon Zoo, Louisiana
Bergen County Zoological Park, New Jersey
Binder Park Zoo, Michigan
Birch Aquarium at Scripps, California
Birmingham Zoo, Alabama
Blank Park Zoo, Iowa
Boonshoft Museum of Discovery, Ohio
Bramble Park Zoo, South Dakota
Brandywine Zoo, Delaware
Brevard Zoo, Florida
Bronx Zoo/WCS, New York
Brookgreen Gardens, South Carolina
Buffalo Zoo, New York
Busch Gardens (Tampa), Florida
The Butterfly House, Missouri
Butterfly Pavilion, Colorado
Buttonwood Park Zoo, Massachusetts
Cabrillo Marine Aquarium, California
Caldwell Zoo, Texas
California Science Center, California
Cameron Park Zoo, Texas
Cape May County Park Zoo, New Jersey
Capron Park Zoo, Massachusetts
Central Florida Zoological Park, Florida
Central Park Zoo, New York
Chahinkapa Zoo, North Dakota
Charles Paddock Zoo, California
Chattanooga Zoo at Warner Park, Tennessee
Cheyenne Mountain Zoological Park, Colorado
Chicago Zoological Society--Brookfield Zoo, Illinois
Cincinnati Zoo and Botanical Garden, Ohio
Cleveland Metroparks Zoo, Ohio
Clyde Peeling's Reptiland, Pennsylvania
Columbus Zoo and Aquarium, Ohio
Como Park Zoo and Conservatory, Minnesota
Connecticut's Beardsley Zoo, Connecticut
Cosley Zoo, Illinois
CuriOdyssey, California
Dakota Zoo, North Dakota
Dallas World Aquarium, Texas
Dallas Zoo, Texas
David Traylor Zoo of Emporia, Kansas
Denver Zoological Gardens, Colorado
Detroit Zoological Park, Michigan
Dickerson Park Zoo, Missouri
Discovery Cove, Florida
Disney's Animal Kingdom, Florida
El Paso Zoo, Texas
Ellen Trout Zoo, Texas
Elmwood Park Zoo, Pennsylvania
Erie Zoo, Pennsylvania
Florida Aquarium, The, Florida
Fort Wayne Children's Zoo, Indiana
Fort Worth Zoo, Texas
Fossil Rim Wildlife Center, Texas
Franklin Park Zoo, Massachusetts
Fresno Chaffee Zoo, California
Georgia Aquarium, Georgia
Gladys Porter Zoo, Texas
Great Plains Zoo and Delbridge Museum of Natural History, South Dakota
Greensboro Science Center, North Carolina
Greenville Zoo, South Carolina
Grizzly & Wolf Discovery Center, Montana
Happy Hollow Zoo, California
Henry Vilas Zoo, Wisconsin
Houston Zoo, Inc. Texas
Hutchinson Zoo, Kansas
Idaho Falls Zoo at Tautphaus Park, Idaho
Indianapolis Zoological Society, Inc., Indiana
International Crane Foundation, Wisconsin
Jacksonville Zoo and Gardens, Florida
Jenkinson's Aquarium, New Jersey
John Ball Zoological Gardens, Michigan
John G. Shedd Aquarium, Illinois
Kansas City Zoo, Missouri
Lake Superior Zoo, Minnesota
Landry's Downtown Aquarium--Denver, Colorado
Landry's Houston Aquarium, Inc., Texas
Lee G. Simmons Conservation Park & Wildlife Safari, Nebraska
Lee Richardson Zoo, Kansas
Lehigh Valley Zoo, Pennsylvania
Lincoln Children's Zoo, Nebraska
Lincoln Park Zoological Gardens, Illinois
Lion Country Safari, Florida
Little Rock Zoological Gardens, Arkansas
Living Desert Zoo & Gardens State Park, New Mexico
The Living Desert Zoo and Gardens, California
Los Angeles Zoo, California
Louisville Zoological Garden, Kentucky
Maritime Aquarium at Norwalk, Inc., Connecticut
Maryland Zoo in Baltimore, Maryland
Memphis Zoological Garden and Aquarium, Tennessee
Mesker Park Zoo & Botanic Garden, Inc., Indiana
Miller Park Zoo, Illinois
Milwaukee County Zoological Gardens, Wisconsin
Minnesota Zoological Garden, Minnesota
Monterey Bay Aquarium, California
Moody Gardens Rainforest and Aquarium, Texas
Mote Marine Laboratory and Aquarium, Florida
Museum of Life and Science, North Carolina
Museum of Science, Massachusetts
Mystic Aquarium, Connecticut
Naples Zoo, Florida
Nashville Zoo, Tennessee
National Aquarium, Maryland
National Aviary, Pennsylvania
National Mississippi River Museum & Aquarium, Iowa
New England Aquarium, Massachusetts
New York Aquarium, New York
Newport Aquarium, Kentucky
North Carolina Aquarium at Fort Fisher, North Carolina
North Carolina Aquarium at Pine Knoll Shores, North Carolina
North Carolina Aquarium on Roanoke Island, North Carolina
North Carolina Zoological Park, North Carolina
Northeastern Wisconsin (NEW) Zoo, Wisconsin
Northwest Trek Wildlife Park, Washington
Oakland Zoo, California
OdySea Aquarium, Arizona
Oglebay's Good Zoo, West Virginia
Oklahoma City Zoo and Botanical Garden, Oklahoma
Omaha's Henry Doorly Zoo & Aquarium, Nebraska
Oregon Coast Aquarium, Oregon
Oregon Zoo, Oregon
Palm Beach Zoo at Dreher Park, Florida
Peoria Zoo, Illinois
Philadelphia Zoo, Pennsylvania
Phoenix Zoo, The, Arizona
Point Defiance Zoo and Aquarium, Washington
Potawatomi Zoo, Indiana
Potter Park Zoological Gardens, Michigan
Prospect Park Zoo, New York
Pueblo Zoo, Colorado
Queens Zoo, New York
Racine Zoological Gardens, Wisconsin
Red River Zoo, North Dakota
Reid Park Zoo, Arizona
Ripley's Aquarium at Myrtle Beach, South Carolina
Ripley's Aquarium of the Smokies, Tennessee
Riverbanks Zoo and Garden, South Carolina
Riverside Discovery Center, Nebraska
Roger Williams Park Zoo, Rhode Island
Rolling Hills Zoo, Kansas
Roosevelt Park Zoo, North Dakota
Rosamond Gifford Zoo at Burnet Park, New York
Sacramento Zoo, California
Safari West, California
Saginaw Children's Zoo, Michigan
Saint Louis Zoo, Missouri
Salisbury Zoological Park, Maryland
San Antonio Zoological Society, Texas
San Diego Zoo, California
San Diego Zoo Safari Park, California
San Francisco Zoological Gardens, California
Santa Barbara Zoological Gardens, California
Santa Fe College Teaching Zoo, Florida
Scovill Zoo, Illinois
SEA LIFE Arizona Aquarium, Arizona
SEA LIFE Carlsbad Aquarium, California
SEA LIFE Charlotte-Concord Aquarium, North Carolina
SEA LIFE Grapevine Aquarium, Texas
SEA LIFE Kansas City Aquarium, Missouri
SEA LIFE Michigan Aquarium, Michigan
SEA LIFE Orlando Aquarium, Florida
Seas, The, Florida
Seattle Aquarium, Washington
SeaWorld Orlando, Florida
SeaWorld San Antonio, Texas
SeaWorld San Diego, California
Sedgwick County Zoo, Kansas
Seneca Park Zoo, New York
Sequoia Park Zoo, California
Shark Reef Aquarium at Mandalay Bay, Nevada
Smithsonian National Zoological Park, District of Columbia
South Carolina Aquarium, South Carolina
Squam Lakes Natural Science Center, New Hampshire
St. Augustine Alligator Farm, Florida
Staten Island Zoo, New York
Steinhart Aquarium, California
Stone Zoo, Massachusetts
Sunset Zoological Park, Kansas
Tennessee Aquarium, Tennessee
Texas State Aquarium, Texas
Toledo Zoological Gardens, Ohio
Topeka Zoo and Conservation Center, Kansas
Tracy Aviary, Utah
Trevor Zoo, New York
Tulsa Zoo, Oklahoma
Turtle Back Zoo, New Jersey
Utah's Hogle Zoo, Utah
Utica Zoo, New York
Virginia Aquarium and Marine Science Center, Virginia
Virginia Living Museum, Virginia
Virginia Zoological Park, Virginia
Western North Carolina Nature Center, North Carolina
Wildlife Safari, Oregon
Wilds, The, Ohio
Woodland Park Zoo, Washington
Zoo Atlanta, Georgia
Zoo Boise, Idaho
Zoo Knoxville, Tennessee
Zoo Miami, Florida
ZOOAMERICA NA Wildlife Park, Pennsylvania
ZooTampa at Lowry Park, Florida
      
                                 ______
                                 
          Prepared Statement of the Bay Mills Indian Community
                              introduction
    Aanii (Hello)! My name is Bryan Newland, and I am the President of 
the Bay Mills Indian Community, which is an Ojibwe Tribe located on 
Lake Superior in Michigan's Upper Peninsula. I am appearing before the 
subcommittee in my capacity as a Member of the Board for the Chippewa 
Ottawa Resource Authority (``CORA'').
    CORA is a consortium of five federally recognized Tribes in 
Michigan that are parties to the 1836 Treaty of Washington with the 
United States: Bay Mills Indian Community, the Grand Traverse Band of 
Ottawa and Chippewa Indians, the Little River Band of Ottawa Indians, 
the Little Traverse Bay Bands of Odawa Indians, and the Sault Ste. 
Marie Tribe of Chippewa Indians.
                                purpose
    I appreciate the opportunity to present testimony to the 
subcommittee to testify on Natural Resources on the importance of 
Federal funding to support the exercise of reserved treaty rights, as 
well as the management of natural resources protected through treaties 
between the United States and Indian Tribes and to urge your continued 
support for funding the Rights Protection Implementation (RPI) program 
at the Department of the Interior. RPI funds are necessary to ensure 
that Tribes are able to exercise their judicially-recognized reserved 
treaty rights in a meaningful way. Tribes use these funds to monitor 
and protect natural resources, enforce Tribal, State, and Federal laws, 
and to protect their reserved treaty rights.
    In fiscal year 2019, Congress appropriated $6,319,467 for RPI 
funding, which is allocated for the CORA Tribes. We are urging Congress 
to maintain this funding in fiscal year 2020, and to increase that 
amount by $40,000.
                               background
    In 1836, the Ojibwe (Chippewa) and Odawa (Ottawa) Tribes (the 
``CORA Tribes'') in Michigan negotiated a treaty with the United States 
to cede much of the lands that were used to establish the State of 
Michigan in 1837. Those ceded lands comprise more than 40 percent (40 
percent) of what is now the State of Michigan. In exchange for this 
valuable cession of land, the CORA Tribes reserved the right to hunt 
and fish throughout the ceded territory, including the adjoining waters 
in Lakes Michigan, Huron and Superior.
    The citizens of the CORA Tribes continued to exercise their treaty 
rights following the ratification of the 1836 Treaty of Washington. In 
the 1950's and 1960's, the State of Michigan began efforts to regulate 
hunting and fishing activities by our Tribal members, and to curtail 
the rights our Tribes reserved in the Treaty of 1836. Many Tribal 
members, including Bay Mills Indian Community member Albert ``Big Abe'' 
LeBlanc, resisted the State's efforts to erode our reserved treaty 
rights by continuing to catch fish with gill nets and without State 
licenses.
    In 1971, the State of Michigan issued a citation to Big Abe LeBlanc 
for fishing with gill nets, and prosecuted him under Michigan's 
criminal laws. Bay Mills Indian Community defended LeBlanc against the 
charges by arguing that the rights reserved by the 1836 Treaty Tribes 
continued to exist, and that they superseded State hunting and fishing 
regulations under the supremacy clause of the United States 
Constitution. The case of People of Michigan v. LeBlanc was ultimately 
resolved by the Michigan Supreme Court in 1976, which held that the 
fishing rights expressly reserved in the 1836 Treaty remained in 
effect.
    As a result of the State of Michigan's prosecution of Big Abe 
LeBlanc, in 1973 the United States filed a lawsuit against the State of 
Michigan on behalf of the 1836 Treaty Tribes to uphold and enforce the 
fishing rights reserved in the 1836 Treaty. That case was titled United 
States v. Michigan. In 1979, Judge Fox of the U.S. District Court for 
the Western District of Michigan entered an opinion and order upholding 
the Tribes' fishing rights in what is now known as ``the Fox 
Decision.''
    Following Judge Fox's famous decision, the parties to United States 
v. Michigan--the Federal Government, the Bay Mills Indian Community, 
the Grand Traverse Band of Ottawa and Chippewa Indians, the Sault Ste. 
Marie Tribe of Chippewa Indians, and the State of Michigan--began 
court-supervised negotiations regarding how the Tribes would exercise 
and regulate our treaty rights. In 1985, the parties reached a 
tentative agreement to establish joint fishery management of the 
fishery with the State of Michigan, and to allocate harvest 
opportunities among Tribal and State-licensed fishers. The U.S. 
District Court entered an order putting that agreement into effect.
    The 1985 Consent Judgment remained in effect until August 2000. At 
that time, the Federal Government, the 1836 Treaty Tribes, and the 
State of Michigan negotiated a successor agreement to regulate Tribal 
fishing activities on the Great Lakes. That agreement expires in August 
2020, and the parties are preparing to negotiate another agreement to 
take its place.
    In 2007, the United States, the CORA Tribes, and the State of 
Michigan finalized a separate agreement to implement the Tribes' 
reserved treaty rights on the ``inland'' portion of the territory ceded 
by the 1836 Treaty. That agreement was also entered as a consent decree 
by the U.S. District Court in the United States v. Michigan case as a 
means to regulate Tribal hunting, fishing, and gathering activities 
under the 1836 Treaty, to establish joint management protocols with the 
State of Michigan, and to allocate harvest opportunity for certain 
species.
    From 1985 until today, the Federal Government, the CORA Tribes, and 
the State of Michigan have worked together to manage the commercial 
fishery in the upper Great Lakes. Since 2007, we have also worked 
together to manage game and other natural resources across the ceded 
territory. While we have had disagreements over the years, this 
framework has allowed us to cooperate to ensure the protection of 
natural resources and the continued vitality of Tribal treaty rights. 
This cooperative framework is now an accepted part of the fabric of 
natural resource protection and conservation law enforcement across 
much of the State of Michigan.
    Funds appropriated to the Rights Protection Implementation program 
are used to implement this cooperative framework.
    It is important to note that this framework is mandated by order of 
the U.S. District Court in the United States v. Michigan litigation; 
and, that the Federal Government negotiated the terms of the 
cooperative resource management framework on behalf of, and with, the 
1836 Treaty Tribes.
   fiscal year 2020 budget request: rights protection implementation
    The CORA Tribes receive funding through the ``Treaty Fisheries'' 
line item in the Rights Protection Implementation program. Those funds 
are used to support the following activities:

  --Establishment of conservation-based fishing regulations;
  --Biological support services to monitor the fishery;
  --Resource protection and enhancement programs;
  --Conservation law enforcement activities and Tribal courts for 
        violation of fishing regulations; and,
  --Intertribal coordination of activities and policies with Federal 
        and State agencies.

    The CORA Tribes also receive RPI funding to implement the 2007 
Consent decree relating to the exercise of ``inland'' treaty rights. 
Those funds support the following activities:

  --Establishment of conservation-based hunting, fishing, and gathering 
        regulations;
  --Biological support services to monitor wildlife, plant-life, and 
        habitat;
  --Resource protection and enhancement programs;
  --Invasive species monitoring and controls;
  --Conservation law enforcement activities and Tribal courts for 
        violation of hunting, fishing, and gathering regulations; and,
  --Intertribal coordination of activities and policies with Federal 
        and State agencies.

    CORA does not support any budget request for Rights Protection 
Implementation in the fiscal year 2020 which is less than the sum 
appropriated for fiscal year 2019. Any cut in funding levels would 
leave inadequate funding to ensure that we are able to successfully 
implement the terms of the 2000 and 2007 Consent Decrees in United 
States v. Michigan. Less funding will require the CORA Tribes to scale 
back our conservation, monitoring, and enforcement activities. This 
will result in staff layoffs, increased risk of conflict between Tribes 
and other communities over resources, and a reduction in protection of 
the fishery, wildlife, and habitat throughout the ceded territory.
    CORA is urging Congress to maintain for Rights Protection 
Implementation in the fiscal year 2020 budget the same amount as 
provided for in fiscal year 2019 and to increase the CORA Tribes share 
to $6,359,467. We believe that this funding is adequate to allow us to 
successfully work with Federal and State agencies to implement the 
terms of the 2000 and 2007 Consent Decrees.
    CORA is also requesting that Congress appropriate $2.5 million to 
the Bureau of Indian Affairs for ``Litigation Support'' for Tribal 
treaty rights litigation. While ``Litigation Support'' funds are not 
used to directly implement Tribal treaty rights, they are used by 
Tribes--like the CORA Tribes--to negotiate consent decrees that ensure 
cooperative resource management and avoid litigation between the United 
States and State governments over Tribal treaty rights. The current 
Great Lakes Consent Decree expires in August 2020, and the Tribes 
require additional funds to prepare for both negotiation and possible 
litigation to create a new allocation/management regime.
    The Department of the Interior does not presently have adequate 
``Litigation Support'' funds to ensure that the CORA Tribes are able to 
gather data, hire experts, and retain legal counsel to negotiate a new 
consent decree in the United States v. Michigan litigation.
    The Department of the Interior has provided Litigation Support 
funding to the CORA Tribes throughout the 45 year history of the United 
States v. Michigan case to litigate important issues and negotiate 
consent decrees. But, in the past year, the Department provided 
insufficient funds to enable the Tribes to prepare to negotiate a new 
Consent Decree in United States v. Michigan. This is a dramatic 
departure from the Department's prior support to the CORA Tribes 
throughout this litigation; and, we are deeply concerned that the 
Department will not provide the resources necessary to negotiate a new 
consent decree. This will increase the odds of litigation over our 
treaty rights, and jeopardize our cooperative management framework.
    CORA estimates a need for $500,000 in fiscal year 2019 to negotiate 
a new consent decree (or, to prepare to litigate the scope of our 
treaty rights beyond 2020). This funding will ensure that the CORA 
Tribes can participate in negotiations for a successor agreement to the 
2000 Consent Decree.
                               conclusion
    The Rights Protection Implementation Program is necessary to ensure 
that the United States continues to meet its obligations under treaties 
with Tribes across the country. These funds are also necessary to 
ensure that Tribes can meet our obligations under Federal Court orders 
applicable to our reserved treaty rights. As Supreme Court Justice Hugo 
Black famously proclaimed: ``Great nations, like great men, keep their 
word.''
    For these reasons, the CORA Tribes respectfully request your 
support for fiscal year 2020 RPI funding at its current level, with 
$6,359,467 allocated for the CORA Tribes. Miigwetch (thank you) for the 
opportunity to present our views. I am happy to answer any questions 
that you may have.
                                 ______
                                 
     Prepared Statement of the Bristol Bay Area Health Corporation
    The Requests of the Bristol Bay Area Health Corporation (BBAHC) for 
the fiscal year 2020 Indian Health Service appropriations and our 
comments are as follows:

  --Clinic Leases.--Direct the Indian Health Service (IHS) to fully 
        fund Village Built Clinic (VBC) and tribally leased clinics 
        under section 105(l) of the Indian Self-Determination and 
        Education Assistance Act (ISDEAA).
  --CSC Funding.--Continue to fund Contract Support Costs (CSC) at 100 
        percent and provide funding on a permanent and mandatory basis.
  --Advance Appropriations/Sequestration.--Provide advance 
        appropriations for the IHS and shield its budget from 
        sequestration or rescissions.
  --Increase IHS behavioral healthcare funding (Mental Health/Substance 
        Abuse)
  --Special Diabetes Program for Indians (SDPI).--Multi-year 
        authorization and increased mandatory funding.
  --Land Transfer Legislation.--Enactment of S. 224/H.R. 933, to 
        facilitate transfer of a parcel of land from IHS to BBAHC on 
        which our dental clinic is located.

    The Bristol Bay Area Health Corporation was created in 1973 to 
provide healthcare services to Alaska Natives of Southwest Alaska. We 
began operating and managing the Kanakanak Hospital and the Bristol Bay 
Service Unit for the IHS in 1980, and were the first tribal 
organization to do so under the ISDEAA. BBAHC is a co-signer to the 
Alaska Tribal Health Compact with the IHS under the ISDEAA and is now 
responsible for providing and promoting healthcare to the people of 28 
Alaska Native Villages.
    We have made significant progress but now deal with modern-day 
health problems. Today, rather than TB and influenza epidemics, we 
struggle with diseases of a modern society that include chronic 
illnesses such as cancer, diabetes, heart disease and behavioral and 
mental health needs. The life expectancy of our people has increased 
from 47 years of age in 1952 to 69.4 in 1998, still below that of U.S. 
residents and other Alaskans.
    Village Built Clinics and Section 105(l) Leasing.--We thank 
Congress for appropriating a $36 million increase over base funding for 
Tribal health clinic leases in the Fiscal Year 2019 Consolidated 
Appropriations Acts. And we thank the Alaska delegation, and in 
particular Senator Murkowski, for her leadership on this issue, 
including her line of questioning of the IHS this issue in your May 1, 
2019 hearing. The $25 million increase over fiscal year 2018 was in 
recognition of IHS's responsibility as confirmed by the 2016 Federal 
court decision in Maniilaq v. Burwell, which held that section 105(l) 
of the ISDEAA provides an entitlement to full compensnation for leases 
of Tribal facilities used to carry out ISDEAA agreements. BBAHC 
utilizes both Village-Built and Section 105(l) leasing. Small 
chronically underfunded remote clinics serve as an essential health 
lifeline in rural Alaskan villages where there is no road system to 
connect villages to urban centers. As noted above, BBAHC serves 28 
remote villages in southwest Alaska.
    Congress has asked IHS to submit a report on the budget impact of 
meeting its responsibility under Maniilaq v. Burwell. We oppose any 
appropriataions rider, such as those included in the administration's 
budget proposals for fiscal years 2018 and 2019, which would allow IHS 
to avoid its responsibility to compensate Tribes fully for these costs. 
We ask that Congress again decline to include such a provision in the 
fiscal year 2020 IHS appropriation. In addition, we urge that any 
infrastructure proposal that may move forward include assistance for 
village built and tribally leased clinics, many of which are in poor 
condition and/or need to be replaced.
    Contract Support Costs (CSC).--BBAHC thanks the House and Senate 
Interior Appropriations Subcommittees for their leadership in 
committing to fully fund IHS and BIA contract support costs and for 
finding a way to do it through providng ``such sums as may be 
necessary'' and making it a separate account in the IHS and BIA 
budgets. For many years, both the IHS and BIA vastly underpaid the 
contract support costs owed to Tribal organizations, and this 
transformation makes an enormous difference in helping to ensure that 
Tribes and Tribal organizations can successfully exercise their rights 
and responsibilities under the ISDEAA. The shift is also likely to 
significantly improve the Federal-Tribal government-to-government 
relationship. We ask that you again not include any proposed proviso 
that would effectively deny CSC carryover authority granted by ISDEAA 
as you did in fiscal years 2017, 2018, and 2019.
    The House Committee Report language fom fiscal year 2018 
encouraging IHS to pay CSC on their grant programs was welcome, and we 
will continue to advocate to IHS that they take this action.
    BBAHC will continue to advocate for our long-term goal of ensuring 
that full CSC appropriations are made permanent and mandatory. Under 
the ISDEAA, the full payment of CSC is not discretionary; it is a legal 
obligation affirmed by the Supreme Court of the United States. Funding 
of CSC on a discretionary basis has in the recent past placed the House 
and Senate Appropriations Committees, in their own words, in the 
``untenable position of appropriating discretionary funds for the 
payment of any legally obligated contract support costs.'' BBAHC is 
committed to working with the appropriate Congressional committees to 
determine how best to achieve that goal.
    Advance Appropriations for IHS.--We are heartened by the 
introduction of legislation to provide advance appropriations for the 
IHS. Representative Young's bill, H.R. 1135, would provide advance 
appropriations for the IHS Services and Facilities accounts. Other 
legislation on this topic is S. 229, introduced by Senator Udall and 
companion legislation, H.R. 1128, introduced by Representative 
McCollum. Those bills would provide advance appropriations to the IHS 
Services and Contract Support Costs accounts and the BIA/BIE Operation 
of Indian Programs, Contract Support Costs and the Indian Guaranteed 
Loan Program.
    Sequestration.--BBAHC respectfully requests the subcommittee's 
support in amending the Balanced Budget and Emergency Deficit Control 
Act to exempt Indian programs, such as the IHS and BIA budgets, from 
across-the board sequestration of funds. We supported Congress fully 
exempting Veterans Health Administration programs from sequestration. 
However, Indian healthcare, as a Federal trust responsibility, should 
be afforded equal treatment. A number of Members of this subcommittee 
and other members of Congress have publicly stated that it was an 
oversight that the Indian budgets were not included in the exempt 
category when the Balanced Budget and Emergency Deficit Control Act was 
enacted.
    Behavioral Health.--We have testified before Congress previously 
regarding the hardships in providing for our communities' behavioral 
and mental health needs, particularly with regard to our youth. As you 
know, there is an epidemic of suicide among Alaska Natives, especially 
teens. BBAHC has well-qualified professional staff who service 
approximately 6,500 people in our region. But our social workers, 
counsellors and behavioral health aides have a theoretical caseload of 
300 persons each. The ratio of mental health clinicians to clients is 1 
to 1,300. Our 14-bed residential youth facility for substance abuse 
(Jake's Place) has an Alcohol and Drug Safety program funded by the 
State of Alaska but it is primarily an education program, not a 
treatment program, and much of the education is done remotely, via the 
Internet.
    We appreciate the fiscal year 2019 increases for IHS Alcohol and 
Substance Abuse ($17.7 million) and Mental Health ($5.4 million) 
programs while urging additional increases under the IHS Mental health 
program for behavioral health integration and the Zero Suicide 
Initiative and under the Alchohol and Substance Abuse account for 
Generation Indigenous, the pilot youth project, and detoxification. Of 
the fiscal year 2019 increase in the Substance Abuse account, $10 
million is for a Special Behavioral Health Pilot Program modeled after 
the Special Diabetes Program for Indians and we thank the Inteiror 
Appropriations Subcommittees for your work on this forward-looking 
proposal.
    We acknowledge the HHS Substance Abuse and Mental Health Services 
Administration (SAMHSA) fiscal year 2019 Tribal behavioral health 
grants ($20 million substance abuse; $20 million mental health) but the 
need in Indian Country is so great.
    Opioid Epidemic.--Indian Country, which has been severely affected 
by the opioid abuse epidemic, was initially left out of the funding 
under the State Opioid Response grants. Now, however, Tribes/Tribal 
organziations received $50 million in fiscal year 2018 and will receive 
the same amount of funding in fiscal year 2019 from that program. Per 
Tribal recommendations ,the funding is being distributed via formula. 
The recently enacted opoiod legislation, the SUPPORT Act signed into 
law on October 24, 2018, includes a Tribal funding allocation and we 
applaud that. Still, recommendations from around the Nation urge that 
significantly more resources are needed to address this crisis.
    Special Diabetes Program for Indians.--The SDPI authorization is 
set to expire on September 30, 2019, and while we expect Congress will 
extend it in some manner, we hope it will not be another short-term 
extension. For the stability of the program we and other Tribes and 
Tribal organizations advocate for a mult-year authorization and an 
increase in its mandatory funding. SDPI, currently funded at $150 
million annually, has not had an increase since fiscal year 2004. 
Pending legislation would extend the program for 5 years at $150 
million per year, but we urge that it be provided an overdue increase 
to at least $200 million per year to help accout for medical inflation 
and expansion.
    Land Transfer Legislation.--BBAHC also asks for your support in 
enacting legislation that would direct the Secretary of the Department 
of Health and Human Services to convey a 1.474-acre parcel of land, via 
warranty deed, to BBAHC for the land on which our new state-of the art 
dental clinic is located. The legislation is HR 933, introduced on 
January 30, 2019 by Congressman Young, and S. 224, introduced on 
February 1, 2017 by Senators Murkowski and Sullivan. On January 29, the 
Senate Committee on Indian Affairs approved S. 224.
    The House and Senate bills are identical, and there is no reason 
they should not pass under unanimous consent or under suspension of the 
rules. The property transfer authorized by these bills would enable the 
land transfer from IHS to BBAHC via warranty deed, and would supersede 
any existing quitclaim deed. It would allow the BBAHC to have greater 
control over the land and more opportunities for financing as well as 
to remove any IHS reversionary interests.
    Our dental facility opened in September 2016, on the grounds of the 
Kanakanak Hospital Compound. The new clinic replaced a dilapidated 
clinic and is providing expanded dental care to our region, where there 
are very few public dental clinics. Our service population is 6,500. 
Part of the funding for the dental facility came from BBAHC reinvesting 
its share of a CSC settlement with IHS that was paid to compensate for 
years of contract underpayments to the Tribal health organization. The 
clinic is the first permanent building owned by BBAHC on the hospital 
campus and there is a lot of pride and self-determination that flows 
from this tribally-owned dental building.
    We appreciate your leadership and commitment to the advancement of 
Native American people and thank you for your consideration of the 
concerns and requests of the Bristol Bay Area Health Corporation.

    [This statement was submitted by Robert J. Clark, President/CEO.]
                                 ______
                                 
   Prepared Statement of the Business Council for Sustainable Energy
    On behalf of the Business Council for Sustainable Energy (BCSE), I 
am writing to express support for fiscal year 2020 Federal investment 
in initiatives that help businesses manage environmental issues, foster 
transparency and best practices in emissions and water management, and 
recognize leadership in environmental stewardship and sustainability.
    As Congress moves forward with appropriations legislation for 
fiscal year 2020, the Council urges Congress to continue robust funding 
for the EPA offices of Air and Radiation, Enforcement Division, and 
Transportation and Air Quality related to international climate change 
programs, climate change research and partnership programs, the 
Renewable Fuel Standard, water management, and the ENERGY STAR program.
    BCSE is a coalition of companies and trade associations from the 
energy efficiency, natural gas and renewable energy sectors. It 
includes independent electric power producers, investor-owned 
utilities, public power, manufacturers, commercial end users and 
service providers in energy and environmental markets. Founded in 1992, 
the coalition's diverse business membership is united around the 
continued revitalization of the economy and the creation of a secure 
and reliable energy future in America.
    As a business group working to advance clean energy policies over 
the last 27 years, BCSE has seen first-hand the importance of the 
Federal role EPA fills in sharing information about new technologies 
and practices to help speed adoption and allow consumers to make more 
informed decisions.
    The Federal Government's role in these efforts is critical to 
provide transparent, standardized and independent data and expertise 
that cannot be replicated by private sector or non-governmental 
organizations with the same credibility.
            maintaining america's status as an energy leader
    Through regulatory and voluntary initiatives, EPA helps foster the 
U.S. leadership role in clean energy and transportation technologies 
globally. Many EPA programs, including the CHP Partnership, Green Power 
Partnership, Natural Gas Star, Methane Challenge, AgStar, Center for 
Corporate Climate Leadership, SmartWay Transport Partnership, and 
others, embody longstanding public-private endeavors that benefit 
American businesses and help them continue to compete on a global 
scale.
    For example, the Natural Gas Star program brings companies together 
to voluntarily conduct projects to reduce methane emissions and share 
lessons learned on innovative, cost-effective best practices. The new 
Methane Challenge program (within Natural Gas STAR) provides a credible 
platform for partner companies to transparently report the voluntary 
methane reduction measures they are implementing company-wide and to be 
publicly recognized as leaders in methane reduction. Both programs help 
companies share technology innovations that modernize and improve the 
efficiency of the country's energy delivery system.
    EPA initiatives provide market transparency, encourage voluntary 
action, and identify companies that are leaders in businesses and in 
environmental protection. Additionally, EPA's laboratories lead the 
world in capabilities that make the United States preeminent in 
research and analysis which supports private sector capabilities to 
enhance economic growth and emissions reductions simultaneously.
              epa programs provide value to u.s. taxpayers
    Federal investments in programs implemented by the EPA have 
multiple benefits including reducing air pollution, saving consumers 
money, and achieving energy independence and security. Additionally, 
clean energy supported over 3 million jobs in the United States in 
2016, due in part to EPA and other government programs that encourage 
the use of clean energy and energy efficiency.\1\
---------------------------------------------------------------------------
    \1\ 2018 U.S. Energy and Employment Report, available at: https://
static1.squarespace.com/
static/5a98cf80ec4eb7c5cd928c61/t/5c7f3708fa0d6036d7120d8f/
1551849054549/USEER+2019+US+Energy+Employment+Report.pdf.
---------------------------------------------------------------------------
    Programs like ENERGYSTAR have proven track records of success and 
are extremely cost-effective. Through brand recognition, information 
and positive publicity, the ENERGY STAR program has provided the 
catalyst for many consumers, homeowners, businesses, and State and 
local governments to invest in energy efficiency. The Council opposes 
moving to a fee-based funding model for ENERGYSTAR, which would erode 
the integrity and effectiveness of the program.
    Under the Office of Transportation and Air Quality, EPA has run the 
Renewable Fuel Standard, which has enabled the development of the 
biomass and biogas industry to help meet lower carbon energy needs. The 
Council encourages EPA to fund the registration of projects producing 
RINs from biogas derived fuels, including renewable electricity. This 
pathway would open up the potential for electricity derived from 
biogas, renewable biomass and solid forms of biomass used as 
transportation fuel and could significantly contribute to the program.
epa programs provide critical support to states, tribes, and localities
    Many State, local, and Tribal efforts to improve the environment 
are dependent on the information and resources provided by Federal 
programs. The EPA provides valuable technical assistance, analytical 
tools, and outreach support to State, local, and Tribal governments 
that enable the States to administer robust clean energy and energy 
efficiency programs. Investing in energy efficiency, renewable energy, 
and environmental policies and programs is an important way for State 
and local governments to improve air quality and to improve people's 
health, and to save money. For example, EPA's State and Local Climate 
and Energy Program offers expertise about energy efficiency, renewable 
energy, and climate change policies and programs to interested State, 
local, and Tribal governments. By providing these resources, EPA 
removes barriers that would otherwise prohibit action at the local 
level due to resource constraints or lack of information on best 
practices.
      the federal role for air quality and climate change programs
    EPA can address barriers to the adoption of emissions-reducing 
technologies--such as a lack of reliable information, inconsistent 
regulatory environments, and workforce training gaps--through 
activities that include providing objective information, creating 
networks between the public and private sector and providing technical 
assistance. These efforts can help energy consumers in all sectors. 
Through its programs on renewable energy, natural gas, combined heat 
and power and energy efficiency, EPA encourages the use of clean, 
efficient, and market-ready technologies that can lower costs and 
improve resilience in addition to lowering emissions.
    EPA also has an important role to play as an international leader 
in climate science and emission reduction frameworks. EPA is engaged in 
a variety of international activities to advance climate change 
science, monitor our environment, and promote activities that reduce 
greenhouse gas emissions. EPA establishes partnerships, provides 
leadership, and shares technical expertise to support these activities.
    The Council wishes to work with Members of the Appropriations 
Committee to maximize the value of limited Federal dollars and we 
request the opportunity to meet with your staff to further discuss the 
Council's position and support for EPA programs. For questions please 
contact Carolyn Sloan on the BCSE's staff at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="89eafae5e6e8e7c9ebeafaeca7e6fbeea7">[email&#160;protected]</a>
                                 ______
                                 
    Prepared Statement of the Center for Invasive Species Prevention
    We are contacting you in support of funding for programs at the 
USDA Forest Service that are essential for protecting the resilience of 
the Nation's forests in the face of invasive pests. Specifically, we 
ask that the subcommittee support funding of the State and Private 
Forestry Forest Health Management program at a level of $104 million; 
and Research and Development at $310 million.
    About one-third of America's land area supports forests or 
woodlands. These forests provide many benefits, including wood and non-
wood forest products, jobs for rural economies, wildlife habitat, 
carbon sequestration, clean water and air, and aesthetic enjoyment. 
While these benefits are well understood for rural and wildland 
forests, the contributions of urban forests are sometimes not 
recognized. Urban forests moderate temperatures and winds, thus 
reducing energy expenditures and related emissions of carbon dioxide 
and other pollutants. They moderate stormwater runoff and related 
management costs. Urban trees while they filter air and water 
pollutants. And they improve the health and wellbeing of city 
residents.
                 forest health and management programs
    The Cooperative Forest Health Management program supports partners' 
efforts to prevent, monitor, suppress, and eradicate insects, diseases, 
and invasive plants through technical and financial assistance to State 
forestry agencies who deal directly with private forest owners. Our 
request for $104 million for Forest Health Management program would 
increase funds for work on non-Federal cooperative lands from $41 to 
$48 million. We ask for this increase for two reasons. First, over 60 
percent of America's forests are owned by States or private entities. 
Forest-based rural economies and the thousands of jobs these non-
Federal forests support depend on the assistance received from USDA 
Forest Service experts.
    Second, non-native pests such as the emerald ash borer, spotted 
lanternfly, polyphagous and Kuroshio shot hole borer, and laurel wilt 
disease are usually first introduced in cities or suburbs. This occurs 
because the imports which transport these pests are usually destined 
for population centers. As a result, the newly arrived pests cause 
enormous damage to urban forests.
    However, the pests don't stay in the cities. Instead, they 
proliferate and spread to forests in rural and wildland areas. This 
movement is often facilitated by people moving firewood or plants (such 
as through the nursery trade) or even household goods. In this way, the 
pests introduced to our cities threaten forests across the continent--
including in National forests. For example, the emerald ash borer is 
killing trees in many National forests across the Northeast and 
Midwest; the polyphagous and Kuroshio shot hole borers are now killing 
trees in the Cleveland National Forest. All were first discovered in 
urban forests.
    To be most effective, the USDA Forest Health Management program 
must address pests where they are first found--in urban or semi-rural 
forests--before they spread to National forests.
    Our request for $48 million for Cooperative Lands seeks to restore 
some of the capacity lost in past budget reductions. Between fiscal 
year 2010 and fiscal year 2018, spending to combat 11 specified non-
native insects and pathogens fell by about 50 percent. Furthermore, the 
Forest Service' responsibilities to combat these pests is likely to 
increase because the USDA Animal and Plant Health Inspection Service 
has proposed to terminate the program under which it regulates movement 
of firewood, nursery stock, and other items which spread the emerald 
ash borer. Such a termination will greatly increase the risk that the 
emerald ash borer will spread to un-infested Western States. The step 
will also exacerbate the risk of spreading many other wood-boring pests 
that are also transported in firewood.
    Another example of the value of the Cooperative Lands program is 
the pathogen that causes sudden oak death (SOD). Since 2001, this 
program has provided an average of $1.9 million per year to the Oregon 
Department of Forestry as well as to National forests and Bureau of 
Land Management to treat SOD in Curry County, Oregon. An economic 
analysis concluded that continuing this cooperative containment program 
is essential to protecting economic, cultural, aesthetic, and 
ecological values of southwest Oregon. Continuing the slow-the-spread 
program at approximately the same level over the next 20 years--at a 
cost of $30 million--could prevent the loss of 1,200 jobs by 2028 and 
$57.9 million in wages from 2028.
    Of course, a variety of non-native and native pests are threatening 
National forests. Consequently, CISP also supports funding the Forest 
Health Management program on National Forests at $56 million for fiscal 
year 2020.
       usda forest service forest and rangeland research program
    Effective programs to prevent, suppress, and eradicate non-native 
insects, diseases, and plants depend on understanding of the pest-host 
relationship gained through research. We seek $310 million for the USDA 
Forest Service Research and Development program in fiscal year 2020.
    Past reductions have already severely reduced the Service's ability 
to carry out vitally important research on non-native insects, 
diseases, and plants. Thus, funding for research conducted by the 
Research stations on 10 non-native pests decreased from $10 million in 
fiscal year 2010 to just $3 million in fiscal year 2018. Cuts of this 
magnitude cripple the Service's ability to develop effective tools to 
manage the growing number of pests threatening the health of the 
Nation's forests, regardless of ownership.
    The budget does not specify funding levels within the Research and 
Development budget that should be allocated to non-native insects, 
pathogens, or other invasive species. We ask the subcommittee to 
include in its report language an instruction that the Service increase 
the funding for this vital research area to 5 percent of the total 
research budget.
    For further information, please contact Faith T. Campbell at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="384850414c575c575d4a78595754165b575516">[email&#160;protected]</a>

    [This statement was submitted by Faith T. Campbell, President.]
                                 ______
                                 
 Prepared Statement of the Central Arizona Water Conservation District
    On behalf of the Central Arizona Water Conservation District 
(CAWCD), I encourage you to include $2 million for salinity specific 
projects in the Bureau of Land Management's (BLM) Aquatic Habitat 
Management sub-activity (formerly known as the Soil, Water and Air 
Program) in fiscal year 2020. The funding will help protect the water 
quality of the Colorado River that is used by approximately 40 million 
people for municipal and industrial purposes and used to irrigate 
approximately 5.5 million acres in the United States.
    CAWCD manages the Central Arizona Project (CAP), a multi-purpose 
water resource development and management project that delivers 
Colorado River water into central and southern Arizona. The largest 
supplier of renewable water in Arizona, CAP diverts an average of over 
1.5 million acre-feet of Arizona's 2.8 million acre-foot Colorado River 
entitlement each year to municipal and industrial users, agricultural 
irrigation districts, and Indian communities.
    Our goal at CAP is to provide an affordable, reliable and 
sustainable supply of Colorado River water to a service area that 
includes more than 80 percent of Arizona's population.
    These renewable water supplies are critical to Arizona's economy 
and to the economies of Native American communities throughout the 
State. Nearly 90 percent of economic activity in the State of Arizona 
occurs within CAP's service area. The canal provides an economic 
benefit of $100 billion annually, accounting for one-third of the 
entire Arizona gross State product. CAP also helps the State of Arizona 
meet its water management and regulatory objectives of reducing 
groundwater use and ensuring availability of groundwater as a 
supplemental water supply during future droughts. Achieving and 
maintaining these water management objectives is critical to the long-
term sustainability of a State as arid as Arizona.
                 negative impacts of concentrated salts
    Natural and man-induced salt loading to the Colorado River creates 
environmental and economic damages. EPA has identified that more than 
60 percent of the salt load of the Colorado River comes from natural 
sources. The majority of land within the Colorado River Basin is 
federally owned, much of which is administered by BLM. Human activity, 
principally irrigation, adds to salt load of the Colorado River. 
Further, natural and human activities concentrate the dissolved salts 
in the River.
    The U.S. Bureau of Reclamation (Reclamation) has estimated the 
current quantifiable damages at about $454 million per year to U.S. 
users with projections that damages would increase to approximately 
$574 million per year by 2035 if the program were not to continue. 
These damages include:

  --A reduction in the yield of salt sensitive crops and increased 
        water use to meet the leaching requirements in the agricultural 
        sector;
  --Increased use of imported water and cost of desalination and brine 
        disposal for recycling water in the municipal sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the cost of cooling operations and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --An increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector; and
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins.

    Adequate funding for salinity control will prevent the water 
quality of the Colorado River from further degradation and avoid 
significant increases in economic damages to municipal, industrial and 
irrigation users.
    history of the blm colorado river basin salinity control program
    In implementing the Colorado River Basin Salinity Control Act of 
1974, Congress recognized that most of the salts in the Colorado River 
originate from federally owned lands. Title I of the Salinity Control 
Act deals with the U.S. commitment to the quality of waters being 
delivered to Mexico. Title II of the Act deals with improving the 
quality of the water delivered to users in the United States. This 
testimony deals specific with Title II efforts. In 1984, Congress 
amended the Salinity Control Act and directed that the Secretary of the 
Interior develop a comprehensive program for minimizing salt 
contributions to the Colorado River from lands administered by BLM.
    In 2000, Congress reiterated its directive to the Secretary and 
requested a report on the implementation of BLM's program (Public Law 
106-459). In 2003, BLM employed a Salinity Coordinator to increase BLM 
efforts in the Colorado River Basin and to pursue salinity control 
studies and to implement specific salinity control practices. 
Meaningful resources have been expended by BLM in the past few years to 
better understand salt mobilization on rangelands. With a significant 
portion of the salt load of the Colorado River coming from BLM 
administered lands, the BLM portion of the overall program is essential 
to the success of the effort. Inadequate BLM salinity control efforts 
will result in significant additional economic damages to water users 
downstream.
    The threat of salinity continues to be a concern in both the United 
States and Mexico. On November 20, 2012, a five-year agreement, known 
as Minute 319, was signed between the U.S. and Mexico to guide future 
management of the Colorado River. Among the key issues addressed in 
Minute 319 included an agreement to maintain current salinity 
management and existing salinity standards. The United States, Mexico, 
and key water users, including CAWCD, worked since 2015 to develop a 
successor agreement, Minute 323, which was finalized on September 27, 
2017. Minute 323 continues collaboration and cooperation among the 
United States and Mexico with respect to salinity control in the 
Colorado River system. The CAWCD and other key water providers are 
committed to meeting these goals.
                               conclusion
    Implementation of salinity control practices through the BLM 
Program has proven to be a very cost effective method of controlling 
the salinity of the Colorado River and is an essential component of the 
overall Colorado River Basin Salinity Control Program.
    CAWCD urges the subcommittee to include $2 million for salinity 
specific projects in the BLM's Soil, Water and Air Program. The 
continuation of funding will prevent further degradation of the water 
quality of the Colorado River and further degradation and economic 
damages experienced by municipal, industrial and irrigation users. A 
modest investment in source control pays huge dividends in improved 
drinking water quality for nearly 40 million Americans.

    [This statement was submitted by Theodore C. Cooke, General 
Manager.]
                                 ______
                                 
            Prepared Statement of Choctaw Nation of Oklahoma
    On behalf of the Choctaw Nation of Oklahoma, I am submitting this 
written statement for the hearing record on the fiscal year 2020 
budgets for the Indian Health Service (IHS) and the Bureau of Indian 
Affairs (BIA). This testimony identifies healthcare funding priorities 
and budget issues important to the Choctaw Nation and its citizens.
    First, and foremost, the Choctaw Nation requests that Congress 
exempt Tribal Government Services and Program Funding from 
Sequestrations, Unilateral Rescissions and Budget Cuts in all future 
appropriations. We also request that Congress continues to fully fund 
Contract Support Cost (CSC) without impacting direct program funding.
    The Choctaw Nation requests that the subcommittee works to approve 
timely appropriations for fiscal year 2020, and we trust all efforts 
will be made to have a Federal appropriation prior to the beginning of 
the fiscal year. However, in fiscal year 2019, the Interior 
appropriations, including funding to provide direct healthcare services 
for our people, was severely delayed due to the longest partial 
government shutdown in our history. The Indian Health Service (IHS) 
system (including Tribal) was the only Federal direct healthcare system 
that was affected by the partial government shutdown, leaving IHS and 
Tribes alike scrambling to ensure that patients continued to receive 
access to critical healthcare services during this time. Tribes, with 
the inability to be paid any of its compact funds during the partial 
shutdown period, found themselves in the awkward position of finding a 
way to continue to administer services that are Trust obligations of 
the Federal Government for which the government was not providing 
funding. This situation is untenable.
    The Government Accountability Office (GAO) finalized a report in 
September, 2018 analyzing the possibility of advanced appropriations 
for Indian Health Service. IHS Advanced Appropriations would eliminate 
the negative effect of any government shutdown and allow these critical 
health services to operate uninterrupted. It is time for advanced 
appropriations to be enacted for IHS, and we look to the subcommittee 
for leadership and support to make it a reality this year.
    Thank you for continuing to appropriate funds in 2017 for the Joint 
Venture Project (JVP), a proven, successful model for leveraging 
Federal resources to improve access to care in Indian Country. We most 
recently opened the Choctaw Nation Durant Regional Medcial Clinic, in 
February 2017. We were the first Tribal or IHS program to have an 
ambulatory surgery suite in an outpatient facility. Other services also 
include primary care, dental, pediatrics, lab, diabetes care, community 
health nurses, optometry, radiology services (including MRI, CT, bone 
density, mammography, ultrasound, fluoroscopy and x-ray), pharmacy, 
behavioral health, physical therapy, and numerous specialty care 
services. This JVP with IHS has been an invaluable exercise in 
partnership and investment in improved quality healthcare for Native 
American people.
    Although there are many facility needs in the Choctaw Nation and 
Oklahoma City Area, none are included on the IHS Health Facilities 
Construction program listing. The current backlog would take decades to 
construct at the current pace of appropriations and yet it will still 
not address any needs in Oklahoma. The only viable option for Tribal 
health facilities in Oklahoma is the JVP, which is a very small and 
highly competitive program. IHS has not held a competition for the 
program since 2014 and has created a similar 'queue' as the large 
Health Facilities Construction program, which is both bureaucratic and 
ineffective. The IHS should be strongly encouraged to abandon this 
failed approach and compete the JVP on at least a bi-annual basis to 
address the highest facility priorities.
    We strongly urge the Committee to protect the Federal trust and 
treaty obligations that are funded in the Federal domestic budget. 
Federal funding that meets Federal Indian treaty and trust obligations 
also provides significant contributions to the economy. The Department 
of the Interior (DOI), the BIA and Bureau of Indian Education (BIE) 
contribute substantially to economic growth in Tribal areas through 
advances in infrastructure, strategic planning, improved practices of 
governance, and the development of human capital.
                     the choctaw nation of oklahoma
    The Choctaw Nation of Oklahoma is the third largest Native American 
Tribal government in the United States with over 230,000 members. The 
Choctaw Nation territory consists of all or part of 10\1/2\ counties in 
Southeast Oklahoma, and we are proudly one of the State's largest 
employers. The Nation operates a hospital at Talihina, Oklahoma, and a 
system of eight (8) outpatient health facilities, along with a broad 
range of ancillary services.
    The Nation also administers referred specialty care and sanitation 
facilities construction; higher education; Johnson O'Malley program; 
housing improvement; child welfare and social services; law 
enforcement; and, many other programs and services. The Choctaw Nation 
has operated under the Self-Governance authority in the DOI since 1994 
and in the Department of Health and Human Services' IHS since 1995. As 
a Self-Governance Tribe, the Nation is able to re-design programs to 
meet tribally-specific needs without diminishing the United States' 
trust responsibility.

NATIONAL BUDGET REQUESTS--INDIAN HEALTH SERVICE

    1.  Special Diabetes Program for Indians.--Support reauthorization 
of $200 million/year for 5 years (IHS): The administration's budget 
proposes to move SDPI from ``mandatory funding'' which Congress must 
authorize from time to time to ``discretionary spending'' which would 
allow Congress to control the funding going to SDPI as part of the 
annual appropriations process. That means SDPI will compete with other 
Indian programs annually, as opposed to being funded automatically 
outside of that environment today. Indian Country has not been 
consulted on this proposal and the rationale for the request has not 
been made available to us. We request no changes until such 
consultation occurs.
    2.  Contract Support Costs--Indian Health Service and Bureau of 
Indian Affairs (IHS and BIA).--The Nation appreciates the continued 
support of the Committees to fully fund CSC requirements without 
impacting direct Indian health programs. Beginning in fiscal year 2014, 
fully funding CSC has made a tremendous improvement and properly 
retained important health program funding to direct services. We 
request that IHS and BIA be instructed to consult with Tribes on every 
provision of the CSC Policy until both sides reach consensus; and if at 
any time the agencies seek to unilaterally make changes, they should be 
directed to consult with Tribes prior to any changes in the CSC Policy.
    3.  Purchased and Referred Care (PRC).--The Purchased/Referred Care 
(PRC) program pays for urgent and emergency, specialty care and other 
critical services that are not directly available through IHS and 
Tribally-operated health programs when no IHS direct care facility 
exists, or the direct care facility cannot provide the required 
emergency or specialty care, or the facility has more demand for 
services than it can currently meet. Although the Nation operates a 
hospital facility, the hospital is located in a very rural area, we are 
the only provider in the community and services are limited. In fact, 
our hospital does not have an intensive care unit, which requires 
patients to be flown to another facility using PRC. Therefore, PRC is a 
significant need to provide intensive care and tertiary care, as well 
as emergency transportation.
    4.  IHS Mandatory Funding (Maintaining Current Services).--Existing 
funding levels must keep pace with population growth, inflation and the 
like, or the result is similar to a reduced budget with less purchasing 
power. One very good example are the extraordinary rise in 
pharmaceutical costs. Over the last 3 years, the IHS has seen an 
increase of 8.8 percent in pharmaceutical expenditures alone.
    5.  Workforce Development--permanent funding for Graduate Medical 
Education.--The Choctaw Nation has operated an accreditated and 
successful Graduate Medical Education program, or GME since receiving a 
grant from the Health Care Resources and Services Administration (HRSA) 
in 2010. The Nation has found the GME program to be integral to our 
physician recruiting and retention efforts in a rural, remote area. As 
a Teaching Health Center, our residents are very likely to practice 
following their residency in our health system, or close by in rural 
Oklahoma, which is also underserved. Physicians considering employment 
are often interested in GME and it becomes a recruitment tool outside 
the residents themselves. Other benefits are: (1) becoming a THC is a 
marker of quality; (2) improved in-house physician coverage; (3) 
``growing your own'' medical staff from nearby rural communitites; (4) 
high retention and satisfaction rates of residency graduates; (5) 
promotes an environment of life long learning; (6) provides enhanced 
continuing medical education opportunities; (7) encourages Medical 
Staff to be up on current literature and topics; and (8) Engages the 
existing staff and is seen as a ``breath of fresh air''. While the HRSA 
funding has been helpful, it is competitive and sporatic--sometimes 
with unknown future appropriations. GME programs should be funded 
permanently in the Indian health system so that IHS and Tribal sites 
with hospitals can address some of the dire challenges in recruiting 
and retaining health professionals in rural areas.
    6.  Opioid Funding.--We appreciate the set asides for Indian health 
that have been made in various initiatives for funding addressing the 
opioid epidemic. Increase funding and include Tribal set asides rather 
than to make it funding through States. Addressing the opioid epidemic 
is a nationwide priority. American Indians and Alaska Natives (AI/AN) 
face opioid related fatalities three times the rate of non-Natives.
    7.  Information Technology.--The IHS health information technology 
(HIT) program continues to face increased demand for systems 
improvements and enhancements, rising costs, and increased information 
technology (IT) security requirements driven in part by medical 
advances, and ever-growing and more complex requirements for HIT 
capabilities. Virtually any new program initiative has IT requirements 
for functionality, modality, data collection, and reporting which then 
must be added to a clinician's work flow and managed within the HIT 
portfolio. In addition to the overall increased demand, the HIT program 
must also plan for a change in Electronic Health Record platforms 
resulting from the decision by the Veteran's Administration (VA) to 
replace their current legacy HIT platform, VistA. To prepare for this 
transition that is expected to occur over the next 5 years, the IHS HIT 
program will be required to devote additional budgetary resources for 
infrastructure modernization, training, and support.

    Thank you for accepting my written statement on behalf of the 
Choctaw Nation of Oklahoma.

    [This statement was submitted by Melanie Fourkiller, Senior Policy 
Analyst.]
                                 ______
                                 
         Prepared Statement of the Choose Clean Water Coalition
Dear Chair Murkowski and Ranking Member Udall:

    To follow a common sense path to maintain healthy local water and 
restore Chesapeake Bay, which is critical for our regional economy, the 
undersigned members of the Choose Clean Water Coalition request funding 
for the following programs in fiscal year 2020:
                  u.s. environmental protection agency
    Chesapeake Bay Program--$90 million.--We request an increase in 
funding to $90 million for the base budget of the Chesapeake Bay 
Program, which coordinates Chesapeake Bay watershed restoration and 
protection efforts. More than two-thirds of the program's funds are 
passed through to the States and local communities for on-the-ground 
restoration work through the Small Watershed Grants, Innovative 
Nutrient and Sediment Reduction Grants, State Implementation Grants, 
Chesapeake Bay Regulatory and Accountability Program grants and local 
government grants. This would be the first increase in funding for the 
Chesapeake in 6 years--since a very modest 4 percent increase in fiscal 
year 2015. We are advocating for an additional $17 million to go to the 
States, local governments and local entities to do on-the-ground 
restoration that will help the region move toward its clean up goals in 
2025.
    We strongly support the Chesapeake Small Watershed Grants and the 
Innovative Nutrient and Sediment Reduction Grants--and request $9 
million for each of these critical grant programs. These grants go 
directly to on-the-ground restoration efforts by local governments and 
communities, including to family farms, and are critical to addressing 
the new increased pollution loadings from Conowingo Dam. We recognize 
the high priority that Congress has placed on these two grant programs 
for years and support the effort to get more Federal funds on the 
ground at the local level.
    We urge you to fund the Chesapeake Bay Program at $90 million in 
fiscal year 2020, and specify that $9 million of that amount be 
provided for Small Watershed Grants ($3 million more than in fiscal 
year 2019) and $9 million be provided for Innovative Nutrient and 
Sediment Reduction Grants ($3 million more than in fiscal year 2019). 
We also support additional funding of $5 million for Local Government 
Implementation Funding and $6 million for priority watersheds to 
address the additional pollution reductions that must be met over the 
next 6 years, due to the Conowingo Dam.
    Clean Water State Revolving Fund (SRF)--$5 billion.--This program 
is critical to any national initiative to provide a Federal 
Infrastructure Spending Plan and it provides the lifeblood for the 
1,779 local governments throughout the Chesapeake region to secure 
their water infrastructure. The funding level for the Clean Water SRF 
has eroded over the years as the clean water needs of local communities 
have increased dramatically. The Clean Water SRF is one of the funding 
components of the Clean Water Act to ensure that local governments have 
Federal funding support for the Act's mandates. We request tripling the 
current funding for the Clean Water SRF.
    These low interest loans are critical for clean water and for 
ratepayers in the Chesapeake region and nationwide. We urge you to 
support the $5 billion funding level that would provide $1.07 billion 
in low interest loans to local governments in Delaware, Maryland, New 
York, Pennsylvania, Virginia, West Virginia and the District of 
Columbia--three times the current level of funding. We also strongly 
support targeting 20 percent of the Clean Water SRF funds for green 
infrastructure and innovative projects including those to manage 
stormwater, which helps communities improve water quality while 
creating green space, mitigating flooding. As the list of clean water 
infrastructure needs in the Chesapeake region continues to expand, we 
request that Congress triple the funding of the Clean Water SRF from 
fiscal year 2019.
                       department of the interior
    U.S. Geological Survey (USGS)--Chesapeake Ecosystem Science and 
Monitoring--$12.85 million.--We support full funding for USGS to 
continue to provide the critical science necessary for restoration and 
protection efforts for fish, wildlife and the 18 million people in the 
Chesapeake Bay watershed. USGS monitoring and assessment informs 
decisions made by the Department of the Interior as well as other 
Federal and State partners in the Chesapeake Bay Program on issues 
related to fisheries and associated water quality, waterfowl and their 
habitats, and land protection.
    In fiscal year 2020, USGS, working with the National Oceanic and 
Atmospheric Administration (NOAA), will put a new focus on habitat 
conditions for commercial and recreational fisheries. This will help 
State and Federal agencies develop a more comprehensive approach to 
restore and protect fisheries. The comprehensive approach will better 
tie together Chesapeake Bay Program efforts to: (1) reduce nutrient and 
sediment pollution under the Bay total maximum daily load (TMDL); (2) 
mitigate the effects of toxic contaminants; and (3) improve stream and 
estuary habitats important for fisheries.
    National Park Service--Chesapeake Regional Programs--$3.891 
million.--The National Park Service Chesapeake Bay Office has led 
efforts on a number of small, but very important programs that focus on 
increasing public access and the use of ecological, cultural and 
historic resources of the Chesapeake region.
    We are requesting increased funding for the key program currently 
administered by the National Park Service Chesapeake Bay Office in the 
Chesapeake Bay watershed: Chesapeake Bay Gateways and Trails ($3.0 
million). Gateways helps to preserve critical landscapes and natural 
resources in the region and has contributed over $16 million in 
technical and financial assistance for more than 300 projects in the 
Bay watershed. We urge you to increase funding for the Gateways program 
from $2.02 million in fiscal year 2019 to $3 million in fiscal year 
2020. In addition, we urge continued support for coordinating programs 
through the National Park Service Chesapeake Bay Office ($495,000). In 
addition, as in the Consolidated Appropriations Act, 2018, we urge you 
to extend the authorization for the Chesapeake Bay Gateways and Trails 
program, specifically for 2 more years.
    We also support continued funding for the Captain John Smith 
Chesapeake National Historic Trail at $396,000. We are, however, very 
concerned with the recent administrative transfer of this Historic 
Trail program from the National Park Service Chesapeake Bay Office to 
the Colonial National Historic Park in Virginia. We urge Congress to 
reassert your intent that the Captain John Smith Chesapeake National 
Historic Trail be administered by the National Park Service Chesapeake 
Bay Office in Annapolis, Maryland, as it has been since 2007.
       department of the interior/u.s. department of agriculture
    National Park Service/U.S. Fish and Wildlife Service/U.S. Forest 
Service--Land and Water Conservation Fund Priority Projects in the 
Chesapeake Bay Watershed--$16.7705 million.--We strongly support full 
funding for the Land and Water Conservation Fund. In particular, we 
support continuation of the strategic use of funds from the Land and 
Water Conservation Fund for priority projects in the Chesapeake Bay 
watershed. These efforts target conservation funds for critical 
priority landscapes throughout the Chesapeake Bay region. The following 
projects would protect more than 6,000 acres of nationally significant 
resources.

  --U.S Fish and Wildlife Service--James River National Wildlife 
        Refuge--$750,000 (255 acres)

  --U.S Fish and Wildlife Service--Rappahannock River Valley National 
        Wildlife Refuge--$3 million (968 acres)

  --U.S. Forest Service--George Washington and Jefferson National 
        Forests--$435,500 (144 acres)

  --U.S. Forest Service--George Washington and Jefferson National 
        Forests--$4,285,000 (2,897 acres)

  --National Park Service--Captain John Smith Chesapeake National 
        Historic Trail--$5,000,000 (1,400 acres)

  --National Park Service--Richmond National Battlefield Park--
        $3,300,000 (380 acres)

    Thank you for your consideration of these very important requests. 
Please contact Peter J. Marx at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f8889d8c9d8ab89b9097978b9d9b949d99968f998c9d8ad6978a9f">[email&#160;protected]</a> with any 
questions or concerns.

Action Together Northeastern Pennsylvania
Alliance for the Chesapeake Bay
Alliance for the Shenandoah Valley
American Chestnut Land Trust
American Rivers
Anacostia Riverkeeper
Anacostia Watershed Society
Annapolis Green
Arundel Rivers Federation
Audubon Maryland/DC
Audubon Naturalist Society
Audubon Society of Northern Virginia
Back Creek Conservancy
Baltimore Tree Trust
Blue Heron Environmental Network
Blue Ridge Watershed Coalition
Blue Water Baltimore
Butternut Valley Alliance
Cacapon Institute
Capital Region Land Conservancy
Catskill Mountainkeeper
Center for Progressive Reform
Chapman Forest Foundation
Chemung River Friends
Chesapeake Bay Foundation
Chesapeake Climate Action Network
Chesapeake Conservancy
Chesapeake Legal Alliance
Chesapeake Wildlife Heritage
Clean Fairfax
Clean Water Action
Clean Water Linganore
Coalition for Smarter Growth
Conservation Voters of Pennsylvania
DC Environmental Network
Delaware Nature Society
Ducks Unlimited
Earth Conservation Corps
Earthworks
Earth Forum of Howard County
Eastern Pennsylvania Coalition for Abandoned Mine Reclamation
Eastern Shore Land Conservancy
Elizabeth River Project
Environmental Integrity Project
Environmental Justice Center of Chestnut Hill United Church
Environmental Working Group
Experience Learning
Float Fishermen of Virginia
Friends of Accotink Creek
Friends of Frederick County
Friends of Herring Run Park
Friends of Little Hunting Creek
Friends of Lower Beaverdam Creek
Friends of Quincy Run
Friends of Sligo Creek
Friends of the Bohemia
Friends of the Cacapon River
Friends of Dyke Marsh
Friends of the Middle River
Friends of the Nanticoke River
Friends of the North Fork of the Shenandoah River
Friends of the Rappahannock
Friends of St. Clements Bay
Goose Creek Association
Interfaith Partners for the Chesapeake
James River Association
Lackawanna River Conservation Association
Lancaster Farmland Trust
Little Falls Watershed Alliance
Lower Shore Land Trust
Lower Susquehanna Riverkeeper
Lynnhaven River NOW
Maryland Conservation Council
Maryland Environmental Health Network
Maryland League of Conservation Voters
Maryland Native Plant Society
Maryland Nonprofits
Maryland Science Center
Mattawoman Watershed Society
Mid-Atlantic Council Trout Unlimited
Middle Susquehanna Riverkeeper
Muddy Branch Alliance
National Aquarium
National Parks Conservation Association
National Wildlife Federation
Natural Resources Defense Council
Nature Abounds
NeighborSpace of Baltimore County
New York League of Conservation Voters
New York State Council of Trout Unlimited
Neighbors of the Northwest Branch
Otsego County Conservation Association
Otsego Land Trust
Partnership for Smarter Growth
Patapsco Heritage Greenway
Patuxent Tidewater Land Trust
PennEnvironment
PennFuture
Pennsylvania Council of Churches
Pennsylvania Council of Trout Unlimited
Piedmont Environmental Council
Potomac Conservancy
Potomac Riverkeeper
Potomac Riverkeeper Network
Potomac Valley Audubon Society
Queen Anne's Conservation Association
Preservation Maryland
Rachel Carson Council
Restore America's Estuaries
Rappahannock League for Environmental Protection
Richmond Audubon Society
Rivanna Conservation Alliance
St. Mary's River Watershed Association
Savage River Watershed Association
Severn River Association
Shenandoah Riverkeeper Shenandoah Valley Network
ShoreRivers
Sidney Center Improvement Group
Sierra Club--Maryland Chapter
Sleepy Creek Watershed Association
Southeast Rural Community Assistance Project
Southern Environmental Law Center
Southern Maryland Audubon Society
SouthWings
Susquehanna Heritage
Talbot Preservation Alliance
The Downstream Project
Transition Howard County
Trash Free Maryland
Trout Unlimited
Upper Potomac Riverkeeper
Upper Susquehanna Coalition
Virginia Association of Biological Farming
Virginia Conservation Network
Virginia League of Conservation Voters
Warm Springs Watershed Association
Waterfront Partnership of Baltimore, Inc.
Waterkeepers Chesapeake
West Virginia Citizen Action Group
West Virginia Environmental Council
West Virginia Highlands Conservancy
West Virginia Rivers Coalition
Wetlands Watch
Wicomico Environmental Trust
      
                                 ______
                                 
    Prepared Statement of the Chugach Regional Resources Commission
    The Chugach Regional Resources Commission (CRRC) is pleased to 
submit written testimony reflecting the needs, concerns and requests of 
CRRC for fiscal year 2020 appropriations for the Bureau of Indian 
Affairs (BIA). Our recurring funding is included in the 
administration's annual budget within the BIA's Tribal Management 
Development Program (TM/DP) account. The Bureau of Indian Affairs not 
only has a legal and contractual obligation to provide funding for the 
CRRC, but the CRRC is able to translate this funding into real economic 
opportunity for those living in the small Alaska Native villages 
located in Prince William Sound and Lower Cook Inlet. We leveraged a 
meager budget of well under a half million dollars in BIA funds and to 
operate with a budget of nearly $2 million to support community-based 
programs (almost a five-to-one ratio). In previous years, the 
administration has proposed to cut TMDP funding by 25 percent and slash 
our funding. Reducing the already-modest funding we and other 
organizations like ours receive would be a mistake, and we urge this 
Committee to consider expanding on the resources we have available to 
do our critical work.
    For example, a modest increase of $100,000 in fiscal year 2020 
funding for CRRC may translate into as much as $500,000 in additional 
revenues that we can use to serve our Alaska Native communities. As 
noted in the administration's budget request for fiscal year 2019 
concerning the BIA's TM/DP:

        [T]he Tribal Management/Development Program (TMDP) supports 
        Tribal self- determination by allowing Tribal management of 
        fish and game programs . . . Contract agreements are executed 
        with individual fish and wildlife resource Tribes [and 
        consortia] to accomplish management objectives. Tribes 
        administer programs that contribute significantly towards 
        economic development [].

    CRRC is an intertribal organization organized in 1984 by the seven 
Native Villages located in Prince William Sound and Lower Cook Inlet in 
South-central Alaska; namely, Tatitlek Village IRA Council, Chenega IRA 
Council, Port Graham Village Council, Nanwalek IRA Council, Native 
Village of Eyak, Qutekcak Native Tribe, and Valdez Native Tribe. The 
success of our programs, from both an economic and social standpoint, 
make them an integral part of our constituent Tribes' ongoing 
development. Reductions in our BIA funding will limit our outreach and 
ability to leverage additional Federal, State, local and other Tribal 
resources which are critical to our program's and our constituent 
Tribes' success.
    CRRC was created to address environmental and natural resources 
issues and to develop culturally-sensitive economic projects at the 
community level to support the sustainable development of the region's 
natural resources. The Native Villages' action to create a separate 
Tribal entity demonstrates the concern and importance the Tribal 
governments hold for environmental and natural resource management and 
protection--which is the wellspring for jobs and the perpetuation of 
our Alaska Native communities and culture.
    Through its many important programs, CRRC provides employment for 
up to 20 Native people in the Chugach Region annually--an area of high 
unemployment--through programs that conserve and restore our natural 
resources and ensure a future for our Tribal communities.
    Federal investment in CRRC has translated into real economic 
opportunities, savings and community investments that have a great 
impact on the Chugach region. Our employees are able to earn a living 
and support their families, thereby removing them from the rolls of 
people needing Alaska State and Federal support. This contributes to 
family and community stability and is a bulwark against depression, 
substance abuse, suicide and other ills that plague remote Tribal 
communities. With the job opportunities made possible by CRRC programs, 
Alaska Native members are able to reinvest their wages into the 
community, supporting the employment of and opportunities for other 
Alaska Native and non-Native families. Our programs also support future 
economic and commercial opportunities for the Prince William Sound and 
Lower Cook Inlet regions--protecting and developing our shellfish 
industry and other natural resources.
    Programs.--CRRC has leveraged its recurring BIA funding into almost 
$2 million to support our community-based programs. Specifically, the 
$410,000 in base funding provided through BIA appropriations has 
allowed CRRC to maintain core administrative operations and seek 
specific project funding from other sources such as the Administration 
for Native Americans (ANA), the State of Alaska, Bureau of Indian 
Affairs (BIA), U.S. Forest Service, U.S. Fish & Wildlife Service, the 
U.S. Department of Education, the Exxon Valdez Oil Spill Trustee 
Council, the North Pacific Research Board and other foundations. This 
diverse funding pool has enabled CRRC to develop and operate several 
important programs that provide vital services, valuable products, and 
necessary employment and commercial opportunities. These programs 
include:
    Alutiiq Pride Shellfish Hatchery.--The Alutiiq Pride Shellfish 
Hatchery is the only shellfish hatchery in the State of Alaska. The 
20,000 square foot shellfish hatchery is located in Seward, Alaska, and 
houses shellfish seed (cockles, littlenecks and butter clams), brood 
stock and algae production facilities. Alutiiq Pride is undertaking a 
hatchery nursery operation, as well as grow-out operation research to 
adapt mariculture techniques for the Alaskan Shellfish industry. The 
Hatchery is also conducting scientific research on blue and red king 
crab as part of a larger federally-sponsored program.
    Alutiiq Pride has already been successful in culturing geoduck, 
oyster, littleneck clam, and razor clam species and is currently 
working on sea cucumbers. This research has the potential to 
dramatically increase commercial opportunities for the region in the 
future. The activities of Alutiiq Pride are especially important for 
the region; as the only shellfish hatchery in the State, it is uniquely 
qualified to carry out this research and production.
    Alutiiq Pride staff are working on developing a shellfish sanctuary 
concept in Port Graham and Resurrection Bay, acquiring land use permits 
from the Department of Natural Resources for Port Graham and from the 
Alaska Railroad for Resurrection Bay. Port Graham has been stocked with 
220 little neck, 200 cockles and 220 butter clam adults and CRRC is 
working to reduce predation and ensure greater survival rates.
    Alutiiq Pride also devotes considerable time to its Ocean 
Acidification (OA) monitoring lab, processing 300 discrete samples 
collected from villages and scientific partners. A Burk-O- Later, an 
instrument that tests for aragonite saturation, required for shellfish 
to form their shells, requires frequent maintenance and calibration.
    Alutiiq Pride recently implemented a preventive maintenance program 
to prolong the useful life of essential capital equipment. Alutiiq 
Pride installed chillers at its facility that were donated by the 
University of Alaska. The chillers will house king crab brood stock in 
the event water temperatures are too high. In 2016, warm waters caused 
the crabs to release their larvae early which reduced survivability.
    Alaska Migratory Bird Co-Management Council.--As a member of the 
AMBCC, CRRC works with 10 Native non-profit organizations, the U.S. 
Fish & Wildlife Service (USFWS), and the State of Alaska to develop 
regulations governing the subsistence harvest of migratory birds during 
the spring and summer. As a result of many years representing the 
Chugach Region on the AMBCC, CRRC was unanimously selected to serve as 
the managing entity for the statewide program, housing staff in the 
CRRC office and providing overall management of the subsistence 
migratory bird program on behalf of the USFWS. Funding for this program 
comes from the USFWS to the Alaska Native non-profit organization 
through cooperative agreements. There is no specific line item for the 
AMBCC in the USFWS budget, so the Tribes do not know what level of 
funding will be available for the program, from year to year. In 
addition, funding decisions for the AMBCC are done internally at the 
USFWS, so there is no opportunity for input by the Tribes in this 
decisionmaking process. The Native Caucus of the AMBCC has directed the 
staff to pursue a Public Law 93-638 contract or compact with the USFWS 
and we are asking Congress to support this effort with $1 million in 
funding.
    Climate Change.--CRRC has been identifying and addressing climate 
needs relative to understudied resources of high cultural value to our 
member Tribes through its Climate Change Program. Changing climate 
affects ecosystems in the Gulf of Alaska, Prince William Sound, Cook 
Inlet, and the Kenai Peninsula in a variety of ways. CRRC's member 
Tribes are extremely susceptible to climate change from adverse effects 
relating to declining water resources, reduced aquaculture 
productivity, changing resource harvest patterns, and resource 
availability. This program addresses ecosystem information needs as it 
will demonstrate the need to integrate across information types (i.e., 
weather, climate, socioeconomic, policy, and ecology) to better inform 
those involved in climate change-related decisionmaking for ecosystem 
management. Through your support for this project, we have been able to 
secure additional funding to focus on vulnerability assessments for key 
subsistence species, the development of an adaptation plan, and harmful 
algal blooms, and food security.
    Traditional Foods Security.--There is heightened concern about the 
availability of and the potential contaminants in the subsistence foods 
that Tribal members eat. The primary food sources have changed 
dramatically over the past 100 years. Traditional food systems such as 
hunting, fishing, and gathering have declined and there has been an 
increased reliance on store-bought foods. The intrinsic value of 
harvesting a local food sources in traditional ways cannot be 
overstated. Issues our member Tribes face include changing marine and 
terrestrial environments where traditional foods gathered in the forest 
and on the beaches near the villages are no longer available. The ways 
in which foods are produced, distributed and consumed have direct 
implications for the local economy and community.
    Bureau of Indian Affairs Invasive Species Program.--Each year, the 
Bureau of Indian Affairs announces grant opportunities through the BIA 
Natural Resources program. In the announcement under ``Project 
Eligibility'' it reads: ``Successful applications will focus on the 
management/control of invasive species on Tribal trust lands, 
individual Indian allotment lands, or in areas managed by Tribes 
through treaties or agreements.'' The Invasive Species Program is for 
invasive species on land managed by Tribes and is not intended for 
marine waters, since these are not areas managed by Tribes. Some of our 
Tribes, Nanwalek and Port Graham, have trust lands, the others, Chenega 
Bay, Eyak, Seward, Valdez and Tatitlek do not. Therefore, Nanwalek and 
Port Graham would be eligible for the Invasive Species Program funding 
for any work on those allotment lands, but CRRC could not implement a 
region-wide invasive species management approach. This funding is 
important to our Tribes. Coastal Tribes, especially those who rely on 
healthy marine ecosystems, are especially vulnerable to the potential 
harm of invasive species. CRRC's member Tribes are willing to initiate 
a proactive response to the dangers of invasive species, but the trust 
land requirement prevents them from participating.
                               conclusion
    We urge the subcommittee and Congress to protect and increase 
CRRC's fiscal year 2019 appropriation level of $410,000 in the BIA's 
fiscal year 2020 budget for TMDP. We also, urge the subcommittee to 
support the AMBCC with additional funding and direct the BIA to move 
past its overly-restrictive eligibility requirements for the Invasive 
Species program. With a five-to-one return on every Federal dollar 
invested in CRRC, we clearly demonstrate our ability to effectively 
administer these dollars.
    Thank you for the opportunity to present our testimony.

    [This statement was submitted by Patricia K. Schwalenberg, 
Executive Director.]
                                 ______
                                 
        Prepared Statement of the Coalition Against Forest Pests

                              SIGNATORIES:

American Forests, Association of Fish and Wildlife Agencies, California 
  Forest Pest Council, Center for Invasive Species Prevention, Maine 
    Forest Service, National Association of Forest Owners, National 
 Woodland Owners Association, Pennsylvania Department of Conservation 
and Natural Resources Bureau of Forestry, Vermont Woodlands Association

Dear Honorable Chairwoman Murkowski, Honorable Ranking Member Udall, 
and Honorable Committee Members:

    The Coalition Against Forest Pests (CAFP) consists of non-profit 
organizations, for-profit entities, landowners, State agency 
associations and academic scholars who have joined together to improve 
our Nation's efforts to address forest health threats.
    We thank you for your continued support of USDA Forest Service 
State and Private Forestry programs in the fiscal year 2019 Omnibus 
bill. We write to ask your support for adequate funding of programs 
managed by the USDA Forest Service that help keep the Nation's forests 
healthy by preventing introduction and spread of invasive pests. 
Specifically, we ask the Subcommittee on Interior, Environment and 
Related Agencies to maintain fiscal year 2019 funding levels in fiscal 
year 2020 and increase funding for specific programs with a long and 
effective history of detecting and eradicating non-native forest pests.
    Forested landscapes cover approximately one-third of the land area 
of the United States. All forests benefit Americans. Whether rural or 
urban; Federal, State or privately forests they provide wood products, 
jobs for rural economies, wildlife habitat, carbon sequestration, clean 
water and air, and aesthetic enjoyment.
       forest health and management programs on cooperative lands
    Maintaining or increasing funding for forest health management on 
cooperative lands is essential to ensuring the health and productivity 
of the Nation's forests, over 60 percent of which are State or 
privately owned. Forest-based rural economies and the thousands of jobs 
they support are also tied to healthy forests, not only in the forest 
products sector but for recreation industries as well. The economic 
well-being of tens of thousands of American families depends on healthy 
forests.
    Since fiscal year 2010, spending to combat 2011 specified non-
native insects and pathogens decreased about 50 percent--to $12.8 
million in fiscal year 2018. Pest species suffering the largest cuts 
are the Asian longhorned beetle, hemlock woolly adelgid, oak wilt, 
sudden oak death, and the combination of gold spotted oak borer, 
thousand cankers disease, and laurel wilt. These pests do not limit 
themselves to destruction on federally owned lands.
    Since 2001, Oregon Department of Forestry, USFS, & BLM have spent 
an average of $1.9 million per year to treat Sudden Oak Death in Curry 
County, Oregon. Continuing this cooperative containment program is 
essential to protecting economic, cultural, aesthetic, and ecological 
values of southwest Oregon. Based on models of disease spread, recent 
economic analysis concluded that continuing to spend at approximately 
the same level--$30 million spent on slow the spread treatments over 
the next 20 years--could offset the loss of 1,200 jobs by 2028 and $580 
million in wages from 2028 to 2038.
    The Cooperative Forest Health Management program supports 
activities related to prevention, monitoring, suppression, and 
eradication of insects, diseases, and plants through technical and 
financial assistance to State forestry agencies who deal directly with 
private forest owners. Because forest pests and disease know no bounds, 
controlling pests on private lands can stop millions of dollars in 
damage to public lands and vice versa.

CAFP supports funding the Forest Health Management on Cooperative Lands 
Program at $51 million and on National Forests at $59 million for 
fiscal year 2020.
       usda forest service forest and rangeland research program
    Effective programs to prevent, suppress, and eradicate non-native 
insects, diseases, and plants depend on understanding of the pest-host 
relationship gained through research.
    The Service's ability to carry out vitally important research on 
non-native insects, diseases, and plants has already been severely 
reduced by cuts in previous years. Funding for research conducted by 
the Research stations on 10 non-native pests has decreased from $10 
million in fiscal year 2010 to just $3 million in fiscal year 2018. 
Cuts of this magnitude cripple the Service's ability to develop 
effective tools to manage the growing number of pests threatening the 
health of the Nation's forests across all ownerships.

CAFP supports funding the Forest and Rangeland Research Program in 
fiscal year 2020 at $303 million, of which $32 million should be 
allocated to invasive species research.
        usda forest service urban and community forests program
    Urban and community forests play a critical role in the health of 
our cities and the health our cities' residents. These forests and tree 
canopies provide noise abatement, temperature reductions, runoff 
filtration and flood control as well as improving the quality of life 
for those living in and around these green areas.
    When non-native insects and diseases attack trees and forests, 
enormous losses may arise. Most of the quantified costs are in cities 
and suburbs; across the country each year, municipal governments spend 
more than $2 billion per year to remove trees on city property that are 
killed by non-native pests. Homeowners spend $1 billion every year to 
remove and replace trees on their properties and absorb an additional 
$1.5 billion in reduced property values. As new pests are introduced, 
and established pests spread, these costs will only continue to rise.
    A considerable number of non-native invasive pests and diseases are 
introduced through cities. As noted above, these pests cost people 
living in these cities and suburbs--directly or through their local 
taxes--billions of dollars per year to remove and replace trees killed 
by the non-native pests. As new pests are introduced, and established 
pests spread, these costs will only continue to rise. For example, the 
polyphagous and Kuroshio shot hole borers are projected to cost 
municipalities and homeowners in California $36.2 billion if spread is 
not prevented.

CAFP supports funding the Urban and Community Forests Program at $35 
million for fiscal year 2020.

    For further information, please contact Faith T. Campbell, 
Coalition Contact Person, Coalition Against Forest Pests, at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2b5b43525f444f444e596b4a44470548444605">[email&#160;protected]</a>
                                 ______
                                 
       Prepared Statement of the Coalition for American Heritage
Chairwoman Murkowski, Ranking Member Udall, and Members of the 
subcommittee:

    Thank you for the opportunity to offer the Coalition for American 
Heritage's recommendations for fiscal year 2020 Interior, Environment 
and Related Agencies appropriations.
    The Coalition for American Heritage (``the Coalition'') is an 
organization comprised of heritage professionals, scholars, small 
businesses, non-profits and history-lovers across the country. Our 
350,000 members work together to promote our Nation's commitment to 
historic preservation. Preserving historic resources helps stabilize 
neighborhoods, attract investment, create jobs, generate tax revenues, 
support small businesses, and power America's heritage tourism 
industry.
    To continue our country's proud tradition of preservation, the 
Coalition urges robust funding for all of the U.S. Department of the 
Interior's historic preservation and cultural management programs, and 
for the National Endowment for the Arts and the National Endowment for 
the Humanities. Respectfully, the Coalition urges the Committee to 
approve the following funding levels for fiscal year 2020:

  --National Park Service (NPS): $2.5 billion
  --NPS Historic Preservation Fund: $148.5 million
  --NPS Deferred Maintenance: $476 million
  --NPS Office of International Affairs: $1.5 million
  --NPS National Heritage Areas and Heritage Partnership Program: $32 
        million
  --Bureau of Land Management (BLM) Cultural Resources Management: $20 
        million
  --BLM National Landscape Conservation System: $45 million
  --Department of Interior Land and Conservation Fund (LWCF): continued 
        increase toward the full $900 million in dedicated funding from 
        offshore mineral leasing revenues
  --National Endowment for the Arts (NEA): $167.5 million
  --National Endowment for the Humanities (NEH): $167.5 million
                         national park service
    We urge the Committee to fund the NPS at the fiscal year 2019 
enacted level of $2.5 billion. The popularity of our national parks is 
at an all-time high. Our country cannot afford unwarranted reductions 
to visitor services and cuts to the responsible stewardship of our 
historic and cultural resources. The NPS is responsible for 418 
National Park System units. Over the past 20 years, more than 40 new 
parks have been added to the park system. Many recent additions 
preserve historic places and themes that have traditionally been 
underrepresented within the system.
    Within the $2.5 billion requested, we recommend robust funding for 
Resource Stewardship, including $1 million for the National Underground 
Railroad Network to Freedom, $2 million for the African American Civil 
Rights Network, and $2 million for the Reconstruction Era National 
Historic Network. Funding for these popular initiatives provides the 
public with valuable educational resources that honor and preserve our 
country's rich African American heritage and history for future 
generations.
                     nps historic preservation fund
    We urge the Committee to appropriate $148.5 million in fiscal year 
2020 for the Historic Preservation Fund (HPF), a vital program that, in 
partnership with States, local governments and Tribes, is the 
cornerstone of our country's historic preservation initiatives.

    Within the $148.5 million request, we recommend the following 
funding breakdown:

  --$60 million for State Historic Preservation Officers (SHPOs)for 
        heritage preservation and protection programs.
  --$20 million for Tribal Historic Preservation Officers (THPOs).
  --$5 million for a new competitive grant program to digitize, map and 
        survey historic and cultural resources. Using this program, 
        SHPOs and THPOs could create and enhance GIS-based maps of 
        historic resources and develop predictive models. This 
        investment would advance the faster, less expensive, and more 
        efficient delivery of infrastructure projects while ensuring 
        the protection of America's most cherished historic resources.
  --$30 million for competitive grants to document, interpret, and 
        preserve historic sites associated with the Civil Rights 
        Movement.
  --$15 million for Save America's Treasures grants for the 
        preservation of nationally significant sites, structures and 
        artifacts.
  --$10 million for grants to Historically Black Colleges and 
        Universities to preserve and repair historic buildings.
  --$7.5 million for preservation grants to revitalize historic 
        properties of national, State, and local significance.
  --$1 million for competitive grants for the survey and nomination of 
        properties associated with communities currently 
        underrepresented on the National Register of Historic Places 
        and National Historic Landmarks.
                        nps deferred maintenance
    We urge the Committee to appropriate $476 million in fiscal year 
2020 to address the deferred maintenance backlog at America's national 
parks. Almost half of the current backlog concern historic assets. 
Robust investments in this area will contribute to the successful 
preservation of historic sites and structures and other NPS cultural 
resources. Without critically needed funding for repair and 
rehabilitation, these critical sites, buildings and artifacts that draw 
visitors to our national parks assets risk further deterioration and 
potential loss.

    Within the $476 million request, we recommend the following funding 
breakdown:

  --$160 million for Line Item Construction projects
  --$150 million for Repair and Rehabilitation
  --$166 million for Cyclic Maintenance

    Line Item Construction projects: We support at least $160 million 
toward addressing the needs of the highest priority non-transportation 
assets.
    Repair and Rehabilitation: We recommend $150 million, a $14 million 
increase above the fiscal year 2019 enacted level. The Committee's 
support for these programs has been very helpful in addressing the 
long-term maintenance needs at America's national parks over the past 
several years.
    Cyclic Maintenance: We recommend $160 for cyclic maintenance, a $15 
million increase above the fiscal year 2019 enacted level. These 
efforts are critical to preventing assets from degrading to the point 
of needing repair. Performing regular maintenance will help prevent an 
increase in the number of deferred maintenance projects.
         national park service: office of international affairs
    We urge a $1.5 million fiscal year 2020 appropriation for the NPS 
Office of International Affairs. This funding would ensure that the 
United States can robustly engage in and support the World Heritage 
Program. Communities throughout the country are pursuing nominations of 
sites in their area to the World Heritage List, including Hopewell 
Ceremonial Earthworks in Ohio and Mount Vernon in Virginia. The Office 
of International Affairs is critical to shepherding advocates through 
the nominations process.
    The administration proposed to consolidate the Southwest Border 
Protection Program into the Office of International Affairs program. We 
are very concerned that this change would mean that the Office of 
International Affairs will not have the resources necessary to fulfill 
its mission effectively.
                      nps national heritage areas
    We recommend $32 million in funding for the Heritage Partnership 
Program and our National Heritage Areas (NHAs). Through the use of 
public-private partnerships, NHAs support historic preservation, 
heritage tourism, and recreation. These programs collaborate with 
communities to make heritage relevant to local interests and needs.
                   blm cultural resources management
    We urge the Committee to appropriate $20 million, a modest increase 
of $3 million above the fiscal year 2019 enacted level. The increase is 
necessary to fulfill the BLM's substantial workload requirements under 
the National Historic Preservation Act, for land use assessments (up to 
13,000 per year) and inventory and protection of cultural resources. 
The increase would support surveys of sensitive areas, site protection 
and stabilization projects for sites vulnerable to unauthorized 
activities and damage due to fire, erosion and changing water levels. 
Increased funding would also support updated predictive modeling and 
data analysis to enhance the BLM's ability to address large-scale, 
cross-jurisdictional land-use projects. To support the effective 
implementation of the increased appropriation level, we further 
recommend that the Committee encourage the BLM to promote inventory 
information-sharing with State and Tribal historic preservation 
officers.
               blm national landscape conservation system
    We urge a $45 million fiscal year 2020 appropriation for the 
National Landscape Conservation System. An increase in base funding 
will prevent critical damage to 36 million acres of congressionally and 
presidentially designated National Monuments, National Conservation 
Areas, Wilderness, Wilderness Study Areas, National Scenic and Historic 
Trails, and Wild Scenic Rivers. Increased funding will ensure proper 
management and provide for a quality visitor experience.
    We urge the Committee to reject the administration's proposed cuts 
to the Oregon and California Grants Lands programs, which would result 
in reduced visitor services, decreased maintenance and care of trails, 
and fewer educational and interpretive resources.
                    blm land water conservation fund
    We urge the Committee to reject the administration's drastic cuts 
to the LWCF. Instead, we urge the Committee to continue increasing LWCF 
funding toward the full $900 million from offshore mineral leasing 
revenues that is dedicated to the LWCF annually. Many of our country's 
most significant historic and cultural landscapes have been permanently 
protected through LWCF investments, including Martin Luther King Jr. 
National Historic Park, Canyons of the Ancients National Monument, and 
Hopewell Culture National Historic Park. In total, more than $550 
million has been invested to acquire historic sites and 137,000 acres 
in 162 NPS units.
    Within LWCF funding, we urge the Committee to fund the American 
Battlefield Protection Program (ABPP) at $10 million in fiscal year 
2020. Through public-private partnerships, the ABPP has helped 
communities to preserve more than 100 historic battlefields in 42 
States and territories. In protecting the hallowed ground upon which so 
many Americans fought and died, the ABPP preserves a valuable part of 
our shared history.
    independent agencies: advisory council on historic preservation
    We request $7 million for the Advisory Council on Historic 
Preservation (ACHP), to fund its work to administer the rulemaking 
process for historic preservation law, assist in resolving conflicts 
from historic resource reviews, and provide advice on historic 
preservation.
          national endowments for the arts and the humanities
    The Coalition urges the Committee to fund the NEA and the NEH at 
$167.5 million in fiscal year 2020. Robust funding for the NEA and NEH 
is critical to communities across America. For example, support from 
the NEA has created programs like Arts and Shadows at the Shadows-on-
the-Teche in Louisiana that put regionally-based artists in residence 
at the site, resulting in programming that attracted new audiences and 
served as a prototype for broader arts-focused programming that draws 
people to the town's commercial district. The NEA is also a 
collaborator in the Blue Star Museums program, which offers America's 
active duty military families free admission to more than 2,000 museums 
every summer. NEH support has brought teachers from around the country 
to learn about history in the places that it was made, and to carry 
those experiences back to their classrooms.
    The Coalition is grateful to the Committee for the opportunity to 
offer its perspective on fiscal year 2020 appropriations for the 
Interior, Environment and Related Agencies appropriations bill. The 
Coalition stands ready to work with the Committee on finding common 
ground to achieve the fiscal year 2020 funding levels that will support 
and enhance historic preservation.

    [This statement was submitted by Marion Werkheiser, Policy 
Director.]
                                 ______
                                 
  Prepared Statement of the Coalition for the Delaware River Watershed

 
 
 
The Honorable Lisa Murkowski,        The Honorable Tom Udall,
  Chair                                Ranking Minority Member
Subcommittee on Interior,            Subcommittee on Interior,
 Environment and Related Agencies     Environment and Related Agencies
S-128 Capitol                        S-146A Capitol
U.S. Senate                          U.S. Senate
Washington, D.C. 20510               Washington, D.C. 20510
 


Dear Chair Murkowski and Ranking Member Udall:

    The undersigned members of the Coalition for the Delaware River 
Watershed request continued support for programs that are essential to 
protecting and restoring natural resources throughout the Delaware 
River Watershed, a 5-State region (New York, New Jersey, Pennsylvania, 
Delaware, and Maryland) that drains into the Delaware River and 
Delaware Bay. The watershed serves as the drinking water source for 
more than 15 million people, or roughly 5 percent of the U.S. 
population in the densely populated Mid-Atlantic region. The Delaware 
River Watershed also generates $25 billion in annual economic activity, 
including agriculture, recreation and eco-tourism, hunting and fishing, 
port benefits, commercial fishing, and it supports at least 600,000 
jobs with over $10 billion in annual wages.
    Congress affirmed the importance of protecting the natural 
resources of the Delaware River Watershed when it passed, with 
bipartisan support and leadership, the Delaware River Basin 
Conservation Act in December 2016. The Act directed the U.S. Fish and 
Wildlife Service to establish the Delaware River Basin Restoration 
Program, a non-regulatory effort that leverages private investment, 
regional partnerships, and local knowledge to protect and restore the 
resources of the watershed. The Program was appropriated $5 million in 
fiscal year 2018 and increased to $6 million in fiscal year 2019, 
representing a critical investment in the future of our region.
    To continue on the path toward a restored, and preserved watershed, 
critical for our regional economy and wildlife species, we respectfully 
request funding for the following programs in fiscal year 2020:

                       department of the interior
U.S. Fish and Wildlife Service--Delaware River Basin Restoration 
        Program--$10 million
    The non-regulatory Delaware River Basin Restoration Program has at 
its centerpiece a grants program, the Delaware Watershed Conservation 
Fund, launched in August 2018. The first round of funding was awarded 
to 25 worthy on-the-ground conservation and restoration projects 
throughout the watershed. Funded projects will conserve and restore 
fish and wildlife habitat, improve and maintain water quality, sustain 
and enhance water management and reduce flood damage, and improve 
recreational opportunities and public access in the Delaware River 
Watershed. To continue the success of this tremendously successful 
program, funding must be increased from the current fiscal year 2019 
level of $6 million to meet new project demands and adequately address 
the issues threatening the future of the watershed, such as polluted 
stormwater, overdevelopment, and habitat loss.
National Park Service--Partnership Wild and Scenic Rivers Program--
        $3.051 million
    The Partnership Wild and Scenic Rivers Program protects nationally 
significant rivers that flow through privately-owned or State-owned 
lands within the United States by preserving them in a natural, free-
flowing condition. It engages private interests and all levels of 
government in studying, planning, and managing the rivers for the 
benefit of future generations. There are 400 miles of designated Wild 
and Scenic River in the Delaware River Watershed, including 60 percent 
of the Delaware River (New Jersey & Pennsylvania), the Maurice River 
(New Jersey), the Musconetcong River (New Jersey), and White Clay Creek 
Watershed (Delaware & Pennsylvania). This is the largest concentration 
of designated miles in a single watershed east of the Mississippi 
River. Partnership Rivers are managed locally, with the National Park 
Service providing support and funding via cooperative agreements. 
Providing full funding for the Partnership Wild and Scenic Rivers 
Program ensures effective and efficient implementation of approved 
conservation plans, while providing equitable funding for newly 
designated rivers.
       department of the interior/u.s. department of agriculture
National Park Service/U.S. Fish and Wildlife Service/U.S. Forest 
        Service--Land and Water Conservation Fund--$900 million
    The Land and Water Conservation Fund (LWCF) remains the premier 
Federal program to conserve our Nation's land, water, historic, and 
recreational heritage. LWCF funds support for an entire suite of 
conservation tools to address national, State, local, and regionally-
driven priorities across the country. Over the last 50 years, the 5 
States in the watershed have received over $1 billion from this fund to 
support public lands including the Delaware River Watershed's 6 
National Wildlife Refuges, the Delaware Water Gap National Recreation 
Area, the Appalachian National Scenic Trail, other Federal sites, and 
hundreds of State and local parks. In addition, several open space 
projects in the region are currently pending LWCF funding, such as 
Cherry Valley National Wildlife Refuge, the Northeast Connection Forest 
Legacy Programs, and Highlands Conservation Act projects. Support for 
public lands among the American public remains consistently and 
overwhelmingly strong and bipartisan. We respectfully request that LWCF 
is reliably and robustly funded to ensure that it plays the strongest 
possible role in revitalizing communities.
U.S. Environmental Protection Agency--Clean Water State Revolving Fund- 
        $5 billion and Drinking Water State Revolving Fund--$5 billion
    The Delaware River Watershed requires protective and well-resourced 
water infrastructure systems to overcome the challenges of aged and 
over-burdened systems. We respectfully request robust funding for 
programs and agencies, including the U.S. Environmental Protection 
Agency (EPA), to ensure clean water is available to support businesses 
and communities affordably. The EPA estimates a need of $384.2 billion 
for nationwide water infrastructure investments. The Clean Water State 
Revolving Fund (SRF) and the Drinking Water SRF help communities across 
the Nation address their local water infrastructure needs by providing 
low interest loans to local governments. Thus, the Coalition requests 
$5 billion for the Clean Water SRF, tripling current fiscal year 2019 
funding, and $5 billion for the Drinking Water SRF to dramatically 
improve water quality and protect human health in our region and across 
the Nation. We urge dedicating 20 percent of the Clean Water SRF funds 
for green infrastructure and innovation projects to improve stormwater 
management, which in turn mitigates flooding, improves water quality, 
and creates green space. These funds should be accompanied by Federal 
technical assistance to help States raise awareness of green 
infrastructure's benefits and build demand for green projects.
    Thank you for considering our requests. Please contact Sandra 
Meola, Director of the Coalition for the Delaware River Watershed, if 
you have any questions about our position on this or any other issues 
at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3c6f5d52584e5d12515953505d7c52565d4958495e535212534e5b12">[email&#160;protected]</a>

Sincerely,

American Littoral Society
American Rivers
American Sustainable Business Council
Appalachian Trail Conservancy
Appalachian Mountain Club
Aquaschiocola/Pohopoco Watershed Conservancy
Association of New Jersey Environmental Commissions (ANJEC)
Audubon Pennsylvania
Basha Kill Area Association
Berks Nature
Brodhead Chapter Trout Unlimited
Bucks County Audubon Society
Catskill Mountainkeeper
Christina Conservancy, Inc.
Citizens'Climate Lobby--Lower DE
Citizens United to Protect the Maurice River and Its Tributaries, Inc.
Conservation Voters of Pennsylvania
Conserve Wildlife Foundation
Darby Creek Valley Association
Delaware Canal 21
Delaware Electric Vehicle Association
Delaware Highlands Conservancy
Delaware Nature Society
Delaware Ornithological Society
Delaware Rural Water Association
Ducks Unlimited
Eastern PA Coalition for Abandoned Mine Reclamation
Eastern Waters Council of Fly Fishers International
Environmental Justice Center of Chestnut Hill United Church
Environment New Jersey
Equinunk Watershed Alliance
Forks of the Delaware Chapter of Trout Unlimited
Friends of Cherry Valley
Friends of the Abbott Marshlands
Friends of Heinz Refuge
Friends of the Upper Delaware River
Great Egg Harbor Watershed Association
Greenbelt Overhaul Alliance of Levittown
Greentreks Network, Inc.
Green Valleys Watershed Association
Isles, Inc.
Kirkwood Lake Environmental Committee
Lake Hopatcong Foundation
Land Conservancy of NJ
Lehigh River Stocking Association
Lighthawk
Musconetcong Watershed Association
National Audubon Society
National Parks Conservation Association
National Wildlife Federation
Natural Lands Trust
New Jersey Audubon
New Jersey Conservation Foundation
New Jersey Council of Trout Unlimited
New Jersey Environmental Lobby
New Jersey Highlands Coalition
New Jersey League of Conservation Voters
New Jersey Trout Unlimited
New York League of Conservation Voters
New York State Council of Trout Unlimited
Newtown Creek Coalition
North Jersey RC&D
Northeast Pennsylvania Audubon Society Chapter
PennFuture
Pennsylvania Council of Trout Unlimited
Pennsylvania Land Trust Association
Pennsylvania Resources Council
Pinelands Preservation Alliance
Pocono Heritage Land Trust
Rancocas Pathways, Inc.
Riverfront North
Schuylkill Headwaters Association, Inc.
Shehawken Trout Unlimited
South Jersey Land & Water Trust
Southeast Montco Trout Unlimited
The Red Clay Valley Scenic Byway Alliance
The Watershed Institute
Tobyhanna Creek/Tunkhannock Creek Watershed Association
Tookany-Tacony/Frankford Watershed Partnership Inc.
Trout Unlimited
University of Delaware Delaware Water Resources Center
Upper Delaware Preservation Coalition
Urban Promise/UrbanTrekkers
Valley Forge Trout Unlimited
Water Defense
Watershed Coalition of the Lehigh Valley
Western Pocono Trout Unlimited
White Clay Watershed Association
Wissahickon Valley Watershed Association
      
                                 ______
                                 
       Prepared Statement of the Coalition for Healthier Schools
Dear Chairman Shelby and Vice Chairman Leahy, Chairwoman Murkowski and 
Ranking Member Udall:

    The undersigned members of the national Coalition for Healthier 
Schools representing millions of K-12 school and childcare 
stakeholders, urge you to include in the fiscal year 2020 budget a $65 
million Healthy Schools Program at EPA. This represents $1 per child 
enrolled in schools and childcare and is an increase to the President's 
proposed EPA budget request of $50 million for a similar annual 
program. Funds should be to advance EPA capacity and outreach 
activities to address healthier schools and childcare facilities for 
all children, as described in EPA's March 2019 press release on the 
proposed new Program (see below):

          EPA: ``Protecting children's health is a top priority for 
        EPA, and this new funding would help school's address poor and 
        deteriorating conditions that can harm children's health and 
        stymie academic progress,'' said EPA Administrator Andrew 
        Wheeler. ``This grant program would help schools, especially 
        those in underserved communities, reduce exposures to 
        environmental hazards, create healthier learning environments, 
        and ensure children can reach their fullest potential.'' . . . 
          ``The Healthy Schools Grant Program is a comprehensive 
        environmental health grant program with the goal of identifying 
        and addressing environmental health risks in and around schools 
        that contribute to increased absenteeism and reduced academic 
        performance. The program would provide a total of $50 million 
        for schools to identify, prevent, reduce and resolve 
        environmental hazards including:

          --reducing childhood lead exposure;
          --reducing asthma triggers;
          --promoting integrated pest management; and
          --reducing or eliminating childhood exposure to one or more 
        toxic chemicals in schools.

          Eligible recipients would include State and local 
        governments, federally recognized Tribal governments, and non-
        profit organizations.

    As described by EPA, the Program should offer an array of cross-
media planning and education and training grants at multiple levels and 
constituencies--national, regional, NGOs--and not be restricted to only 
States and Tribes. Relevant EPA offices that must be resourced and 
engaged are the Office of Air and Radiation/Indoor Environments 
Division, Office of Chemical Safety, Office of Research, Office of 
Water Quality, and Office of Children's Health Protection. Importantly, 
either EPA or the appropriations bill text should identify the EPA 
office to lead the effort. In our combined decades of experiences, it 
should be an office with robust K-12 staff expertise and other 
resources. The Indoor Environments Division has the most relevant 
experience: a 25-year record of structured grant making and successful 
work with the States, Tribes, NGOs, and K-12 and childcare leaders and 
personnel.
    We agree with Administrator Wheeler that every child--and 
especially the highest risk little learners--needs a healthful learning 
environment. Due to sustained cuts to EPA's core offices and cuts by 
States to education over the last few years, fewer schools today than 
10 years ago are actively addressing indoor air, mold remediation, and 
hazardous chemicals management. Furthermore, EPA's critical guidance 
documents on energy saving and test score-boosting facility retrofits 
(better lighting, ventilation) and on siting of new facilities (away 
from flood zones, industrial facilities) have never moved into active 
use in the field, due chiefly to the absence of EPA grants.
    The proposed program would not provide funds for school or 
childcare construction or maintenance. However, EPA can spur the 
education and training for those responsible for school and childcare 
facilities, as well as parents and others concerned for children's 
well-being. A relatively small $65 million annual investment by EPA 
should stress preventing small problems (roof leaks) from becoming 
expensive health threats (mold infestations) to children and personnel 
alike, and could yield big benefits in attendance and seat time that 
outweigh local costs. Prevention is better than remediation.
    In 2017 America's School Infrastructure earned a D+ from the 
American Society of Civil Engineers. In the same year, the Harvard Chan 
School of Public Health released a landmark report detailing how 
unhealthy school facilities damage children's ``health, thinking, and 
learning.'' The Harvard findings are echoed in research previously 
produced by the University of Tulsa, University of California at 
Berkeley, and in countless other studies in the U.S. and across Europe 
and Scandinavia.
    Every school day there are some 65 million children in schools and 
childcare facilities. The research has shown that

  --indoor environmental exposures to pollutants can be more intense 
        than outdoor exposures;
  --educators are often unaware of how facility problems impact 
        children;
  --school and childcare facilities are filled with asthma triggers 
        such as dusts, molds, chemical fumes, pests and pesticides, 
        other contaminants;
  --poor indoor school environments decrease attention, seat time, 
        attendance, and test scores; and,
  --poor indoor environmental quality increases asthma and other health 
        complaints, thus increasing healthcare costs for children and 
        school faculty and staff.

    This Coalition's letter to the appropriators in 2018 urged that 
EPA's final budget include the allocations to various EPA offices based 
on $1/child in schools and in childcare, We urge you again, in light of 
the President and EPA's recognition of these issues in the President's 
fiscal year 2020 Budget Request, to do the same over fiscal year 2019:

  --$35 Million for cross-agency Leadership and program implementation 
        by EPA's Indoor Environments Division-Reducing the Risks of 
        Indoor Air to advance healthy indoor environments in schools 
        and childcare centers with guidelines, grants to the field, 
        annual symposia, webinars, and to provide inter agency Federal 
        leadership on school infrastructure concerns;
  --$5 million for EPA's Office of Children's Health to strengthen 
        pediatric environmental health capacity to address children 
        with suspected exposures in schools and child care settings;
  --$5 million for EPA's Drinking Water office to disseminate user-
        friendly guidance to key school and childcare stakeholders 
        regarding lead in drinking and cooking water;
  --$10 million for EPA's Office of Chemical Safety to strengthen its 
        guidelines and enforcements that address legacy toxics in 
        schools such as asbestos, lead, PCBs, and pesticides, and to 
        encourage the safe management and disposal of hazardous 
        chemicals in schools;
  --$10 million for EPA's Office of Research to strengthen and expand 
        its research into children's exposures in the school and 
        childcare settings.

    We urge the U.S. Senate to include $65 Million over fiscal year 
2019 in EPA appropriations for restoring and expanding EPA's proven 
healthy schools and healthy kids programs and annual symposia that 
educate schools and child care entities on how to site, design, 
maintain and operate buildings to prevent or address common problems, 
such as: indoor air pollution, dampness and molds, lead in drinking 
water and paint, pests and pesticides, hazardous chemical management, 
legacy toxics like PCBs, and more. The EPA programs also support public 
health services for children with suspected environmental exposures in 
these settings.

    Sincerely,

                             ORGANIZATIONS

Alaska Community Action on Toxics
American Public Health Association
Asthma and Allergy Foundation of America
Association of Asthma Educators (PA)
Association of School Business Officials International (ASBO 
International)
Breast Cancer Prevention Partners
Californians for Pesticide Reform
Cancer Prevention Coalition for Los Angeles (CA)
Center for Environmental Health
Child Care Aware of America
Children's Environmental Health Center of the Hudson Valley at New York 
Medical Center and Maria Fareri Children's Hospital (NY)
Children's Environmental Health Network
Children's Environmental Protection Alliance (AL)
Coalition for Environmentally Safe Schools (MA)
Collaborative for High Performance Schools
The Deirdre Imus Environmental Health Center at Hackensack UMC (NJ)
Earth Day Network
Education Law Center
Empire State Consumer Project (NY)
First Focus
Great Lakes Center for Children's Environmental Health (IL)
Green Schools National Network
Healthy Legacy (MN)
Health Promotion Consultants (VA)
Health Resources in Action
Healthy Schools PA/Women for a Healthy Environment
Healthy Schools Network, Inc.
Improving Kids' Environment (IN)
IPM Institute of North America
Learning Disabilities Associations of America
Learning Disabilities Association of Arkansas
Learning Disabilities Association of Georgia
Learning Disabilities Association of Illinois
Learning Disabilities Association of Iowa
Learning Disabilities Association of Maine
Learning Disabilities Association of Maryland
Learning Disabilities Association of Minnesota
Learning Disabilities Association of Pennsylvania
Learning Disabilities Association of New Jersey
Learning Disabilities Association of Oklahoma
Learning Disabilities Association of South Carolina
Learning Disabilities Association of Tennessee
Learning Disabilities Association of Texas
Learning Disabilities Association of Utah
Maine PTA
Maryland Children's Environmental Health Coalition
Massachusetts Coalition for Occupational Safety and Health
Midwest Pesticide Action Center
The National Alliance to Advance Adolescent Health
National Center for Environmental Health Strategies
National Association of County and City Health Officials
Nontoxic Certified (NY)
Pesticide Action Network of North America
Occupational Health & Safety Section of the American Public Health 
Association
Ohio Public Health Association
Parents for Students Safety (TN)
Partners for a Healthier Community (MA)
Pennsylvania Integrated Pest Management Program
Pioneer Valley Asthma Coalition (MA)
Project Green Schools (MA)
Regional Asthma Management and Prevention (RAMP--CA)
Responsible Purchasing Network
School-Based Health Alliance
School Based Health Alliance of Arkansas
Sierra Club
South Texas Asthma Coalition
Toxics Information Project (TIP--RI)
Valley Community Healthcare (CA)
Western New York Council on Occupational Safety & Health

       INDIVIDUALS (affiliations for informational purposes only)

Rosemary Ahtuangaruak, Nuiqsut (AK)
Abbey Alkon, RN, PhD, UCSF (CA)
Louis Allen, MD
David Ammend, MD, NW Passage, (WI)
Gary Arthur, Issaquah Educ. Assoc. (WA)
Elgin Avila, MPH, Eq. Health Solutions
Noam H. Arzt, PhD (CA)
Kesha Baptiste-Roberts, PhD, MPH, Morgan State University (MD)
Carl R. Baum, MD, Yale School of Medicine
Gloria E. Barrera, MSN, RN (IL)
Chelsey E. Brown, MPH (LA)
Carla C Campbell, MD, MS, FAAP, University of Texas at El Paso
Beverly Chester, MPH (OH)
David Chester, Capt. USMC (OH)
Laurie Costello, MD (CO)
Richard Crume, Env. Engineer (KY)
Marcia Deegler, MS (MA)
Amanda Farr, MPH (CA)
Mary Gant, Green Science Policy Institute
Augusta Gross, PhD (NY)
Chip Halverson, ND, Northwest Center for Biological Medicine (OR)
Katharine Hawkes, MPH (VA)
Brent Ibata, PhD, JD, MPH, FACHE (FL)
Tenaya Jackman, MPH (HI)
Jyotsna Jagai, MS, MPH, PhD, Chair, APHA Environment Section (IL)
Jazmine Kenny, MSPH (CA)
Jerry Lamping, Take Care of Your Classroom Air (TX)
Paul Landsbergis, PhD, MPH, SUNY Downstate Medical Center
Patricia A. Lasley, MPH, Great Lakes Center for Children's 
Environmental Health (IL)
Larry K. Lowry, Southwest Center for Pediatric Environmental Health 
(TX)
Daniel Lefkowitz (NY)
Jennifer Lam, MS, RDN (WI)
Megan Latshaw, PHD, MPH (MD)
Elinor Mattern, MPH (CA)
Annika Montag, PhD, (CA)
Virginia Mott (ME)
Christina Olbrantz, MPH, Columbia University
Larry K. Olsen, DrPH, MCHES (NM)
Jerome A. Paulson, MD, FAAP, Emeritus, George Washington University 
Milken Institute School of Public Health
Suzette Phillips, MA (Washington, DC)
Joseph Ponessa PhD, Rutgers University (NJ)
Rachel Powell, PhD, MPH (GA)
Marjorie Sable, DrPH (MO)
Natalie R Sampson, PhD, MPH, UMI/Dearborn (MI)
Chelsea Alexandra Schafer, California State University, Northridge (CA)
Hani Serag, MD, MPH (TX)
Craig Slatin, ScD, UMass/Lowell (MA)
Lindsay Tallon, PhD, Massachusetts College of Pharmacy and Health 
Sciences
Evelyn Tejeda, MPH (GA)
Joan K. Teach, PhD (GA)
Mariana Torchia (CA)
Theodora Tsongas, PhD, MS (OR)
vity Jasmine Uysal, MPH (CA)
Jeff Vincent, PhD, UC Berkeley (CA)
Kim Whitmore, PhD, RN, UW/Madison (WI)
Chelsea Schafer, MPH, CHES, Los Angeles Valley College (CA)
Yolanda Whyte, MD, Whyte Pediatrics

    CONTACT: Claire Barnett, Coordinator, Coalition for Healthier 
Schools, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="254c4b434a654d404449514d5c56464d4a4a49560b4a57420b">[email&#160;protected]</a>

                                 ______
                                 
          Prepared Statement of the Coalition Supporting USGS
                  Streamgage Networks & Modernization
                  water data & science program funding
Dear Senator Murkowski and Senator Udall:

    As leaders in the undersigned organizations, we urge your support 
to enable the U.S. Geological Survey (USGS), a Bureau in the Department 
of Interior (DOI) to fully support its streamgaging networks. These 
vital networks, managed within the USGS Groundwater and Streamflow 
Information Program, serve the national interest with continuous 
streamflow information at over 8,200 locations. But additions to these 
networks are needed to adequately manage the Nation's critical water 
supplies and infrastructure. The members of our organizations rely on 
the streamgage data and science that USGS produces and many of us 
represent active, cost-share partners in funding the data collection 
that Congress and the Federal agencies require.
    Information from these valuable streamgages are utilized by water 
supply managers, water quality administrators, emergency responders, 
consulting engineers, recreationists and many others in forecasting and 
response during floods, droughts, and other extreme events, design of 
bridges and other infrastructure, energy generation, management of 
Federal lands, design and operation of Federal reservoirs and 
navigation infrastructure. These networks provide critical information 
to other bureaus of the DOI and to the Corps of Engineers, NOAA, EPA, 
USDA, and other Federal agencies, as well as providing information 
essential to congressional oversight and revision of many Federal laws, 
including the Clean Water Act, Endangered Species Act, Safe Drinking 
Water Act, and many interstate compacts and international treaties.

    Federal Priority Streamgage Network: (formerly referred to as the 
National Streamflow Information Program, ``NSIP''), was authorized by 
Congress in 2009, to operate and maintain a stable ``Federal backbone'' 
network of streamgages to meet five specific national needs for 
streamflow information at (1) interstate and international boundaries, 
(2) National Weather Service flood forecast sites, (3) outflows of 
major river basins, (4) ``sentinel watersheds,'' needed to evaluate and 
anticipate the potential consequences of ongoing changes in American 
land use, water use, climate etc., and (5) national priority water-
quality monitoring sites. Our national ability to collect sufficient 
water data at the needed locations to answer the necessary Federal, 
State, Tribal, local, business and NGO questions is seriously 
compromised by the insufficient funding for the Federal Priority 
Streamgage Network.
    Today, less than 25 percent of the Federal Priority Streamgages are 
fully funded by the Federal Government. The USGS is unable to complete 
development of the Network, as Congress directed in 2009, without 
additional funding. Full implementation of the Federal Priority 
Streamgage Network is estimated at $125 million. Requested Funding 
Level by this Coalition for Federal Priorities Streamgages is $27.5 
million for fiscal year 2020.

    Cooperative Matching Funds: The USGS works with over a thousand 
partners Nation-wide (Federal, State, Tribal, local, and NGO) using 
Cooperative Matching Funds to jointly support USGS streamgages, many of 
which meet the criteria of the Federal Priority network. This matching 
program, which began as a 50-50 program, has seen the non-Federal cost-
share contribution increase from 50 percent to over 70 percent. 
Restoring this program to a 50-50 percent cost share is estimated to 
require $70 million. Requested Funding Level by this Coalition for 
Cooperative Matching Funds for Streamgage Network is $33 million for 
fiscal year 2020.

    Modernization of the Networks and Data Delivery: Much of the basic 
operations of the streamgaging networks is based on technology that is 
seven or eight decades old. Innovations are necessary to enable scarce 
dollars to effectively measure, monitor, and understand the Nation's 
water resources. The Next Generation (NextGen) Water Observation System 
exemplifies innovative data collection equipment and data delivery and 
the potential to support water prediction and decision-support systems 
for emergencies and daily water operations.

    Next Generation Water Observation System: Our coalition very much 
appreciates Congress' support of this innovative program. Build-out of 
NextGen envisions focused monitoring in 10 basins nationwide to better 
calibrate modeling, thus improving the ability to estimate water supply 
in the Nation's many ungaged areas. The Delaware River basin was 
selected as the pilot basin, first of the 10 envisioned. The USGS's 10-
year plan for implementation of Next Gen calls for $7.8M/year in order 
to equip one additional basin per year. Requested Funding Level by this 
Coalition for NextGen Equipment for Implementation is $7.8 M and for 
Operation and Maintenance is $4.5 million for fiscal year 2020.
    To fully capitalize on the robust data collected in the NextGen 
basins, modernization of data delivery is also required. Aging legacy 
software systems with a growing maintenance burden need to be updated 
to a robust and scalable IT water infrastructure that positions us for 
the future. This transformation is needed to enable management of new 
data and sensor networks, support integration of the best water data 
available from across multiple agencies and sectors, feed data and 
analytical products forward into the National Water Model, and 
ultimately provide feedback to optimize and evolve the system. The new 
system must deliver data and advanced model results through innovative 
online tools to meet the Nation's water challenges over the coming 
decades. Requested Funding Level by this Coalition for Modernization of 
USGS Data Management, Integration and Delivery Infrastructure is $9.0 M 
for fiscal year 2020.
    With your help, we hope that Congress will enable the USGS to 
fulfill its Water Resources Mission Area, including working toward full 
implementation of the Federal Priority Network, adequately funding the 
Cooperative Matching Funds for streamgaging and moving water science 
into the 21st century through much needed modernization upgrades.
    We are happy to answer your questions or provide additional 
information; please contact any of us or Sue Lowry at the Interstate 
Council on Water Policy (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="57042232791e14000717303a363e3b7934383a">[email&#160;protected]</a>).

Sincerely,
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
Prepared Statement of the Coalition to Protect America's National Parks
    Sen. Murkowski, Sen. Udall, and Members of the subcommittee, thank 
you for the opportunity to submit testimony on behalf of the Coalition 
to Protect America's National Parks (Coalition) regarding the fiscal 
year 2020 Budget for the National Park Service.
    I am a long-time member of the Coalition, including having served 
as the chair of the Executive Council for the past year. I retired from 
the National Park Service in 2013 after 8 years as superintendent of 
Blue Ridge Parkway, and a total of 41 years of government service with 
the NPS. My work with the Park Service included service as 
administrative officer at Chickamauga and Chattanooga National Military 
Park, Shenandoah National Park, and Yosemite National Park. I also 
served as associate regional director, administration, for the 
Southwest region, and as deputy superintendent of Great Smoky 
Mountains, including 3 years as acting superintendent.
    The Coalition is comprised of more than 1,700 members who 
collectively have more than 40,000 years of experience managing and 
protecting national parks. We believe that our parks and public lands 
represent the very best of America, and advocate for their protection.
    National parks host millions of visitors annually who come to enjoy 
the spectacular natural, historic, and cultural resources that the 
parks preserve. The National Park Service also touches the lives of 
even more of our citizens through a number of grant and technical 
assistance programs, which facilitate the preservation of our Nation's 
natural, cultural, and historic resources in a partnership between the 
National Park Service and hundreds of individuals and organizations 
throughout the country.
    This work would not be possible without regular, annual 
appropriations from Congress to support over 23,000 employees and 
400,000 volunteers who are dedicated to preservation and guiding the 
enjoyment of these special places. The Coalition is relieved that the 
fiscal year 2019 appropriations bill for the National Park Service was 
finally enacted after the long, partial Federal Government shutdown. We 
are particularly pleased to see that Congress rejected the large budget 
cuts presented by the administration and, instead, produced a 
bipartisan Department of the Interior Appropriations Act as part of the 
Consolidated Appropriations Act, which provided $3.22 billion for NPS, 
which is $20 million above the amount from fiscal year 2018, and $521 
million above the president's request.
    We are pleased that there is an additional $6.2 million for more 
park rangers, for we fully appreciate that more rangers are needed to 
ensure that the needs of park visitors are met and that park resources 
are protected. Also, we are glad to see fixed costs being provided to 
NPS so that park and program office staffing levels do not suffer 
further erosion because they have to absorb these costs within their 
existing budgets. And we welcome inclusion of modest amounts of funding 
for newly established parks to ensure that protection and visitor 
services are established as soon as possible at these sites.
    Further, we welcome the continued support of the construction 
program and the Centennial Challenge funds as a means of addressing the 
deferred maintenance backlog. Additionally, the support provided for 
historic preservation programs and our heritage areas will help 
maintain both park resources and significant structures found 
throughout the country.
    The Trump administration's fiscal year 2020 budget proposes a 14.9 
percent cut to the National Park Service budget, when compared to the 
appropriations enacted by Congress for fiscal year 2019. It represents 
an enormous threat to the protection and preservation of our national 
parks, which are suffering from significant reductions in staffing due 
to decreased annual appropriations in the past decade. Effectively 
managing the high visitation at our parks is proving more and more 
challenging with funding that has not kept up with the National Park 
Service's costs. And, the backlog of deferred maintenance projects 
continues to grow.
    We continue to hear so much discussion about the maintenance 
backlog of the National Park Service that we worry that the deferred 
maintenance backlog is the only issue facing the NPS that gets 
attention from members of Congress and the public. Accordingly, our 
goal is to encourage comprehensive understanding about what is needed 
to protect the important natural, historic, and cultural resources 
under the care of the Park Service, as well as what is needed to 
provide for a quality visitor experience. Clearly, adequate levels of 
annual appropriations are required to ensure the best possible visitor 
experience, to ensure that irreplaceable resources are protected, and 
to address the maintenance backlog,
    Even with the increased appropriations provided during the last two 
fiscal years by this subcommittee, parks are not yet able to achieve 
these basic purposes. Parks still suffer from significant reductions in 
staffing over the past decade due to decreased annual appropriations 
over that time period. To put this in perspective, appropriations for 
the National Park Service were $3.275 billion in fiscal year 2009, a 
full 10 years ago. This is $53 million more than was just appropriated 
for NPS in fiscal year 2019. With inflation increasing by 17.3 percent 
since 2009, the NPS would need $3.84 billion in appropriations this 
year just to stay even with inflation. Thus, the Coalition requests NPS 
appropriations be increased by $565 million in fiscal year 2020 to 
bring the NPS back to the level of services the agency provided back in 
fiscal year 2009.
    NPS annual appropriations must be spread thinner as Congress 
continues to increase the responsibilities given to the Park Service 
through the addition of new parks and programs. Over the last 10 years, 
NPS has been directed to manage 27 new parks, 5 more national trails, 5 
new wild and scenic rivers, and to coordinate assistance for 3 new 
affiliated areas and 9 national heritage areas, along with 8 grant 
programs. Park visitation remains high with 331 million people visits 
in 2016, with an estimated $18.2 billion economic impact in local 
gateway regions. While this record-breaking attendance was no doubt 
fueled by the Centennial celebration, and was slightly lower in 2017, 
it is clearly a reflection of the importance that these special places 
have in the mind of the American public. Effectively managing these 
demands is proving more and more challenging with funding that has not 
kept up with the Park Service's costs.
    While operational needs are absolutely essential, NPS continues to 
have a large land acquisition backlog. At the end of 2016, an estimated 
$2.1 billion was identified as necessary to purchase privately owned 
lands within current park boundaries that have been identified in land 
protection plans. These properties represent the minimum interest 
necessary to protect resource values within the park. Unfortunately, 
this administration has adopted a freeze-the-footprint goal, which 
blocks acquisition of key parcels and leaves them vulnerable to 
incompatible development. And this policy remains in place even though 
$900 million a year is being placed in the Land and Water Conservation 
Fund (LWCF) solely for land acquisition purposes and at a time Congress 
has just permanently reauthorized LWCF.
    In a similar manner, a number of historic structures across the 
country are in danger of being lost because of inadequate 
appropriations from the Historic Preservation Fund (HPF). As required 
by law, $150 million a year goes into this fund; but appropriations 
have not kept pace with the need.
    Likewise, the NPS relies on partnerships with a number of groups 
and organizations, including educational institutions, to carry out 
cooperative agreements, technical assistance, and grant programs. 
Unfortunately, grant programs are constantly targeted for reductions or 
elimination during the annual budget request process, which contributes 
to uncertainty among many long-standing partners.
    While the modest increase in appropriations for construction in the 
fiscal year 2019 Consolidated Appropriations Act will put a dent in the 
deferred maintenance backlog, funding remains inadequate to reduce the 
backlog in a meaningful way. With a backlog of $11.6 billion, more 
needs to be done. Half of this backlog is the result of thousands of 
miles of roads, bridges, and other supporting structures that are in 
dire need of repair. The highly publicized needs at the Arlington 
Memorial Bridge are just one example of this backlog.
    And it is this large group of assets, with many being decades old, 
which has contributed to the rising maintenance backlog. With more 
visitors coming to the parks, this only puts additional stress on the 
structures found in the parks.
    Unfortunately, the backlog of facility restoration and maintenance 
needs continues to grow in the absence of adequate funding. And we know 
that repairing park buildings and other assets will mean nothing if 
annual funding is not adequate to maintain them. We also know that over 
the last several years, funds dedicated to recurring maintenance needs 
have not kept up, resulting in further backsliding in addressing the 
backlog. There are projects ready to go all across the country. 
Completing these projects with an infusion of funding could make an 
immediate and tangible difference in the parks.
    The National Park Service had previously estimated in its fiscal 
year 2017 budget that $400 million a year was needed to restore and 
maintain in good condition all of its highest-priority non-
transportation assets within 10 years. Because it is unlikely that 
annual appropriations will increase by this much, the National Park 
Service needs a dedicated source of funding to address the backlog. 
Similar to the structure of the Land and Water Conservation Fund and 
the Historic Preservation Fund, the Coalition believes a dedicated 
source of revenue for a maintenance backlog fund is required, such as 
that being proposed in the Restore Our Parks Act. There will be no 
reduction in the backlog if such a revenue stream is unreliable from 
year to year. And this revenue must be in addition to current annual 
appropriations and not supplant annual funding.
    Finally, the Coalition remains very concerned about the proposed 
reorganization of the Department of the Interior initiated by former 
Secretary Zinke. We are told that the new Secretary Bernhardt will 
continue to pursue this very costly scheme despite presenting no 
reasonable rationale why such a reorganization is needed. In our view, 
it is unfortunate that the recently enacted appropriations bill 
provided some initial funding requested for the reorganization.
    We are reassured, however, that you have prohibited the department 
and its bureaus from implementing any part of a reorganization that 
modifies regional boundaries currently in effect until you have 
received a reprogramming request that details the anticipated 
efficiencies and cost-savings, a description of anticipated personnel 
impacts, and funding changes anticipated to implement the proposal. The 
Coalition is convinced the administration has not presented any good 
rationale for pursuing such a reorganization for the National Park 
Service and we urge you to continue to oppose any reprogramming request 
for this purpose as a waste of money that can be better used to support 
the numerous needs of the Park Service outlined above.
    We recognize the challenges the subcommittee confronts in providing 
appropriations for all of the programs under its jurisdiction. We are 
committed to working with you in helping to ensure sufficient resources 
are available for our national parks to fulfill the mandate enacted by 
Congress to protect the resources of the parks unimpaired for future 
generations, while also making them available for the public to enjoy.
    That concludes my statement. I would be glad to respond to any 
questions you might have.

    [This statement was submitted by Philip A. Francis, Jr.]
                                 ______
                                 
      Prepared Statement of the Colorado Forest and Water Alliance

Members: Colorado Water Congress, Colorado Timber Industry, The Nature 
     Conservancy, Club 20, and Watershed Health Investment Partners

Senator Lisa Murkowski, Chair
Senator Tom Udall, Ranking Member
U.S. Senate Appropriations Subcommittee on Interior,
  Environment and Related Agencies
131 Dirksen Senate Office Building
Washington, D.C. 20515

Dear Senator Murkowski and Senator Udall:

    As you consider the fiscal year 2020 Interior, Environment, and 
Related Agencies Appropriations bill, we write to urge you to provide 
full funding in line with the 2018 Farm Bill for the Collaborative 
Forest Landscape Restoration Program (CFLRP). As communities across the 
country struggle with the impact of severe fire seasons, now is the 
time to expand this vital forest program.
    Since its enactment in 2009, CFLRP has had a proven track record of 
success in bringing collaboration to our forests to increase forest 
health, mitigate wildfires, and support rural economies and local 
voices. CFLRP requires various local stakeholders to collaborate, 
resulting in stronger relationships on the ground, better projects, and 
a decreased risk of conflict and litigation.
    To date, 23 CFLRP projects in 14 States have sold more than 2.5 
billion board feet of timber; created $1.4 billion in local labor 
income; and improved 760 miles of trails for sports enthusiasts and 
recreation. On average, CFLRP creates or maintains 5,400 jobs each year 
at current funding levels--a number that would likely increase if 
funding is expanded. In addition, CFLRP has reduced the risk of 
megafires on more than 2.9 million acres.
    Because of this bipartisan program's successful track record, the 
2018 Farm Bill (Public Law 115-334) doubled the size of its funding 
authorization. There is interest across the country in establishing new 
collaborative projects as well as sustaining current projects. As the 
national conservation on forest management continues, it is imperative 
that we invest in programs that reduce conflict in our forests and 
increase the number of logs sent to mills.
    As you draft the Fiscal Year 2020 Interior, Environment, and 
Related Agencies Appropriations bill, we respectfully request that you 
fully fund CLFRP. Thank you for considering this request.

Respectfully,

 
 
 
Travis Smith for                     Molly Pitts for
Colorado Water Congress              Colorado Timber Industry
                                      Association
 
Aaron Citron for                     Cindy Dozier for
The Nature Conservancy               Club 20
 
Mark Shea for
Watershed Health Investment
 Partners
 


cc:  Senator Cory Gardner
 Senator Michael Bennet
                                 ______
                                 
 Prepared Statement of the Colorado River Basin Salinity Control Forum

 
 
 
TO:                            The Honorable Lisa Murkowski, Chairwoman
                               The Honorable Tom Udall, Ranking Member
                               Senate Committee on Appropriations
                               Subcommittee on Interior, Environment,
                                and Related Agencies
 
SUBJECT:                       Continued Funding for the Colorado River
                                Basin Salinity Control Program under
                                BLM's Aquatic Habitat Management Sub-
                                Activity (formerly known as the Soil,
                                Water and Air Program)
 
FROM:                          Don A. Barnett, Executive Directory
                               Colorado River Basin Salinity Control
                                Forum
 
DATE:                          May 10, 2019
------------------------------------------------------------------------
 


    Waters from the Colorado River are used by nearly 40 million people 
for municipal and industrial purposes and used to irrigate 
approximately 5.5 million acres in the United States. Natural and man-
induced salt loading to the Colorado River creates environmental and 
economic damages. The U.S. Bureau of Reclamation (Reclamation) has 
estimated the current quantifiable damages at about $454 million per 
year. Congress authorized the Colorado River Basin Salinity Control 
Program (Program) in 1974 to offset increased damages caused by 
continued development and use of the waters of the Colorado River. 
Modeling by Reclamation indicates that the quantifiable damages would 
rise to approximately $574 million by the year 2035 without 
continuation of the Program. Congress has directed the Secretary of the 
Interior to implement a comprehensive program for minimizing salt 
contributions to the Colorado River from lands administered by the 
Bureau of Land Management (BLM). In the past BLM has funded these 
efforts through its Soil, Water and Air Program and now they will be 
funded under the new Aquatic Habitat Management sub-activity. BLM's 
efforts are an essential part of the overall effort. A funding level of 
$2.0 million for salinity specific projects in 2020 is requested to 
prevent further degradation of the quality of the Colorado River with a 
commensurate increase in downstream economic damages.
    EPA has identified that more than 60 percent of the salt load of 
the Colorado River comes from natural sources. The majority of land 
within the Colorado River Basin is federally owned, much of which is 
administered by BLM. In implementing the Colorado River Basin Salinity 
Control Act in 1974, Congress recognized that most of the salts in the 
Colorado River originate from federally owned lands. Title I of the 
Salinity Control Act deals with the U.S. commitment to the quality of 
waters being delivered to Mexico. Title II of the Act deals with 
improving the quality of the water delivered to users in the United 
States. This testimony deals specifically with Title II efforts. In 
1984, Congress amended the Salinity Control Act and directed that the 
Secretary of the Interior develop a comprehensive program for 
minimizing salt contributions to the Colorado River from lands 
administered by BLM. In 2000, Congress reiterated its directive to the 
Secretary and requested a report on the implementation of BLM's program 
(Public Law 106-459). In 2003, BLM employed a Salinity Coordinator to 
increase BLM efforts in the Colorado River Basin and to pursue salinity 
control studies and to implement specific salinity control practices. 
BLM is now working on creating a comprehensive Colorado River Basin 
salinity control program as directed by Congress. In January 2018 BLM 
issued A Framework for Improving the Effectiveness of the Colorado 
River Basin Salinity Control Program, 2018-2023. This document lays out 
how BLM intends to implement Colorado River Basin salinity control 
activities over the next 5 years. Meaningful resources have been 
expended by BLM in the past few years to better understand salt 
mobilization on rangelands. With a significant portion of the salt load 
of the Colorado River coming from BLM administered lands, the BLM 
portion of the overall program is essential to the success of the 
effort. Inadequate BLM salinity control efforts will result in 
significant additional economic damages to water users downstream.
    Concentration of salt in the Colorado River causes approximately 
$454 million in quantified damages and significantly more in 
unquantified damages in the United States and results in poor water 
quality for United States users. Damages occur from:

  --a reduction in the ability to reclaim and reuse water due to high 
        salinities in the water delivered to water treatment and 
        reclamation facilities,
  --a reduction in the yield of salt sensitive crops and increased 
        water use to meet the leaching requirements in the agricultural 
        sector,
  --increased use of imported water and cost of desalination and brine 
        disposal for recycling water in the municipal sector,
  --a reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector,
  --an increase in the cost of cooling operations and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector,
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector,
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector, and
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins.

    The Colorado River Basin Salinity Control Forum (Forum) is composed 
of gubernatorial appointees from Arizona, California, Colorado, Nevada, 
New Mexico, Utah and Wyoming. The Forum is charged with reviewing the 
Colorado River's water quality standards for salinity every 3 years. In 
so doing, it adopts a Plan of Implementation consistent with these 
standards. The level of appropriation requested in this testimony is in 
keeping with the adopted Plan of Implementation. If adequate funds are 
not appropriated, significant damages from the higher salinity 
concentrations in the water will be more widespread in the United 
States and Mexico.
    In summary, implementation of salinity control practices through 
BLM is a cost effective method of controlling the salinity of the 
Colorado River and is an essential component to the overall Colorado 
River Basin Salinity Control Program. Continuation of adequate funding 
levels for salinity within the Aquatic Habitat Management sub-activity 
(formerly the Soil, Water and Air Program) will assist in preventing 
the water quality of the Colorado River from further degradation with a 
commensurate significant increase in economic damages to municipal, 
industrial and irrigation users. A modest investment in source control 
pays huge dividends in improved drinking water quality to nearly 40 
million Americans.
                                 ______
                                 
      Prepared Statement of the Colorado River Board of California

 
 
 
TO:                            The Honorable Lisa Murkowski, Chairwoman
                               The Honorable Tom Udall, Ranking Member
                               Senate Committee on Appropriations
                               Subcommittee on Interior, Environment,
                                and Related Agencies
 
SUBJECT:                       Continued Funding for the Colorado River
                                Basin Salinity Control Program under
                                BLM's Aquatic Habitat Management Sub-
                                Activity (formerly known as the Soil,
                                Water and Air Program)
 
FROM:                          Christopher S. Harris, Executive
                                Directory
                               Colorado River Board of California
 
DATE:                          May 9, 2019
------------------------------------------------------------------------
 


    This testimony is in support of fiscal year 2020 funding for the 
Department of the Interior's Bureau of Land Management (BLM) associated 
with those activities that assist in the implementation of Title II of 
the Colorado River Basin Salinity Control Act of 1974 (Public Law 93-
320), as amended. This long-standing successful and cost-effective 
salinity control program in the Colorado River Basin is being carried 
out pursuant to the Colorado River Basin Salinity Control Act and the 
Clean Water Act (Public Law 92-500). Congress has directed the 
Secretary of the Interior to implement a comprehensive program for 
minimizing salt contributions to the Colorado River from lands 
administered by the Bureau of Land Management (BLM). BLM funds these 
efforts through its Soil, Water and Air Program and now they will be 
funded under the new Aquatic Habitat Management Sub-Activity. BLM's 
efforts are an essential part of the overall effort. A funding level of 
at least $2.0 million for salinity specific projects in 2020 is 
requested to prevent further degradation of the quality of Colorado 
River water supplies and increased economic damages.
    The Colorado River Board of California (Colorado River Board) is 
the State agency charged with protecting California's interests and 
rights in the water and power resources of the Colorado River system. 
In this capacity, California participates along with the other six 
Colorado River Basin States through the Colorado River Basin Salinity 
Control Forum (Forum), the interstate organization responsible for 
coordinating the Basin States' salinity control efforts. In close 
cooperation with the U. S. Environmental Protection Agency (EPA) and 
pursuant to requirements of the Clean Water Act, the Forum is charged 
with reviewing the Colorado River water quality standards every 3 
years. Every 3 years the Forum adopts a Plan of Implementation 
consistent with these water quality standards. The level of 
appropriation being supported in this testimony is consistent with the 
Forum's 2017 Plan of Implementation. The Forum's 2017 Plan of 
Implementation can be found on this website: http://
coloradoriversalinity.org/docs/2017%20Review%20-%20FINAL.pdf. If 
adequate funds are not appropriated, significant damages associated 
with increasing salinity concentrations of Colorado River water will 
become more widespread in the United States and Mexican portions of the 
Colorado River Basin.
    The EPA has determined that more than 60 percent of the salt load 
of the Colorado River comes from natural sources. The majority of land 
within the Colorado River Basin is federally owned, much of which is 
administered by BLM. Through passage of the Colorado River Basin 
Salinity Control Act in 1974, Congress recognized that much of the 
salts in the Colorado River originate on federally-owned lands. Title I 
of the Salinity Control Act deals with the U.S. commitment to efforts 
related to maintaining the quality of waters being delivered to Mexico 
pursuant to the 1944 Water Treaty. Title II of the Act deals with 
improving the quality of the water delivered to U.S. users. In 1984, 
Congress amended the Salinity Control Act and directed that the 
Secretary of the Interior develop a comprehensive program for 
minimizing salt contributions to the Colorado River from lands 
administered by BLM. In 2000, Congress reiterated its directive to the 
Secretary and requested a report on the implementation of BLM's program 
(Public Law 106-459). In 2003, BLM employed a Salinity Coordinator to 
coordinate BLM efforts in the Colorado River Basin States to pursue 
salinity control studies and to implement specific salinity control 
practices. BLM is now working on creating a comprehensive Colorado 
River Basin salinity control program as directed by Congress. In 
January 2018 BLM issued A Framework for Improving the Effectiveness of 
the Colorado River Basin Salinity Control Program, 2018-2023. This 
document lays out how BLM intends to implement Colorado River Basin 
salinity control activities over the next 5 years. Meaningful resources 
have been expended by BLM in the past few years to better understand 
salt mobilization on rangelands. With a significant portion of the salt 
load of the Colorado River coming from BLM-administered lands, the BLM 
portion of the overall program is essential to the success of the 
entire effort. Inadequate BLM salinity control efforts will result in 
significant additional economic damages to water users downstream.
    It has been more than 44 years since the passage of the Colorado 
River Basin Salinity Control Act, and much has been learned about the 
impact of salts in the Colorado River system. Currently, the salinity 
concentration of Colorado River water causes about $450 million in 
quantifiable economic damages in the United States annually. Economic 
and hydrologic modeling by Reclamation indicates that these economic 
damages could rise to nearly $600 million by the year 2035 without 
continued implementation of the Program. For example, damages can be 
incurred related to the following activities:

  --A reduction in the ability to re-claim and reuse water due to high 
        salinities in the water delivered to water treatment and 
        reclamation facilities;
  --A reduction in the yield of salt-sensitive crops and increased 
        water use to meet the leaching requirements in the agricultural 
        sector;
  --Increases in the volumes of imported water required;
  --Increased costs of desalination and brine disposal for recycled 
        water in the municipal and industrial sectors;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, and other household appliances, and 
        increased use of bottled water and water softeners in the 
        municipal and industrial sectors;
  --Increased costs of cooling operations and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sectors;
  --Increases in the use of water and cost of water treatment, and an 
        increase in sewer fees in the industrial sector;
  --Decreased life of treatment facilities and pipelines in the utility 
        sectors;
  --Increasing difficulty in meeting wastewater discharge requirements 
        to comply with National Pollutant Discharge Elimination System 
        permit terms and conditions; and
  --Increased desalination and brine disposal costs due to accumulation 
        of salts in groundwater basins.

    The Colorado River is, and will continue to be, a major and vital 
water resource to the nearly 20 million residents of southern 
California, including municipal, industrial, and agricultural water 
users in Imperial, Los Angeles, Orange, Riverside, San Bernardino, San 
Diego, and Ventura Counties. The protection and improvement of Colorado 
River water quality through the continuation and expansion of an 
effective salinity control program will avoid, or reduce, additional 
economic damages to water users in California and the other States that 
rely on Colorado River water resources.
                                 ______
                                 
   Prepared Statement of the Congressional Fire Services Institute, 
International Association of Fire Chiefs, National Association of State 
             Foresters, and National Volunteer Fire Council

 
 
 
The Honorable Lisa Murkowski                The Honorable Tom Udall
Chairwoman                                  Ranking Member
Appropriations Subcommittee on              Appropriations Subcommittee
  Interior, Environment and Related          on
 Agencies                                     Interior, Environment and
U.S. Senate                                  Related Agencies
Washington, D.C. 20510                      U.S. Senate
                                            Washington, D.C. 20510
 


Dear Chairwoman Murkowski and Ranking Member Udall:

    The undersigned organizations are writing to express our strong 
support for maintaining effective funding levels in the fiscal year 
2020 appropriations process for essential wildfire risk reduction and 
protection programs within the USDA Forest Service's (USFS) State and 
Private Forestry (S&PF) program area. The important work accomplished 
through the State Fire Assistance (SFA) and Volunteer Fire Assistance 
(VFA) programs \1\ help decrease total Federal emergency wildland fire 
suppression costs and reduce the threat of fire to people, communities, 
and both public and private lands.
---------------------------------------------------------------------------
    \1\ The President's Budget proposed renaming these programs 
National Fire Capacity and Rural Fire Capacity respectively.
---------------------------------------------------------------------------
    America's forests and forest-dependent communities are at risk from 
outbreaks of pests and pathogens, persistent drought, and the buildup 
of hazardous fuels. Urbanization and development patterns are placing 
more homes and communities near fire-prone landscapes, leading to more 
destructive and costly wildland fires, like those that burned more than 
8 million acres in 2018 alone.
    We thank you for your leadership in developing and securing a long-
term wildland fire funding solution which will ensure that the USFS has 
the funding needed for both routine activities to local and State 
wildland fire preparedness and mitigation efforts as well as engage in 
emergency wildland fire suppression activities. This long-held goal of 
our organizations would not have been realized without your leadership 
and the work of this Committee. Additionally, our organizations thank 
you for providing additional funding to support the USFS wildland fire 
suppression and prevention accounts as well as increased funding for 
hazardous fuels mitigation on Federal lands and cross boundary areas 
for fiscal year 2019 appropriations.
    The fiscal year 2020 appropriations bill can provide for both 
necessary wildland fire suppression and fire risk reduction activities 
that reduce firefighting costs in the long run. We appreciate this 
Committee's continued support for the SFA and VFA programs and 
encourage you to continue providing strong funding for these important 
programs.
    SFA is the fundamental Federal mechanism for assisting States and 
local fire departments in responding to wildland fires and in 
conducting management activities that mitigate fire risk on non-Federal 
lands. The program helps train State and local first responders who are 
often first to arrive at a wildland fire incident, as well as equip 
them with the tools they need to put wildland fires out efficiently and 
safely.
    For example, in fiscal year 2018 SFA provided over $28 million in 
funding for hazardous fuels treatments, benefiting 1,065 communities in 
the wildland-urban interface (WUI). This funding led directly to the 
treatment of 49,400 acres of hazardous fuels, with another 184,808 
acres treated with leveraged funding from partners. Additionally, 
roughly $3.7 million in assistance was provided to conduct 3,882 risk 
assessments and complete fire management planning projects, supporting 
2,873 communities. In fiscal year 2018, SFA funding assisted 12,829 
communities through a variety of different activities, including 
funding for the training of 97,210 firefighters.
    The localized support provided by SFA is crucial because most 
wildland fires (80 percent during 2017) burn within State and local 
fire department jurisdictions. Even when it comes to wildland fires on 
Federal lands, SFA-supported crews and apparatus are often the first to 
respond.
    Our organizations are grateful for the Committee's decision to 
increase SFA funding to $81 million in fiscal year 2019. However, 
additional modest increases in SFA funding will help expand wildland 
fire preparedness and mitigation capacity for State forestry agencies. 
Attacking fires when they are small is the key to reducing fatalities, 
injuries, loss of homes and cutting Federal firefighting costs. The 
need for increased funding for fire suppression on Federal lands has 
broad support. The need to increase fire suppression funding for State 
and private lands, where roughly 80 percent of wildland fires occur, 
and where many fires that impact Federal lands begin, is just as 
urgent. In fiscal year 2020, we urge you to provide $87 million for the 
State Fire Assistance program.
    The VFA program provides support to rural communities and is 
critical to ensuring adequate capacity to respond to wildland fires, 
reducing the risk to communities, people, homes and property, and 
firefighters. This capacity is critical because these State and local 
resources are the first responders to more than 80 percent of wildland 
fires--whether on State, Federal or private lands. According to the 
USFS, during fiscal year 2018, the VFA program helped provide 
assistance to 13,959 communities, train 21,868 firefighters, expanded 
or organize 48 fire departments, and purchase, rehabilitate, or 
maintain nearly $11 million in equipment. Our organizations greatly 
appreciate the Committee's work to increase VFA funding to $17 million 
in fiscal year 2019. In fiscal year 2020, we urge you to provide no 
less than $18 million for the Volunteer Fire Assistance Program.
    We appreciate the difficult task the Committee faces in the current 
budget climate. It is important to remember, however, that these vital 
programs safeguard human life, habitat, and property, and reduce the 
overall cost of wildland fire management. Accordingly, we urge you to 
support funding for these critical programs.
    Thank you for your consideration of this important request.
                                 ______
                                 
              Prepared Statement of The Conservation Fund
    Chairman Murkowski, Ranking Member Udall, and Members of the 
Appropriations Subcommittee on Interior, Environment, and Related 
Agencies, thank you for this opportunity to submit outside witness 
testimony on behalf of The Conservation Fund (TCF). TCF supports a 
funding request of $600 million in fiscal year 2020 for the Land and 
Water Conservation Fund (LWCF), which includes the Federal land 
acquisition programs of the Bureau of Land Management ($45 million), 
National Park Service ($75 million), U.S. Fish and Wildlife Service 
($85 million), U.S. Forest Service ($100 million), as well as three 
State grant programs: the U.S. Fish and Wildlife Service's Cooperative 
Endangered Species Conservation Fund ($35 million); National Park 
Service's State Assistance Grants program ($130 million); and the U.S. 
Forest Service's Forest Legacy Program ($100 million). TCF also 
supports a funding request for the U.S. Fish and Wildlife Service's 
North American Wetlands Conservation Fund ($45 million); U.S. Fish and 
Wildlife Service's State and Tribal Wildlife Grant Programs ($90 
million); National Park Service's Chesapeake Bay Gateways and 
Watertrails Program ($3 million); the U.S. Forest Service's Community 
Forest and Open Space Conservation Program ($10 million); and the 
Department of Interior's (DOI) Natural Resource Damage Assessment and 
Restoration Program ($10 million). TCF requests funding for the 
Environmental Protection Agency's (EPA) Great Lakes Restoration 
Initiative ($300 million) and Chesapeake Bay Program ($80 million).
    At The Conservation Fund, we make conservation work for America. We 
are a nonprofit environmental organization, working to create 
conservation solutions that make economic sense. Top-ranked for 
efficiency and effectiveness, we have worked in all 50 States since 
1985 to protect over 8 million acres of land. We applaud the leadership 
of this subcommittee over many years to appropriate funds to acquire 
lands for future generations, working forests, recreational 
opportunities, wildlife habitat, and many other benefits.
    As the subcommittee crafts its Interior, Environment and Related 
Agencies Appropriations bill, there are several key programmatic 
funding recommendations we respectfully request you to consider, listed 
below.

    1.  Land and Water Conservation Fund (LWCF) at $600 million.--LWCF 
represents a promise to the Nation that proceeds from offshore oil and 
gas development will help protect the public trust. The requested $600 
million for LWCF in fiscal year 2020 will foster that mission, with the 
goal of soon securing the authorized funding level of $900 million per 
year.

            Funding at $600 million in fiscal year 2020 is critical for 
        the Nation's premier conservation program, a bipartisan 
        agreement nearly 55 years ago. The Conservation Fund applauds 
        Congress for passing bipartisan, bicameral legislation that 
        permanently reauthorizes LWCF, which was signed into law by the 
        president on March 12, 2019. TCF also urges Congress to work in 
        a similar fashion to provide full, mandatory funding (at $900 
        million) for the land conservation program.

            Since 1964, the Land and Water Conservation Fund has 
        protected some of America's most important natural and 
        historical treasures. From national parks, fish and wildlife 
        refuges, to working farms and ranches, and State and local 
        parks, LWCF continues to yield tremendous land protection 
        outcomes in communities nationwide. LWCF's land acquisition 
        programs provide critical resources needed to safeguard vital 
        lands from potential development, expand public access, and 
        protect wildlife habitat. LWCF projects are driven by private 
        landowners seeking to work with Federal land units and state 
        partners to sell their property for conservation purposes.

    A.  Bureau of Land Management (BLM) Land Acquisition at $45 
million.--The BLM and its National Conservation Lands provide some of 
our Nation's best recreation and historic areas. TCF partners with BLM 
on projects ranging from expanding sportsmen's access to Blue Ribbon 
fishing on the North Platte River in Wyoming to recreational access to 
the Upper Snake/South Fork ACEC SRMA in Idaho. In fiscal year 2020, we 
request $45 million to fund BLM's land acquisition program and 
projects.

    B.  National Park Service (NPS) Federal Land Acquisition at $75 
million.--Hosting more than 330 million visitors every year, the 419 
National Park units provide an economic boost to their local 
communities and those employed directly and indirectly. Funding for NPS 
LWCF will help protect key access points for recreation, historic 
areas, trails and more, including at Little River Canyon National 
Preserve in Alabama and the Chesapeake Bay's Captain John Smith 
Chesapeake National Historic Trail. We respectfully request $75 million 
to fund NPS's land acquisition program and projects.

    C.  U.S. Fish and Wildlife Service (FWS) Land Acquisition at $85 
million.--National Wildlife Refuges (NWR) are our Nation's protectors 
of clean water, clean air, abundant wildlife and world-class 
recreation. Funding for fiscal year 2020 FWS LWCF will help protect 
critical wildlife habitat, provide public access and recreation, and 
improve water quality at Refuges, including Texas' Laguna Atascosa 
National Wildlife Refuge; as well as preserving our Nation's working 
lands, such as at Montana's Rocky Mountain Front Conservation Area. We 
respectfully request $85 million to fund FWS's land acquisition program 
and projects.

    D.  U.S. Forest Service (USFS) Land Acquisition at $100 million.--
USFS LWCF funds help with forest management by protecting key 
inholdings and reducing fire threats. From Minnesota's Superior 
National Forest-Boundary Water Canoe Area Wilderness to the Appalachian 
Mountain's Cherokee (TN), Pisgah (NC), George Washington-Jefferson 
(VA), and Chattahoochee (GA) National Forests, we are working with 
willing landowners at priority project areas and respectfully request 
$100 million to fund USFS's land acquisition program and projects.

    E.  LWCF State Grant Programs: FWS-Cooperative Endangered Species 
Fund, NPS-State Conservation Grants, and USFS-Forest Legacy.--We 
encourage the subcommittee to fund:

     -- FWS.--Cooperative Endangered Species Conservation Fund: $35 
        million (for the LWCF-funded portion)
     -- NPS.--State Assistance Grants program: $130 million
     -- USFS.--Forest Legacy Program: $100 million

    2.  DOI and USFS Conservation and Land Acquisition Programs.--TCF 
encourages the Committee to fund:

     -- FWS.--North American Wetlands Conservation Fund at $45 million
     -- FWS.--State and Tribal Wildlife Grant Programs at $90 million
     -- NPS.--Chesapeake Bay Gateways and Watertrails Program at $3 
        million
     -- USFS.--Community Forest and Open Space Conservation Program at 
        $10 million

    3.  Department of Interior--Natural Resource Damage Assessment and 
Restoration Program at $10 million.--The Restoration Program leads the 
national response for recovery of natural resources that have been 
injured or destroyed because of oil spills or releases of other 
hazardous substances. Recoveries from responsible parties can only be 
spent to implement restoration plans developed by the Trustee Council 
for each incident. These funds are one hundred percent private and 
represent the amount needed to restore environmental resources or 
compensate for lost public use since the damage in question. The fiscal 
year 2020 funds would allow the Program to add carefully targeted staff 
allocated to Interior bureaus and offices through its Restoration 
Support Unit to accelerate restoration activities.

    4.  Environmental Protection Agency Programs.--TCF encourages the 
Committee to fund:

     -- Great Lakes Restoration Initiative (GRLI) at $300 million.--TCF 
        urges funding of GLRI at $300 million. The Initiative provides 
        critical support for on-the-ground restoration and conservation 
        programs and projects targeted at the most significant 
        environmental problems in the Great Lakes ecosystem.
     -- Chesapeake Bay Program at $80 million.--TCF urges funding of 
        the Chesapeake Bay program at $80 million. This program brings 
        together a diverse partnership to support the Bay's 
        restoration.

    The Conservation Fund stands ready to work with you to secure full 
and consistent funding for the Land and Water Conservation Fund, North 
American Wetlands Conservation Act, Great Lakes Restoration Initiative, 
and the other critically important programs that help protect the 
environment, economies, forests, and community values across our 
Nation. Thank you for the opportunity to provide this testimony and 
your consideration of our request.

    [This statement was submitted by Kelly Reed, Vice President of 
Government Relations.]
                                 ______
                                 
 Prepared Statement of the Cooperative Alliance for Refuge Enhancement
    Chairwoman Murkowski, Ranking Member Udall, and Members of the 
subcommittee:

    The National Wildlife Refuge System stands alone as the only 
Federal land and water conservation system with a mission that 
prioritizes wildlife and habitat conservation alongside wildlife-
dependent recreation. Since 1995, the Cooperative Alliance for Refuge 
Enhancement (CARE) has worked to showcase the value of the Refuge 
System and to secure a strong congressional commitment for conserving 
these special landscapes.
    Found in every U.S. State and Territory, national wildlife refuges 
conserve a diversity of America's environmentally sensitive and 
recreationally vital ecosystems, including wetlands, coasts, forests, 
prairie, tundra, deserts, and oceans, and provide Americans with an 
opportunity to encounter and engage with these areas.
    We ask that the Committee provide a funding level of $586 million 
for the Operations and Maintenance accounts of the National Wildlife 
Refuge System for fiscal year 2020.
    This testimony is submitted on behalf of CARE's 23 member 
organizations, which represent over 16 million American hunters, 
anglers, bird and wildlife watchers, scientists, managers, and 
concerned citizens passionate about wildlife conservation and related 
recreational opportunities.

American Birding Association
American Fisheries Society
American Sportfishing Association
Association of Fish and Wildlife Agencies Congressional Sportsmen's 
Foundation
Defenders of Wildlife
Ducks Unlimited, Inc.
Izaak Walton League of America
Marine Conservation Institute
National Audubon Society
National Rifle Association
National Wildlife Federation
National Wildlife Refuge Association
Safari Club International
The Corps Network
The Nature Conservancy
The Wilderness Society
The Wildlife Society
Theodore Roosevelt Conservation Partnership
Trout Unlimited
U.S. Sportsmen's Alliance
Wildlife Forever
Wildlife Management Institute
           inadequate funding-challenges to the refuge system
    The Refuge System budget, at $487.7 million, is now $96.6 million 
below the level needed to keep pace with inflation and fixed costs 
($584.3 million), relative to the fiscal year 2010 budget of $503.2 
million. At least $8-10 million appropriations increase is required 
each year just to keep pace with inflation and fixed costs, and these 
budgets are going in the wrong direction.
    Workforce has declined since the high staffing point in 2011 by 645 
positions through attrition. Those employees provided services such as 
administration, maintenance, fire management, wildlife management, and 
research support. That is a loss of nearly 1 out of 7 refuge positions. 
As a result, refuge staff struggle to maintain habitat, while also 
providing adequate visitor services, environmental education, and 
access for hunting, fishing, and other recreation. No refuges today are 
fully staffed, and in fact, nearly half of refuge units (282) are 
completely unstaffed.
    An additional problem with lack of funding is the System's 
inability to provide for ongoing maintenance costs, which only compound 
and become more expensive with time. At Arthur R. Marshall Loxahatchee 
NWR in Florida, the invasive species issues are overwhelming the 
refuge. In the last 12-15 years, Loxahatchee has struggled with 
invasive Lygodium, with initial costs of $2 million a year to restrict 
uncontrolled spread. Now, the refuge needs roughly $5 million a year 
for 5 years in order to control this weed, with costs having doubled or 
tripled.
    Unfortunately, inadequate funding threatens the System's ability to 
carry out its mission, which is mandated by the National Wildlife 
Refuge System Improvement Act of 1997. For example, in Region 3, which 
includes the Great Lakes States, there are 296 current positions, down 
from their height of 346 staff in fiscal year 2010. Based on optimal 
staffing models, the region is 100 staff short. This shortage of staff 
has caused problems across the region: visitor centers prioritize hours 
for peak visitation and are closed many days. There is no ability to do 
restoration work on lands they have or have acquired. There are fewer 
Federal wildlife officers. Maintenance of public use facilities such as 
parking lots and bathrooms has dwindled, particularly on Wildlife 
Management Areas, and approximately 20 percent fewer are mowed. At the 
Prairie Wetlands Learning Center in Fergus Falls, MN, the director 
position has been vacant for 2 years, and the city is questioning the 
U.S. Fish and Wildlife Service's commitment to the center. The loss of 
managed hunts, such as youth hunting programs and hunts for the 
disabled, has been dire. Many such hunts have not been held for years.
    This dire funding situation can be seen across the other seven 
regions.
    Between fiscal year 2010 and fiscal year 2013, Refuge System 
funding was reduced by $50 million--a 10 percent cut. Even with 
increased budgets in fiscal year 2019 to $487.7 million, the Refuge 
System continues to function at unsustainable levels. CARE estimates 
that the Refuge System needs at least $900 million in annual operations 
and maintenance funding to meet conservation targets, including 
wildlife management, habitat restoration, and opportunities for public 
recreation.
    Inadequate numbers of Federal wildlife officers (by some measures, 
the number of FWOs should be three to four times higher than current 
numbers) imperil healthy habitat and the safe and enjoyable visitor 
experience. The 'lucky' refuges still have one or two employees per 
refuge or refuge complex doing work such as environmental education, 
biology, or maintenance work. Yet many other refuges sit for years with 
unfilled, critical positions.
    In Region 6, which stretches from Colorado to the Prairie Pothole 
Region, retention of staff is a major problem. Biologists are in short 
supply, and regional headquarters staff struggle to get biologists out 
to each refuge at even a fraction of the needed time. In 2014, they had 
63 full time farm maintenance staff, now only 49--a 25 percent 
reduction. They currently have ten refuge law enforcement positions 
open, and cannot fill them because of the combination of low pay and 
benefits with the very rural locations. At the same time, they're 
looking to increase usage on refuges, such as hunting and fishing. Elk 
National Wildlife Refuge in Wyoming is 24,700 acres, and one FWO is 
stationed there--and he shares time at BLM lands as well.
    Without significant increases in funding, there is simply no room 
left to trim positions and still maintain at least a portion of those 
services--they will simply disappear, and school programs or ongoing 
maintenance will end. And refuges will continue to close.
        national wildlife refuge system: statistics and visitors
    The National Wildlife Refuge System, established by President 
Theodore Roosevelt in 1903, protects approximately 840 million land and 
marine acres on 567 national wildlife refuges and 38 wetland management 
districts in every State and territory in the U.S., and 5 marine 
monuments in the Pacific and Atlantic oceans. These acres are part of 
the Refuge System and U.S. Fish and Wildlife Service managed (with some 
marine acres co-managed with NOAA). From the Virgin Islands to Guam to 
Alaska to Maine, the Refuge System spans 12 time zones and protects 
America's natural heritage in habitats ranging from arctic tundra to 
arid desert, boreal forest to sagebrush grassland, and prairie wetlands 
to coral reefs.
    A refuge is within an hour's drive from most metropolitan areas, 
enabling the Refuge System to attract a growing number of visitors each 
year (55.8 million in fiscal year 2018, up from 46.5 million in fiscal 
year 2013) and provide opportunities for hunting, fishing, wildlife 
observation, photography, kayaking, hiking, and outdoor education. 
Americans are visiting refuges in increasing number for the wild beauty 
and recreational opportunities they provide.
    CARE welcomes recreational use of our Nation's refuges. The ``Big 
6'' uses of the Refuge System--hunting, fishing, wildlife watching, 
photography, environmental education, and interpretation--were 
enshrined into law in the 1997 National Wildlife Refuge System 
Improvement Act. Refuge visitors generate $2.4 billion annually to 
local and regional economies--on average returning $4.87 in economic 
activity for every $1 appropriated--and support 35,000 U.S. jobs.\1\ In 
addition, refuges provide major environmental and health benefits, such 
as filtering storm water before it is carried downstream and fills 
municipal aquifers; reducing flooding by capturing excess rainwater; 
and minimizing the damage to coastal communities from storm surges. 
Refuges generate more than $32.3 billion in these ecosystem services 
each year, a return of over $65 for every $1 appropriated by 
Congress.\2\
---------------------------------------------------------------------------
    \1\ Banking on Nature, U.S. Fish and Wildlife Service, October 
2013, http://www.fws.gov/refuges/about/refugereports/pdfs/
BankingOnNature2013.pdf
    \2\ The Economics Associated with Outdoor Recreation, Natural 
Resources Conservation, and Historic Preservation in the United States, 
Southwick Associates, October 2011, https://www.fws.gov/refuges/news/
pdfs/TheEconomicValueofOutdoorRecreation[1].pdf
---------------------------------------------------------------------------
             care requests $586 million in fiscal year 2020
    We acknowledge that this request would mean a dramatic $98 million 
increase. However, with the effective $96 million decrease in funding 
since fiscal year 2010, the Refuge System has lost a great deal of 
conservation work and public use opportunities, all at a time when 
visitor numbers are increasing. If annual operations and maintenance 
funding does not rise substantially, CARE anticipates further impacts 
both within and outside of refuge boundaries, including:

  --Loss of refuge law enforcement to the point where visitors and 
        wildlife are not protected--the System is currently functioning 
        with 22 percent of the FWOs needed. Six States currently have 
        zero FWOs, and another 10 only have one.
  --Further closures of visitor centers, elimination of environmental 
        education programs that currently work closely with local 
        schools, and a loss of visitor services staff, which would 
        leave many States with no visitor services staff at all, such 
        as Maine.
  --Reduced quality of habitat for hunting. Over the past 2 years, the 
        Department of the Interior has worked to add and expand hunt 
        programs at refuges, providing additional opportunities for 
        outdoor recreationists as part of the ``Big 6''. These hunt 
        expansions will require corresponding funding to keep up with 
        the demand on Federal wildlife officers and on biologists and 
        other staff responsible for keeping wildlife habitat and 
        populations healthy.
  --Reduced treatment of invasive plants, reducing habitat quality for 
        wildlife (both game and non-game) and placing nearby private 
        lands at higher risk of infestations.
  --Decreased use of prescribed fire, which is used on refuges both to 
        improve habitat for wildlife and to reduce hazardous fuels that 
        pose a wildfire risk to nearby communities. This risk has been 
        mitigated by the fire fix passed by the Congress this spring, 
        but resources for prescribed fire still need to be in place on 
        individual refuges.

    The common denominator to all these challenges is a lack of 
funding. Adequate staffing and funding are critical to the maintenance 
of healthy wildlife populations and access for recreational users to a 
healthy ecosystem. Increasing funding for the System will empower and 
enable individual refuge units to deliver on-the-ground conservation 
that benefits not only wildlife and recreation, but also local 
communities across the Nation.
    We ask that this Committee use a portion of its additional funding 
allocation in the budget deal finalized in January, and put it towards 
a substantial increase in Refuge Operations and Maintenance funding. 
CARE has a goal of seeing Refuge Operations and Maintenance funding 
reach $900 million by fiscal year 2021, and a large increase in fiscal 
year 2020 would help us meet that goal.
    We urge Congress to fund the Refuge System at $586 million in 
fiscal year 2020--to bridge the growing gap between what the System 
needs and what it receives--enabling refuges to continue moving America 
forward as the world's leader in wildlife conservation and restoration.
    Our hope is that this level of funding will put the Refuge System 
on a path to full funding of $900 million and help the System advance 
its mission to maintain refuge lands as intended in their purpose for 
the benefit of the American people, finalize outstanding Comprehensive 
Conservation Plans, and implement programs that will benefit both 
wildlife and people. The President's Budget Request for fiscal year 
2020 is $509.5 million, which would be the highest amount ever 
appropriated to the Refuge System O&M. While we applaud the requested 
increase, more funding is needed.
    On behalf of our more than 16 million members and supporters, CARE 
thanks the subcommittee for the opportunity to submit comments on the 
fiscal year 2020 Senate Interior Appropriations bill, and we look 
forward to more discussions with you regarding our request.
                                 ______
                                 
   Prepared Statement of the Council of Athabascan Tribal Governments
    The Council of Athabascan Tribal Governments (CATG) is a consortium 
of 10 Tribal governments located along the Yukon River and its 
tributaries in northeastern Alaska. The Gwich'in and Koyukon Athabascan 
peoples of the Yukon Flats live in remote villages, who united to form 
the Council: Arctic Village, Beaver, Birch Creek, Canyon, Chalkyitsik, 
Circle, Fort Yukon, Rampart, Stevens, and Venetie. Tribal leadership 
has clear vision: stable self-sufficient economies built upon strong 
local self-governance. Our organization provides a variety of services 
to the Tribal citizens of our region, including full healthcare 
services at the Yukon Flats Health Center and village-based clinics in 
four of our Villages. We have Self-Governance agreements with the Fish 
and Wildlife Service and with the Bureau of Land Management.

    CATG requests the following considerations be implemented in the 
fiscal year 2020 Appropriations cycle:

  --Natural Resource Priorities: Ensure Adequate funding for co-
        management.
  --Expand Self-Governance: Expand Self-Governance and fully fund 
        Annual Funding Agreements with Bureau of Indian Affairs, Bureau 
        of Land Management, and U.S. Fish and Wildlife.
  --Section 105(l) Leases: Support funding for healthcare facility 
        leases under Section 105(l) of the Indian Self-Determination 
        and Education Assistance Act (ISDEAA).
  --Budget Increases: Support behavioral health increases to the IHS 
        and BIA budgets.
  --Advance Appropriations for IHS: Support advance funding for the IHS 
        and other Tribal programs.
  --Contract Support Cost (CSC) Funding: Support continued full and 
        mandatory CSC funding for the IHS and BIA.

Natural Resources

    The traditions of our grandparents live on through our ability to 
hunt and fish, which include the ceremonies that accompany these 
cultural practices. As Native peoples, access to our traditional food 
resources is critical for our culture, health, wellbeing, economic 
security and food sovereignty. The Council advocates for Alaskan 
hunting and fishing management policy and regulations to provide for 
Alaska Native food security, community wellbeing, and traditional ways 
of life. We ask for funding to protect Alaska Native hunting and 
fishing rights.
    The Porcupine Caribou Herd are our relatives, they are the backbone 
of our culture, and they provide for our health, wellbeing, economic 
security, and food security. The Gwich'in Nation and the Council stand 
unified in our call for full protection of the ``Sacred Place Where 
Life Begins,'' birthing grounds of the Porcupine Caribou Herd along the 
coastal plain of the Arctic National Wildlife Refuge since 1988. Last 
year, Congress opened up the Arctic National Wildlife Refuge (ANWR) 
through the budget process. The Council asks Congress to ensure 
meaningful government to government consultation, and participation by 
all impacted Tribes in all Federal actions related to the Porcupine 
Caribou Herd and their habitats.
    Salmon are our relatives, they are the backbone of our culture, and 
they provide for our health, wellbeing, economic security, and food 
security. The U.S. Fish & Wildlife Service (USFWS) has confirmed the 
importance of this critical resource, ``the state's rural residents 
harvest approximately 22,000 tons of wild foods each year--an average 
of 375 pounds per person. Fish make up about 60 percent of this harvest 
Statewide. Nowhere else in the United States is there such a heavy 
reliance upon wild foods.'' CATG asks Congress to support Tribal co-
management, through full funding of the Yukon River Inter-Tribal Fish 
Commission.

Expand Self-Governance

    CATG is proud to be one of the first Tribal consortium in the 
country to develop non-Department of the Interior (DOI) Self-Governance 
Annual Funding Agreements (AFA) for agencies other than the Bureau of 
Indian Affairs (BIA). We remain concerned that DOI scopes of work are 
being limited and the original intent and practice of Self-Governance, 
which is to build Tribal capacity to take on increasing levels of 
responsibility, is not being properly carried out. We request your 
support to expand Self-Governance practice and agreements beyond BIA.
    Since 2004, the CATG has had an Annual Funding Agreement (AFA) 
under Title IV of the Indian Self-Determination and Education 
Assistance Act (ISDEAA) with the USFWS. Through the AFA, the CATG has 
implemented selected PFSAs of the Yukon Flats National Wildlife Refuge 
(YFNWR), namely: (1) Cooperative Moose Management Planning; (2) 
education and outreach programming; (3) harvest data collection and 
reporting; (4) logistical maintenance of the only logistical outpost in 
the Refuge; and (5) Refuge Information Technician staffing.
    The AFA's success and growth has been limited by funding levels 
that have remained fairly static since the 1st agreement was signed 
(estimated at $60,000 annually), lacking funding for staff time to 
complete PFSAs and for contract support costs. We appreciate recent 
positive developments with YFNWR leadership in working to expand and 
fully fund the AFA, as it is a beneficial relationship for the YFNWR 
staff, the wildlife and habitat, and Tribal governments. At this time, 
it has been demonstrated CATG needs to implement harvest data 
collection and reporting activities for adequate moose management. CATG 
has demonstrated its commitment to a successful working relationship 
with the YFNWR, and seeks to expand and fully fund the AFA. CATG asks 
Congress to ensure continued, fully funded, and expanded self-
governance agreement with USFWS YFNWR.
    In 2011, the CATG implemented the first self-governance AFA under 
Title IV of the ISDEAA with the Bureau of Land Management/Alaska Fire 
Service (BLM/AFS). The Council has demonstrated their commitment to 
running a successful Emergency Fire Fighter training and certification 
program ever since. But the 2018 Federal Government shutdown resulted 
in our BLM AFA getting hung up in the process, leaving CATG with 
substantial uncertainty. Announcements are now also coming late for 
contract work with BLM, and these are all jobs that our communities 
count on. The Council has developed a productive partnership with the 
BLM/AFS to more efficiently and effectively use government resources. 
The Council asks for Congress to ensure continued self-governance 
agreement with the BLM AFS through full funding, and we encourage 
Congress to facilitate BLM's cooperation in finalizing and implementing 
the AFA, and other contract work, within this fiscal year 2019, not 
simply kicking the can down the road to fiscal year 2020 as it relates 
to CATG.

Section 105(l) Clinic Leases

    Tribes and Tribal organizations increasingly rely on section 105(l) 
leases to address chronically underfunded facilities operation, 
maintenance, and replacement costs. We are gratified that IHS has been 
funding Section 105(l) leases for Tribal health clinics. This 
responsibility was confirmed by the 2016 Federal court decision in 
Maniilaq v. Burwell, which held that section 105(l) of the ISDEAA 
provides an entitlement to full compensation for leases of Tribal 
facilities used to carry out ISDEAA agreements. We appreciate your 
supplemental appropriations in fiscal year 2019 for these costs, and we 
ask that funding continue to be made available for these important 
leases. This Committee has invited IHS to submit a report on the budget 
impact of meeting its responsibility. We oppose any appropriations 
rider, such as those included in the administration's budget proposals 
for fiscal year 2018 and fiscal year 2019, which would allow IHS to 
avoid its responsibility to compensate Tribes fully for these costs. We 
ask that Congress again decline to include such a provision in the 
fiscal year 2020 IHS appropriation.

Budget Increases

    CATG's communities in rural Alaska have extreme rates of suicide, 
alcohol and substance abuse; issues that contribute to a multitude of 
other adverse problems such as crime, domestic violence, child abuse 
and neglect. We have been encouraged by new funding to address the 
opioid crisis that impacts many of our communities. Thank you for the 
new $10 million opioid grant program in the fiscal year 2019 IHS 
budget. However, frequently, Tribes in Alaska have difficulty working 
through the State of Alaska to provide behavioral and social services, 
which adds burdensome layers and undue regulation. We appreciate that 
HHS this year distributed the $50 million in Tribal opioid funds via 
formula.
    CATG believes that Tribes and Tribal organizations should receive 
behavioral funds directly, because programs that implement traditional 
cultural values have proven to be far more successful than those that 
do not. We ask for your support in this effort. CATG also asks for 
support in expanding the Generations Indigenous (Gen-I) initiative, 
which provides increased resources for Tribes to address youth 
behavioral, mental health and substance abuse issues, as well as 
expansion of the Tiwahe Initiative, designed to address the inter-
related problems of poverty, violence and substance abuse faced by 
Native communities. We appreciate that last year Congress rejected the 
administration's proposal to reduce funding for this important 
initiative.

Advance Appropriations for IHS

    We thank Ranking Member Udall, Representative Don Young, and 
Interior Appropriations Chairwoman McCollum and Ranking Member Joyce 
for introducing legislation to provide advance appropriations for IHS 
and in some of the bills, for the BIA and BIE. IHS healthcare is 
similar to Veterans healthcare in that both the VA and the IHS provide 
direct medical care and both are the result of Federal policies. 
Predictability, continuity, and certainty are essential for providing 
stable quality healthcare. This issue continues to be important to 
Alaska Native and American Indian patients, particularly in a budget 
climate of seemingly endless Continuing Resolutions (CR). When IHS 
funding is subject to a CR, as it has been repeatedly over many years, 
Tribal healthcare providers receive only a portion of funding at a 
time, making it particularly difficult to implement long-range planning 
and to effectively use and leverage limited resources. Partial funding 
also requires the same processing and manpower for each incomplete 
payment as one full apportionment. Having advance notice of funding 
levels would greatly aid CATG and other Tribal health providers in 
program planning, recruitment and retention of essential healthcare 
professionals. Under advance appropriations, we would know a year in 
advance what the budget would be and it would resolve much of the 
uncertainty we have experienced because full appropriations were not 
enacted at the first of the Federal fiscal year. The IHS budget should 
be afforded the same status consideration as VA health programs.

Contract Support Cost (CSC) Funding

    CATG would like to thank the House and Senate subcommittees for 
their leadership and commitment to fully funding CSC for IHS and BIA 
ISDEAA agreements. We appreciate the full funding of CSC over the past 
few fiscal years, that the funding is indefinite (``such sums as may be 
necessary'',) and that the funding is in separate accounts in the IHS 
and BIA budgets. We request that the subcommittees continue to fully 
fund CSC. Such action is crucial to strengthening the ability of Tribal 
governments to successfully exercise their rights and responsibilities 
as sovereign nations.

Telecommunications Subsidies

    As you know, Internet connectivity is critical to providing 
healthcare services to our remote villages. Last year you heard from us 
and other Tribes regarding the cap on Universal Service rural 
healthcare funds. We appreciate the work that was done to eliminate the 
cap.

Conclusion

    CATG greatly appreciates your consideration of our requests 
outlined in this testimony. On behalf of our organization and all of 
the people we serve, I would be happy to provide any other additional 
information as requested by the subcommittees.

    [This statement was submitted by Rhonda Pitka, Chief of the Village 
of Beaver, and Vice Chair of the Council of Athabascan Tribal 
Governments.]
                                 ______
                                 
                    Prepared Statement of Dance/USA
    Madam Chair and distinguished members of the subcommittee, I am 
grateful for the opportunity to submit testimony on behalf of Dance/
USA, its Board of Directors and its 500 members. We strongly urge the 
subcommittee on Interior, Environment, and Related Agencies in the 
Committee on Appropriations to designate a total of at least $167.5 
million to the National Endowment for the Arts (NEA) for fiscal year 
2020. This testimony and the funding examples described below are 
intended to highlight the importance of Federal investment in the arts, 
which are critical to sustaining a vibrant cultural community 
throughout the country.
    The NEA is a great investment in the economic growth of every 
community. The NEA was established in 1965 with the mission to 
``strengthen the creative capacity of our communities by providing all 
Americans with diverse opportunities for arts participation.'' It has 
continued to meet this mission for over 50 years, recommending more 
than 2,300 grants in every Congressional District in the country in 
fiscal year 2018. Sixty-five percent of direct grants went to small 
(budgets under $500,000) and medium sized (budgets between $500,000 and 
$2 million) organizations. Additionally, 40 percent of NEA-supported 
activities took place in high-poverty neighborhoods and 36 percent of 
NEA grants reached underserved populations, such as people with 
disabilities and veterans. Between 2012 and 2015, NEA-supported 
programs reached 24.2 million adults and 3.4 children on average each 
year through 80,603 live events.
    Funding from the NEA continues to support arts organizations and 
their communities by providing a high return on investment. The ratio 
of private and other public funds matching every NEA grant dollar is 
approaching 9:1, generating more than $500 million in matching 
supporting.
    Before the establishment of the NEA, funding for the arts was 
mostly limited to larger cities. The NEA is the only arts funder in 
America, public or private, that supports the arts in all 50 States, 
the District of Columbia, and U.S. territories. Additionally, 40 
percent of the NEA's program funds are distributed through State arts 
agencies, reaching tens of thousands throughout the U.S. NEA funding 
provides access to the arts in regions with histories of 
inaccessibility due to economic or geographic limitations.
    At the national level, the arts and cultural sector contributed 
$763.6 billion to the U.S. economy in 2015, 4.2 percent of the GDP, and 
counted 4.9 million workers who earned $372 billion in total 
compensation. The tax-exempt performing arts organizations contributed 
$9 billion to the U.S. economy and employed 90,000 workers, who earned 
$5.6 billion in total compensation. Consumers spent $31.6 billion on 
admissions to performing arts events.
    Dance companies make communities healthier and more vibrant. 
Audiences across the U.S. have the opportunity to experience dance in 
many aspects of life. Professional not-for-profit dance is highly 
diverse in its artistic forms, covering genres and styles that include 
aerial, ballet, burlesque, capoeira, flamenco, hip hop, hula, jazz, 
kathak, liturgical, modern, physically integrated, and tap dance, in 
addition to fusions of these genres and styles and the incorporation 
into other artistic disciplines. Dance artists work with performing 
arts centers, businesses, park districts, community centers, schools, 
religious institutions, and many other groups to ensure this wealth of 
creative activity is widely accessible to the public.
    Established in 1982 as the national service organizations for the 
professional dance field, Dance/USA's membership currently consists of 
more than 500 dance companies, dance service and presenting 
organizations, individuals, and related organizations.

  --Economic Impact: Not-for-profit dance regularly generates more than 
        $700 million in economic activity across the country. In fiscal 
        year 2014, reported annual expense budgets totaled $755.5 
        million. Ensembles that reported expenses for wages and 
        benefits on their 990s paid a total of $372.4 million, which 
        approximates to half (50.9 percent) of total aggregated 
        expenses for these ensembles.
         According to data compiled by the NEA and the Bureau of 
Economic Analysis' U.S. Arts and Culture Production Satellite Account, 
the gross output from not-for-profit dance companies totaled $972 
million, while the value added to the GDP by dance companies is $573 
million.
         Not-for-profit dance ensembles employed over 15,900 
individuals in a mix of full-time and part time positions in fiscal 
year 14. These ensembles were further supported by more than 22,800 
volunteers.

  --Communities Served: According to the Survey of Public Participation 
        in the Arts (SPPA), social dancing is the most common way 
        Americans performed art in 2012. African Americans are the 
        race/ethnic group more likely to dance in a formal setting, and 
        Hispanics are the group most likely to dance socially. The 
        rates of dance participation are highest for younger adults 
        (18-34). Dance (other than ballet) is the only performing arts 
        activity for which U.S. attendance rates at performances did 
        not fall between 2002 and 2012. (Data from the 2017 SPPA 
        research has not yet been fully released.)

  --Dance Works: According to research conducted by Dance/USA, the 
        dominant motivation for attending dance performances, 
        representing 50 percent of those surveyed, is to be inspired or 
        uplifted. Not-for-profit dance performances have the 
        opportunity to bring communities together, supporting social 
        and emotional needs of audience members.
                           nea grants at work
    NEA grants are awarded to dance organizations through its core 
programs: Art Works; Challenge America Fast Track Grants; and Federal/
State Partnerships. In fiscal year 2018, the NEA awarded 163 grants to 
the dance field through the Art Works category, totaling $3,920,000.
    Below are just a few examples of the excellent initiatives that 
dance groups are engaged in, supporting artists, audiences, and 
communities.
Karen Peterson and Dancers
Miami, Florida
$35,000
    Karen Peterson and Dancers received support to re-stage and present 
choreographer Paul Taylor's ``3 Epitaphs'' by Valencia College 
students. Francie Huber, an award-winning principal dancer with the 
Paul Taylor Dance Company for 14 years and a teacher of modern dance 
and Taylor workshops, restaged the work. Outreach activities included 
master classes for high school students, open rehearsals, and 
discounted tickets.
National Institute of Flamenco
Albuquerque, New Mexico
$15,000
    National Institute of Flamenco received support for residency 
activities for flamenco artists traveling from Spain to New Mexico. 
Through the Visiting Artist Line, NIF brings the world's finest 
professional flamenco artists, including dancers, choreographers, 
musicians, costumers, and design technicians for residencies in New 
Mexico that can last from eight days to four weeks. These guest artists 
interacted with local and national communities by teaching, providing 
professional development opportunities, performing, collaborating, 
creating new dance works, and facilitating international artistic 
networks.
Nashville Ballet
Nashville, Tennessee
$15,000
    Nashville Ballet received funding to support the company premiere 
of Stephen Mills' ``Light: The Holocaust and Humanity Project,'' and 
accompanying community engagement programming. The work was presented 
at the Tennessee Performing Arts Center in Nashville as part of a 
larger community collaboration with the Jewish Federation of Nashville, 
the Tennessee Holocaust Commission, and the Nashville Symphony 
Orchestra.
Axis Dance Company
Oakland, California
$20,000
    Axis Dance Company received support for dance education and 
outreach programs for youth and adults with and without disabilities. 
AXIS offered a variety of educational opportunities in the Bay Area and 
on a national tour. Project activities included dance classes, 
professional-level dance training, teacher training, a choreographic 
lab for choreographers with disabilities, dance apprenticeships, 
community workshops, lecture-demonstrations, residencies, and open 
rehearsals and movement experiences for veterans.
Eugene Ballet
Eugene, Oregon
$15,000
    Eugene Ballet received support for the premiere of ``Peer Gynt,'' a 
multimedia ballet by choreographer Toni Pimble based on Henrik Ibsen's 
fairy tale play. In collaboration with designer Andy Warfel and video 
engineer and multidisciplinary artist Jessey Zepeda, the ballet 
included virtual theatrical scenery. Multimedia elements helped 
communicate the complicated narrative. Outreach and education 
programming included pre-performance discussions and lecture-
demonstrations in rural schools.
Conclusion
    Dance/USA is grateful for the $2 million increase to the NEA in 
fiscal year 2019. The continued bipartisan support for the agency has 
continued to support artists and audiences, allowing dance and the arts 
to address critical issues, making communities healthier and more 
vibrant.
    We urge you to continue toward restoration and increase the NEA 
funding allocation $167.5 million for fiscal year 2020.
    On behalf of Dance/USA, thank you for considering this request.

    [This statement was submitted by Amy Fitterer, Executive Director.]
                                 ______
                                 
                Prepared Statement of David Jonas Bardin
         usgs geomagnetism program and & mt survey continuation
Chairman Murkowski and Ranking Member Udall:

    Thank you for rejecting proposals to zero out the USGS Geomagnetism 
program in fiscal year 2018 and 2019.
    I ask for $4 million in fiscal year 2020. OMB proposes a program 
cut of 25 percent, which would lead USGS to mothball three of its 14 
magnetic observatories--in Alaska, California, and Mississippi.
    I support OMB's new $1.726 million line for continuation of the 
magnetotelluric survey. (See USGS Energy and Mineral Resources 
program).
    USGS researchers combine observatory detections of magnetic storms 
(``space weather'' from the Sun) with MT survey data as they become 
available, finding ``that risk varies considerably from region to 
region, with some electrically resistive rocks boosting the regional 
geoelectric hazard by a factor of a hundred.'' See National Geographic, 
Solar storms can be even worse if you live near certain rocks: New USGS 
data show how cities have higher or lower risks of blackouts during a 
powerful sun storm depending on their regional geology (March 18, 
2019).
                          geomagnetism program
    This program is underfunded: Congress has appropriated $1.888 
million every year since fiscal year 2013 when sequestration hit. In 
fiscal year 2012, it was $2.004 million, in fiscal year 2011 it was 
$2.097 million, in fiscal year 2010 it was $2.138 million.
    Moreover, the U.S. Air Force has decided to stop contributing to 
this program after 14 years--during which other agencies benefiting 
from USGS observatory data (such as NOAA) contributed nothing. (USGS 
will continue to give USAF and other agencies data--at no charge--to 
extent collected.)
    USGS's high-quality Geomagnetism program--vital to space weather 
predictions, electric power grid protection, civilian and military 
navigation (and more)--should expand rather than contract. ``For both 
science and practical applications there are already too few permanent 
magnetic observatories'' write our international partners (March 20, 
2019, letter to USGS from Dr. Alan Thomson of British Geological Survey 
on behalf of INTERMAGNET and IAGA).

  --Congress should fund entire program through USGS (in the Interior 
        et al bill).
  --Congress should add $1.1 million to last year's appropriation 
        ($650,000 to offset loss of USAF funding and $450,000 to offset 
        erosion of buying power, catch up on maintenance of all 14 
        existing observatories, and modestly to expand this program.
  --Congress should enable USGS to operate permanent magnetometers to 
        measure magnetic fields at each of its 14 observatories and to 
        add permanent electrometers to measure electric fields directly 
        at some (only Boulder now has an electrometer). See USGS 
        observatory map, below.
  --Congress should enable USGS to overcome insufficiency of magnetic 
        observatories--especially in the vast Eastern electric power 
        interconnection, home to most Americans (where USGS has only 
        two observatories, one to be mothballed) and the Texas 
        interconnection (where it has none).

    Executive Order 13865 (March 26, 2019), Sec. 5(c), directs the 
Secretary of the Interior to ``support the research, development, 
deployment, and operation of capabilities that enhance understanding of 
variations of Earth's magnetic field associated with [natural and 
human-made electromagnetic pulses] EMPs'', but OMB proposes to withhold 
Geomagnetism program resources essential to do that.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               mt survey
    OMB's proposed MT survey continuation line (under Energy and 
Mineral Resources program) is reasonably scaled for fiscal year 2020. 
E.O. 13865, section 6(b)(iv) directs: ``Within 4 years of the date of 
this order, the Secretary of the Interior shall complete a 
magnetotelluric survey of the contiguous United States to help critical 
infrastructure owners and operators conduct EMP vulnerability 
assessments.''
    Reference: Budget Justifications and Performance Information Fiscal 
Year 2020--USGS, pp. 49-50, 70-71.

    [This statement was submitted by David Jonas Bardin.]
                                 ______
                                 
            Prepared Statement of the Defenders of Wildlife
    Madam Chairman, Ranking Member and Members of the subcommittee, 
thank you for the opportunity to submit testimony for the record. 
Founded in 1947, Defenders has more than 1.8 million members and 
supporters and is dedicated to the conservation of wild animals and 
plants in their natural communities.
    Our Nation's wildlife is caught up in the planet's sixth mass 
extinction, yet, in recent years, programs that preserve wildlife and 
habitat have been hollowed out by severely inadequate funding. The 
President's budget again includes a number of draconian cuts. Defenders 
urges the subcommittee to begin to rebuild our wildlife conservation 
framework by providing robust increases for these crucial programs, 
particularly given the additional funding that we hope will be 
available in the 403(b)-allocation given the fire funding fix that will 
go into effect in fiscal year 2020.
    Defenders remains skeptical about efforts to reorganize the 
Department of the Interior by consolidating authority for administering 
diverse Interior agencies and we oppose the $28 million requested for 
this purpose. Reorganization would reduce or eliminate the relative 
independence of agencies to manage and conserve land, waters, and 
wildlife in accordance with their individual statutory and policy 
mandates and would be detrimental to transparent and balanced 
decisionmaking and conservation of our natural resources. Relocating 
central offices to various western locales also would make them more 
prone to capture by development and resource extraction industries. We 
urge you to reject this proposal. We also have concerns which we 
specify later in our testimony regarding budget restructuring proposals 
for various agencies in the request.
    While we appreciate that nearly all riders that threatened to 
undermine protections for imperiled species and the Endangered Species 
Act (ESA) were stricken from the Consolidated Appropriations Act, 2019, 
we urge that the subcommittee not continue the sage-grouse listing 
prohibition rider which has been included in the bill since 2014. The 
Trump administration has reversed course on the unprecedented and 
broadly supported initiative to conserve the sage-grouse. The U.S. Fish 
and Wildlife Service must have all tools available to conserve the 
imperiled bird.
                       fish and wildlife service
    The U.S. Fish and Wildlife Service (FWS) is our Nation's premier 
wildlife conservation agency yet the request proposes a 15.8 percent 
cut below the fiscal year 2019 level. The FWS needs significant 
increases to support recovery of threatened and endangered species; 
protection of migratory birds and fish, species of global conservation 
concern and other trust species; and prevention of both domestic and 
international wildlife crimes.
    Ecological Services.--Recently, a coalition of more than 200 
organizations sent a letter to Congress requesting a significant 
infusion of funds into the Ecological Services program to begin to 
address the extinction crisis, a total of $486 million, nearly double 
the current level of $251.8 million:

  --Listing: Several years ago, FWS developed a broadly supported 
        workplan to allow for timely listing decisions on 350 species. 
        Because of decreases to listing, FWS now has a backlog of 77 
        species with delayed listing decisions as well as 78 species in 
        the workplan for 2020 for a total current listing backlog of 
        155 species. For FWS to meet these and other obligations under 
        the listing budget, a total of $51 million is needed annually, 
        an increase of $32.7 million over the fiscal year 2019 level. 
        Species due for decisions include the Eastern Hellbender, the 
        American Wolverine, the Humboldt Marten and the Yellow Banded 
        Bumble bee. The President's request cuts the listing program by 
        an unacceptable 39.3 percent.
  --Recovery: Currently, more than 480 listed species lack final 
        recovery plans and another 500 plans will need to be updated in 
        the next 5 years. Moreover, hundreds of listed species receive 
        less than $1,000 per year for recovery with many receiving no 
        FWS funding at all. Congress should provide a minimum of 
        $50,000 per year per species for recovery to ensure no species 
        slips through the cracks. For FWS to meet these and other 
        obligations under the recovery budget, a total of $196.7 
        million is needed annually, an increase of $101.7 million.
  --Planning and Consultation: FWS conducts ESA Section 7 consultations 
        on more than 10,000 Federal actions each year so that projects 
        can move forward while minimizing harm to listed species. The 
        program has been flat or declining since the early 2000's. To 
        meet planning and consultation needs, including highly 
        technical analyses on issues such as pesticides and to work 
        with non-Federal stakeholders to develop Habitat Conservation 
        Plans, $130 million is needed annually, an increase of $23.9 
        million over the fiscal year 2019 level.
  --Conservation and Restoration: At least $8 million per year from 
        fiscal year 2020 to fiscal year 2025 is needed for the 
        Candidate Conservation element of Conservation and Restoration 
        to assist with early conservation action on the current 23 
        candidate species.
  --Wolf Livestock Loss Demonstration Program: Defenders urges 
        continued funding at no less than $1 million for this program 
        that assists livestock owners co-existing with wolves.

    National Wildlife Refuge System.--Our National Wildlife Refuge 
System is the largest network of public lands and water in the Nation 
dedicated to wildlife conservation, unique in that it is one of the few 
places on the planet where wildlife comes first. The fiscal year 2019 
level of $488.3 million for Refuge System Operations and Maintenance 
(O&M) is $96 million below the level needed to keep pace with inflation 
and salary increases relative to the fiscal year 2010 level of $503.2 
million. Defenders recommends $586 million for O&M for fiscal year 
2020, an increase of $98 million over fiscal year 2019. The Cooperative 
Alliance for Refuge Enhancement, a broad coalition of 23 hunting, 
fishing, conservation and scientific organizations estimates at least 
$900 million is needed annually for O&M.
    Migratory Bird Management.--According to a 2018 report \1\ at least 
40 percent of bird species worldwide are experiencing declining 
populations. Despite this alarming fact, the Trump administration is 
moving to eliminate long-standing protections for migratory birds 
against incidental take. Defenders recommends a return to no less than 
the fiscal year 2010 level of $54.5 million, an increase of $8.1 
million over the fiscal year 2019 level to support crucial survey and 
monitoring programs and for building resilience of bird species and 
their habitats.
---------------------------------------------------------------------------
    \1\ https://www.birdlife.org/sites/default/files/attachments/
BL_ReportENG_V11_spreads.pdf
---------------------------------------------------------------------------
    Office of Law Enforcement (OLE).--We are extremely grateful that 
the fiscal year 2019 bill continued appropriated funding to support 
inspectors at ports of entry currently without personnel and we urge it 
be maintained. Defenders supports $85 for million for fiscal year 2020, 
an increase of $5.9 million over the fiscal year 2019 level to help OLE 
continue to address the crisis in the illegal global wildlife trade.
    International Affairs.--Defenders supports $18 million for fiscal 
year 2020, an increase of $2.2 million, crucial in continuing to combat 
illegal wildlife trade and to build capacity in range countries.
    Cooperative Landscape Conservation and Science Support.--We thank 
the subcommittee for again restoring funding for these two programs 
which the administration had zeroed out in its fiscal year 2019 request 
and has once again zeroed out. We recommend increases over current 
levels, returning to the requests made in the last Obama administration 
budget for fiscal year 2017 for $17.8 million (an increase of $5.3 
million) and $20.6 million (an increase of $3.3 million) respectively. 
With these increases, FWS can continue to work to address complex 
challenges, such as climate change, across large landscapes and 
otherwise address scientific questions key to conservation of trust 
species.
    Key Grant Programs.--Defenders supports: $100 million for the 
Cooperative Endangered Species Fund, an increase of $54 million; $6.5 
million for the Neotropical Migratory Bird Fund, an increase of $2.6 
million; $15 million for the Multinational Species Conservation Fund, 
an increase of $3.4 million; and $70 million for State and Tribal 
Wildlife Grants, an increase of $5.4 million.
            u.s forest service and bureau of land management
    The U.S. Forest Service (FS) and the Bureau of Land Management 
(BLM) are essential to the conservation of wildlife and habitat in the 
United States. The administration is proposing to consolidate nine 
National Forest System budget line items into a single budget line 
item. Defenders is concerned that such a consolidation, given this 
administration's narrow focus on timber production, could be 
devastating to wildlife habitat and watersheds. Under any scenario, 
Congress must reaffirm meaningful performance metrics for wildlife 
habitat, watersheds, and forest resiliency on FS lands. In addition, 
while Defenders was opposed to restructuring the BLM Wildlife and Fish 
activity into the new Wildlife and Aquatic Habitat Management activity 
approved in the fiscal year 2019 bill, we appreciate that specific 
funding for Threatened and Endangered Species (T&E) was maintained and 
we urge the subcommittee to continue this specific funding. We also 
remain concerned about the level of accountability and transparency in 
allocating the T&E funding under the new structure. We ask the 
subcommittee to ensure that BLM reporting on the use of these funds is 
accurate and to make clear to the agency that T&E funding is to be used 
specifically to advance conservation and recovery of the 430 listed 
species and at least 31 candidate species found on BLM lands rather 
than to pay for Section 7 compliance which ought to be funded by the 
benefitting programs. In addition, Defenders requests that BLM be 
prohibited from using any funds on all oil and gas activities in the 
Coastal Plain of the Arctic National Wildlife Refuge in fiscal year 
2020.
    BLM Wildlife and Aquatic Habitat Management.--Defenders opposes the 
35 percent cut in the President's request which includes nearly a 50 
percent cut to T&E funding. We urge $200.8 million, an increase of 
$18.3 million over the fiscal year 2019 level of $182.5 million which 
includes a total of $23.8 million for T&E, an increase of $2.2 million 
over the fiscal year 2019 level. We also will be providing the 
subcommittee with some specific recommendations for report language and 
funding initiatives to help conserve the greater sage-grouse and 
sagebrush habitat which will be needed to help mitigate the damage 
likely to occur under the current administration's new sage-grouse plan 
amendments.
    BLM Renewable Energy.--Defenders supports the requested level of 
$29.1 million, an increase of $4.8 million over the fiscal year 2019 
level to continue facilitating renewable energy development on public 
lands, while avoiding areas with natural resource conflicts, including 
sensitive wildlife species.
    BLM Resource Management Planning, Assessment and Monitoring.--
Defenders opposes the 17.4 percent cut to this program in the request. 
We urge $69.4 million, an increase of $6.3 million over the fiscal year 
2019 level of $63.1 million to support crucial data collection and 
monitoring of ecological conditions and trends on the landscape as well 
as continued development of the Enterprise GIS.
    FS Wildlife and Fisheries Habitat Management.--Wildlife and 
Fisheries Habitat Management has been essentially flat-funded since 
fiscal year 2014, yet the request cuts the program by an indeterminate 
amount. We support restoring funding to at least the fiscal year 2010 
level of $143 million, $6 million over the fiscal year 2019 level to 
carry out critical conservation and recovery activities for the nearly 
470 threatened and endangered species and 3,100 sensitive species that 
depend on FS lands and to help address the loss of biologists that has 
occurred in recent years.
    FS Land Management Planning, Assessment and Monitoring.--The 
request cuts this program by an indeterminate amount. Defenders 
supports maintaining funding at no less than the fiscal year 2017 level 
of $182.9 million, $2.9 million over the fiscal year 2019 level. 
Outdated forest plans lack effective habitat conservation and 
restoration strategies.
    FS Collaborative Forest Landscape Restoration Program.--The request 
zeroes out the program, despite the 2018 Farm Bill's doubling of 
authority to $80 million, which Defenders supports.
    FS Forest and Rangeland Research (FS R&D).--The request cuts R&D by 
20 percent. We urge a return to the fiscal year 2010 level of $245 
million, $22 million over fiscal year 2019, which included $30.5 
million for Wildlife and Fish R&D. Adequate funding for this program is 
crucial in providing relevant tools and information to support 
sustainable management of both Federal and non-Federal forest lands.
                         u.s. geological survey
    The U.S. Geological Survey provides the basic science for 
conservation of wildlife and habitat. We are extremely concerned about 
the proposal in the President's budget to consolidate and substantially 
reduce funding for the Ecosystems and Land Resources activities.
    National and Regional Climate Science Centers.--The request cuts 
the Climate Science Centers by 5.5 percent and proposes to ``realign 
centers.'' Given the magnitude of the climate crisis threatening our 
planet, the Centers should be maintained and funded at $30.9 million, 
an increase of $7 million and equal to the request made in the last 
Obama administration budget in fiscal year 2017 to support scientific 
needs in planning for climate change adaptation and building resiliency 
of ecosystems.
    Ecosystems.--The request restructures and cuts this activity by 
10.1 percent, including eliminating the Cooperative Research Units 
which Defenders opposes. Defenders urges funding at no less than the 
fiscal year 2017 request of $173. 9 million, $17 million above fiscal 
year 2019 to help support development of crucial scientific information 
for sound management of our Nation's biological resources.
                land and water conservation fund (lwcf)
    The request slashes funding by 105 percent. We support phased in 
increases to LWCF to ultimately reach the fully authorized $900 million 
level. These increases are needed to help to save some of the 6,000 
acres of open space, including wildlife habitat, that are lost each day 
in the United States.\2\
---------------------------------------------------------------------------
    \2\ http://www.fs.fed.us/openspace/coop_across_boudaries.html

    [This statement was submitted by Mary Beth Beetham, Director of 
Legislative Affairs.]
                                 ______
                                 
        Prepared Statement of the Dine Grant Schools Association
    The Dine Grant Schools Association (DGSA) is comprised of the 
school boards of seven Bureau of Indian Education (BIE)-funded schools 
which are operated pursuant to the Tribally Controlled Schools Act 
(Public Law 100-297) and located on the Navajo Nation in Arizona and 
New Mexico. These schools are: Black Mesa Community School; Dzilth-Na-
O-Dith-Hle Community Grant School; Hanaadli Community School/Dormitory, 
Inc.; Lukachukai Community School; Pinon Community School; Pine Hill 
Schools; and Shiprock Associated Schools, Inc.
    Success through language, culture, community involvement, and high 
standards. As Tribal school boards, we have both the greater freedom 
and the tremendous responsibility to ensure that our students receive a 
quality and culturally relevant education that will help them reach 
their fullest potential. We believe that successful students know who 
they are, that they are valued, and that great things are expected of 
them. Our schools incorporate Navajo language and culture into our 
curricula. We set rigorous standards that our students must strive to 
meet and give them a sense of accomplishment at their achievements.
    Why Federal funding matters. It is difficult to concentrate on 
school lessons if you are too cold or the roof is leaking or the water 
pipes do not function properly. It is difficult to take Partnership for 
Assessment of Readiness for College and Careers (PARCC) online practice 
tests or take distance learning Advanced Placement classes with 
unreliable and slow Internet connections. It is difficult to ride the 
bus on unimproved roads and to a deteriorating school that has lingered 
on a replacement list because of lack of funding. These challenges to 
learning are prevalent throughout Indian Country. What has been 
different these past several years is an extensive change in 
understanding the extent of these challenges and a bipartisan support 
to address them. For this, we are deeply grateful to our partners in 
Congress.
    Our highest funding priorities are: ISEP formula funds; Tribal 
Grant Support Costs; Facilities Operations and Maintenance; and the 
FACE Program in the BIE budget as well as Education Construction and 
Repair and Road Maintenance in the BIA budget. These programs make the 
greatest difference in our ability to educate our students.
    Indian School Equalization Program (ISEP) Formula Funds. The Indian 
School Equalization Program (ISEP) Formula is the core budget account 
for Educational and Residential programs of the BIE elementary and 
secondary schools and dormitories. These funds are used for 
instructional programs at BIE-funded schools as well as salaries and 
benefits of teachers, educational technicians, other support staff and 
principals. For years, the amount appropriated for ISEP formula funds 
increased barely enough to cover fixed costs. We appreciate that 
Congress has provided program increases these past several fiscal 
years.
    Impact. For most BIE-funded schools, the chronic shortfall in the 
other key school accounts has a negative impact on ISEP Formula 
funding, because ISEP Formula funds are often diverted to make up the 
shortfalls in other accounts, such as Facilities Operations and 
Maintenance, when a Tribe or Tribal school board has no other source of 
funding to satisfy those shortfalls. This means fewer funds are 
available for instructional activities. We are tremendously grateful 
that Congress has increased funding for these critical accounts so ISEP 
Formula funds can be used for their intended purpose.
    Request. The $1.28 million program increase for a total of $404.2 
million that Congress provided in fiscal year 2019 from fiscal year 
2018 is very helpful, however, this total amount still does not 
acknowledge the shortfalls that have been building for many years. 
Therefore, we respectfully request an additional increase in ISEP 
Formula funding for fiscal year 2020.
    Tribal Grant Support Costs. Since the 1988 Elementary and Secondary 
Education Act reauthorization, tribally-operated elementary and 
secondary schools have received funding for the administrative expenses 
incurred for the operation of BIE-funded schools through an 
Administrative Cost Grant, now called Tribal Grant Support Costs 
(TGSC). Tribal Grant Support Costs are the Contract Support Costs for 
tribally controlled schools. These funds are used for essential 
services such as contract/grant administration; program planning and 
development; human resources; insurance; fiscal, procurement, and 
property management; required annual audits; recordkeeping; and legal, 
security, and other overhead services.
    Impact. We appreciate in that in recent fiscal years the Obama and 
Trump administrations have requested and Congress has committed to 
providing full funding for Tribal Grant Support Costs.
    Request. We would like to express our appreciation for this 
bipartisan commitment to fully fund Tribal Grant Support Costs and 
express support for its continuation for fiscal year 2020.
    Early Childhood or ``FACE'' Program. The Early Childhood and Family 
Development budget category commonly referred to as the ``FACE'' 
program is designed to (1) strengthen family-school-community 
relations, (2) increase parent participation in education, and (3) 
support parents in their role as a child's first and most important 
teacher. Many of DGSA's Member schools run successful FACE programs so 
we ask the subcommittees to once again reject any administration 
proposals to zero out this program.
    Impact. The FACE program teaches essential skills to children that 
help make them kindergarten-ready, such as direction on how to hold a 
pencil, color, and write their name. There is a marked academic 
difference in outcomes for those children who have access to a FACE-
funded program and those who do not. Further, these programs strengthen 
families and communities and help increase parent engagement. For 
example, parents who attend the FACE program are able to attain their 
GED and then go on to community college or training programs. Parents 
are also taught how to academically engage with their children, leaning 
study skills and the importance of education. Families are another 
critical factor in whether children succeed academically.
    Request. We respectfully ask that the subcommittees continue to 
reject any administration proposal to zero out this vital program and 
continue to provide adequate funding to support the FACE program for 
fiscal year 2020.
    Facilities Operations and Maintenance. Facilities Operations 
funding is for the ongoing operational necessities such as electricity, 
heating fuels, custodial services, communications, refuse collection 
and water and sewer service. Facilities Maintenance funds are intended 
to provide for the preventative, routine, and unscheduled maintenance 
for all school buildings, equipment, utility systems, and ground 
structures. We appreciate that these budget categories have seen some 
increases in recent years. While the recent increases for these two 
budget categories are important improvements; we note that the fiscal 
year 2017 budget justification states that the $66.2 million requested 
for Facilities Operations and the $59 million requested for Facilities 
Maintenance would fund 78 percent of calculated Facilities Operations 
and Maintenance need across BIE-funded schools. Neither the fiscal year 
2018 budget justification nor the fiscal year 2019 budget justification 
bothered to provide an estimate for what full funding would be. We also 
note that Facilities Operations and Facilities Maintenance are some of 
the last budget categories for primary and secondary schools that are 
still funded on a fiscal year schedule, rather than a forward funded 
(school year) basis. Continuing Resolutions and government shut-downs 
can wreak havoc when trying to carry out these activities.
    Backlog. The Department of the Interior's fiscal year 2019 budget 
justification projected that by the end of fiscal year 2018, ``68 
percent of school facilities will be in good or fair condition.'' This 
projection still leaves 32 percent of school facilities for Indian 
students in ``poor'' condition. We also note that the fiscal year 2019 
budget justification states that as of the first quarter of fiscal year 
2018, there were ``$634 million dollars of deferred maintenance across 
BIE-school facilities and grounds.'' Accordingly, many BIE-funded 
schools are being written up for health and safety violations but have 
no money to make the needed changes. Schools are also being threatened 
with fines or being shut down. If schools do not have the needed 
facilities funds, they are forced to use education funds. Part of the 
maintenance problem will be resolved by replacing aging, deteriorated 
schools, but Federal resources for maintenance are needed to preserve 
that investment and to ensure our schools' facilities remain fully 
functional learning environments throughout the length of their design 
life.
    Proposed Public Lands Infrastructure Fund or Other Related Funding 
Legislation. We sincerely appreciated that BIE-funded schools were 
included among the national parks and national wildlife refuges as 
eligible for repairs and improvements funding in the 2019 legislative 
proposal to establish the Public Lands Infrastructure Fund. However, it 
is uncertain whether the Public Lands Infrastructure Fund will be 
proposed in the current legislative session and whether there would be 
sufficient congressional support for the Public Lands Infrastructure 
Fund to move forward. Alternatively, we are highly supportive of BIE-
funded schools being included as eligible recipients for repairs and 
improvements funding in any Public Works, Public Infrastructure, or 
other related legislation proposed during the current congressional 
session.
    Impact. There are numerous studies which attest to the fact that 
there is a close correlation between poor or inadequate facility 
conditions and poor student and staff performance. Because we cannot 
delay paying our utilities or avoid taking actions that would impact 
student safety, we often have to resort to using our other education or 
academic program monies-just like what happened when Tribal Grant 
Support Costs were not fully funded.
    Request. We respectfully ask that the subcommittee provide full, 
consistent funding for Facilities Operations and Facilities Maintenance 
and transition these two budget categories to a forward funded (school 
year) budget cycle, just like the other core education accounts. In 
addition, we request that BIE-funded schools be included as eligible 
recipients of repairs and improvements funding in any Public Works, 
Public Infrastructure, or other related legislation in order to address 
the $634 million maintenance backlog to BIE-school facilities and 
grounds.
    Education Construction and Repair. This funding category within the 
BIA Construction budget includes Replacement School Construction; 
Facilities Component Replacement; Facilities Improvement and Repair; 
and Employee Housing Repair. According to the Department of the 
Interior, the current backlog of construction projects is estimated to 
be as high as $1.3 billion. The BIE has stated that its ``next-step'' 
is to ``develop a long-term school construction funding plan that will 
address the needs of all BIE funded schools determined to be in poor 
condition.'' We were encouraged by the important increases that the 
subcommittees provided for Education Construction in fiscal year 2016 
and then maintained in fiscal year 2017, and followed by more 
significant increases in fiscal year 2018 and fiscal year 2019 for 
which we are very grateful. Two DGSA Member schools are on the National 
Review Committee's 2016 Replacement List: Dzilth-Na-O-Dith-Hle 
Community Grant School is in the design phase and has issued an RFP for 
schematic designs while Lukachukai Community School completed the 
planning phase and is waiting for design phase funds. Given the state 
of school facilities across the BIE system, we ask that the 
subcommittees continue to appropriate the kind of funding levels for 
Replacement School Construction and Facilities Component Replacement 
which will make a meaningful impact on the school replacement lists.
    Impact. Facilities within the BIE system are woefully outdated and, 
in some cases, dangerous for students and staff. Each year that the 
Facilities Improvement and Repair budget is underfunded, our facilities 
deteriorate more quickly. The lack of an appropriate learning 
environment in many BIE system schools puts Native students at an 
unfair disadvantage. In turn, the schools are then blamed for any low 
academic performance.
    Request. We respectfully request that Congress and the 
administration consult with Tribes and Tribal school boards when 
developing this long-term school replacement and repair plan. Further, 
we ask that once developed, Congress implement this plan by providing 
consistent funding for Education Construction and Repair each fiscal 
year.
    Road Maintenance. The subcommittees have highlighted the poor 
conditions and backlog of deferred maintenance of unpaved roads and 
bridges in Indian Country that are used by school buses to transport 
students. We would like to thank the subcommittees for attempting to 
hold the BIA accountable and for providing additional funding directed 
to these routes.
    Request. We respectfully request that the subcommittees increase 
funding directed to these school bus routes for fiscal year 2020 and 
continue your efforts to hold the BIA accountable. As of this writing, 
we are not sure how or where these funds have been allocated.

    [This statement was submitted by Marlene Watashe, President.]
                                 ______
                                 
                 Prepared Statement of Dr. Adam Schultz
                agency: united states geological survey
    1.  Account: Energy, Minerals, and Environmental Health
 Program/Activity:  Energy and Minerals/Mineral Resources/
Magnetotelluric
 Survey
 Fiscal Year 2020 President's Budget Request: $1,726,000
 My Suggested Request: $1,726,000

    2.  Account: Natural Hazards
 Program/Activity: Geomagnetism
 Fiscal Year 2020 President's Budget Request: $1,888,000
 My Suggested Request: $4,000,000

Chairman Murkowski and Ranking Member Udall:

    The effects of space weather--charged particles emitted by the 
Sun--are felt at ground level, including disturbances in the 
geomagnetic field that cause anomalous geomagnetically induced electric 
currents (GICs) to flow through high-voltage electric power 
transmission lines, pipelines and other critical infrastructure. Such 
naturally occurring electromagnetic pulse (EMP) events, along with 
those generated by high altitude detonation of nuclear devices (HEMP) 
pose a critical threat to the U.S. economy, national security and the 
health and safety of the American people. Cascading failures of the 
most vulnerable of approximately 2200 high-voltage transformers 
underpinning the U.S. power transmission network can lead to large-
scale, sustained power grid interruptions, profound economic, national 
security and societal impacts. Other risk factors include power grid 
voltage/frequency instabilities, power interruptions, and premature 
ageing of critical infrastructure. This is recognized as a significant 
threat to our way of life, and efforts to assess and mitigate this high 
risk level have been encapsulated in the National Space Weather Action 
Plan and Strategy [NSTC, 2015; update 2019], Executive Order 13744 
[Obama, 2016], Executive Order 13865 [Trump, 2019], FERC Orders 779, 
851, NERC (North American Electrical Reliability Corporation) electric 
Transmission system standards TPL 007-1,2,3]. Among the enforceable 
standards, power transmission risk assessments must factor in the 
variations of the electrical conductivity of the geologic structures 
and materials beneath ground level, and power transmission system 
sensor and ground-level magnetic field sensor data must be acquired.
    During the period 2006-2018 I served as the Principal Scientist 
responsible under National Science Foundation EarthScope Program 
support to execute a program of mapping the electrical conductivity 
variations in the crust and upper mantle beneath the conterminous U.S. 
and parts of the interior of Alaska in a region immediately north of 
Fairbanks. We employed a geophysical method (magnetotelluric method, or 
MT) that involves monitoring the natural changes in the electric and 
magnetic field measured at ground level at a grid of survey locations 
that returns information we can use to image the Earth's interior in a 
manner analogous to MRI or CT scanning in medical diagnostics. By 
mapping the changes in electrical conductivity below ground level, we 
can provide information on fundamental Earth processes, but we also 
provide information on ground conductivity that is essential to 
assessing and mitigating the risk of geomagnetically induced currents 
(GICs) in the power grid, in pipelines, and in other structures caused 
by space weather and by high-altitude electromagnetic pulse.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Figure 1. Locations at which measurements of the Earth's electric 
and magnetic field variations were recorded under the NSF EarthScope 
Program. Long-period MT station occupation time is typically 3-6 
weeks. MT equipment is then relocated to next available grid point in 
rolling array. Blue dots on almost regularly-spaced station location 
grid represent 1167 MT sites operated by Oregon State University (OSU) 
under NSF funding, under the direct oversight of Incorporated Research 
Institutions for Seismology (IRIS). Yellow dots represent 44 MT sites 
operated by USGS sites in part of FL; TN, AR, MO (not shown) and 
included in the open access EarthScope data base. Cyan dots represent 
MT sites acquired under other programs. Red dots represent 54 MT sites 
OSU is current acquiring in California under NASA funding. Yellow dots 
represent the permanent USGS and Natural Resources Canada magnetic 
observatories. Note: The USGS magnetic observatories in Fresno, 
California, Bay St. Louis, Mississippi, and Shumagin, Alaska become 
unmaintained as of April 22, 2019 as a consequence of USAF support for 
co-funding the USGS Geomagnetism Program ending.

    Executive Order 13865 (March 26, 2019) directs that: ``Within 4 
years of the date of this order, the Secretary of the Interior shall 
complete a magnetotelluric survey of the contiguous United States to 
help critical infrastructure owners and operators conduct EMP 
vulnerability assessments.''

    The $1.725 million in the OMB fiscal year 2020 budget request for 
DOI/USGS, for the first year of a 4 year magnetotelluric survey called 
for in Executive Order 13865, is of critical importance to providing 
continuity of operations to the MT survey, which was executed by Oregon 
State University during the 15 years of the NSF EarthScope Program (now 
ended), completing it over approximately 2/3rd of the territory of the 
conterminous U.S. (Figure 1 above). In the course of executing that 
program of basic scientific research, it was discovered that the data 
returned was of great importance to assessing and mitigating the risk 
to the electric power grid and other critical infrastructure from the 
effects of Space Weather and Electromagnetic Pulse (EMP). The data 
returned from this effort has been adopted widely in efforts to assess 
and mitigate risk to the power grid from these threats. The fiscal year 
2020 budget line initiates a 4-year program overseen by USGS to 
complete MT survey operations in the remaining ``southern tier'' of the 
United States.
    While Executive Order 13865 specifies the completion of the survey 
in the contiguous U.S., this activity also lays the foundation in 
subsequent fiscal years for extending the MT survey to all regions of 
Alaska where assessing and mitigating space weather and EMP risk to the 
Alaska power transmission and pipeline networks is a priority.

    Suggested Language Request: The committee recognizes risks to the 
Nation's electric power transmission network, pipelines, and other 
critical infrastructure from geomagnetic field disturbances. The 
Committee provides $1,726,000 to collect magnetotelluric observations 
of the Earth's naturally occurring electric and magnetic fields in U.S. 
regions for which this data has not already been collected to inform 
the conductivity structure of the crust and uppermost mantle of the 
conterminous United States.

The second request:

    I ask for your support to increase the U.S. Geological Survey 
Natural Hazards line request for Geomagnetism from $1.888 million to 
$4.0 million.

    Executive Order 13865 (March 26, 2019) also directs the Secretary 
of the Interior to ``support the research, development, deployment, and 
operation of capabilities that enhance understanding of variations of 
Earth's magnetic field associated with [natural and human-made 
electromagnetic pulses] EMPs'', but OMB proposes to withhold 
Geomagnetism program resources essential to do that.

    The geomagnetism program operates the Nation's network of permanent 
magnetic observatories, which provide a continuous, high-quality stream 
of data on the geomagnetic field at ground level from a small set of 
stations within the conterminous U.S., as well as in Alaska, Hawaii and 
a small number of island stations. These data have proven essential to 
assessing and mitigating risk to the electric power grid and other 
critical infrastructure from the effects of Space Weather. These data 
are used in combination with the magnetotelluric survey data, and with 
sensors on the power grid to determine the level of geomagnetic 
disturbance due to solar activity. The intensity of geomagnetically 
induced currents in the power grid, pipelines and other structures is 
determined by the intensity of geomagnetic disturbance as it varies in 
time and space, and by its interaction with the electrical properties 
of the Earth's crust and mantle beneath the electric power transmission 
grid.
    The current set of only 7 USGS magnetic observatories in the 
conterminous U.S. is insufficient to accurately represent the true 
level of geomagnetic disturbance in every section of the conterminous 
U.S. electric power transmission grid, its pipeline networks, and in 
other critical infrastructure. The 5 USGS magnetic observatories in 
Alaska serve a similar role in an area of great magnetic field 
variation and intensity related to the auroral zone. The spatial scale 
of those variations throughout the U.S. is smaller than the distance 
between the magnetic observatories. It is necessary to double the 
number of permanent magnetic observatories in the conterminous U.S. in 
order to provide the required fidelity of data to assess and mitigate 
risk to critical infrastructure. It is necessary at a minimum to 
preserve the number of magnetic observatories in Alaska.
    While $1.888 million in the requested appropriation matches last 
year's, this does not reflect a 25 percent cut in this program because 
the U.S. Air Force ended its contributions to this program in 2019. The 
impact on this decision to the USGS Geomagnetism Program is profound. 
Three permanent magnetic observatories are now slated to lose support 
by fiscal year 2020: Magnetic observatories in Fresno, California; Bay 
St Louis, Mississippi, and Shumagin, Alaska. Reduction of the network 
of observatories will very badly impact our ability to assess and 
mitigate risk to critical infrastructure from space weather both in the 
conterminous U.S. and in Alaska.
    By increasing this line to $4.0 million, the three observatories at 
risk will be secured, and the number of observatories in the U.S. can 
be roughly doubled over a few years while catching up on deferred 
maintenance, providing important data to achieve space weather 
resilience goals.

Subcommittee: Interior, Environment, and Related Agencies
Department: Interior
Agency: United States Geological Survey
Account: Natural Hazards
Program/Activity: Geomagnetism
Fiscal Year 2020 President's Budget Request: $1,888,000
My Suggested Request: $4,000,000

    Suggested Language Request: The committee recognizes risks to the 
Nation's electric power transmission network, pipelines, and other 
critical infrastructure from geomagnetic field disturbances. The 
Committee provides $4,000,000 to collect continuous, stable magnetic 
field observations in the conterminous U.S.; to support the existing 
network of such observatories currently operated by the U.S. Geological 
Survey, and to increase the number of such observatories in the United 
States.

Respectfully submitted,
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Dr. Adam Schultz
(Professor of Geophysics, Oregon State University)
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="377653565a1964545f425b434d77584552505859444356435219525342">[email&#160;protected]</a>
                                 ______
                                 
           Prepared Statement of the Duckwater Shoshone Tribe
    The Duckwater Shoshone Tribe's requests for the fiscal year 2020 
Indian Health Service (IHS) and Bureau of Indian Affairs (BIA) 
appropriations are as follows:

  --Assist the Tribe with our reservation expansion plans and self-
        governance project;
  --Increase funding for Community and Economic Development in the BIA 
        budget for development of renewable energy, conventional 
        energy, and mineral resources;
  --Increase BIA funding for road maintenance;
  --Increase funding to the IHS Hospitals and Clinics line item, and 
        direct the IHS to direct additional funding to pharmacy 
        programs and physician services;
  --Fund IHS in advance in parity with the Veterans Administration;
  --Permanently reauthorize the Special Diabetes Program for Indians;
  --Continue to fully fund Contract Support Costs for the IHS and BIA; 
        and
  --Increase funding for Welfare Assistance in the BIA budget.
Background
    Thank you for the opportunity to submit testimony. The Duckwater 
Shoshone Tribe is a federally recognized Indian Tribe located in a 
remote, high desert valley in the State of Nevada, in the very northern 
tip of Nye County. The Tribe is governed by a democratically elected, 
five-member tribal council and is primarily an agricultural community. 
We offer a range of services to our tribal members, including 
healthcare and natural resources and environmental health programs. The 
Tribe operates a tribal health clinic under a self-governance agreement 
with the Indian Health Service under Title V of the Indian Self-
Determination and Education Assistance Act.
Reservation Expansion and Self Governance
    Our reservation has recently been expanded by thirty thousand 
acres. In order to proceed with this project, we have requested the 
Bureau of Land Management, whose funding falls under the jurisdiction 
of this Committee, to complete a survey of the land. Despite repeated 
requests, the Bureau has not completed the survey. Further, for several 
years, the Tribe has been seeking a self-governance contract with BLM, 
and the agency has simply refused to respond to our requests for 
meetings to begin negotiations for our Tribe to assume various BLM 
duties. We ask for any support in ensuring that BLM promptly responds 
to requests for engagement on this issue. The DST has submitted a self-
governance compact funding proposal to the BLM.
Development of Renewable Energy, Conventional Energy, and Mineral 
        Resources
    We ask that this subcommittee increase funding for the ``Community 
and Economic Development'' activity in the BIA budget, particularly the 
``Job Placement and Training'' sub activity, which funds technical and 
vocational training, and the ``Minerals and Mining'' sub activity, 
which promotes and provides technical assistance for the development of 
renewable energy, conventional energy, and mineral resources. As a 
rural Tribe, our members have less access to both employment and job 
creation opportunities than other citizens. We also struggle with high 
energy prices. These conditions are two factors hampering our ability 
to thrive as a community and we have been exploring a number of options 
to alleviate them. We have determined that we have viable wind and 
solar energy resources that can be developed to provide our Tribe with 
greater energy certainty, lower energy prices, and economic 
opportunities for our tribal members. If we in Indian Country are to 
build a strong economic future for our communities, we must pursue an 
``all of the above'' energy strategy which for us, includes wind and 
solar.
Road Maintenance
    The Tribe requests that Congress substantially increase the 
critically low funding for BIA road maintenance in fiscal year 2020. 
The fiscal year 2019 funding of $35.8 million doesn't begin to cover 
the costs of deferred road maintenance. The Tribe relies on miles of 
unpaved and unsafe roads to reach the distant communities where Tribe 
members work, attend school, and visit family. Due to the Tribe's 
remote location, this is an urgent issue because the limited access to 
and from our reservation caused by the unmaintained and unpaved dirt 
road hampers our economic development and the ability of our members to 
access essential services, employment, education, and to visit family 
living off the reservation. As you know, the roads in Indian Country 
are some of the most dangerous and poorly funded roads in the Nation. 
We consider road maintenance funding to be a matter of public safety 
and we respectfully ask the subcommittee to increase appropriations for 
this critical budget sub-activity. Further, the Tribe would like to 
pave the 21 miles of unpaved, dirt road between our reservations in 
Duckwater, Nevada to the town of Eureka, Nevada in order to make it 
safe. While we understand that road improvement falls outside of the 
purview of this subcommittee, we would appreciate your support in 
increased Department of Transportation funds for such projects.
Increased IHS Funding For Pharmacy and Physician Services
    The funding the Tribe receives through its Hospitals and Clinics 
funding is simply insufficient to serve the needs of the Tribe's 
pharmacy patients. The Tribe's pharmacy is currently not operating due 
to budget constraints, and the Tribe is forced to refer patients to 
pharmacies in nearby towns. The Tribe previously used its buy back 
authority to procure pharmacy services from the IHS through McKesson, 
but that proved prohibitively expensive.
    Similarly, the Tribe has a similar concern about the funding made 
available through the IHS that the Tribe can then allocate to procuring 
physician services. The Tribe has been experiencing great difficulty 
over the past several fiscal periods in recruiting and retaining 
physicians for carrying out its primary healthcare programs.
    There is just not enough funding for the Tribe to provide necessary 
services and still have adequate funding for pharmaceuticals and to pay 
physicians to locate to our remote area. Further, our costs required to 
provide adequate care to our members have risen by $800,000 that is not 
covered by our IHS funding agreement, and the Tribe also spends 
approximately $250,000 per year to provide healthcare services to 
members living off the reservation. We ask for the subcommittees' 
support for increasing the IHS appropriation for Hospitals and Clinics 
funding, and to direct the IHS to allocate additional funding toward 
pharmacy and physician services.
Advance Appropriations for IHS
    We appreciate the increased interest some members of Congress have 
shown for providing advance appropriations for IHS and Indian Affairs 
programs. Thank you to Interior Appropriations Ranking Member Udall, 
Representative Don Young, and House Interior Appropriations Chair 
McCollum for introducing, and Rep. David Joyce for co-sponsoring 
legislation to provide advance appropriations for IHS and programs in 
the BIA and BIE. With regard to the IHS programs, they should have 
parity with the Veterans Administration health accounts, which Congress 
had funded in advance since fiscal year 2010. Both IHS and the VA 
provide direct medical care, but they are not treated equally in the 
funding process. Predictability, continuity, and certainty are 
essential for providing stable quality healthcare. When IHS funding is 
subject to a Continuing Resolution, as it has been over many years, 
tribal healthcare providers receive only a portion of annual funding at 
a time, making it particularly difficult to implement long-range 
planning and to effectively use and leverage limited resources. Having 
advance notice of funding levels would greatly aid the Tribe in program 
planning, recruitment and retention of essential healthcare 
professionals in the same way that the VA is able to conduct such 
advance planning. The IHS budget should be afforded the same status 
consideration as VA health programs. Further, IHS appropriations 
should, like VA funds, be exempt from sequestration, should that occur 
again in the future.
Special Diabetes Program for Indians (SDPI)
    The Tribe, like others throughout Indian Country, continue to 
support permanent reauthorization and increased funding for the SDPI, 
which provides crucial support for diabetes prevention and treatment 
programs. While an SDPI reauthorization bill is not under purview of 
this subcommittee, the SDPI and the programs carried out with SDPI 
funding affect the scope and range of our healthcare efforts and our 
IHS programs, which this subcommittee funds. The Tribe would greatly 
appreciate any help the Interior Appropriations Subcommittee members 
can provide with your colleagues on this matter. A permanent 
reauthorization with mandatory annual funding of $200 million would 
provide stability for our diabetes programs in terms of planning and 
recruiting and retaining personnel.
Continue Full Funding of Contract Support Costs
    The Tribe appreciates the subcommittees' leadership and commitment 
to fully funding CSC for IHS and BIA ISDEAA agreements. We appreciate 
the full funding of CSC over the past few fiscal years, that the 
funding is indefinite (``such sums as may be necessary'', and that the 
funding is in separate accounts in the IHS and BIA budgets. We request 
that the subcommittees continue to fully fund CSC. Such action is 
crucial to strengthening the ability of tribal governments' to 
successfully exercise their rights and responsibilities as sovereign 
nations.
Adult Welfare Assistance
    Our tribal members, like other residents of Indian Country and non-
tribal rural populations, experience higher than average rates of 
unemployment than urban populations. As a Tribe, we are working hard to 
help create opportunities for our Members both in terms of job 
placement and job creation. Unfortunately, there are some circumstance 
when welfare assistance is temporarily needed for some tribal members. 
The ``Welfare Assistance'' sub-activity funded under the ``Human 
Services'' activity in the BIA budget provides these critical resources 
for our people. We, like the BIA and Congress, believe that welfare 
assistance should be a temporary safety net and ultimately, a bridge to 
better circumstances and opportunities, but we believe that it must 
exist. We ask the subcommittees to increase funding for Welfare 
Assistance to strengthen and stabilize families so that they are able 
to pursue job opportunities and ultimately become self-sufficient.
Conclusion
    The Duckwater Shoshone Tribe appreciates your consideration of our 
requests outlined in this testimony. On behalf of the Tribe, I would be 
happy to provide any other additional information as requested by the 
subcommittee.

    [This statement was submitted by Rodney Mike, Tribal Chairman.]
                                 ______
                                 
        Prepared Statement of the Ecological Society of America
    The Ecological Society of America (ESA) appreciates the opportunity 
to provide testimony in support of fiscal year 2020 appropriations for 
the interagency Joint Fire Science Program. ESA is the Nation's largest 
society of professional ecologists, representing over 9,000 members 
across the country. ESA requests full funding in fiscal year 2020 of 
$16 million for the interagency Joint Fire Science Program (JFSP): $8 
million in funding for the USDA Forest Service JFSP program and $8 
million for the Department of Interior JFSP program to ensure active 
participation from both agencies in prioritizing investment in fire 
research and decision support. Recent years' funding for the JFSP has 
eroded a program with proven great success in supporting practical 
science that reduces fire risk and enhances economic, ecological, and 
social outcomes nationwide.
    As you know, the frequency, severity, and size of fires have 
increased substantially in the continental U.S. since the 1980s, and 
this trend is projected to continue and intensify in the future. The 
risk to communities, the cost of property loss, and the expense to 
cover the damage brought by these fires will consequently also grow. 
Scientific research is critical to understanding and properly 
responding to these wildfires in the most productive and cost effective 
manner possible.
    The JFSP was created by Congress in 1998 as an interagency 
research, development, and applications partnership between the U.S. 
Department of the Interior and the U.S. Department of Agriculture. The 
program solicits proposals from scientists who compete for funding 
through a rigorous peer-review process to ensure the highest quality 
projects are funded. Over 90 colleges and universities across the 
United States have collaborated or partnered with JFSP-sponsored 
research projects. The JFSP also runs a model program in science 
communication, with very effective efforts to put science in the hands 
of managers and policymakers.
    No other Federal program except the JFSP provides the integration 
of science and management needed to face the challenges that lie ahead-
we will be living in a world with more fire. Research in fire science 
is crucial to anticipating how ecosystems and landscapes may change in 
the future, how fire should be managed in both wildlands and developed 
areas, and where mitigation or adaptation strategies are most 
appropriate. Reductions in support for JFSP are inconsistent with high-
priority national research needs.
    We appreciate that the House and Senate Interior and Environment 
Appropriations Committees have made funding for policy-relevant 
wildfire science among your highest priorities. We hope you will 
continue to recognize the critical role the JFSP plays in these efforts 
and fund fully fund the program in fiscal year 2020 for $16 million: $8 
million in funding for the USDA Forest Service JFSP program and $8 
million for the Department of Interior JFSP program.

    [This statement was submitted by Catherine O'Riordan, Executive 
Director.]
                                 ______
                                 
        Prepared Statement of the Ecological Society of America
    The Ecological Society of America (ESA) appreciates the opportunity 
to provide testimony in support of fiscal year 2020 appropriations for 
the Environmental Protection Agency. ESA is the Nation's largest 
society of professional ecologists, representing over 9,000 members 
across the country and would like to make two important 
recommendations. First, we strongly encourage and recommend that 
Congress reach a bipartisan agreement to raise the budget caps for non-
defense discretionary spending. Additionally, we urge you to support 
robust funding for the Environmental Protection Agency (EPA) for fiscal 
year 2020, specifically at least $746 million for Science and 
Technology within EPA.
    We appreciate your past support for the EPA and your preservation 
of the agency's budget for fiscal year 2019. We urge you to once again 
reject cuts to EPA programs and research as you proceed with fiscal 
year 2020 appropriations.
    The EPA is vital to protecting both the environment and human 
health, and the agency's Science and Technology programs are critically 
important to its ability to successfully address environmental 
problems. Without adequate funding, the EPA cannot fulfill its core 
mission and responsibilities. Strong investments in the EPA are thus 
essential to ensuring the health of our Nation's citizens and 
environment.
 epa science and technology programs reduce environmental risks facing 
                               americans
    Since its formation in 1970, the EPA has reduced environmental risk 
to Americans, enforced laws safeguarding human health and the 
environment, and helped the Nation serve as a leader in protecting the 
environment.
    Science and Technology funding supports programs and research that 
contribute to clean air, clean water, sustainable communities, homeland 
security, and human health. Through the Office of Research and 
Development (ORD), the EPA conducts cutting-edge research programs, 
including important ecological research and monitoring, that provide 
the scientific foundation for the agency's decisionmaking and other 
programs. These research and monitoring programs also provide essential 
data and information on which State and local governments depend, with 
environmental monitoring data collected and maintained by the EPA 
helping to ensure healthy communities across the country. EPA research 
projects focus on issues of national significance and help to solve 
complex environmental problems--often with public health implications--
with new scientific understanding and technologies. From detecting and 
addressing harmful algal blooms to helping communities rehabilitate 
contaminated sites, EPA research funded by Science and Technology 
appropriations delivers solution-oriented results with broad and 
lasting impacts.
   proposed cuts would have consequences for human and environmental 
                                 health
    ESA is very concerned with the administration's proposed cuts to 
the EPA in fiscal year 2020. The President's budget proposal requests 
only $6.1 billion for the agency, an estimated reduction of 31 percent 
from enacted fiscal year 2019 funding of $8.1 billion. The proposed 
reductions, reflective of those suggested in the President's fiscal 
year 2019 budget, would have far-reaching and damaging effects on 
public and environmental health and economic growth that depends on 
healthy communities.
    The administration's budget also proposes to reduce funding for EPA 
Science and Technology considerably to only $463 million, a 35 percent 
cut from fiscal year 2019 funding. Sound science is the foundation of 
everything the agency does. EPA research programs support clean air, 
healthy neighborhoods, safer chemicals, and clean water, and it helps 
develop solutions to environmental problems. EPA science meets the 
highest standards for peer review, transparency, ethics, and integrity, 
and it is essential to maintain strong support for science and research 
at the EPA. Cuts, particularly cuts of the magnitude proposed in the 
President's budget, would dangerously hinder the EPA's ability to 
fulfill its mission and responsibility to the American people and would 
have serious impacts on the local, State, and national levels.
 strong investments in the epa protect our citizens and our ecosystems
    The EPA is an essential agency that plays a key role in addressing 
ecological problems and other environmental issues that affect public 
health. We appreciate your past support for this critical agency, and 
we urge you, in the interest of ensuring the health of our Nation's 
citizens and ecosystems, to continue this support and provide robust 
funding for the EPA in fiscal year 2020, in particular $746 million for 
EPA Science and Technology.
    Thank you for your consideration of this request.

    [This statement was submitted by Catherine O'Riordan, Executive 
Director.]
                                 ______
                                 
       Prepared Statement of the Entomological Society of America
    The Entomological Society of America (ESA) respectfully submits 
this statement for the official record in support of funding for 
entomology-related activities at the U.S. Environmental Protection 
Agency (EPA), the U.S. Department of Agriculture (USDA) Forest Service, 
and the U.S. Department of Interior (DOI). For fiscal year 2020, ESA 
recommends $8.267 billion for EPA, including support for Pesticides 
Licensing Program Area activities within its Science & Technology and 
Environmental Program & Management budgets, and continued support for 
State & Tribal Assistance Grants for Pesticide Program Implementation. 
ESA strongly supports EPA's commitment to work with other Federal 
agencies to monitor and improve pollinator health, including 
involvement by EPA to examine the potential impact of pesticides on 
pollinator health. In addition, ESA requests the Forest Service be 
funded at least at the fiscal year 2019 enacted level of $6.087 billion 
in discretionary funds. Within the Forest Service, ESA requests the 
Forest and Rangeland Research budget be supported at the fiscal year 
2019 enacted level of $300 million to preserve valuable invasive 
species research and development. The Society also supports continued 
investment in Forest Health Management programs across the Forest 
Service in fiscal year 2020. ESA also recommends that DOI continue to 
support the important work of the National Invasive Species Council 
(NISC), which coordinates efforts across agencies to respond to the 
threats posed by invasive species, to be funded at no less than the 
fiscal year 2018 level of $1.202 million.
    Advances in forestry and environmental sciences, including the 
field of entomology, help to protect our ecosystems and communities 
from threats impacting our Nation's economy, public health, and 
agricultural productivity and safety. Through improved understanding of 
invasive insect pests and the development of biological approaches to 
pest management, entomology plays a critical role in reducing and 
preventing the spread of infestation and diseases harmful to national 
forests and grasslands. The study of entomology also contributes to the 
development of Integrated Pest Management (IPM) techniques, which use 
science-based, environmentally conscious, comprehensive methods to take 
effective management action against pests, often resulting in lower 
costs and a more targeted use of pesticides. In addition, entomology 
improves our knowledge of pollinators and the factors affecting 
pollinator health and populations, helping to ensure safe, reliable 
crop production that meets the needs of a growing world population.
    EPA carries out its mission of protecting human health and the 
environment by developing and enforcing regulations, awarding grants 
for research and other projects, conducting studies on environmental 
issues, facilitating partnerships, and providing information through 
public outreach. Through these efforts, EPA strives to ensure that our 
Nation enjoys clean water, clean air, a safe food supply, and 
communities free from pollution and harmful exposures to chemicals.
    EPA's Pesticides Licensing Program Area, supported by EPA's Science 
& Technology and Environmental Program & Management budgets, serves to 
evaluate and regulate new pesticides to ensure safe and proper usage by 
consumers. Through the mandate of the Federal Insecticide, Fungicide, 
and Rodenticide Act (FIFRA), EPA uses scientific expertise and data, 
including knowledge gained from entomological sciences, to set maximum 
tolerated residue levels and to register pesticide products as 
effective and safe. By controlling insects that act as vectors of 
diseases of humans and domesticated animals, and invasive insect 
species that endanger our environment, pesticides registered by EPA 
help protect public health and the Nation's food supply.
    EPA's activities in this area also include the development of 
educational information and outreach to encourage the use of IPM, a 
scientific approach to reducing pest populations by incorporating a 
variety of techniques, and other reduced-risk methods of managing 
pests. The funding that EPA allocates towards IPM in schools is 
important to lower the risks of students to pest management tactics and 
the pests that are harmful to their health or development. Schools can 
be vulnerable to pest problems because of their size, design and 
maintenance of green space. The integrated approach to pest problems 
focuses on prevention, which is advantageous because it reduces the 
probability of infestation, and is economical, sometimes saving school 
districts thousands of dollars per year. However, little is known about 
the current status of many schools and the degree to which they 
implement IPM practices. Results from a 2014 survey published last year 
in the Journal of School Health found that about 55 percent of schools 
in the US conducted IPM practices.\1\ The largest schools were the most 
likely to have robust programs, where they notified staff, students and 
families before applications. However, despite the resources and guides 
from the EPA about IPM in schools, there is a need for funding to 
better ensure a wider adoption and reporting of these practices. 
Therefore, ESA supports continuing the activities in the Pesticides 
Licensing Program Area as well as the modest funding that EPA has 
invested in school IPM.
---------------------------------------------------------------------------
    \1\ Everett Jones, S., & Glick, S. (2018). School Factors 
Associated with the Implementation of Integrated Pest Management-
Related Policies and Practices. Journal of School Health, 88(9), 669-
675.
---------------------------------------------------------------------------
    Among EPA's State & Tribal Assistance Grants, categorical grants in 
the area of Pesticides Program Implementation help to facilitate the 
translation of national pesticide regulatory information into real-
world approaches that work for local communities. For example, these 
grants fund efforts to reduce health and environmental risks associated 
with pesticide use by promoting, facilitating, and evaluating IPM 
techniques and other potentially safer alternatives to conventional 
pest control methods. ESA requests that the subcommittee support a 
modest increase for Pesticides Program Implementation grants in fiscal 
year 2020.
    ESA is in favor of increased funding for scientifically based 
studies of pollinator populations and health. Pollinators play a vital 
role in our Nation's agriculture industry; for example, honey bees 
alone pollinate more than 90 crops in the U.S. and are essential for 
the production of an estimated one-third of all the food we eat or 
export, contributing over $17 billion in annual crop and seed 
production in the U.S. alone. To ensure a healthy bee population, more 
research is needed to fully understand the diverse factors that 
endanger bee health. Pesticides represent just one potential risk to 
bees, but both the risks and benefits must be balanced, and those risks 
and benefits will vary among different crops and different crop-
producing regions of the US. EPA is well-positioned to help identify 
methods for protecting bee health; the agency has previously awarded 
agricultural grants to three universities to aid in the development of 
IPM practices that lower pesticide risks to bees while protecting 
valuable crops from pests. For this reason, ESA supports EPA's 
participation in multi-agency efforts to investigate pollinator health 
and implementing plans to prevent pollinator population decline.
    The U.S. Forest Service sustains the health, diversity, and 
productivity of 193 million acres of public lands in national forests 
and grasslands across 44 States and territories. Serving as the largest 
supporter of forestry research in the world, the agency employs 
approximately 30,000 scientists, administrators, and land managers. In 
addition to activities at the Federal level, the Forest Service 
provides technical expertise and financial assistance to State and 
private forestry agency partners.
    The Forest Service's Forest and Rangeland Research budget supports 
the development and delivery of scientific data and innovative 
technological tools to improve the health, use, and management of the 
Nation's forests and rangelands. Within Forest and Rangeland Research, 
the Invasive Species Strategic Program Area provides scientifically 
based approaches to reduce and prevent the introduction, spread, and 
impact of non-native invasive species, including destructive insects, 
plants, and diseases that can have serious economic and environmental 
consequences for our Nation. For example, Forest Service scientists are 
working to prevent the devastation of ash trees across North America by 
the emerald ash borer, an invasive beetle that was accidentally 
introduced from Asia. Emerald ash borer was first detected in 2002 and, 
since then, has killed millions of ash trees. This biological invasion 
threatens to eliminate all ash trees from North America and is the 
costliest invasion from a forest insect to date. Emerald ash borer is 
just one on the exponentially growing list of invasive insects and 
diseases that harm our Nation's forests and our Nation's economy. 
Forest health is also affected by invasive weeds, and those weeds are 
often best controlled by beneficial insects used as biological control 
agents, resulting in permanent and often spectacular control. ESA 
respectfully requests that Forest and Rangeland Research be fully 
funded at $297 million for fiscal year 2020.
    Also under the purview of the Forest Service is the Forest Health 
Management program, which conducts mapping and surveys on public and 
private lands to monitor and assess risks from potentially harmful 
insects, diseases, and invasive plants. The program also provides 
assistance to State and local partners to help prevent and control 
outbreaks that threaten forest health. According to a 2011 study, 
invasive forest insects cost local governments alone an average of over 
$2 billion per year; direct costs to homeowners from property loss, 
tree removal, and treatment averages $1.5 billion per year.\2\ 
Initiatives within the Forest Health Management program can help 
control these costly pests. The program's ``Slow the Spread'' 
activities, for example, have led to a 60 percent reduction in the rate 
of the spread of the gypsy moth, another invasive species, resulting in 
an estimated benefit-to-cost ratio of 3:1. Without the program, it is 
estimated that 50 million additional acres would have been infested by 
the moth.\3\ To support these important functions, ESA requests that 
the subcommittee oppose any proposed cuts to Forest Health Management 
program in fiscal year 2020.
---------------------------------------------------------------------------
    \2\ Aukema, J.E.; Leung, B.; Kovacs, K.; [et al.]. 2011. Economic 
impacts of non-native forest insects in the continental United States. 
PLoS ONE 6(9): e24587.
    \3\ Forest Service Fiscal Year 2017 Budget Overview: http://
www.fs.fed.us/sites/default/files/FY-2017-FS%20-budget-overview.pdf.
---------------------------------------------------------------------------
    Spotted lanternfly is an invasive insect pest from Asia that was 
first reported in the United States in 2014. It has become established 
(meaning it has been identified in all stages of its life cycle) in 
Pennsylvania, Virginia, New Jersey, and, most recently, Delaware. Its 
ability to disperse over broad geographic areas presents a particularly 
challenging problem to growers and homeowners, as does its unusually 
broad host range, as it has been recorded feeding on more than 70 
plants, including commercial crops such as hops, grapes, apples, and 
cherries. In addition to damage caused directly by feeding, the spotted 
lanternfly inflicts indirect damage via coating plants and other 
surfaces in ``honeydew'' (urine), which encourages the growth of mold 
and fungi. Preliminary studies indicate that it is a serious threat to 
agriculture and forest ecosystem health in the U.S., poised to destroy 
an estimated $18 billion worth of crops in Pennsylvania alone. Studies 
like this demonstrate the need for continued and robust support for the 
interagency coordination advanced by the National Invasive Species 
Council (NISC). As such, ESA requests that NISC be funded at no less 
than the fiscal year 2018 level.
    ESA, headquartered in Annapolis, Maryland, is the largest 
organization in the world serving the professional and scientific needs 
of entomologists and individuals in related disciplines. Founded in 
1889, ESA has more than 7,000 members affiliated with educational 
institutions, health agencies, private industry, and government. 
Members are researchers, teachers, extension service personnel, 
administrators, marketing representatives, research technicians, 
consultants, students, pest management professionals, and hobbyists.
    Thank you for the opportunity to offer the Entomological Society of 
America's support for Forest Service and EPA programs. For more 
information about the Entomological Society of America, please see 
http://www.entsoc.org/.

    [This statement was submitted by Robert K.D. Peterson, PhD, 
President.]
                                 ______
                                 
     Prepared Statement of the Environmental Council of the States
Dear Chairwoman Murkowski, Ranking Member Udall and Members of the 
subcommittee:

    The Environmental Council of the States (ECOS) is the national 
nonprofit, nonpartisan association of State and territorial 
environmental agency leaders. We, its undersigned Officers, submit this 
testimony on fiscal year 2020 appropriations for the U.S. Environmental 
Protection Agency (EPA).
    State environmental agencies are the engines of environmental 
progress in our Nation. Under America's system of cooperative 
Federalism, agencies like ours normally take the lead in implementing 
Federal environmental laws like the Clean Air Act, Clean Water Act, 
Safe Drinking Water Act, and Resource Conservation and Recovery Act. 
Today, States exercise over 90 percent of the delegable authorities 
under these and other Federal laws. You can learn more about the 
tangible progress the States have delivered on our ECOS Results data 
visualization portal.
    State environmental agencies depend on Federal funding to do their 
work; ECOS has documented that the Federal Government provides, on 
average, 27 percent of our agencies' budgets. The U.S. Congress 
included provisions in the CWA, CAA, RCRA, and SDWA to provide 
assistance to States to operate these Federal programs primarily 
through State and Tribal assistance grants (STAG). Without adequate 
Federal funding support, State agencies find it more challenging to 
properly administer Federal environmental laws, improve public health, 
and protect the environment. ECOS therefore asks that fiscal year 2020 
appropriations provide sustained support to programs that advance the 
well-being of our communities.
    Please consider these principles as you deliberate about the fiscal 
year 2020 appropriations. Please also consider the following specific 
requests:
     increase state and tribal assistance (stag) categorical grants
    STAG categorical grants fund a huge range of work by State 
environmental agencies. Much of that work is core implementation 
activity such as issuing environmental permits, inspecting facilities 
and enforcing the law, setting standards, and managing data. But 
categorical grants, including those that support voluntary and 
community-based programs, also fund creative solutions to local 
problems.
    For example, STAG funds issued under Section 319 of the Clean Water 
Act recently helped Wyoming's Department of Environmental Quality 
(WDEQ) partner with The Nature Conservancy (TNC) and various other 
private and public stakeholders in Northwest Wyoming to improve the 
Grass Creek/Cottonwood Creek watershed. Historic grazing practices in 
this area had contributed to degraded rangeland and stream conditions, 
until the partnership led by TNC installed best management practices 
with area ranchers and other stakeholders. Data collected by TNC over 
the course of the project suggest marked decreases in nitrogen and 
phosphorous, as well as decreased streambank erosion and increases in 
desirable riparian and rangeland vegetation. In 2018 this project was 
added to U.S. EPA's Nonpoint Source Success Stories, and also in 2018, 
Wyoming DEQ used its Section 319 funds to initiate nine similar 
projects.
    STAG categorical grants also help our agencies take on larger 
projects that deliver positive economic benefits for communities. For 
example, downtown Nashville, TN is home to ``The Gulch,'' a former rail 
yard which decades of neglect turned into a blighted neighborhood. Due 
to the use of Voluntary Brownfields Agreements the Tennessee Department 
of Environment and Conservation (TDEC) was able to leverage and expand 
private investment into the neighborhood and ensure a faster and more 
thorough redevelopment process. The Gulch is now a vibrant, LEED-
certified mixed-use neighborhood and a popular local destination for 
shopping, dining, and entertainment, yielding significant new tax 
revenue.
    STAG support is critical to the continued creativity and vitality 
of State-led environmental regulation. States therefore thank Congress 
for preserving STAG categorical grants over the past three fiscal 
years, and ask that Congress further support the program in the fiscal 
year 2020 budget.
continue funding environmental infrastructure via state revolving funds
    STAG funds also support State-level investments in the 
infrastructure that provides our citizens safe drinking water and a 
clean aquatic environment. Much of that infrastructure is aging or 
inadequate and the States therefore depend on the funding that Congress 
provides through the STAG State Revolving Fund (SRF) program. Congress 
recently reemphasized its support for State water infrastructure with a 
second consecutive year of supplemental funding through Title IV of the 
fiscal year 2019 Consolidated Appropriations Act, but there is still 
more to be done. The American Society of Civil Engineers estimates that 
our Nation faces more than $271 billion in wastewater infrastructure 
needs. The situation is even more staggering on the drinking water 
side, where the U.S. EPA's most recent assessment cites a $472.6 
billion need for infrastructure investments.
    These figures show that the already extensive infrastructure needs 
continue to grow along with our populations and the advancing age of 
our existing facilities. ECOS has documented these needs in reports 
such as our State Water and Wastewater Project Inventory, which 
describes the top 20 ``shovel-ready'' water and wastewater projects in 
each State. States have also shown the impact of these projects on 
water quality, and have demonstrated creative infrastructure solutions. 
In late 2018, West Virginia DEQ became the first State in its region to 
obligate its fiscal year 2018 Clean Water SRF money: $50 million that 
will go to restore and upgrade wastewater and stormwater infrastructure 
and extend sewer service to two previously unserved areas. On the 
drinking water side, Alaska and Connecticut recently set up micro-loan 
programs with specially streamlined requirements to expand SRF loan 
access to the smallest of public water systems. In Alaska these small 
systems are commonly found in remote native Alaskan villages, and since 
small systems have not typically had SRF access these new micro-loans 
will have an even greater proportionate positive effect on public 
health. Congress should continue funding projects like these so that 
States can continue to serve as important sources of revolving funding 
to modernize local communities.
              preserve the stag multipurpose grant program
    Under cooperative Federalism, States gain the authority to allocate 
Federal resources in ways that reflect local needs and priorities. 
State agencies cannot deliver on this promise unless Congress ensures 
flexibility in Federal funding. Funding flexibility also streamlines 
joint decisionmaking by EPA and States, and ultimately allows States to 
more quickly convert Federal dollars into positive environmental and 
public health results.
    States used 2016 Multipurpose Grant money to fund activities 
ranging from implementing the National Ambient Air Quality Standards to 
improving electronic data management systems, and to control everything 
from water pollution to pesticide overuse. ECOS understands that the 
fiscal year 2018 and fiscal year 2019 funds will be obligated to States 
in tandem, meaning that a large investment in priority State programs 
is on the horizon. States are appreciative that Congress established 
this program in 2016, and we urge you to appropriate a third 
consecutive year of Multipurpose Grant funds in fiscal year 2020. 
Making this grant program a dependable funding stream would allow 
States to deploy that money in ways that maximize the long-term benefit 
to their citizens.
             avoid rescission and impoundment of stag funds
    States work closely with EPA through ECOS' State Grants Subgroup to 
speed the distribution of Federal funds and allow on-the-ground work to 
begin sooner. Our experiences lead us to urge Congress not to include 
rescissions of unobligated STAG funds in future enacted budgets, as 
this often results in uncertainty and delays in obligating pass-through 
funding. For the same reason, States ask Congress to discourage 
impoundment of enacted appropriations.
              fully fund increased state responsibilities
    During the past several years, States and U.S. EPA have done 
considerable evaluation and alteration to the State-Federal division of 
responsibility for environmental regulatory programs. ECOS has 
facilitated many of the high-level discussions about this topic through 
our work on Cooperative Federalism, and many of these conversations 
have been oriented toward shifted responsibility from U.S. EPA toward 
the States. States believe that Federal funds are essential to our 
ability to maintain the critical resources for many of these additional 
responsibilities.
    States are also largely carrying out the responsibilities over air 
quality monitoring, State research, and other program implementation 
activities. These activities, which are now performed by the States, 
are important to be carried out consistently to assure adequate public 
protection remains. These efforts could be negatively impacted by the 
proposed shift of STAG categorical grant funds for particulate air 
quality programs from Clean Air Act (CAA) Sec. 103 grants, which do not 
require a State funding match, to CAA Sec. 105 grants which require a 
40 percent State match or Maintenance of Effort (MOE). This change 
would likely amount to reduced levels of effort or inconsistency among 
States in monitoring networks if these Federal funds are not 
maintained.
    States' regulatory workloads increase gradually year-by-year, and 
most STAG categorical grant programs have been flat-funded for several 
years in a row. This, too, has the effect of an increase in State 
program responsibilities without a proportional increase in Federal 
support. As mentioned in the introduction, States rely heavily on 
Federal funding and even peripheral decreases in this funding can 
adversely impact State programs. We ask, therefore, that Congress 
account for increasing State implementation costs in Federal funding 
levels and push back against the proposed CAA Sec. 103-Sec. 105 funding 
shift, and similar policy changes at States' expense.
                               conclusion
    ECOS thanks you for considering the views of State environmental 
agencies as you prepare the fiscal year 2020 budget. We would welcome 
any further discussion with you about these issues and how Federal 
funding can support State-level work to protect human health and the 
environment. Please email our executive director at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3c584b59504f547c595f534f12534e5b">[email&#160;protected]</a>, or 
send mail to 1250 H Street NW, Suite 850, Washington D.C. 20005.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Becky Keogh, Director, Arkansas Department of Environmental Quality
ECOS President
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Jim Macy, Director, Nebraska Department of Environmental Quality
ECOS Vice President
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Patrick McDonnell, Secretary, Pennsylvania Department of Environmental
  Protection
ECOS Secretary-Treasurer
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Todd Parfitt, Director, Wyoming Department of Environmental Quality
ECOS Past President
                                 ______
                                 
   Prepared Statement of the Federation of State Humanities Councils
    Madam Chairwoman and members of the subcommittee, I thank you for 
this opportunity to submit testimony on behalf of the State humanities 
councils, the State affiliates of the National Endowment for the 
Humanities, requesting $167.5 million for the National Endowment for 
the Humanities and $53 million for the Federal/State Partnership for 
fiscal year 2020.
    As partners of the NEH, the State humanities councils receive their 
core funding through the Federal/State Partnership line of the NEH 
budget, which they use to leverage additional support from foundations, 
corporations, private individuals, and State governments. In the past 
year, councils leveraged, on average, $4.00 in local contributions for 
every dollar of Federal funding awarded through their grants, and they 
have further extended their resources in recent years by forming 
partnerships with nearly 9,000 organizations throughout their States. 
But demand continues to increase. In the past few years, councils 
continue to be asked to expand their programs to reach new populations 
and meet growing needs in their States.
    The State councils are the local face of the humanities, developing 
and delivering the programs that address the issues of greatest concern 
to their communities, helping them explore their history and culture, 
and sharing the stories of our many diverse populations. The councils 
are also a major source of grants to local educational, cultural, and 
historical organizations for public programming in places where a small 
grant of several hundred to a few thousand dollars can make an enormous 
difference in the life of a community.
    It is to meet the growing need for programs with such impact on our 
communities and Nation that we are requesting funding at the levels of 
$165.7 million for the NEH and $53 million for the councils. The 
councils are stretched thin in their ability to meet local needs and 
support and collaborate with local businesses, cultural organizations, 
schools, libraries, museums, and many other groups seeking to better 
the lives of those in their communities. Councils must make difficult 
decisions in how to allocate scarce resources among the many legitimate 
demands presented from a wide range of deserving populations. 
Fortunately, councils are also expert at using the Federal funds to 
attract other funding, and the increase in core Federal funding will 
also enhance their ability to seek those additional funds.
    It is not just current demands that drive this request. The State 
councils see a plethora of new program possibilities, including a 
special opportunity to explore our country's history and system of 
government. In 2026, the Nation will commemorate the 250th anniversary 
of the Declaration of Independence, which offers an opportunity to 
reexamine the many diverse voices and forces that shaped our Nation and 
to engage in an expanded civics education program for Americans of all 
ages. Surveys reveal a shocking ignorance of history and a lack of 
awareness among both school age children and adults of the structure 
and processes of government and the ideals and philosophies that 
underlie them. The next 5 years can be a time when we rededicate 
ourselves to improving our collective understanding and reinvigorating 
our ability to work through differences.
    The State humanities councils are uniquely positioned to pursue 
activities that offer education about our founding principles while 
speaking to the interests and concerns of individual communities. 
Further, the councils have a track record of collaborating with diverse 
partners to broaden impact and extend resources well beyond the initial 
investment. The councils also have a unique ability to reach all 
corners of their States. This has been effectively demonstrated in the 
25-year council collaboration with the Smithsonian Institution 
Traveling Exhibition Service (SITES) in the Museum on Main Street 
program and in the recent national initiative commemorating the 100th 
anniversary of the Pulitzer Prizes. We must begin now to build the 
community relationships and develop the programs that will make 
commemoration of the 2026 anniversary a meaningful national event.
    Throughout their history, State humanities councils have shown 
themselves to be innovative, collaborative, efficient, and resourceful 
organizations, strongly connected to the communities in their States 
and highly responsive to their needs. The following examples highlight 
a few areas where councils have a particularly strong record of 
service.
    Serving Veterans. The importance of the council programs involving 
returning veterans is reflected in a comment from Pulitzer Prize-
winning author Viet Thanh Nguyen, who noted in an interview at a 
council-sponsored event, ``All wars are fought twice, the first time on 
the battlefield, the second time in memory.'' A number of councils 
conduct programs to educate the public about the consequences of war, 
while also helping veterans reintegrate into their communities in the 
aftermath of their service.
    In 2014 the Maine Humanities Council developed a Veterans Book 
Group, as one of several projects created under the NEH Standing 
Together initiative. The council piloted the program in 12 States 
including California, Maryland, Oregon, and Vermont. The reading 
groups, all co-facilitated by a veteran, provide a space to connect 
with other veterans by exploring ideas found in selected poetry and 
works of fiction and non-fiction, both ancient and modern.
    Since 2015, Maryland Humanities has supported the Veterans' Oral 
History Project, through which students at a high school in Anne 
Arundel County have conducted oral history interviews with Vietnam War 
veterans and Vietnamese immigrants who experienced the war. The 
students receive training in oral history techniques, and transcripts 
and videos of the interviews are accessible online at the Maryland 
State Archives website. The Missouri Humanities Council works in 
partnership with libraries and veteran support organizations throughout 
the State to conduct writing workshops for veterans, which empower 
veterans to share their stories, thoughts, and experiences through the 
written word. The workshops are free of charge and conducted by 
professional writers.
    Exploring Native American History and Culture. In May 2017, members 
of the House Interior Appropriations Subcommittee heard testimony from 
Valorie Walters, executive officer for the Division of the Chickasaw 
Cultural Center of the Chickasaw Nation, and board member of Oklahoma 
Humanities. Her testimony not only reflected on the Native American 
story that is ``so fundamental to understanding the history of the 
Nation as a whole,'' but also demonstrated the scope of programs, 
including a symposium, an exhibit, a language festival, a documentary 
film, and several other educational programs in Oklahoma. The programs 
she described were just one council's examples of comparable programs 
that continue to receive support throughout the country. The aims of 
these programs are to work with American Indian populations to increase 
public awareness and appreciation of their enduring role in our 
history, to forge stronger bonds between native and non-native 
populations, and to support language preservation initiatives. The 
Alaska Humanities Forum's program, ``Take Wing Alaska,'' for example, 
focuses on Native Alaskan high school students, placing them in three 
immersion experiences to guide them to focus not only on academic 
skills but also inherent cultural strengths they can refer to and draw 
on in the midst of a challenging life shift.
    Humanities Montana, through its Tribal Partnership Initiative, 
supports humanities projects on the Blackfeet, Flathead, Rocky Boy, 
Fort Belknap, Fort Peck, Northern Cheyenne and Crow Reservations, as 
well as the Little Shell Nation, with up to $5,000 in funding annually. 
The projects are a result of informal relationships rather than 
conventional grant-driven processes. The council forms up to three 
partnerships each year, anchored in the expressed needs and aspirations 
of the Tribal nations.
    Engaging Rural America. From the beginning, State humanities 
councils have been dedicated to ensuring that rural areas have access 
to high-quality public humanities programs. One means of accomplishing 
this has been through the highly successful Museum on Main Street 
program, a 25-year partnership between the councils and the Smithsonian 
Institution Traveling Exhibition Service (SITES), specifically designed 
to serve small rural communities. Smithsonian exhibits are refabricated 
as lightweight, portable traveling exhibits, suitable for display in 
small settings such as local libraries, museums, and community centers. 
Participating councils select six communities of less than 20,000 in 
their States to host the exhibit. Councils and scholars work with a 
local planning group in each community to develop a wide variety of 
humanities programs around the theme of the exhibit.
    These exhibits cover a wide range of issues important to the 
communities, including, in recent years, work in America, hometown 
sports, foodways, and migration stories, among others. Maryland 
Humanities and the Mississippi Humanities council are currently touring 
``Water/Ways,'' which explores the economic, spiritual, cultural, and 
historic significance of water in our society. ``Hometown Teams,'' 
currently being toured by the Florida Humanities Council, looks at the 
role that sports play in American society and especially in small towns 
across the country. ``Crossroads: Change in Rural America,'' which 
offers small towns a chance to examine their own paths and to highlight 
the changes that affected their fortunes over the past century, will be 
on tour in Florida, Kentucky, and Tennessee in 2019 and 2020.
    Councils also engage rural populations through a variety of other 
programs. Humanities Montana's ``Hometown Humanities'' program, for 
example, brings a year's worth of humanities-based programming to a 
rural Montana community. Community members choose upwards of 30 
cultural programs from Humanities Montana's catalog of offerings--
public speakers, speakers in the schools, community discussions and 
more. The 2019 Hometown Humanities community, Red Lodge, Montana, 
population 2,300, will enjoy a series of programs including a writing 
workshop, several speakers bureau programs, storytelling, and community 
discussions.
    Promoting Literacy and Reading. The humanities are all about 
reading, exploring ideas, and strengthening our connections to one 
another, and this is nowhere more important than within our families. 
Family literacy and reading programs have been signature offerings by 
councils for decades, arising from the belief that parents and children 
not only gain knowledge and improve reading skills but also build 
stronger bonds with each other when given opportunities to discuss 
ideas together. The Prime Time program, developed more than two decades 
ago by the Louisiana Endowment for the Humanities and offered by a 
number of humanities councils, engages low-income families in 
discussion of high-quality children's literature to improve the reading 
skills of parents and increase school readiness for at-risk children. 
During a 6-week period, children and parents in this program gather in 
schools and libraries to hear stories from a skilled storyteller and 
then discuss the book's ethical and cultural themes with the help of a 
scholar. The program is also available in a bilingual format.
    Kentucky Humanities, which has conducted the program for several 
years, just received a grant from the National Endowment for the 
Humanities to expand the program directly into public schools around 
Kentucky. The Mississippi Humanities Council also offers Prime Time, in 
addition to Luciernagas, a bilingual family reading program, which 
serves the increasing number of Spanish speakers in the State.
    Supporting the Cultural Infrastructure. One of the hallmarks of the 
State humanities councils is their connection to and support for the 
communities in their States. They work hard to strengthen the resources 
that make these communities vibrant places to live. This includes 
supporting activities, such as book festivals and local commemorations, 
which bring people and resources into a community. Cultural tourism has 
benefitted from the creation of State encyclopedias, audio tours, and 
other materials designed to draw visitors to a specific area.
    It also includes supporting local institutions that are the 
lifeblood of a community, such as libraries and museums. California 
Humanities demonstrates this with their Library Innovation Lab, which 
builds capacity within California libraries to develop creative and 
innovative programs, which respond to local needs. In particular, the 
program continues the legacy of welcoming newcomers, especially 
immigrants and immigrant populations, fostering more inclusive 
communities throughout the State. The Rhode Island Council for the 
Humanities, in partnership with the Rhode Island Foundation and the 
Rhode Island Council on the Arts, supports the Rhode Island Expansion 
Arts Program, which provides funding and organizational assistance to 
community-based culturally diverse arts and cultural organizations. The 
program provides skills and tools that the organizations, especially 
newly emerging groups, require to grow as equal partners in the Rhode 
Island arts and cultural community.
    The programs discussed in this brief space are merely illustrative. 
They represent hundreds of programs in communities large and small in 
every corner of this Nation where residents gather to learn about the 
history of their communities and their Nation; to hear previously 
untold stories; to read and discuss books that expand their empathy and 
understanding; to examine difficult ethical issues; and to inform 
themselves in ways that make them more responsible citizens. The State 
councils are well-positioned to effectively put to use the $53 million 
we are requesting through the Federal/State Partnership.
                                 ______
                                 
  Prepared Statement of the Fond Du Lac Band of Lake Superior Chippewa
    On behalf of the Fond du Lac Band of Lake Superior Chippewa, we 
submit this testimony to urge Congress to increase, or, at the very 
least preserve, the Federal funding levels for Indians programs that 
are provided through the Interior Department, Indian Health Service and 
Environmental Protection Agency.
    It is essential to keep in mind that the problems that face 
communities nationwide are far more severe for Indian communities, with 
Tribes having far fewer resources to address those problems. An example 
is the opioid epidemic. Native Americans in Minnesota are far more 
likely to die from an overdose than white Minnesotans. For example, 
``[f]rom 2010 to 2016, the American Indian mortality rate more than 
doubled from 29.0 per 100,000 to 64.6 per 100,000 (123 percent 
increase), and was almost six times as high as the white mortality 
rate.'' \1\ The opioid epidemic creates other adverse impacts for 
Indian communities. It means that our children are ``7.4 times more 
likely to be born with neonatal abstinence syndrome'' which requires 
specialized treatment and care.\2\ It increases demands on our social 
service programs for addiction treatment and counseling, and assistance 
to growing numbers of at-risk families, with more children in foster 
care or the subject of CHIPS (Child in Need of Protection or Services) 
proceedings, an increase of 65 percent since 2015. It increases demands 
on our school to address the unique needs of children living in at-risk 
homes. And it increases the demands on our law enforcement who respond 
to ever-growing numbers of incidents that are drug related.
---------------------------------------------------------------------------
    \1\ https://www.health.state.mn.us/communities/opioids/documents/
raceratedisparity.pdf.
    \2\ ``Minnesota State Targeted Response to the Opioid Crisis'' at 6 
(2017), found at https://mn.gov.
---------------------------------------------------------------------------
    With seed money from Federal funds, we have implemented innovative 
programs and measures to provide health, education, social services, 
public safety and other governmental services to our 4,200 members and 
the more than 7,300 Indian people who live on and near our Reservation. 
Fond du Lac built the first-of-its-kind supportive housing programs in 
Indian country, and the first such supportive housing for Veterans. We 
have undertaken to implement best practices in healthcare. In so doing, 
we have found that an important element to the success of these 
programs is building on our traditional cultural practices. We are 
active in natural resource management and environmental protection so 
our water is safe to drink, fish are safe to eat, wild rice re-
generates, game is plentiful, and natural resources remain available 
for cultural and religious practices that are central to our identity.
    We are proud of what we have accomplished, but more remains to be 
done. The investment of Federal funds is key to that effort. It allows 
us to use Band resources and attract private partners so we can provide 
jobs, grow the local economy, educate our children, prevent crime, and 
care for our elders and infirm. We urge Congress to continue to fund 
these programs.
                         indian health service
    We appreciate Congress's decision to increase funding for IHS in 
fiscal year 2019, which is essential to address the substantial unmet 
need for healthcare among Indian people. Indians at Fond du Lac, like 
Indians throughout the Nation, continue to face severe disparities 
across a broad range of health issues. In addition to the 
extraordinarily high mortality rates due to the opioid epidemic, 
Indians in Minnesota are far more likely to die prematurely than all 
others in the State, and suffer from the highest mortality rates for 
causes of death due to cancer, heart disease, diabetes, suicide, and 
unintentional injury.\3\
---------------------------------------------------------------------------
    \3\ See Minnesota Department of Health, Center for Health Equity, 
Populations of Color: Update Birth and Death Statistics (December 
2015). https://seedsofnativehealth.org/wp-content/uploads/2017/05/
Populations-of-Color-Health-Update-Birth-and-Death-Statistics.pdf.
---------------------------------------------------------------------------
    We serve over 7,300 Indian people at our clinics, but the current 
funding level meets only 33 percent of our healthcare funding needs. To 
make progress in reducing the disparities in Indian health, we urge 
Congress to continue to increase funding for IHS. We urge an increase 
for fiscal year 2020 in order to fully fund IHS programs, with the top 
priorities given to Hospitals & Health Clinics; Purchased/Referred 
Care; Mental Health; Alcohol & Substance Abuse; and Dental Health. 
Expanded resources for treatment and community education capacity are 
especially needed to combat the epidemic of drug abuse.
    We also ask that Congress continue to increase funding for IHS 
Facilities, including Sanitation Facilities Construction. We rely on 
wells for drinking water, but the quality of the source water on our 
Reservation is very poor. It generally cannot be used unless treated, 
and where the source water is really poor quality, treatment may leave 
an unacceptable level of by-products that also fail to meet water 
quality standards. We face this problem now in one of our communities, 
affecting 54 homes and a community center. As a short-term solution, we 
are providing point-of-use filters. But to eliminate the problem, we 
need to drill several new wells to access better quality source water, 
but which will still need to be treated. We will also need to build a 
new water treatment facility, along with a water tower and new 
pipelines to establish redundancy in the system to protect users and to 
aid in fire protection. The cost is expected to be $2.5 million, but 
the very limited funds for capital work provided to IHS is not 
sufficient to meet the need. In our region, IHS has $1.7 million to 
serve 37 Tribes. Federal appropriations for other potential funding 
sources for drinking water infrastructure, like EPA and USDA Rural 
Development, should also be increased to aid us and other Tribes to 
build the infrastructure needed for safe drinking water.
                       bureau of indian education
    With funding from the BIE and the Department of Education, we 
operate the Fond du Lac Ojibwe School serving an average of 230 
children from pre-K through 12th grade. More than 90 percent of our 
students come from very low-income households, as 96 percent receive 
free or reduced-price lunch. We are slowly making progress in improving 
the outcomes for our students. For example, high school graduation 
rates for American Indians in Minnesota have improved from 37.9 percent 
in 2003 to 52.6 percent in 2016, but are still well-below the 2016 
State-wide rate of 82.2 percent. We are handicapped by limited 
resources. BIE funding has never kept pace with need, which prevents us 
from providing the educational services needed for our students. We 
appreciate Congress's decision to increase overall BIE funding for 
fiscal year 2019 and to continue to fund the Johnson O'Malley (JOM) 
grant program. Because education is so critical to success later in 
life, we urge Congress to continue to increase Federal funding for 
Indian education. We especially ask that increases be made to each of 
the following program:

  --ISEP, which is the primary source of school funding provided 
        through Interior. It covers salaries for teachers, teacher 
        aides, and administrative personnel and is essential to our 
        ability to recruit and retain qualified teachers.
  --Tribal Grant Support Costs, which helps pay for accounting, 
        insurance, background checks, legal and record-keeping.
  --Student Transportation, which allow us to maintain, repair, and 
        replace buses.
  --Early Childhood Development funds (FACE), which is critical to 
        providing preschoolers with skills to be school-ready.
  --JOM, which assists Indian children in public schools.
  --School Facility Operations and Maintenance, which keeps the 
        building safe, pays for preventative maintenance, and covers 
        insurance and utility costs.
                     bia: public safety and justice
    We appreciate Congress's decision to increase funding for BIA's 
Public Safety and Justice, including increased funding for criminal 
investigations and police services and to help people affected by 
opioid addiction. The largest law enforcement problems we face are due 
to opioids and other drugs including methamphetamines and prescription 
drugs. The large drug problem has also increased thefts, burglaries, 
and assaults. In addition, we find (and the Federal Government has also 
recognized),\4\ that a disproportionately large number of Native 
American women are the victims of sex trafficking. This is a very 
serious problem for our community and we are working now to establish a 
Tribal Task Force to help combat it. Our law enforcement also responds 
to domestic disputes, disturbances, disorderly conduct, property 
damage, trespass, suspicious activity, unwanted persons, medical 
emergencies, fire, neglected children, missing persons, suicide 
threats, and traffic offenses.
---------------------------------------------------------------------------
    \4\ U.S. GAO, Human Trafficking: Investigations in Indian Country 
or Involving Native Americans and Actions Needed to Better Report on 
Victims Served (Sept 2017). https://www.indian.senate.gov/sites/
default/files/upload/Gretta%20Goodwin%20Testimony.pdf.
---------------------------------------------------------------------------
    We address law enforcement by a combination of Tribal and available 
Federal funds and cooperative agreements with local law enforcement 
agencies. We currently have 20 officers, which, in addition to the 
Chief Law Enforcement Officer, includes a Lieutenant, one investigator 
and 17 officers assigned to patrol or similar duties. To meet need, we 
should have 25 full time officers. Five of those officers would be 
assigned to investigations, with two investigators dedicated to 
narcotics enforcement. We currently have 3 administrative staff, but 
should have one more person to gather Intel and manage an intelligence 
page linked to other Tribal agencies.
    We need funding for training. With an increase in the drug epidemic 
and related crimes, our officers need, but are not receiving, vital 
training for undercover work, narcotics detection, investigative 
procedures, interview and interrogation, use of force, de-escalation, 
firearms, and community policing. Budget restraints also restrict us 
from buying patrol vehicles and proper equipment to combat the drug 
problems on our Reservation. Uniform costs increase due to 
contamination from drugs and blood-borne pathogens from drug users. 
That includes duty gear and equipment, and patrol vehicles, which need 
to be decontaminated more frequently. There is also need for personal 
protective gear and other basic equipment (e.g., binoculars, video 
cameras and digital recorders). We urge Congress to increase Federal 
funding for Tribal law enforcement.
                bia: trust-natural resources management
    We appreciate Congress's decision to increase funding for BIA 
Trust-Natural Resources by $2.6 million. We urge Congress to further 
increase funding for this program in fiscal year 2020, as past funding 
levels have never met need. Natural resource management is vital in 
Indian Country where the basic subsistence needs of many Indian 
People--especially those living in poverty--depend on natural 
resources. This is certainly true at Fond du Lac. By Treaties in 1837, 
1842 and 1854, the United States acquired our aboriginal territory, but 
to ensure that we could sustain ourselves, expressly promised that we 
retained rights to hunt, fish and gather natural resources within and 
outside our Reservation. Our members depend on and exercise these 
treaty-protected rights to put food on the table and for ceremonial 
practices that serve as the foundation for our culture. The stewardship 
of those natural resources-through scientific study, resource 
management, and enforcement of Band laws that regulate Tribal members 
who hunt, fish and gather those resources-are an important source of 
employment for many of our members. Full funding for Trust-Natural 
Resources Management, including increased funding for Rights, 
Protection and Implementation, is essential in allowing us to protect, 
enhance, and restore natural resources.
    Forest resources are an important asset to us, and the Interior 
Department has recognized the importance of protecting forests from 
wildfire. Fire preparedness funding is insufficient. Fire preparedness 
provides jobs in Indian forestry and protects Indian and non-Indian 
lands.
   national park service: historic preservation funds--tribal grants
    We urge Congress to increase funding, as the work of Tribal 
Historic Preservation Officers has grown. We have seen this firsthand. 
Failures on the part of Federal and State officials to properly review 
existing records of known sites of historic and cultural importance to 
the Band resulted in substantial inadvertent discoveries of human 
remains in a known Indian cemetery. This has, in turn, placed 
substantial demands on our THPO to ensure proper delineation of the 
site to protect the undisturbed portions, and ensure proper reburial of 
the remains.
                 environmental protection agency (epa)
    We appreciate that Congress has continued to provide Federal funds 
for EPA, but we ask that funding for EPA in fiscal year 2020 be 
increased. We rely on EPA grants to clean up brownfields and administer 
clean water and clean air programs. These enable us to protect the 
health of our community, so that we have safe water to drink and can 
continue to rely on fish, wild rice, and game to put food on the table.

  --State and Tribal Assistances Grants (STAG).--We thank Congress 
        providing STAG funding in fiscal year 2019 and strongly urge 
        that support for this program continue.
  --Water Quality.--We have a federally-approved water quality 
        standards program that has seen annual funding declines while 
        the need and Band's responsibilities have increased. Given the 
        current threats to water resources in our region, we urge that 
        Tribal section 106 funding be doubled so that we can do the 
        work needed to protect the water we drink, which is critical to 
        the fish and game that are central to our and the State's 
        economy.
  --Air.--We also have a long-standing air monitoring program that has 
        faced a steady decline in Federal funding. We request that air 
        quality program funding for Tribes be increased.
  --Wetlands.--One-half of our reservation is made up of wetlands. 
        Proper management and restoration of this valuable resource is 
        impossible without adequate and consistent Federal funding. We 
        request sustained wetland monitoring and protection program 
        funding.
  --Great Lakes Restoration Initiative.--The Band fully supports this 
        initiative, and asks that Congress increase funding by $200 
        million to restore the original funding level suggested for 
        this initiative to $500 million. This initiative has broad-
        reaching benefits to resources of importance for all 
        stakeholders (State, Tribal and private) in the Great Lakes 
        region.

    Miigwech. Thank you.

    [This statement was submitted by Kevin R. Dupuis, Sr., Chairman.]
                                 ______
                                 
     Prepared Statement of the Forest Climate Working Group (FCWG)

                        Endorsing Organizations:

             American Forest Foundation  American Forests

      Binational Softwood Lumber Council  Cleaves Consulting LLC

The Conservation Fund  Enviva  The Forestland Group  Forest Stewards 
                                 Guild

      Hancock Forest Management  Hardwood Federation  L&C Carbon

      National Alliance of Forest Owners  The Nature Conservancy

    Society of American Foresters  Sustainable Forestry Initiative

            Western Pennsylvania Conservancy  Weyerhaeuser

                    Woodworks--Wood Products Council

    Rationale: Forests and forest products currently sequester and 
store 14 percent of annual carbon emissions. It is important to 
maintain this important resource by addressing rising threats to forest 
health and slowing forest conversion to non-forest uses. We can take 
steps to protect and increase this carbon benefit, and accelerate the 
ability of U.S. forests to provide a sustained level of climate 
mitigation service to the Nation. Many of these same investments are 
leveraged to strengthen the resiliency of the Nation's forests and thus 
protect additional public services beyond carbon such as watersheds, 
wildlife habitat, recreational resources and economic prosperity for 
rural and urban communities alike.
                     fiscal year 2020 budget items
    The FCWG recommended funding levels below focus on program needs to 
produce major positive steps in conserving and enhancing climate 
resilience and carbon sequestration and storage on public and private 
lands.
Invest in Sound Science and Data
  --USFS Forest Inventory and Analysis Program: FIA is the foundational 
        measure for our forests nationwide and is essential to 
        monitoring our progress. The fiscal year 2019 enacted budget 
        included a level funding for this program which we believe 
        should at least be maintained, but an investment of $83 million 
        in fiscal year 2020 is warranted. We remain concerned about the 
        low level of funding for the program relative to established 
        needs for the information it provides and the negative impact 
        of constrained budgets on data gathering, geographic scope, and 
        sampling return interval and national consistency that is vital 
        for evaluating forest carbon and resilience problems and 
        potentials. This additional Federal investment should be 
        accompanied with language calling for improvements in this 
        program efficiencies to justify additional investment in 2020 
        and in future fiscal years to enable further program impact and 
        ensure that FIA fully delivers on the Congressional mandate set 
        in previous Farm Bills and the needs for forest owners, 
        managers, and communities. Additional support for the FIA 
        program is needed to ensure that we have improved data 
        regarding carbon sequestration rates and storage and the impact 
        of disturbance in forests to support growing data and analysis 
        needs for climate mitigation, forest protection, and bioenergy.
  --USDA Climate Hubs and Related Investments in Applied Climate 
        Science: The USDA Climate Hubs have demonstrated the capacity 
        to provide useful science-based guidance for private landowners 
        and other land managers. The Hubs assure that investments in 
        science are returned to the taxpayer in the form of usable 
        knowledge and tools that millions of forest landowners and 
        managers can apply to climate adaptation and mitigation 
        problems. Continued investment in these Hubs, integrated into 
        various program funding, to assist both public and private land 
        managers is critical to cross-boundary success. Specifically, 
        the USFS Forest and Rangeland Research at $315 million is 
        needed to ensure this and other climate research can be applied 
        to managing all forests.
Promote the Use of Forest Products--Utilization in Building 
        Construction
            USFS Forest Products Laboratory
  --Woodworks: We recommend at least $2 million investment through the 
        USFS, or other funding source, into the initiative Woodworks, 
        which promotes wood use in building construction through 
        technology transfer, especially in non-residential buildings.
  --Life Cycle Assessment Research on Wood Products: We recommend a $1 
        million investment in LCA Research through USFS FPL to ensure 
        the most updated information about the environmental impact of 
        wood products, with a particular focus on climate related 
        information and the role of wood in sustainable forest 
        management systems.
Enhance Resources for Private Forest Owners--Reforestation, 
        Afforestation, and Restoration
  --USFS Forest Stewardship Program: The Forest Stewardship Program 
        helps landowners plan sustainable management, including carbon 
        friendly and climate-smart practices, and to implement 
        reforestation. We recommend an appropriation of at least $29 
        million to advance carbon mitigation through this program, 
        including funds to support tree-planting assistance on private 
        lands.
  --USFS Landscape Scale Restoration: We recommend $20 million this 
        program, to stimulate cross boundary, landscape scale work that 
        will measurably improve climate mitigation and resilience in 
        our forests. We feel that the landscape restoration approach 
        taken by the U.S. Forest Service effectively leverages public 
        investments and creates scale and efficiency that allows 
        climate and carbon public and private benefits to be both cost-
        effective and sustainable. Climate-induced stressors like 
        wildfires and insects and diseases, don't stay within ownership 
        boundaries and thus, a landscape approach is needed.
Utilize Existing Grant Programs to Retain Forests--Diverse Tools for 
        Different Partners and Contexts
  --USFS Forest Legacy Program: We recommend $100 million for the 
        Forest Legacy Program the most flexible and widely applicable 
        Federal program for permanent conservation of forestland from 
        development. We recommend at least maintaining or strengthening 
        funding for this program to capture the many opportunities for 
        State, local, and private forest conservation in carbon-rich 
        forest systems, including extensive working forest conservation 
        easements.
  --USFS Community Forest and Open Space Program: The Community Forest 
        Program is a 50/50 matching grant program that is helping local 
        governments, Tribes, and non-profits to acquire and manage 
        forestland threatened with conversion. We recommend $5 million 
        for this program, to fully tap the potential of these local and 
        Tribal entities to contribute carbon mitigation through forests
                                 ______
                                 
  Prepared Statement of the Friends of Camas National Wildlife Refuge
                               background
    Camas National Wildlife Refuge was established in 1937 to protect 
nearly 11,000 acres of the Snake River Plains in eastern Idaho for the 
benefit of migratory waterbirds. The refuge contained nearly 5,000 
acres of high desert wetlands fed by groundwater discharge from local 
springs and the surface waters of Camas Creek, a shallow stream that 
frequently topped its banks. However, ensuing agricultural development 
of the watershed prompted landscape modifications to control the stream 
water for crop irrigation and to deter unwanted flooding. Creek 
excavation began around refuge headquarters to prevent flooding of the 
structures, and at the same time became common practice throughout the 
watershed. In this way, Camas Creek was systematically transformed from 
a flood prone three foot deep stream into a highly-incised twelve foot 
deep channel.
    In spite of this, the high water table continued to sustain 
expansive wetlands that annually produced thousands of waterfowl, 
supplied valuable stopover resources for tens of thousands of migratory 
waterbirds, and provided year-round habitat for obligate wetland 
species for the first half century of the refuges' existence. But 
beginning in the 1980s, a regional shift in agricultural practices from 
flood to sprinkler irrigation caused the groundwater at Camas to recede 
from the surface, effectively changing the area hydrologically from a 
discharge to a recharge system. Today, the water table exists 10 to 30 
feet below the ground. Combined with the artificially low retention of 
Camas Creek surface water, the retreat of groundwater has meant the 
inundation of fewer wetland acres for a shorter period of time. During 
each of the drought years in 2014 and 2015, the refuge peaked at a mere 
200 acres of inundated wetland habitat. This has profoundly decreased 
Camas NWR's contribution to wildlife conservation. Average waterfowl 
production and stopover usage have each fallen by an order of 
magnitude. The once established breeding populations of resident 
species such as leopard frogs, painted turtles, and muskrat no longer 
persist.
    In the absence of springs, Camas NWR wetlands now rely upon two 
sources for life-sustaining water: (1) Camas Creek surface water, and 
(2) groundwater contributions from agricultural wells co-opted to 
deliver water from the retreating aquifer. Yet, both sources remain 
configured in a way that inefficiently translates cubic feet of water 
into wetland acres, remnants of a period when water was plentiful on 
the refuge and concerns about water excess outweighed water scarcity. 
Therefore, in this emerging period of water shortage, Camas NWR needs 
to adapt in a way that most efficiently utilizes the available sources 
of water to protect and sustain the wetland resources that prompted 
refuge establishment.
                               objectives
    The three following efforts are essential to reshaping Camas NWR to 
meet these hydrological challenges:

    1.  Return a portion of Camas Creek from its current highly incised 
state to a more natural morphology to convey more surface water to 
refuge wetlands via overbank flooding.
    2.  Shift the refuge point of creek diversion to a location 
downstream adjacent to lower seepage wetlands to avoid high seepage 
losses in the diversion water delivery ditch.
    3.  Relocate groundwater wells to locations adjacent to low seepage 
wetlands to significantly increase the wetland acreage return on cubic 
feet of water pumped from the aquifer.
                        camas creek restoration
    Problem: Eight stream miles of Camas Creek exist within Camas NWR 
boundaries and the refuge has senior water rights to the surface runoff 
it conveys. However, extensive modifications to the stream channel 
early in the refuges' history artificially confine these surface flows, 
minimizing retention of these waters on the refuge and impairing water 
clarity. Today, the excavated channel is about four times its natural 
depth over much of its length, placing the channel bottom well below 
that of the adjacent wetlands. In this way, much of the surface water 
that enters the refuge also exits the refuge, unable to flow uphill 
into many of the adjacent wetlands. The wetlands that do receive creek 
water are not necessarily much more successful at producing waterbird 
resources. With the channelization of the stream bed came highly 
incised banks whose continuous erosion releases abundant sediment into 
the creek water. These suspended sediments impair water clarity, which 
in turn inhibits the germination and growth of the submerged aquatic 
vegetation upon which wetland animals, including migratory waterbirds, 
rely for nutrition. In an average year, nearly two-thirds of Camas' 
largest wetland is too light-limited to produce submerged aquatic 
vegetation.
    Solution: In order to restore some measure of wetland expanse and 
integrity to Camas NWR, staff seeks to restore a portion of Camas Creek 
from its current highly incised state to a more natural morphology. 
This will promote overbank flooding by raising the creek channel to the 
level of the adjacent wetlands and increase water transparency by 
reducing bank erosion. We anticipate that the increase in overbank 
flooding and decrease in erosion from a restored Camas Creek will 
contribute to the recovery of historical wetland acreage, and to the 
increased production of high quality aquatic resources for migratory 
waterbirds.
                           point of diversion
    Problem: The refuge maintains a point of diversion from Camas Creek 
on the northeast side of the refuge. From this structure, surface water 
is diverted down a 2 mile long delivery ditch to a ring of wetland 
impoundments. However, a significant proportion of this water never 
arrives at the wetlands, instead sinking through the porous substrate 
of the ditch towards the aquifer. A USGS seepage study concluded that 
water was lost to the aquifer in this ditch at a rate two orders of 
magnitude higher than in any of the sampled wetlands.
    Solution: To more efficiently translate diverted creek water into 
wetland acres, the refuge needs to move their point of diversion 
downstream to a location directly adjacent to the wetland units, 
bypassing the inefficient main diversion water delivery ditch.
                      groundwater well relocation
    Problem: To offset the loss of groundwater contributions to 
wetlands via spring discharge, refuge staff co-opted volume wells to 
deliver water from the retreating aquifer into wetland impoundments. 
Today, well operation comes at great expense due to the quantities of 
electricity required, but only yields 200 acres of wetland habitat. 
This inefficiency is an unsurprising consequence of co-opting wells 
established for agricultural irrigation to wetland inundation. Nine of 
the ten refuge wells remain in their original locations. As such, only 
7 of these wells are connected to infrastructure that can deliver water 
to wetlands. And water originating from five of these wells must 
utilize inefficient delivery ditches with high seepage rates. 
Additionally, the effect of well water input is not uniform across 
Camas NWR wetlands. While the southern wetlands hold water better, most 
of the wells exist in the north part of the refuge. This mismatch 
requires that well water must first fill impoundments with high seepage 
rates in order to reach the southern wetlands.
    Solution: To efficiently translate limited and expensive water 
resources into quality wetland habitat, the refuge needs to 
strategically relocate groundwater wells to locations adjacent to 
southern wetlands. This will allow for inundation of twice the acreage 
during drought years, and increase the ability of staff to manage for a 
more natural dynamic hydrology regime which will yield abundant and 
diverse resources for migratory waterbirds.
                               importance
    Camas NWR is located in the arid Intermountain West. Similar to 
many parts of the Nation, this region has not been exempted from 
wetland destruction/loss. However, the natural rarity of aquatic 
habitat in this arid region lends added importance to the maintenance 
and restoration of the limited habitat that remains. It is estimated 
that approximately 90 percent of Intermountain West wildlife species 
depend upon wetlands for at least some portion of their life.
                        consequences of inaction
  --Breeding and stopover habitat for migratory waterbirds will 
        continue to be lost.
  --Species diversity and abundance will decrease both locally and 
        likely regionally.
  --Once productive units will remain non-viable for waterfowl hunting 
        opportunities because the refuge lacks the ability to maintain 
        water in those wetlands into the fall.
  --Diminished quality of wildlife viewing opportunities for family 
        outings.
  --Opportunities for drawing in and educating area students, scouts, 
        and adults will decrease.
  --Food chains, food webs and area ecosystems will be disrupted.
  --The decline in native species will create a void likely to be 
        filled by invasive or less desirable species.

    [This statement was submitted by Karl P. Bohan, President.]
                                 ______
                                 
 Prepared Statement of the Friends of Rachel Carson National Wildlife 
                                 Refuge

                  The Honorable Lisa Murkowski, Chair

                The Honorable Tom Udall, Ranking Member

                              May 17, 2019

    Ms. Chairman and Honorable Members of the subcommittee: I am Bill 
Durkin, President of The Friends of Rachel Carson National Wildlife 
Refuge in Biddeford, Maine.
    I have been a member of the Friends of Rachel Carson NWR for the 
past 30 years. The group was founded in 1987; we are a small group 
supporting the refuge in Southern Maine. I have given numerous written 
statements over the years and we really appreciate your support in the 
past. This year, our refuge is not requesting any appropriations 
directly for Rachel Carson National Wildlife Refuge; this is a request 
for general funding of the National Wildlife Refuge System of $586 
million. This year we ask to appropriate $50 million in the National 
Wildlife Refuge Fund. There was great news last week with the news of 
reauthorizing and permanently funding the Land , Water and Conservation 
Fund. With that in mind, I request $150 million for the National 
Wildlife Refuge Systems purchase of easements and in holdings. I thank 
you all for your consideration.
    The Rachel Carson National Wildlife Refuge is named in honor of one 
of the nation's foremost and forward-thinking biologists. After 
arriving in Maine in 1946 as an aquatic biologist for the U.S. Fish and 
Wildlife Service, Rachel Carson became entranced with Maine's coastal 
habitat, leading her to write the international best-seller The Sea 
Around Us. This landmark study, in combination with her other writings, 
The Edge of the Sea and Silent Spring, led Rachel Carson to become an 
advocate on behalf of this nation's vast coastal habitat and the 
wildlife that depends on it. Her legacy lives on today at the refuge 
that bears her name and is dedicated to the permanent protection of the 
salt marshes and estuaries of the southern Maine coast. The refuge was 
established in 1966 to preserve migratory bird habitat and waterfowl 
migration along southern Maine's coastal estuaries. It consists of 11 
refuge divisions in 12 municipalities protecting approximately 5,600 
acres within a 14,800 acre acquisition zone.
    Consisting of meandering tidal creeks, coastal upland, sandy dunes, 
salt ponds, marsh, and productive wetlands, the Rachel Carson NWR 
provides critical nesting and feeding habitat for the threatened piping 
plover and a variety of migratory waterfowl, and serves as a nursery 
for many shellfish and finfish. Located along the Atlantic flyway, the 
refuge serves as an important stopover point for migratory birds. 
Previous years' appropriations have allowed the USFWS to conserve 
several properties within the refuge.
    1. We are requesting an overall funding level of $586 Million in 
fiscal year 2020 for the Operations and Maintenance Budget of the 
National Wildlife Refuge System, managed by the U.S. Fish and Wildlife 
Service. All of the refuges are in dire need of staffing and upkeep. 
The National Wildlife Refuge System is responsible for 568 million 
acres of lands and waters, but currently receives less than a $1. per 
acre for management costs. The refuges cannot fulfill its obligation to 
the American public, our wildlife and 47 million annual visitors 
without adequate funding. Refuges provide unparalleled opportunities to 
hunt, fish, watch wildlife and educate children about the environment. 
An investment in the Nation's Refuge System is an excellent investment 
in the American economy, generating $2.4 billion and creating about 
35,000 jobs in local economies. Without increased funding for refuges, 
wildlife conservation and public recreation opportunities will be 
jeopardized. We fully supported the U.S. Fish and Wildlife's request of 
$586 Million for Operation and Management for the National Wildlife 
Refuge System.
    2. Appropriate $50 million in the National Wildlife Refuge Fund in 
fiscal year 2020 which offsets losses in local government tax revenue 
because lands owned by the Refuge System are exempt from taxation. The 
Refuge Fund is an annual appropriation that supplements the Refuge 
Revenue Sharing Program. The Revenue Sharing Program offsets lost local 
tax revenue by providing payments to local governments from net income 
derived from permits and wildlife refuge activities.
    3. We request $150 million in LWCF funding for Refuge land 
acquisitions/conservation easements and we thank you for the recent 
vote on re-establishing ``forever'' for the permanent reauthorization 
full funding of LWCF. The Land and Water Conservation Fund is our 
Nation's premier Federal program to acquire and protect lands at 
national parks, forests, refuges, and public lands and at State parks, 
trails, and recreational facilities. These sites across the country 
provide the public with substantial social and economic benefits 
including promoting healthier lifestyles through active recreation, 
protecting drinking water and watersheds, improving wildfire 
management, and assisting the adaptation of wildlife and fisheries to 
climate change. The quality of place is greatly enhanced. As you know, 
LWCF uses no tax payer dollars. Created by Congress in 1964 and re-
authorized last week, the LWCF is our most important land and easement 
acquisition tool. I support the administration's commitment to fully 
funding the program. This wise investment in the Land and Water 
Conservation Fund is one that will permanently pay dividends to the 
American people and to our great natural and historical heritage. The 
Refuge System needs $150 million in LWCF for fiscal year 2020, 
including these high priority requests:

  --$10 million for Everglades Headwaters NWR and Conservation Area 
        (FL)
  --$6 million for Silvio O. Conte NFWR (CT, NH, VT, MA)
  --$3 million for Cache River NWR (AR)
  --$2 million for Bear River Watershed Conservation Area (WY, ID, UT)
  --$2 million for Blackwater NWR (MD)
  --$2 million for Clarks River NWR (KY)
  --$8 million for Hakalau Forest NWR (HI)
  --$8 million for the Dakota Grasslands Conservation Area (ND, SD)

    I again extend our appreciation to the subcommittee for its ongoing 
commitment to our National Wildlife Refuge System and respectfully 
request the Interior, Environment and Related Agencies Appropriations 
Subcommittee allocate $586 million for the Refuge System's fiscal year 
2018 Operations & Maintenance Budget, $50 million in the National 
Wildlife Refuge Fund and $150 million in Refuge LWCF monies. I Thank 
Congress for reauthorizing and understanding the need and the 
commitment that was made in 1964 : Keep LWCF for the People and 
Wildlife. I request $900 million in LWCF funds for fiscal year 2020.
    Thank you again, Ms. Chairman, for the opportunity to present this 
testimony in support of protecting wildlife and it's habitat. Enjoy 
your next walk out on a National Wildlife Refuge. Please visit Maine 
and the Rachel Carson National Wildlife refuge.
                                 ______
                                 
   Prepared Statement of the Friends of the San Luis Valley National 
                            Wildlife Refuges
    Thank you for the opportunity to address funding for the U.S. Fish 
and Wildlife Service and the National Wildlife Refuge System. I am 
writing on behalf of the approximately 200 members of the Friends of 
the San Luis Valley National Wildlife Refuges.
    Refuges in the San Luis Valley, Colorado have been devastated by 
budget cuts in the past 20 years since the Friends formed. Refuge 
staffing has been reduced to the point to where the remaining staff can 
barely keep up with day-to-day maintenance of the refuges. In 2003, the 
92,500 acre Baca National Wildlife Refuge was added to the San Luis 
Valley Refuge Complex without funding for additional staff. Currently, 
that refuge is staffed by one refuge manager, an biology technician, 
and one wage grade maintenance position. Each of these positions came 
from previous positions on the existing Alamosa and Monte Vista 
Refuges.
    Due to recent changes in water management in the San Luis Valley in 
which junior water users need to augment their injury to senior surface 
water users, the Monte Vista Refuge hardly has enough money to pay to 
pump water to provide habitat for migratory birds.
    The refuge biologist, Scott Miller, now spends much his time 
writing grants to try to find money to fund programs on the refuge.
    The U.S. Fish and Wildlife Service is one of the smallest of the 
Federal land management agencies, but their management is intensive and 
requires people on the ground. In the last restructuring, many refuges 
and wetland management units were simply closed and the gates locked.
    We have been told repeatedly by the regional USFWS office that the 
San Luis Valley Refuge Complex is a funding priority, but we haven't 
seen much funding. In the Comprehensive Conservation Plan, published in 
2015, Fish and Wildlife proposed building an new office complex/visitor 
contact station, but apparently funding for the project has been cut to 
the point that the building would not be large enough for the few 
remaining staff.
    From our perspective, the Refuge System is dying from 1000 cuts--
that today have reached the bone. As I compile this brief list of what 
has happened to ``our'' refuges, it saddens me to reflect on the 
decline in our local refuges and the refuge system as a whole, and the 
corresponding costs to USFWS employees, local communities, and wildlife 
across the United States.
    If we are to preserve our natural heritage, we need to fund our 
National Wildlife Refuge System.

    [This statement was submitted by Tim Armstrong, President.]
                                 ______
                                 
        Prepared Statement of the Geological Society of America
                                summary
    The Geological Society of America (GSA) urges Congress to provide 
$1.2 billion for the U.S. Geological Survey (USGS) in fiscal year 2020. 
We thank Congress for the investments made in fiscal year 2019 and 
encourage a path of sustainable growth moving forward. As one of our 
Nation's key science agencies, the USGS plays a vital role in 
understanding and documenting mineral and energy resources that 
underpin economic growth; researching and monitoring potential natural 
hazards that threaten U.S. and international security; and determining 
and assessing water quality and availability. Approximately two thirds 
of the USGS budget is allocated for research and development. In 
addition to supporting the science activities and decisions of the 
Department of the Interior, this research is used by communities across 
the Nation to make informed decisions in land-use planning, emergency 
response, natural resource management, engineering, and education. 
Despite the critical role played by the USGS, funding for the agency 
has stagnated in real dollars for more than a decade. Given the 
importance of the many activities of the Survey that protect lives and 
property, contribute to national security, and enhance the quality of 
life, GSA believes that growth in funding for the Survey is necessary 
for the future of our Nation.

    The Geological Society of America (GSA) is a global professional 
society with approximately 22,000 individuals. GSA provides access to 
elements that are essential to the professional growth of earth 
scientists at all levels of expertise and from all sectors: academic, 
government, business, and industry. The Society unites thousands of 
earth scientists from every corner of the globe in a common purpose to 
study the mysteries of our planet (and beyond) and share scientific 
findings.

    The Geological Society of America (GSA) appreciates the increase to 
the U.S. Geological Survey (USGS) budget in fiscal year 2019 and thanks 
the Committee for recognizing the importance of the work of the agency 
to protect lives, property, and national security. GSA asks Congress to 
again reject the proposed cuts in the administration's request and 
instead provide USGS $1.2 billion in fiscal year 2020. GSA urges the 
committee ensure that any changes to the organizational structure of 
USGS support rather than hinder the ability of the USGS to serve the 
Nation with its research.
u.s. geological survey contributions to national security, health, and 
                                welfare
    The USGS is one of the Nation's premier science agencies, with a 
distinctive capacity to engage truly interdisciplinary teams of experts 
to gather data, conduct research, and develop integrated decision 
support tools. Approximately two thirds of the USGS budget is allocated 
for research and development. In addition to underpinning the science 
activities and decisions of the Department of the Interior, this 
research is used by communities and businesses across the Nation to 
make informed decisions regarding land use planning, emergency 
response, natural resource management, engineering, and education.
    As noted in the Preamble to its Endorsement of American 
Meteorological Society's Freedom of Scientific Expression statement, 
GSA ``strongly believes that science and society benefit greatly from 
careful and ample technical peer review of scientific findings, and 
subsequent communication of scientific results must be permitted freely 
and without concern by the scientist for censorship, intimidation, or 
political interference.'' GSA encourages Congress to ensure that USGS 
follows these principles and others outlined in the Department of the 
Interior's Integrity of Scientific and Scholarly Activities policies.

    USGS research addresses many of society's greatest challenges for 
national security, health, and welfare. Several are highlighted below.

  --Natural hazards--including earthquakes, hurricanes, tsunamis, 
        volcanic eruptions, wildfires, and landslides--are a major 
        cause of fatalities and economic losses. Recent natural 
        disasters, including the Camp, Carr, and Woolsey fires and 
        Hurricanes Michael and Florence, provide unmistakable evidence 
        that the United States remains vulnerable to staggering losses. 
        An improved scientific understanding of geologic hazards will 
        reduce future losses by informing effective planning and 
        mitigation.
       Decision makers in many sectors rely upon USGS data to respond 
to natural disasters. For example, USGS volcano monitoring provides key 
data to enable decisions on aviation safety. Data from the USGS network 
of stream gages is used by the National Weather Service to issue flood 
and drought warnings. Earth and space observations provide data 
necessary to predict severe space weather events, which affect the 
electric power grid, satellite communications and information, and 
space-based position, navigation, and timing systems. GSA urges 
Congress to support efforts for USGS to modernize and upgrade its 
natural hazards monitoring and warning systems, including additional 3-
D elevation mapping and earthquake early warning systems. The recent 
enactment of the National Earthquake Hazards Reduction Program 
Reauthorization Act of 2018 indicates the support of Congress and the 
administration for this important research and programs that enable 
advance warning of impending hazards.
  --On December 20, 2017, President Trump signed an executive order 
        entitled A Federal Strategy to Ensure Secure and Reliable 
        Supplies of Critical Minerals, that finds,
       ``The United States is heavily reliant on imports of certain 
mineral commodities that are vital to the Nation's security and 
economic prosperity. This dependency of the United States on foreign 
sources creates a strategic vulnerability for both its economy and 
military to adverse foreign government action, natural disaster, and 
other events that can disrupt supply of these key minerals.''
       GSA supports increases in minerals science, research, 
information, data collection and analysis that will allow for more 
economic and environmental management and utilization of minerals. In 
addition, GSA supports increases in funding for research to better 
understand domestic sources of energy, including conventional and 
unconventional oil and gas and renewables. GSA appreciates 
congressional support for the Earth Mapping Resources Initiative (Earth 
MRI), formerly known as 3DEEP, which will provide new resources and 
build upon the existing and successful 3-D elevation mapping and 
National Cooperative Geological Mapping Program to accelerate 
geological and geophysical mapping, identify critical mineral sites for 
further scientific review, and provide a host of additional benefits to 
local, State, and Federal entities for safety, security, scientific, 
and industrial uses.
  --The quality and quantity of surface water and groundwater have a 
        direct impact on the wellbeing of societies and ecosystems, as 
        evidenced by flooding and drought impacts experienced across 
        the U.S. during the past year, as well as the dependence of 
        much of our society on groundwater. Greater scientific 
        understanding of these resources through monitoring and 
        research by the USGS is necessary to ensure adequate and safe 
        water resources for the health and welfare of society.
  --USGS research on climate impacts is used by local policymakers and 
        resource managers to make sound decisions based on the best 
        possible science. The Climate Adaptation Science Centers 
        (CASC), for example, provide scientific information necessary 
        to anticipate, monitor, and adapt to the effects of climate 
        change at regional and local levels, allowing communities to 
        make smart, cost-effective decisions. For example, The North 
        Central CASC supported the development of a new experimental 
        drought-monitoring and early warning guidance tool called the 
        Landscape Evaporative Response Index.
  --The Landsat satellites have amassed the largest archive of remotely 
        sensed land data in the world, a tremendously important 
        resource for natural resource exploration, land use planning, 
        and assessing water resources, the impacts of natural 
        disasters, and global agriculture production. GSA supports 
        investment in earth observations, including interagency efforts 
        to develop the next generation Landsat. Increased funding will 
        be critical to implement the recommendations of the recent 
        National Academy of Sciences' Earth Science and Applications 
        from Space (ESAS) Decadal Survey report, which states:
       ``Earth science and applications are a key part of the Nation's 
information infrastructure, warranting a U.S. program of Earth 
observations from space that is robust, resilient, and appropriately 
balanced.''

    Activities from hazard monitoring to mineral forecasts are 
supported by the Core System Sciences, Facilities, and Science Support. 
These programs and services, such as geologic mapping and data 
preservation, provide critical information, data, and infrastructure 
that underpin the research of the USGS. Funding is particularly needed 
in Facilities to address many deferred maintenance issues and GSA 
appreciates the committee's recent investments in this area.
    Knowledge of the earth sciences is essential to scientific literacy 
and to meeting the environmental and resource challenges of the 21st 
century. GSA is very concerned that cuts in Earth science funding will 
cause students and young professionals to leave the field, potentially 
leading to a lost generation of professionals in areas that are already 
facing worker shortages. Investments in these areas could lead to job 
growth, as demand for these professionals now and in the future is 
assessed to be high. Emerging Workforce Trends in the Energy and Mining 
Industries: A Call to Action, found, ``In mining (nonfuel and coal) a 
personnel crisis for professionals and workers is pending and it 
already exists for faculty.'' Another recent study by the American 
Geosciences Institute, Status of the Geoscience Workforce Report 2018, 
found an expected deficit of approximately 118,000 geoscientists by 
2026. Strong investments in geoscience research are needed to prepare 
citizens for these job opportunities.
    Thank you for the opportunity to provide testimony about the U.S. 
Geological Survey. For additional information or to learn more about 
the Geological Society of America--including GSA Position Statements on 
climate change, water resources, mineral and energy resources, natural 
hazards, and public investment in Earth science research--please visit 
www.geosociety.org or contact GSA's Director for Geoscience Policy 
Kasey White at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="84eff3ecedf0e1c4e3e1ebf7ebe7ede1f0fdaaebf6e3aa">[email&#160;protected]</a>

    [This statement was submitted by Kasey White, Director for 
Geoscience Policy.]
                                 ______
                                 
    Prepared Statement of the Great Lakes Indian Fish and Wildlife 
                          Commission (GLIFWC)
1.  DEPARTMENT OF THE INTERIOR, BUREAU OF INDIAN AFFAIRS, OPERATION OF 
        INDIAN PROGRAMS
 a.  Trust-Natural Resources Management, Rights Protection 
Implementation (RPI).--At least the $40,273,000 provided in fiscal year 
2019 and a proportionate share for Great Lakes Area Resource 
Management.
 b.  Trust-Natural Resources Management, Tribal Management/Development 
Program (TM/DP).--At least the $12,036,000 proposed by the Senate and 
House in fiscal year 2019 and the TM/DP requests of GLIFWC's member 
Tribes.
 c.  Trust-Natural Resources Management, Invasive Species.--At least 
$6,773,000, the amount proposed by the Senate and House in fiscal year 
2019.
 d.  Tribal Government, Contract Support.--Full funding, estimated to 
be at least $242,000,000 in fiscal year 2019.

    Funding Authorizations: Snyder Act, 25 U.S.C. s. 13; Indian Self-
Determination and Education Assistance Act, (Public Law 93-638), 25 
U.S.C. ss. 450f and 450h; and the treaties between the United States 
and GLIFWC's member Ojibwe Tribes.\1\
---------------------------------------------------------------------------
    \1\ Specifically, the Treaty of 1836, 7 Stat. 491, Treaty of 1837, 
7 Stat. 536, Treaty of 1842, 7 Stat. 591, and Treaty of 1854, 10 Stat. 
1109. The rights guaranteed by these treaties have been affirmed by 
various court decisions, including a 1999 U.S. Supreme Court case.

2.  ENVIRONMENTAL PROTECTION AGENCY
 a.  Environmental Programs and Management, Geographic Programs, Great 
Lakes Restoration.--The historical allocation of $300,000,000, 
including a Tribal program of no less than $15,000,000.
 b.  State and Tribal Assistance Grants, Categorical Grants, Tribal 
General Assistance Program.--At least the fiscal year 2018 and fiscal 
year 2019 amounts of $65,476,000.

    Funding Authorizations: Clean Water Act, 33 U.S.C. s. 1268(c); 
Water Infrastructure Improvements for the Nation Act, Public Law 114-
322 s. 5005; and treaties cited above.

    Funding through these programs fulfills Federal treaty, trust and 
contract obligations to GLIFWC's member Tribes, providing vital 
resources to sustain their governmental programs. We ask that Congress 
maintain these programs and provide funding at no less than the fiscal 
year 2019 levels.

GLIFWC'S Fiscal Year 2020 Funding Request Highlights

1.  GLIFWC would be pleased to accept an allocation of appropriated RPI 
funding that is in the same proportion as it currently receives.
2.  Full restoration of Great Lakes Restoration Initiative funding to 
its historical $300,000,000 level, with no less than $15,000,000 for a 
distinct Tribal program.
3.  Full funding for contract support costs, as required by the ISDEA 
Act.
4.  Sufficient funding in the Tribal Management and Development line 
item for GLIFWC's member Tribes to fulfill their needs for reservation-
based natural resource programs and to fund the Circle of Flight 
wetlands program.

GLIFWC'S Goal--A Secure Funding Base To Fulfill Treaty Purposes and 
        Legal Obligations

    For 35 years, Congress has funded GLIFWC to implement comprehensive 
conservation, natural resource protection, and law enforcement programs 
that: (1) protect public safety; (2) ensure member Tribes are able to 
implement their treaty reserved rights to hunt, fish, and gather 
throughout the ceded territories; (3) ensure a healthy and sustainable 
natural resource base to support those rights; and (4) promote healthy, 
safe communities. These programs also provide a wide range of public 
benefits, and facilitate participation in management partnerships in 
Wisconsin, Michigan, and Minnesota.

GLIFWC'S Programs--Promoting Healthy Communities and Educating Tribal 
        Members Through Treaty Rights Exercise

    Established in 1984, GLIFWC is a natural resources management 
agency of 11 member Ojibwe Tribes with resource management 
responsibilities over their ceded territory (off-reservation) hunting, 
fishing and gathering treaty rights. These ceded territories extend 
over a 60,000 square mile area in Minnesota, Wisconsin, and 
Michigan.\2\ GLIFWC employs over 80 full-time staff, including natural 
resource scientists, technicians, conservation enforcement officers, 
policy specialists, and public information specialists.
---------------------------------------------------------------------------
    \2\ GLIFWC's programs do not duplicate those of the Chippewa-Ottawa 
Resource Authority or the 1854 Treaty Authority. GLIFWC also 
coordinates with its member Tribes with respect to Tribal treaty 
fishing that extends beyond reservation boundaries by virtue of the 
Treaty of 1854 and the reservations' locations on Lake Superior.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    GLIFWC strives to implement its programs in a holistic, integrated 
manner consistent with the culture and values of its member Tribes, 
especially in light of Tribal lifeways that the exercise of treaty 
rights supports. This means not only ensuring that Tribal members can 
legally exercise their rights, but supporting community efforts to 
educate them about the benefits (physical, spiritual, and cultural) of 
harvesting and consuming a more traditional diet, as well as promoting 
inter-generational learning and the transmission of traditional 
cultural and management practices. These programs, in turn, promote 
safe and healthy communities by encouraging healthy lifestyles, 
intergenerational connections, and cultural education.
    GLIFWC and its member Tribes thank Congress, and particularly this 
subcommittee, for its continuing support of these treaty obligations 
and its recognition of the ongoing success of these programs. There are 
two main elements of this fiscal year 2020 funding request:

  --BIA Great Lakes Area Management (within the RPI line item).--A 
        proportionate share of the $40,273,000 as provided in 2019 for 
        the RPI line item. The fiscal year 2019 increase of $112,000 is 
        greatly appreciated. GLIFWC continues to support allocating 
        increases to the RPI line item in the historically 
        proportionate amounts.
    There is a long history of Federal funding for treaty rights 
protection and implementation programs. For more than 30 years, 
Congress and each administration have appropriated funding for these 
programs. GLIFWC has testified about the fact that the need is 
consistently greater than RPI funding, and the impacts that 
underfunding has on treaty rights programs. The Federal Government, as 
a treaty signatory, is required to uphold treaty rights. It has 
appropriately chosen to invest in our programs as efficient, cost-
effective service delivery mechanisms at the governmental level most 
appropriate to implement Federal court orders and to protect and 
restore the natural resources on which the treaty rights are based.
    GLIFWC's holistic approach to protecting treaty rights and the 
natural resources that support them requires that we undertake a 
variety of activities that promote Tribal lifeways and inform natural 
resource management activities. These include scientific, technical and 
policy analyses, promotion of healthy foods, and language 
revitalization. To this end, maximum flexibility should be provided to 
GLIFWC and its Tribes to define for themselves the science and research 
activities best suited to the needs of their member Tribes and the 
particular issues within their region. GLIFWC would be pleased to 
accept funds from the RPI account in the same proportion as it received 
in fiscal year 2019.

  --EPA Environmental Programs and Management: $300,000,000.--GLIFWC 
        supports continued funding for the Great Lakes Restoration 
        Initiative (GLRI) as an important non-regulatory program that 
        enhances and ensures coordinated governance in the Great Lakes, 
        fulfillment of international agreements, and substantive 
        natural resource protection and restoration projects. GLIFWC 
        supports consistent funding for the GLRI at $300 million, the 
        level that has been provided and received unwavering bipartisan 
        support since 2011.
    GLIFWC appreciates the directive in the Fiscal Year 2018 
Consolidated Appropriations Act's explanatory statement that EPA should 
work with Tribes and the BIA to develop a proposal for a distinct 
Tribal program within the GLRI. GLIFWC is working with those agencies 
to develop such a program. GLIFWC understands that in 2020, the program 
will be funded at $15 million. This will help ensure that Tribes have 
the flexibility to develop the programs that are of the highest 
priorities to their communities, fulfills the spirit of self-
determination, meets treaty obligations, and carries out Federal trust 
responsibilities.
    Sustained funding for the GLRI allows GLIFWC to maintain its 
participation in interjurisdictional governance structures, including 
the implementation of the revised Great Lakes Water Quality Agreement 
(GLWQA). With GLRI funding, GLIFWC has been able to provide active 
support on numerous implementing Annexes, including the Lakewide Action 
and Management Plan, Aquatic Invasive Species, and Chemicals of Mutual 
Concern Annexes.
    Sustained GLRI funding also allows GLIFWC to augment and leverage 
its current natural resource protection and enhancement activities. 
This includes enhancing GLIFWC's participation in interagency efforts 
to assess the impacts of mining waste (stamp sands) on an important 
whitefish and lake trout spawning reef in Lake Superior, and to explore 
remediation options and strategies.

Results and Benefits of GLIFWC'S Programs

1.  Maintain the Requisite Capability To Meet Legal Obligations, To 
Conserve Natural Resources and To Regulate Treaty Harvests.--While more 
funding would increase program comprehensiveness, sustained funding at 
the fiscal year 2019 level supports Tribal compliance with various 
court decrees and intergovernmental agreements that govern the Tribes' 
treaty-reserved hunting, fishing and gathering rights. Funding for 
science and research enhances GLIFWC's capability to undertake work and 
participate in partnerships to address ecosystem threats that harm 
treaty natural resources, including those related to climate change.
2.  Remain A Trusted Management and Law Enforcement Partner, and 
Scientific Contributor in the Great Lakes Region.--GLIFWC has become a 
respected and integral part of management and law enforcement 
partnerships that conserve natural resources and protect public safety. 
It brings a Tribal perspective to interjurisdictional Great Lakes 
management fora and would use its scientific expertise to study issues 
and geographic areas that are important to its member Tribes but that 
others may not be examining.
3.  Maintain the Overall Public Benefits That Derive From Its 
Programs.--Over the years, GLIFWC has become a recognized and valued 
partner in natural resource management. Because of its institutional 
experience and staff expertise, GLIFWC has built and maintained 
numerous partnerships that: (1) provide accurate information and data 
to counter social misconceptions about Tribal treaty harvests and the 
status of ceded territory natural resources; (2) maximize each 
partner's financial resources and avoid duplication of effort and 
costs; (3) engender cooperation rather than competition; and (4) 
undertake projects that achieve public benefits that no one partner 
could accomplish alone.
4.  Encourage and Contribute to Healthy Tribal Communities.--GLIFWC 
works with its member Tribes' communities to promote the benefits of 
treaty rights exercise. These include the health benefits associated 
with a more traditional diet and the intergenerational learning that 
takes place when elders teach youth. In addition, GLIFWC sponsors a 
camp each summer where Tribal youth build leadership skills, strengthen 
connections to the outdoors, and learn about treaty rights and careers 
in natural resource fields.

    [This statement was submitted by Michael J. Isham Jr., Executive 
Administrator.]
                                 ______
                                 
 Prepared Statement of Griffin Sanders, Student at York Community High 
                                 School
    In accordance to the prospective fiscal year budget of 2020, 
President Donald Trump's administration proposed a 31 percent budget 
cut to the Environment Protection Agency, the largest cut to a 
department in the entire budget. The passing of this budget would 
result in a 2.7 billion dollar change to the budget of the 
Environmental Protection Agency, leaving the department with only 6.1 
billion dollars to operate. While the President may want to reduce 
spending for the 2020 fiscal year, his budget includes increasing the 
funding to departments such as Defense by 33.3 billion dollars, giving 
the department a total of 718 billion dollars to operate. Due to the 
importance of the tasks of the Environmental Protection Agency in 
reducing the damages done to the Earth by humans, it is imperative that 
the Committee of Appropriations in the Senate does not pass this 
proposed cut to such a critical department.
    The Environmental Protection Agency performs a variety of tasks in 
order to ensure the public's health. The agency is responsible for 
regulating noxious gas emissions and establishing industry standards in 
order to preserve our environment. Furthermore, the department provides 
funding for research into how to further reduce the harmful particle 
and gasses that are polluted, as well as educate Americans on the 
importance of being environmentally friendly. If the Environmental 
Protection Agency is defunded, they will not be able to execute these 
tasks to their full potential. With the EPA being restricted by a lack 
of funding, they will not be able to enforce environmental standards 
and educate fellow citizens. Consequently, corporations in the 
automotive, chemical, and energy sectors will be able to evade these 
regulations, further damaging the environment, as well as the air in 
which we breathe. While many legislators may see the defense budget as 
a top priority in order to save the lives of Americans, the air 
pollution caused by industrialization is killing more Americans than 
any foreign enemy. According to many studies from a myriad of 
accredited sources such as Harvard and Medicare, a particulate matter 
concentration of 30 mg/m\3\ is enough to reduce life expectancy by as 
much as 5.4 years. Attached is a table synthesizing each study 
conducted on the relationship between elevated mortality risk and 
difference in life expectancy. Although each study has different 
estimates for mortality risk and life expectancies, each one concludes 
that air pollution causes an increase in mortality risk, while 
decreasing the expected length of life. While this concentration of 
particulate matter may be high for most parts of the United States, 
according to Arden C. Pope, a renowned expert in environmental science, 
even the concentrations in which the common American is exposed to, air 
pollution contributes to cardiovascular diseases and a diminished life 
expectancy. This lower life expectancy can be contributed to the many 
diseases brought on by air pollution. Some of these diseases include, 
but are not limited to vascular dysfunction, bronchitis, asthma, 
pulmonary oxidative stress, and even neurological diseases like 
Alzheimer's and depression. With the Environmental Protection Agency 
being restricted to operate by their budget, more Americans will be 
affected by these diseases.
    Although this budget only is for the Federal Government of the 
United States of America, the harm done to the environment by human 
presence is a global issue. According to the Intergovernmental Panel on 
Climate change, the effect of the greenhouse gasses being released 
through air pollution is catastrophic: In their report, they estimate 
that there will be an average increase of 1.5 degrees Celsius by the 
year 2050. This may not seem like a lot, but this is detrimental to the 
ecosystems across the world, as well as the everyday lives of all 
people. This change will melt the ice caps by the poles, destroying the 
environment in which many arctic animals reside, effectively driving 
them into distinction. The melting of the ice caps would also raise the 
sea level, flooding many cities on shoes with low elevation such as New 
Orleans, Miami, and New York. Additionally, there are many more less 
obvious effects of these greenhouse gasses emitted, such as an increase 
in food scarcity, poverty, natural disasters, and a change of climate 
in cities across the world. As appropriately worked by Vox, ``several 
Northern cities will look and feel a lot like how Southern cities do 
today. In some cities, it'll be like moving two States south''. 
Fortunately, it is not too late to change this fate. These disastrous 
changes will only occur if humanity continues to burn fossil fuels as 
the same rate at which it does today. Many nations have already taken 
action to save the planet by committing to the Paris Agreement, vowing 
to reduce the damages done to the environment before it is too late: 
The United States is not one of them. Defunding the Environmental 
Protection Agency would only be a step backwards in working to reduce 
emissions. Without adequate funding, the agency will become less 
effective in combating climate change, and the rate in which these 
ruinous changes occur will only increase.
    With the dangers of air pollution being so eminent and cataclysmic, 
it is vital that the budget for the Environmental Protection Agency is 
not reduced. The agency has proven itself to be effective in their 
roles in regulated emissions and educating the public about the dangers 
of pollution. If funded properly, the EPA will continue to work 
constructively and help to reduce harmful gas emissions, improving the 
air quality for Americans and giving them a better quality of life. 
Without the Environmental Protection Agency operating at its full 
capacity, Americans will expect an onslaught of many diseases and a 
shorter life. As a legislator of one of the most powerful nations in 
the world, you are in control of whether we as Americans act to save 
our dying planet. This decision on the budget of the EPA not only 
affects this generation, but future generations, by not cutting funding 
to the Environmental Protection Agency, we will help to ensure that our 
children, and our children's children will be able to live their best 
possible lives on the planet that we all share.

Thank you,

Griffin Sanders
Student at York Community High School
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4621342f20202f2835272822233435777506212b272f2a6825292b">[email&#160;protected]</a>


----------------------------------------------------------------------------------------------------------------
                                                                                                   Difference in
                                                                                     Elevated          Life
                     Study                           Difference in Exposure       Mortality Risk    Expectancy
                                                                                        (%)         (estimates)
----------------------------------------------------------------------------------------------------------------
Harvard Six Cities Cohort study...............  30 mg/m\3\ PM2.5................              56             5.4
ACS CPS-II Cohort study.......................  30 mg/m\3\ PM2.5................              20             2.2
Medicare Cohort study.........................  30 mg/m\3\ PM2.5................              12             1.3
Canadian Cohort study.........................  30 mg/m\3\ PM2.5................              33             3.4
Meta Estimate of Cohort Studies...............  30 mg/m\3\ PM2.5................              20             2.2
First Difference analysis of United States      30 mg/m\3\ PM2.5................  ..............             1.8
 country-level changes in life expectancy
 (1980-2000).
First Difference analysis of United States      30 mg/m\3\ PM2.5................  ..............             1.1
 country-level changes in life expectancy
 (2000-2007).
China Quasi Experimental, regression            30 mg/m\3\ PM2.5................              14             3.0
 discontinuity study North vs South of Huai
 River.
Active Smoking................................  Active smoker vs never smoker...             100             7.8
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
   Prepared Statement of Heidi K. Williams, Mayor, City of Thornton, 
                                Colorado
Dear Chairwoman Murkowski and Ranking Member Udall:

    As members of the WaterNow Alliance, we write to respectfully 
request your support to fund the Environmental Protection 
Administration's WaterSense Program at the fiscal year 2019 level of 
$3.1 million or higher. WaterSense shares resources and encourages the 
adoption of water efficient practices and products that use less water 
across the Nation. The proposed fiscal year 2020 budget calls for the 
elimination of this small but important program. We urge you to reject 
this proposal and fund the WaterSense Program at least at its current 
level. While miniscule in terms of the overall Federal budget, 
WaterSense has an outsize beneficial impact on local communities like 
Thornton.
    Since 2006, WaterSense partnerships have saved more than 3 trillion 
gallons of water. Additionally, WaterSense labeled products have saved 
over 400 billion kilowatt-hours of electricity and approximately $65 
billion in water and energy bills for Americans in every State.
    Using water efficiently makes sense for consumers, communities, and 
the environment as populations are faced with supply issues, aging 
infrastructure, extreme weather, and growth. It is critical to fund the 
WaterSense Program at the very minimum of the fiscal year 2019 funding 
level of $3.1 million or higher in the fiscal year 2020 budget to 
support utilities and consumers in the efforts to conserve this vital 
resource. Public and private partners, municipalities, and utilities 
across the Nation rely on WaterSense labeled products for conservation 
and efficiency programs.
    For all of these reasons, we believe that the WaterSense Program is 
deserving of your support to fund at $3.1 million or higher. Thank you 
for your consideration.

Sincerely,
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Heidi K. Williams
Mayor--City of Thornton
                                 ______
                                 
 Prepared Statement of the Humane Society of the United States, Humane 
         Society Legislative Fund, and Doris Day Animal League
    Thank you for this opportunity to offer testimony on matters of 
importance to our organizations. We urge the subcommittee to address 
the following requests in the fiscal year 2020 Department of Interior, 
Environment, and Related Agencies budget:

  --EPA New Approach Methodologies development and implementation: 
        strong funding
  --BLM, Wild Horse and Burro Program: (1) $135,000,000, contingent on 
        immediate implementation of a management program based on four 
        prongs detailed below; (2) fiscal year 2019 enacted language to 
        protect wild horses and burros from slaughter
  --USFS, Wild Horse and Burro Program: fiscal year 2019 enacted 
        language to protect USFS wild horses and burros from slaughter
  --FWS, Multinational Species Conservation Fund: $15,000,000, with no 
        funds from conservation programs to promote trophy hunting, 
        trade in animal parts, or other consumptive uses of wildlife
  --FWS, Office of International Affairs: $18,000,000
  --FWS, Office of Law Enforcement: $85,000,000

    We also request that the budget exclude any language that would in 
any way impede efforts to combat wildlife trafficking, relax 
regulations on imports of sport-hunted trophies, or undermine the 
Endangered Species Act. In addition, we request a block on funds for 
the International Wildlife Conservation Council. Further, we request 
that any ESA-related funds be directed toward the following FWS 
programs: Listing; Recovery; Planning and Consultation; Conservation 
and Restoration; and the Cooperative Endangered Species Conservation 
Fund.
environmental protection agency--new approach methodologies development 
                           and implementation
    Thousands of chemicals are currently used, and hundreds of new ones 
are introduced each year, for which EPA needs to conduct toxicity 
assessments. The EPA is also tasked with evaluating and registering 
pesticides as well as evaluating chemicals for possible endocrine 
activity. In addition, since 2016, there is new mandate to develop and 
implement non-vertebrate test methods for chemical safety evaluation 
under the Toxic Substances Control Act (TSCA). To address these needs, 
EPA must shift significant focus to New Approach Methodologies (NAM)--
defined by the National Institute of Environmental Health Sciences as 
``non-animal technology, methodology, approach, or combination thereof 
that can be used to provide information on chemical hazard and risk 
assessment'' and by EPA as equivalent to the non-vertebrate test 
methods defined in in the revised TSCA.
    The EPA's National Center for Computational Toxicology (NCCT), in 
collaboration with the National Institute of Environmental Health 
Sciences, the National Center for Advancing Translational Sciences, and 
the Food and Drug Administration, has developed an extensive database 
of chemical safety information, is screening thousands of chemicals 
using hundreds of high-throughput non-animal methods, and is developing 
improved models for estimating exposure. Although these newly 
developing NAMs are beginning to reduce animal use while improving the 
speed and accuracy of chemical evaluation relevant to several programs, 
further development and implementation is necessary to effectively 
carry out EPAs mandates.
    We support strong funding of NCCT and other programs within EPA's 
Office of Research and Development that focus on development and 
implementation of NAMs in order for EPA to fulfill its mandates and 
assure a more efficient and relevant chemicals safety assessment 
process.
        bureau of land management--wild horse and burro program
    The HSUS is one of the leading advocates for the protection and 
welfare of wild horses and burros in the United States, with a long 
history of working collaboratively with BLM--the agency mandated to 
protect America's wild horses and burros--on the development of 
effective and humane management techniques.
    For years, the HSUS has strongly cautioned against continuing to 
gather large numbers of wild horses and burros from our rangelands 
annually without implementing any program for suppressing population 
growth. This approach has led BLM into a continuous cycle of roundups 
and removals, even as long-term, cost-efficient, and humane management 
strategies, such as fertility control, are readily available.
    Because of this strategy, BLM has long removed many more wild 
horses and burros from the range than it could expect to adopt, while 
simultaneously being unable to stabilize on-range populations. 
Consequently, the cost of the wild horse and burro program has 
continued to grow, without any benefit to wild horses, to the 
government, or to our public rangelands.
    To move the agency away from this failed paradigm, appropriations 
language in the past few years has requested that BLM create a long-
term, humane, and financially sustainable management path that 
incorporates large-scale use of fertility control tools. This approach 
is supported by the National Academy of Sciences report, which called 
for increased use of on-the-range management tools, including the 
fertility control vaccine Porcine Zona Pellucida (PZP). Further, 
studies have shown that incorporating fertility control into the 
management of wild horses and burros would significantly lower the 
program's carrying costs. A 2008 paper determined that on-the-range 
contraception could reduce total wild horse and burro management costs 
by 14 percent, saving $6.1 million per year. In addition, the results 
of a paper describing an economic model commissioned by the HSUS 
indicates that treating wild horses on one hypothetical Herd Management 
Area (HMA) with PZP could save BLM approximately $5 million dollars 
over 12 years, while achieving and maintaining Appropriate Management 
Levels of 874 horses. Since BLM estimates that almost 82,000 wild 
horses roam in the United States, PZP use could save tens of millions 
of dollars if applied broadly across all HMAs.
    However, instead of pursuing Congressional recommendations to 
increase the use of fertility control tools, BLM has consistently 
failed to implement any humane management plan. In fact, in 2018 the 
agency treated only 702 horses with fertility control out of an 
estimated rangeland population of approximately 82,000--less than 1 
percent of the population.
    The program must be altered to ensure that wild horses and burros 
are managed humanely--and that populations begin to gradually decline. 
As such, we recommend a sustainable management program which should 
include four prongs:

    1.  Conduct targeted gathers and removals at densely populated HMAs 
to reduce herd size in the short term.
    2.  Treat gathered horses with fertility control prior to returning 
to the range. This program should continue until 90 percent of the 
mares on the range have been treated and continued consistent fertility 
control is implemented.
    3.  Relocate horses in holding facilities, and those taken off the 
range to large cost-effective pasture facilities funded through public-
private partnerships.
    4.  Promote adoptions in order to reduce captive populations and 
costs.

    We ask that you fund the BLM Wild Horse and Burro Program at 
$135,000,000, contingent on the agency's immediate implementation of a 
management program based on the four points listed above.
    We request the same language barring BLM wild horses and burros 
from being sent to slaughter that figured in the fiscal year 2019 
Appropriations bill: ``Appropriations herein made shall not be 
available for the destruction of healthy, unadopted, wild horses and 
burros that results in their destruction for processing into commercial 
products,'' (Division E, p. 7, lines 5-10).
    We also request the same protections for wild horses and burros 
transferred to other agencies that were included in the fiscal year 
2019 Appropriations bill, ensuring that transferred wild horses and 
burros shall not be: destroyed in a way that results in their 
destruction into commercial products; sold or otherwise transferred in 
a way that results in their destruction for processing into commercial 
products; or euthanized except upon the recommendation of a licensed 
veterinarian, in cases of severe injury, illness, or advanced age 
(Division G, p. 61-62, lines 20-15).
              forest service--wild horse and burro program
    We request inclusion of language barring USFS wild horses and 
burros from being sent to slaughter that mirrors the language that 
appeared for the BLM in the fiscal year 2019 Appropriations bill: 
``Appropriations herein made shall not be available for the destruction 
of healthy, unadopted, wild horses and burros that results in their 
destruction for processing into commercial products.''
   fish and wildlife service--multinational species conservation fund
    We urge the subcommittee to appropriate $15 million for the MSCF, 
which supports critical conservation programs for some of our world's 
most iconic species: African and Asian elephants, rhinos, tigers, great 
apes, and sea turtles.
    The HSUS joins a broad coalition of organizations in support of 
MSCF, while asking that proceeds of MSCF semi-postal stamps remain 
supplementary to annual appropriations.
    While we wholeheartedly support continued funding for MSCF, we are 
concerned about past incidents and oppose any future use of funds from 
these conservation programs to promote trophy hunting, trade in animal 
parts, and other consumptive uses--including live capture for trade, 
captive breeding, entertainment, or for the public display industry--
under the guise of conservation. The use of MSCF grants must be 
consistent with the spirit of its authorizing law.
       fish and wildlife service--office of international affairs
    We request that you appropriate $18 million for OIA, whose programs 
provide critical resources to help stakeholders on the ground fight 
wildlife trafficking and poaching. In particular, funds will be used 
for comprehensive and holistic solutions in other countries to mitigate 
the threats of wildlife poaching and trafficking--including community 
engagement, law enforcement, reducing consumer demand for trafficked 
wildlife, and international collaboration.
    In the past year, the American public has reacted with dismay and 
disapproval to the administration's actions to allow increased imports 
of sport-hunted trophies into the United States. We ask that the 
subcommittee exclude any language from the Appropriations bill that 
would relax regulations on imports of such trophies. We also request 
the subcommittee to urge the Fish and Wildlife Service to refrain from 
relaxing regulations on imports of such trophies.
          fish and wildlife service--office of law enforcement
    We urge the subcommittee to fund OLE at $85 million. The United 
States is among the world's largest consumers of illegal wildlife, 
underscoring the importance of OLE's work fighting transnational and 
domestic wildlife crime.
    Accomplishments from the past year illustrate how OLE has 
capitalized on past investments to make progress toward these goals. 
The OLE has ongoing operations to combat the illegal trade of elephant 
ivory, glass eels, and other wildlife products. Operation Crash, aimed 
at rhino horn trafficking, secured the September 2017 conviction of a 
California man for selling rhino horn. In January 2018, another 
investigation yielded the conviction of two Florida men for stealing 
more than 650 sea turtle eggs from their nests.
    We also ask that the bill exclude language to weaken the 
enforcement or implementation of the June 6, 2016 rule combating ivory 
trade in the United States (81 Fed. Reg. 36387).
 fish and wildlife service--international wildlife conservation council
    We urge the subcommittee to block all funding for the International 
Wildlife Conservation Council (IWCC). The IWCC was established under 
the Federal Advisory Committee Act (5 U.S.C. App. 2) but violates its 
criteria in several ways. The council is not essential, as it is 
duplicative of past and present councils. It is not balanced or 
protected from undue influence of special interests, as almost all of 
its nongovernmental members come from the world of hunting and have 
personal, financial, or other vested interests in loosening 
restrictions on hunting wildlife internationally. Further, the IWCC is 
not in the public interest. As such, the IWCC is not a responsible use 
of American taxpayers' money.
                         endangered species act
    The Endangered Species Act (ESA) is fundamental to the protection 
of our planet's most imperiled animals. This law, which is supported by 
90 percent of American voters, has prevented the extinction of 99 
percent of the species under its care, including the bald eagle. Under 
the ESA, the responsibility to list and delist species lies with 
Federal agencies, which must make these listing decisions based on the 
best available science. The authority to make these science-based 
management decisions should remain with Federal agencies.
    We ask that any funding related to the implementation of the ESA be 
directed toward the following programs: Listing; Recovery; Planning and 
Consultation; Conservation and Restoration; and the Cooperative 
Endangered Species Conservation Fund.
    We also ask that the fiscal year 2020 budget exclude any language 
preventing agencies from making listing or delisting decisions based on 
sound science, or that otherwise undermine the ESA.
                                 ______
                                 
    Prepared Statement of the International Fund for Animal Welfare
    On behalf of the International Fund for Animal Welfare (IFAW) and 
our members and supporters nationwide, thank you for the opportunity to 
offer testimony on the fiscal year 2020 Interior, Environment and 
Related Agencies Appropriations Act. The International Fund for Animal 
IFAW has 17 offices globally and works in more than 40 countries around 
the world. IFAW takes a holistic approach to innovating solutions for 
tough conservation challenges like conflicts between humans and 
wildlife, and illegal wildlife trafficking. Recognizing the unbreakable 
link between animals and human wellbeing, we support and empower 
communities to coexist with and value native wildlife and help those 
communities develop tools to protect their wild heritage. IFAW 
appreciates this subcommittee's support in the current fiscal year 2019 
in providing funding for many important conservation programs, and 
requests your continued support for these programs in fiscal year 2020, 
including full funding for the Endangered Species Act, the 
Multinational Species Conservation Funds ($18 million), the 
International Affairs program within the U.S. Fish and Wildlife Service 
($18 million), and the U.S. Fish and Wildlife Service Office of Law 
Enforcement ($81 million). With respect to the Endangered Species Act 
(ESA), IFAW requests (1) the subcommittee commission a report on proper 
funding levels necessary to fully implement the Act; (2) until a report 
has been finalized, raise ESA funding in line with any increases to 
defense spending; and (3) deny support for any projects that seek to 
circumvent the ESA or National Environmental Policy Act (NEPA). 
Finally, we urge the subcommittee to prioritize infrastructure projects 
that are sustainable and resilient.
    Healthy, biodiverse ecosystems are fundamentally necessary to human 
health and wellbeing; they provide a bulwark against catastrophic 
events, increase or resilience, and serve as an insurance policy 
against future loss. Unfortunately, wildlife and wild lands are in 
peril around the world. Trafficking in wildlife and wildlife parts 
remains the fourth most lucrative criminal enterprise worldwide. Here 
at home, years of scarce funding have left an overwhelming backlog of 
species awaiting evaluation for protections under the Endangered 
Species Act (ESA). And just this month, the Intergovernmental Science-
Policy Platform on Biodiversity and Ecosystem Services (IPBES) released 
a summary of its landmark Global Assessment Report on Biodiversity and 
Ecosystem Services. The comprehensive report, authored by more than 145 
experts from 50 countries over 3 years, warns that ``1 million animal 
and plant species are now threatened with extinction, many within 
decades, more than ever before in human history''.\i\ This 
unprecedented threat to biodiversity makes all of us more vulnerable, 
and imperils the very fabric of this planet we call home.
---------------------------------------------------------------------------
    \i\ https://www.un.org/sustainabledevelopment/blog/2019/05/nature-
decline-unprecedented-report/
---------------------------------------------------------------------------
    However, at IFAW we see reasons for hope. If we invest wisely now, 
we can begin to stem the tide of extinction. And by doing so, we will 
help to ensure plentiful food, clean drinking water, and breathable air 
for ourselves and future generations. Moreover, we will save financial 
resources overall: it is always more expensive to treat disease 
outbreaks than it is to prevent them, or to restore a damaged landscape 
than to preserve an undamaged ecosystem. The good news is that many of 
the programs that are best able to address today's grim challenges fall 
within the jurisdiction of this subcommittee.
    No NEPA or ESA Waivers: Broadly, IFAW urges this subcommittee to 
consider the health of wildlife and the environment in all of its 
actions. At a minimum, no federally-supported construction project, 
including disaster remediation projects, should be exempted from such 
fundamental laws as the ESA and NEPA. NEPA and ESA analyses protect 
against substantial social, environmental, and economic harm. These 
reviews allow construction projects to move forward while ensuring full 
disclosure of potentially harmful outcomes, informed decisionmaking, 
effective design, and risk mitigation. There has been a distressing 
trend to exempt projects from NEPA, ESA, or other environmental reviews 
and we urge the subcommittee to reverse this trend by denying funding 
for any plan that does not include a commitment to bedrock conservation 
and environmental reviews.
    Infrastructure: As Congress moves to address our aging 
infrastructure, we have an unparalleled opportunity to invest in 
environmental safeguards and conservation innovations that will ensure 
American wellbeing and security, and create jobs and prosperity for the 
citizens of today and for many future generations. IFAW urges this 
subcommittee to review any infrastructure plans within your 
jurisdiction through the lens of wildlife conservation and 
environmental sustainability. We advocate prioritizing funding for 
projects that: rely on sustainable or natural materials to increase 
infrastructure resiliency and longevity; reintroduce or preserve native 
flora; create resilient and sustainable water and waste management 
systems, particularly through implementing natural alternatives like 
wetlands, dune restoration, and natural vegetation buffers; and reduce 
wildlife conflict using wildlife corridors and crossings.
    Additionally, natural areas on public lands provide numerous 
valuable ecosystem services to the American people including clean 
water and water purification, filtration and storage; flood control; 
soil stabilization; climate regulation; wildlife habitat and corridors; 
and recreation opportunities. Unfortunately, some existing 
infrastructure may threaten ecosystem services, especially if in a 
degraded condition. For example, national forests contain more than 
380,000 miles of roads \ii\ (more than 7 times as many miles as the 
interstate highway system \iii\), some 7000 bridges \iv\ and over 1,700 
dams. Efforts must be made to repair or in some cases remove 
infrastructure that poses a threat to ecosystem and public interest 
values. As with all infrastructure projects, we urge the subcommittee 
to give preference to projects that use sustainable and natural 
materials that provide better resilience to changing conditions.
---------------------------------------------------------------------------
    \ii\ According to USDA that is an estimated 380,000 miles of Forest 
Service roads not including public roads such a State, county and 
private roads maintained by others on National Forest System. https://
www.fs.fed.us/eng/road_mgt/factsheet.shtml last observed 1/24/19
    \iii\ According to the Federal Highway Administration: Currently, 
the Interstate System is 46,876 miles long https://www.fhwa.dot.gov/
interstate/faq.cfm#question3
    \iv\ https://www.fs.fed.us/eng/road_mgt/factsheet.shtml
---------------------------------------------------------------------------
            u.s. fish and wildlife service priority programs
    Endangered Species Act: In spite of years of relatively flat 
funding, our Nations' most important conservation law, the Endangered 
Species Act, remains effective and has been successful in protecting 99 
percent of listed species. More than 2,300 plant and animal species are 
currently listed. Saving species from extinction is more than just 
about preserving iconic wildlife for generations to come. We are also 
protecting integral parts of the ecosystem that provides the air we 
breathe, the water we drink, the parks we enjoy, and the medicine we 
need. The Endangered Species Act protects wildlife within the United 
States, and species around the globe by requiring agencies to ensure 
that federally supported international activities protect species 
survival and preserve important habitat and by generally prohibiting 
the import of listed species.
    The ESA has faced frequent attacks in recent years, through 
spending riders, authorizing legislation, and administrative action. 
IFAW thanks this subcommittee for its efforts to fend off 
appropriations riders in past bills, and asks that any riders aimed at 
undermining the ESA be excluded from the fiscal year 2020 Act.
    Additionally, while species face ever-mounting pressures from 
climate change, habitat loss, and other factors, funding for the ESA 
has not kept pace with the need. There is a backlog of species awaiting 
consideration for protections under the Act. IFAW urges the 
subcommittee to direct the Congressional Research Service (CRS) to 
provide on funding levels necessary for FWS to fully implement the ESA. 
In the meantime, we ask the subcommittee to increase funding for ESA 
programs at a rate commensurate with increases to defense spending in 
order to better reflect the increasing need of imperiled species.
    FWS International Affairs: The FWS International Affairs (IA) 
program is tasked with coordinating domestic and international efforts 
to protect and restore wildlife and ecosystems. By overseeing domestic 
conservation laws and international conservation treaties, including 
the Convention in International Trade in Endangered Species (CITES), 
the IA program has become a keystone of U.S. leadership on the 
international stage. Importantly, the IA program supports transboundary 
regional projects as well as those that focus on target species, 
promoting habitat conservation and restoration in areas where wildlife 
is most at risk from habitat loss. IFAW requests $18 million for this 
important program.
    Multinational Species Conservation Fund (MSCF): IFAW is part of a 
diverse coalition of groups, including animal welfare, environmental, 
sporting, and industry organizations, that support the MSCF. These 
funds protect tigers, rhinos, African and Asian elephants, great apes, 
and marine turtles, all of which are in constant danger from illegal 
poaching and wildlife trafficking, habitat destruction, climate change, 
and other pressures. Wild members of these species may live outside our 
borders, but these iconic animals remain important to the American 
people. None of us wants this to be the generation to preside over the 
extinction of elephants or tigers in the wild. MSCF programs have 
helped to sustain wildlife populations by funding groundbreaking 
projects that combat poaching, reduce human-wildlife conflict and 
protect the vital habitat of priority species. By promoting community 
engagement and combatting trafficking, the MSCF programs also promote 
the rule of law abroad and contribute to our domestic security. These 
programs are highly efficient, with low administrative costs ensuring 
that more than 95 percent of appropriated funds were distributed 
through grants in fiscal year 2017. The MSCF received a small increase 
in fiscal year 2019, but with pressures on these species mounting, IFAW 
requests that $18 million be appropriated for the MSCF for fiscal year 
2020.
    Office of Law Enforcement: The U.S. remains one of the world's 
largest illegal markets for wildlife and wildlife products. Our 
leadership within the global community is also a key driver in 
convincing nations around the globe to invest in protecting endangered 
wildlife. The Office of Law Enforcement (OLE) within the FWS is on the 
front lines of wildlife crime, inspecting wildlife shipments, 
conducting investigations, and enforcing Federal wildlife laws to 
protect fish, wildlife, plants, and ecosystems. The OLE combats 
poaching and wildlife trafficking, breaking up international criminal 
rings that not only harm wildlife, but may also engage in other illicit 
activities. Among other things, the small but mighty force at OLE sends 
experienced FWS attaches to strategic regions where they combat 
wildlife trafficking by supporting and advising foreign partners. This 
program is critical both to domestic and international conservation 
efforts and to U.S.security. IFAW requests $81 million for OLE.
    In closing, thank you for the opportunity to share IFAW's priority 
requests to promote conservation in the fiscal year 2020 Interior, the 
Environment and Related Agencies Appropriations Act. Wildlife and their 
habitats are more than our national heritage, they are essential to 
human health and happiness. We appreciate the continued support of this 
subcommittee for conservation efforts globally and within the United 
States. With your support, we look forward to a bright and healthy 
future for generations of wildlife lovers and all Americans. Thank you.
                                 ______
                                 
     Prepared Statement of the Interstate Mining Compact Commission
    My name is Thomas L. Clarke and I serve as Executive Director of 
the Interstate Mining Compact Commission. My address is 459 Carlisle 
Drive, Herndon, VA 20190. My email is <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7307101f12011816331a1e10105d1a00125d06005d">[email&#160;protected]</a> I appreciate 
the opportunity to present this statement to the subcommittee regarding 
the views of the Interstate Mining Compact Commission's 26 member 
States on the fiscal year 2020 Budget Request for the Office of Surface 
Mining Reclamation and Enforcement (OSMRE) within the U.S. Department 
of the Interior. In its proposed budget, OSMRE is requesting $43.9 
million to fund Title V grants to States for the implementation of 
their regulatory programs, a reduction of $24.7 million below the 
fiscal year 2019 enacted level. We believe this is inadequate and urge 
that funding be continued at the fiscal year 2019 enacted level of 
$68.59 million.
    The Compact is comprised of 26 States that together produce some 95 
percent of the Nation's coal, as well as other important minerals. The 
Compact's purposes are to advance the protection and restoration of 
land, water and other resources affected by mining through the 
encouragement of programs in each of the party States that will achieve 
comparable results in protecting, conserving and improving the 
usefulness of natural resources and to assist in achieving and 
maintaining an efficient, productive and economically viable mining 
industry.
    OSMRE has projected an amount of $43.9 million for Title V grants 
to States in fiscal year 2020, an amount which is matched by the 
States. These grants support the implementation of State regulatory 
programs under the Surface Mining Control and Reclamation Act (SMCRA) 
and as such are essential to the full and effective operation of those 
programs.\1\ Pursuant to these primacy programs, the States have the 
most direct and critical responsibilities for conducting regulatory 
operations to minimize the impact of coal extraction operations on 
people and the environment. The States accomplish this through a 
combination of permitting, inspection and enforcement duties, 
designating lands as unsuitable for mining operations, and ensuring 
that timely reclamation occurs after mining.
---------------------------------------------------------------------------
    \1\ OSMRE recognizes the significant role played by the states in 
its budget justification document on page 44 where it notes that 
``primacy states have the most direct and critical responsibilities for 
conducting regulatory operations to minimize the impact of coal 
extraction operations on people and the environment. The states have 
the capabilities and knowledge to regulate the lands within their 
borders.''
---------------------------------------------------------------------------
    In fiscal year 2019, Congress approved $68.590 million for State 
and Tribal Title V grants pursuant to the Omnibus Appropriations Bill. 
This continued a much-needed trend whereby the amount appropriated for 
these regulatory grants aligned with the demonstrated needs of the 
States. The States are greatly encouraged by the amount approved by 
Congress for Title V grant funding over the past several fiscal years. 
These grants had been stagnant for many years and the gap between the 
States' requests and what they received was widening. This debilitating 
trend was compounding the problems caused by inflation and other costs 
beyond the control of the States, thus undermining State efforts to 
realize needed program improvements and enhancements and jeopardizing 
their efforts to minimize the potential adverse impacts of coal 
extraction operations on people and the environment. OSMRE acknowledges 
the importance of this funding on page 43 of its budget justification 
document where the agency explains that ``primacy States will continue 
to need a diverse and multidisciplinary cadre of personnel skilled in 
scientific and engineering areas to review mine permits, determine 
whether performance bond coverage and amounts are sufficient to ensure 
reclamation, conduct mine site inspections and implement enforcement 
actions when necessary.''
    In past budget requests, OSMRE displayed a pattern of proposing 
inadequate funding for State Title V regulatory programs. Congress 
consistently rejected the proposed reductions and funded the programs 
at amounts that more closely aligned with the States' projected needs. 
OSMRE's fiscal year 2020 budget proposal once again moves the grants 
marker in the wrong direction by continuing to propose increasing cuts 
in regulatory grants, year after year, that are rejected by Congress 
year after year. The proposed cut for fiscal year 2020 is $8.6 million 
more than the cut OSMRE proposed for fiscal year 2019, (which was 
double the cut it had proposed in fiscal year 2018). OSMRE States that 
``this request fully funds the projected 2020 activity requirements, 
based on a downward trend in State grant execution and an historical 
return of unexecuted appropriated funds at the end of the grant cycle 
each year.''
    What OSMRE fails to note in its analysis is that, given fiscal 
constraints on State budgets, some States have only recently been able 
to move beyond hiring and salary freezes and restrictions on equipment 
and vehicle purchases, all of which have inhibited the ability of some 
States to spend the full amount of their Federal grant money in some 
years. With many States now recovering enough to utilize their full 
grant amount, it is imperative that funding be maintained at a level 
that meets the States' estimates of program needs. Those estimates 
reflect the ongoing work associated with State program implementation 
including permit reviews, inspections and enforcement at all 
inspectable units. Even with the downturn in coal production, the 
States' workload has not decreased--and in some cases has increased 
given the tenuous condition of some coal companies. In the latter 
situation, higher levels of vigilance are necessary to insure 
contemporaneous reclamation and abatement of violations.
    OSMRE goes on to note that it will ``continue to support State 
regulatory grant requests by re-distributing the available prior year 
funds as needed.'' We believe this plan to be shortsighted in that it 
fails to consider the improving fiscal conditions in many States and 
the damaging precedent set by appropriating suboptimal grant amounts. 
Our analysis of State program funding needs for fiscal year 2020 based 
on recent estimates indicate that a full Federal appropriation of $68.6 
million will be required. In some States, additional matching Federal 
funds may be necessary to meet program needs. It should be noted that 
in the future, the States' needs may increase. By fiscal year 2021, we 
can expect that Tennessee will have attained primacy and add another 
million dollars or so to the States' grant needs.
    Furthermore, there is no guarantee that these carryover funds will 
be available into the future or that they would not be reprogrammed for 
other purposes. Congress should specifically mandate through report 
language that all carryover funds from past fiscal years can only be 
used to fund State regulatory program needs. It would also be 
beneficial to State program implementation if OSMRE was authorized to 
utilize these carryover funds for State program enhancement activities 
(without matching requirements) for such critical program topics as 
electronic permitting, mine mapping, and benchmarking workshops.
    We acknowledge that the amount of carryover funding specifically 
targeted for State regulatory grants has increased over the years, to 
approximately $28 million according to OSMRE's estimates. This is the 
result of two factors: (1) the fact that appropriations for State 
regulatory grants are treated as 2-year money, thereby providing 
flexibility for the use of these moneys and (2) a few tough years where 
States faced particular challenges in obtaining State share match 
moneys and/or expending grant funding before the end of the Federal 
fiscal year. With an improving economy and the ability to better manage 
State program expenditures, States are expending almost all of what 
they receive. Furthermore, having a cushion of available carryover 
funding from year to year provides the certainty and confidence that 
both OSMRE and the States require in managing funding for these 
critical programs.
    Clear indications from Congress that reliable, consistent funding 
will continue into the future has done much to stimulate support for 
these programs by State legislatures and budget officers who, in the 
face of difficult fiscal climates and constraints, have had to deal 
with the challenge of matching Federal grant dollars with State funds. 
This is particularly true for those States whose match is partially 
based on permit fees from the mining industry, where significant 
reductions in permitting activity translate to fewer permit fees (but 
not in the amount of regulatory work for State regulatory agencies). 
Recall that any cut in Federal funding generally translates to an 
additional cut of an equal amount for overall program funding for many 
States, especially those without Federal lands, since these States can 
generally only match what they receive in Federal money.
    We are encouraged with language in OSMRE's budget justification 
document that ``in furtherance of cooperative Federalism, OSMRE will 
continue its oversight steering committee with State Regulatory 
Authorities to discuss impediments to meaningful and effective 
oversight including revising current OSMRE oversight directions 
[sic].'' IMCC approached OSMRE in September of 2017 to pursue these and 
other programmatic concerns, including the processing of State program 
amendments, NEPA requirements and funding protocols. Since that time, 
the States have engaged in a series of meetings with OSMRE to advance 
our common goals under SMCRA. However, the proof is in actual 
implementation of these laudable goals. Based on our experience with 
program operations, some of the very areas OSMRE identifies as reasons 
for its oversight activity are either dependent on State involvement 
(training) or have seen little in the way of progress over the years 
(State program amendment review and approval). We are hopeful that our 
recent engagement with OSMRE on these critical program elements will 
come to fruition, unlike past efforts which either stalled or lacked 
leadership support.
    The overall performance of the States as detailed in OSMRE's annual 
State program evaluation reports, together with the fact that 
nationwide, 90 percent of the sites inspected did not have off-site 
impacts, demonstrates that the States are implementing their programs 
effectively and in accordance with the purposes and objectives of 
SMCRA. In our view, this suggests that OSMRE is adequately 
accomplishing its statutory oversight obligations with current Federal 
program funding and that any increased workloads are likely to fall 
upon the States, which have primary responsibility for implementing 
appropriate adjustments to their programs identified during Federal 
oversight. To the extent that OSMRE is looking for ways to improve and 
enhance the overall implementation of SMCRA at both the State and 
Federal level, we urge the agency to move forward with the findings and 
recommendations that IMCC has presented to OSMRE to address the 
continuing fiscal impacts on program implementation, particularly with 
respect to duplicative inspection and enforcement requirements.
    For all the above reasons, we urge Congress to approve not less 
than $68.6 million for State and Tribal Title V regulatory grants in 
fiscal year 2020, the same amount enacted by Congress over the past few 
fiscal years. In doing so, Congress will continue its commitment to 
ensuring the States have the resources they need to continue their work 
on the forefront of environmental protection and preservation of public 
health and safety.
    We are concerned about the proposal to increased funding for the 
``Enhanced Geomine Project'' by $500,000. The Geomine Project was a 
pilot program covering three of IMCC's member States in the Appalachian 
region. We understand OSMRE abandoned more this pilot program than 5 
years ago. Without more information regarding the intended use of these 
funds, we question whether expenditure of this money on an abandoned 
project is appropriate.
    We are pleased to see that OSMRE's proposed budget generally 
maintains the level of expenditures for the National Technical Training 
Program (NTTP) and the Technical Information and Professional Service 
(TIPS), with a slight increase in funding for Title Regulatory 
Programs. The States rely heavily on the NTTP and TIPS training classes 
for their new employees and for refresher courses for more seasoned 
employees. These training programs are especially important as States 
find themselves at a point where many of their employees are finishing 
careers and must be replaced with less experienced people. Any 
adjustments to these two programs should involve the States working 
through the NTTP/TIPS Steering Committee.
    With regard to funding for State Title IV Abandoned Mine Land (AML) 
program grants, the States and Tribes should receive the mandatory 
appropriation of $188.4 million in fiscal year 2020. In its proposed 
fiscal year 2020 budget, OSMRE seeks to eliminate $115 million for the 
AML economic development pilot projects due to the fact that this 
funding ``overlaps with existing mandatory AML grants''. We believe 
that funding for pilot projects is separate and distinct from other AML 
funding sources. This funding is targeted for economic and community 
development and reuse goals. We strongly support continued funding 
(from the General Fund) for these pilot projects. We also recommend 
concerted action to reauthorize fee collection under Title IV of SMCRA 
IMCC also supports a continuation of funding for the watershed 
cooperative agreements at $1.55 million. Much valuable work has been 
accomplished through this program, especially given the matching funds 
that come from other sources besides OSMRE's share for these worthwhile 
projects.
    We appreciate the opportunity to submit this statement on the 
Office of Surface Mining's proposed budget for fiscal year 2019. We 
also endorse the statement of the National Association of Abandoned 
Mine Land Programs (NAAMLP), which goes into greater detail regarding 
the implications of OSMRE's funding for the States and Tribes related 
to the AML program. We would be happy to answer any questions.
                                 ______
                                 
        Prepared Statement of the Izaak Walton League of America
    The Izaak Walton League of America appreciates the opportunity to 
submit testimony for the record concerning appropriations for fiscal 
year 2020 for various agencies and programs under the jurisdiction of 
the subcommittee. The League is a national, nonprofit organization with 
more than 40,000 members and 200 local chapters nationwide. Our members 
are committed to advancing common sense policies that safeguard 
wildlife and habitat, support community-based conservation, and address 
pressing environmental issues. The following pertains to programs 
administered by the Departments of Agriculture, Interior, and 
Environmental Protection Agency.
      departments of agriculture and the interior, land and water 
                        conservation fund (lwcf)
    The League requests a total of $524 million for the LWCF in fiscal 
year 2020. It is important to invest in strategic land acquisition to 
protect critical habitat, secure valuable in-holdings, and expand 
recreational access to existing Federal public lands. Dramatically 
reducing funding for LWCF, as the President's budget requests, will not 
provide meaningful savings to taxpayers because LWCF is capitalized 
with revenue from off-shore oil and gas drilling. As importantly, 
diverting resources from LWCF to offset other expenditures from the 
general treasury directly undermines the fundamental premise on which 
LWCF is based. The common sense premise that a portion of the revenue 
generated by natural resource extraction should be invested in 
conserving other natural resources at the national, regional, and State 
levels is the foundation of the fund's enactment.
    department of the interior, fish and wildlife service, national 
                         wildlife refuge system
    The League joins other members of the Cooperative Alliance for 
Refuge Enhancement (CARE), a diverse coalition of 22 wildlife, 
sporting, conservation, and scientific organizations representing 
approximately 15 million of members and supporters, in requesting $514 
million for operations and maintenance of the National Wildlife Refuge 
system.
    The League and CARE groups appreciate the importance of fiscal 
discipline and making strategic spending decisions. CARE annually 
develops an estimate of the operations and maintenance budget that is 
necessary to effectively provide visitor services and law enforcement 
and conserve and manage fish, wildlife, and habitat across the refuge 
system. CARE estimates operations and maintenance needs total $900 
million annually. Although our long-term goal is to make steady 
progress toward a budget which more accurately reflects demands on the 
ground, the fiscal year 2020 request balances fiscal responsibility 
with pressing resource conservation, visitor services, and law 
enforcement needs.
department of the interior, fish and wildlife service, state and tribal 
                            wildlife grants
    The League urges the subcommittee to provide at least $71 million 
in fiscal year 2020 for State and Tribal Wildlife Grants. This amount 
equals the House subcommittee's appropriation. State Wildlife Grants 
support proactive conservation projects aimed at preventing wildlife 
from becoming endangered. Experience shows that efforts to restore 
imperiled wildlife can be particularly contentious and costly when 
action is taken only after species are formally listed as threatened or 
endangered pursuant to the Endangered Species Act. State Wildlife 
Grants augment State and community-based efforts to safeguard habitat 
and wildlife before either reaches the tipping point. The Federal 
investment leverages significant funding from private, State, and local 
sources.
department of the interior, national park service, deferred maintenance
    The League requests the subcommittee to provide $657 million to the 
Park Service in fiscal year 2020 for addressing chronically underfunded 
maintenance and repairs. The Park Services estimates that more than $11 
billion is needed to adequately address repairs and maintenance on 
roads, buildings, utility systems, and others structures and facilities 
that have been deferred due to budget constraints. America's national 
parks provide millions of visitors with world-class experiences every 
year and have preserved some of our most iconic landscapes. Maintaining 
the infrastructure within our parks allows visitors to experience 
nature, history, and all the wonders of our national park system safely 
and comfortably. Years of underfunding have led to this huge backlog of 
maintenance and now is the time to begin to seriously address the needs 
of our world class parks.
  environmental protection agency, great lakes restoration initiative
    The League supports providing $300 million for the Great Lakes 
Restoration Initiative in fiscal year 2020. The Great Lakes provide 
drinking water to 35 million people and support jobs and recreational 
opportunities for millions more. However, the health of the Great Lakes 
is seriously threatened by untreated sewage, toxic pollution, invasive 
species, and habitat loss. The eight States that border the Lakes and 
many non-governmental organizations have invested significant resources 
to safeguard these national treasures. Sustained Federal investment at 
a significant level is also needed or the problems will only get worse 
and cost even more to fix.
    Cleaning up the Great Lakes will provide many benefits, including 
economic development in the region. Great Lakes restoration efforts 
produce at least $2 in economic return for every $1 invested. 
Restoration projects create jobs for engineers, landscape architects, 
and construction workers and improve water quality, support outdoor 
recreation, and reestablish healthy fish and wildlife habitat. These 
results lay the foundation for long-term prosperity in the region.
        environmental protection agency, chesapeake bay program
    The League asks that the subcommittee to fund the Chesapeake Bay 
Program at $73 million in fiscal year 2020, matching last year's 
enacted spending. The Chesapeake Bay is the largest estuary in the 
United States and one of the largest in the world. More than 16 million 
people live within the Bay watershed. The Bay is a critical economic, 
environmental, and recreational resource for these residents and the 
Nation as a whole. However, the productivity and health of this 
nationally significant resource remain seriously impaired by nutrient 
pollution from multiple sources throughout the watershed.
    The EPA and States have launched a significant and rigorous effort 
to cut pollution and improve water quality. Few would argue that 
implementing the total maximum daily load (TMDL) will not be 
challenging or not require significant investment to reduce point and 
non-point source pollution. However, the president's budget request in 
inadequate and fails to support States, local governments, and other 
partners as they implement the TMDL. The League believes it is 
essential to provide technical and financial assistance to achieve 
results on-the-ground and secure a foundation for sustained pollution 
reductions over the long-term.
  environmental protection agency, south florida geographic initiative
    The League respectfully requests the subcommittee appropriate $1.7 
million for the South Florida Geographic Initiative for Fiscal Year 
2020. The administration's request does not meet the minimum amount 
needed annually to reduce polluted discharges from leaking septic 
systems and other toxic cesspits, adequately restore the Everglades, 
and protect drinking water for 8 million Americans living in Florida. 
Economic benefits that would come from restoration of the Everglades 
are astronomical. Gains in biodiversity, groundwater purification and 
aquifer storage, increasing property values, park visitation, carbon 
sequestration, and improved fish and wildlife habitat that would come 
from a full restoration of the Everglades, as described in the Army 
Corps' Comprehensive Everglades Restoration Plan, would drive an 
economic increase of $46.5 billion. The EPA investment in the 
restoration of south Florida and the Everglades is an important piece 
of the strategy to restore traditional water flows, protect drinking 
water, and conserve biodiversity.
 environmental protection agency, non-point source management program 
                     (clean water act section 319)
    The League is concerned that the administration has proposed severe 
reductions and even elimination for Section 319, the Non-point Source 
Management Program. These reductions are counterproductive as EPA and 
many States report that non-point source pollution is the leading cause 
of water quality problems, including harmful effects on drinking water 
supplies, recreation, fisheries and wildlife. Based on the pressing 
nature of the problem, it makes sense to invest resources that help 
States and local governments more aggressively tackle non-point source 
pollution. The League urges the subcommittee to match last year's 
funding for Section 319 at $169 million for fiscal year 2020.
    The Izaak Walton League appreciates the opportunity to testify 
about these important issues.

    [This statement was submitted by Jared Mott, Conservation 
Director.]
                                 ______
                                 
          Prepared Statement of the Jamestown S'Klallam Tribe
    On behalf of the Jamestown S'Klallam Tribe, I am pleased to submit 
this written testimony on our funding priorities and requests for the 
fiscal year 2020 Bureau of Indian Affairs (BIA), Indian Health Service 
(IHS) and the Environmental Protection Agency (EPA) budgets. The 
S'Klallams entered into the Point-No-Point Treaty with the United 
States in January of 1855 effectively sanctioning our Tribes unique 
status as a sovereign nation and solidifying our legal standing in 
accordance with the U.S. Constitution. Our Tribe relinquished vast 
tracks of our Tribal homelands and resources in exchange for the U.S. 
Government's solemn promise to uphold and protect our Tribes inherent 
right to Self-Governance and to provide adequate resources to secure 
the well-being of our community and Tribal citizens. This trust 
responsibility is a legally enforceable fiduciary obligation on the 
part of the U.S. to protect Tribal treaty rights, lands, assets and 
resources.
    Despite the U.S. Government's trust obligations and our Tribes 
legally sanctioned rights, Federal funding and unmet needs in Tribal 
communities is at a crisis level as documented by the U.S. Commission 
on Civil Rights recently released 2018 Report, ``Broken Promises: 
Continuing Federal Funding Shortfall for Native Americans.'' The Report 
found that inadequate Federal funding undermines Tribal sovereignty and 
that the Federal Government's failure to uphold their trust obligations 
has resulted in American Indians/Alaska Natives (AI/AN) facing 
disproportionate challenges as compared to other Americans in health, 
education and employment outcomes that are exacerbated by insufficient 
funding. In order to address these inequities and trust violations, the 
Commission has recommended that Congress substantially invest in AI/AN 
programs and services.
    The need for providing steady, equitable, non-discretionary funding 
directly to Tribal Nations to support core government programs and 
services is well documented and we have shown time and again that the 
Federal investment in our community is a good investment. Self-
Governance has allowed us to redesign programs and services and utilize 
the Federal investment in a way that best addresses the needs of our 
community. Some of our more notable successes include most of our 
Tribal citizens seeking secondary or higher education degrees, the 
growth of our Tribal businesses and revenue and the Tribe's status as 
the second largest employer in our region, the Northern Olympic 
Peninsula. The success we have attained demonstrates that continued 
Federal support is invaluable to growing sustainable Tribal economies 
and bolstering surrounding regional economies. Yet, as we seek to 
identify opportunities that support our goal of self-reliance, we must 
also acknowledge the barriers that impede our ability to reach our full 
potential, including, the severe and persistent underfunding of Tribal 
programs and services despite the trust obligation, the absence of data 
to support funding requests for Tribal programs and services, 
management weaknesses \1\ and the consistently late distribution of 
funding. All of these, and many other factors attribute to the 
persistent shortfalls and overwhelming unmet needs/unfulfilled Federal 
obligations in Tribal communities.\2\ Data collection for Tribal 
programs throughout the Federal system is substandard or non-existent 
and it is difficult, if not impossible, to show program success and 
justify the need for program increases if funding is not received in a 
timely fashion. Recently, the BIA announced a moratorium on the 
collection of unmet needs data for Tribal programs and services. We 
view this action by the agency to be inconsistent with their trust 
responsibility. The agencies need to be held accountable and directed 
to work in partnership with Tribes to collect data that quantifies the 
true unmet needs in Indian country with credible metrics that will 
provide an accurate profile of the unmet needs in Indian country.
---------------------------------------------------------------------------
    \1\ GAO High Risk Reports on BIA, IHS and BIE--GAO-17-589T, GAO-17-
790T, and GAO-18-616T.
    \2\ GAO-19-87 Interior Should Address Factors Hindering Tribal 
Administration of Federal Programs.

---------------------------------------------------------------------------
Tribal Specific Appropriation Priorities

1.  $101.4 million increase for the Indian General Assistance Program 
(IGAP) and Beyond GAP EPA
2.  $50 million Puget Sound EPA

    $101.4 million increase--Indian General Assistance Program (GAP)--
and Beyond GAP EPA.--Although our Treaty guarantees our Tribe and its 
citizens the right to hunt, fish, and gather shellfish in our usual and 
accustomed areas that right is meaningless if there are no elk to hunt, 
fish to catch, or clams/oysters and berries to harvest. The Indian 
General Assistance Program has allowed us to make tremendous strides in 
advancing techniques that identify and reduce pollution, improve water 
quality, assess the status of public health needs, restore habitat, and 
replenish depleted fish and shellfish stocks, that are on the brink of 
extinction. The Beyond GAP initiative will move the Federal/Tribal 
partnership from capacity building to enable implementation of 
comprehensive and consistent environmental programs.
    $50 million--Puget Sound EPA.--The Geographic/Ecosystems program 
provides funding for our Tribe to protect and restore the Puget Sound 
ecosystem, including, restoration of the Olympia oyster habitat with 
hatchery-propagated oyster seed, habitat restoration, floodplain 
restoration and protection. This funding enables Tribes to implement a 
wide range of projects aimed at improving the health of Puget Sound and 
Tribal Treaty Resources.

National Requests and Recommendations for the BIA and IHS

1.  Advanced Appropriations for Tribal Programs and Services
2.  Increase Funding for Tribal Base Budgets/Recurring Programs
3.  Invest in Tribal Infrastructure

    Advanced Appropriations for Tribal Programs and Services.--
Continuing Resolutions and late distributions of funding, 
sequestration, across the board budgetary rescissions and/or 
reductions, spending caps and numerous and prolonged government 
shutdowns have further exacerbated the funding crisis in Indian 
country. Although Tribal Nations are resilient, the abrupt disruptions 
of our governmental services due to a delay or lapse in Federal funding 
attenuates our ability to protect the health and well being of our 
communities and citizens. The recent government shutdown put our Treaty 
rights at risk jeopardizing the survival of our resources and, in turn, 
our culture, inhibited our economic development potential, our ability 
to recruit and retain staff, and delayed the process for the 
reacquisition of our Tribal homelands.
    In order to keep programs and services fully operational, we had to 
identify alternative funding resources whether through Tribal funds, 
loans or other means without any assurances that we would be reimbursed 
for these expenditures. Providing appropriations 1 year in advance will 
mitigate the adverse financial effects of Federal budgetary 
uncertainties on Tribes and enable the BIA and IHS to uphold their 
fiduciary obligations and more adequately and effectively serve AI/AN. 
Tribes will also be able to engage in more effective strategic 
planning, spend funds more efficiently, grow our Tribal economy and 
businesses and increase the quality of care and well-being of our 
Tribal citizens and community.
    Increase Funding for Tribal Base Budgets/Recurring Programs.--For 
over two decades, there has been funding reductions/permanent 
rescissions of numerous Tribal programs and services in order to pay 
for tax cuts, wars, natural disasters and technology upgrades. These 
budgetary rescissions are permanent, unsupportable reductions to Tribal 
base programs which are core governmental functions. When you factor in 
the inflationary rate, Tribes are not even maintaining level funding--
we are losing ground. Compounding the fiscal volatility of Federal 
funding, there has been a growing trend among agencies to fund Tribal 
programs and services with grant dollars rather than provide base 
recurring funding. Grant funding undermines Self-Governance because it 
is short term funding which creates uncertainty in planning, imposes 
extensive regulation and reporting requirements and restricts the use 
of indirect costs. We would urge Congress to increase funding for 
Tribal base budgets by funding Tribal Priority Allocations and other 
Recurring Programs because it will benefit all Tribes as opposed to 
creating more grants that will only benefit a few Tribes.
    Invest in Tribal Infrastructure.--Tribal governments and their 
citizens face profound infrastructure challenges that are acute and 
longstanding. The breadth and severity of the unmet infrastructure 
needs are measured by the high rates of injury and death in our 
communities. Decaying, unsafe infrastructure is not only a public 
health issue but an impediment to economic development and job growth 
and reflects a failure of the government to uphold its trust 
obligations. Increased Federal funding and investments could effectuate 
Tribal infrastructure development efforts.

National Requests and Recommendations for the BIA

1.  $10 million Natural Resources TPA
2.  $50 million Economic Development TPA
3.  $25 million Indian Guaranteed Loan Program/Surety Bonds

    $10 million--Natural Resources (TPA).--Climate change is having 
profound impacts on Tribes and our Tribal Treaty Rights are at risk 
because of our close relationship with nature we are the most at risk. 
The vitality and sustainability of our Natural Resources is integral to 
the health and welfare of our Tribal citizens, communities, culture and 
religious practices and economies. The Federal investment in Tribal 
Natural Resources can only continue to foster Tribal self-sufficiency 
and support Tribal economies by cultivating cross jurisdictional 
partnerships with State and local governments that create jobs and 
promote and advance trade. This investment also advances several 
ancillary but equally important cultural and religious practices, 
creates community cohesiveness and improves the environmental 
conditions on our Tribal homelands and in surrounding communities.
    $50 million--Economic Development (TPA).--Increased funding, 
reduced regulatory burdens and greater access to financing tools and 
incentives will allow us to continue to diversify our successful 
business portfolio and expand our revenue generating opportunities 
resulting in a stronger Tribal economy and less dependence on the 
Federal component of our resources. A $50 million investment in 
economic development would allow our Tribe to leverage funds and invest 
in business opportunities projected to create 500 jobs for Tribal 
citizens and our non-Indian neighbors.
    $25 million--Indian Guaranteed Loan Program/Surety Bonds.--The 
Federal Government is in a unique position to help advance Tribal 
projects and provide sustainable economic opportunities for Indian 
businesses and Tribal governments through the Loan Subsidy Program and 
Surety Bonding for Indian contractors. Loan guarantees are an 
attractive financial tool because Tribes are able to leverage limited 
Federal funding in a prudent budget effective way and promote economic 
growth by investing in projects that are capable of generating their 
own revenue streams. Federal credit programs should continue to 
facilitate Tribal access to private capital markets where Tribes 
frequently encounter market resistance to conventional lending.

National Requests and Recommendations for the IHS

1.  $189 million Increase Funding to Support Current Services
2.  $407 million Increase Funding for Purchased and Referred Care

    $189 million Increase Funding to Support Current Services.--The 
Federal responsibility to provide healthcare was prepaid by the Tribes 
with their land and resources. To maintain current services, factors 
such as the inflationary rate, pay costs, contract support costs, 
population growth and staffing needs for recently constructed 
facilities all need to be fully-funded. When these mandatory factors 
are not funded, Tribes must supplement programs with their own limited 
revenue, or chose between limiting services or shutting down services 
completely. It is critical that the IHS budget honors and respects the 
Federal trust obligation.
    $407 million Purchased and Referred Care (PRC).--Most IHS and 
Tribally-operated direct care facilities do not provide the required 
emergency and specialty care services so Tribes are forced to turn to 
the private sector to fulfill this need. PRC funds are used to purchase 
essential healthcare services, including inpatient and outpatient care, 
routine emergency ambulatory care, transportation and medical support 
services, such as diagnostic imaging, physical therapy, laboratory, 
nutrition and pharmacy services. When PRC funds are depleted, services 
are denied to Tribal patients.
    The Jamestown S'Klallam Tribe continues to support the requests and 
recommendations of our Regional and National Indian Organizations. 
Thank you.

    [This statement was submitted by W. Ron Allen, Tribal Chairman/
CEO.]
                                 ______
                                 
        Prepared Statement of John Gates, City of Greeley Mayor
         support for epa watersense and bor watersmart programs
Dear Chairwoman Murkowski and Ranking Member Udall:

    The City of Greeley is writing to respectfully request your support 
to continue to fund, at or above fiscal year 2019 levels, two programs 
we know to be a critical support of demand management and responsible 
water conservation efforts in the West: the Environmental Protection 
Agency's WaterSense Program, and the Bureau of Reclamation's WaterSMART 
Program.
    In keeping with Greeley's century-long tradition as a water 
conservation leader in Colorado, Greeley has partnered for more than a 
decade with the EPA in its WaterSense programs to encourage, educate, 
and facilitate water conservation both indoors and outdoors. Greeley is 
engaged in a New Cache Irrigation Co. water sharing pilot project that 
is funded by WaterSMART grants and stakeholder contributions; a project 
that is key in the preservation of highly productive farm lands in the 
Greeley area. Greeley Water has also sought 2020-2021 WaterSMART grant 
matching funds to aid in our efforts to drive customer responsiveness 
to demand management. The City's Water Department supports Water SMART 
fixture certification and independent testing. Only WaterSense toilets, 
fixtures and showerheads are sold in Colorado, and it would be a step 
backwards if this program were defunded.
    These Federal water programs are essential to how the West manages 
a growing population, robust economies, hydraulic variability and water 
resource scarcity. Further, they are essential to Greeley's on-going 
efforts to use our limited water resources more efficiently, and limit 
to the extent possible the need to dry up farms to secure water supply 
for economic and population growth.
    Greeley has supported Colorado's focus on these issues and funding 
solutions. Greeley strongly supports efforts to more efficiently use 
scarce water resources, supports Drought Contingency Planning and the 
exploration of demand management on the Colorado River, and we strongly 
urge the Federal Government to continue to be our vested partner in 
this regard. WaterSense and WaterSMART Programs are both important 
elements in those efforts. We appreciate your consideration of this 
issue, and urge your support.

Respectfully submitted this 24th day of April, 2019
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

John Gates
Mayor
City of Greeley
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d49ebbbcbafa93b5a0b1a79493a6b1b1b8b1adb3bba2fab7bbb9">[email&#160;protected]</a>
                                 ______
                                 
                 Prepared Statement of the Karuk Tribe

April 4, 2019

 
 
 
The Honorable Lisa Murkowski         The Honorable Tom Udall
Chairwoman                           Ranking Member
Senate Appropriations Subcommittee   Senate Appropriations Subcommittee
 on Interior, Environment and         on Interior, Environment and
 Related Agencies                     Related Agencies
131 Dirksen Senate Office Building   125 Hart Senate Office Building
Washington, D.C. 20510               Washington, D.C. 20510
 


Dear Chairwoman Murkowski and Ranking Member Udall:

    We are writing to request that you support economic development, 
job creation, and our national heritage by appropriating up to $141 
million in fiscal year 2020 funding for the Historic Preservation Fund 
(HPF). Of this total, we would request that $60 million support State 
Historic Preservation Offices (SHPOs), $20 million support Tribal 
Historic Preservation Offices (THPOs), and $5 million fund a 
competitive grant program for State or Tribal Historic Preservation 
Offices to invest in geographic information systems-based mapping of 
historic resources. SHPOs and THPOs tie our Nation's historic 
preservation programs together. SHPOs carry out the National Historic 
Preservation Act, which provides citizens the tools they need to 
revitalize, rehabilitate, and protect American heritage.
    THPOs carry out many of the same functions as SHPOs for Tribal 
governments. Just as the SHPOs review Federal undertakings on State 
lands, the THPOs review Federal undertakings on Tribal government 
lands. Collectively, they exercise responsibilities over a land base 
exceeding 50 million acres in 30 States, and the HPF is the sole source 
of dedicated Federal funding for THPOs. More Tribes establish THPO 
programs each year, representing an exercise of Tribal sovereignty, but 
funding has not kept pace with this growing number. There were only 12 
THPOs when they first received funding in 1996 and today, there are 
nearly 200 THPOs. As a result, in 2018, 179 Tribes received an average 
of $64,000, which was nearly $20,000 each less than when the program 
first started. Our recommended $20 million in fiscal year 2020 for the 
THPO line item would provide the nearly 200 THPOs an average of 
$100,000 to run their programs, which is still meager but would start 
to close the critical mission gap.
    There are two cornerstones of this work. First, reconnecting Native 
peoples to their cultural heritage, traditions, and places has the 
power to help heal deep generational wounds. Revitalizing traditions, 
languages, and practices serves to rebuild critical individual self-
worth and community foundations. To continue this work in Indian 
country, it is essential that THPO programs receive increased funding 
to meet the increasing need.
    Second, funding THPOs and staff creates jobs, generates economic 
development, and spurs community revitalization. It also facilitates 
environmental and historic review processes, including for 
infrastructure and energy permitting. Agencies are required to conduct 
government-to-government consultation on all actions they take, which 
means working with tribes to identify potentially affected resources 
and properties and taking mitigation measures. When agencies and 
project applicants call, someone must be there to pick up the phone and 
do the work.
    The current level of funding the Karuk Tribe receives only allows 
for a 0.33 FTE position. This does not meet the baseline need for 
carrying out primary functions on 1800 acres of Tribal Trust Land. In 
additions, our large landscape conservation efforts are being applied 
to a 1.2 million acre landscape. This is not sufficient for meeting the 
need of the advise and assist role as we move into a new era of shared 
stewardship. Tying focal species, to landscape and vegetative 
characteristics, as they relate to sites, features, objects and 
cultural expressions such as the ``pa arrarahi pikyav'' (the people's 
fix the world stories) will be critical to the successful efforts of 
addressing wildland fire management in a changing climate. Since 2014 
our THPO department has grown from this .33 FTE to 3.5 FTE's in 2018 in 
planning at the 5,500 acre scale. We are on a trajectory to replicate 
the processes carried out in the Somes Bar Integrated Fire Management 
Project throughout the aforementioned 1.2 million acre collaborative 
planning area. The approval of this project through the NEPA Process 
without entering objection proceedings provides proof of concept in 
regards to this shared stewardship model. Stabilizing this capacity 
will be a critical success factor in progressing this effort to scale. 
Though this request supports the efforts of THPO's nationwide, Karuk 
specificity adds to the request that the acreage associated with large 
landscape conservation endeavors through the principles of shared 
stewardship be included in the budget formulas for the distribution of 
these funds.
    As the remaining THPO's have not considered this factor in regard 
to formulation of the program request preceding this Karuk specific 
ask, and in all fairness, we urge you to consider an additional $10 
million set aside for Tribes engaging in collaborative large landscape 
conservation efforts.
    Funding these historic preservation programs is vital to ensuring 
that the unvarnished story of America is told. It is an investment in 
towns and cities throughout the country, helping to improve the economy 
of these communities by boosting tourism through their historic sites 
and by leveraging public and private investment in restoring historic 
buildings. This funding is both an economic and historical imperative 
that creates construction jobs and protects historic resources that 
might otherwise be lost forever.
    We greatly appreciate the strong support Congress has shown for the 
preservation of our Nation's heritage. We look forward to working with 
you throughout the appropriations process and thank you for your 
consideration.

Sincerely,
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Russell Attebery
Chair, Karuk Tribe
                                 ______
                                 
    Prepared Statement of the Lac Du Flambeau Band of Lake Superior 
                            Chippewa Indians
    On behalf of the Lac du Flambeau Band of Lake Superior Chippewa 
Indians, I submit written testimony concerning the Tribe's fiscal year 
2020 budget needs within the appropriations of the Environmental 
Protection Agency, Bureau of Indian Affairs, Bureau of Indian Education 
and Indian Health Service. Our Tribe of 4,000 members is located in 
Vilas, Oneida and Iron Counties Wisconsin. Our Tribe is the largest 
employer in Vilas County. Together with Tribal enterprises, the Tribe 
employs 800 individuals, with nearly one in four of our 190 employees 
paid in full or in part with appropriations made under this 
subcommittee's jurisdiction. Our reservation has one of the densest 
concentrations of fresh water in the country and it is our obligation 
to safeguard the waters, fish, waterfowl, animals and vegetation for 
our great grandchildren. The bounty we draw from 260 lakes, 71 miles of 
streams and rivers, approximately 42,000 acres of forested land and 
roughly 42,000 acres of water and wetlands, help feed our members, 
improve their health and generate jobs. We also have treaty rights and 
lands that provide hunting, gathering and fishing opportunities in 
Wisconsin, Minnesota and Michigan for our members. We are working hard 
to build and maintain a stable, healthy Tribal community, amid many 
challenges.
    The Tribe thanks the subcommittee for its leadership and bipartisan 
commitment to Indian Tribes which honors the Nation's trust 
responsibility to the Indian people. The Tribe appreciates that 
Congress provided increased funds in fiscal year 2019 for BIA, IHS and 
EPA programs and the other programs across the Federal Government. The 
35-day partial government shutdown put a lot of stress on our community 
which we never want to experience again.
    My testimony addresses EPA, BIA, BIE and IHS programs that are 
vital to the Lac du Flambeau Band. There is an interconnectedness among 
these programs which help promote healthy Tribal members and 
communities; essential building blocks for stable communities. It is 
also essential to understand that clean, air water and land are 
required in order for us to have a healthy community. Without these key 
ingredients, and adequate Federal resources, our members cannot hunt, 
fish and gather animals, plants and medicines which are safe for them 
to eat.
                   i. natural resources (epa and bia)
    The Tribe has one of the leading Tribal Natural Resources programs 
in the Country. Our program includes a Fish Hatchery for several 
species of fish, Fisheries Management, Waterfowl habitat protection, 
Great Lakes Restoration Initiative, Wild Rice Restoration, Conservation 
Law Enforcement, Wildlife protection, Historic Preservation, and 
numerous environmental programs, including Water Resources. Our Natural 
Resources Department employs fish/wildlife/wild rice technicians, fish 
hatchery operators, hydrologists, environmental specialists and 
administrators, many of whom are paid in full or in part with EPA and 
BIA funds and critical to our work protecting the resources that were 
promised to us in our Treaties. We urge the subcommittee to increase 
fiscal year 2020 funds for the BIA and EPA Natural Resources programs 
that are critical to protecting our culture, our health and our 
economy; part of Wisconsin's $19 billion hunting, fishing, recreation 
and tourism industry.
    The subcommittee and Congress has once again restored $300 million 
for the Great Lakes Restoration Initiative for fiscal year 2019 (flat 
funded for the last few years). Even with existing funding, we struggle 
to meet the demands we face to maintain clean air, water and lands from 
the many contaminants that threaten our community. The highest 
concentrations of mercury tainted lakes are in Wisconsin's northern 
most counties, including Vilas and Oneida. Minnesota and Wisconsin 
again lead the Nation with mercury-contaminated lakes. The Wisconsin 
Department of Natural Resources continues to list 146 lakes where fish 
health mercury advisories remain in place. Our lands and waters are 
also threatened by mineral exploration and mineral leasing sites, 
combined with relaxed regulatory enforcement by State and Federal 
agencies. There are approximately 100 Mines, Mineral Exploration and 
Mineral leasing sites within the Lake Superior Watershed. We cannot eat 
contaminated fish that are otherwise a staple of our diet. Chronic 
Wasting Disease (CWD) is another threat to our treaty protected 
resources. CWD has been detected in deer in our ceded territories and 
is moving closer to the Reservation's deer population. We need Federal 
resources if we are to properly monitor, manage and report ongoing 
environmental threats.
A. Underground Storage Tank Fund (LUST)
    The $1-$2 million appropriation available to Tribes for cleanup 
under the Leaking Underground Storage Tank (LUST) program is inadequate 
for Indian Country. Insufficient funds result in ongoing contamination 
of ground waters that threaten Tribal resources. We have spent almost a 
decade working with State and EPA officials to clean up the Tower 
Standard/Haskell Lake, a LUST site located within the Tribe's exterior 
boundaries. This site is contaminated with petroleum, benzene, lead, 
dibromoethane, and other contaminants. EPA recently estimated that $1.7 
million was required for ``interim'' action measures for the site. This 
estimate would consume nearly the entire fiscal year 2019 LUST cleanup 
budget appropriated for the Nation's 573 federally-recognized Tribes. 
The Haskell Lake is one of 23 LUST sites on our reservation alone.
    In 2015, we engaged in consultation with EPA and together we agreed 
on the steps to take to assess and remediate the Haskell Lake site. 
Since then, EPA has walked back most of the commitments it made to us 
and reversed an earlier commitment that it would clean up the LUST site 
pursuant to Tribal standards. We do not have confidence in EPA's latest 
recommended interim action because the site assessment EPA relies on is 
incomplete in its content and because an associated evaluation omits 
EPA's own data regarding known contaminants of concern (COC). We 
encourage the subcommittee to instruct EPA in report language to fully 
engage in meaningfully consultation with Tribes, especially Tribes that 
have ``treatment as a State'' status under the Clean Water Act, as we 
do, and honor Tribal cleanup standards when developing interim and 
final action plans to remediate LUST sites located on reservations. 
Please increase funds for EPA's LUST program dedicated to Tribes to 
include funding for site cleanup and Tribal program support.
B. Trust-Natural Resources Management
    In fiscal year 2019, Congress appropriated $206.8 million for the 
BIA's Trust-Natural Resources Management programs, a $2.7 million 
increase from fiscal year 2018. We greatly appreciate the increase, but 
given the importance of natural resources to our culture and economy, 
more Federal resources are required. Our Tribe alone needs nearly a 
$500,000 increase for our Tribal Fish Hatchery Operations and Tribal 
Management/Development Program for fiscal year 2020.
C. Circle of Flight: Wetlands Waterfowl Program
    We urge the subcommittee to continue to provide support for the BIA 
Circle of Flight Program. This modest BIA program supports Tribal 
efforts throughout the Great Lakes Region to restore and preserve 
wetlands and waterfowl habitat and enhances wild rice gathering within 
Tribal territories throughout the three States along the Mississippi 
flyway.
D. Great Lakes Restoration Initiative
    Thank you for restoring the $300 million appropriation for the 
Great Lakes Restoration Initiative. For the Tribes of Wisconsin, the 
Great Lakes represent the lifeblood of our culture and the foundation 
of our economies. Please consider an increase in funding for the 
Initiative in the fiscal year 2020 budget so Tribes can do more.
E. EPA Tribal General Assistance Program
    For fiscal year 2019, Congress approved $65.4 million for the 
Tribal general assistance program (GAP). The Tribal GAP program 
provides base funds to assist Tribes build their environmental capacity 
to assess environmental conditions, utilize available data and build 
their environmental programs to meet local needs. While we strongly 
support the Tribal GAP funding, that funding is limited to capacity 
building and it is critical that we expand Tribal EPA funding to 
include program implementation.
                     ii. bia and bie appropriations
A. Law Enforcement
    The Tribe is working collaboratively with our State and local 
partners to address drug trafficking and gang activity on and off the 
reservation. There remains a great need for cooperation among the 
Tribe, the State and Federal law enforcement agencies to address the 
significant impact of drug trafficking on the public safety of our 
community.
    As a Tribe in a Public Law 280 State, we have long suffered from 
the lack of sufficient support by the Federal Government for our law 
enforcement and Tribal court needs. We have one full time judge who 
handle a range of cases ranging from domestic abuse orders to child 
support enforcement. In addition, we a three court clerks and a 
prosecutor. We greatly appreciate the Committee's support of $13 
million for Tribal justice systems for Tribes in Public Law 280 States. 
We provide an important service to the people of our Reservation that 
if we did not perform, the State courts would have to perform. We urge 
Congress to continue this funding in the fiscal year 2020 budget.
    Related to this is the need to provide specific funding for 
conservation law enforcement officers. Our conservation officers, 
provide a critical role in the management of our natural resources and 
sometimes are the first line in identifying drug and other illegal 
activities on the Reservation.
B. Indian Education
    In fiscal year 2019, Congress maintained $34.9 million for Adult 
Scholarships and $2.9 million for special higher education 
scholarships. We recommend this subcommittee continue to support and 
increase funds for these programs that provide needed support to Tribal 
members seeking higher education.
    The Lac du Flambeau Public School and Lakeland Union High School 
educate our Tribal youth. The High School is approximately 23 percent 
Native American and 86 percent of high school graduates went on to 
attend 4- and 2-year colleges/technical schools, 9 percent entered the 
workforce or pursued other activities and 5 percent entered the 
military. For this reason, we appreciate the Committee's continued 
funding of the Johnson O'Malley Program ($14.9 million for fiscal year 
2019). JOM funds address the unique cultural needs of Indian students 
attending public schools through a supplemental program of services 
planned, developed and approved by the Local Indian Education 
Committee, comprised of parents of eligible Indian students. Indian 
children deserve the supplemental programs that JOM funds enable that 
honor and celebrate their Native heritage and help them grow into 
confident, well-adjusted adults who give back to their families.
C. Road Maintenance Program
    The Tribe appreciates Congress including a $1.1 million increase in 
funding for the Road Maintenance Program for fiscal year 2019. We 
believe a $10 million increase is justified for fiscal year 2020. 
Recent funding increases have been prioritized by Congress for use on 
gravel school bus routes, thus limiting the Tribes that receive 
additional funds. At $90,000 annually, we receive about $1,285 per mile 
from the Program to maintain our BIA-owned roads. Our budget is 
actually closer to $2 million annually. A year's road maintenance 
budget can be consumed in the winter months alone removing snow and 
salting/sanding roads to ensure freedom of movement. Transportation 
barriers undermine Federal and Tribal efforts to improve Native health, 
educate our youth and attract businesses and jobs to remote, rural 
communities like ours. The Road Maintenance Program is a jobs program 
and well-maintained roads save lives. Please consider unrestricted 
increases to this important public safety program.
                  iii. indian health service programs
    The Tribe appreciates the Committee's commitment to increase 
funding for the IHS. Our IHS allocations account for about one-third of 
our health program budget. The Tribe operates the Peter Christensen 
Health Center, Dental Program, a Family Resource Center, and an In-
patient Treatment Center with a total annual operating budget in excess 
of $24 million. These programs are vital to ensuring the support and 
preservation of family life and wellbeing by providing such services as 
outpatient mental health, inpatient & outpatient alcohol and other drug 
abuse, and psychological consults. The Health Center provides quality 
healthcare and offers a full range of family medical services by Board 
Certified family physicians, advanced practice nurse practitioner and 
physician-assistants serving 5,500 patients and providing 48,000 
patient appointments annually. Together, our Tribal Health Program 
employs a staff of 150 individuals. The Tribe asks that Congress 
continue to prioritize funding increases to the IHS budget in fiscal 
year 2020.
    We are seeing how important proactive and preventive health 
services are for our community. In particular, like the rest of the 
Nation, our community continues to deal with the opioid epidemic. It 
has tragically claimed the lives of Lac Du Flambeau members. 
Approximately 60 percent of the Tribe's annual births result in opioid-
addicted babies. In 2017 alone, 48 of the Tribe's 80 births resulted in 
opioid-addicted babies. Early treatment is critical. We urge the 
subcommittee to increase funds for preventive health programs such as 
Drug Endangered Children (DEC) and Drug Endangered Elders (DEE). These 
programs can save lives and empower our Tribe to help our citizens 
address addictions and mental health issues, especially targeting our 
Tribal youth. Please continue to prioritize increases in fiscal year 
2020 IHS funding for Hospitals and Clinics, mental health, substance 
abuse treatment and P/RC funds so that we can take a proactive stance 
by investing wisely in preventive health services.
    We thank the Senate Appropriations Subcommittee for all its support 
and for the opportunity to provide written testimony concerning our 
fiscal year 2020 budget needs within the subcommittee's jurisdiction.

    [This statement was submitted by Joseph Wildcat, President.]
                                 ______
                                 
        Prepared Statement of the League of American Orchestras
    The League of American Orchestras urges the Senate Interior, 
Environment, and Related Agencies Appropriations Subcommittee to 
support $167.5 million in fiscal year 2020 funding for the National 
Endowment for the Arts (NEA). Bipartisan support in Congress for the 
ongoing work of the NEA has been especially appreciated in the past 
several years, and we are grateful for the subcommittee's leadership. 
Increased support in fiscal year 2020 will enable the agency to provide 
more direct grants, which will boost meaningful arts participation for 
more Americans.
    The League of American Orchestras leads, supports, and champions 
America's orchestras and the vitality of the music they perform. Its 
diverse membership of more than 2,000 organizations and individuals 
includes world-renowned orchestras, community groups, summer festivals, 
student and youth ensembles, businesses serving orchestras, and 
individuals who love symphonic music. As orchestras navigate the myriad 
changes coursing through American society, they are continually honing 
the ways the orchestral experience serves communities. NEA support via 
Art Works and Challenge America grants helps to expand the capacity of 
orchestras to present concerts and programs to communities of all 
sizes, and each NEA direct grant dollar leverages more than $9 of 
additional non-Federal or private investment. The following ten 
orchestral projects from fiscal year 2019 total $155,000 in direct 
Federal support and offer a sampling of the remarkable orchestral 
partnerships serving the public in responsive ways.
National Endowment for the Arts funding increases public access to the 
        arts
    The NEA is committed to helping small- and mid-sized organizations 
extend the reach of the arts to populations whose arts opportunities 
are limited by geography, economics, or disability. The Kansas City 
Symphony, employing 80 full-time musicians and 35 full-time staff, 
offers a series of free chamber music concerts featuring symphony 
musicians performing a wide range of music, from baroque to 
contemporary, that is not readily available elsewhere in the community. 
Curated by the musicians, these weekday, early evening, casual programs 
are designed to remove barriers of formality, access, and financial 
ability, and they draw more than 1,200 people to every performance. 
Nearly one-third of audience members has the opportunity to experience 
a new musical form and enjoy the cultural richness of their own 
community for the first time, thanks in part to an NEA Art Works grant, 
which leads to broad financial support for the symphony from 
foundations, businesses, and individuals throughout the community.
    The Adrian Symphony Orchestra's Challenge America grant will 
support a week of activities specifically designed for youth and the 
rural Lenawee County community in Michigan. The symphony, with a small 
but dedicated staff of four, will present Carmina Burana, featuring 
local choirs and soloists Allison Prost and Jonathan Lasch, as well a 
new work, Broad Band of Light, by American composer Conni Ellisor with 
soloist Stephen Seifert on the mountain dulcimer. The project and 
ancillary activities would not otherwise be possible without additional 
support, and the NEA grant and its multiplying effect mean that local 
teachers will be able to receive a pre-concert guide with information 
about the orchestra, music director, composers, guest artist, and the 
mountain dulcimer, and the orchestra will able to present a Young 
People's Concert for children in kindergarten through second grade, 
offering unique opportunities to connect with the soloists and 
composer.
    The Billings Symphony Orchestra & Chorale (BSO&C), which employs 90 
staff and musicians, received a Challenge America grant to support 
performances and community engagement in honor of Black History Month 
and the 60th anniversary of the founding of Motown Records. In addition 
to performing at the Alberta Bair Theater, guest artists Sydney Morton 
and Jarran Muse visited the St. Charles Indian Mission on the rural 
Crow Indian Reservation; the Yellowstone Boys and Girls Ranch (a 
therapeutic and residential treatment center for children with 
emotional and behavioral challenges); Riverside Middle and Senior High 
Schools, which are Title I schools in Billings; and the Montana State 
Women's Prison to work with the women's prison choir. The program 
included discussions about racism and discrimination, being a friend to 
people who may be different from you, music performances that included 
Motown hits such as What's Going On, and discussion of the history of 
Motown music. The BSO&C is committed to bringing musical experiences to 
underserved communities, and this program in particular was designed to 
facilitate the Billings community engaging with and learning from 
artists of color.
National Endowment for the Arts advances equity, diversity, and 
        inclusion
    In addition to increasing public access to the arts, support from 
the National Endowment for the Arts provides opportunities to recognize 
and celebrate the diverse backgrounds that comprise communities 
throughout the country. The Quad City Symphony Orchestra (QCSO) 
received a Challenge America grant for a performance and related 
engagement activity by the Kaia String Quartet. The quartet will 
perform at the Boys and Girls Club of the Mississippi Valley Teen 
Center in Moline, Illinois as part of a QCSO series focused on work by 
Latino composers, and it will also visit Bicentennial Elementary and 
the bilingual Lincoln-Irving Elementary that serves Floreciente 
Neighborhood students. The symphony, which is supported by a staff of 
12 people, is also partnering with the Greater Quad Cities Hispanic 
Chamber of Commerce to promote the event to the broader Latino 
community and provide discounted tickets through their member 
businesses. A portion of the ticket price will benefit the Club, and 
donations will be requested at the event for Club's cello programs.
    With 7 full-time staff and 7 part-time project-based staff 
employees, the Princeton Symphony Orchestra will use an Art Works grant 
to support a free community event featuring Mexican-American author 
Sandra Cisneros, composer Derek Bermel, and mezzo-soprano Paulina 
Villarreal. Cisneros will discuss her experiences growing up amidst two 
cultures and how those experiences informed her award-winning novel, 
The House on Mango Street. Cisneros' discussion will be augmented by a 
performance of excerpts from Bermel's Mango Suite, which was inspired 
by the book. The planning process has enabled the Princeton Symphony to 
partner with organizations such as the Latin American Legal Defense and 
Education Fund, Princeton Community Housing Group, and Corner House 
Youth Leadership programs, as well as the Princeton and Trenton Public 
Schools. The symphony has taken such an interest due to the recent 
significant increase of Latino family immigration to the Princeton and 
surrounding Mercer County area. Princeton Symphony hopes the 
performance of Mango Suite will be an opportunity to address the 
experiences of immigrant families and work toward creating a more 
diverse and welcoming environment for all. At the event, audience 
members will have an opportunity to talk with Cisneros one-on-one, and 
on the day prior Bermel will visit local schools with significant 
immigrant populations to lead students in songwriting workshops 
exploring these same issues of identity and assimilation.
    The New Haven Symphony Orchestra (NHSO), which employs 9 full-time 
staff and 229 part-time employees, is utilizing its Art Works grant to 
commemorate the 80th anniversary of Marian Anderson's April 9, 1939, 
concert at the Lincoln Memorial in Washington, D.C. The program will 
take place at Lyman Center for the Performing Arts at Southern 
Connecticut State University in New Haven and will feature celebrated 
artists Kristen Renee Young and Harolyn Blackwell and include 
orchestral works like Old and Lost Rivers by Tobias Picker; an 
arrangement of traditional spirituals by Joel Martin; Lincoln Portrait, 
Down a Country Lane, and John Henry by Aaron Copland; Hip-Hop Essay #1 
by Daniel Bernard Romain; and Joseph Schwantner's New Morning for the 
World. Accompanying visual images will be curated by Peabody Award-
winning broadcaster, producer, and director Elliott Forrest. Students 
from local public schools will also have the opportunity to perform 
side-by-side with orchestra musicians, and members of the NHSO's 
Harmony Fellowship for Underrepresented Musicians will perform as well. 
New Haven's Mayor, the honorable Toni Harp; the Reverend Jerry Streets; 
and SCSU faculty will serve on a pre-concert panel that will discuss 
the music and the historical context of the program.
National Endowment for the Arts supports youth engagement
    Lifelong engagement with the arts begins early, and the NEA has 
been a strong supporter of arts education and projects that foster 
youth engagement with art. The San Francisco Symphony Youth Orchestra's 
Artist Development Program is designed to enhance the artistic growth 
of its student participants and increase their comprehension of and 
skill in orchestral music. An Art Works grant will serve 100 percent of 
the youth orchestra musicians--a total of 116 students from the Greater 
Bay Area region, from Sacramento to Santa Cruz. The program includes 
intensive weekly coaching by musicians of the San Francisco Symphony 
and collaboration with internationally renowned guest artists such as 
composer John Adams. The project arranges for the youth orchestra to 
perform free of charge in community settings, for senior groups, for a 
holiday concert for young children, and for the biannual Bay Area Youth 
Orchestra Festival, which convenes half a dozen regional youth 
ensembles with a culminating concert that benefits homeless and 
undeserved youth. In addition to this performance-based activity, the 
program also provides paid apprenticeships to prepare interested youth 
orchestra members for careers as music librarians, personnel managers, 
and arts administrators. Apprentices work closely with San Francisco 
Symphony staff up to 20 hours per week to receive on-the-job training 
and learn skills not available through arts administration curricula.
    The El Paso Symphony also received an Art Works grant for its youth 
orchestra, which will facilitate the first of an annual learning and 
performing festival in El Paso, the Southwest Youth Orchestra Festival, 
for underserved youth in the Southwest U.S. and Northern Mexico region. 
The week-long youth orchestra festival will allow youth ensembles to 
come together as one voice to learn, study, and perform music. The 
festival will provide students the opportunity to learn from music 
instructors and conductors other than their own in an intense musical 
``boot-camp'' setting. Auditions will place participants into groups 
with the goal of creating ensembles of varying cultures, ethnicity, and 
heritage. Groups will perform separately and in a joint group orchestra 
in three to four different venues.
The National Endowment for the Arts supports contemporary works and 
        living composers
    Many orchestras are devoted to expanding their contemporary 
repertoire to offer a broad selection of musical styles to their 
communities. The NEA is helping several orchestras support the work of 
contemporary composers. The Utah Symphony & Opera (USUO), with 52 full-
time and 15 part-time staff, embraces the work of living composers as a 
way of enhancing both musicians' and the public's understanding of and 
enthusiasm for classical music. An Art Works grant will support a 
performance project highlighting works by Pierre Boulez, Vivian Fung, 
Zhou Tian, Joan Tower, and Andrew Norman. Chinese-American composer 
Zhou Tian, a 2018 GRAMMY nominee, has been commissioned for a piece to 
celebrate the 150th anniversary of the Transcontinental Railroad. 
Andrew Norman, Musical America's 2017 Composer of the Year, is USUO's 
first Composer-in-Association in 2018-19. Two of Mr. Norman's works, 
Suspend and Play, will be performed by Utah Symphony during this 
season. Both Zhou and Norman will spend time working with students, 
providing valuable insight into the creative process, and inspiring 
members of the community to engage more deeply with music.
    Another Art Works recipient is the Saint Paul Chamber Orchestra 
(SPCO), which, with its more 34 full-time staff, 13 part-time staff, 
and 21 musicians, inaugurated Tapestry19, a festival celebrating life 
stories through music. Programming included premiere performances of 
new works such as a collaboration (Let the Crows Come) by Minneapolis-
based Bharatanatyam dancer and choreographer Ashwini Ramaswamy and 
composer, DJ, and author Jace Clayton; A Requiem for Zula by composer 
and interdisciplinary artist PaviElle French in a tribute to her 
mother, who grew up in St. Paul's historically African-American Rondo 
neighborhood; a new work by composer and clarinetist Kinan Azmeh which 
expanded on his previous work Do Not Repeat After Me, about the 
collective memories of growing up in Syria in the 1980s; and a new 
work, Say Home, by Beecher, inspired by the poetry of Chris Santiago, 
the son of Filipino immigrants. For his piece, Beecher conducted 
interviews with 47 community members and made 26 visits to 13 
elementary schools in Minneapolis and St. Paul where he integrated 
brief student audio responses into a brand-new work that was given its 
world premiere at each of the school visits.
    Thank you for this opportunity to illustrate the tremendous value 
of NEA support for the communities that orchestras serve in every 
corner of our country. We applaud the NEA's national leadership in 
promoting public engagement with high-quality artistry, and we urge you 
to increase our Nation's creative potential and access to the arts by 
approving $167.5 million for the National Endowment for the Arts in 
fiscal year 2020.

    [This statement was submitted by Jesse Rosen, President and CEO.]
                                 ______
                                 
          Prepared Statement of the Lower Elwha Klallam Tribe
    On behalf of the Lower Elwha Klallam Tribes, I submit this 
testimony for the record for the fiscal year 2020 budgets for the 
Bureau of Indian Affairs (BIA), Indian Health Service (IHS) and 
Environmental Protection Agency (EPA). I am Frances Charles, 
Chairwoman, an elected position that I have been honored to hold for 
the past 13 years. My testimony identifies our most urgent Tribal-
specific funding needs. We are also supporting the Regional and 
National budget requests which will benefit the Lower Elwha citizens 
and community.
         tribal-specific requests for lower elwha klallam tribe
Bureau of Indian Affairs $5.43 Million
    1.  $4.972 Million Dam Removal and Fisheries Restoration--Public 
Law 102-495, Elwha River Ecosystem and Fisheries Restoration Act
           a.  $702,000--Salmon Hatchery O&M
           b.  $270,000--Flood Control Levee O&M
           c.   $4 million--Land Acquisition
    2.  $267,000--Tribal Court Enhancement and Implementation of Tribal 
Law and Order Act (TLOA) and Violence Against Women Act (VAWA)
    3.  $191,000--Tiwahe Initiative--Tribe seeks to fully exercise its 
jurisdiction under existing law, in its own court system, over all 
cases arising under the Indian Child Welfare Act (ICWA) and to become a 
licensing agency for foster homes
Indian Health Service $500,000--Mental Health and Chemical Dependency 
        programs
Environmental Protection Agency $536,000--Environmental Programs
    1.  $125,000--General Assistance Grant (GAP)
    2.  $ 81,000--Clean Water Act Sec. 106 Grant
    3.  $180,000--Puget Sound Partnership (PSP) Implementation Grant
    4.  $150,000--PSP Tribal Capacity Grant
Contract Support Costs--Past, Present and Future
    We appreciate that the Appropriators fully support the BIA and IHS 
estimated CSC needs in a separate indefinite account that will ensure 
the continuance of fully funding this priority. Tribes agree that this 
structure achieves the Nation's legal obligation to fully pay CSC and 
the trust and treaty obligations to Tribes.
Indian Programs Advance Appropriation Act (IPAAA)
    The BIA, IHS and Bureau of Indian Education like most Federal 
agencies use appropriations in the year they are enacted. However, the 
recent lack of ``regular order'' in the appropriations process has 
resulted in a problematic cycle of continuing resolutions and 
shutdowns. Why should Tribes continue to be the greatest casualty when 
the legislative and administrative branches of the United States 
Government have policy differences? Tribes were crippled in 2019 far 
beyond the imagination and expectation of not only this subcommittee 
but the entire Congress--just like we were during the 16-day shutdown 
in 2013. The IPAAA is modeled on the Veterans Health Care Budget Reform 
and Transparency Act of 2009 and the Surface Transportation and 
Veterans Health Care Choice Improvement Act of 2015. It would move IHS 
and BIA programs, as well as `638' contract support costs, to an 
advance appropriations cycle beginning in fiscal year 2020.
                  lower elwha klallam tribe background
    The Lower Elwha Indian Reservation is located at the mouth of the 
Elwha River along the Strait of Juan de Fuca on the northern Olympic 
Peninsula, about 8 miles west of the City of Port Angeles, Washington. 
The Lower Elwha Tribe has roughly 820 members and a total land base-
Reservation and adjacent trust lands-of about 1,000 acres. We are a 
salmon people with fishing rights in a large expanse of marine and 
fresh waters, reserved in the 1855 Treaty of Point No Point. Only in 
recent years have we made strides in our economic development, and in 
the long term we believe our prospects will be tied to natural 
resources restoration and preservation in an ecologically rich region 
where an extraction-based economy is well past its prime.
              lower elwha tribal-specific funding requests
$5.43 Million--Bureau of Indian Affairs
    1.  $4.972 Million--Dam Removal and Fisheries Restoration--We were 
the leading advocate for the removal of the two hydro-electric dams on 
the Elwha River. In accordance with Congress's direction in the Elwha 
River Ecosystem and Fisheries Restoration Act of 1992 (Elwha Act), 
Public Law 102-495, we continue to work closely with the National Park 
Service and other agencies to remove the last remnants of the dams and 
restore the once famously abundant runs of native Elwha River salmon 
and steelhead. Unfortunately, removal of the dams caused a short-term 
threat to the salmon runs (due to sediment released from behind the 
former dams) and has adversely impacted our small Tribal land base and 
our Tribal budgets. We are strongly committed to the restoration of 
fisheries, fish habitat, streams and rivers, and the Port Angeles 
Harbor. We urgently need increased Self-Governance funds to support the 
operation of dam removal mitigation and restoration features and to 
revive our other Self-Governance activities from which we have been 
forced to transfer funds to support dam removal mitigation.
           a.  $702,000--Salmon Hatchery O&M Costs--Fish Hatchery 
        Operations Budget for the ongoing operation and maintenance 
        (O&M) of our state-of-the-art hatchery, which went online in 
        2011. This is a significant increase of $601,929 annually, but 
        one that is amply justified by the crucial role that our 
        hatchery serves in dam removal and fishery restoration. Our 
        hatchery is a genetic preserve for native Elwha salmonids, 
        which have been on the verge of extirpation from the impacts of 
        the dams and which have been further threatened by the enormous 
        sediment load unleashed by dam removal. The National Marine 
        Fisheries Service would not have approved dam removal under the 
        Endangered Species Act without the hatchery's native salmonid 
        programs. The Tribe should not have to bear the O&M cost of 
        this important restoration facility that in fact benefits the 
        entire region.
           b.  $270,000--Flood Control Levee O&M Costs--The levee on 
        our lands had to be expanded prior to dam removal in order to 
        protect Tribal lands from the newly unleashed Elwha River and 
        to conform to new Federal standards-clearly it is a mitigation 
        feature of the dam removal project. In the 1992 Elwha Act, 
        Congress intended that courts not be asked to address problems 
        where legislative solutions would be far more effective in 
        covering all the bases. Twenty-five years of inflation since 
        1992 more than justifies this increase in the current annual 
        operations allocation of $10,400.
           c.   $4 million for Land Acquisition--Section 7(b) of the 
        Elwha Act authorized $4 million so that the Secretary could 
        acquire trust lands for the Tribe in Reservation status in 
        Clallam County, Washington, for economic development and 
        housing. But those funds have never been appropriated. In 1934, 
        an Interior Department report concluded that the then-proposed 
        Reservation should be at least 4,000 acres, but in 1937 the 
        initial Reservation was fewer than 400 acres and even now we 
        have only 1,000 acres, several hundred of which (on the river's 
        side of the levee) have to be maintained in undeveloped status 
        as floodplain habitat. In addition, we need legislative 
        direction to ensure that former hydro-project lands (now held 
        by Interior for the interim) are transferred to the Tribe as 
        contemplated in Section 3(c)(3) of the Elwha Act. The Elwha 
        people have struggled for a century from the harm to their 
        culture and economies caused by the Elwha River dams. We had to 
        endure the destruction of not only the fisheries but the treaty 
        fishers themselves and the attendant loss of our traditional 
        and cultural livelihood; we have lost an opportunity-which will 
        only return after another generation-to teach our children the 
        ways of their ancestors and the Elwha life as designed by the 
        Creator.
    2.  $267,000--Funding for Tribal Court Enhancement and to Implement 
TLOA and VAWA. Consistent with the Interior Department's and Tribe's 
high priority on Tribal Court enhancement, Lower Elwha has made 
progress in adopting the enhanced sentencing provisions authorized by 
the 2010 Tribal Law and Order Act (TLOA) and in particular the expanded 
Domestic Violence Criminal Jurisdiction under the 2013 Violence Against 
Women Act (VAWA). We now have the first in-house Chief Judge in the 
Tribe's history but our efforts remain limited due to the lack of 
adequate base funding for Court development. Requested funding will 
provide for: (a) mandatory criminal defense counsel (including basic 
legal assistance for domestic violence victims); (b) legal counsel for 
parents in abuse/neglect cases; (c) detention services; (d) probation 
services that focus on solutions and restorative justice by sharing 
coordinated case management and re-entry referrals; and (e) basic court 
security. Full funding for TLOA-mandated provisions and increased base 
funding for our Tribal Court will enable Elwha to benefit from: BIA 
regional assessments using Trial Court Program Standards; specific 
technical assistance and training identified through these assessments; 
targeted training for specific Tribal court personnel (judges, 
prosecutors, public defenders, clerks); development of Tribal Court 
bench books; identification of funding sources for pilot programs; and 
captured data covering criminal pre-trial to post-conviction matters, 
including any collateral civil legal issues.
    3.  $191,000--Funding for ICW-related services from BIA's Tiwahe 
(Family) Initiative. Lower Elwha faces a community crisis with the 
increasing number of child abuse/neglect cases, which stem from 
inordinately high rates of drug/substance abuse by parents or 
caregivers. This crisis severely impacts services in all facets of 
Tribal government. A coordinated community response must be based on 
multi-disciplinary, culturally informed case planning and service 
delivery, coupled with a strong commitment to restorative justice 
ideals and (in criminal cases) solutions-based sentencing. A major 
obstacle to implementing this approach is our lack of infrastructure to 
assume jurisdiction over all local cases clearly arising under the 
Indian Child Welfare Act (ICWA); 65 percent of our current ICWA cases 
remain in the State court system (a deceptively low percentage due to 
reduced State court filings resulting from staff turnover). In 
addition, because we are dependent on an inadequate State system for 
licensing foster care providers, we are often unable to make proper 
placements to assist our families. For the past three fiscal years, the 
Tribe's base Federal funding (BIA Self-Governance ICWA) has remained 
flat-lined at a mere $45,000. We seek $191,000 additional annual 
funding from the BIA's Tiwahe (Family) Initiative, which would enable 
the Tribe to exercise jurisdiction in its own court system over all 
cases arising under the ICWA and to become a licensing agency for 
foster homes.
      indian health service elwha tribal-specific funding requests
$500,000 for Elwha Health Department Programs
    The drug abuse and mental health crisis threatens to destroy the 
potential and the cultural connections of many Tribal members and 
families. In fiscal year 2016, the Tribe's Mental Health and Chemical 
Dependency programs served 275 American Indian/Alaskan Native (AI/AN) 
patients, with the potential to reach approximately 1,500 within 
Clallam and Jefferson County. The Tribe currently subsidizes its 
chemical dependency program with third-party revenue and gaming revenue 
to fund prevention health initiatives and chemical dependency programs, 
yet these critical health epidemics remain severely underfunded. To 
remedy this, the Center for Medicare and Medicaid Services formula must 
be expanded to inpatient chemical dependency treatment programs at the 
current encounter rate of $391/per day, with annual increases.
 environmental protection agency elwha tribal-specific funding requests
$536,000 for Elwha Tribal Environmental Programs
            General Assistance Grant, $125,000
            Clean Water Act Sec. 106 Grant, $81,000
            Puget Sound Partnership (``PSP'') Implementation Grant, 
                    $180,000
            PSP Tribal Capacity Grant: $150,000
    Lower Elwha's environmental programs have, over the past two 
decades, developed a strong pragmatic capability to protect human and 
basic environmental health for not only the Tribal community but also 
the greater Port Angeles and northern Olympic Peninsula communities. By 
focusing on collaboration with local governments and other 
stakeholders, we have maximized the efficiency of our small but skilled 
staff. This would not be possible without the basic EPA funding that we 
seek to continue. This funding supports: basic staff salaries, 
including for our highly experienced program director (General 
Assistance Grant); water quality monitoring in significant local rivers 
and lakes (Clean Water Act Sec. 106 Grant); implementation of crucial 
in-the-field projects consistent with the PSP's Action Agenda (PSP 
Implementation Grant); Tribal participation and influence in local, 
State, and Federal environmental planning and review activities 
(General Assistance and PSP Tribal Capacity Grants). PSP Implementation 
funding has enabled the Tribe to complete numerous stream restoration 
projects that support the PSP Action Agenda. EPA funding is critical to 
our participation in the cleanup of toxic contamination of Port Angeles 
Harbor, which was nominated for Superfund listing but deferred to State 
cleanup authority; under this deferral arrangement, the Tribe has a 
unique and important role as the sole local representative working 
directly with the responsible State agency to ensure that the cleanup 
will protect the health of all residents of the greater Port Angeles 
area.
                 regional and national budget requests
    Elwha supports the Fiscal Year 2020 Regional Budget Priorities of 
the Northwest Indian Fisheries Commission, Affiliated Tribes of 
Northwest Indians, and the Northwest Portland Area Indian Health Board, 
and also the Fiscal Year 2020 National Budget Priorities of the 
National Congress of American Indians and National Indian Health Board.

    [This statement was submitted by Frances G. Charles, Chairwoman.]
                                 ______
                                 
 Prepared Statement of Members of the WaterNow Alliance in Support for 
                       the EPA WaterSense Program
Dear Chairwoman Murkowski and Ranking Member Udall:

    As members of WaterNow Alliance, we write to respectfully request 
your support to fund the Environmental Protection Administration's 
WaterSense Program at the fiscal year 2019 level of $3.1 million or 
higher. WaterSense shares resources and encourages the adoption of 
water efficient practices and products that use less water across the 
Nation. The proposed fiscal year 2020 budget calls for the elimination 
of this small but important program. We urge you to reject this 
proposal and fund the WaterSense Program at least at its current level. 
While miniscule in terms of the overall Federal budget, WaterSense has 
an outsize beneficial impact on local communities like ours.
    Since 2006, WaterSense partnerships have saved more than 3 trillion 
gallons of water. Additionally, WaterSense labeled products have saved 
over 400 billion kilowatt-hours of electricity and approximately $65 
billion in water and energy bills for Americans in every State.
    Using water efficiently makes sense for consumers, communities, and 
the environment as populations are faced with supply issues, aging 
infrastructure, extreme weather, and growth. It is critical to fund 
WaterSense Program at the very minimum at the fiscal year 2019 funding 
level of $3.1 million or higher in the fiscal year 2020 budget to 
support utilities and consumers in the efforts to conserve this vital 
resource. Public and private partners, municipalities, and utilities 
across the Nation rely on WaterSense labeled products for conservation 
and efficiency programs.
    For all of these reasons, we believe that the WaterSense Program is 
deserving of your support to fund at $3.1 million or higher. Thank you 
for your consideration.

WaterNow Alliance is a nationwide network of over 400 local water 
leaders supporting sustainable water solutions to build community 
resilience. WaterNow is a WaterSense Partner.

 
 
 
Alan Buchanan                         Alexander R. Coate                    Amy Deming
Councilmember                         General Manager                       Community Outreach Specialist
Camp Verde, AZ                        East Bay Municipal Utility District,  Madison Water Utility, WI
                                       CA
 
Amy Peterson                          Andrew Kricun                         Anna T. Hamilton
Water Conservation Specialist         Executive Director/Chief Engineer     County Commissioner
City of Surprise, AZ                  Camden County MUA, NJ                 Santa Fe County, NM
 
Bart A. Forsyth                       Bart Turner                           Bob Roth
Assistant General Manager             Councilmember                         Mayor Pro Tem
Jordan Valley Water Conservation      City of Glendale, AZ                  City of Aurora, CO
 District, UT
 
Brett Christensen                     Bridget Donnell Newton                Carmen Ramirez
Councilmember                         Mayor                                 Mayor Pro Tem
Payson City, UT                       City of Rockville, MD                 City of Oxnard, CA
 
Cindy Dyballa                         Cynthia Pratt                         Dan Devine
Councilmember                         Deputy Mayor                          Mayor
City of Takoma Park, MD               City of Lacey, WA                     City of West Allis, WI
 
Dan Ferons                            David Cantu                           Debra L. Kring
General Manager                       Alderperson, Place 2                  Councilmember
Santa Margarita Water District, CA    City of San Elizario, TX              City of Mission, KS
 
Dick Weatherly                        Emily Gorgol                          Francisco R. Flores
Councilmen, Place 5                   Councilmember                         Chief Operator Water Plants
City of Lago Vista, TX                Fort Collins, CO                      City of San Juan, TX
 
George Baroody                        Gill Sorg                             Guy Phillips
Councilmember, Place 2                Mayor Pro Tem                         Councilmember
City of Kerrville, TX                 City of Las Cruces, NM                Scottsdale, AZ
 
Harris Sondak                         Hattie Portis-Jones                   Heidi K. Williams
Mayor                                 Councilmember                         Mayor
Town of Alta, UT                      WaterNow Leadership Council           City of Thornton, CO
                                      Fairburn, GA
 
Henry Hash                            Jamie Whelan                          Jason Brown
Director of Public Works              Councilmember                         City Manager
City of Tukwila, WA                   City of Flagstaff, AZ                 Beaver City, UT
 
John Gates                            John H. Guldner                       John H. Weed
Mayor                                 Town Administrator                    Director
City of Greeley, CO                   Town of Alta, UT                      Alameda County Water District, CA
 
John Kmiec                            Kalen Jones                           Karen Guzman-Newton
Water Director                        Councilmember                         Councilmember
Marana Water, AZ                      Moab City, UT                         Moab City, UT
 
Kevin Shafer                          Kirsten Keith                         Lauren Kuby
Executive Director                    Director                              Vice Mayor
Milwaukee Metropolitan Sewage         Bay Area Water Supply and             City of Tempe, AZ
 District, WI                          Conservation Agency
                                      Menlo Park, CA
 
Mark Gallegos                         Marshall Brown                        Nancy Smith
Mayor                                 General Manager                       Councilmember
Village of Questa, NM                 Aurora Water, CO                      City of Sunnyvale, CA
 
Nickole Nesby                         Patrick J. Martin                     Paul Roberts
Mayor                                 Water Use Efficiency Manager          Councilmember
City of Duquesne, PA                  Miami Dade Water & Sewer Dept., FL    City of Everett, WA
 
Pete Laybourn                         R. Michael Kasperzak, Jr.             Richard Gonzales
Councilmember                         Former Mayor                          Water Utility Manager
City of Cheyenne, WY                  City of Mountain View, CA             City of Monterey Park, CA
 
Rick Maloy                            Robert J. Beste                       Rosemarie Russo
Water Conservation Manager            Public Works Director                 Sustainability Director
Central Utah Water Conservancy        City of Torrance, CA                  City of Moab, UT
 District, UT
 
Stacy Taylor                          Steven Elie                           TJ Cawley
External Affairs Manager              Director                              Mayor
Mesa Water District, CA               Inland Empire Utilities Agency, CA    Town of Morrisville, NC
 

  
                                 ______
                                 
   Prepared Statement of the Metropolitan Water District of Southern 
                               California
Chairwoman Murkowski, Ranking Member Udall, and Members of the 
subcommittee:

    The Metropolitan Water District of Southern California 
(Metropolitan) encourages the subcommittee's support for fiscal year 
2020 Federal funding of $2.0 million in financial assistance from the 
Bureau of Land Management's (BLM) Soil, Water and Air Program for the 
Colorado River Basin Salinity Control Program (Salinity Control 
Program) to prevent further degradation of Colorado River water quality 
and increased economic damages.
    The salt concentration in the Colorado River causes over $454 
million in damages to water users each year. While this figure is 
significant, had it not been for the efforts of the Salinity Control 
Program, damages would be much higher. Salinity Control Program actions 
have reduced salinity concentrations of Colorado River water over 90 
milligrams per liter (mg/L) from what they would have been without the 
actions. Modeling by Reclamation indicates that the economic damages 
will rise to approximately $574 million by the year 2035 without 
continuation of the program.
    Metropolitan is the regional water supplier for most of urban 
Southern California, providing supplemental water to retail agencies 
that serve approximately 19 million people. Water imported via the 
Colorado River Aqueduct has the highest level of salinity of all of 
Metropolitan's sources of supply, averaging around 630 mg/L since 1976. 
This salinity level causes economic damages to all sectors. For 
example, high salinity leads to:

  --A reduction in the useful life of water heaters, faucets, garbage 
        disposals, clothes washers, and dishwashers, and an increased 
        use of water softeners in the household sector;
  --An increase in the cost of cooling operations, additional need for 
        and cost of water softening, and a decrease in equipment 
        service life in the commercial sector;
  --An increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions;
  --A reduction in the ability to re-claim and reuse water due to high 
        salinities in the water delivered to water treatment and 
        reclamation facilities;
  --An increase in desalination and brine disposal costs due to 
        accumulation of salts in groundwater basins, and fewer 
        opportunities for recycling due to groundwater quality 
        deterioration;
  --Increased cost of desalination and brine disposal for recycled 
        water in the municipal sector; and,
  --A reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector.

    Concern over salinity levels in the Colorado River has existed for 
many years. To deal with the concern, the International Boundary and 
Water Commission signed Minute No. 242, Permanent and Definitive 
Solution to the International Problem of the Salinity of the Colorado 
River in 1973, and the President signed the Colorado River Basin 
Salinity Control Act of 1974 (Act) into law. To further foster 
interstate cooperation and coordinate the Colorado River Basin States' 
efforts on salinity control, the seven Basin States formed the Colorado 
River Basin Salinity Control Forum.
    The Forum is charged with reviewing the Colorado River's water 
quality standards for salinity every 3 years. In so doing, it adopts a 
Plan of Implementation consistent with these standards. The Plan of 
Implementation, as adopted by the States and approved by EPA in 2017, 
calls for 63,500 tons of additional salinity control measures to be 
implemented by Reclamation, the Natural Resources Conservation Service 
(NRCS) and the BLM by 2020.
    EPA has identified that more than 60 percent of the salt load of 
the Colorado River comes from natural sources. The majority of land 
within the Colorado River Basin is federally owned, much of which is 
administered by BLM. In implementing the Colorado River Basin Salinity 
Control Act in 1974, Congress recognized that most of the salts in the 
Colorado River originate from these federally owned lands. Title I of 
the Salinity Control Act deals with the U.S. commitment to the quality 
of waters being delivered to Mexico. Title II of the Act deals with 
improving the quality of the water delivered to users in the United 
States. This testimony deals specifically with Title II efforts.
    In 1984, Congress amended the Salinity Control Act and directed 
that the Secretary of the Interior develop a comprehensive program for 
minimizing salt contributions to the Colorado River from lands 
administered by BLM. In 2000, Congress reiterated its directive to the 
Secretary and requested a report on the implementation of BLM's program 
(Public Law 106-459). In 2003, BLM employed a Salinity Coordinator to 
increase BLM efforts in the Colorado River Basin and to pursue salinity 
control studies and to implement specific salinity control practices. 
BLM is now working on creating a comprehensive Colorado River Basin 
salinity control program as directed by Congress. In January 2018 BLM 
issued A Framework for Improving the Effectiveness of the Colorado 
River Basin Salinity Control Program, 2018-2023. This document lays out 
how BLM intends to implement Colorado River Basin salinity control 
activities over the next 5 years.
    Meaningful resources have been expended by BLM in the past few 
years to better understand salt mobilization on rangelands. With a 
significant portion of the salt load of the Colorado River coming from 
BLM administered lands, the BLM portion of the overall program is 
essential to the success of the effort. Inadequate BLM salinity control 
efforts will result in additional economic damages to water users 
downstream.
    Implementation of salinity control practices through BLM is a cost 
effective method of controlling the salinity of the Colorado River and 
is an essential component to the overall Colorado River Basin Salinity 
Control Program. Continuation of adequate funding levels for salinity 
within the Soil, Water and Air Program will assist in preventing the 
water quality of the Colorado River from further degradation and 
significant increases in economic damages to municipal, industrial and 
irrigation users. A modest investment in source control pays huge 
dividends in improved drinking water quality to nearly 40 million 
Americans
    Metropolitan urges the subcommittee to support funding for fiscal 
year 2020 of $2.0 million from the Bureau of Land Management's (BLM) 
Soil, Water and Air Program for the Colorado River Basin Salinity 
Control Program.

    [This statement was submitted by Jeffrey Kightlinger, General 
Manager.]
                                 ______
                                 
 Prepared Statement of the National Association of Abandoned Mine Land 
                                Programs
    My name is Autumn Coleman and I serve as Manager of the Abandoned 
Mine Lands Program within the Montana Department of Environmental 
Quality. I am providing this statement on behalf of the National 
Association of Abandoned Mine Land Programs (NAAMLP), which I currently 
serve as President. NAAMLP represents 32 States and Tribes, of which 28 
implement federally approved abandoned mine land reclamation (AML) 
programs authorized under Title IV of the Surface Mining Control and 
Reclamation Act (SMCRA). My address is P.O. Box 200901, Helena, 
Montana, 59620-0901. My email is <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="28494b47444d45494668455c064c4d5906">[email&#160;protected]</a>
    As you know, the 2006 amendments to Title IV of SMCRA significantly 
changed how State and Tribal AML grants are funded. These grants are 
still based on receipts from a fee on coal production, but beginning in 
fiscal year 2008, the grants are funded primarily by mandatory 
appropriations. As a result and based on current OSMRE projections, the 
States and Tribes should receive $188.4 million (before sequestration) 
in fiscal year 2020.
    OSMRE's budget includes a discretionary funding request that would 
provide $24.4 million. From this amount, OSMRE must meet the 
supplemental grant needs of States operating at ``minimum program'' 
status (``minimum program make-up funds''), as well as fund other 
activities and obligations including the agency's own AML work, 
administration of the AML Fund, and other activities in support of the 
AML program. While the amount provided should be sufficient to cover 
minimum program funding needs,\1\ it should be noted that a decrease 
might strain the agency's ability to meet its other programmatic 
obligations.
---------------------------------------------------------------------------
    \1\ In fiscal year 2018 for example, 12 minimum program States 
received minimum program make-up funds totaling approximately $18 
million. It should be noted that other AML programs may become minimum 
programs in the future requiring additional funds for this category.
---------------------------------------------------------------------------
    SMCRA has been successful largely as a result of the cooperative 
Federalism model that it employs. While the States and Tribes 
understand and appreciate OSMRE's role in the AML program under SMCRA, 
we caution against using limited OSMRE funding for unproductive ends, 
for example OSMRE oversight that second-guesses State/Tribal 
assessments or requires unnecessary levels of supplemental information 
that does not advance program purposes. Rather than having OSMRE simply 
engaging in more oversight, the States and Tribes would benefit from a 
more collaborative relationship with OSMRE in completing the hard work 
associated with these program requirements. Minimum program States are 
particularly reliant on this type of support. For example, we believe 
that funding for technical assistance and applied science projects 
related to AML work is particularly important. We also urge the 
Subcommittee to maintain necessary funding for OSMRE's training program 
and TIPS, including moneys for State/Tribal travel. These programs are 
central to the effective implementation of State and Tribal AML 
programs as they provide necessary training and continuing education 
for State/Tribal agency personnel, as well as critical technical 
assistance.
    We also strongly support maintaining funding for the Watershed 
Cooperative Agreements in the amount of $1.5 million. This funding 
serves an important role in facilitating State and local partnerships, 
thereby helping to leverage outside sources of funding and preserve 
precious reclamation grant funding.\2\
---------------------------------------------------------------------------
    \2\ Funding for these agreements will also potentially be a key 
support for Good Samaritan programs and projects should Congress adopt 
legislative language supporting Good Samaritan clean up activities.
---------------------------------------------------------------------------
    NAAMLP strongly recommends an increase in annual funding available 
to minimum program States. These States often have very significant AML 
inventories but funding under the current grant distribution formula is 
not enough to make efficient progress with their AML inventories.\3\ In 
the interest of enabling these AML programs to fulfill their potential, 
NAAMLP believes an increase in minimum program funding to an annual 
grant amount of at least $5 million would be very beneficial.
---------------------------------------------------------------------------
    \3\ At the current rate, some minimum program States have AML 
inventories that would literally take hundreds of years to reclaim 
completely.
---------------------------------------------------------------------------
    Further to the goal of efficiency in the use of limited AML grant 
funding, sequestration of AML grants under the Budget Control Act of 
2013 is an increasing concern to the State and Tribal AML programs. In 
fiscal year 2019, a sequestration reduction of 6.2 percent translated 
to $19.2 million withheld for a total of approximately $137.8 million 
withheld since 2013.\4\
---------------------------------------------------------------------------
    \4\ For minimum program States only receiving $3 million per year 
the loss is especially problematic.
---------------------------------------------------------------------------
    NAAMLP recommends that Congress consider the exemption of the AML 
fund from sequestration a priority as it pursues legislative 
initiatives related to AML, as the benefits are patent, and every 
dollar of AML funding is needed. Because the AML fee is paid by the 
coal mining industry for the exclusive purpose of AML remediation, 
withholding that funding does not actually reduce the Federal budget 
deficit--but it does mean less money returned to local economies. 
NAAMLP also recommends that the subcommittee explore mechanisms to 
release the growing balance of withheld AML moneys related to 
sequestration as part of the appropriations process.\5\
---------------------------------------------------------------------------
    \5\ According to OSMRE, the specific amounts that have been 
withheld from each State or Tribe are being tracked so that, once OSMRE 
has authority to distribute those funds, they could be repaid to the 
State and Tribal AML programs for which they were originally intended. 
According to OSMRE, there is no authority to distribute withheld funds 
unless provided by Congress.
---------------------------------------------------------------------------
    NAAMLP also recommends attention be given to the way AML 
emergencies are handled under Title IV. Responding to sudden 
emergencies such as sinkholes and landslides is one of the AML 
programs' most important functions. Starting in 2010, OSMRE instituted 
a policy whereby State and Tribal AML programs must fund AML 
emergencies from their regular AML grants. This change has proven 
problematic, especially in that it diverts grant funding away from 
progress with AML inventories.\6\ NAAMLP recommends a return to the 
pre-2010 system wherein AML programs received reimbursement from the 
OSMRE discretionary share for emergency projects. This will encourage 
efficient progress with reclamation as well as ensure that the State 
and Tribal AML programs are well equipped to fulfill their important 
public safety role.
---------------------------------------------------------------------------
    \6\ This is a particular problem for minimum program States, who 
can have entire years worth of progress with their limited annual grant 
be preempted by a single emergency project.
---------------------------------------------------------------------------
    The Committee's recognition of the important role played by the AML 
program is evidenced by the ongoing provision of AML Economic 
Development Grant funds. The projects underway due to this pilot 
program exhibit potential economic as well as safety and environmental 
benefit, though the types of projects undertaken and benefits they hope 
to achieve have varied significantly between the States. The pilot has 
also served to inform potential future economic development-focused 
reclamation efforts. NAAMLP therefore opposes the reduction of funding 
for the pilot program in OSMRE's fiscal year 2020 proposed budget, and 
notes that these grants are not redundant to regular AML grant funding; 
pilot funding has a distinctly economically-focused purpose, whereas 
regular AML grant funding is focused on human and environmental health.
    While the pilot program has been generally successful so far, and 
OSMRE's guidance documentation has been helpful, the States involved 
with the pilot program recommend that OSMRE's project vetting process 
could be more efficient. Several States are experiencing back-ups as 
they await project approvals from OSMRE for their pilot project 
proposals, which could cause significant delays if construction seasons 
are allowed to expire before projects can get underway. A degree of 
shift in the direction of efficiency may aid the overall success of the 
program at this juncture.
    Beyond the coal sector, NAAMLP represents many States with 
significant hardrock AML problems within their borders.\7\ In the 
absence of a hardrock AML funding source comparable to Title IV funding 
for coal AML, State and Tribal hardrock AML programs struggle to 
maintain adequate funding and make consistent progress. There is no 
comprehensive account of the scale of the hardrock AML problem, but it 
is often cited as being in the tens of billions of dollars. In light of 
the disparity between available funding and the scale of the problem, 
NAAMLP expressed concern with significant reduction to hardrock AML 
funding contained in BLM's previous years' (fiscal year 2019) proposed 
budget. We are encouraged by the change contained in the fiscal year 
2020 proposed budget in this respect, which would still combine the AML 
program with the hazardous materials program, but would maintain the 
total funding previously provided.
---------------------------------------------------------------------------
    \7\ For example, Arizona alone estimates that they have in excess 
of 50,000 hazardous historic-mining hazards. More information about 
remaining AML reclamation costs and reclamation accomplishments can be 
found in NAAMLP's 2018 Update of the ``Safeguarding, Reclaiming, 
Restoring'' booklet.
---------------------------------------------------------------------------
    BLM hardrock AML funding is one of very few resources available for 
hardrock AML reclamation and water treatment. The majority of hardrock 
AML problems occur on Federal lands, meaning that the BLM AML program 
is the primary means of addressing public safety and environmental 
impacts. What's more, BLM cooperates closely with the State and Tribal 
AML programs to conduct this work, meaning that the cut to BLM funding 
will have a cascading negative effect on the State level programs. 
NAAMLP recommends BLM's hardrock AML program funding be maintained 
going forward.
    Returning to discussion of coal AML--with the AML fee on which the 
Title IV program relies set to expire in 2021, NAAMLP has been in 
engaged in serious discussions regarding the program's future. It is 
clear that the continuing need for these programs is strong. The AML 
pilot highlights the fact that AML work is especially important to the 
struggling communities in Appalachia who have been hit hardest by 
downturns in coal related employment--the mitigation of which has been 
a congressional and administration priority in recent years. AML sites 
endanger public health and safety, degrade the environment, and dampen 
economic prospects, which severely constrains well-being and growth in 
AML-impacted communities nationwide. AML programs have been contending 
with these issues for almost 40 years and have learned much about the 
true depth and scale of AML impacts over that time, as well as the 
health and economic benefits these projects bring to nearby 
communities.
    Despite the progress that has been made, the time allotted to the 
AML programs to restore impacts from more than two hundred years of 
unregulated coal mining has simply not been adequate to complete that 
mission by the time the AML fee expires in 2021. Current OSMRE 
estimates project that over $10 billion in reclamation costs will 
remain, and NAAMLP believes the true costs are significantly higher. 
There can be little question that if the AML program is to complete its 
mission, and if its fundamental contributions to living conditions and 
economic circumstances in coalfield communities are to continue, 
additional AML funding will be required beyond 2021. If the AML fee is 
not reauthorized, consideration must be given to how the more than $10 
billion in public liability represented by remaining coal AML costs 
will be contended with.
    NAAMLP believes that discussion around reauthorization of the AML 
program will soon come to forefront. At that time, important questions 
will be asked about how much and what type of AML work is being 
accomplished and what types of AML problems remain. It should be noted 
that the AML accomplishments data furnished by OSMRE through its budget 
justifications document and the e-AMLIS database represent only a 
selective portion of the work that is being accomplished through AML 
grant funding. This is mainly due to the fact that e-AMLIS only records 
construction costs and does not include data on costs such as program 
administration, project management, and most importantly, project 
design. NAAMLP has been working with OSMRE to examine data related to 
the AML program and is in the late stages of developing information to 
more accurately tell the story of the AML program. As an example of 
what has so far been produced by that effort, the NAAMLP 2017 
Accomplishments report can be found in the footnote below.\8\ The State 
and Tribal AML programs have been in the lead role in conducting 
reclamation and tracking progress for the last 40 years. We hope to 
work closely with the Committee as it considers the future of the AML 
program.
---------------------------------------------------------------------------
    \8\ NAAMLP 2017 Accomplishments Report: http://www.naamlp.net/
memberinfo/NAAMLP
AccomplishmentReport2017.pdf.
---------------------------------------------------------------------------
    Thank you for the opportunity to submit this statement regarding 
OSMRE's proposed budget for fiscal year 2020. I would be happy to 
answer any questions you may have or provide additional information.

    [This statement was submitted by Autumn Coleman, Manager of the 
Abandoned Mine Lands Program of the Montana Department of Environmental 
Quality on Behalf of the National Association of Abandoned Mine Land 
Programs re. the fiscal year 2020 Proposed Budget for the Office of 
Surface Mining Reclamation and Enforcement (OSMRE) and Bureau of Land 
Management (BLM).]
                                 ______
                                 
  Prepared Statement of the National Association of Clean Air Agencies
    On behalf of the National Association of Clean Air Agencies 
(NACAA), thank you for this opportunity to provide testimony on the 
fiscal year 2020 budget for the United States Environmental Protection 
Agency (EPA), particularly grants to State and local air pollution 
control agencies under Sections 103 and 105 of the Clean Air Act (CAA), 
which are part of the State and Tribal Assistance Grant (STAG) program. 
NACAA has three recommendations with respect to fiscal year 2020 
appropriations. First, the association urges Congress to increase 
Federal grants to State and local air pollution control agencies by $82 
million above fiscal year 2019 levels (i.e., approximately $158 million 
above the administration's fiscal year 2020 request), for a total of 
$310 million. In light of the need for additional funding, NACAA 
opposes the administration's proposal to cut State and local air 
quality grants by 33 percent (from $228 million in fiscal year 2019 to 
$152 million in fiscal year 2020). Such cuts would be detrimental to 
the public's health and welfare. Second, NACAA recommends that State 
and local air quality agencies be provided the flexibility to use any 
additional grants to address the highest priority programs in their 
areas. Third, NACAA requests that Congress retain grants for monitoring 
fine particulate matter (PM<INF>2.5</INF>) under the authority of 
Section 103 of the Clean Air Act, rather than shifting it to Section 
105.
    NACAA is the national, non-partisan, non-profit association of air 
pollution control agencies in 41 States, including 114 local air 
agencies, the District of Columbia and four territories. These agencies 
have the ``primary responsibility'' under the Clean Air Act for 
implementing our Nation's clean air programs. As such, they carry out 
an array of critical activities intended to improve and maintain air 
quality and protect public health.
    NACAA first wishes to thank the subcommittee for the commitment to 
air quality that you have shown for many years. We recognize there are 
insufficient resources for you to support all the requests you receive 
from many competing and worthwhile programs. While over the years there 
have been some recommendations from the administration to cut funding 
for State and local air quality grants, you have steadfastly recognized 
the importance of these programs and have opted to not reduce our 
resources. We would like to take this opportunity to express our 
appreciation and to explain the importance of providing additional 
funding for these important programs going forward.
       there is a strong need for additional air quality funding
    A good national air quality program is an essential investment in 
America. The sad fact is more Americans die or get sick from air 
pollution than from almost any other environmental or domestic problem 
facing our Nation. Tens of thousands of people die prematurely each 
year in this country as a result of exposure to such air pollutants as 
particulate matter, ozone and hundreds of toxic compounds. 
Additionally, millions suffer serious health problems, such as cancer 
and cardiovascular, respiratory, neurological and reproductive damage. 
According to EPA's estimates, in 2016 over 120 million people lived in 
counties with air quality that did not meet the health-based standards 
for at least one of the six ``criteria pollutants.'' \1\ Additionally, 
millions of Americans are exposed to risks from hazardous air 
pollutants.\2\ State and local air pollution control agencies work 
tirelessly, and without sufficient resources, to address these threats 
to public health and welfare by implementing the Clean Air Act.
---------------------------------------------------------------------------
    \1\ https://www.epa.gov/sites/production/files/2018-08/documents/
fy-2018-2022-epa-strategic-plan-print.pdf (page 8)
    \2\ https://www.epa.gov/national-air-toxics-assessment/2014-nata-
assessment-results#nationwide
---------------------------------------------------------------------------
    The responsibilities facing these agencies have continued to grow 
while, unfortunately, Federal funding has lagged behind. Federal grants 
to State and local air quality agencies under Sections 103 and 105 of 
the CAA were $228 million in fiscal year 2019, which is the same amount 
these agencies received 15 years ago, in fiscal year 2004. If the 
fiscal year 2004 figure is adjusted for inflation, level funding would 
translate to approximately $310 million in today's dollars--an $82-
million difference. While the need for increases is far greater, 
NACAA's recommendation for Section 103 and 105 grants in fiscal year 
2020 is merely for level funding, adjusted for inflation--or $310 
million.
    State and local air quality agencies have made do with inadequate 
resources for many years. While the Clean Air Act envisioned the 
Federal Government supporting up to 60 percent of the cost of State and 
local air programs, the truth is it provides only 25 percent and in 
some cases much less, while State and local agencies provide the 
remaining 75 percent. While we understand Congress is not able to grant 
increases to fully meet the needs of our clean air programs, even the 
modest increases we are requesting will help.
    On a day-to-day basis, as part of our ``core'' programs, our 
agencies carry out a host of essential resource-intensive activities, 
including monitoring, compiling emission inventories, planning, 
conducting sophisticated modeling, permitting and inspecting sources 
and adopting and enforcing regulations. It takes a tremendous effort to 
keep up with our existing responsibilities, especially when one 
considers that since fiscal year 2004, we have received the same dollar 
amount we do now while the purchasing power of our grants has 
diminished by more than 30 percent.
    The ongoing and essential core programs we have identified are only 
a part of the picture. State and local air quality agencies are also 
called upon to address new and emerging issues. Our responsibilities 
continue to expand as new regulations, technologies, monitoring, 
controls and other elements of our programs become more sophisticated. 
Additionally, the public is demanding more information and assistance 
from State and local air quality agencies, including, for example, data 
related to wildfires and natural disasters that can be used to 
understand the level of risk and how they may protect themselves.
    Air quality monitoring is just one area where the public expects 
and demands new and evolving State and local efforts. The State of 
technology is advancing at a rapid pace, including the ability of 
individuals and organizations to obtain and use localized monitoring 
and sensor equipment. Our agencies will need resources to manage the 
air quality data that the public is generating and to develop the 
sensible programs that the public will demand to address any air 
quality issues that may come to light.
    Another activity for which additional Federal funding is critically 
needed is training of State and local air quality staff. We are facing 
an unprecedented rate of retirements and staff turnover, resulting in a 
loss of invaluable institutional knowledge. Having well-trained staff 
not only helps air agencies to operate more effectively, but it allows 
them to be more efficient and provide better customer service to the 
public and the regulated community. It is critically important that we 
have the resources to ensure that air agency staff are well trained and 
ready to take on the responsibilities they will face in an ever more 
complicated program.
    In addition to the aforementioned examples, how else would State 
and local air quality agencies spend increased Federal grants? The list 
is very long, but a few activities for which additional funding is 
necessary include the following:

  --reducing concentrations of fine particulate matter;
  --improving small business compliance assistance;
  --modernizing modeling and other estimation tools;
  --improving emission inventories of air pollutants;
  --increasing the frequency of inspections;
  --developing new strategies to meet our health-based air quality 
        standards;
  --improving risk assessment capabilities; and
  --helping the public better understand air pollution and how to 
        protect their health.

    All these activities are critical to our mission to reduce air 
pollution, maintain the many improvements we have already made and 
continue to protect public health and welfare, as we have been charged 
to do by the people of this country. Additionally, well-funded and 
well-functioning air agencies can help support the economy through 
timely, well-reasoned responses and actions.
              flexibility in the use of funds is important
    Each area of the country faces its own unique air quality 
challenges. A one-size-fits-all strategy would not result in the best 
use of additional funding. For example, while an area in the West may 
wish to use additional resources on activities related to air pollution 
from wildfires, an area in the East may find a better use of increased 
funding for ozone-related programs. It is important, therefore, that 
State and local agencies be provided with the flexibility to use the 
increased funds on the highest priority programs in their areas.
  nacaa recommends that authority for monitoring grants remain under 
                              section 103
    EPA has proposed in recent years to begin shifting funds for 
PM<INF>2.5</INF> monitoring from Section 103 authority, where no State 
or local matching funds are needed, to Section 105, which would require 
additional matching funds. We recommend that the funds remain under 
Section 103 authority. For individual agencies that have concerns about 
the matching requirements, this will ensure that they do not have to 
refuse essential monitoring funds because they do not have the 
resources to provide the required match. In past years, Congress has 
been very responsive to our requests on this issue, for which we are 
very grateful, and we recommend that Congress again call for these 
grants to be provided under Section 103 authority.
                               conclusion
    State and local clean air agencies work to protect the public every 
day. Investing in them pays major dividends in avoided healthcare 
costs. NACAA urges Congress to (1) increase Federal grants to State and 
local air agencies by $82 million above the fiscal year 2019 level of 
$228 million, for a total of $310 million (i.e., $158 million above the 
administration's fiscal year 2020 request); (2) provide flexibility to 
State and local air agencies to use any additional grants to address 
the highest priority programs in their areas; and (3) retain grants for 
monitoring fine particulate matter under the authority of Section 103.
    Thank you very much for this opportunity to provide testimony. If 
you have any questions or require additional information, please 
contact Miles Keogh, Executive Director of NACAA, at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fd909698929a95bdc99e91989c939c948fd3928f9a">[email&#160;protected]</a> or Mary Sullivan Douglas, Senior Staff Associate, 
at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="38555c574d5f54594b780c5b545d595659514a16574a5f16">[email&#160;protected]</a>
                                 ______
                                 
 Prepared Statement of the National Association of Clean Water Agencies
    The National Association of Clean Water Agencies (NACWA) represents 
a growing network of 325 public wastewater and stormwater agencies 
nationwide who collectively serve more than 125 million Americans. 
NACWA thanks the subcommittee for its work to provide strong funding 
for clean water programs, and in particular for the significant funding 
increases achieved the past two fiscal years for core water 
infrastructure programs. Looking to build on that strengthened Federal 
funding partnership, below are our fiscal year 2020 EPA Appropriations 
priorities.
Program: Clean Water State Revolving Fund
Funding Request: $3.4 B (2x fiscal year 2019 enacted)
    The Clean Water State Revolving Fund (CWSRF) is a critical tool 
which municipal clean water agencies leverage to help meet their 
Federal obligations under the Clean Water Act (CWA). In the United 
States, more than 90 percent of water infrastructure investment 
currently comes through local ratepayer and State investment. 
Importantly, the low-interest loans--and in limited cases, grants and 
loan forgiveness--that the CWSRF facilitates help clean water agencies 
finance infrastructure investments at favorable rates and better manage 
impacts to ratepayers.
    The CWSRF has demonstrated success in facilitating infrastructure 
investment in communities large and small. NACWA greatly appreciates 
the subcommittee's work to increase funding from $1.394B in fiscal year 
2017 to $1.694B in fiscal year 2018 and fiscal year 2019. We urge 
continued support and consideration for further increased funding to 
reflect the ongoing need for infrastructure investment.
    The CWSRF is even more crucial at a time when sewer and water rate 
increases are outpacing the rate of inflation. Preliminary analysis 
from NACWA's annual rate survey found that in 2018, the national 
average cost of wastewater services rose faster than the rate of 
inflation for the 17th year in a row, rising 3.8 percent. Key drivers 
of rising rates include Federal consent decrees requirements, 
associated capital construction and debt service, combined sewer 
overflow (CSO) and sanitary sewer overflow (SSO) control projects, 
sewer rehabilitation and replacement, and the increasing cost of 
addressing regulatory requirements related to water quality challenges 
like nutrient impairment.
    In many communities, the CWSRF has been instrumental to their 
success in complying with National Pollutant Discharge Elimination 
System (NPDES) permits, implementing secondary (biological) treatment 
of wastewater, reducing the frequency and size of sewer overflows 
during wet weather events and upgrading infrastructure. The CWSRF is 
also essential for many communities working to implement new regulatory 
requirements ranging from updated water quality standards for toxics to 
tightening nutrient limitations. The CWSRF is increasingly used to 
implement innovative stormwater and nutrient management projects and 
green infrastructure.
Program: Sewer Overflow and Stormwater Reuse Municipal Grants
Funding Request: $225 M
    The 115th Congress authorized $225 million in the America's Water 
Infrastructure Act (Public Law115-270) in fiscal year 2020 for grants 
to States and municipal entities for treatment works to intercept, 
transport, control, treat, or reuse municipal combined CSO, SSO, and/or 
stormwater. This new program was proposed for funding ($61.45M) in the 
President's fiscal year 2020 budget proposal.
    Controlling sewer overflows and ensuring proper stormwater 
management are essential to protecting public health and the 
environment. Compliance is very costly, however, placing financial 
strain on many communities and their ratepayers. It can be especially 
challenging for older communities dealing with aging infrastructure 
alongside population and economic shifts. For these reasons, NACWA was 
thrilled to see these grants authorized by Congress and believes it is 
critical that this authorization is fully funded. These Federal 
investment grants will help communities and their ratepayers more 
affordably meet their compliance obligations and mitigate against the 
negative impacts of CSO and SSO discharges into local waterbodies. The 
inclusion of stormwater management will help in developed areas with 
impervious surfaces where stormwater systems can be overwhelmed and may 
create flooding, infrastructure and environmental concerns, or where 
stormwater presents water reuse opportunities.
Program: Integrated Planning (EPA Environmental Programs & Management)
Funding Request: Provide $2 M for implementation of Integrated Planning 
        legislation and the Office of Municipal Ombudsman
    Last Congress, the bipartisan Water Infrastructure Improvement Act 
(Public Law No: 115-436) was passed into law, codifying EPA's 
Integrated Planning (IP) Framework to provide local communities with 
critical flexibilities in meeting their CWA obligations and ensuring 
residents continue receiving safe, reliable, and affordable clean water 
services. The bill also included a provision which establishes a 
Municipal Ombudsman's office within EPA to provide municipalities with 
a dedicated point of contact within the Agency who can represent their 
interests to help them comply with their CWA and other environmental 
obligations, as well as ensure Agency policies are being implemented 
appropriately and consistently at the local level.
    These are essential developments to help public clean water 
utilities and the communities they serve. The integrated planning 
approach helps communities prioritize their specific clean water 
obligations and better manage costs over time. EPA will need to work 
collaboratively with the States and municipalities to build awareness 
of this voluntary approach and provide appropriate guidance/
facilitation to help States and clean water utilities make full use of 
integrated planning in line with Congress's intent. The establishment 
of a Municipal Ombudsman office is important at a time when regulatory 
compliance is becoming more onerous and complicated for communities to 
navigate. The ombudsman will provide a crucial role as it acts as a 
liaison between EPA and the municipal regulated community to help 
address these regulatory concerns.
    Directing Federal resources toward implementation will help ensure 
EPA has the resources to fully implement the law and assist the States 
and interested municipalities. NACWA urges $2 million in fiscal year 
2020 for EPA to fund implementation of the Water Infrastructure 
Improvement Act.
Program: Innovative Water Infrastructure Workforce Development Program
Funding Request: $1 M
    Over the next decade, the clean water sector is expected to incur a 
large wave of retirements among utility workers. Some municipalities 
could be facing a situation where up to 50 percent of their staff are 
eligible for retirement at the same time. This presents a challenge--
most of these jobs require education and training--but also an 
opportunity since these positions provide a good career with 
competitive wages.
    America's Water Infrastructure Act responded to this issue by 
establishing a new competitive grant program at EPA for water workforce 
development activities. Under the legislation, the program is 
authorized to develop and utilize innovative activities relating to 
water utility workforce development, expand public awareness about 
water utilities and connect individuals to careers. This new program 
was proposed for $300,000 in the President's fiscal year 2020 budget 
proposal.
Program: Stormwater Infrastructure Funding Task Force
Funding Request: $1 M
    America's Water Infrastructure Act directed EPA to establish a task 
force to study and develop recommendations on stormwater infrastructure 
funding. The task force is to be comprised of Federal, State, local, 
and non-governmental entities and would evaluate public and private 
funding sources for constructing, rehabilitating, operating and 
maintaining stormwater infrastructure. NACWA requests $1 million in 
fiscal year 2020 to get the task force up and running.
Program: Water Infrastructure Finance and Innovation Act (WIFIA) 
        Program
Funding Request: $68 Million
    The WIFIA program is a compliment to the SRFs, providing an 
additional financing tool to address water infrastructure investment by 
leveraging limited Federal resources. First authorized in 2014, it was 
designed primarily to fund large water infrastructure projects over $20 
million. NACWA has been engaged and pleased with the Agency's efforts 
to establish the program and provide financing assistance. NACWA is 
strongly supportive of the increased funding WIFIA received in fiscal 
year 2019, at a level of $68 million, and encourages that amount for 
fiscal year 2020.
Program: Geographic Programs
Funding Request: Full funding across EPA's Geographic Programs
    EPA's Geographic Programs, such as the Great Lakes Restoration 
Initiative, Chesapeake Bay Program, and Long Island Sound among others, 
support critical watershed-based investments. The goals and impacts of 
these programs cross multiple States, impact waters of national 
significance, and leverage significant State, local, and private 
dollars. In many cases, the geographic programs have helped forge 
partnerships between clean water agencies, upstream landowners, 
conservation groups, and other stakeholders to strategically advance 
water quality, reduce historic contamination, restore habitat, and 
advance the CWA goals of fishable and swimmable waters. NACWA is 
encouraged by the strong bipartisan congressional support these 
programs enjoy and urges Appropriators to maintain full funding for 
these programs in fiscal year 2020.
Program: Categorical Grants: Nonpoint Source Sec. 319
Funding Request: $170.1 M (Maintain fiscal year 2019 enacted level)
    The CWA has been remarkably successful in reducing point source 
discharges. In many watersheds, nonpoint sources remain the largest 
outstanding driver of water quality impairments. Thus, continued 
progress on improving water quality under the CWA relies in large part 
on the ability to improve nonpoint source management. Nonpoint sources 
also contribute to acute public health risks such as harmful algal 
blooms and threats to drinking water.
    Nonpoint source grants are provided to State, Tribes, and 
territories to aid implementation of EPA approved Nonpoint Source 
Management Programs under Sec. 319 of the CWA. Activities provided 
under these programs include technical and financial assistance to 
municipalities, outreach, and technology transfer and training. These 
programs also help monitor and assess the impacts of nonpoint 
management projects, an area where continued research and documentation 
is in demand by public entities and the private sector.
Program: Categorical Grants: Pollution Control Sec. 106
Funding Request: $230.1 M (Maintain fiscal year 2019 enacted level)
    Under Sec. 106 of the CWA, EPA provides Federal assistance for 
States and Tribes in implementing their water pollution control 
programs in accordance with CWA. Strong State programs are essential to 
the cooperative Federalism approach of the Act. The clean water 
agencies represented by NACWA continually engage with their State 
programs offices on all aspects of CWA permitting, compliance and 
enforcement. Reductions in funding may impact the functioning of State 
programs to the detriment of the regulated community.
Program: National Priorities Water Research Program
Funding Request: $20 M
    Since 2012, Congress supported the National Priorities Water 
Research grant program by providing approximately $4 million in EPA's 
Science and Technology Account. This funding has advanced the science 
of priority research topics through applied, extramural research. This 
successful program provides direct benefit to water sector utilities 
through increased knowledge, tools, and transformative approaches that 
can improve public health outcomes and lower costs. However, more 
funding is needed to meet growing challenges. NACWA urges increased 
funding for the National Priorities Water Research grant program to $20 
million for fiscal year 2020.
Program: Innovative Financing for State Loan Funds
Funding Request: $5 M
    America's Water Infrastructure Act included a pilot program 
provision allowing state financing authorities that administer the SRFs 
to apply for WIFIA loans directly through EPA, applying with a single 
application in which the State would bundle multiple projects on the 
State's approved intended use plan. Under this provision, such WIFIA 
loans to States would allow for 100 percent WIFIA financing (as 
compared to the existing program, in which WIFIA financing can total no 
more than 49 percent of total project cost), require only one credit 
rating letter (rather than two), and provide expedited application 
review for States. NACWA requests that the $5 million authorized under 
the legislation be appropriated in fiscal year 2020.
    Thank you for your consideration. Please do not hesitate to contact 
NACWA to discuss.
                                 ______
                                 
    Prepared Statement of the National Association of Conservation 
                               Districts

March 8, 2019

 
 
 
The Honorable Lisa Murkowski                The Honorable Tom Udall
Chairman                                    Ranking Member
Subcommittee on Interior, Environment, and  Subcommittee on Interior,
 Related Agencies                            Environment, and Related
Committee on Appropriations                  Agencies
United States Senate                        Committee on Appropriations
Washington, DC, 20510                       United States Senate
                                            Washington, DC, 20510
 


Dear Chairman and Ranking Member:

    I am Tim Palmer, President of the National Association of 
Conservation Districts (NACD) which represents America's 3,000 
conservation districts and the 17,000 men and women who serve on their 
governing boards. Conservation districts are local units of government 
established under State law to carry out natural resource management 
programs at the local level. Districts work with millions of 
cooperating landowners and operators to help them manage and protect 
land and water resources on all private lands and many public lands in 
the United States. The following requests are for the EPA, the U.S. 
Forest Service and the Bureau of Land Management.
    The 319 Nonpoint Source Grants are critically important to stream 
bank stabilization, stormwater management, low-impact development, and 
other projects led by conservation districts to address water quality 
at the local level. Working lands are under increased pressure to 
produce food, feed, fuel, and fiber for the world's growing population. 
Because of this reality, it is more important than ever that we 
dedicate the resources necessary to ensure local communities continue 
to have access to and realize the benefits of clean water. For fiscal 
year 2020, NACD respectfully requests an appropriation of $171 million 
for Environmental Protection Agency's 319 Nonpoint Source Grants.
    State and Private Forestry is one of the few U.S. Forest Service 
(USFS) programs that provide technical and financial assistance to 
private landowners. For this reason, State and Private Forestry 
programs should be staffed and funded at levels that allow for strong 
public-private partnerships and ensure greater forest management and 
economic opportunity on private, non-industrial forest lands. NACD 
requests $339 million in the fiscal year 2020 Interior appropriations 
bill for the U.S. Forest Service's State and Private Forestry programs, 
which includes a small increase to the incredibly important Forest 
Stewardship program to $23 million.
    The Wild Free-Roaming Horses and Burros Act of 1971 as amended 
directs U.S. Federal agencies to manage wild herds to ``maintain a 
thriving natural ecological balance and multiple-use relationship'' on 
herd management areas (HMAs). Bureau of Land Management (BLM) 
scientists have established appropriate management levels (AML) to 
achieve that balance. Unfortunately, current management efforts 
including limited gathers, fertility control via PZP, adoptions and 
sales have failed to control the ever-increasing horse and burro 
population, which continues to strain the natural resource capabilities 
of these lands beyond their carrying capacity, resulting in rangelands 
that in certain areas are already unrecoverable. As a programmatic 
request, NACD supports the removal of the Interior Appropriations 
language that prevents BLM from using all the tools to bring the horse 
and burro population to AML provided under the Act and opposes similar 
language being applied to the U.S. Forest Service.
    The Federal Government currently owns an estimated 640 million 
acres, equivalent to the combined size of Alaska, Texas and California. 
NACD believes that the Land and Water Conservation Fund (LWCF) should 
no longer be used for additional land acquisition, but rather provide 
maintenance to our roads, bridges, buildings and other infrastructure. 
According to the Department of the Interior, there is $16 billion in 
deferred maintenance needs among its agencies with the National Park 
Service making up the largest share of that total. As a programmatic 
request, NACD supports a prohibition of funds from LWCF for new land 
acquisition and recommends LWCF be used to pay for the deferred 
maintenance.
    Thank you for your consideration of these requests. We look forward 
to working with you as we continue to serve the nation through locally-
led natural resource conservation.

Sincerely,
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Tim Palmer
NACD President
                                 ______
                                 
    Prepared Statement of the National Association of State Energy 
                               Officials
    Chair Murkowski, Ranking Member Udall, and Members of the 
subcommittee, I am David Terry, Executive Director of the National 
Association of State Energy Officials (NASEO), which represents the 56 
State and Territory Energy Directors and their Offices. NASEO is 
submitting this testimony in support of funding for the ENERGY STAR 
program (within the Climate Protection Partnership Division of the 
Office of Air and Radiation) at the U.S. Environmental Protection 
Agency (EPA). NASEO supports funding of at least $50 million in fiscal 
year 2020, including specific report language directing that the funds 
be utilized only for the ENERGY STAR program. The ENERGY STAR program 
is successful, voluntary, and cost-effective. The program has a proven 
track record--it makes sense, it saves energy and money and Americans 
embrace it. ENERGY STAR helps consumers and businesses control 
expenditures over the long term. The program is strongly supported by 
product manufacturers, utilities and homebuilders, and ENERGY STAR 
leverages the States' voluntary efficiency actions. Voluntary ENERGY 
STAR activities are occurring in public buildings, such as schools, in 
conjunction with State Energy Offices, in Alabama, Alaska, Arkansas, 
California, Colorado, Delaware, District of Columbia, Florida, Georgia, 
Hawaii, Idaho, Illinois, Kentucky, Maine, Maryland, Michigan, 
Minnesota, Mississippi, Nebraska, Nevada, New Hampshire, New Jersey, 
New Mexico, New York, North Carolina, North Dakota, Ohio, Oklahoma, 
Pennsylvania, South Carolina, Tennessee, Texas, Utah, Virginia 
Washington, West Virginia, Wisconsin, and Wyoming. The proposed 
elimination of this program is a grave mistake. We also strongly oppose 
the creation of a ``fee-based'' funding model, which could erode the 
program's integrity. The States and the public utilize ENERGY STAR 
because it is seen as unbiased and delivers cost-savings benefits to 
businesses, consumers and State and local governments.
    The ENERGY STAR program is focused on voluntary efforts that reduce 
the use of energy, promotes energy efficiency and renewable energy, and 
works with States, local governments, communities and business to 
achieve these goals in a cooperative, public-private manner. NASEO has 
worked very closely with EPA and approximately 40 States are ENERGY 
STAR Partners. With very limited funding, EPA's ENERGY STAR program 
works closely with the State Energy Offices to give consumers and 
businesses the opportunity and technical assistance tools to make 
better energy decisions and catalyzes product efficiency improvements 
by manufacturers without regulation or mandates. The program is 
voluntary.
    ENERGY STAR focuses on energy efficient products as well as 
buildings (e.g., residential, commercial, and industrial). Over 300 
million ENERGY STAR qualified products were sold in 2016 alone. The 
ENERGY STAR label is recognized across the United States. 
Approximately, 90 percent of households recognized the ENERGY STAR 
label when it was shown to them. It makes the work of the State Energy 
Offices much easier, by working with the public on easily recognized 
products, services, and targets. In order to obtain the ENERGY STAR 
label a product has to meet established guidelines. ENERGY STAR's 
voluntary partnership programs include ENERGY STAR Buildings, ENERGY 
STAR Homes, ENERGY STAR Small Business, and ENERGY STAR Labeled 
Products. The program operates by encouraging consumers and working 
closely with State and local governments to purchase these products and 
services. Marketplace barriers are also eradicated through education. 
State Energy Offices are working with EPA to promote ENERGY STAR 
products, ENERGY STAR for new construction, ENERGY STAR for public 
housing, etc. A successful example of how State Energy Offices are 
leveraging this key national program is the Nebraska Energy Office, 
which since 2005, has utilized ENERGY STAR as the standard for 
certifying home and office electronics that are eligible under the 
State's successful and long-running Dollar and Energy Savings Loan 
program. Another ENERGY STAR success is in the manufactured housing 
sector. States, such as South Carolina, offer modest rebates for 
ENERGSTAR manufactured homes in order to deliver both energy cost 
savings to homeowners and lower overall electric grid operation costs 
for all customers.
    In 2016, millions of consumers and 16,000 voluntary partners, that 
included manufactures, builders, businesses, communities and utilities, 
tapped the value of ENERGY STAR and achieved impressive financial and 
environmental results.
    An estimated 91,000 energy efficiency home improvement projects 
were undertaken through the whole house retrofit program, Home 
Performance with ENERGY STAR (HPwES), in 2016. More than 700 utilities, 
State, and local governments and non-profits utilize ENERGY STAR, as do 
1,800 manufacturers.
    The State Energy Offices are very encouraged with progress made at 
EPA and in our States to promote programs to make schools more energy 
efficient, in addition to an expanding ENERGY STAR Business Partners 
program. In Kentucky, the State has partnered with school districts and 
engineering firms to advance ENERGY STAR rated schools, resulting in 
more than 325 ENERGY STAR rated schools in the State, a 67 percent 
increase since 2012. Over the past few years, Kentucky has moved 
aggressively to promote and build zero-net energy schools. Other States 
that have over 150 ENERGY STAR rated schools include Arizona, 
California, Colorado, Florida, Georgia, Indiana, Michigan, Minnesota, 
New Mexico, New York, North Carolina, Ohio, Pennsylvania, Texas, Utah, 
Virginia, Washington and Wisconsin. Over 27 percent of Utah's K-12 
schools are certified as ENERGY STAR.
    EPA provides technical assistance to the State Energy Offices in 
such areas as ENERGY STAR Portfolio Manager (how to rate the 
performance of buildings), setting an energy target, and financing 
options for building improvements and building upgrade strategies. 
ENERGY STAR Portfolio Manager is used extensively by State Energy 
Offices to benchmark performance of State and municipal buildings, 
saving taxpayer dollars. Portfolio Manager is the industry-leading 
benchmarking tool which has been used voluntarily in approximately 50 
percent of the commercial buildings in the U.S. Portfolio Manager is 
used to measure, track, assess, and report energy and water 
consumption.
    Additionally, the industrial sector embraces ENERGY STAR and 
companies such as GM, Eastman Chemical, Nissan, Raytheon, Boeing and 
Toyota are recognized for sustained energy excellence by the program. 
At the close of 2014, the number of industrial sites committed to the 
ENERGY STAR Challenge for Industry grew, while 306 sites met or 
exceeded their targets by achieving an average 20 percent reduction in 
industrial energy intensity.
    The State Energy Offices are working cooperatively with our peers 
in the State environmental agencies and State public utilities 
commissions to ensure that programs, regulations, projects and policies 
are developed recognizing both energy and environmental concerns. We 
have worked closely with this program at EPA to address these issues. 
We encourage these continued efforts.
                               conclusion
    The ENERGY STAR program saves consumers billions of dollars every 
year. The payback is enormous. NASEO supports robust program funding of 
at least $50 million in fiscal year 2020. Funding for the ENERGY STAR 
program is justified. It is a solid public-private relationship that 
leverages resources, time and talent to produce tangible results by 
saving energy and money. NASEO endorses these activities and the State 
Energy Offices are working very closely with EPA to cooperatively 
implement a variety of critical national programs without mandates.
    Contact: David Terry, NASEO Executive Director (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cda9b9a8bfbfb48da3acbea8a2e3a2bfaa">[email&#160;protected]</a>), 
1300 North 17th Street, Suite 1275, Arlington, VA 22209, and Jeff 
Genzer, NASEO Counsel (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="eb81888cab8f9c8c9bc5888486">[email&#160;protected]</a>).

    [This statement was submitted by David Terry, Executive Director.]
                                 ______
                                 
   Prepared Statement of the National Association of State Foresters
    The National Association of State Foresters (NASF) appreciates the 
opportunity to submit written public testimony to the House Committee 
on Appropriations, Subcommittee on Interior, Environment, and Related 
Agencies regarding our fiscal year 2020 appropriations recommendations. 
Our priorities focus primarily on appropriations for the USDA Forest 
Service (Forest Service) State and Private Forestry (S&PF) programs.
    State foresters deliver technical and financial assistance, along 
with forest health, water, and wildfire protection for more than two-
thirds of the Nation's 751 million acres of forests. The Forest Service 
S&PF mission area provides vital support to deliver these services, 
which contribute to the socioeconomic and environmental health of rural 
and urban areas. The comprehensive process for delivering these 
services is articulated in each State's Forest Resource Assessment and 
Strategy (Forest Action Plan), authorized in the 2008 Farm Bill and 
continued in the 2018 Farm Bill. S&PF programs provide a significant 
return on the Federal investment by leveraging the boots-on-the-ground 
and financial resources of State agencies to deliver assistance to 
forest landowners, Tribes, and communities. As Federal and State 
governments continue to face financial challenges, State foresters, in 
partnership with the S&PF mission area of the Forest Service, are best 
positioned to maximize effectiveness of available resources by focusing 
work on priority forest issues where resources are needed most.
    Your support of the following programs is critical to helping 
States address the many and varied challenges outlined in Forest Action 
Plans.
                     wildland fire and forest fuels
    NASF applauds Congress' hard work and dedication to achieve a 
bipartisan wildfire suppression funding solution to permanently end the 
raiding of the Forest Service's non-wildfire suppression programs, 
including the Agency's S&PF programs. We appreciate your continued 
support, as demonstrated in the fiscal year 2019 Appropriations bill, 
in this critical area through additional funding for the Agency's fire 
suppression and prevention accounts, as well as increased funding for 
hazardous fuels mitigation on both Federal lands and cross boundary 
areas. Fire knows no boundaries and State forestry agencies play a 
significant role in helping to reduce threats from fire as well as 
costs. The increased funding for both State Fire Assistance (SFA) and 
Volunteer Fire Assistance (VFA) in fiscal year 2019 is a wise 
investment and we encourage further financial support for these 
programs.
        state fire assistance and volunteer fire assistance \1\
---------------------------------------------------------------------------
    \1\ The President's Budget renamed these programs National Fire 
Capacity and Rural Fire Capacity respectively.
---------------------------------------------------------------------------
    More people living in fire-prone landscapes, high fuel loads, 
drought, and deteriorating forest health are among the factors that led 
most State foresters to identify wildland fire as a priority issue in 
their Forest Action Plans. We now grapple with increasingly expensive 
and complex wildland fires--fires that frequently threaten human life 
and property. In 2018, more than 58,083 wildland fires burned nearly 
8.8 million acres.\2\ State and local agencies respond to the majority 
of wildfires across the country; in 2018 State and local agencies were 
responsible for responding to 45,559 (78 percent) of the 58,083 
reported wildfires across all jurisdictions.\3\
---------------------------------------------------------------------------
    \2\ National Interagency Fire Center, Historical Wildland Fire 
Summaries, pg. 7. Last accessed March 4, 2019 at https://
www.predictiveservices.nifc.gov/intelligence/2018_statssumm/intro_
summary18.pdf.
    \3\ Id.
---------------------------------------------------------------------------
    SFA and VFA are the fundamental Federal mechanism for assisting 
States and local fire departments in responding to wildland fires and 
in conducting management activities that mitigate fire risk on non-
Federal lands. SFA also helps train and equip local first responders 
who are often first to arrive at a wildland fire incident and who play 
a crucial role in keeping fires and their costs as minimal as possible.
    The fiscal year 2019 Forest Service Budget Justification highlights 
program success in Alaska during fiscal year 2017 when the State used 
$1.6 million in SFA funds to increase capacity by paying for additional 
positions, including air attack operators for initial and extended 
operations, command staff for the statewide control centers, and 
technical experts for interagency fire plans. Funding supported the 
training of over 1,700 personnel, and was also used to defray the costs 
of senior level firefighters in the State of Alaska. These same 
personnel are also dispatched to assist in firefighting efforts across 
the Nation. By directing resources to actions that help reduce the 
number of large wildland fires-including prevention education, 
preparedness activities, and fuels mitigation-the SFA program directly 
addresses concerns over rising wildland fire suppression costs while 
also reducing wildland fire risk to communities.
    In 2015, 85 percent of all local and State crews and engine 
dispatched outside of their geographic area were responding to Federal 
fires, primarily on initial attack. In 2016, 82 percent of the total 
number of fires were where State and local departments had primary 
jurisdiction. Attacking fires when they are small is the key to 
reducing fatalities, injuries, loss of homes, and cutting Federal fire-
fighting costs. The need for increased funding for fire suppression on 
Federal lands has broad support. The need to increase fire suppression 
funding for State and private lands, where roughly 80 percent of 
wildfires occur, and where many Federal fires begin, is just as urgent. 
NASF supports funding the State Fire Assistance program at $87 million 
and Volunteer Fire Assistance at $18 million in fiscal year 2020.
                    forest pests and invasive plants
    Also among the greatest threats identified in the Forest Action 
Plans are native and non-native pests and diseases. These pests and 
diseases have the potential to displace native trees, shrubs and other 
vegetation types in forests; the Forest Service estimates that hundreds 
of native and non-native insects and diseases damage the Nation's 
forests each year. The growing number of damaging pests and diseases 
are often introduced and spread by way of wooden shipping materials, 
movement of firewood, and through various types of recreation. In 2015, 
more than 6 million forested acres suffered mortality from insects and 
diseases, 1.3 times greater than the previous year,\4\ and there is an 
estimated 81 million acres at risk of attack by insects and disease 
over the next 8 years.\5\ These losses threaten clean and abundant 
water availability, wildlife habitat, clean air, and other 
environmental services. Further, extensive areas of high insect or 
disease mortality can set the stage for large-scale, catastrophic 
wildfire.
---------------------------------------------------------------------------
    \4\ Man, Gary. 2015. Major Forest Insect and Disease Conditions in 
the United States: 2015 Update. Last accessed on March, 5, 2019 at: 
http://www.fs.fed.us/foresthealth/publications/
ConditionsReport_2015.pdf.
    \5\ Tkacz, Bory, et al. 2014. NIDRM 2012 Report Files: Executive 
Summary. 2013-2027 National Insect and Disease Forest Risk Assessment. 
Last accessed on March, 5, 2019 at: http://www.fs.fed.us/foresthealth/
technology/pdfs/2012_RiskMap_Exec_summary.pdf.
---------------------------------------------------------------------------
    The Cooperative Forest Health Management program supports 
activities related to prevention, monitoring, suppression, and 
eradication of insects, diseases, and plants through provision of 
technical and financial assistance to States and territories to 
maintain healthy, productive forest ecosystems on non-Federal forest 
lands. The Cooperative Forest Health Management program plays a 
critical part in protecting communities already facing outbreaks and in 
preventing exposure of more forests and trees to the devastating and 
costly effects of damaging pests and pathogens. NASF supports funding 
the Forest Health-Cooperative Lands Program at $51 million in fiscal 
year 2020.
assisting landowners and maintaining working forest landscapes--forest 
           stewardship program \6\ and forest legacy program
---------------------------------------------------------------------------
    \6\ The President's Budget renamed this program Working Forest 
Lands.
---------------------------------------------------------------------------
    Working forest landscapes are a vital part of the rural landscape, 
providing an estimated 900,000 jobs, clean water, wood products, and 
other essential services to millions of Americans. Private forests make 
up two-thirds of all the forestland in the United States and support an 
average of eight jobs per 1,000 acres.\7\ However, the Forest Service 
estimates that 57 million acres of private forests in the U.S. are at 
risk of conversion to urban development over the next two decades. 
Programs like the Forest Stewardship Program (FSP) and the Forest 
Legacy Program are key tools identified in the Forest Action Plans for 
keeping working forests intact and for providing a full suite of 
benefits to society.
---------------------------------------------------------------------------
    \7\ Forest2Market. The Economic Impact of Privately-Owned Forests. 
2009.
---------------------------------------------------------------------------
    FSP is the most extensive family forest-owner assistance program in 
the country. Management assistance is delivered in cooperation with 
State forestry agencies through technical assistance services and the 
development and implementation of Forest Stewardship Plans. The program 
works to ensure that private landowners have the best information to 
help them manage their land for wildlife, recreation, aesthetics, 
timber production, and many other goals. In fiscal year 2018, nearly 24 
million acres of private forest lands across the Nation were managed 
under Forest Stewardship Plans, and of this total nearly 13 million 
acres are within high priority landscape areas identified in State 
Forest Action Plans. Additionally, FSP supported direct outreach to 
roughly 475,000 landowners which includes 11,888 new Forest Stewardship 
Plans. The technical assistance provided through FSP is a gateway to 
other effective USDA, State, and private sector programs designed to 
help keep working forests intact. For instance, the FSP enables 
landowners to participate in USDA programs including the Forest Legacy 
Program and Environmental Quality Incentives Program. NASF supports 
funding the Forest Stewardship Program at $29 million and the Forest 
Legacy Program at $62 million in fiscal year 2020.
            urban and community forest management challenges
    Urban forests are important to achieving energy savings, improved 
air quality, neighborhood stability, aesthetic value, reduced noise, 
and improved quality of life in municipalities and communities around 
the country. Urban trees and forests provide a wide array of social, 
economic, and environmental benefits to people living in urban areas; 
today, more than 83 percent of the Nation's population lives in urban 
areas.\8\ Yet, urban and community forests face serious threats, such 
as development and urbanization, invasive pests and diseases, and fire 
in the wildland urban interface (WUI).
---------------------------------------------------------------------------
    \8\ USDA Forest Service fiscal year 2016 Budget Justification at 
pg. 119.
---------------------------------------------------------------------------
    Since its expansion under the Cooperative Forestry Assistance Act 
of 1990 (CFAA), the Forest Service's Urban and Community Forestry 
(U&CF) program has provided technical and financial assistance to 
promote stewardship of urban forests in communities of all sizes across 
the country. The program is delivered in close partnership with State 
foresters and leverages existing local efforts that have helped 
thousands of communities and towns manage, maintain, and improve their 
tree cover and green spaces. In fiscal year 2016, the U&CF program 
delivered technical, financial, educational, and research assistance to 
nearly 8,000 communities across all 50 States, the District of 
Columbia, U.S. territories and affiliated Pacific Island nations.\9\ 
NASF supports funding the Urban and Community Forestry program at $35 
million in fiscal year 2020.
---------------------------------------------------------------------------
    \9\ USDA Forest Service fiscal year 2018 Budget Justification at 
pg. 64.
---------------------------------------------------------------------------
    importance of forest inventory data in monitoring forest issues
    The Forest Inventory and Analysis (FIA) program, managed by Forest 
Service, Forest and Rangeland Research, is the only comprehensive 
inventory system in the United States for assessing the health and 
sustainability of the Nation's forests across all ownerships. FIA 
provides essential data related to forest species composition, forest 
growth rates, and forest health data, and it delivers baseline 
inventory estimates used in Forest Action Plans. Further, this data is 
used by academics, researchers, industry, and others to understand 
forest trends and support investments in forest products facilities 
that provide jobs and products to society. The program provides 
unbiased information used in monitoring of wildlife habitat, wildfire 
risk, insect and disease threats, invasive species spread, and response 
to priorities identified in the Forest Action Plans.
    As the key partner in FIA program delivery via State contribution 
of matching funds, State foresters look forward to continued work with 
the Forest Service to improve efficiency in delivery of the program to 
meet the needs of the diverse user groups for FIA data. NASF supports 
funding the Forest Inventory and Analysis program at $83 million in 
fiscal year 2020.
                      landscape scale restoration
    The Landscape Scale Restoration (LSR) program is an important way 
that States, in collaboration with the Forest Service and other 
partners, address critical forest priorities across the landscape. LSR 
projects focus on the most critical priorities identified in each 
State's Forest Action Plan and on achieving national goals as laid out 
in the State and Private Forestry national themes. As a result, LSR 
contributes to achieving results across the landscape and to making 
meaningful local, regional, and national impacts. NASF supports funding 
the Landscape Scale Restoration program at $20 million in fiscal year 
2020.
    NASF appreciates the opportunity to share our fiscal year 2020 
appropriations recommendations for the USDA Forest Service with the 
subcommittee.
                                 ______
                                 
   Prepared Statement of the National Association of Tribal Historic 
                         Preservation Officers

                   TRIBAL CULTURAL PRESERVATION NEEDS

    Chair Murkowski, Ranking Member Udall, and Members of the 
subcommittee, I appreciate this opportunity to present the National 
Association of Tribal Historic Preservation Officers (NATHPO)'s 
recommendations for fiscal year 2020 appropriations. My name is Valerie 
Grussing and I am the new Executive Director. In this year of 
transition for the organization, we have some grand and exciting plans, 
some of which rely on this subcommittee's continued support for the 
budgetary needs of Tribal cultural preservation activities. Each of the 
recommended line item amounts are discussed in detail below.

    1.  National Park Service, Historic Preservation Fund, Tribal line 
item ($20 million)
    2.  National Park Service, National NAGPRA Program:
         a.  Exclusively for NAGPRA Grants ($2.331 million)
         b.  Program administration ($1 million for Program Use)
    3.  Bureau of Indian Affairs--Create line items and support the 
following divisions:
         a.  12 Regional Offices support for Cultural Resource 
compliance ($3 million)
         b.  Central Office cultural resource efforts throughout the 
bureau ($200,000)
         c.   NAGPRA compliance work ($765,000)
         d.  To fight ARPA crimes on Indian reservations ($200,000)
    4.  Smithsonian Institution: For repatriation activities, including 
Review Committee and repatriation office ($1.25 million)
Background Information:
    What are Tribal Historic Preservation Officers (THPOs)? THPOs are 
appointed by federally recognized Tribal governments that have entered 
into an agreement with the Department of the Interior to assume the 
Federal compliance role of the State HPO, per the National Historic 
Preservation Act. Tribal historic preservation plans are grounded in 
self-determination, traditional knowledge and cultural values, and may 
involve projects to improve Indian schools, roads, health clinics and 
housing. THPOs are the first responders when a sacred site is 
threatened, when an ancestral home is uncovered, and when Native 
ancestors are disturbed by development. THPOs are also often 
responsible for their Tribe's oral history programs and operating 
Tribal museums and cultural centers. They perform many functions and 
responsibilities in Indian country and, through their activities, 
represent an active expression and exercise of Tribal sovereignty.
    What is the National Association of Tribal Historic Preservation 
Officers? NATHPO is a national non-profit membership association of 
Tribal government preservation officials committed to protecting 
culturally important places that perpetuate Native identity, 
resilience, and cultural endurance. NATHPO assists Tribal communities 
in protecting their historic properties, whether they are naturally 
occurring in the landscape or are manmade structures.

1. HISTORIC PRESERVATION FUND (HPF), ADMINISTERED BY THE NATIONAL PARK 
                       SERVICE--TRIBAL LINE ITEM

                             ($20 MILLION)

    As of May 1, 2019, there are 185 National Park Service (NPS)-
recognized Tribal Historic Preservation Officers (THPOs). Each THPO 
represents an affirmative step by an Indian Tribe to assume the 
responsibilities of the State Historic Preservation Officers for their 
respective Tribal lands, as authorized by Congress in the 1992 
amendments to the National Historic Preservation Act. Collectively, 
these Tribes exercise responsibilities over a land base exceeding 50 
million acres in 30 States. The HPF is the sole source of Federal 
funding for THPOs and the main source of funding to implement the 
Nation's historic preservation programs. HPF revenue is generated from 
oil and gas development on the outer Continental Shelf. We recommend 
$20 million to carry out the requirements of the National Historic 
Preservation Act. This would provide the nearly 200 federally 
recognized THPOs an average of $100,000 to run their programs. Funding 
THPOs and staff creates jobs, generates economic development, and spurs 
community revitalization. It also facilitates environmental and 
historic review processes, including for infrastructure permitting.
    What is at stake? As the number of Indian Tribes with THPO programs 
increases, the amount of HPF funding appropriated and apportioned to 
THPOs must keep pace. Native American cultural properties on millions 
of acres of Tribal lands are at risk. For the past several years, each 
THPO program has been asked to conduct important Federal compliance 
work with fewer financial resources. In the first year of congressional 
funding support for THPOs (fiscal year 1996), the original 12 THPOs 
each received an average of $83,000 per THPO, while in fiscal year 
2018, 179 Tribes received an average of $64,000. There are expected to 
be almost 200 THPOs in fiscal year 2020. Reconnecting Native peoples to 
their cultural heritage, traditions, and places has the power to help 
heal deep generational wounds. To continue historic preservation and 
cultural revitalization in Indian country, it is essential that THPO 
programs receive increased funding to meet the increasing need. The 
chart below demonstrates the program growth and funding need.
    Additional HPF programs administered by the National Park Service: 
NATHPO appreciates the strong HPF funding levels the Committee has 
provided in recent years. We support the request of the National Trust 
for Historic Preservation that Congress provide a total fiscal year 
2020 HPF appropriation of $148.5 million. Within that funding we 
recommend:

  --$60 million for State Historic Preservation Officers (SHPOs);
  --$20 million for Tribal Historic Preservation Officers (THPOs);
  --$5 million for a competitive grant program for SHPOs and THPOs to 
        conduct mapping and digitization of historic resources--which 
        would enable their identification at the very earliest stages 
        of project planning, leading to both protection of historic 
        sites and increased efficiency of infrastructure projects 
        (minimizing controversy, legal challenges, and delays);
  --$30 million for grants to preserve the sites and stories of 
        underrepresented communities;
  --$10 million for grants to Historically Black Colleges and 
        Universities;
  --$15 million for Save America's Treasures grants;
  --$7.5 million for preservation grants to revitalize significant 
        historic properties;
  --$1 million for competitive grants for the survey and nomination of 
        properties associated with communities currently 
        underrepresented on the National Register of Historic Places 
        and National Historic Landmarks.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
 HPF Tribal appropriation has steadily increased, as has the number of 
                                 THPOs.

  Therefore the average apportionment per THPO has remained the same.

           2. NATIONAL PARK SERVICE, NATIONAL NAGPRA PROGRAM

    The Native American Graves Protection and Repatriation Act (NAGPRA) 
provides for the disposition of Native American cultural items \1\ 
removed from Federal or Tribal lands, or in the possession or control 
of museums or Federal agencies, to lineal descendants, Indian Tribes, 
or Native Hawaiian organizations based on descent or cultural or 
geographic affiliation. NAGPRA prohibits trafficking of Native American 
cultural items and created a grants program exclusively for Indian 
Tribes, Native Hawaiian organizations, and public museums.
---------------------------------------------------------------------------
    \1\ Cultural items include human remains, funerary objects, sacred 
objects, and objects of cultural patrimony.
---------------------------------------------------------------------------
NAGPRA Grants Program:
    a.  $2.331 million to be used exclusively for NAGPRA Grants to 
Indian Tribes, Native Hawaiian organizations, and museums. We recommend 
that the Committee restore the amount that the NAGPRA grants program 
received each year for most of its history prior to when the NPS began 
to divert a greater amount of funds for administrative use within the 
cultural resource division. NAGPRA grants have been ``level-funded'' at 
$1.65 million. NATHPO requests that the Congress restore the grants to 
the $2.331 million funding level.
Administration of National NAGPRA Program:
    b.  $1 million, additionally, for NAGPRA program administration, 
including the publication of Federal Register notices, grant 
administration, civil penalty investigations, and Review Committee 
costs.

    3. BUREAU OF INDIAN AFFAIRS--CREATE LINE ITEMS AND SUPPORT THE 
                          FOLLOWING DIVISIONS

    The BIA has federally mandated responsibilities to work with Indian 
Tribes and comply with the National Historic Preservation Act (NHPA), 
the National Environmental Policy Act (NEPA), and NAGPRA. Currently the 
BIA does not have any budget line items that are devoted to complying 
with these Federal laws, nor does the BIA have resources dedicated to 
compliance with the Archaeological Resources Protection Act (ARPA) and 
executive orders and directives in the cultural resource field. Funds 
are not only needed for the BIA to comply with their internal 
development efforts, such as roads and forestry, but also to conduct 
project reviews of outside development projects, such as oil and gas 
development that are estimated to number over 7,000 per year. ARPA 
crime on Indian reservations continues to be a major problem, as 
looters and traffickers continue to steal valuable cultural resources 
from Tribal and Federal lands. The BIA does not have any special agents 
or law enforcement forces to combat this uniquely destructive crime in 
Indian country and we urge the creation of a dedicated line item within 
the BIA.
NATHPO recommends the BIA create line items and support the following 
        divisions:
    a.  To support Cultural Resource compliance at the 12 Regional BIA 
Offices ($250,000 x 12 regional offices = $3 million)
    b.  Central Office cultural resource efforts throughout the bureau 
($200,000)
    c.  NAGPRA compliance work ($765,000)
    d.  To fight ARPA crimes on Indian reservations ($200,000)

4. SMITHSONIAN INSTITUTION, NATIONAL MUSEUM OF THE AMERICAN INDIAN AND 
                 THE NATIONAL MUSEUM OF NATURAL HISTORY

                         REPATRIATION PROGRAMS

    NATHPO requests that the Smithsonian Institution receive $1.25 
million for its repatriation activities, including operation costs of 
the Review Committee and repatriation office.
    Thank you for considering our testimony. I would be pleased to 
answer any questions you may have.

    [This statement was submitted by Valerie J. Grussing, Executive 
Director.]
                                 ______
                                 
 Prepared Statement of National Center for American Indian Enterprise 
                              Development
    Chairwoman Murkowski, Ranking Member Udall and Members of the 
subcommittee, the National Center for American Indian Enterprise 
Development (NCAIED) presents this testimony to urge approval of fiscal 
year 2020 funding above the fiscal year 2019 enacted levels for the 
Indian Loan Guarantee Program and the budget for the Economic 
Development Division of the Office of Indian Energy and Economic 
Development (OIEED) within the Department of the Interior (DOI).
1. Indian Loan Guarantee Program:
    The essential Indian Loan Guarantee Program has long been supported 
by NCAIED and other leading national organizations representing Indian 
Tribes, Alaska Native corporations, and enterprises owned by them or 
their community members. Testimony and letters to the House and Senate 
Appropriations Subcommittee on Interior, Environment and Related 
Agencies called for doubling the funds for the Indian Loan Guarantee 
Program in fiscal year 2019, so we were gratified when your House 
counterparts recommended, and the full House approved, $19,279,000 for 
this program ``to remain available through September 30, 2020'' with 
$1,702,000 for administrative expenses and a most welcome volume cap of 
$329,260,000 in private loans that could be subject to guarantee. Your 
subcommittee recommended slightly more than level funding, and the 
conference agreement approved in the fiscal year 2019 minibus was 
$10,779,000 (up $3 million, but not the $10 million plus up the House 
approved).
    On March 27, 2019, the NCAIED's annual Reservation Economic Summit 
(RES2019) hosted the Senate Committee on Indian Affairs' Listen Session 
on Federal Loan Guarantee Programs. When Committee staff asked whether 
the Indian Loan Guarantee Program should be eliminated in favor of 
other loan guarantee programs (as the fiscal year 2020 Budget Request 
proposes), not one person raised a hand of the 100+ session 
participants. Every lender and Indian borrower at the Listening Session 
agreed that this valuable program is the only one designed to 
facilitate access to private loans for Tribal and Tribal member 
projects on trust lands or other rural native communities generally 
ignored by most private lenders. So, once again, NCAIED and other 
leading national Tribal organizations respectfully request that the 
subcommittee approve an increase--preferably up to $25 million or at 
least double the fiscal year 2019 enacted level--for the Indian Loan 
Guarantee Program with bill language to enable the funds ``to remain 
available through September 30, 2021.''
    Under this Program, administered by OIEED's Division of Capital 
Investment (DCI), private lenders certified by DCI make conventional 
loans to eligible Tribal and individual Native borrowers for businesses 
and economic development projects. To qualify for the guarantee, the 
loan must have an economic impact on a native community or Bureau of 
Indian Affairs service area. DCI-certified lenders (including numerous 
Tribal-owned banks) understand that Tribal law may apply, including 
Tribal court jurisdiction, and are familiar with collateral 
restrictions when lending to borrowers on Tribal lands. DCI allows its 
certified lenders to use their own forms and underwriting standards, 
including longer loan terms to enable borrowers to meet debt repayment 
schedules. Lenders and borrowers prefer DCI's more flexible, simpler 
process that facilitates financing of profit or nonprofit businesses, 
large or small loans, business startups or expansions, construction, 
refinancing, and lines of credit. On average, DCI issues about 30 loan 
guarantees and loan insurance certificates annually, but could issue 
more with (1) increased credit subsidy, (2) some insulation from 
funding interruptions (due to repeated Continuing Resolutions and 
partial government shutdown), and (3) leeway to hire one or more 
permanent staff.
    While the President's budget seems to favor the larger Small 
Business Administration (SBA) loan guarantee program, the SBA program 
is far less suited to Indian Country lending. The SBA imposes more 
rigid underwriting criteria and collateral requirements, its guarantee 
amount is smaller, loan closings take longer, most SBA staff and SBA 
lenders are unfamiliar with Indian borrowers, Tribes and non-profits 
are not eligible, Tribal enterprise borrowers must waive sovereign 
immunity, Tribal member borrowers on trust lands also may have to 
obtain a sovereign immunity waiver, and disputes must be resolved in 
Federal court.
    Indian Country needs the Indian Loan Guarantee Program, and support 
for it is fully justified based on its successful track record, a low 
loss rate, and an impressive return of about $17 in private financing 
for every $1 of Federal funds invested. For some examples, see https://
bia.gov/WhoWeAre/AS-IA/IEED/DCI/SuccessStories/index.htm and below:
    Alaska: At least 6 successful projects in Alaska have been 
privately financed with DCI's loan guarantees. Several projects spurred 
economic development in Hoonah, AK, with three guaranteed loans 
totalling over $38 million. The first two loans, from Northrim Bank and 
Alaska Pacific Bank, helped to purchase, renovate and transform a old 
salmon cannery into a tourism attraction with restaurant, gift and 
retail facilities (employing 63 during construction, and 35 
permanently), and later develop deep water cruise ship pier facilities 
in 2015. A third guaranteed loan financed an Alaska Native-owned 
touring company that offers scenic tours to cruise ship visitors. In 
2009, Wells Fargo provided $800,000 in tax exempt financing, guaranteed 
by DCI, to enable Cook Inlet Tribal Council to construct a social 
service center and bus barn. The Seldovia Native Association financed a 
hotel's construction with an $8.3 million loan from Wells Fargo with a 
DCI guarantee. DCI also has guaranteed several loans to help Alaska 
Native entrepreneurs launch their businesses, including ArXotical 
(triplet sisters' indigenous beauty products company), and Bayview 
General Merchandise (a general store built and run by a Toksook Bay 
shareholder).
    New Mexico: Since 1987, the DCI program has guaranteed several 
loans totaling over $15 million to enable the Indian Pueblo Cultural 
Center in Albuquerque to expand its cultural center and retail 
development (e.g., Starbucks, restaurant, a self-storage business), 
increasing annual revenue from under $1 million to over $30 million 
(employing almost 200 people, 44 percent Native American). In another 
successful project, the Picuris Pueblo constructed the now popular 
Hotel Santa Fe with financing, DCI-guaranteed, of $11.1 million from 
Palm Desert National Bank. In addition to its distinction as the only 
Tribal-owned hotel in Santa Fe, the successful enterprise is a large 
employer and features art, architecture, music and language of the 
Pueblo people.
    Navajo Nation Tribal Utility Authority: Navajo Tribal Utility 
Authority (NTUA) secured a $23.5 million loan with a DCI guarantee to 
acquire a greater ownership interest in NTUA Wireless, LLC, the first 
Tribal wireless/Internet enterprise, and to meet underserved and 
unserved communications needs within Navajo Nation. Employing more than 
80 fulltime (45 within NTUA Wireless and 35 within NTUA), NTUA services 
now include communications, electricity, natural gas, water, 
wastewater, and photovoltaic power (solar).
    Nevada: To finance the design and construction of the Northern 
Nevada Transitional Housing Center for the Reno-Sparks Indian Colony 
(RSIC) and State of Nevada, the Tribe worked with the State, U.S. Bank, 
and DCI on an $8 million loan. With the DCI guarantee, U.S. Bank agreed 
to extend the loan for 20 years so that the Tribe could afford the debt 
service payments. The project expanded essential services to the Tribal 
community, and has contributed to the economic growth of the greater 
Reno-Sparks area.
    Other Southwest Projects: About $32 million in loan guarantees have 
supported financing for convenience store projects in various Tribal 
communities in the West and Southwest, including in California, Nevada, 
Arizona and New Mexico. Creating jobs and significant revenues for 
Tribes and individual native entrepreneurs, some of the stores operate 
in remote areas and provide their communities essential goods and 
services (e.g., gasoline, basic food items, money order and wire 
transfer services). Several of the stores complement other Tribal 
attractions, such as hotels, casinos, and artisan communities.
    Wisconsin: Over 2018-2019, the Oneida Tribe secured $37 million in 
combined financing from four banks (three Tribal-owned), with a DCI 
loan guarantee, to refurbish and remodel two hotels and refinance old 
higher interest rate debt. The Tribal banks are Mille Lacs-owned 
Woodlands Bank, Oneida-owned Bay Bank, and Native American Bank (owned 
by over 30 Tribes and Alaska Native corporations).
    Washington: The program guaranteed a $130,000 loan to enable a 
Quinault Indian Nation Tribal member to purchase a fishing vessel, the 
Pacific Rooster, and employ other Tribal members in exercising their 
Tribal treaty fishing rights, catching fish and delivering their catch 
to Quinault Pride Seafood.
    In 2006, Congress increased this program's authorization for the 
aggregate of loans subject to program guarantees or insurance to grow 
from $500 million to $1.5 billion. So far, that higher lending level 
has not been attained because far too little is appropriated annually 
for the program's credit subsidy, keeping the volume cap on loans 
subject to guarantee far too low--despite ever-increasing demands for 
financing in Indian Country.
    The National Center, the National Congress of American Indians 
(NCAI), Native American Finance Officers Association and others 
organizations in Indian Country have urged Congress repeatedly to 
double the funding for the Indian Loan Guarantee Program. NCAI calls 
for $25 million for the program in its fiscal year 2020 Indian Country 
Budget Request (see p. 91). More funding would enable DCI-certified 
lenders to finance more projects (and attract more banks to participate 
in the program) to support financing for business expansions, Tribal 
development projects, lines of credit for working capital and payrolls 
for more employees, and even infrastructure and small energy 
development projects. Given the substantial return on the modest 
Federal investment, Congress should increase the program's funding 
beyond the fiscal year 2019 enacted level and allow it some more staff 
and a higher volume cap for guaranteed loans.
2. Economic Development Division within OIEED:
    For fiscal year 2019 funding for DOI's Community and Economic 
Development account, the House approved $51.5 million, but the Senate 
approved only $46.5 million. Fortunately, the fiscal year 2019 enacted 
level of $47.5 million included, according to the conference report, an 
increase for OIEED of $1 million: ``to provide assistance to Tribes to 
enhance economic development and improve access to private financing of 
development projects . . . assist with feasibility studies and provide 
technical assistance to Tribes to establish commercial codes, courts 
and other business structures . . . build Tribal capacity to lease 
Tribal lands and manage economic and energy resource development . . . 
[and] foster incubators of Tribal-owned and other Native American-owned 
businesses.'' H. Rept. 116-9, p. 729. For fiscal year 2020, NCAIED and 
other leading national Tribal organizations urge Congress to add to 
last year's increase to provide at least $3 million with report 
language directing that the increase ``be dedicated to OIEED's Economic 
Development programs to support: more feasibility studies of 
development projects; greater access to private financing for such 
projects; technical assistance on Tribal legal and business structures 
to enhance economic development, and building capacity for leasing 
Tribal lands and managing economic and energy resource development; and 
incubators of Tribal-owned and other Native American-owned businesses'' 
(as proposed in S. 294). Support for the OIEED increase is reflected in 
NCAI's fiscal year 2020 Indian Country Budget Request on page 92.
    In sum, the National Center urges the subcommittee to approve 
upwards of $25 million for the Indian Loan Guarantee Program and 
increase OIEED's budget by $5 million, with $3 million for its Economic 
Development to leverage substantial private sector financing and other 
initiatives to advance economic development in Indian Country.

Chris James, President & CEO
National Center for American Indian Enterprise Development
                                 ______
                                 
    Prepared Statement of the National Conference of State Historic 
                         Preservation Officers
    Fiscal Year 2020 State Historic Preservation Office (SHPO) Historic 
Preservation Fund (HPF) Apportionment Total Request:

  --$60 million for State Historic Preservation Offices (SHPOs)
  --$20 million for Tribal Historic Preservation Offices (THPOs)
  --$30 million for competitive grant programs related to the Civil 
        Rights Movement
  --$10 million Historically Black Colleges and Universities (HBCUs)
  --$7.5 million for grants to preserve historic resources in rural 
        communities
  --$7.5 million for Save America's Treasures grant program.

    Funded through withdrawals from the Historic Preservation Fund (16 
USC 470h) U.S. Department of the Interior's National Park Service.
Unique and Successful Federal-State Partnership
    Recognizing the importance of our national heritage, in 1966 
Congress passed the National Historic Preservation Act (NHPA16 USC 
470), which established historic preservation as a priority of the 
Federal Government. Recognizing that State officials have local 
expertise, the Act's authors directed Federal entities charged with its 
implementation--the Department of the Interior and the Advisory Council 
on Historic Preservation--to partner with the States. Duties delegated 
to the SHPOs include: (1) locating and recording historic resources; 
(2) nominating significant historic resources to the National Register 
of Historic Places; (3) cultivating historic preservation programs at 
the local government level; (4) providing funds for preservation 
activities; (5) commenting on Federal rehabilitation tax credit 
projects; (6) review of all Federal projects for their impact on 
historic properties; and (7) providing technical assistance to Federal 
agencies, State and local governments and the private sector.
    To assist the States in accomplishing this federally-delegated 
work, in 1976, Congress established the HPF. The HPF is funded from 
outer-continental shelf lease revenues--not tax dollars, so that the 
depletion of one non-renewal resource can be used to help preserve 
another non-renewable resource--our heritage. And the States also 
contribute toward this effort, matching at least 40 percent of the HPF 
funding they receive.
Finding and Saving America's Heritage
    The first step in preserving and protecting America's heritage is 
identifying it--which requires survey, documentation and stewardship 
and sharing of digital historic site data. These sites represent the 
many people, places, and events that have shaped our national identity. 
Adequate funding is essential for SHPOs to conduct historic resource 
identification, documentation and digitization activities. Having 
accurate, up-to-date, digitally accessible information on our Nation's 
historic resources would dramatically increase the efficiency and 
effectiveness of all local, State, and Federal projects. From deciding 
on the design of local in-fill development, to State transportation 
planning projects, to Federal large-scale energy projects and disaster 
recovery efforts--every single project, and the American people would 
benefit from enhanced and accessible historic resource databases.
    Once identified and documented, America's historic resources are 
primarily recognized at the local, State, and national levels by 
listing on National and State Historic Registers. State Historic 
Preservation Officers, through the authority of the National Historic 
Preservation Act assist, support and encourage communities with their 
efforts. National Register recognition by the Secretary of the Interior 
confirms citizens' belief in the significance of their communities.
    The National Historic Preservation program is primarily one of 
assistance, not acquisition. The Federal Government does not own, 
manage, or maintain responsibility for the vast majority of the 
historic assets in the National Historic Preservation program. Instead, 
the program, through the SHPOs, provides individuals, communities, and 
local, State, and Federal Governments with the tools they need to 
identify, preserve, and utilize the historic assets of importance to 
them.
    In addition to the SHPO funding, the NCSHPO supports robust funding 
for the Tribal Historic Preservation Offices (THPO). THPOs assume the 
Federal compliance role of the SHPO on their respective Tribal lands. 
The number of THPOs continues to increase annually. Funding increases 
are necessary to prevent a decrease in the average THPO grant.
    NCSHPO also supports $7.5 million for the Historic Revitalization 
Subgrant Program to preserve historic resources in rural communities, 
$7.5 million for the Save America's Treasure's grant program, $30 
million for competitive grants to preserve the sites and stories 
related to the Civil Rights movement, and $10 million for a similar 
program for Historically Black Colleges and Universities.
Jobs, Economic Development & Community Revitalization
    Historic preservation has stimulated economic growth, promoted 
community education and pride, and rescued and rehabilitated 
significant historic resources in communities throughout the country. 
In many cases, historic preservation combats the effects of blight and 
vacancy by using the historic built environment as a catalyst for 
community change. These changes result in historic downtown districts 
and neighborhoods that are dynamic destinations for visitors and 
residents alike.
    The Federal Rehabilitation Tax Credit (HTC) program, administered 
by the State Historic Preservation Offices in cooperation with the 
National Park Service, is an important driver for economic development. 
Since inception, the HTC has rehabilitated more than 43,000 buildings, 
created more than 2.5 million jobs and leveraged $144 billion in 
private investment nationwide. On average, the HTC leverages $5 dollars 
in private investment for every $1 dollar in Federal funding creating 
highly effective public-private partnerships. In many States, including 
my own State of Texas, the HTC has been expanded through adoption of 
State tax credit programs that complement the HTC. By way of example, 
in the four-year period between 2012 and 2015, 21 Federal tax credit 
projects were completed in Texas. In the subsequent three-year period 
(since our State tax credit went into effect in 2015), 53 Federal tax 
credit projects have been completed, more than doubling our previous 
activity, and including private investment that exceeds $1 billion per 
year. This would not be possible without a robust Federal program.
    Historic preservation also stimulates economic development through 
heritage tourism. Cultural and heritage travelers spend an average of 
$994 per trip and contribute more than $192 billion annually to the 
U.S. economy.\1\ SHPOs are essential, ground level partners in 
identifying and interpreting the historic places that attract these 
visitors. A modest increase in SHPO funding would allow SHPOs to expand 
their public outreach and assistance efforts, enabling communities to 
take greater advantage of heritage tourism opportunities which lead to 
job creation, new business development and enhanced community pride.
---------------------------------------------------------------------------
    \1\ U.S. Cultural and Heritage Tourism Study (October 2009) 
conducted by Mandala Research, LLC for U.S. Cultural & Heritage Tourism 
Marketing Council, U.S. Department of Commerce, and Gozaic/Heritage 
Travel Inc., a subsidiary of the National Trust for Historic 
Preservation.
---------------------------------------------------------------------------
State Historic Preservation Offices' Accomplishments
    Although it has been authorized at $150 million, appropriation 
levels have never approached that amount. Even with chronic 
underfunding, through the end of 2018, the HPF has facilitated more 
than 1.8 million listings in the National Register, the survey of 
millions of acres for cultural resources, and administers the Historic 
Tax Credit, which has generated more than $32.4 billion in Federal tax 
revenue from historic rehabilitation projects.
Conclusion
    On behalf of all 59 SHPOs, I'd like to thank you, Chairwoman 
Murkowski, Ranking Member Udall, and members of the U.S. Senate 
Committee on Appropriations, Subcommittee on Interior, Environment, and 
Related Agencies for the opportunity to submit testimony.
    Historic preservation recognizes that what was common and ordinary 
in the past is often rare and precious today, and what is common and 
ordinary today may be extraordinary--50, 100 or 500 years from now. I 
would like to thank the committee for their commitment to historic 
preservation. The Federal Government plays an invaluable role in 
preserving our Nation's history and our collective sense of place. 
Through our partnership, SHPOs remain committed to working together to 
identify, protect, and maintain our Nation's heritage.

    [This statement was submitted by Mark S. Wolfe, President of the 
National Conference of State Historic Preservation Officers, and 
Executive Director of the Texas Historical Commission.]
                                 ______
                                 
    Prepared Statement of the National Congress of American Indians
    On behalf of the National Congress of American Indians (NCAI), 
thank you for the opportunity to provide written testimony regarding 
fiscal year 2020 Interior-Environment appropriations. Founded in 1944, 
NCAI is the oldest and largest representative organization serving the 
broad interests of Tribal governments and communities. For 75 years 
NCAI has advocated for Tribal governments and communities, NCAI has 
fought to preserve the treaty and sovereign rights of Tribal nations, 
advance the government-to-government relationship, and remove historic 
structural impediments to Tribal self-determination.
    NCAI's following requests are rooted in the treaties and agreements 
that our ancestors made with the U.S. Government. When Tribal nations 
ceded millions of acres of land to the U.S., the Federal Government 
promised to safeguard our right to govern ourselves, to enable Tribal 
governments to deliver essential services, and provide them adequate 
resources to do so effectively. However, a recent assessment from the 
U.S. Civil Rights Commission has found that ``Federal funding for 
Native American programs across the government remains grossly 
inadequate to meet the most basic needs the Federal Government is 
obligated to provide.'' \i\ Tribal leaders and citizens have known this 
for decades, and we urge Congress to fully fund the U.S. Government's 
treaty and statutory obligations.
---------------------------------------------------------------------------
    \i\ U.S. Commission on Civil Rights. (2018). Broken Promises: 
Continuing Federal Funding Shortfall for Native Americans
---------------------------------------------------------------------------
    The update also found that in the past 15 years, efforts undertaken 
by the Federal Government have resulted in minor improvements and in 
some ways have lost ground. While Congress has dealt with a spending 
environment hampered by an austerity fiscal policy, including 
sequestration and tight limits on discretionary accounts, the Federal 
trust and treaty obligations were no less imperative. The fact that 
these solemn agreements that are funded in the Federal budget have been 
subject to political impasses, including a recent 35-day government 
shutdown, highlights the need for solutions to protect vital Tribal 
governmental services from interruptions.
    The Indian Health Service (IHS) and Bureau of Indian Affairs (BIA) 
provide core governmental services for Tribal nations, including 
hospitals, schools, law enforcement, child welfare programs, social 
services, and more. For many Tribal nations, most Tribal governmental 
services are funded by Federal sources as part of the treaty and trust 
responsibility. This is particularly important because Tribal nations 
lack the tax base and parity in tax authority under Federal law to 
raise governmental revenue to deliver services.
    Federal funding remains critical to ensure essential government 
services are delivered to Tribal citizens. In addition to the 
appropriations requests below, NCAI urges Congress to fund IHS and BIA 
through advance appropriations to protect Tribal governments and 
citizens from future shutdowns as well as cash flow problems that 
regularly occur at the start of the fiscal year.
                        bureau of indian affairs
    Along with the IHS, the BIA is one of the primary agencies 
responsible for providing services throughout Indian Country, either 
directly or through compacts or contracts with Tribal governments. As 
part of the fiscal year 2020 budget formulation process, Tribes from 
each BIA region completed a survey to outline which ten budget lines 
they would prefer to provide increased funding to and why. The 
formulation process provides a window into which program areas Tribes 
would prefer to see increases designated. The results of this process 
show that BIA Social Services, Indian Child Welfare Act (ICWA), Tribal 
Courts, Aid to Tribal Government, Scholarships and Adult Education, 
Criminal Investigations/Policing, Road Maintenance, Housing, Johnson 
O'Malley, Detentions and Corrections, and Welfare Assistance made up 
the top 11.
    For Public Safety and Justice Programs, one of the most fundamental 
aspects of the Federal Government's trust responsibility is the 
obligation to protect public safety on Tribal lands. Congress and the 
United States Supreme Court have long acknowledged this obligation, 
which Congress most recently reaffirmed in the Tribal Law and Order Act 
expressly ``acknowledging the Federal nexus and distinct Federal 
responsibility to address and prevent crime in Indian Country.'' In 
2018 the U.S. Commission on Civil Rights found that there continues to 
be ``systematic underfunding of Tribal law enforcement and criminal 
justice systems, as well as structural barriers in the funding and 
operation of criminal justice systems in Indian Country'' that 
undermine public safety.\ii\ Recent experience demonstrates that 
addressing the lack of justice funding can make rapid and dramatic 
strides toward improving public safety.\iii\ Tribal justice systems 
simply need the resources to put their tools to work so they can 
protect women, children and families, address substance abuse, 
rehabilitate first-time offenders, and put serious criminals behind 
bars.
---------------------------------------------------------------------------
    \ii\ U.S. Commission on Civil Rights. (2018). Broken Promises: 
Continuing Federal Funding Shortfall for Native Americans (p. 32). 
Received from https://www.usccr.gov/pubs/2018/12-20-
Broken-Promises.pdf.
    \iii\ Michael S. Black, Acting Assistant Secretary--Indian Affairs, 
U.S. Department of the Interior, Testimony, Briefing Transcript, p. 
136; see also Dep't of the Interior, press release, March 4, 2014, 
https://www.bia.gov/sites/bia.gov/files/assets/public/press_release/
pdf/idc1-025752.pdf (announcing Tiwahe Initiative to promote the 
stability and security of Native American families).
---------------------------------------------------------------------------
    The underfunding of Tribal law enforcement and justice systems is 
well-documented. Most recently, the BIA submitted a report to Congress 
in 2017 estimating that to provide a minimum base level of service to 
all federally-recognized Tribes: $1 billion is needed for Tribal law 
enforcement, $1 billion is needed for Tribal courts, and $222.8 million 
is needed to adequately fund existing detention centers.\iv\ Based on 
recent appropriation levels, BIA is generally funding Tribal law 
enforcement at about 22 percent of estimated need, Tribal detention at 
about 41 percent of estimated need, and Tribal courts at a dismal 4.5 
percent of estimated need.
---------------------------------------------------------------------------
    \iv\ Bureau of Indian Affairs, Office of Justice Services. ``Report 
to Congress on Spending, Staffing, and Estimated Funding Costs for 
Public Safety and Justice Programs in Indian Country,'' Aug, 16, 2016, 
available at https://www.bia.gov/cs/groups/xojs/documents/document/
idc2-051817.pdf
---------------------------------------------------------------------------
    NCAI recommends an increase in base funding for Tribal courts, for 
a total of $83 million, which would include courts in Public Law 280 
jurisdictions. NCAI also recommends an increase to BIA Law Enforcement 
of $200 million, for a total of $573 million.
    BIA Social Services help to address the underlying conditions such 
as drug addiction, poverty, and violence that tend to create and 
perpetuate the circumstances that produce victims. Sub-activities 
include services in the areas of family and domestic violence, child 
abuse and neglect, and protective services. However, many Tribes' 
Social Services departments are understaffed and experience high 
turnover rates. As an example, in fiscal year 2017, Osage Nation case 
workers averaged 25-30 cases a month each. This exceeds the standard of 
one case worker for every 15 cases administered. A lack of increased 
yearly funding tends to hinder these protective services. NCAI 
recommends $55 million for BIA Social Services in fiscal year 2020.
    In addition to public safety and human services, infrastructure 
remains an area of high need. A transportation program that is vital to 
infrastructure in Indian Country is the BIA Road Maintenance Program, 
which is funded and authorized under the Department of the Interior. 
The BIA Road Maintenance Program is critical to BIA owned roads and 
facilities. Currently, BIA is responsible for maintaining approximately 
29,400 miles of roads in Indian Country including 900 bridges. The 
condition of these roads is increasingly concerning for Tribal citizens 
and all surrounding communities. The lack of sufficient transportation 
infrastructure also hampers economic development opportunities for 
Tribal nations and their citizens.
    According to a recent GAO Report published in May 2017, Better Data 
Could Improve Road Management and Inform Indian Student Attendance 
Strategies,\v\ BIA did not provide adequate documents on road 
maintenance and no process exists for Tribal nations to properly report 
on road maintenance. The BIA conducted a road maintenance survey, which 
found that the cost of road maintenance more than doubled the allocated 
amount of funding for proper maintenance in fiscal year 2018 and that 
deferred maintenance had risen to $392 million for BIA roads. Further 
data on road maintenance is needed to adequately address the deferred 
maintenance of roads throughout Indian Country. Increased funding for 
the BIA Road Maintenance program is needed in order to begin to address 
public safety and commercial activity concerns that affect all 
Americans. $50 million is requested to begin to address the deferred 
roads maintenance need in Indian Country.
---------------------------------------------------------------------------
    \v\ U.S. Government Accountability Office, 2017, Publication 
No.GAO-17-423
---------------------------------------------------------------------------
    Overall, BIA provides funding for many public safety, education, 
human services, and natural resource programs that cannot be addressed 
fully in this testimony. NCAI supports the testimony of other national 
Tribal organizations, such as the National Indian Child Welfare 
Association, National Indian Education Association, American Indian 
Higher Education Consortium, and others who have also developed 
rigorous requests to address the treaty and trust obligations funded in 
the Interior-Environment spending bill.
                         indian health service
    The Federal responsibility for healthcare is also rooted in the 
treaty and trust promises. Yet, the Federal Government has never fully 
lived up to this responsibility. Appropriations for the IHS have never 
been adequate to meet basic patient needs, and healthcare is delivered 
in mostly third world conditions. The Indian healthcare delivery system 
faces significant funding disparities, notably in per capita spending 
between the IHS and other Federal healthcare programs. The IHS has been 
and continues to be a critical institution in securing the health and 
wellness of Tribal communities. In fiscal year 2017, the IHS per capita 
expenditures for patient health services were just $3,332, compared to 
$9,207 per person for healthcare spending nationally. New healthcare 
insurance opportunities and expanded Medicaid in some States may expand 
healthcare resources available to AI/ANs.
    NCAI recommends the amount requested by the IHS Tribal Budget 
Formulation Workgroup for fiscal year 2020, a total of $7.03 billion 
for the Indian Health Service in fiscal year 2020. This amount would 
include an increase to maintain current services and other binding 
obligations and allow for program expansions, as listed in the 
Workgroup's fiscal year 2020 report.
                    environmental protection agency
    NCAI requests funding for the Tribal General Assistance Program at 
$99.5 million. Program capacity-building is a top environmental 
priority identified by Tribes as part of the EPA National Tribal 
Operations Committee National Tribal Caucus. The Indian General 
Assistance Program (IGAP) is unique among Federal programs in that it 
provides a foundation which Tribes can leverage to support other 
greatly-needed programs, such as planning for climate change and 
natural resource management, energy efficiency activities, and small 
scale renewable energy projects. GAP funding is particularly critical 
to Alaska Native villages, where it provides 99 percent of the overall 
funding to address their fundamental and often dire needs, such as safe 
drinking water and basic sanitation facilities, and the on-the-ground 
presence to help confront profound climate change impacts, such as 
eroding shorelines, thawing permafrost, threats to subsistence 
resources, and permanent relocation of Alaska Native communities.
    This increased collaborative leveraging potential makes GAP a wise 
investment of Federal dollars. However, GAP funding has not kept pace 
with the growth of Tribal environmental programs over the years, 
forcing Tribes to perform the increased duties of maturing programs 
with fewer funds. Furthermore, the average cost for Tribes to sustain a 
basic environmental program was set at $110,000 per Tribe in 1999 and 
has not been adjusted for inflation since then. Tribal demand for 
program implementation across various media includes the pressing need 
to establish climate change adaptation plans. A $175,000 per Tribe 
distribution, totaling approximately $99.5 million, reflects an 
equitable adjustment.
                               conclusion
    We look forward to working with this subcommittee on a nonpartisan 
basis to protect the Federal trust and treaty obligations in the 
budget. Thank you for your consideration of this testimony.
                                 ______
                                 
   Prepared Statement of the National Council of Urban Indian Health
    My name is Maureen Rosette and I am the President of the National 
Council of Urban Indian Health (NCUIH), which represents the 42 urban 
Indian healthcare organizations (UIOs) across the Nation who provide 
high-quality, culturally-competent care to urban Indians, constituting 
approximately 78 percent of all American Indians/Alaska Natives (AI/
AN). I would like to thank Chairwoman Murkowski and Ranking Member 
Udall for the opportunity to submit written testimony. Today's 
testimony will focus on the needs of urban Indian organizations (UIOs) 
that have title V contracts with the Indian Health Service (IHS).
    As a preliminary issue, ``urban Indian'' refers to any AI/AN person 
who is not living on a reservation, either permanently or temporarily--
often because of the Federal Government's forced relocation policy or 
in search of economic or educational opportunity. Congress has long 
recognized that the Federal Government's obligation to provide 
healthcare for AI/AN people follows them off of reservations. UIOs are 
an integral part of the Indian health system, which is comprised of the 
IHS, federally recognized Tribes, Tribal organizations, and urban 
Indian organizations (I/T/Us). Currently, UIOs receive less than 1 
percent of the IHS budget, and the IHS budget is currently underfunded 
at less than 50 percent of need creating serious budget constraints. 
UIOs do not have access to many of the critical cost saving programs 
available to the other facets of the I/T/U system.
    Listed are NCUIH's recommendations to the Senate Subcommittee on 
Interior, Environment, and Related Agencies on Fiscal Year 2020 
Appropriations:
Include Urban Indian Organizations in Language for ALL Health Programs
    When Urban Indian Organizations (UIOs) are not specifically 
mentioned in programmatic language they are most often excluded from 
participating in such programs. Many programs in the Health and Human 
Services appropriations bills include language for Indian Tribes and 
Tribal organizations, but not for urban Indian organizations. Urban 
Indian Organizations are not considered Tribal organizations, which is 
a common misconception. Therefore, UIOs must be explicitly included to 
receive funding. Behavioral health grants, suicide prevention grants, 
and others. It is imperative UIOs receive parity for funding as UIOs 
rely on less than 1 percent of the Indian Health Service (IHS) funds, 
despite urban Indians being over 78 percent of the AI/AN population. 
UIOs also do not have access to other IHS line items like IHS and 
Tribal facilities. UIOs do not receive hospitals and health clinics 
money, purchase and referred care dollars, or IHS dental services 
dollars, and are not eligible for facilities dollars. UIOs operate from 
one line item in the IHS budget, the urban Indian line item, which 
provides 42 programs with $51.3 million. We know IHS is underfunded at 
around $3,000 per patient, we know for urban Indian health patients 
that number is less than $400 per patient. NCUIH requests an increase 
to the urban Indian health line item to at least $81 million to $116 
million, which would be a mere 2 percent of the IHS budget. The House 
Appropriations Committee has released a draft fiscal year 2020 
Interior, Environment, and Related Agencies funding bill that includes 
an almost $30 million increase to the urban Indian line item, bringing 
funding to $81 million--once passed, this would create a more equitable 
funding level for all AI/ANs.
Provide Protections from Shutdown Impacts with Funding Uncertainties
    When limited UIO funding is delayed or cut off during events such 
as a government shutdown, UIOs suffer greatly. AI/AN people healthcare 
should not be held hostage by unrelated government shutdowns. NCUIH 
strongly recommends that UIO funding have the same protections and 
considerations as other Federal funding during times of sequestration 
and government shutdowns. For instance, Native American Lifelines of 
Baltimore is a small clinic that received three overdose patients 
during the last shutdown, two of which were fatal. They only receive 
$922k from IHS to operate two facilities, one in Baltimore, one in 
Boston. IHS only gives them $691 for mental health services for both 
facilities. The Indian Health Service system (I/T/U) should be provided 
with funding to ensure our patients don't suffer.
Provide UIOs With 100 Percent Federal Medical Assistance Percentage 
        (FMAP)
    The amount of Medicaid service costs paid by the Federal Government 
is set by law at 100 percent for IHS and Tribes, but not for UIOs, 
because UIOs did not exist when that law was written. Although Congress 
intended 100 percent FMAP to support the Indian Health system, the 
Federal Government only pays 100 percent of the costs incurred by 
States to reimburse IHS and Tribal facilities for Medicaid services 
provided to an AI/AN, without the same consideration for the high-
quality, culturally-competent care provided by UIOs. Created by 
Congress at the urging of Tribes to ensure that their Tribal citizens 
would receive appropriate healthcare off of reservations, UIOs are an 
integral part of the IHS system. Consequently, the failure to provide 
UIOs with 100 percent FMAP harms facilities that already do not have 
access to many resources, and it severely limits services for patients. 
Unfortunately, CMS needs Congress to add UIOs to 1905(b) of the Social 
Security Act to create parity. Therefore, we ask that you correct this 
problem in fiscal year 2020. Receiving 100 percent FMAP has a huge 
impact on the financial stability of UIOs. One of NCUIH's two Oklahoma 
facilities (the only two UIOs in the country that get 100 percent FMAP) 
reported that in the event of a prolonged shutdown they could remain 
open for 18 months; whereas 6 of 13 UIO-respondents reported that they 
could only sustain normal operations for 1 month or less.
Include UIOs in the Coverage of the Federal Tort Claims Act (FTCA)
    Under FTCA, a facility's employees and eligible contractors are 
considered Federal employees and are immune from lawsuits for medical 
malpractice. IHS and Tribal providers, as well as other comparable 
Federal healthcare centers, are covered by the FTCA. Arbitrarily denied 
FTCA coverage, however, UIOs must buy their own expensive malpractice 
insurance. Two large, highly-regarded UIOs in Oklahoma each pay 
$250,000 per year for malpractice insurance. Any help your subcommittee 
can provide would maximize the value of your appropriations to IHS and 
we would profoundly appreciate any assistance, including prompting 
relevant committees.
Implement the Memorandum of Understanding (MoU) Between IHS and the VA 
        for the Provision of Health Care to AI/AN Veterans
    The VA and IHS have implemented this MoU for IHS and Tribal 
providers, but not for UIOs. AI/AN veterans often prefer to use Indian 
healthcare providers for reasons related to performance, cultural 
competency, or availability of non-healthcare-related but Indian-
specific services. The VA sometimes experiences surges in demand, which 
can often be satisfactorily offset through the use of UIOs. A recent 
Office of the Inspector General report found that 215 deceased veteran 
patients at the Phoenix VA Health Care System were awaiting specialist 
consultations on the date of their deaths. Native Health, a UIO that 
provides comprehensive services, is within walking distance of the 
Phoenix, AZ VA facility, and could have provided these services to AI/
AN veterans, enabling the VA to focus on specialty services and reduce 
some of these wait times, in turn reducing the number of patient deaths 
that occur. Given their sacrifices, it is grievously wrong to oppose 
the provision of accessible, high-quality, culturally-competent 
healthcare by UIOs to AI/AN veterans.
Create Critical Funding Mechanism for Behavioral Health
    In addition, IHS is currently considering moving its behavioral 
health initiatives, including the Domestic Violence Prevention Program 
and Suicide and Substance Abuse Prevention Program, from grants to 
direct distribution through Indian Self Determination Education and 
Assistance Act (ISDEAA) contracts and compacts, for which UIHPs are not 
eligible. It is widely known that behavioral health is a major issue in 
the AI/AN community. Thus, if IHS transfers distribution of its 
behavioral health initiatives to ISDEAA contracts and compacts, there 
must be a UIO set-aside of approximately $12.2 million for Title V 
UIOs. This amount would enable all Title V UIOs to receive the current 
average level of behavioral health grant funding available to urban 
organizations, as is rightfully available only to IHS-certified Title V 
UIOs. In addition, I'd like to express appreciation for inclusion of 
UIOs in the Special Behavioral Health Program for Indians. We support 
this being structured similar to Special Diabetes Programs for Indians 
(SDPI), which has been a resounding success for many UIOs. If this 
funding is instead transferred to direct funding to Tribes, there must 
be a set-aside of at least 20 percent to ensure this funding reaches 
urban AI/AN communities. In addition, it is critical that this funding 
remain available beyond current grant terms. With current funding for 
the Substance Abuse and Suicide Prevention Program, which has 
demonstrated considerable success in addressing behavioral health 
disparities and saving lives in Indian Country, expiring in 2021, 
Congress must act to ensure this success continues.
Hold UIOs Harmless from Unrelated Cost Assessments
    UIOs are faced with chronic and severe underfunding and depend on 
every Federal dollar they receive to provide culturally-competent 
services to their urban AI/AN patients. Funds for Medical inflation and 
pay costs are necessary to cover the intended purpose; these costs 
often increase at high rates in urban areas where UIOs are located, 
thereby straining UIOs' already constrained budgets. Last year, IHS 
utilized a portion of the inflation funding increases from the fiscal 
year 2019 appropriations for a purpose distinct from inflation--to 
cover costs of Indian Self-Determination and Education Assistance Act 
(ISDEAA) Section 105(l) leases. As a result, UIOs only received a small 
portion of the amount of inflation funding designated to be dispersed 
to UIOs. The amount of 105(l) lease applications is increasing and 
UIOs' inflation funding is once again at risk. Inflation funding for 
UIOs should not be the solution to cover an unrelated budgetary 
constraint. UIOs are not eligible for, nor are they otherwise 
beneficiaries of, Section 105(l) leases and thus derive no benefit from 
this program. All UIO funds should thus not be impacted by this budget 
shortfall. A separate appropriation line item for these lease payments 
would provide a long-term fix to this issue and prevent additional harm 
from trickling down to urban AI/AN patients.
Reauthorization of the Special Diabetes Program for Indians
    The Special Diabetes Program for Indians (SDPI) is critical to 
urban American Indian and Alaska Native communities who experience a 
higher prevalence of diabetes and a greater diabetes mortality rate 
than the general U.S. population living in those areas. Since the SDPI 
program began in 1997, UIOs have seen improvements in key diabetes care 
outcome for AI/ANs at their urban facilities over a 10 year period, 
from 2001-2011. It is imperative that SDPI be reauthorized before its 
expiration in September 2019.
    We thank the committee for its efforts towards prioritizing funding 
to Indian Country and for holding this hearing. The staff at NCUIH is 
available to follow up on any future inquires related to the submitted 
testimony or other urban Indian healthcare issues of policy or service.
                                 ______
                                 
    Prepared Statement of the National Fish and Wildlife Foundation
Chairwoman Murkowski, Ranking Member Udall and Members of the 
subcommittee:

    Thank you for the opportunity to submit testimony regarding fiscal 
year 2020 funding on behalf of the National Fish and Wildlife 
Foundation (NFWF), and thank you for your years of steadfast support 
for the natural resource conservation work of NFWF.
    NFWF's fiscal year 2020 appropriations request will be matched at 
least dollar for dollar with non-Federal match to conserve fish, 
wildlife and their habitats through local partnerships. By law, NFWF 
will accomplish this by applying 100 percent of the appropriated 
funding to on-the-ground conservation projects at ZERO administrative 
cost to the Federal Government.
    We believe that NFWF is a sound investment in a time of constrained 
budgets because of our proven track record and statutory requirement to 
leverage Federal funding with private contributions to maximize 
conservation benefit. We appreciate the subcommittee's past support and 
respectfully request your approval of funding at the following levels:

  --$ 2.0 million with bill language through the Bureau of Land 
        Management's Management of Lands and Resources appropriation 
        ($2 million above fiscal year 2019);
  --$ 7.022 million with bill language through the U.S. Fish and 
        Wildlife Service's Resource Management appropriation (Same 
        level as fiscal year 2019); and
  --$ 3.0 million with the standard annual bill language through the 
        Forest Service's National Forest System appropriation (Same 
        level as fiscal year 2019).
                       bureau of land management
    The fiscal year 2018 appropriation for the Bureau of Land 
Management (BLM) and NFWF partnership was made discretionary to the 
Director of the BLM. The Director chose to direct $2.0 million in 
funding to NFWF. NFWF worked closely with the BLM, other Department of 
the Interior agencies and eleven Western States to implement a program 
to improve wildlife corridors for big game and other wildlife. This 
investment by BLM allowed NFWF and ConocoPhillips to bring in more than 
$8.6 million in matching contributions, generating a total conservation 
impact of more than $10.7 million. These projects will improve wildlife 
migrations as well as reduce the number of vehicle strikes with 
wildlife enhancing human safety.
    NFWF did not receive a direct appropriation in fiscal year 2019, 
but prior to that, NFWF received directly appropriated funding from BLM 
since fiscal year 1995. In the 5-year span from fiscal year 2014-fiscal 
year 2018, NFWF leveraged $14.0 million in BLM funds into $75.2 million 
in on-the-ground conservation projects.
    In fiscal year 2018 and continuing into fiscal year 2019, NFWF 
began a new and exciting partnership in the Pecos watershed with eight 
oil and gas companies (Anadarko Petroleum Company, Chevron Corp., Noble 
Energy, Occidental Petroleum, Shell Oil Company, Apache Corp., Marathon 
Oil Corp., and XTO Energy, Inc.), the USDA Natural Resource 
Conservation Service, and the States of New Mexico and Texas to 
proactively bolster populations of at-risk species. NFWF would add a 
portion of any fiscal year 2020 appropriated BLM funding to this new 
and creative partnership.
    NFWF also utilized past BLM direct appropriations to partner with 
the Yukon River Fisheries Association and local Tribal Councils to aid 
in the delivery of Chinook salmon spawning grounds and engage Yukon 
River anglers in the voluntary conservation of Chinook salmon. Without 
the direct BLM appropriations, the ability to fund projects such as 
these will be diminished.

        Requested BLM Bill Language:

                ``; of which $2,000,000 shall be available in fiscal 
                year 2020 subject to a match by at least an equal 
                amount by the National Fish and Wildlife Foundation for 
                cost shared projects supporting conservation of Bureau 
                lands; and such funds shall be advanced to the 
                Foundation as a lump-sum grant without regard to when 
                expenses are incurred.''
                united states fish and wildlife service
    The United States Fish and Wildlife Service (FWS) has been a 
trusted partner since NFWF was created by Congress in 1984 and signed 
into law by President Reagan. In the past 5 years (fiscal year 2014-
fiscal year 2018), the FWS appropriated funds received by NFWF have 
generated $176.8 million in conservation impact through 434 projects. 
The funds appropriated to NFWF serve as a magnet to attract funds from 
the private sector to create public-private partnerships critical to 
restoring fish, wildlife and their habitats.
    In the past, the FWS appropriation for NFWF has existed in the 
report accompanying the appropriations bill. However, we respectfully 
request that it be included in bill language. This will make NFWF's 
direct appropriations in the Interior, Environment and Related Agencies 
Bill consistent across all agencies in the bill and expedite the 
permitting of conservation projects.

        Requested FWS Bill Language

                ``; of which $7,022,000 shall be available in fiscal 
                year 2020 subject to a match by at least an equal 
                amount by the National Fish and Wildlife Foundation for 
                cost-shared projects supporting conservation of 
                wildlife and other natural resources; and such funds 
                shall be advanced to the Foundation as a lump-sum grant 
                without regard to when expenses are incurred.''

    Because NFWF also works with FWS on discretionary cooperative 
agreements for conservation programs, we also respectfully support the 
highest possible funding levels for the Recovery Challenge matching 
grants, Delaware River Basin Conservation Act, Klamath Basin 
Restoration, and efforts to combat white-nosed syndrome in bats within 
the FWS, Resource Management appropriation.
                      united states forest service
    Congress has appropriated approximately $3 million in annual 
funding to NFWF for partnerships with the United States Forest Service 
(USFS) since fiscal year 1998. From fiscal year 2014 to fiscal year 
2018, NFWF turned $15.0 million in USFS funds into $114.2 million in 
on-the-ground conservation investments.
    In fiscal year 2016 and fiscal year 2018, NFWF was recognized by 
the USFS's Region 5 as the ``Partner of the Year'' for the 
collaborative work with the USFS on post-fire watershed restoration, 
community engagement and hazardous fuels reduction.
    NFWF also used direct USFS appropriations to continue the Alaska 
Native Science and Engineering Program to hire Alaska Native youth with 
traditional ecological knowledge and who also speak the languages of 
local subsistence communities to work on conservation projects, and 
allowed NFWF to launch new programs such as the Central Appalachian 
Habitat Stewardship Program which promotes forest health and management 
in the States of Tennessee, West Virginia, Virginia, Pennsylvania and 
Ohio.
    As directed in the Statement accompanying the fiscal year 2019 
Omnibus Appropriation, NFWF is excited to report on the funding USFS 
has provided NFWF for each of the past 10 fiscal years, including 
specific projects and activities. We believe this report will 
illustrate the impressive power of private leverage and grantee match 
to stretch the Federal conservation dollar in tough budgetary times.
                    environmental protection agency
    NFWF has partnered with the Environmental Protection Agency (EPA) 
since fiscal year 1997 and since fiscal year 2000 has worked with EPA 
to make grants to States and other grantees within the Geographic 
Programs appropriation. Therefore, we respectfully support the highest 
possible funding levels for the Great Lakes Restoration Initiative, 
Chesapeake Bay, and Long Island Sound within the Environmental 
Protection Agency Geographic Programs. We also respectfully ask that 
the long-standing report language that delineates the amount of funding 
for nutrient and sediment removal grants and small watershed grants 
within the Chesapeake Bay program be continued (final fiscal year 2019 
language is below).

        ``Chesapeake Bay.--The bill provides $73,000,000 for the 
        Chesapeake Bay program. From within the amount provided, 
        $6,000,000 is for nutrient and sediment removal grants and 
        $6,000,000 is for small watershed grants to control polluted 
        runoff from urban, suburban and agriculture lands.''

    In addition to the Geographic Programs, EPA continues to be a major 
partner on NFWF's Five Star Urban Waters Program. In fiscal year 2018, 
NFWF worked with volunteers and resource based organizations to remove 
and improve the habitat for Chinook salmon along the Chena River in 
Fairbanks, Alaska. NFWF also partnered with EPA, Rocky Mountain Youth 
Corps, and local volunteers to implement a riparian habitat and 
education project near Albuquerque, New Mexico.
                            nfwf background
    NFWF was established by Congress in 1984 to catalyze private 
investments to conserve fish, wildlife and their habitats. In addition, 
every dollar directly appropriated to NFWF by Congress goes to on-the-
ground conservation projects and NFWF charges no administrative costs. 
NFWF raises private funds not only to leverage appropriated dollars, 
but also to support the associated management costs of implementing the 
appropriated funds. Since its creation by Congress in 1984, NFWF has 
invested $5.3 billion in to more than 17,500 projects while partnering 
with more than 4,500 organizations.
    NFWF is required by law to match each directly federally-
appropriated dollar with a minimum of one non-Federal dollar. We 
consistently exceed this requirement by leveraging Federal funds at 
more than a 2:1 average ratio while building consensus and emphasizing 
accountability, measurable results, and sustainable conservation 
outcomes.
    NFWF remains fully transparent and is required by law to notify 
Congress 30 days in advance of every grant that exceeds $10,000 in 
Federal funds. Details of all projects awarded during fiscal year 2018 
can be found in NFWF's annual investment guide and all of NFWF's grants 
can be found on our website: https://www.nfwf.org/whatwedo/grants/
search/Pages/Grant-Search.aspx
    In fiscal year 2018, NFWF was audited by an independent accounting 
firm and they issued an unqualified report with no material weaknesses 
identified and no deficiencies identified. This is the TENTH 
consecutive year of unqualified audits. In addition, NFWF has 
continually qualified as a low risk auditee under OMB guidelines.
    In fiscal year 2018, through voluntary discretionary cooperative 
agreements, NFWF partnered with 16 Federal agencies or departments and 
more than 30 corporations to support implementation of Federal 
conservation priorities. These efforts focused on working landscapes, 
private landowner outreach, natural resource conservation, coastal 
resiliency and community-based restoration.
                               conclusion
    For more than three decades, NFWF has been at the forefront of 
national conservation activity. With our partners, NFWF has contributed 
to some of the Nation's most important conservation programs, invested 
millions in worthy and successful projects, and spearheaded programs to 
conserve our Nation's most treasured natural resources. We have a 
successful model of coordinating and leveraging Federal funds to 
attract support from the private sector to address the most significant 
threats to fish and wildlife populations and their habitats.
    Chairwoman Murkowski, Ranking Member Udall and members of the 
subcommittee, we greatly appreciate your continued support and stand 
ready to answer any questions you or your staff might have.

    [This statement was submitted by Greg E. Knadle, Vice President of 
Government Affairs.]
                                 ______
                                 
      Prepared Statement of the National Ground Water Association
    The National Ground Water Association (NGWA) requests that $5 
million be allocated in the fiscal year 2020 Interior, Environment & 
Related Agencies appropriations bill to the United States Geological 
Survey (USGS) within the Water Resources program to continue and expand 
implementation and maintenance of a national groundwater monitoring 
network (NGWMN).
    In addition to funding, NGWA is also requesting report language 
extending eligibility of cooperative grant funding to Tribes, as well 
as State and local governments. Tribes are currently able to provide 
data to the network, but are not eligible to receive funding to create 
and/or maintain a groundwater monitoring network.
    NGWA's interest in this program comes from its position that 
management of groundwater resources should be a coordinated effort 
between Federal, State and local governments based on the strengths of 
each government level, the best science available, and the nature of 
the resource. NGWA is the world's largest association of groundwater 
professionals, representing public and private sector engineers, 
scientists, water well contractors, manufacturers, and suppliers of 
groundwater related products and services.
    The NGWMN is a great example of cooperation between levels of 
government, in order to manage and protect a vital natural resource.
    Water is one of the most critical natural resources to human, 
ecosystem and economic survival. Nationally, over 40 percent of the 
drinking water supply comes from groundwater and, in some locations, it 
is relied on by 80 percent of Americans for drinking water. Groundwater 
also serves as a key source of agricultural irrigation water.
    Despite the reliance on this natural resource, no systematic 
nationwide monitoring network is in place to measure what is currently 
available and how groundwater levels and quality may be changing over 
time. As with any valuable natural resource, groundwater reserves must 
be monitored to assist in planning and minimizing potential impacts 
from shortages or supply disruptions. Just as one cannot effectively 
oversee the Nation's economy without key data; one cannot adequately 
address the Nation's food, energy, economic, and drinking water 
security without understanding the extent, availability and 
sustainability of a critical input--groundwater.
    Congress acknowledged the need for enhanced groundwater monitoring 
by authorizing a national groundwater monitoring network in Public Law 
111-11 (Omnibus Public Land Management Act) in 2009, the SECURE Water 
Act, and viability of the network was proven through the completion of 
pilot projects in six States-Illinois, Indiana, Minnesota, Montana, New 
Jersey, and Texas. These States voluntarily pilot-tested concepts for a 
national groundwater monitoring network as developed by the Federal 
Advisory Committee on Water Information's (ACWI) Subcommittee on Ground 
Water (SOGW).
    Following completion of the pilots and reports on the viability of 
the NGWMN, congressional support for the network has enabled national 
implementation of the program:

  --Fiscal year 2015: $2.6 million (11 projects funded)
  --Fiscal year 2016: $3.6 million (24 projects funded)
  --Fiscal year 2017: $3.6 million (19 projects funded)
  --Fiscal year 2018: $3.6 million (24 projects funded)
  --Fiscal year 2019: $3.6 million (Awards pending)

    Thirty-three States are currently contributing data to the network, 
and entities receiving cooperative agreements are able to apply for one 
or 2 years of support. Because of this limit on the number of years 
funding can be providing, the costs of ongoing maintenance of the 
network are expected to be minimal once all States are connected.
    The NGWMN goes to great lengths to promote partnerships with State 
and local agencies receiving grants or providing data to the network. 
The State and local data providers retain ownership of the data and are 
credited as the providers.
    Once implemented nationwide, the NGWMN would provide consistent, 
comparable nationwide data that would be accessible through a public 
web portal for Federal, State, local government and private sector 
users. In these tight fiscal times, the proposed network would build on 
existing State and Federal investments, maximizing their usefulness and 
leveraging current dollars to build toward systematic nationwide 
monitoring of the groundwater resource.
    Grants are funded at a maximum of $150,000 per award, and funding 
from the NGWMN will be used for two purposes:

    1.  Provide grants to cost share increased expenses to upgrade 
monitoring networks for the 50 States to meet the standards necessary 
to understand the Nation's groundwater resources. Activities funded 
include: site selection, web services development, well drilling, well 
maintenance, among others.
    2.  Support the additional work necessary for USGS to manage a 
national groundwater monitoring network and provide national data 
access through an Internet web portal.

    A selection of State projects funded is listed below to demonstrate 
to type of work being funded by Congress in recent rounds of 
cooperative agreements:

        Fiscal Year 2015.--Utah Geological Survey: Project is to become 
        a new data provider for the NGWMN. Will use EPA Storet to serve 
        water-quality data to the NGWMN. Well construction and 
        Lithology web services will be established to connect to the 
        Portal. Wil also select and classify wells for the NGWMN, 
        populate the NGWMN Well Registry, document data-collection and 
        data management processes, and produce a final report. Will be 
        providing water-quality data to the NGWMN.

        Fiscal Year 2015.--Mississippi Department of Environmental 
        Quality: Project is to become a new data provider for the 
        NGWMN. Tasks include: Establish webservices to provide data to 
        NGWMN Portal, select and classify wells for the NGWMN, populate 
        the NGWMN Well Registry, document data-collection and data 
        managementprocesses, and produce a final report. Will be 
        providing water-level data.

        Fiscal Year 2016.--Minnesota Pollution Control Agency: A 2-year 
        project to become a data provider to the NGWMN in the first 
        year and provide persistent data support in the second year. 
        The Minnesota PCA was a Pilot project participant with the 
        Network; however, the web services they set up for the Pilot 
        were no longer functional due to database upgrades. For this 
        project, they will be updating their web services to serve data 
        to the Portal again. This project will expand their coverage to 
        all Principal aquifers across the State.

        Fiscal Year 2017.--Missouri Department of Natural Resources: 
        The Missouri DNR is a data provider through a Cooperative 
        agreement with the USGS Missouri WSC. This is a 1 year project 
        to remediate three wells that have been identified as having 
        shallow groundwater enter the wells. The wells were examined 
        using a borehole camera. The wells will be reconstructed by 
        installing a shallow diameter liner and packers and grouting 
        the well above the screen.

        Fiscal Year 2017.--Texas Water Development Board: This is a 1 
        year project for providing persistent data services and site 
        information gap filling. Lithology data for 900 wells will be 
        entered into their new database from paper files as part of the 
        site information gap filling work.

        Fiscal Year 2018.--Florida Department of Environmental 
        Protection: This is a 2-year project to become a new data 
        provider of water-quality data to the NGWMN. Sites will be 
        selected from a groundwater trend network of 49 wells and two 
        springs. They will be providing persistent data service for 
        year two of the project. Lithology data for selected wells will 
        be updated in year two of the project.

        Fiscal Year 2018.--Ohio Department of Natural Resources: The 
        Ohio DNR is a current data provider through a Cooperative 
        agreement with the USGS Ohio WSC. This is a 2-year project to 
        do well maintenance and well drilling work. Well Maintenance 
        work involves performing slug tests on 48 wells to determine 
        connection to the aquifer. Two new wells will be drilled to 
        fill gaps in the NGWMN coverage in Ohio.

    A complete list of all cooperative agreements funded is available 
on the cooperative agreements page of the NGWMN portal's website . Each 
recipient of funding must also provide USGS a report, following the 
conclusion of the funding period.
    Increased funding would enable the NGWMN to continue to grow and 
expand the number of States providing water quality and water level 
data. In addition, the types of work that could be funded by the 
network could also expand.
    Though the amount of funding requested is small in the context of 
the Department of Interior's annual budget request, funding is vital 
considering that, for a small investment, States and the USGS can 
implement adequate monitoring of the hidden resource that provides over 
40 percent of the Nation's drinking water supply and serves as a key 
driver for our economy.
    Thank you for your consideration of this request. With questions or 
in request of additional information, please contact Lauren Schapker, 
NGWA Government Affairs Director, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="442837272c25342f2136042a2333256a2b36236a">[email&#160;protected]</a>

    [This statement was submitted by Lauren Schapker, Government 
Affairs Director.]
                                 ______
                                 
         Prepared Statement of the National Humanities Alliance
Dear Chairman Murkowski and Members of the subcommittee:

    I am writing to testify on behalf of the National Humanities 
Alliance in support of the National Endowment for the Humanities (NEH) 
and particularly the crucial role it plays in preserving our cultural 
heritage in the face of disaster. With NEH support, the Foundation for 
Advancement in Conservation has trained and mobilized teams across the 
country to respond quickly and effectively to emergencies, saving 
countless artifacts, artworks, and books that would otherwise be lost.
    A few examples illustrate the need for this work. In the days after 
Hurricane Katrina, firearms from the Civil War, covered in mud, sat on 
the banks of the Mississippi Gulf Coast. Following Hurricane Sandy, 
costumes, props, and programs from the famed Martha Graham Dance 
Company floated in their storage space inundated by the storm surge. In 
the weeks after Hurricane Maria, swirls of mold covered the walls--from 
floor to ceiling--of a Puerto Rican library.
    The sense of loss that accompanies disasters is acute. That sense 
is heightened when our collective cultural heritage is imperiled as 
well.
    We rely on objects to learn from past generations and to carry our 
legacy into the future. Books, letters, records, photographs, film, 
works of art--whether located in our Nation's great museums or the 
cedar chest at home, our tangible cultural heritage is found in objects 
that are at risk of decomposing.
    It is the job of cultural heritage conservators to slow down the 
processes of decay, working with museums, libraries, and archives 
collections staff to provide the best environmental conditions possible 
and perform treatments on objects as needed. Conservators are an 
impressive bunch. Versed in art history, studio art, and chemistry, 
they go through rigorous training in order to do the essential work of 
preserving our cultural heritage. In my role at the Foundation for 
Advancement in Conservation, I work with a team of conservators and 
collections care professionals who volunteer their time and expertise 
to help collections affected by emergencies and disasters. This team, 
known as the National Heritage Responders, has done incredible work to 
salvage items when it seemed that all was lost.
    The team's work has been consistently supported by the NEH. The 
agency has funded research projects that have informed response 
protocols and supported innovative publications. The NEH has likewise 
supported team deployments following major disaster events, providing 
these volunteers with the equipment and resources needed for success.
    National Heritage Responders have a knowledge of materials on the 
molecular level that helps drive their decisionmaking processes in 
order to determine appropriate action. For example: while mold is a 
major threat for objects exposed to damp environments, some wet items 
can actually be frozen in order create a hostile setting for mold 
growth. Those objects can later be thawed and dried. Research and 
development of techniques in this area have moved forward in leaps and 
bounds over the past several decades. The NEH has played an important 
role in supporting this response work.
    While having measures in place to effectively respond to disasters 
is essential, those activities don't take into account the full scope 
of the disaster cycle. Preparedness and mitigation require foresight, 
innovation, and cooperation. The Foundation for Advancement in 
Conservation manages a program called Alliance for Response which aims 
to bring together collections professionals with emergency managers and 
first responders on the local level.
    These communities form cooperative disaster networks that work 
together to achieve collective goals: a network on the Mississippi Gulf 
Coast works closely with their emergency managers to share information 
with their members about upcoming storms, while a network in South 
Florida has a cultural heritage representative in their country 
Emergency Operations Center.
    The NEH has been supporting the work of Alliance for Response 
networks since 2010. The agency's investment in the program has allowed 
for the launch of new networks across the country while providing 
resources for the existing networks, such as training opportunities and 
informational webinars.
    Collaborating on the local level is essential, as each region faces 
their own challenges in terms of natural hazards. Increasingly extreme 
weather patterns are changing those hazards as well: California 
institutions face increased risk of wildfires, while hurricanes gather 
more power over warmer water, threatening those in their paths. Local 
networks are nimble in responding to these changing risks.
    The NEH has, through their history of funding, recognized the 
importance of supporting collecting institutions as they prepare for, 
respond to, and recover from emergencies and disasters. The impact of 
these efforts is significant.
    When Hurricane Irma hit Florida in 2017, the Vizcaya Museum and 
Gardens in Miami--located on Biscayne Bay--suffered significant storm 
surge damage. However, just 4 months prior, the museum hosted an NEH-
funded workshop on disaster response for the South Florida Alliance for 
Response network. After the storm, the museum's conservator knew to 
call the National Heritage Responders for assistance, which helped 
Vizcaya staff quickly stabilize the environment and minimize the impact 
of mold.
    Conservators and collections care professionals face significant 
challenges in protecting our cultural heritage for future generations. 
There is ample evidence to show that strategic funding by the NEH has 
laid important groundwork, but there is still much work to be done. 
With increased funding, the NEH can support the networking and training 
that are essential in protecting cultural heritage from emergencies and 
disasters. This important work must continue to make sure that the 
human story is preserved.
    Thank you for the opportunity to submit this testimony.
The National Humanities Alliance
    The National Humanities Alliance (NHA) is a nationwide coalition of 
organizations advocating for the humanities on campuses, in 
communities, and on Capitol Hill. Founded in 1981, NHA is supported by 
over 200 member organizations, including: colleges, universities, 
libraries, museums, cultural organizations, State humanities councils, 
and scholarly, professional, and higher education associations. It is 
the only organization that brings together the U.S. humanities 
community as a whole.
Foundation for Advancement in Conservation
    The Foundation for Advancement in Conservation (FAIC) supports 
conservation education, research, and outreach activities that increase 
understanding of our global cultural heritage.

    [This statement was submitted by Jessica Unger, Emergency Programs 
Coordinator, Foundation for Advancement in Conservation.]
                                 ______
                                 
         Prepared Statement of the National Indian Health Board
    Chairwoman Murkowski, Ranking Member Udall, and Members of the 
subcommittee, thank you for the opportunity to submit testimony in 
regards to fiscal year 2020 appropriations. On behalf of the National 
Indian Health Board (NIHB) and the 573 federally-recognized Tribes we 
serve, I submit this testimony on the Indian Health Service (IHS) 
fiscal year 2020 budget.
    Over the course of a century, the United States Federal Government 
entered into over 500 individual treaties with Tribal Nations that 
established the foundation for what we now call the Federal trust 
responsibility, which encompasses the provision of healthcare and 
public health services. This trust responsibility for health has been 
reaffirmed by Supreme Court rulings, Federal legislation, and 
presidential executive orders. The Indian Health Service (IHS) is the 
primary Federal agency entrusted with carrying out this duty; however, 
IHS has never been funded at the level of need. In fact, fiscal year 
2017 per capita expenditures for medical care amounted to just $4,078 
within IHS, compared to $9,726 nationally. Chronic underfunding of IHS 
has resulted in a lower quality of life and higher burden of 
preventable diseases among American Indians and Alaska Natives (AI/
ANs). For example, in South Dakota, average life expectancy for 
American Indians and Alaska Natives is 58 years, compared to 82 years 
for non-Hispanic Whites.\1\
---------------------------------------------------------------------------
    \1\ South Dakota Department of Health. 2012. Mortality Rates. 
https://doh.sd.gov/Statistics/2012Vital/Mortality.pdf
---------------------------------------------------------------------------
                       ihs advance appropriations
    First, NIHB wishes to thank Chairwoman Murkowski and Ranking Member 
Udall for their leadership and strong support for securing advance 
appropriations for IHS. The most recent 35-day government shutdown 
destabilized Tribal governments and Native health delivery systems; as 
well as Native families, children and individuals. In fact, IHS was the 
only Federal health system impacted by the shutdown. Moreover, while 
IHS funding is not responsible for the Federal deficit nor were budget 
disputes preceding the shutdown specific to IHS, the Indian health 
system nevertheless felt the burden of the shutdown as many Tribes 
scrambled to keep health facilities open, to keep providers on their 
payroll, and to maintain services.
    Advance appropriations honors the Federal trust responsibility and 
helps ensure that the Federal Government meets its obligations for 
health services to Tribes. Advance appropriations also protect Native 
health systems in the event that Congress cannot pass a full budget by 
the start of each fiscal year. In September 2018, the Government 
Accountability Office (GAO) issued a report (GAO-18-652) stating, ``. . 
. uncertainty resulting from recurring continuing resolutions and from 
government shutdowns has led to adverse financial effects on Tribes and 
their healthcare programs.'' Thus, advance appropriations would help 
provide better continuity of care, and would help insulate Tribes from 
unrelated budget negotiations. While advance appropriations will not 
solve chronic underfunding of IHS, Tribes and NIHB believe that advance 
appropriations are an important interim step that will prepare the IHS 
for a transition to mandatory funding.
                             sequestration
    We also urge you to fully exempt the Indian Health Service (IHS) 
from sequestration cuts that might occur in fiscal year 2020. Even a 2 
percent reduction is too much for an agency that provides direct health 
services and is already severely underfunded. Failure to completely 
exempt Tribal governments from sequestration will mean that Tribal 
communities are deprived of essential functions, resulting in loss of 
opportunity and even loss of life.
                fiscal year 2020 funding recommendations
    Tribes and NIHB were pleased to see new line item requests in the 
fiscal year 2020 President's budget including a $25 million line item 
to modernize Electronic Health Records (EHRs); $25 million for HIV/AIDS 
and Hepatitis C prevention and treatment; and $20 million for a 
national Community Health Aide Program (CHAP). But while Indian Country 
supports funding for these initiatives, they must not come at the 
expense of other vitally important line items. For example, Tribes were 
dismayed at the proposed elimination of the Health Education program; 
by the roughly $39 million in cuts to the Community Health 
Representative (CHR) program; approximately $80 million in cuts to the 
Health Care Facilities Construction budget; and $52 million in proposed 
cuts to preventive health services in the President's budget. These 
cuts would devastate an Indian health system that has little dedicated 
funding for public health and preventative services. Thus, we strongly 
urge the Committee to ensure critical programs are maintained and 
increased, in addition to securing funding for the new line items.
        ihs tribal budget formulation workgroup recommendations
    The following budget recommendations reflect the IHS Tribal Budget 
Formulation Workgroup (TBFWG) recommendations for fiscal year 2021. The 
workgroup is comprised of Tribal leaders, technicians and researchers 
who come together each year to form Indian Country's priorities as they 
relate to IHS. Tribes recommend $36.8 billion to fully fund IHS. 
Specifically, this amount includes $22 billion for Medical Services; 
$1.77 billion for Dental and Vision Services; $4.29 billion for 
Community and Public Health Services; and $9.28 billion for facility 
upgrades and upfront costs (non-recurring investments). To begin the 12 
year phase-in of the full $36.8 billion request, Tribes recommend a 
$7.1 billion appropriation in fiscal year 2020. While all areas of the 
IHS budget are essential and an in need of strong increases for fiscal 
year 2020, Tribes have identified several top priorities: Hospitals & 
Clinics; Purchased/Referred Care (PRC); Mental Health; Alcohol & 
Substance Abuse Services; and Dental Services.
Hospitals and Clinics
    In fiscal year 2020, Tribes recommend $2.5 billion for Hospitals 
and Clinics (H&C) which is $349 million over the fiscal year 2019 
enacted level. The H&C line item provides the base funding for the 650 
hospitals, clinics, and health programs that operate on Indian 
reservations, predominantly in rural settings. IHS H&C are challenged 
by factors including increased demand resulting from a significantly 
growing population; increased rate of chronic diseases; rising medical 
inflation; difficulty in recruiting and retaining providers in rural 
healthcare settings; and lack of adequate facilities and equipment. 
Increasing H&C funding is necessary as it supports the following: all 
primary medical care services, including inpatient care; routine 
ambulatory care; and medical support services, such as laboratory, 
pharmacy, medical records, and information technology. It also provides 
the greatest flexibility to support public health initiatives targeting 
health conditions disproportionately affecting AI/ANs such as diabetes, 
cancer, and hepatitis.
Community Health Aide Program/Community Health Representatives
    For fiscal year 2020, Tribes recommend $83.2 million for the CHR 
program, which is an increase of $20.3 million above the fiscal year 
2019 enacted level. The President's budget request for fiscal year 2020 
proposes to phase out the CHR Program and replace it with a national 
CHAP initiative. While the CHAP initiative has shown much success, its 
expansion should not come at the expense of the critically important 
and highly successful CHR program. If this request were to be accepted, 
health services would fall flat and neither program would likely be 
able to effectively operate. For generations, CHRs have been integral 
to the fabric of health delivery in Indian Country and Tribes do not 
wish to see this historic program discontinued. CHRs provide services 
such as in-home patient assessment of medical conditions, glucose 
testing and blood pressure tests, preventive health screenings, and 
case management. They also help interpret prescriptions, which is 
critical for patient safety, especially for drugs with high risk of 
misuse.
    There are more than 1,600 CHRs representing over 250 Tribes in all 
12 IHS Areas, and 96 percent of CHR programs are operated by Tribes in 
partnership with IHS--one of the best examples of the Nation to Nation 
relationship between Tribes and the Federal Government. Program data 
from fiscal year 2016 demonstrated that CHRs conducted 340,270 home 
visits and provided 1,102,164 patient contacts/services on a variety of 
health related conditions. It is likely that far more contacts were 
made but not reflected in data due to reporting challenges. The Tribal 
recommendation for this line item would be to increase funding for the 
sole purpose of service delivery of CHR program services and functions. 
The CHAP program is also supported as a separate recommendation.
Health IT
    IHS does not receive dedicated and sustainable funding to 
adequately support health IT infrastructure and training, including 
full deployment of EHRs. The current Resource and Patient Management 
System (RPMS) is a comprehensive suite of applications that supports 
virtually all clinical and business operations at IHS and most Tribal 
facilities, from patient registration to billing. Many Tribes are 
choosing to leave the system because IHS cannot properly maintain and 
update the system due to budget constraints and interoperability 
challenges. In addition, the Veterans' Health Administration (VHA) has 
announced a move to a commercial off the shelf system. This puts RPMS 
at risk because it is linked to the VHA EHR and receives technical 
updates and changes as a result of the VHA's work. NIHB echoes the 
TBFWG request to create a separate funding line item for Health IT to 
protect H& C funds to support direct care services. The President's 
budget has proposed a dedicated line item for EHR, so that IHS can 
either update the current EHR or initiate a process similar to that of 
the VHA.
Purchased/Referred Care (PRC)
    For fiscal year 2020, Tribes recommend $1.4 billion for the 
Purchased/Referred Care (PRC) program. This is $426 million above the 
fiscal year 2019 enacted level. The PRC budget supports essential 
healthcare services from non-IHS or non-Tribal providers. In fiscal 
year 2016, PRC denied over $423.6 million in services--that's 92,354 
needed healthcare services that AI/ANs were denied from receiving due 
to budget constraints. That is unacceptable. Deferral of care costs 
lives in Indian Country, and contributes to the lower health status of 
AI/ANs.
Mental Health
    For fiscal year 2020, Tribes are recommending $254.7 million. This 
is $149.4 million above fiscal year 2019 enacted. Addressing mental 
health disparities remains a top priority in Indian Country, and a 
significant increase in this line item helps ensure Tribal communities 
can develop innovative and culturally appropriate prevention programs. 
Research has demonstrated that AI/ANs do not prefer to seek mental 
health services through Western models of care due to lack of cultural 
sensitivity; which suggests that AI/ANs are not receiving the services 
they need to help reduce these alarming statistics.\2\ In the 
California Area, for example, lack of funding is reflected by 2017 
Government Performance and Results Act (GPRA) data. Of patients that 
were diagnosed with depression, only 30 percent received a prescription 
for antidepressants with enough medication and refills to last 12 
weeks, and only 10 percent received enough to last 6 months. An 
increase in funding and subsequent staffing would allow a greater 
percentage of the population to be seen and treated by behavioral 
health specialists.
---------------------------------------------------------------------------
    \2\ Walls, M. L., Johnson, K. D., Whitbeck, L. B., & Hoyt, D. R. 
(2006). Mental health and substance abuse services preferences among 
American Indian people of the northern Midwest. Community Mental Health 
Journal, 42, 521-535.
---------------------------------------------------------------------------
Alcohol and Substance Abuse
    For fiscal year 2020, Tribes recommend $351.2 million for the 
Alcohol and Substance Abuse budget. This is $105.7 million above the 
fiscal year 2019 enacted level. Alcohol and substance addiction have 
grave impacts that ripple across Indian Country causing adverse health 
outcomes that break the social fabric of Tribal traditions and ties. 
NIHB was pleased to see $10 million allocated for the Special 
Behavioral Health Pilot Program in the fiscal year 2019 conference 
report. We encourage the Committee to continue building on this 
investment, and work with authorizing committees to enact mandatory 
appropriations for this program, as is the case for the Special 
Diabetes Program for Indians (SDPI). SDPI works because it is 
consistent, broad-based funding that reaches a significant amount of 
Tribes, with a funding structure that Tribes prefer.
Dental Health
    For fiscal year 2020, Tribes recommend $288 million for Dental 
Health. This is $83.3 million above the fiscal year 2019 level. In the 
general U.S. population, there is one dentist for every 1,500 people; 
but in Indian Country, there is only one dentist for every 2,800 
people. Nationally, AI/AN children have the highest rate of tooth 
decay. This is why Tribes continue to advocate for the expansion of 
Dental Therapists (DTs), whom have been practicing successfully in 
Alaskan Native Villages for over a decade. DTs are primary oral health 
providers that live and work in the communities they serve providing 
routine care to patients so that the need for emergency services is 
minimized and patients are experiencing greater overall oral health 
outcomes.
Facilities
    For fiscal year 2020, Tribes recommend a total of $887.9 million 
for facilities appropriations which is an increase of $9 million over 
the fiscal year 2019 enacted level. These increases will be used to 
improve maintenance of IHS facilities, speed up the funding of projects 
on the IHS Healthcare priority list, and improve sanitation conditions 
in Tribal communities. IHS facilities are some of the oldest health 
facilities in the Nation. Whereas the average age of mainstream 
hospital is roughly 10 years, at current rates of funding, an IHS 
facility built today would not be replaced for another 400 years! \3\ 
Investments in Indian health facilities will allow the care provided in 
our communities to commensurate other health systems in the United 
States.
---------------------------------------------------------------------------
    \3\ Federal Indian Trust Responsibility: ``The Quest for Equitable 
and Quality Indian Healthcare--The National Tribal Budget Formulation 
Workgroup's Recommendations on the Indian Health Service Fiscal Year 
2018 Budget.'' June 2016. P. 64.

    [This statement was submitted by Victoria Kitcheyan, Chairperson.]
                                 ______
                                 
   Prepared Statement of the National Parks Conservation Association
    Chairman Murkowski, Ranking Member Udall and Members of the 
subcommittee, thank you for the opportunity to submit testimony on 
behalf of National Parks Conservation Association (NPCA). Founded in 
1919, NPCA is the leading national, independent voice for protecting 
and enhancing America's National Park System for present and future 
generations. I appreciate the opportunity to provide our views 
regarding the National Park Service (NPS) fiscal year 2020 budget and 
funding issues facing our national parks this year.
    National parks protect America's heritage and deliver robust 
economic returns of $10 in economic benefits nationally for every 
dollar invested in the NPS. In 2017, more than $18 billion in visitor 
spending supported nearly $36 billion in economic activity and 306,000 
jobs. NPCA and other polling indicates the vast popularity of national 
parks and strong bipartisan support for adequately funding them. And of 
course, they are deeply loved by the American people in part because 
they protect our cultural and natural heritage.
    We acknowledge the tremendous challenge the subcommittee faces in 
setting thoughtful spending priorities, so we are grateful for your 
consistent support for the National Park Service. NPCA and our partners 
in the National Parks Second Century Action Coalition commend your 
subcommittee for providing needed increases for the National Park 
Service the last six fiscal years, with particularly commendable 
increases in fiscal year 2016 and fiscal year 2018. This will be 
helpful for parks to address their funding challenges. As they are 
still considerably behind where they need to be to meet their mission, 
we urge you to do your best to build on this support in fiscal year 
2020.
    Top three fiscal year 2020 Priorities: NPCA requests appropriated 
funding for NPS with a focus on these accounts:

    1.  $2.606 billion for `Operation of the National Park System'
    2.  $508.6 million for `National Parks Construction'
    3.  $30 million for `National Park Partnerships'/Centennial 
Challenge

    These requests are based upon the proportional increases in fiscal 
year 2016, recognizing that Congress has met these goals before. There 
are numerous other NPS accounts and programs important to us, and we 
outline several of them later in this testimony.
    The President's fiscal year 2020 budget: Not helpful to your work 
in fiscal year 2020 is yet another draconian and unrealistic 
president's budget. Cuts to park service staffing, repairs and other 
needs would set the park service back considerably. Proposed deep cuts 
to EPA and other agencies important to protecting parks' environment 
are further damaging. We commend Congress for wholeheartedly rejecting 
these cuts last year and urge that you continue to support our parks.
    The need for a funding deal and an improved 302(b) allocation for 
the Interior and Environment subcommittee: We respect that this fiscal 
year was painful and hope that fiscal year 2020 can be far more 
functional. We urge decision-makers and the president to work together 
to agree to a deal to lift the budget caps for the final 2 years of the 
Budget Control Act. To do otherwise would be vastly damaging to 
nondiscretionary needs including for our national parks. We urge an 
improved 302(b) allocation to meet needs at parks and for other 
agencies and programs under your jurisdiction.
    Appropriated funding for the deferred maintenance backlog: The 
backlog continues to threaten the protection of nationally significant 
resources and, eventually the experience of visitors. Investments are 
needed for visitor centers, trails, water systems, and more. The 
subcommittee's recent increases for maintenance accounts the last 
several years have been very helpful for national parks. Unfortunately, 
the backlog grew by more than $300 million during fiscal year 2017 and 
despite increases since then, we know that more is needed to build on 
that good work to chip away at the now $11.9 billion backlog.
    Support for our request would help address the backlog with 
investments in the repair/rehab and cyclic maintenance Operations 
subaccounts, and line-item construction subaccount. For your 
information, we are also urging the Transportation, Housing and Urban 
Development subcommittee to fund at the fully authorized $100 million 
annually the Nationally Significant Federal Lands and Tribal Projects 
Program, which funds transportation infrastructure for parks and other 
Federal lands, and Tribal lands. We were grateful for the $25 million 
appropriated to this fund in fiscal year 2019. We hope that 
subcommittee can meet the fully authorized amount this fiscal year, and 
even provide a full $175 million to catch up on the shortfall in this 
year's appropriation.
    Centennial Challenge: This program provides Federal funds to match 
private funds for projects throughout the park system that improve the 
visitor experience, including but not limited to deferred maintenance 
projects. We commend this subcommittee for the increases for the 
program the last three fiscal years. This support has leveraged more 
than two dollars for every dollar invested for signature projects 
across the National Park System that enhance the visiting experience. 
Many more philanthropic opportunities await, so we hope the 
subcommittee can increase funding for this successful program that 
enjoys strong bipartisan support.
    We commend Congress for passage of the Centennial Act in 2016 to 
dedicate funding to that program and to a newly established endowment. 
Given the extraordinary philanthropic interest in the program, 
sustained or increased appropriations in addition to those funds would 
help leverage additional philanthropic dollars-a wise investment. We 
understand the intent of the committee in directing Centennial 
Challenge dollars to focus on deferred maintenance. While deferred 
maintenance projects funded by this program are critical, NPCA 
respectfully reminds the committee of the importance of other 
philanthropically-driven projects that improve the visiting experience 
in ways beyond maintenance.
    Dedicated backlog funding: We continue to urge Congress to 
recognize that a more realistic long-term solution is needed to address 
the maintenance backlog. Under current allocations established by the 
Budget Control Act, and even beyond given the constraints of the 
appropriations process, it is difficult to see how this subcommittee 
will be able to address even the highest priority non-transportation 
facilities' needs. We also recognize the constraints of the Highway 
Trust Fund in meeting the bulk of park transportation infrastructure 
needs. These funding sources are simply limited in their ability to 
address the large size of the backlog.
    NPCA is a strong advocate for the Restore Our Parks/Restore Our 
Parks and Public Lands Act (S. 500/H.R. 1225). We urge the members of 
the committee to cosponsor the bill and work with other members of 
Congress and the administration to ensure passage of a bill that 
dedicates robust and dependable funding to the maintenance challenge.
    We respectfully request Operations investments for non-maintenance 
needs: While the maintenance backlog is one of our highest funding 
priorities, we do not want a focus on the backlog to cause other needed 
work to fall further behind; therefore, we respectfully request broad 
investments in park operations to address the many operating needs 
beyond maintenance.
    In recent years, NPS has experienced a gradual erosion of staff in 
most years. As you know, these losses can be damaging, with impacts 
such as less day-to-day maintenance, less scientific inventory and 
monitoring, reduced hours or even closed public facilities, fewer 
visitor programs, and other challenges to parks fulfilling their 
mission. The challenge is compounded by significant increases in 
visitation that require staff time. Between 2011 and 2018, NPS 
experienced a 14 percent reduction in staff while at the same time the 
National Park System experienced a 14 percent increase in visitation. 
We appreciate the committee's attention to these ongoing needs, and 
that while the maintenance backlog is a profound problem that NPCA and 
others are prioritizing, these other needs must be addressed.
    Land and Water Conservation Fund (LWCF): The acquisition of 
inholdings is directly related to better managing the places in which 
our Nation already has made a significant investment. Thus, we urge 
support for the NPS Federal land acquisition and management portion of 
LWCF, a critical tool for protecting our national parks. We applaud 
Congress for the recent permanent reauthorization of LWCF, which was an 
exciting show of support for this important program. We ask Congress to 
build on this support by providing more robust appropriations and 
dedicated funding at its fully authorized amount of $900 million 
annually. Accordingly, we urge support for S. 1081, the Land and Water 
Conservation Fund Permanent Funding Act.
    We commend the recent congressional recognition for supporting both 
LWCF and deferred maintenance and urge Congress to support dedicated 
funding for both these important needs.
    National Heritage Areas (NHAs): NPCA is a strong supporter of the 
National Heritage Area program. The more than fifty existing NHAs have 
generated $12 billion in economic activity and $1.2 billion in tax 
revenues and generated over 900,000 volunteer service hours. This 
mighty program with a modest budget deserves support from both Congress 
and the president.
    Historic Preservation Fund (HPF): The HPF provides the primary 
source of funding for State Historic and Tribal Historic Preservation 
Offices in all 50 States. The HPF also supports the Historic Tax Credit 
program, responsible for the rehabilitation of over 40,000 buildings, 
the creation of 2.5 million jobs and the leveraging of $117 billion in 
private investments in historic preservation projects. We request 
continued support for this important program, with gradual increases 
until it reaches its fully authorized amount of $150 million annually.
    Policy Riders: Efforts to attach environmentally damaging policy 
riders only further threatens the appropriations process, so we were 
grateful that the final fiscal year 2019 bill was largely free of the 
many proposed riders that would have threatened parks, their 
ecosystems, and the health of visitors and wildlife within them. We 
urge continued rejection of efforts to attach damaging riders.
    National Park Fees: NPCA recognizes that fees play an important 
role in supplementing Federal funds, but they can never realistically 
be a major funding source for parks. We forcefully opposed the 
administration's excessive effort to increase fees at 17 parks during 
peak season and commend their withdrawing that effort. While the new 
fees will be more modest, on top of recent fee increases, we fear the 
higher amounts could price Americans out of the parks they own. We are 
urging the administration to research the price point at which fees do 
not discourage visitation, particularly for lower income families. We 
ask Congress to consider setting those fee levels to be adjusted every 
two or 3 years by inflation automatically, thus reducing the 
complications that arise with fee decisions and keeping fees at a fair 
and even rate in constant dollars.
    We urge the committee in general to continue exercising oversight 
of fees to keep parks affordable.
    The Administration's Department of the Interior Reorganization 
Effort: We remain deeply concerned about the administration's proposal 
to reorganize the Department. Our chief concerns are: a lack of 
transparency and public involvement; a lack of clarity on the problems 
to be solved, the purposes and goals of the proposal and its 
components, and the suggested timeline for implementation; the 
potential for the proposal to erode the unique NPS mission; shifting 
the number and role of regional offices and staff; the potential for 
the effort to reduce the capacity, presence or coordinating capacity of 
the Washington Support Office (WASO), Denver Service Center and 
regional support offices; the potential cost of the proposal to an 
under-resourced park service; and the potential this proposal could be 
connected with a workforce reduction effort.
    We commend the committee's extensive and improved fiscal year 2019 
report language exercising oversight over this proposal and appreciate 
your continued oversight to ensure the integrity of NPS and the 
Department more broadly. This proposal threatens to undermine the 
authority of the National Park Service.
    The recent government shutdown: The recent government shutdown was 
extraordinarily damaging to our national parks, their visitors, partner 
groups, park staff and businesses. It should never be repeated. This 
shutdown was made much worse not only by its extended duration-more 
than twice the length of the October 2013 shutdown-but by the 
administration's damaging decisions to leave many parks partially open 
despite a lack of staff, and then to use fee dollars intended for other 
purposes to extend this damaging situation.
    We contend the administration violated, at a minimum, the spirit of 
several laws but was also in clear violation of the Organic Act that 
established the park service by leaving parks open to harm and 
continuing the situation despite this clear harm. We commend Chairwoman 
McCollum for exercising oversight to hold the administration 
responsible for its decisions and urge you to continue this oversight. 
Among other fears we continue to have is that the Department of the 
Interior will seek to reprogram badly needed operating dollars for 
staffing at the border, as they did last year. The administration 
appears to be of the philosophy that parks can operate with 
insufficient staff and resources and that they can shift funds by going 
around appropriators, who hold the power of the purse as you know well. 
Furthermore, decisions such as these only contribute to the funding 
woes with which the park service already struggles.
    In conclusion: We recognize the subcommittee's constrained 
allocation, and thus commend the recent funding increases to NPS and 
commitment to our parks well-being. We urge a budget deal, an improved 
subcommittee allocation, and for you to provide the best funding level 
possible for NPS in fiscal year 2020 to help the agency recover from 
underfunding. Further, we appreciate your oversight over the 
administration's proposals regarding fees and reorganization, and the 
reprogramming of funds and other damaging decisions during the shutdown 
and beyond.
    Thank you for the opportunity to testify.

    [This statement was submitted by John Garder, Senior Director of 
Budget and Appropriations.]
                                 ______
                                 
   Prepared Statement of the National Trust for Historic Preservation
    Chairman Murkowski, Ranking Member Udall, and Members of the 
subcommittee, I appreciate this opportunity to present the National 
Trust for Historic Preservation's recommendations for fiscal year 2020 
appropriations. My name is Tom Cassidy and I am the Vice President of 
Government Relations and Policy. The National Trust is a privately-
funded nonprofit organization chartered by Congress in 1949. We work to 
save America's historic places to enrich our future.
    We look forward to working with this subcommittee as you address 
the ongoing needs for investments to sustain our Nation's rich heritage 
of cultural and historic resources that also generate lasting economic 
and civic vitality for communities throughout the Nation.
    National Park Service: Historic Preservation Fund.--The Historic 
Preservation Fund (HPF) is the principal source of funding to implement 
the Nation's historic preservation programs. The National Trust is 
enormously appreciative of the strong funding levels the Committee has 
provided in recent years, including fiscal year 2019's $102.66 million, 
the highest level of HPF funding in history. HPF funding supports 
fundamental preservation activities such as survey, nomination of 
properties to the National Register of Historic Places, public 
education, as well as project review required the Federal Historic 
Rehabilitation Tax Credit (HTC) projects.
    We request that Congress provide a total fiscal year 2020 HPF 
appropriation of $148.5 million. Within that funding we recommend:

  --$60 million for State Historic Preservation Officers (SHPOs);
  --$20 million for Tribal Historic Preservation Officers (THPOs);
  --$5 million for a competitive grant program for SHPOs and THPOs to 
        invest in geographic information systems-based mapping and 
        digitization of historic resources--this would bring 21st 
        century technology to the identification of historic resources 
        at the very earliest stages of project planning leading both to 
        protection of historic sites and promoting more efficient 
        delivery of infrastructure projects;
  --$30 million for competitive grants to preserve the sites and 
        stories of efforts to advance civil rights of underrepresented 
        communities, $20 million of which is to preserve the sites and 
        stories of the African American Civil Rights movement--this 
        will ensure grants to preserve the sites and stories of civil 
        rights for all Americans;
  --$10 million for grants to Historically Black Colleges and 
        Universities to preserve and rehabilitate historic buildings;
  --$15 million for Save America's Treasures grants;
  --$7.5 million for preservation grants to revitalize historic 
        properties of national, state, and local significance;
  --$1 million for competitive grants for the survey and nomination of 
        properties associated with communities currently 
        underrepresented on the National Register of Historic Places 
        and National Historic Landmarks.

    National Park Service: Operation of the National Park System.--The 
National Park Service (NPS) is responsible for 421 units of the 
National Park System ranging from the battlefields where our ancestors 
fought and died to recent additions like the Birmingham Civil Rights 
National Monument and the Reconstruction Era National Monument. Over 
the past 25 years, more than 50 new parks have been added to the park 
system, many of which preserve historic places and themes that have 
been underrepresented within the system. We encourage the Committee to 
provide at least level funding of $2.5 billion from fiscal year 2019 to 
maintain stewardship of historic and cultural resources and prevent 
reductions in visitor services at a time when our national parks are 
more popular than ever. Within this funding, we recommend robust 
funding for Resource Stewardship, including $2 million for the National 
Underground Railroad Network to Freedom, $2 million for the recently 
established African American Civil Rights Network, and $2 million for 
the Reconstruction Era National Historic Network established in the 
John D. Dingell, Jr. Conservation, Management, and Recreation Act 
(Public Law 116-9).
    National Park Service: Deferred Maintenance.--The National Park 
Service (NPS) is responsible for maintaining a system comprised of more 
than 84 million acres that tells the stories of remarkable people and 
events in our country's history. Unfortunately, after 100 years of 
operation and inconsistent public funding, the National Park System 
faces a deferred maintenance backlog estimated at nearly $12 billion, 
of which 47 percent is attributed to historic assets. Deferred 
maintenance in our national parks puts historic and cultural sites at 
risk of permanent damage or loss, and in the absence of funding, the 
condition of these assets will continue to deteriorate and become more 
expensive to repair and preserve in the future.

  --Construction.--We recommend at least $160 million for Line Item 
        Construction projects that address the deferred maintenance for 
        the NPS' highest priority non-transportation assets with 
        projects greater than $1 million.
  --Repair and Rehabilitation; Cyclic Maintenance.--We are enormously 
        appreciative of the Committee's commitment to enhancing these 
        accounts with significant investments since fiscal year 2016; 
        it is making a significant impact on addressing the long-term 
        maintenance needs of the parks. We recommend a continuation of 
        these impactful investments with $150 million for Repair and 
        Rehabilitation, an increase of $14 million above fiscal year 
        2019 enacted and $166 million for Cyclic Maintenance, an 
        increase of $15 million above fiscal year 2019 enacted.
  --Dedicated Funding for Deferred Maintenance.--We strongly support 
        the creation of a reliable, dedicated Federal funding source 
        distinct from annual appropriations to address the deferred 
        maintenance backlog, as provided in the bipartisan Restore Our 
        Parks Act (S. 500) introduced in the Senate and the Restore Our 
        Parks and Public Lands Act (H.R. 1225) introduced in the House.
  --Leasing Historic Structures in National Parks.--We appreciate the 
        Committees' strong support of expanded use of historic leasing 
        authorities by the NPS. Leasing is a well-established tool that 
        can bring non-Federal resources to the rehabilitation and use 
        of under-utilized or abandoned buildings within the parks. I 
        testified at a House Natural Resources Committee field hearing 
        on this topic in Hot Springs, AR last September. We are hopeful 
        that the administration will give greater priority to this 
        important issue this year.
  --Volunteerism.--The National Trust recognizes that direct Federal 
        funding is insufficient to provide all the resources necessary 
        to maintain the parks. As part of our commitment to assist the 
        NPS with reducing the maintenance backlog of historic 
        properties, the National Trust launched the HOPE Crew (which 
        stands for the Hands-On Preservation Experience) initiative in 
        2014. The HOPE Crew program has trained over 700 young people 
        and veterans and engaged 3,000 volunteers at over 150 projects 
        nationwide, completing 120,000 hours and helping to support $18 
        million in preservation work. This work includes rehabilitating 
        structures at Martin Luther King, Jr. National Historical Park, 
        Little Big Horn Battlefield National Monument, Golden Gate 
        National Recreation Area, and Shenandoah National Park. 
        Projects like these help to reduce the maintenance backlog 
        while providing job skills and education for the next 
        generation of stewards of America's most important historic 
        sites.

    National Park Service: Cultural Programs.--Within its cultural 
programs, the NPS manages the National Register of Historic Places 
certifies Federal Historic Tax Credit projects, coordinates Federal 
archaeology programs, and provides funding through the Native American 
Graves Protection and Repatriation Act Grants, Japanese American 
Confinement Sites Grants, and American Battlefield Protection Program 
Assistance Grants. The National Trust recommends $28 million in fiscal 
year 2020, an increase of about $2.5 million from fiscal year 2019. 
Increased funding will enhance preservation of and access to the 
National Register, including modernizing its information system. It 
will also support sustained demands to review and approve Federal 
historic tax credits.
    National Park Service: International Park Affairs, Office of 
International Affairs.--The National Trust recommends $1.926 million 
for International Park Affairs, including at least $1.25 million for 
the Office of International Affairs to ensure engagement in the World 
Heritage Program and support the dozens of communities and sites across 
the country seeking nomination to the World Heritage List. This would 
be a $278,000 increase above the fiscal year 2019 enacted level. The 
Office of International Affairs is responsible for selecting sites for 
the World Heritage Tentative List and shepherding them through the 
detailed nomination process. Examples of pending sites include Hopewell 
Ceremonial Earthworks (Ohio) and Civil Rights Movement Sites (Alabama, 
Arkansas, Georgia, Mississippi). We oppose the administration's 
proposal to shift the Southwest Border Resource Protection Program into 
the Office of International Affairs and at the same time drastically 
reduce overall program funding.
    National Park Service: National Heritage Areas.--We recommend $32 
million for the Heritage Partnership Program and National Heritage 
Areas (NHAs). This funding supports commissions and grants to the now 
55 individual NHAs, as well as administrative support for coordination, 
guidance, assistance, and training. According to the Alliance of 
National Heritage Areas, enhanced funding of $32 million will ensure 
that current areas can continue their work.
    Bureau of Land Management: Cultural Resources Management.--The BLM 
oversees the largest, most diverse and scientifically important 
collection of historic and cultural resources on our Nation's public 
lands, as well as the museum collections and data associated with them. 
The cultural resources program also supports NHPA Section 106 review of 
land-use proposals, Section 110 inventory and protection of cultural 
resources, compliance with the Native American Graves Protection and 
Repatriation Act, and consultation with Tribes and Alaska Native 
Governments. We recommend $20 million, a modest increase of about $3 
million above the fiscal year 2019 enacted level. Increased funding is 
necessary to fulfill BLM's statutory requirements for inventory and 
protection of cultural resources. Funding would also support ongoing 
collaboration with western SHPOs through the Cultural Resources Data 
Partnership to digitize and standardize data in a GIS format through 
the National Cultural Resources Information Management System. This 
effort promotes consideration of cultural resources early in the 
planning process when it can inform siting decisions and reduce 
potential conflicts with cultural resources.
    Bureau of Land Management: National Landscape Conservation 
System.--The BLM's National Landscape Conservation System (National 
Conservation Lands) includes 36 million acres of congressionally and 
presidentially designated lands, including National Monuments, National 
Conservation Areas, Wilderness, Wilderness Study Areas, National Scenic 
and Historic Trails, and Wild and Scenic Rivers. This includes new 
additions such as the Bears Ears National Monument. We encourage the 
Committee to provide $45 million to the base program for the National 
Landscape Conservation System, an increase of $5.181 million above the 
fiscal year 2019 enacted level. An increase will allow for greater 
inventory and monitoring of cultural resources, prevent critical damage 
to the resources found in these areas, ensure proper management, and 
provide for a quality visitor experience. We also support providing at 
least level funding for wilderness management and national monument 
management on Oregon and California Grant Lands.
    Department-Wide: Land and Water Conservation Fund.--The National 
Trust supports robust funding for the Land and Water Conservation Fund 
(LWCF), and we encourage the Committee to continue increasing LWCF 
toward its authorized level of $900 million. Many of the Nation's most 
significant historic and cultural landscapes have been permanently 
protected through LWCF investments, including Martin Luther King Jr. 
National Historical Park, Canyons of the Ancients National Monument, 
and Hopewell Culture National Historic Park. In total, more than $550 
million has been invested to acquire historic sites and 137,000 acres 
in 162 NPS units. Within LWCF funding, we encourage the Committee to 
provide at least level funding of $10 million for the American 
Battlefield Protection Program.
    Independent Agencies: National Endowment for the Arts and National 
Endowment for the Humanities.--We urge the Committee to provide $167.5 
million each for the National Endowment for the Arts (NEA) and National 
Endowment for the Humanities (NEH). NEA and NEH funding is critical to 
communities around the country. It has also supported efforts by the 
National Trust's Historic Sites and others to tell a fuller American 
story and engage visitors with history in compelling ways. For example, 
support from the NEA has created programs like Art and Shadows at the 
Shadows-on-the-Teche in Louisiana. which put regionally-based artists 
in residence at the site, resulting in programming that attracted new 
audiences and brought people from around the country to the town's 
downtown commercial district. NEH support has brought teachers from 
around the country to learn about history in the places that it was 
made and to carry those experiences back to their classrooms, including 
exploring the Constitution at James Madison's Montpelier and 
discovering the rich, but largely unknown, African American history in 
the President's neighborhood at Decatur House.
    Independent Agencies: Advisory Council on Historic Preservation.--
We recommend at least $7 million for the Advisory Council on Historic 
Preservation (ACHP). In fiscal year 2020, the ACHP will continue to 
play an important role in efforts to improve the delivery of major 
infrastructure projects and continue to focus on improving consultation 
with Indian Tribes to make environmental reviews more efficient and 
expeditious for infrastructure projects. An increase in funding would 
enable the ACHP to better address new requirements regarding 
information technology and cybersecurity and annual government mandated 
personnel cost increases, which put a strain on the ACHP's budget.
    Thank you for considering our testimony. I would be pleased to 
answer any questions you may have.

    [This statement was submitted by Tom Cassidy, Vice President for 
Government Relations and Policy.]
                                 ______
                                 
     Prepared Statement of the National Wildlife Refuge Association
Chairwoman Murkowski, Ranking Member Udall, and Members of the 
subcommittee:

    The National Wildlife Refuge Association and its membership of 
representatives from Refuge Friends organizations and concerned 
citizens thank you for your support for the National Wildlife Refuge 
System (Refuge System) particularly for the small funding increases 
over the last several fiscal years. We appreciate the opportunity to 
offer comments on the fiscal year 2020 Interior Appropriations bill and 
respectfully request:

  --$586 million for the Operations and Maintenance (O&M) accounts of 
        the Refuge System;
  --$900 million for the Land and Water Conservation Fund (LWCF), with 
        $150 million allocated for the FWS, including these high 
        priority requests:

    --$10 million for Everglades Headwaters NWR and Conservation Area 
            (FL);
    --$6 million for Silvio O. Conte NFWR (CT, NH, VT, MA);
    --$3 million for Cache River NWR (AR);
    --$2 million for Bear River Watershed Conservation Area (WY, ID, 
            UT);
    --$2 million for Blackwater NWR (MD);
    --$2 million for Clarks River NWR (KY);
    --$8 million for Hakalau Forest NWR (HI); and
    --$8 million for the Dakota Grasslands Conservation Area (ND, SD);

  --$50 million for the Refuge Fund;
  --$75 million for the FWS Partners for Fish and Wildlife Program;
  --$75 million for the State and Tribal Wildlife Grants Program;
  --$47.6 million for the North American Wetlands Conservation Fund;
  --$6 million for the Neotropical Migratory Bird Fund.

    All of the programs delineated above add value both to wildlife 
conservation in all 50 States and to the economic activity in local 
communities. Wildlife refuges and the NWRS average almost $5 in 
economic return for every $1 appropriated. By far, the biggest 
challenge facing the Refuge System today is the completely inadequate 
budgets that fail to cover the cost of maintaining the incredibly rich 
and diverse wildlife habitats that make up the Refuge System.
    The funding gap that has arisen due to low budget allocations over 
the last decade has degraded critical wildlife habitat and imperil 
important species. We must change this trajectory.
    The Refuge System is currently responsible for 835 million acres of 
land and water. Of that total, 740 million acres are included in the 5 
Marine National Monuments created by Presidents Bush and Obama, yet 
very little additional funding has been provided to these water 
resources since their initial creation in 2006.
    The Service is also expanding its outreach by working to make 
conservation more accessible to the American public via urban refuges 
and urban partnerships. To begin bridging these gaps, the Refuge 
Association urges Congress to fund these critical programs that 
leverage Federal dollars and serve as economic drivers.
       national wildlife refuge system--operations & maintenance
    The Refuge Association chairs the Cooperative Alliance for Refuge 
Enhancement (CARE), a 25-year-old diverse coalition of 23 sporting, 
conservation, and scientific organizations representing more than 16 
million Americans that supports increased funding for the Refuge 
System. CARE estimates the NWRS needs at least $900 million annually to 
manage its 95 million land acres and 740 million acres of marine 
national monuments. Yet the Refuge System is currently funded at 
roughly half that amount--$487.7 million or 58 cents per acre.
    The Refuge System cannot fulfill its obligation to the American 
public, our wildlife, and 55.8 million annual visitors without 
increases in maintenance and operation funds.
    Funding for the Refuge System has declined substantially from a 
funding level of $503 million in fiscal year 2010 to its current fiscal 
year 2019 $488 million--$92 million below the $580 million it needs 
just to keep pace with inflation and salary increases. This has forced 
the Service to cut back on programs and create efficiencies whenever 
possible--efficiencies that are sometimes harmful or even dangerous. 
For example, many refuges have been placed into complexes, where staff 
travel sometimes large distances to juggle duties on multiple refuges. 
Three States have no refuge law enforcement staff on the ground, and 13 
others have only one law enforcement officer for the entire State. 
Several States have no visitor services or environmental education 
staff.
    Even with these challenges, the Service has risen to the occasion 
and taken care of the lands and waters entrusted to it. Staff work 
overtime and on weekends. Law enforcement staff are pulled off their 
duty station to cover shifts on the southern border. And the Service 
has cut its deferred maintenance backlog in half from $2.7 billion to 
$1.16 billion. But budget cuts also led to the loss of 488 positions 
since fiscal year 2011. Because most refuge lands and waters are highly 
managed to provide optimal habitat conditions, this deterioration in 
staffing has had a dramatic impact resulting in significant declines in 
habitat protection and management, hunting, fishing, volunteerism and 
scientific research.
    Visitation to all refuges jumped by 8 million over the last 6 
years. Overall, more people are looking to recreate on wildlife 
refuges, yet understaffed refuges struggle to provide those 
opportunities. Reductions in visitor services can be extremely 
troubling to constituencies who want to visit. At Tualatin River NWR in 
Oregon, elimination of the visitor services position cut all teacher 
training workshops and community outreach. Prior to this loss, over 100 
teachers were trained each year at the refuge. Due to budget 
shortfalls, Patuxent Research Refuge in Maryland--the refuge closest to 
the Nation's Capitol--has cut back on school programs, reduced its 
visitor service staff by half, and even closed its visitor's center 
every Thursday.
    Equally troubling is a 15 percent drop in the number of volunteers 
since fiscal year 2011. At a time when record numbers of Americans are 
retiring and have the capability and desire to give back, the Service's 
ability to oversee their efforts has been curtailed. Volunteers provide 
an additional 20 percent of work on our national wildlife refuges, yet 
they are being turned away when the System needs them the most.
    We cannot emphasize enough how important it is to the health of our 
Nation's national wildlife refuges that funding be increased, and 
increased substantially. We are asking that your subcommittee provide 
nearly a $100 million increase, and we do not ask this lightly. We 
understand the budget challenges this committee faces, but the 
situation on the ground is critical. The Refuge System is bare bones 
right now and cannot face more cuts. Every year, more and more refuges 
are closed to the public, habitat degrades, and visitors are turned 
away.
    The Refuge Association appreciates the subcommittee's consideration 
of our request of $586 million for fiscal year 2020 for National 
Wildlife Refuge System Operations and Maintenance.
       strategic growth--land and water conservation fund (lwcf)
    The Land and Water Conservation Fund is an essential tool for 
protecting the integrity of the Refuge System and is the primary 
funding source for land and conservation easement acquisition by 
Federal land agencies. Some in Congress have argued that public lands 
like the Refuge System can't manage what they have and thus, all land 
acquisition should end. We believe that land acquisition in fee simple 
and as part of a targeted easement program will provide an important 
mix of habitats that will only increase the habitat value of the Refuge 
System.
    Conservation easements add very little to operations and management 
costs, compared to other kinds of protected lands. In many cases, land 
acquisition is required to conserve intact and functional natural 
habitat. The Refuge System is responsible for safeguarding population 
levels of a range of species, including many that require specific 
habitat conditions, such as beaches for sea turtles and isolated 
springs for endemic desert fish. Other species require multiple habitat 
types during their life cycle. By acquiring critical habitat areas and 
linking conserved lands, the Refuge System enhances the integrity of 
the System and strengthens our network of habitat to give wildlife 
space and time to respond to changes, whether from climate or changing 
land use patterns.
    The Refuge Association calls on Congress to fund LWCF at $900 
million per year, with $150 million provided in fiscal year 2020 to the 
USFWS, including the projects enumerated at the beginning of this 
statement and those advocated by Refuge Friends.
             commitment to refuge communities--refuge fund
    The Refuge System uses net income derived from permits and timber 
harvests to make payments to local communities to offset property tax 
revenue lost when the federally-acquired lands are removed from local 
tax rolls. The System relies on congressional appropriations to the 
Refuge Fund to compensate for the shortfall between revenues and tax 
replacement obligations. However, declining revenues and lack of 
appropriations have resulted in the Service paying less than 50 percent 
of its tax-offset obligations since 2001. Reduced funding threatens the 
partnerships that are so important for successful conservation, and the 
negative impact on local communities is felt even more starkly in 
difficult economic times.
    We also ask that this subcommittee consider converting or rolling 
the Refuge Fund into the PILT (Payment in Lieu of Taxes) program. Some 
refuge lands are included in PILT and others are included in the Refuge 
Fund. One funding mechanism for all refuge lands makes sense and would 
streamline the process of returning funds to local communities.
    The Refuge Association requests $50 million for the Refuge Fund. We 
also call for a review of the Refuge Revenue Sharing Act of 1935 as 
amended, and consideration of conversion to a Payment-in-Lieu of Taxes 
(PILT) program to be consistent with other Federal land management 
agencies and to provide Refuge communities with more equitable 
payments.
partnerships--partners for fish and wildlife program (partners program)
    With 75 percent of all fish and wildlife species dependent upon 
private lands for their survival, the Partners Program is one of the 
most powerful tools for protecting wildlife where it lives. By building 
effective partnerships between public agencies and private landowners 
to conserve America's expansive working landscapes, the Partners 
Program has implemented nearly 29,000 restoration projects in the past 
25 years, restoring over one million acres of wetlands, three million 
acres of uplands, and 11,000 miles of streams. The Partners Program 
leverages Federal dollars, generating nearly $16 in economic return for 
every $1 appropriated for projects.
    The Refuge Association and the landowner-led Partners for 
Conservation request $75 million for fiscal year 2020. Such a funding 
level would result in an additional $400 million worth of conservation 
across the Nation.
                fish and wildlife service grant programs
    The North American Wetlands Conservation Act (NAWCA), Neotropical 
Migratory Bird Conservation Act (NMBCA), and the State and Tribal 
Wildlife Grants (SWG) have been incredibly beneficial for national 
wildlife refuges.

  --The NAWCA program delivers an average 3:1 match for all Federal 
        standard and small grants, and has restored wetlands on 
        wildlife refuges across the Nation. The Refuge Association 
        fully supports a return to this program's high water mark of 
        $47.6 million.
  --The SWG program provides funding to State wildlife agencies for 
        developing and implementing programs that benefit wildlife 
        habitat for both hunted and non-hunted species. This funding is 
        critical for research, wildlife surveys, species restoration, 
        and habitat management on State lands, which all contribute to 
        a system of healthy Federal and State lands. The States are 
        essential partners to the Refuge System, and we support funding 
        for this program of $75 million.
  --The NMBCA program protects neotropical bird species across the 
        Americas, with $66 million in Federal grants having been 
        matched by $250 million in partner funds. As wonderful as 
        refuge lands are, wildlife conservation must also take place on 
        State and private lands, as well as in other countries, 
        particularly for migratory species. We support fiscal year 2020 
        funding at $6 million for the NMBCA.

    We believe that with sound conservation policy, increased funding, 
and the power of more than 40,000 dedicated volunteers, the Refuge 
System can fulfill its mission to provide wildlife dependent recreation 
for Americans and protect the habitat for more than 700 species of 
birds, 220 species of mammals, 250 reptile and amphibian species and 
more than 1,000 species of fish.
    We look forward to working with Congress to accomplish this goal 
and appreciate your consideration of our requests. Please let me know 
if you have any questions.
                                 ______
                                 
            Prepared Statement of the Native Village of Eyak
    The Native Village of Eyak makes the following requests and 
comments on the fiscal year 2020 Indian programs appropriations:

  --Bridge and Road Repair: Support the Tribe's efforts to repair the 
        36-Mile Bridge and protect Copper River salmon runs
  --Section 105(1) Leases: Identify sufficient funding for healthcare 
        facility leases under Section 105(1) of the Indian Self-
        Determination and Education Assistance Act (ISDEAA).
  --Contract Support Cost Funding: Continue to fund Contract Support 
        Costs at 100 percent.
  --Advance Appropriations for IHS: Place IHS funding on an advance 
        appropriations basis.
  --Subsidies for Telecommunications Connectivity: Continue to support 
        Tribal telecommunications subsidies.
  --Tribal Courts: Fully fund BIA 638 compacts supporting Tribal 
        courts.
  --Climate Change: Support the Tribe's efforts with grants to fund 
        research to respond to climate change threats to the Tribe.
                              introduction
    The Native Village of Eyak is a federally recognized Tribal 
government located in Cordova, Alaska, on the southeast shores of 
Prince William Sound in the North Gulf Coast. The Tribe is a co-signer 
to the Alaska Tribal Health Compact with the Indian Health Service 
(IHS) and operates a wide range of healthcare programs, including 
primary care services and behavioral health. The Tribe also has a self-
governance compact under the ISDEAA with the Bureau of Indian Affairs. 
The Native Village of Eyak focuses on self-determination and self-
governance as a means of improving the lives and health of our Tribal 
citizens. We are not only responsible for providing quality, available 
healthcare services, but also for promoting opportunities and 
partnerships for our citizens, protecting our traditional land and 
natural resources, and for strengthening our culture.
                         bridge and road repair
    In 2011, erosion destroyed a portion of Bridge 339 (the ``36 Mile 
Bridge''), leading to the closure of the Copper River Highway which 
connects the communities in which our members live. The situation 
continues to decline, and a total failure of the bridge would be 
detrimental to the Copper River red and king salmon runs and to the 
water quality of the Copper River, which is of great significance to 
the Tribe. The repairs to the bridge and road will cost tens of 
millions of dollars, and we have been investigating our options to 
contribute to the repair. One option is a Better Utilizing Investments 
to Leverage Development (BUILD) Transportation Grants. We understand 
that the BUILD program does not fall under this subcommittee's 
jurisdiction, but we appreciate you support in this and any other 
funding sources to help us reconnect our community and protect the 
Copper River.
                         section 105(l) leases
    Like many other Tribes, Eyak relies on section 105(l) leases to 
address our chronically underfunded facilities operation, maintenance, 
and replacement costs. We are gratified that IHS has been funding 
Section 105(l) leases for Tribal health clinics, as it was required to 
do by the Federal courts in the 2016 Federal court decision in Maniilaq 
v. Burwell, which held that section 105(l) of the ISDEAA provides an 
entitlement to full compensation for leases of Tribal facilities used 
to carry out ISDEAA agreements. We appreciate your supplemental 
appropriations in fiscal year 2019 to cover these costs, and we ask 
that funding continue to be made available for these important leases. 
This Committee has invited IHS to submit a report on the budget impact 
of meeting its responsibility. We stand with other Tribes to oppose any 
appropriations rider, such as those included in the administration's 
budget proposals for fiscal year 2018 and fiscal year 2019, which would 
allow IHS to avoid its responsibility to compensate Tribes fully for 
these costs. We ask that Congress again decline to include such a 
provision in the fiscal year 2020 IHS appropriation.
                     contract support cost funding
    We appreciate the successful efforts of the House and Senate 
Interior appropriations subcommittees over the past several years 
supporting the full payment of Contract Support Costs (CSC) by both the 
IHS and the BIA. We are also very pleased that the administration has 
continued to request that CSC be maintained as a separate 
appropriations account in IHS and in BIA, and with an indefinite 
funding of ``such sums as may be necessary''. The full payment of CSC 
has been crucial to the strengthening of Tribal governments' ability to 
successfully exercise their rights and responsibilities as sovereign 
governments.
                     advance appropriations for ihs
    We are appreciative of the increased attention to the issue of 
advance appropriations for the IHS as evidenced by the legislation 
introduced by Ranking Member Udall and in the House by Representative 
Don Young and Interior Appropriations Chair McCollum and Ranking Member 
Joyce. The bills differ somewhat and address advance appropriations for 
IHS (placing it on the same schedule as veterans healthcare) and 
programs in the BIA and BIE/Predictability in our funding is very 
important for us as we endeavor to meet the healthcare needs of our 
community. As you know, when IHS funding is subject to a Continuing 
Resolution, as it has been over many years, Tribal healthcare providers 
like us receive only a portion of funding at a time, making it 
particularly difficult to implement long-range planning and to 
effectively use and leverage limited resources. Under advance 
appropriations, we would know our budget a year in advance which would 
resolve our budget uncertainty. The IHS budget should be treated the 
same way as VA health programs.
             subsidies for telecommunications connectivity
    Eyak understands that the subcommittees do not directly control 
funding subsidies under the Federal Communications Commission and 
Universal Service Administrative Company (USAC). Telecommunications 
Subsidies. But, as you know, Internet connectivity is critical to 
providing healthcare services to our remote villages. Last year you 
heard from us and other Tribes regarding the cap on Universal Service 
Rural Health Care funds. We appreciate your support in eliminating the 
cap last year, and efforts to stabilize the Universal Service Fund 
Rural Health Care program and make sure that our telehealth obligations 
to our community members remain fully funded.
                             tribal courts
    As Tribes become partners within the corrections and court system 
in the State of Alaska, we have a need for more funding to adequately 
staff Tribal Courts and run optimal programs. We appreciate that 
Congress rejected the administration's proposal to zero out Tribal 280 
Court funds for fiscal year 2019, maintaining the $13 million level 
enacted in fiscal year 2018. Specifically, we would like a sustainable 
amount of Tribal Court funds to be recurring rather than one time funds 
that are applied for each year.
                             climate change
    Eyak continues to experience weather and climate change. Rivers and 
lakes that used to freeze all winter freeze minimally or even stay 
open. Eyak is used to receiving 180 inches of rain on average per year 
and about 6 feet of snow annually. This rain and snowfall has decreased 
dramatically, which poses dangers to local hydropower, commercial 
fishing and the ability to have adequate drinking water. Increases in 
Natural Resources funding would allow our Tribe to implement research 
projects to study these changes and how they impact our natural 
lifestyle and determine how to respond. Respectfully,

    [This statement was submitted by Darrel Olsen, Tribal Council 
Chairman.]
                                 ______
                                 
     Prepared Statement of the Natural Science Collections Alliance
    The Natural Science Collections Alliance appreciates the 
opportunity to provide testimony in support of fiscal year 2020 
appropriations for the Smithsonian Institution and the Department of 
the Interior. We encourage Congress to make new investments that 
address agency backlogs in the preservation and curation of scientific 
and cultural collections within the Department of the Interior and the 
Smithsonian Institution. We request that Congress provide new funding 
to the National Museum of Natural History to correct for it being flat 
funded the past 2 years. We further request that Congress restore the 
$1.6 million in funding for the U.S. Geological Survey's Biological 
Survey Unit housed at the Smithsonian Institution.
    The Natural Science Collections Alliance is a non-profit 
association that supports natural science collections, their human 
resources, the institutions that house them, and their research 
activities for the benefit of science and society. Our membership 
consists of institutions that are part of an international network of 
museums, botanical gardens, herbaria, universities, and other 
institutions that contain natural science collections and use them in 
research, exhibitions, academic and informal science education, and 
outreach activities.
    Scientific collections, and the collections professionals and 
scientists who make, care for, and study these resources, are a vital 
component of our Nation's research infrastructure. Whether held at a 
museum, government managed laboratory or archive, or in a university 
science department, these scientific resources consist of data (for 
example, genetic, tissue, organism, and environmental) that are a 
unique and irreplaceable foundation from which scientists are studying 
and explaining past and present life on earth. Research results improve 
human health, enhance food security, and provide monitoring for 
responses to environmental change and species conservation.
    The institutions that care for scientific collections are important 
research centers that enable other scientists to study the basic data 
of life; conduct biological, geological, anthropological, and 
environmental research; and integrate research findings from across 
these diverse disciplines. Their professional staff members train 
future generations with the tools and expertise required to move 
science forward. In-house institutional staff expertise is vital to the 
development and deployment of this critical research infrastructure.
    According to the Federal Interagency Working Group on Scientific 
Collections, ``scientific collections are essential to supporting 
agency missions and are thus vital to supporting the global research 
enterprise.'' Preservation of specimens and the strategic growth of 
these collections are in the best interest of science and the best 
interest of taxpayers. Existing scientific collections that are 
properly cared for and accessible are a critical component of the U.S. 
science infrastructure and are readily integrated into new research on 
significant questions. Specimens that were collected decades or 
centuries ago are now routinely used in research in diverse fields 
related to genomics, human health, biodiversity sciences, informatics, 
environmental quality, and agriculture.
    The Smithsonian Institution's National Museum of Natural History 
(NMNH) is a valuable Federal partner in the curation and research on 
scientific specimens. The scientific experts at the NMNH care for 140 
million specimens and ensure the strategic growth of this 
internationally recognized scientific research institution. To increase 
the availability of these scientific resources to researchers, 
educators, other Federal agencies, and the public, NMNH is working on a 
multi-year effort to digitize its collections. That effort will 
substantially increase the scientific uses of these collections.
    The National Museum of Natural History has also been working to 
strengthen curatorial and research staffing and to backfill positions 
left open by retirements and budget constraints. The current staffing 
level is insufficient to provide optimal care for the collections. 
Future curatorial and collections management staffing levels may be 
further jeopardized given funding cuts at science agencies, such as the 
USGS, that support staff positions at the National Museum of Natural 
History.
    Interior is an important caretaker of museum collections as well; 
the Department has an estimated 146 million items, comparable in size 
only to the Smithsonian Institution. Although many of the department's 
collections are located in bureau facilities, numerous artifacts, and 
specimens are also housed by non-governmental facilities, such as 
museums and universities.
    In addition, the United States Geological Survey (USGS) furthers 
the preservation, inventory, and digitization of geological scientific 
collections, such as rock and ice cores, fossils, and samples of oil, 
gas, and water. The National Geological and Geophysical Data 
Preservation program helps States with collections management, improves 
accessibility of collections data, and expands digitization of 
specimens to ensure their broader use. One example of the returns from 
this program is the potash mineral deposit discovered in Michigan that 
is valued at an estimated $65 billion. Rock samples from Michigan were 
entered into a national database, where private companies discovered 
the deposit's existence and are now assessing the potential for mining. 
USGS also supports the documentation and conservation of native 
pollinators through its Native Bee Inventory and Monitoring Lab.
    The Biological Survey Unit consists of USGS scientists stationed at 
the National Museum of Natural History, where they curate and conduct 
research on USGS-specimens of fish, reptiles, birds and mammals that 
are curated at the NMNH. USGS has more than a million specimens of 
birds, mammals, amphibians, and reptiles that are housed at the 
Smithsonian. This arrangement goes back to 1889, but has been proposed 
for elimination by the administration. This is irresponsible. These 
specimens, data and the research they enable are required to inform 
Department of the Interior land and natural resource management 
decisions, and often also support decisionmaking by State and Tribal 
governments. We urge Congress to fund this valuable program at $1.6 
million and to direct the USGS to sustain this effort.
    The Bureau of Land Management has a large backlog of cultural 
resources to inventory on public lands. Currently, only 10 percent of 
public lands have been assessed for heritage resources. Such 
assessments need to be conducted before unique resources are lost to 
looting, vandalism, fire, or environmental change.
    The National Park Service must continue its investments in 
scientific collections, including cataloging millions of museum objects 
and connecting those databases to national and global data portals. The 
National Park Service curates a wide range of specimens and artifacts, 
from historical and cultural items to preserved tissues from protected 
species and living microorganisms collected in our National Parks. 
Several parks have made progress on addressing planning, environmental, 
storage, security, and fire protection deficiencies in museum 
collections, but much work remains. The President's budget request 
would undo past progress, with the percentage of museum collections in 
'good' condition decreasing from 75 percent in fiscal year 2014 to 69 
percent by the end of fiscal year 2019.
Conclusion
    Scientific collections are critical infrastructure for our Nation's 
research enterprise and a national treasure. Research specimens connect 
us to the past, are used to solve current problems, and are helping to 
predict threats to human health, methods for ensuring food security, 
and the impact of future environmental changes. Sustained investments 
in scientific collections are in our national interest.
    The budget for NMNH has remained flat over the past 2 years. We 
urge Congress to provide NMNH with at least $53 million in fiscal year 
2020 to allow the museum to undertake critical collections care, make 
needed technology upgrades, and conduct cutting edge research. Please 
support adequate funding for the Department of the Interior's Capital 
Working Fund, as well as programs within Interior bureaus, such as the 
Biological Survey Unit, that support the preservation and use of 
scientific collections--a truly irreplaceable resource.
    Thank you for your thoughtful consideration of this request.

    [This statement was submitted by John Bates, President.]
                                 ______
                                 
              Prepared Statement of The Nature Conservancy
    Chairman Murkowski, Ranking Member Udall and Members of the 
subcommittee, thank you for the opportunity to submit recommendations 
for fiscal year 2020 appropriations. The Nature Conservancy is an 
international, non-profit conservation organization working around the 
world to protect ecologically important lands and waters for nature and 
people. Our mission is to conserve the lands and waters upon which all 
life depends.
    As we enter the fiscal year 2020 budget cycle and another year of a 
challenging fiscal environment, the Conservancy wishes to thank this 
subcommittee for the final fiscal year 2019 funding levels for 
conservation programs. Our budget recommendations this year reflect a 
balanced approach with funding levels consistent with fiscal year 2018 
and fiscal year 2019 funding levels. Of particular note, we wish to 
work with this subcommittee and the authorizing Committees on 
identifying a permanent funding solution for the Land and Water 
Conservation Fund. We strongly support the emphasis on funding for sage 
grouse conservation and urge Congress to continue support for ongoing 
sage grouse conservation efforts. We also support funding practical, 
innovative climate solutions to create an energy future that is 
cleaner, more secure and gives consumers more energy choices. Investing 
in nature brings strong returns for our security, the economy and our 
communities and families. The Conservancy is focused on supporting 
programs and investments that ensure economic and environmental 
benefits are enhanced today and made sustainable for tomorrow.
    The Conservancy would like to take the opportunity to thank the 
Committee for its long-standing support of the fire funding fix in the 
fiscal year 2018 Omnibus appropriations bill passed last year. The 
passage of this much-needed funding solution means that dollars 
appropriated by this committee to the fire management accounts of both 
the USDA Forest Service and Department of the Interior (DOI) can be 
used for their intended purposes and not be drained to fight 
catastrophic wildfires in upcoming fire seasons. Our forest management 
funding requests seek to reinvest savings resulting from a fire fix and 
would reduce wildfire risk and improve forest health and resilience.
    Land and Water Conservation Fund (LWCF).--The fiscal year 2019 
Omnibus dedicated $435 million in discretionary appropriations for 
LWCF. The Fund has strong bipartisan support and the Conservancy 
appreciates Congress's commitment to funding important on-the-ground 
conservation and recreation projects. The Conservancy supports $600 
million in discretionary appropriations for LWCF for fiscal year 2020 
and looks forward to working with Congress to find a permanent funding 
solution for LWCF.
    Forest Legacy.--The Conservancy support $100 million for the Forest 
Legacy Program.
    Endangered Species.--The Conservancy supports continuing funding of 
at least $53 million for the Cooperative Endangered Species Fund 
consistent with fiscal year 2019 levels. This funding provides critical 
matching grants to States and territories for conservation and species 
recovery efforts on non-Federal lands. Further, we request your 
continued support for Habitat Conservation Plan (HCP) funding, 
specifically HCP Land Acquisition Grants. The demand for HCP 
acquisition grants has significantly outpaced available resources in 
recent years.
    State and Tribal Wildlife Grants.--The Conservancy supports the 
fiscal year 2019 Omnibus funding level of $64.5 million for this 
program. Strong Federal investments are essential to ensure strategic 
actions are undertaken by State, Tribal and Federal agencies and the 
conservation community to conserve wildlife populations and their 
habitats and to prevent species from being listed as threatened or 
endangered.
    Wildlife Conservation Programs.--The variety of wildlife 
conservation programs conducted by the U.S. Fish and Wildlife Service 
(FWS) continue a long and successful tradition of supporting 
collaborative conservation in the United States and internationally. We 
urge the Committee to continue funding such established and successful 
programs as the North American Wetlands Conservation Act (NAWCA), 
Neotropical Migratory Bird Conservation Fund, the Migratory Bird Joint 
Ventures, FWS Migratory Bird Management Program and the FWS Coastal 
Program at no less than fiscal year 2019 Omnibus funding levels. We 
support, at a minimum, sustained funding for the Partners for Fish and 
Wildlife Program and the Cooperative Landscape Conservation and 
Adaptive Science programs. The latter will help support DOI in 
addressing large scale conservation challenges across all ownerships, 
supporting collaborative problem solving for some of our Nation's most 
challenging conservation issues. We also request strong funding for the 
National Fish Habitat Initiative.
    International Programs.--The international conservation programs 
appropriated annually within the Department of Interior are relatively 
small but are effective and widely respected. They encompass the FWS 
Multinational Species Conservation Funds, the FWS Wildlife Without 
Borders regional and global programs, and the U.S. National Park 
Service's International Program. We are requesting modest increases 
over fiscal year 2019 funding levels for these programs.
    National Wildlife Refuge System.--The Conservancy supports stronger 
funding for the Refuge System's Operations and Maintenance accounts. 
Found in every U.S. State and territory, national wildlife refuges 
conserve a diversity of America's environmentally sensitive and 
economically vital ecosystems, including oceans, coasts, wetlands, 
deserts, tundra, prairie, and forests. The Conservancy requests $586 
million for fiscal year 2020. This represents the funding necessary to 
maintain management capabilities for the Refuge System.
    Hazardous Fuels and Restoration.--Strategic, proactive hazardous 
fuels and restoration treatments have proven safer and more cost-
effective in reducing risks to communities and forests by removing 
overgrown brush and trees, leaving forests in a more natural condition 
resilient to wildfires. The Conservancy recommends investing $500 
million in the USDA Forest Service's Hazardous Fuels program and $210 
million in the DOI's Fuels Management program, in addition to 
instructions for allocating funds to priority landscapes in both WUI 
and wildland settings. We also support increasing the CFLR program to 
$80 million to allow for new projects, Vegetation & Watershed 
Management to $210 million (carving out $20 million for ecological 
reforestation) and re-instating the Legacy Roads and Trails program at 
$50 million. Additionally, we request this Committee provide funding to 
establish the new Watersource Protection program, enacted in the 2018 
Farm Bill.
    Research and Joint Fire Science.--The USDA Forest Service's Forest 
and Rangeland Research program offers the scientific bases for policies 
that improve the health and quality of urban and rural communities. 
This program is vital for the long-term health and utility of our 
American forests and rivers. The Conservancy requests funding research 
at $315 million. We ask to also include $8 million for each the USDA 
Forest Service and DOI's Joint Fire Science programs, which have proven 
great success in supporting practical science that reduces fire risk 
and enhances economic, ecological and social outcomes nationwide.
    Sage Grouse Conservation.--The Conservancy requests continued 
investments to provide ongoing efforts to restore and conserve 
sagebrush habitat and the Greater Sage-grouse across Federal, State, 
Tribal and private lands. These resources are needed to implement on-
the-ground projects and monitor habitat treatments, address rangeland 
fire and broader wildland fire prevention, suppression and restoration 
efforts, and facilitate the partnership and science necessary for 
effective conservation. Importantly, we ask that you remove language in 
Sec. 120 of the fiscal year 2019 Conference Report that bars the 
Service from proposing a rule to list the sage grouse under the 
Endangered Species Act (ESA). This language undercuts good faith 
conservation efforts by removing the critical backstop of a listing 
should conditions on the ground warrant such a step. The Bureau of Land 
Management (BLM) is facing perhaps the single most challenging effort 
in its history in conserving key sagebrush habitat, addressing 
identified threats to sage-grouse and promoting sustainable economic 
development across some 165 million acres in coordination with State 
and local managers and private land owners. We hope that all of our 
work together can avoid the need to list the sage grouse in the future
    BLM Land Management and Renewable Energy Development.--The 
Conservancy supports smart planning and management of public lands 
through implementation of Rapid Ecoregional Assessments, Resource 
Management Planning improvements, Regional Mitigation Planning, 
coordination with LCCs, and the Assessment, Inventory, and Monitoring 
Strategy. Many BLM programs contribute to these cross-cutting 
initiatives including: National Landscape Conservation System ($39.8 
million); Resource Management Planning program ($63.125 million); and 
the new Wildlife and Aquatic Habitat Management budget line ($128.846 
million with $21.587 allocated to threatened and endangered species). 
Additionally, the Conservancy supports continued funding for BLM's 
renewable energy development program at the fiscal year 2018 Omnibus 
level of $28.3 million. Collectively, these efforts will help BLM 
manage its lands efficiently and effectively for energy development, 
species and habitat conservation, recreation, and other uses to 
maximize the public benefit from these lands.
    Environmental Protection Agency's Geographic Programs.--EPA's 
geographic programs, including the Great Lakes Restoration Initiative, 
Chesapeake Bay, Puget Sound, Long Island Sound, and Gulf of Mexico 
programs, make a significant contribution to protecting habitat and 
water quality in the large landscapes where they work. These programs 
have a proven record of supporting the States' voluntary restoration 
efforts, and the Conservancy urges the Committee to continue the strong 
funding for these programs it allocated in fiscal year 2019.
    Colorado River Basin Recovery Programs.--The Upper Colorado River 
Endangered Fish Recovery Program and San Juan River Basin Recovery 
Implementation Program take a balanced approach to recovering four 
endangered fish species in the Colorado River basin. The Upper Colorado 
and San Juan recovery programs are highly successful collaborative 
conservation partnerships involving the States of New Mexico, Colorado, 
Utah, and Wyoming, as well as Indian Tribes, Federal agencies, and 
water, power and environmental interests. These programs provide 
critically important ESA compliance for over 2,450 Federal, Tribal, 
State, and private water projects across the Upper Colorado River 
Basin. Through these efforts, water use and development have continued 
in growing Western communities in full compliance with the ESA, State 
water and wildlife laws, and interstate compacts. Implementation of the 
ESA has been greatly streamlined for Federal agencies, Tribes and water 
users. The Conservancy supports robust funding at FWS for the Colorado 
River Basin recovery programs, including recovery funds for both the 
Upper Colorado River Endangered Fish Recovery Program and San Juan 
River Basin Recovery Implementation Program, as well as fish hatchery 
needs associated with the recovery plans.
    National Streamflow Network.--The National Streamflow Network 
provides continuous streamflow information at over 8,200 locations 
across the country and is managed within the U.S. Geological Survey's 
Groundwater and Streamflow Information Program. Water managers, 
scientists, and other decisions makers, including within the 
Conservancy, rely on data from the National Streamflow Network to plan 
for floods, droughts, and other extreme events; design infrastructure, 
including the operation of Federal reservoirs; facilitate energy 
generation; protect aquatic species and restore habitat; and manage 
Federal lands. The Conservancy supports funding in fiscal year 2020 to 
fully implement the National Streamflow Network.
    Water Infrastructure Finance and Innovation Program.--Subtitle C of 
Title V of the Water Resources Reform and Development Act of 2014 
provides authority for low-cost credit that can leverage private 
investment for water infrastructure. The criteria include whether a 
project protects against extreme weather events or helps maintain the 
environment. The Conservancy appreciates the strong funding the 
Committee allocated to the Water Infrastructure Finance and Innovation 
Program in fiscal year 2019 and urges continued support for it.
    Thank you for the opportunity to submit The Nature Conservancy's 
recommendations for the fiscal year 2020 Interior, Environment and 
Related Agencies Appropriations Bill.

    [This statement was submitted by Kameran Onley, Director of U.S. 
Government Relations.]
                                 ______
                                 
               Prepared Statement of the Nez Perce Tribe
    Honorable Chairwoman and Members of the subcommittee, the Nez Perce 
Tribe (Tribe) provides the following recommendations as the Committee 
evaluates and prioritizes fiscal year 2020 appropriations, in relation 
to the needs of Tribal nations, for the Indian Health Service (IHS), 
Bureau of Indian Affairs (BIA), Environmental Protection Agency (EPA), 
U.S. Forest Service (FS), U.S. Fish and Wildlife Service (FWS), and the 
Bureau of Land Management (BLM). The Tribe wants to acknowledge and 
thank this subcommittee for its efforts to understand the needs of 
Indian Country and advocate for increased appropriations to the many 
programs in its jurisdiction that benefit the citizens, the Tribal 
governments, and all members of our communities. We are deeply grateful 
that the many funding increases to Tribal programs across the final 
fiscal year 2019 Consolidated Appropriations Act will build on 
increases Congress provided in fiscal year 2017 and in fiscal year 
2018.
    Like any government, the Tribe performs a wide array of work and 
provides a multitude of services to its Tribal membership as well as 
the community at large. The Tribe has a health clinic; a Tribal police 
force; a social services department; and a comprehensive natural 
resources program that does work related to forestry, wildlife 
management, land services and land management, habitat restoration, air 
quality and smoke management, water quality and sewer service. The 
Tribe also operates one of the largest fisheries departments of any 
Tribe in the nation working on the recovery of listed species under the 
Endangered Species Act (ESA). Each of these programs is necessary and 
vital for the Tribe as a sovereign nation that preserves and protects 
the Treaty rights of the Nez Perce People and provides day-to-day 
governmental services to our members and surrounding communities.
    The Tribe has long been a proponent of self-determination for 
Tribes and believes our primary obligation is to protect the Treaty-
reserved rights of the Tribe and our members. All of the Tribe's work 
is guided by this principle. The Tribe works extensively with many 
Federal agencies and proper funding for those agencies and their work 
with, for, and through Tribes is of vital importance. To accomplish 
this work, the U.S. must affirm its trust responsibility to Indian 
Tribes by properly funding programs. The Tribe supports the recent 
report of the U.S. Commission on Civil Rights, Broken Promises, as well 
as the National Congress of American Indians' publication of Indian 
Country's fiscal year 2020 budget request, Winds of Change.
                        bureau of indian affairs
    The Tribe appreciates the $3.08 billion in overall funding for the 
BIA and Bureau of Indian Education in fiscal year 2019 and requests 
that this $17.5 million increase be maintained in fiscal year 2020. The 
Tribe also supports the indefinite appropriation for contract support 
costs and believes that at least the $247 million appropriated in 
fiscal year 2019 should be provided in fiscal year 2020. These costs 
should also be reclassified from discretionary to mandatory.
    In relation to the BIA Public Safety and Justice (PS&J) account, 
the Tribe advocates for maintaining at least the $411.5 million in 
funding for law enforcement that was enacted for that account in fiscal 
year 2019. The Nez Perce Reservation spans 1,200 square miles, covering 
five counties, and has a mixture of Tribal and non-Tribal residents. 
The Tribe provides a full-service law and justice program. The Tribe 
has a fully trained and staffed police force, a fully staffed Tribal 
court, a prosecutor, a public defender, and other personnel that 
perform related administrative functions. The Tribe received $953,214 
in base funding from PS&J in fiscal year 2017. Currently, the Tribe 
contributes $1,974,530 annually to cover the shortfall in BIA funding 
for the Tribe's law enforcement, $527,984 for judicial services/
probation, $390,832 for prosecutorial services, $256,636 for public 
defender services, and $300,000 for prisoner boarding. This 
supplemental funding of nearly $3.5 million is derived from Tribal 
taxes on goods and fuel and Tribal gaming revenues that would otherwise 
be used for Tribal governmental services. Funding for these programs 
needs to be maintained and ultimately increased to account for 
shortfalls in funding the Tribe has to absorb in order to continue the 
operation of these important services on the Reservation.
    The Tribe requests total funding of $35 million be provided for 
scholarships and adult education and special higher education 
scholarships and that funding for the Johnson O'Malley program be 
substantially increased from the $14.9 million provided in fiscal year 
2019 to the level of $42 million that NCAI recommends. Johnson O'Malley 
program funding has remained static for many years resulting in the 
decrease of per student funding. The Tribe also supports $2.5 million, 
if not an increase, in funding for Tribal education departments along 
with increases for Tribal colleges and universities that support 
institutions like Northwest Indian College which operates a satellite 
campus on the Nez Perce Reservation.
    The Tribe also relies on the BIA for funding for our work related 
to endangered species and protection of the Tribe's Treaty resources, 
including Chinook and steelhead salmon. The funding is used to 
supplement research efforts of the Tribe relative to other sensitive 
species. The Tribe recommends a $1 million increase for the BIA 
Endangered Species Program. This account provides Tribes with technical 
and financial assistance to protect endangered species on trust lands. 
Also, the Tribe recommends an increase of $2.8 million for BIA Natural 
Resource Tribal Priority Allocations which will help increase Tribal 
land and management capabilities.
    In addition, the funding provided under the BIA Rights Protection 
Implementation account is critical to support the exercise of treaty-
reserved, off-reservation hunting and fishing for Tribes. The Tribe 
supports, at a minimum, funding of $41.3million, the fiscal year 2019 
enacted level. BIA single-line dollars provide the foundation for core 
program administration and treaty rights protection activities, such as 
harvest monitoring. These efforts are central to the Tribe's fisheries 
management responsibilities as established by the Nez Perce Treaties of 
1855 and 1863 and further delineated in court decisions regarding 
implementation of hunting and fishing Treaty rights. It is important to 
understand that this funding is used for job creation.
    The Tribe also supports $15.3 million in funding for the BIA Fish, 
Wildlife and Parks. The Tribe, through our fisheries programs, has 
invested a significant amount of personnel and resources into the 
restoration of salmon. The States of Oregon, Washington, and Idaho, as 
well as sports fisheries, directly benefit from this work. These 
programs have been successful with funding under the Tribal Management 
and Development Program which is critical for the Tribe's management of 
fish and wildlife. We recommend funding in the amount of $17 million 
for the Tribal Management and Development Program, a $5.3 million 
increase from fiscal year 2019.
                         indian health service
    The Tribe operates Nimiipuu Health, a healthcare clinic on the Nez 
Perce Reservation in Lapwai, Idaho, and its satellite facility located 
65 miles away in Kamiah, Idaho. Nimiipuu Health provides services to 
approximately 4,000 patients each year. Annually, this computes to 
40,000 medical provider visits which does not include pharmacy or 
laboratory visits. Our expenditure total of Federal funds in fiscal 
year 2018 was $16,403,788.97, an increase of $1.1 million from that in 
fiscal year 2017. Purchased/Referred Care (P/RC) costs for outpatient 
services in fiscal year 2018 totaled $4,340,402.73, an increase of 
$600,000 from fiscal year 2017.
    For fiscal year 2020, the Tribe recommends, at a minimum, 
continuing the $5.8 billion in funding enacted for IHS in fiscal year 
2019. This funding amount will allow Nez Perce and other Tribes to pay 
costs, maintain current services, and allows programs and facilities to 
keep up with medical and non-medical inflation and population growth. 
The Tribe appreciates the $2.1 million increase in funding for P/RC 
provided in fiscal year 2019 and recommends that this $964.8 million 
allocation be preserved or increased by up to $20 million to continue 
to meet the P/RC spending needs of Tribal health facilities.
    The Tribe supports $822.2 million for contract support costs in 
fiscal year 2020 and the inclusion of bill language to classify this 
appropriation as indefinite so that, if needed, additional funds may be 
provided as they were in fiscal year 2018 and fiscal year 2019. The 
Tribe appreciates that Congress chose to fully fund contract support 
costs in fiscal year 2019--as it should, per any agreement. In 
addition, the Tribe supports reclassifying contract support costs for 
the BIA and IHS as mandatory and not discretionary. However, this 
change in funding should not be accomplished or be off-set by reducing 
other funding for these agencies that would adversely affect services 
or programs. This funding should not be reduced by excessive set-asides 
for administration. Finally, the Tribe recommends permanent, mandatory 
funding of the Special Diabetes Program at no less than $150 million 
per fiscal year.
 u.s. fish and wildlife service and u.s. forest service and bureau of 
                            land management
    The Tribe relies heavily on funding sources within the FWS and the 
FS. First, the operations of Kooskia National Fish Hatchery are funded 
by FWS. The Tribe manages the hatchery pursuant to the terms of the 
Snake River Water Rights Act of 2004 (Act). FWS requires full funding 
for the operations of this important facility to ensure the U.S. meets 
its obligations under the Act. Second, the FWS-administered State and 
Tribal Wildlife Grants program is an important and cost-effective 
expenditure for the government and is one of the few sources of funds 
Tribes can tap into for wildlife research. Since 2005, we have received 
five such grants funding work on diverse issues such as gray wolf 
monitoring, bighorn sheep research, rare plant conservation, and Condor 
habitat research. Continued funding for the State and Tribal Wildlife 
Grant program will allow recipient Tribes to build capacity and 
maintain involvement in key conservation issues. The Tribe strongly 
urges this subcommittee to increase funding for these competitive 
grants to $66 million and increase the Tribal share from $4.2 million 
to $6.5 million.
    The Nez Perce Reservation and its usual and accustomed areas are 
rich in natural resources and encompass eleven national forests. The 
Tribe works closely with each forest's administration to properly 
manage its resources on behalf of the Tribe. These range from 
protecting and properly managing the products of the forest to 
providing habitat for the vast wildlife in each one such as elk, deer, 
bighorn sheep and wolves. Increased funding is necessary so that the FS 
can meet these trust obligations and continue to work with Tribes on a 
government-to-government basis without being hampered by lack of 
funding to fill positions. With regard to management of bighorn sheep, 
the Tribe would note the House Subcommittee for Interior appropriations 
has included report language to both the BLM and FS over the last 
several years that encourages research related to disease transmission 
between domestic sheep and bighorn sheep. The Tribe encourages this 
type of research mandate be restricted to laboratory settings and not 
be allowed to occur in the field where impact and harm would be more 
difficult to control. The bighorn sheep populations within the Tribe's 
aboriginal territories are too fragile and too important to be put at 
risk.
                    environmental protection agency
    The Tribe works closely with EPA on a large number of programs that 
are essential to the health and safety of the 18,000 Tribal and non-
Tribal citizens residing within the Nez Perce Reservation and that also 
protect the Treaty-reserved resources of the Tribe that the U.S. has a 
trust obligation to preserve. These programs include: the Clean Water 
Act 106 Program; the Clean Water Act 319 Nonpoint Source (NPS) 
Pollution Prevention Program; the Indian General Assistance Program; 
the Tribal Brownfields Response Program; the Underground Storage Tank 
Program; the Delegation of Nez Perce Federal Implementation Plan; the 
Clean Air Act 103 Grant-Nez Perce Tribe Air Quality Project; and the 
EPA Region 10 Pesticide Circuit Rider Program. The Tribe currently 
implements over $1.5 million in programmatic funding under these 
programs. The Tribe recommends the Indian General Assistance Program be 
increased from $65.5 million to $75 million, the Tribal allocation 
under the Clean Water Act 106 program be increased by 20 percent, $13 
million for Tribal Air Quality Management, $87 million for the 
Brownfields Program and $13 million be provided in lieu of the percent 
cap on Tribal funding for NPS pollutant control.
    The Tribe requests the subcommittee fund the Columbia River Basin 
Restoration Program, authorized under the Water Infrastructure 
Improvements for the Nation Act of 2016, at no less than the $1 million 
provided to EPA in fiscal year 2019 but recommends that number be 
substantially increased.
    As you can see, the Tribe does a tremendous amount of work in a 
variety of areas. It is important that the U.S. continue to fund this 
work and uphold and honor its trust obligations to tribes. Thank you 
for the opportunity to testify today.
                                 ______
                                 
    Prepared Statement of the Northwest Indian Fisheries Commission
    Chair Murkowski, Ranking Member Udall, and Honorable Members of the 
subcommittee, my name is Lorraine Loomis and I am Chair of the 
Northwest Indian Fisheries Commission (NWIFC). The NWIFC is comprised 
of the 20 Tribes in western Washington that are party to United States 
v. Washington, which upheld the Tribes' treaty-reserved right to 
harvest and manage natural resources on and off-reservation, including 
salmon and shellfish. On behalf of the NWIFC, we are providing 
testimony for the record on our natural resources management and 
environmental program funding requests for the Bureau of Indian Affairs 
(BIA), Fish & Wildlife Service (FWS) and Environmental Protection 
Agency (EPA) fiscal year 2020 appropriations. These programs support 
Tribes to carry out their natural resource management responsibilities 
including the management of Pacific salmon fisheries, which contribute 
to a robust natural resource-based economy and the continued exercise 
of Tribal treaty rights.
          summary of fiscal year 2020 appropriations requests
Bureau of Indian Affairs
  --Provide $57.105 million for Rights Protection Implementation 
        (collective request)
    --Provide $17.146 million for Western Washington Fisheries 
            Management
    --Provide $3.423 million for Washington State Timber-Fish-Wildlife
    --Provide $5.96 million for U.S./Canada Pacific Salmon Treaty
    --Provide $2.4 million for Salmon Marking
    --Provide $4.5 million for Evaluation and Research Activities--
            Climate
  --Provide $15.0 million for Fish, Wildlife & Parks Projects (non-TPA)
  --Provide $830,000 for the Salmon and Steelhead Habitat Inventory and 
        Assessment Program within the Tribal Management/Development 
        Program Subactivity
  --Fully Fund Contract Support Costs
  --Provide $2.0 million for Western Washington Treaty Tribes' Wildlife 
        Management
  --Provide $30.355 million for Tribal Climate Resilience
Fish & Wildlife Service
  --Provide $8.0 million for Tribal Wildlife Grants
Environmental Protection Agency
  --Provide $96.4 million for Tribal General Assistance Program
  --Provide $50.0 million for Puget Sound Geographic Program
Multiple Agency Request
  --Provide $1.2 million for an Automatic Salmon Fin Clipping and 
        Tagging Trailer
                       justification of requests
Bureau of Indian Affairs
  --Provide $57.105 million for BIA Rights Protection Implementation 
        Subactivity
         The 41 Tribes in the Great Lakes and Pacific Northwest with 
similar treaty-reserved rights have collectively identified that no 
less than $52.0 million for Rights Protection Implementation (RPI) is 
necessary to support essential Tribal treaty-reserved resource 
management. The NWIFC has also identified an additional need of $4.5 
million for RPI Climate Change plus increases to meet new Pacific 
Salmon Treaty commitments, which brings our total request for RPI to 
$57.105 million; $16.832 million above the fiscal year 2019 enacted 
level of $40.273 million. A summary of the accounts of interest to us 
within RPI are further identified below. However, please note that a 
breakdown of these accounts for fiscal year 2019 is not provided in the 
Indian Affairs Fiscal Year 2020 Budget Justification.
      -- Provide $17.146 million for BIA Western Washington Fisheries 
            Management
             We respectfully request $17.146 million; an increase of 
$6.47 million over the fiscal year 2018 enacted level of $10.676 
million. Funding for this program supports the Tribes to co-manage 
their treaty-reserved resources with the State of Washington, and to 
continue to meet court mandates and legal responsibilities. For 
example, funding supports harvest planning, population assessments, 
data gathering for finfish, shellfish, groundfish, and other natural 
resource management needs.
      -- Provide $3.423 million for BIA Washington State Timber-Fish-
            Wildlife (TFW)
             We respectfully request $3.423 million, which would 
maintain the fiscal year 2018 enacted level. Funding for this program 
is provided to improve forest practices on State and private lands, 
while providing protection for fish, wildlife and water quality. This 
funding supports the Tribes' participation in the Timber, Fish and 
Wildlife Agreement--a collaborative intergovernmental and stakeholder 
process between the State, industry and Tribes.
      -- Provide $5.96 million for BIA U.S./Canada Pacific Salmon 
            Treaty
             We respectfully request $5.96 million; an increase of 
$605,000 over the fiscal year 2018 enacted level of $5.355 million to 
implement the newly revised Pacific Salmon Treaty (PST) agreement. The 
Pacific Salmon Treaty Act of 1985 charges the Pacific Salmon Commission 
(PSC) with the responsibility to implement the bilateral treaty with 
Canada. Tribes assist the U.S. Federal Government in meeting its 
obligations to implement the treaty by participating in fisheries 
management exercises including cooperative research and data gathering 
activities. This funding supports Tribes' participation in the PSC and 
the bilateral PST process.
      -- Provide $2.4 million for BIA Salmon Marking
             We respectfully request $2.4 million; an increase of 
$1.063 million over the fiscal year 2018 enacted level of $1.337 
million. Since 2003, Congress has required that all salmon released 
from federally funded hatcheries are marked for conservation management 
purposes and has provided funding to do so. This funding allows Tribes 
to mark salmon at Tribal hatcheries and to use these marked fish to 
scientifically monitor salmon populations in western Washington.
      -- Provide $4.5 million for BIA Evaluation and Research 
            Activities--Climate
             We respectfully request $4.5 million for Evaluation and 
Research Activities--Climate for our member Tribes. The BIA did not 
fund this program in fiscal year 2018, despite many successful Tribal 
projects and programs in fiscal year 2016 and 2017. Funding for this 
program will provide Tribes the capacity to identify, respond and adapt 
to the impacts of our changing climate.
  --Provide $15.0 million for BIA Fish, Wildlife & Parks Projects (Non-
        TPA) for Hatchery Operations and Maintenance
         We respectfully request $15.0 million for Hatchery Operations 
and Maintenance within the Fish, Wildlife and Parks Projects account; 
an increase of $5.067 million over the $9.933 million provided for 
these programs in fiscal year 2018. More specifically, we request $8.0 
million for Hatchery Operations and $7.0 million for Hatchery 
Maintenance. This funding is provided to Tribal hatcheries to support 
the rearing and releasing of salmon and steelhead for harvest by Indian 
and non-Indian fisheries in the U.S. and Canada. Without hatcheries, 
Tribes would lose their most basic ceremonial and subsistence fisheries 
that are central to our Tribal culture. Hatcheries also support 
economically significant commercial and recreational fisheries and 
assist with recovering Endangered Species Act-listed salmon stocks.
  --Provide $830,000 for BIA Salmon and Steelhead Habitat Inventory and 
        Assessment Program (SSHIAP) within the Tribal Management/
        Development Program (TMDP)
         We respectfully request $830,000 within the TMDP for SSHIAP; 
an increase of $475,000 over the fiscal year 2018 enacted level of 
$355,000. SSHIAP is a vital program to the western Washington Tribes 
because it provides essential environmental data management, analysis, 
sharing and reporting to support Tribal natural resource management. It 
also supports our Tribes' ability to participate in watershed resource 
assessments and salmon recovery work.
  --Fully Fund BIA Contract Support Costs
         We respectfully request that Congress fully fund Contract 
Support Costs. We also support the reclassification of Contract Support 
Costs as mandatory funding. Funding for this function ensures Tribes 
and Tribal organizations have the capacity to manage Federal programs 
under self-determination contracts and self-governance compacts.
  --Provide $2.0 million for Western Washington Treaty Tribes' Wildlife 
        Management
         We respectfully request $2.0 million for western Washington 
treaty Tribes' wildlife management programs from an account within the 
Bureau of Indian Affairs Trust--Natural Resources Management Activity. 
The treaty Tribes, as co-managers of the wildlife resource, work 
cooperatively with the State of Washington and others to manage 
wildlife. Requested funding will support the development of wildlife 
management plans, development and enhancement of Tribal hunting codes, 
the design and implementation of applied research projects, and 
capacity to participate in State-Tribal co-management forums. These 
capabilities are necessary to help protect Tribes' treaty-reserved 
rights and resources.
  --Provide $30.355 million for BIA Tribal Climate Resilience
         We respectfully request $30.355 million; an increase of 
$20.399 million over the fiscal year 2019 enacted levels of $9.956 
million. Funding for this program will support Tribes to participate in 
climate change issues that impact treaty-reserved resources, as well as 
promote resiliency to change.
Fish & Wildlife Service
  --Provide $8.0 million for FWS Tribal Wildlife Grants
         We respectfully request $8.0 million for the nationwide Tribal 
Wildlife Grants program; an increase of $3.791 million over the fiscal 
year 2019 enacted of $4.209 million. Funding from this competitive 
grant program supports the conservation of wildlife and their habitat, 
including species that are culturally or traditionally important to 
Tribes.
Environmental Protection Agency
  --Provide $96.4 million for EPA Tribal General Assistance Program 
        (GAP)
         We respectfully request $96.4 million; an increase of $30.924 
million over the fiscal year 2019 enacted level of $65.476 million. We 
also respectfully request: (1) accompanying bill or report language 
that would improve flexibility in the GAP to ensure individual Tribal 
priorities and implementation activities would be eligible; and (2) 
$5.0 million for a regional pilot project that would demonstrate how 
flexibility to implement individual Tribal priorities through a self-
governance model can benefit Tribes, EPA and the environment. The GAP 
builds Tribal program capacity to begin to address environmental 
issues, which impact Tribes' health, safety, and treaty-reserved 
resources.
  --Provide $50.0 million for EPA Puget Sound Geographic Program
         We respectfully request $50.0 million; an increase of $22.0 
million above the fiscal year 2019 enacted level of $28.0 million. This 
Geographic Program provides essential funding that will help protect 
and restore Puget Sound--an estuary of national significance. Funding 
for this program is essential for Tribes because it supports our 
participation in a broad range of Puget Sound recovery work, including, 
scientific research, resource recovery planning, and policy discussions 
that affect our treaty rights.
Multiple Agency Request
  --Provide $1.2 million for an Automatic Salmon Fin Clipping and 
        Tagging Trailer
         We respectfully request $1.2 million for an automatic salmon 
fin clipping and tagging trailer. The NWIFC uses automated trailers to 
provide effective and efficient centralized services to our 20-member 
Tribes. Our services help the Tribes meet Federal salmon marking 
requirements and generate essential data to support fisheries 
management (coded wire tags). An increasing demand for these important 
services exceeds our current capacity. An additional automatic trailer 
is needed to ensure we meet the requirements of salmon marking and 
tagging at Tribal hatcheries. This request is part of the new Pacific 
Salmon Treaty agreement but the details regarding which agency or 
account should fund the request is unknown.
                               conclusion
    We respectfully urge the subcommittee to continue to support our 
efforts to protect and restore treaty-reserved resources and the 
communities and economies dependent upon them. We greatly appreciate 
your attention to our requests and we thank you for your continued 
commitment to Tribes.
                                 ______
                                 
 Prepared Statement of the Northwest Portland Area Indian Health Board
    Greetings Chairwoman Murkowski and Ranking Member Udall, and 
Members of the subcommittee. My name is Andy Joseph, Jr., and I serve 
as Vice Chair on the Colville Business Council, as a Co-Chair of the 
IHS National Tribal Budget Formulation Workgroup, and as Chairman of 
the Northwest Portland Area Indian Health Board (NPAIHB). I thank you 
for the opportunity to provide testimony on the fiscal year 2020 Indian 
Health Service (IHS) budget.
    Established in 1972, the NPAIHB is a Tribal organization 
established under the Indian Self-Determination and Education 
Assistance Act (ISDEAA), Public Law 93-638, advocating on behalf of the 
43 federally-recognized Indian Tribes in Idaho, Oregon, and Washington 
on specific healthcare issues. NPAIHB operates the Northwest Tribal 
Epidemiology Center (NWTEC) and a variety of important health programs 
on behalf of our member Tribes and national programs that serve Indian 
Country. For 28 years, NPAIHB has conducted an annual detailed analysis 
of the IHS budget.\1\ It is an honor to present you with our 
recommendations for fiscal year 2020.
---------------------------------------------------------------------------
    \1\ NPAIHB Resource Library, available at: http://www.npaihb.org/
resource-lib/ (last visited Feb. 26, 2019).
---------------------------------------------------------------------------
             fiscal year 2019 enacted level funding for ihs
    In fiscal year 2019, IHS received an overall increase of $162 
million or 3.4 percent above fiscal year 2018 enacted level for program 
and services, not including indefinite appropriation for Contract 
Support Costs (CSC) of $104 million. I would like to thank the Senate 
for its support of the Community Health Representative program, Health 
Education and Tribal Management Grants in fiscal year 2019. In our 
annual analysis for fiscal year 2019, we determined that a $268 million 
increase was needed above fiscal year 2018 enacted level to cover 
population growth and medical inflation for current services (not 
including CSC).\2\ The final appropriated amount for fiscal year 2019 
fell short by $106 million. The IHS budget has not received adequate 
annual increases, with a few exceptions, to maintain the costs of 
current services (inflation, population growth, and pay act increases). 
The consequence of this is that the IHS budget is diminished and IHS 
and Tribal health programs purchasing power has continually been eroded 
over the years.
---------------------------------------------------------------------------
    \2\ NPAIHB, Fiscal Year 2019 Indian Health Service Budget: Analysis 
and Recommendations--28th Annual Report, http://www.npaihb.org/
resource-lib/ (last visited Feb. 26, 2019).
---------------------------------------------------------------------------
             recommendation: maintain current ihs services
    The fundamental budget principle for Northwest Tribes is that the 
basic healthcare program must be preserved by Congress. Preserving the 
IHS base program by funding the current level of health services should 
be a basic budget principle by Congress. Otherwise, unmet needs will 
never be addressed. We estimate for fiscal year 2020 that in order to 
maintain current services a minimum of $195 million over fiscal year 
2019 enacted level is needed to cover medical inflation and population 
growth. Unfortunately, IHS and Tribal health programs will suffer 
consequences if IHS appropriations do not include inflation, population 
growth and pay act increases. For fiscal year 2020, NPAIHB recommends 
that IHS be funded at least $195 million to cover population growth and 
medical inflation to maintain current services with commitment that 
appropriate program increases be designated for IHS and Tribal health 
programs and not reprogramed for other purposes by IHS.\3\
---------------------------------------------------------------------------
    \3\ RADM Michael D. Weahkee, Letter on decision to reprogram a 
portion of fiscal year 2018 funding (Sept. 14, 2018), https://
www.ihs.gov/newsroom/includes/themes/responsive2017/
display_objects/documents/2018_Letters/DTLL_DUIOLL_ISDEAA_09142018.pdf.
---------------------------------------------------------------------------
      recommendation: full funding for ihs phased in over 12 years
    Tribal leaders on the National Tribal Budget Formulation Workgroup 
(Workgroup), representing all 12 IHS areas, provide recommendations on 
the IHS budget annually through the IHS Budget Formulation process. As 
I mentioned above, I serve as a co-Chair of the Workgroup and am the 
Portland Area representative. The Workgroup provided recommendations 
for fiscal year 2020 requesting an end to the growing health 
disparities by fully funding IHS phased in over 12 years.\4\ This 
recommendation is supported across Indian Country as a recommendation 
that honors treaty and trust obligations of the United States to 
provide healthcare to Indian people. Consistent with the Workgroup's 
recommendation, NPAIHB recommends that IHS be funded at $7 billion for 
fiscal year 2020 to implement phased in full funding for IHS.\5\
---------------------------------------------------------------------------
    \4\ National Tribal Budget Formulation Workgroup Recommendation, 
Fiscal Year 2020 Summary Recommendations, https://www.nihb.org/
legislative/budget_formulation.php (last visited May 17, 2019).
    \5\ Id.
---------------------------------------------------------------------------
                 recommendation: advance appropriations
    The recent partial government shutdown caused undue hardship to AI/
AN people in the Northwest--from Federal employees not being able to 
put food on their tables to reduced patient access to care due to 
clinics cutting their hours. Some Northwest Tribes were considering 
closing their clinics due to lack of funding. This is unconscionable 
treatment of AI/AN people and must not be repeated in the future. For 
these reasons and in recognition of the trust and treaty obligations, 
NPAIHB requests support for Advance Appropriations.
  recommendation: indefinite appropriation for isdeaa section 105(l) 
                              lease costs
    Section 105(l) of ISDEAA requires IHS, upon Tribal request, to 
enter into a lease for a facility owned or leased by the Tribe or 
Tribal organization and used to carry out its ISDEAA agreement. As 
established in the Maniilaq case, IHS must compensate the Tribe or 
Tribal organization fully for its reasonable facility expenses under 
Section 105(l) of ISDEAA.\6\ IHS's reprogramming of inflation increases 
to pay the lease costs negatively impacts our IHS and Tribal 
facilities. IHS/Tribal facilities rely on inflation increases to 
maintain current services. Unless additional funding is provided in the 
IHS appropriation, then the additional funds required to fund 105(l) 
leases will come at the expense of the health of our people with cuts 
in services for both direct service and self-governance Tribes. NPAIHB 
recommends that Congress fund ISDEAA Section 105(l) lease costs as an 
indefinite appropriation.
---------------------------------------------------------------------------
    \6\ See Maniilaq Ass'n v. Burwell, 170 F. Supp. 3d 243 (D.D.C. 
2016).
---------------------------------------------------------------------------
               other recommendations for fiscal year 2020
    Oppose Funding Cuts Proposed in President's Fiscal Year 2020 Budget 
Request. NPAIHB opposes the President's proposed recommendations for 
several critical programs, including: $39 million cut to Community 
Health Representatives (CHRs); elimination of Health Education funding 
(funded at $20.5 million in fiscal year 2019); elimination of Tribal 
Management funding (funded at $2.4 million in fiscal year 2019); $2.5 
million cut to Urban Indian Health of $2.5 million; $14 million cut to 
the Indian Health Professions (funded at $57.3 million in fiscal year 
2019); cut of $1 million to Self-Governance; and cut of $657 thousand 
to Environmental and Facilities.
    Fund Clinical Services-Electronic Health Record System in the 
amount of $25 million. NPAIHB recognizes there will need to be a 
substantial investment in information technology (IT) infrastructure 
and software in order for IHS to transition to another system. For 
fiscal year 2020, NPAIHB supports the President's request for $25 
million to fund ``Electronic Health Record System'' planning, phased-in 
replacement, and technical assistance of IHS RPMS. NPAIHB also requests 
that activities be directed by Tribes through ongoing Tribal 
consultation.
    Fund Elimination of HIV and HCV in the amount of $25 million. It is 
estimated that there are at least 40,000 AI/AN people, served by IHS, 
with a current Hepatitis C infection, according to the IHS National 
Data Warehouse. For fiscal year 2020, we support the President's 
request for funding to Eliminate HIV and Hepatitis C in the amount of 
$25 million as an initial step to phased in funding, estimated at over 
$300 million to treat all AI/AN people within the IHS system.
    Fund Expansion of Community Health Aide Program for a minimum of 
$20 million. In the past few years, NPAIHB has been at the forefront, 
with Portland Area Tribes, to get Northwest Tribal members trained in 
Dental Health Aide Therapy (DHAT) in Alaska and placed in Oregon, 
Washington and Idaho (this fall). NPAIHB has also been planning for and 
is in the process of establishing a Community Health Aide Program 
(CHAP) certification board; creating and implementing an education 
program for Behavioral Health Aides (BHAs); and implementing a Dental 
Therapy Education Program in partnership with a local community 
college, the Swinomish Indian Tribal Community and Seattle Indian 
Health Board. An IHS interim CHAP policy is currently out for Tribal 
consultation (closes June 7) and is expected to allow Areas the ability 
to move forward with CHAP implementation. NPAIHB supports the 
President's request of $20 million for CHAP but more funding is needed. 
NPAIHB does not support the proposed cut to the CHR program to fund 
expansion of the CHAP program. Both programs should be fully funded.
    Increase Dental Health by $20 million. AI/AN people have a higher 
prevalence of dental caries and untreated tooth decay in all age groups 
compared to the general United States population, with many AI/AN 
children experience high rates of dental caries between the ages of 2 
to 5.\7\ For fiscal year 2020, NPAIHB recommends an increase of $20 
million to Dental Services to address the growing oral health needs and 
dental professional shortage in Indian Country.
---------------------------------------------------------------------------
    \7\ Phipps KR and Ricks TL, The oral health of American Indian and 
Alaska Native adult dental patients: results of the 2015 IHS oral 
health survey, Indian Health Service data brief, 2016.
---------------------------------------------------------------------------
    Increase Mental Health by $152.5 million. NPAIHB is particularly 
concerned about the mental health of our AI/AN children and youth. 
Suicide is the second leading cause of death for AI/AN adolescents and 
young adults. AI/AN suicide mortality in this age group (10-29) is 2-3 
greater than that for non-Hispanic whites. For fiscal year 2020, NPAIHB 
recommends $75 million to expand funding for pilot projects for 
aftercare services for Native youth discharged from residential 
substance use treatment. More Youth Residential Treatment Centers and 
Tribes must be funded to develop approaches to aftercare, recovery, and 
other support services for Native youth that can be used across other 
IHS/Tribal facilities, YRTCs and in Tribal communities. An additional 
$75 million is needed to expand the Special Behavioral Health Pilot 
Program for Indians, appropriated $10 million in fiscal year 2019. 
However, NPAIHB recommends the option for Tribal shares instead of 
grant awards. Lastly, $2.5 million is needed to fund Area Health 
Boards/Tribal Epidemiology Centers for the provision of technical 
assistance to Tribes and to collect and evaluate Special Behavioral 
Health Pilot Program.
    Increase Alcohol and Substance Abuse by $152.5 million. Alcohol and 
substance abuse, particularly among our AI/AN children and young 
adults, continues to be one of the highest priorities identified by 
Tribal leaders and Health Directors in the Portland Area and across 
Indian Country. For fiscal year 2020, NPAIHB recommends $25 million to 
expand funding for pilot projects for aftercare services for Native 
youth discharged from residential substance use treatment; $75 million 
to expand the Special Behavioral Health Pilot Program for Indians, with 
an option for Tribal shares; $2.5 million to fund Area Health Boards/
Tribal Epidemiology Centers for the provision of technical assistance 
to Tribes and to collect and evaluate Special Behavioral Health Pilot 
Program; and $50 million to fund critical detoxification and recovery 
services.
    Increase Purchased and Referred Care (PRC) by $50 million. Without 
IHS/Tribal hospitals in the Portland Area, Northwest Tribes rely on the 
PRC program for all specialty and inpatient care. Because of this, the 
PRC program makes up over one-third of the Portland Area budget and 
when less than adequate inflation and population growth increases are 
provided, Portland Area Tribes are forced to cut health services to 
absorb these mandatory costs. The level funding of PRC in fiscal year 
2016 further diminished the purchasing power of Portland Area Tribes. 
Those IHS areas that have inpatient care can absorb PRC funding 
shortfalls more easily than PRC dependent areas with their larger size 
staffing packages and infrastructure. For fiscal year 2020, NPAIHB 
recommends a program increase of $50 million for Purchased and Referred 
Care (PRC).
    Increase Indian Health Professions by $10 million. Given the 
recruitment and retention issues of healthcare providers in many of our 
Northwest Tribal communities, NPAIHB passed a resolution supporting an 
increase for Indian Health Professions to fully fund scholarships for 
all qualified applicants to the IHS Scholarship Program and to support 
the Loan Repayment Program to fund all physicians, nurse practitioners, 
physician's assistants, nurses and other direct care practitioners 
(NPAIHB Resolution 18-03-07). For fiscal year 2020, NPAIHB requests a 
program increase of $10 million for Indian Health Professions.
    No Increase to New Healthcare Facilities Construction But Increase 
Small Ambulatory Program (SAP) by $25 million and Increase Joint 
Venture Construction Program (JVCP). The 2016 IHS/Tribal Health Care 
Facilities Needs Assessment Report to Congress stated that the current 
Priority List will not be complete until 2041 and at the current rate 
of construction appropriations and the replacement timeline, a new 2016 
facility would not be replaced for 400 years. Many Tribes and Tribal 
organizations have had to assume substantial debt to build or renovate 
clinics for AI/AN people to receive IHS-funded healthcare. For these 
reasons, NPAIHB does not support funding for new Health Care Facilities 
Construction until the current funding mechanism is changed. NPAIHB 
recommends that the Government Accountability Office (GAO) be 
instructed to review and issue a report on the IHS Facilities 
Construction Priority System, including historical and current funding 
distribution inequities. (NPAIHB/CRIHB Joint Res No. 17-04-12). In 
addition, for fiscal year 2020, NPAIHB recommends a program increase of 
$25 million for the Small Ambulatory Program (SAP) with funding for 
staffing packages; and increased funding for the Joint Venture 
Construction Program (JVCP).
    Thank you for this opportunity to provide recommendations on the 
fiscal year 2020 IHS budget. I invite you to visit our Area and look 
forward to working with the subcommittee on our requests.\8\
---------------------------------------------------------------------------
    \8\ For more information, please contact Laura Platero, NPAIHB, at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="412d312d203524332e012f31202829236f2e33266f">[email&#160;protected]</a>
---------------------------------------------------------------------------
                                 ______
                                 
                  Prepared Statement of OPERA America
    Madam Chair and distinguished members of the subcommittee, I am 
grateful for the opportunity to submit testimony on behalf of OPERA 
America, its Board of Directors and its more than 2,000 organizational 
and individual members. We strongly urge the Subcommittee on Interior, 
Environment, and Related Agencies in the Committee on Appropriations to 
designate a total of $167.5 million to the National Endowment for the 
Arts (NEA) for fiscal year 2020. This testimony and the funding 
examples described below are intended to highlight the importance of 
Federal investment in the arts, so critical to sustaining a vibrant 
cultural community throughout the country.
The NEA is a great investment in the economic growth of every 
        community.
    The NEA was established in 1965 with the mission to ``strengthen 
the creative capacity of our communities by providing all Americans 
with diverse opportunities for arts participation.'' It has continued 
to meet this mission for over 50 years, recommending more than 2,300 
grants in every Congressional District in the country in fiscal year 
2018. Sixty-five percent of direct grants went to small (budgets under 
$500,000) and medium sized (budgets between $500,000 and $2 million) 
organizations. Additionally, 40 percent of NEA-supported activities 
took place in high-poverty neighborhoods and 36 percent of NEA grants 
reached underserved populations, such as people with disabilities and 
veterans. Between 2012 and 2015, NEA-supported programs reached 24.2 
million adults and 3.4 children on average each year through 80,603 
live events.
    Funding from the NEA continues to support arts organizations and 
their communities by providing a high return on investment. The ratio 
of private and other public funds matching every NEA grant dollar is 
approaching 9:1, generating more than $500 million in matching 
supporting.
    Before the establishment of the NEA, funding for the arts was 
mostly limited to larger cities. The NEA is the only arts funder in 
America, public or private, that supports the arts in all 50 States, 
the District of Columbia, and U.S. territories. Additionally, 40 
percent of the NEA's program funds are distributed through State arts 
agencies, reaching tens of thousands throughout the U.S. NEA funding 
provides access to the arts in regions with histories of 
inaccessibility due to economic or geographic limitations.
    At the national level, the arts and cultural sector contributed 
$763.6 billion to the U.S. economy in 2015, 4.2 percent of the GDP, and 
counted 4.9 million workers who earned $372 billion in total 
compensation. The tax-exempt performing arts organizations contributed 
$9 billion to the U.S. economy and employed 90,000 workers, who earned 
$5.6 billion in total compensation. Consumers spent $31.6 billion on 
admissions to performing arts events.
Opera's increasing civic practice supports healthy and vibrant 
        communities.
    Opera companies are finding new and exciting ways to bring the 
essence of opera to other local theaters, community centers, and public 
spaces outside traditional opera houses, frequently with new and 
innovative works that reflect the diverse communities of the cities 
they serve. Strong partnerships with local schools extend the civic 
reach of opera companies as they introduce children to a multi-media 
art form and discover promising young talent.
    Founded in 1970, OPERA America is national service organization for 
opera and the Nation's leading champion for American opera. OPERA 
America's membership includes 157 professional member companies in the 
United States, located in 41 States and the District of Columbia.

  --Economic Impact: In fiscal year 2016, budgets of OPERA America's 
        member organizations totaled $1.1 billion, including both 
        personnel and non-personnel expenses. As 501(c)(3) nonprofit 
        organizations, opera companies depend on support from private 
        philanthropy and governmental sources. In fiscal year 2016, 
        private support totaled $510 million, representing 47 percent 
        of total operating income; while total city, county, State, and 
        Federal Government support comprised 7 percent of total 
        operating income.
         According to data compiled by the NEA and the Bureau of 
Economic Analysis' U.S. Arts and Culture Production Satellite Account, 
revenues from opera companies totaled $955 million, suggesting that 
opera companies account for roughly 9 percent of the value added by 
tax-exempt performing art companies. OPERA America's members employed a 
total of 2,551 full-time, 8,119 part-time, and 18,698 contract staff in 
2017.

  --Communities Served: Opera audiences are growing more diverse. From 
        2008-2012, the percentage of African-American attendees 
        increased by 59 percent; and attendance by Latino audiences 
        increased by 8.3 percent. During those same years, audience 
        members in the 18-24 age bracket grew by 43.2 percent and those 
        in the 25-34 age bracket grew by 33.8 percent.

  --Opera Works: Much of the success of opera's increasing audience is 
        the result of the creation of new works, telling uniquely 
        American stories. Since 1900, over 1,000 new operatic works 
        have been produced in North America, with more than 600 operas 
        premiering between 1995 and 2017. In the 2016-2017 season 
        alone, 30 North American operas premiered.

    The two most frequently produced American operas in 2016-2017 were: 
As One, a chamber opera, depicting the experiences of its sole 
transgender protagonist as she endeavors to resolve the discord between 
herself and the outside world; and Dead Man Walking, based on the book 
of the same name by Sister Helen Prejean. In fact, As One is among the 
most produced operas in the U.S., in a list that includes Carmen, La 
boheme, The Magic Flute, and Rigoletto.
                           nea grants at work
    NEA grants are awarded to opera organizations through its core 
programs: Art Works; Challenge America Fast Track Grants; and Federal/
State Partnerships. In fiscal year 2018, the NEA awarded 63 grants to 
the opera field through the Art Works category, totaling $1,905,000.
    OPERA America received an Art Works Grant to support programs and 
services for the entire field of opera in addition to an Our Town grant 
to help build opera companies' capacity to increase the scope and 
intensity of their civic practice. In the second iteration of this 
grant, OPERA America is bringing communities together across the U.S. 
to share best practices for developing authentic community 
relationships and serving as reliable civic partners.

    Below are just a few examples of noteworthy opera initiatives in 
the U.S.:
Sarasota Opera
Sarasota, Florida
$20,000
    Sarasota Opera received support for the Sarasota Youth Opera's 
production of ``The Little Sweep,'' by composer Benjamin Britten. Set 
in the early 1800s, the opera tells the story of Sam, a young chimney 
sweep who is befriended by the children of an upper-class family. 
During the course of the opera, the children help Sam escape from his 
life as an indentured servant while learning more about the world 
beyond their comfortable surroundings. Originally conceived with a 
prologue by the composer, for this production the company will perform 
a newly created prologue and will alter the story location from England 
to Boston. The opera will be performed with chamber orchestra, fully 
staged, and will include full production values including sets, 
lighting, wigs, and make-up. Members of the year-round program are part 
of the company's mainstage productions, sing in the choral program, and 
perform in the annual youth opera.
Opera Theatre of Saint Louis
Saint Louis, Missouri
$90,000
    Opera Theatre of Saint Louis received support for the commission, 
development, and premiere of ``Fire Shut Up In My Bones,'' by composer 
Terence Blanchard and librettist Kasi Lemmons. The full-length opera, 
based on the memoir of New York Times columnist Charles Blow, portrays 
the author's childhood in Gibsland, Louisiana, where life was a daily 
economic struggle. The story addresses issues of loneliness, violence, 
sexuality, and making choices. Relating the author's challenges with 
abuse at the hand of a family member, the opera is the story of a man 
who is struggling to belong and desperate to find another life. The 
music of the opera incorporated gospel and blues choruses, Louisiana 
blues and jazz, and dance. As many as six performances will occur at 
the Loretto-Hilton Center in summer 2019.
Opera Memphis
Memphis, Tennessee
$25,000
    Opera Memphis received support for 30 Days of Opera and The 
McCleave Project. The 30 Days of Opera program is an outreach 
initiative intended to break down barriers that prevent new and 
underserved audiences from attending opera. Program activities included 
concerts, opera performances at schools, ``pop-up'' opera performances, 
and a family day at the opera. The second program, named for African-
American opera singer and educator Florence McCleave, will include a 
new set of initiatives with a focus on engaging people of color. 
Activities included facilitated ``community connection'' conversations 
following performances in underserved neighborhoods, collaborations 
with Memphis-based African-American arts groups, and a re-imagining of 
the Young Artist Program as a fellowship for singers, directors, and 
coaches of color.
Santa Fe Opera
Santa Fe, New Mexico
$80,000
    Santa Fe Opera received support for a new production of ``Doctor 
Atomic'' by composer and NEA Opera Honoree, John Adams, and librettist 
Peter Sellars. The opera tells the story of the final hours leading up 
to the detonation of the first atomic bomb at the Trinity Test Site in 
Alamogordo, New Mexico in July 1945. The libretto draws on original 
source materials, stitching together declassified U.S. Government 
documents and communications among scientists, government officials, 
and military personnel involved in the project; personal memoirs; 
recorded interviews; technical manuals of nuclear physics; borrowed 
texts from the Bhagavad Gita and the poetry of Charles Baudelaire, 
Muriel Rukeyser, and John Donne; and a traditional Native American Tewa 
song.
    OPERA America is grateful for the $2 million increase to the NEA in 
fiscal year 2019. The continued bipartisan support for the agency has 
enriched the lives of artists and audiences, allowing opera and the 
arts to address critical issues, making communities healthier and more 
vibrant.
    We urge you to continue toward restoration and increase the NEA 
funding allocation to $167.5 million for fiscal year 2020. On behalf of 
OPERA America, thank you for considering this request.

    [This statement was submitted by Marc A. Scorca, President and 
CEO.]
                                 ______
                                 
       Prepared Statement of the Oregon Water Resources Congress
fiscal year 2020 budget for the u.s. environmental protection agency's 
             clean water state revolving fund loan program
    The Oregon Water Resources Congress (OWRC) is highly supportive of 
the U.S. Environmental Protection Agency's (EPA) Clean Water State 
Revolving Fund Loan Program (CWSRF) and is requesting that 
appropriations for this program be increased to at least $2.5 billion 
in fiscal year 2020. The CWSRF is an effective loan program that 
addresses critical water infrastructure needs while benefitting the 
environment, local communities, and the economy.
    OWRC was established in 1912 as a trade association to support the 
protection of water rights and promote the wise stewardship of water 
resources statewide. OWRC members are local governmental entities, 
which include irrigation districts, water control districts, drainage 
districts, water improvement districts, and other agricultural water 
suppliers that deliver water to roughly 1/3 of all irrigated land in 
Oregon. These water stewards operate complex water management systems, 
including water supply reservoirs, canals, pipelines, and hydropower 
production.
                    fiscal year 2020 appropriations
    We recognize our country must make strategic investments with 
scarce resources. The CWSRF is a perfect example of the type of program 
that should have funding increased because it creates jobs while 
benefitting the environment and is an efficient return on taxpayer 
investment. CWSRF projects also provide much needed construction and 
professional services jobs, particularly in rural areas facing economic 
hardship. Moreover, as a loan program, it is a wise investment that 
allows local communities to leverage their limited resources and 
address critical infrastructure needs that would otherwise be unmet.
    In Oregon, the CWSRF is administered by the Oregon Department of 
Environmental Quality (DEQ), who responsibly maintains the program 
through repaid loans, interest, fees, and available Federal 
capitalization grants. According to EPA, for every $1 of Federal 
capitalization funding, $3 worth of assistance is provided, leveraging 
available funds to maximize benefits for local communities and the 
environment we share. Unfortunately, available funding continues be 
woefully insufficient to meet the growing water infrastructure funding 
needs in Oregon and nationwide.
    Nationally, there are large and growing critical water 
infrastructure needs. In EPA's most recent survey, The Clean Watersheds 
Needs Survey 2012: Report to Congress and Drinking Water Infrastructure 
Needs Survey and Assessment: Fifth Report to Congress, the estimated 
funding need was $384 billion (in 2011 dollars) for drinking water 
infrastructure and $271 billion (in 2012 dollars) for wastewater 
infrastructure needs respectively. Funding for water infrastructure, 
specifically CWSRF, needs to be incrementally increased in order to 
meet these critical needs.
           background of cwsrf usage by irrigation districts
    Over the course of the program's 30-year history in Oregon, several 
OWRC member districts have successfully used CWSRF for projects that 
improve water quality and water quantity associated with water delivery 
diversions, canals and pipelines throughout the State. OWRC and our 
members are highly supportive of the CWSRF, including promoting the 
program to our members and annually submitting Federal appropriations 
testimony to support increased funding for the CWSRF. We believe it is 
an important funding tool that irrigation districts and other water 
suppliers are using for innovative piping projects that provide 
multiple environmental and economic benefits.
    Numerous irrigation districts and other water suppliers need to 
pipe currently open canals, which significantly reduces sediment, 
improves water temperature, and provides other water quality benefits 
to rivers and streams. Piping immediately improves the efficiency of 
the water delivery system and helps increase available water supplies 
for fish and irrigators alike. These projects also decrease energy 
consumption (from reduced pumping) and have opportunities for 
generating renewable energy, primarily through in-conduit hydropower. 
However, continually reducing the amount of funds available for these 
types of worthwhile projects has created increased uncertainty for 
potential borrowers about whether adequate funding will be available in 
future years. CWSRF is often an integral part of an overall package of 
State, Federal and local funding that necessitates a stronger level of 
assurance that loan funds will be available for planned water 
infrastructure projects. Reductions in CWSRF could lead to loss of 
grant funding and delay or derail beneficial projects that irrigation 
districts have been developing for years.
    We continue to be highly supportive of expanding ``green 
infrastructure,'' in fact, irrigation districts and other water 
suppliers in Oregon are on the forefront of innovative piping projects 
that provide multiple environmental benefits, which is discussed in 
greater detail below. In 2009, four Oregon irrigation districts 
received over $11 million in funding from the American Recovery and 
Reinvestment Act (ARRA) through the CWSRF for projects which created 
valuable jobs while improving water quality. These four projects were 
essential to DEQ not only meeting, but exceeding, the minimum 
requirement that 20 percent of the total ARRA funding for the CWSRF be 
used for ``green'' projects. Without the irrigation district projects, 
it is likely that Oregon's CWSRF would not have qualified for ARRA 
funding.
    The success Oregon districts have had in using the loan program to 
design and implement multi-benefit projects has led to increased 
applications to the CWSRF. Now irrigation districts are once again 
eligible for a key funding element, principal forgiveness (which was 
reinstated with the passage of the WIIN Act in 2016 and related State 
rulemaking in 2017), and we expect to see even more interest in the 
program. OWRC is hopeful with an increase in money available, there 
will be enough funding available to complete projects that will not 
only benefit the environment and the patrons served by the water 
delivery system, but also benefit the economy.
                         cwsrf needs in oregon
    The appropriations for the CWSRF program over the past few years 
has been far short of what is needed to address critical water 
infrastructure needs in Oregon and across the Nation. This has led to 
fewer water infrastructure projects, and therefore a reduction in 
improvements to water quality and water quantity.
    We are pleased to see a proposed modest increase in appropriations 
after several years of decreased funding and hope to see this trend 
continue as addressing infrastructure needs has become more expensive 
and even more critical. DEQ's most recent ``Proposed Intended Use Plan 
Update #2--State fiscal year 2019,'' lists 31 loan applications in need 
of a total of $171,670,456 in Oregon alone.
    The following irrigation district projects are currently ranked by 
DEQ in the top three by overall score and also meet several categories 
of the Green Reserve requirement related to improved water and energy 
efficiency. Increased funding will help catalyze many more projects 
like the ones below in Oregon and throughout the Nation.
    middle fork irrigation district (hood river county) $20,000,000
    Sec. 319 Design and Construction, Clear Branch Dam Rehabilitation 
and Coe Branch Pipeline. The district will implement multiple projects 
to improve water quality and quantity associated with its irrigation 
diversions in the Middle Fork Hood River watershed. Specific projects 
include: installing a new deep water outlet and improving fish passage 
in Laurance Lake; installing new irrigation pipe to alleviate impacts 
from current irrigation system and addressing return flows from the 
irrigation system; improving the spillway at the Clear Branch Dam; and 
improving irrigation efficiency by district patrons. The project meets 
the Green Project Reserve category 2.2-8 (water efficiency). The 
project is consistent with the 2014 Final Oregon Nonpoint Source 
Management Program Plan.
       swalley irrigation district (deschutes county) $16,000,000
    Sec. 319 Design and Construction, Irrigation Modernization Project. 
This irrigation piping project includes the installation of pressurized 
pipe to eliminate seepage and evaporative loss from open ditches; flow 
regulating and metering devices at service connections; pressurized 
delivery to eliminate individual pumps system-wide; active education 
and a sprinkler exchange program. The project meets Green Project 
Reserve category 2.2-8 for water efficiency and category 3.2-2 for 
energy efficiency because piping and pressurizing the irrigation canals 
will result in approximately 1.1 million kWh/year in energy 
conservation and conserve up to 16 cubic feet per second of water 
during the irrigation season. The project is consistent with the 2014 
Final Oregon Nonpoint Source Management Program Plan.
lone pine irrigation district (deschutes, jefferson and crook counties) 
                               $2,000,000
    Sec. 319, Design and Construction, Irrigation Modernization 
Project. This project will modernize district-owned canals and laterals 
to conserve water, improve operational efficiency, reduce electrical 
and energy costs, reduce O&M for farmers through decreased pumping and 
improve habitat in the Deschutes River. It will achieve these goals by 
piping all of the district's open canals using HDPE and steel pipe. The 
existing suspension bridge over the Crooked River is in disrepair and a 
new structure is needed to convey the irrigation water across the 
river. The district will replace the bridge with a siphon under the 
river. The project meets Green Project Reserve categories 2.2-8 (more 
efficient irrigation) and 3.2-2 (20 percent reduction in energy 
consumption) will prevent 8.8 cfs of water loss, will leave 5.2 cfs of 
saved water in stream and reduce energy use by 2,500,000 kW hours per 
year. The project is consistent with the 2014 Final Oregon Nonpoint 
Source Management Program Plan.
 the importance of strategic partnerships and local watershed planning
    Additionally, OWRC is pleased that EPA continues ``strategic 
partnerships'' with the USDA's Natural Resources Conservation Services 
(NRCS) and other Federal agencies to improve water quality and address 
nonpoint source pollution. Oregon had two priority watersheds eligible 
for funding through the National Water Quality Initiative in 2014 and 
anticipates that additional watersheds will be included in the future. 
As Oregon is a delegated State, OWRC also feels strongly that DEQ is 
best situated to develop and implement activities to improve these and 
other impaired waterways in the State. DEQ's administration of the 
CWSRF has been an extremely valuable tool in Oregon for improving water 
quality and efficiently addressing infrastructure challenges that are 
otherwise cost-prohibitive.
    DEQ has recently revised Oregon's CWSRF rules; thus making 
conservation easier and maximizing benefits in the State. Oregon's 
success in watershed planning illustrates planning efforts work best 
when diverse interests develop and implement plans at the local 
watershed level with support from State government. As the national 
model for watershed planning, Oregon does not need a new Federal agency 
or executive branch office to oversee conservation and restoration 
efforts. Planning activities are conducted through local watershed 
councils, volunteer-driven organizations that work with local, State 
and Federal agencies, economic and environmental interests, 
agricultural, industrial and municipal water users, local landowners, 
tribes, and other members of the community.
    There are over 60 individual watershed councils in Oregon already 
deeply engaged in watershed planning and restoration activities. 
Watershed planning in Oregon formally began in 1995 with the 
development of the Oregon Plan for Salmon Recovery and Watershed 
Enhancement, a statewide strategy developed in response to the Federal 
listing of several fish species. This strategy led to the creation of 
the Oregon Watershed Enhancement Board (OWEB) in 1999, a State agency 
and policy oversight board that funds and promotes voluntary and 
collaborative efforts that ``help create and maintain healthy 
watersheds and natural habitats that support thriving communities and 
strong economies.'' OWEB projects that can be integrated with eligible 
CWSRF projects (and other State and Federal funding programs) are 
helping revolutionize how we meet our critical water challenges and 
implement multi-benefit water infrastructure projects.
                               conclusion
    In conclusion, we applaud the CWSRF program for allowing Oregon's 
DEQ to make targeted loans that address Clean Water Act issues and 
improve water quality while incentivizing innovative water management 
solutions that benefit local communities, agricultural economies, and 
the environment. This voluntary approach creates and promotes 
cooperation and collaborative solutions to complex water resources 
challenges. We respectfully request the appropriation of at least $2.5 
billion for the U.S. Environmental Protection Agency's Clean Water 
State Revolving Loan Fund for fiscal year 2020.

    [This statement was submitted by April Snell, Executive Director.]
                                 ______
                                 
       Prepared Statement of the Oregon Water Resources Congress
   u.s. fish and wildlife service's fisheries restoration irrigation 
                         mitigation act program
    The Oregon Water Resources Congress (OWRC) is writing to express 
its strong support for the U.S. Fish and Wildlife Service Fisheries 
Restoration Irrigation Mitigation Act (FRIMA) Program and is requesting 
that appropriations for this program be $15 million in fiscal year 
2020, which is the current authorized amount. The FRIMA program is an 
essential cost-share funding program that helps water users and fishery 
agencies better protect sensitive, threatened, and endangered fish 
species while ensuring water supply delivery to farms and communities.
    OWRC was established in 1912 as a trade association to support the 
protection of water rights and promote the wise stewardship of water 
resources statewide. OWRC members are local governmental entities, 
which include irrigation districts, water control districts, drainage 
districts, water improvement districts, and other agricultural water 
suppliers that deliver water to roughly \1/3\ of all irrigated land in 
Oregon. These water stewards operate complex water management systems, 
including water supply reservoirs, canals, pipelines, and hydropower 
production.
                    fiscal year 2020 appropriations
    The FRIMA program meets a critical need in fishery protection and 
restoration, complimenting other programs through the U.S Fish and 
Wildlife Services (FWS). Fish passage and fish screen installations are 
a vital component to fishery protection with several benefits:

  --Keeps sensitive, threatened and endangered fish out of canals and 
        water delivery systems
  --Allows fish to be safely bypassed around reservoirs and other 
        infrastructure
  --Eliminates water quality risks to fish species

    There are over 100 irrigation districts and other special districts 
in Oregon that provide water supplies to over one million acres of 
irrigated cropland in the State. Almost all of these districts are 
affected by either State or Federal Endangered Species Act listings of 
Salmon and Steelhead, Bull Trout or other sensitive, threatened or 
endangered species. The design and installation of fish screens and 
fish passage to protect the myriad of fish species is often cost-
prohibitive for individual districts to implement without outside 
funding sources.
    Oregon irrigation districts anticipate no less than $25 million in 
funding to meet current fish passage and fish screen needs in our 
State. Limited cost-share funds are available from the Oregon Watershed 
Enhanced Board (OWEB) program, but the primary cost-share for fish 
screen and fish passage projects has been provided by the districts and 
their water users. Projects include construction of new fish screens 
and fish passage facilities as well as significant upgrades of existing 
facilities to meet new requirements (new species or science) of the 
National Oceanic and Atmospheric Administration (NOAA) Fisheries 
Service and the FWS. Upgrades are often needed to modernize facilities 
with new technologies that provide better protection for fish species 
as well as reduced maintenance and increased lifespan for the operator.
   background of the fisheries restoration irrigation mitigation act 
                            (frima) program
    FRIMA, originally enacted November 2000, created a Federal 
partnership program incentivizing voluntary fish screen and fish 
passage improvements for water withdrawal projects in Idaho, Oregon, 
Washington and western Montana. The funding goes to local governments 
for construction of fish screens and fish passage facilities and is 
matched with non-Federal funding. Irrigation districts and other local 
governments that divert water for irrigation accessed the funding 
directly, while individual irrigators accessed funding through their 
local Soil and Water Conservation District (SWCD), which are local 
governments affiliated with the Natural Resources Conservation Service 
(NRCS).
    The original legislation in 2000 (Public Law 106-502) was supported 
and requested by the Pacific Northwest Partnership, a coalition of 
local governmental entities in the four Northwest States, including 
OWRC. The FRIMA legislation authorized $25 million annually, to be 
divided equally among the four States from 2001 to 2012, which was when 
the original authorization expired. The actual funding appropriated to 
the FRIMA program (through congressional write-ins) ranged from $1 
million to $8 million, well short of the $25 million it was authorized 
for and far short of what is needed to address fish passage and 
screening needs across the region. However, that small amount of 
funding was used to leverage other funds and assisted the region in 
making measurable progress towards installing fish screens and fish 
passage needed to protect sensitive, threatened, and endangered fish 
species.
    FRIMA funding was channeled through FWS to State fishery agencies 
in the four States, distributed using an application and approval 
process based on a ranking system implemented uniformly among the 
States, including the following factors: fish restoration benefits, 
cost effectiveness, and feasibility of planned structure. All projects 
provided improved fish passage or fish protection at water diversion 
structures and benefitted native fish species in the area, including 
several State or federally listed species. Projects were also subject 
to applicable State and Federal requirements for project construction 
and operation.
    FRIMA was reauthorized as part of the Water Infrastructure 
Improvements for the Nation Act (WIIN) of 2016. However, a fifth State, 
California, was also added as an eligible FRIMA cost-share recipient 
and the program was only reauthorized for $15 million, well short of 
the estimated $500 million in fish screening and passage needs in the 
Pacific Northwest alone. Now that the program has been reauthorized, it 
is imperative the program receive appropriations so all five States can 
better leverage State/local funding to meet their fish passage and 
screening needs.
                            program benefits
    FRIMA projects provide immediate protection for fish and fills a 
large unmet need in the West for cost-share assistance with fish 
screening and fish passage installation and improvements. FWS has 
issued a report covering program years fiscal year 2002-2012 that 
provides State-by-State break-down of how the congressional provided 
funding has been used in the program. Compared to other recovery 
strategies, installation of fish screens and fish passage has the 
highest assurance for increasing numbers of fish species in the Pacific 
Northwest. Furthermore, the installation of these devices have minimal 
impacts on water delivery operations and projects are done 
cooperatively using methods that are well accepted by landowners and 
rural communities.
    The return of the FRIMA program will catalyze cooperative 
partnerships and innovative projects that provide immediate and long-
term benefits to irrigators, fishery agencies, and local communities 
throughout the Pacific Northwest. This program is also a wise 
investment, with past projects contributing more than the required 
match and leveraging on average over one dollar for each Federal dollar 
invested. FRIMA provides for a maximum Federal cost-share of 65 
percent, with the applicant's cost-share at 35 percent plus the on-
going maintenance and support of the structure for passage or screening 
purposes. Applicants operate the projects and the State agencies 
monitor and review the projects.
                       oregon projects & benefits
    Twenty-six fish screens or fish passage projects in Oregon were 
previously funded using FRIMA for part of the project financing. These 
projects have led to:

  --Installation of screens at 17 diversions or irrigation pumps
  --Removal or modification of 12 fish passage barriers
  --Three-hundred sixty-five miles being re-opened to fish passage

    In addition, the Oregon Department of Fish and Wildlife (ODFW) has 
used some of the FRIMA funding to develop an inventory of need for fish 
screens and passages in the State. Grants ranged from just under $6,000 
to $400,000 in size with a local match averaging 64 percent of the 
project costs, well over the amount required under the Act (35 
percent). In other words, each Federal dollar invested in the FRIMA 
program generates a local investment of just over one dollar for the 
protection of fish species in the Pacific Northwest.

    The following are examples of how Oregon used some of its FRIMA 
money:

    Santiam Water Control District: Fish screen project on a large 1050 
cubic feet per second (cfs) multipurpose water diversion project on the 
Santiam River (Willamette Basin) near Stayton, Oregon. Partners are the 
Santiam Water Control District, ODFW, Marion Soil and Water 
Conservation District, and the City of Stayton. Approved FRIMA funding 
of $400,000 leveraged a $1,200,000 total project cost. Species 
benefited included winter steelhead, spring Chinook, rainbow trout, and 
cutthroat trout.
    South Fork Little Butte Creek: Fish screen and fish passage project 
on a 65 cfs irrigation water diversion in the Rogue River Basin near 
Medford, Oregon. Partners are the Medford Irrigation District and ODFW. 
Approved FRIMA funding of $372,000 leveraged a $580,000 total project 
cost. Species benefited included listed summer and winter steelhead, 
coho salmon, and cutthroat trout.
    Running Y (Geary Diversion): Fish screen project on a 60 cfs 
irrigation water diversion in the upper Klamath Basin near Klamath 
Falls, Oregon. Partners are the Wocus Drainage District, ODFW, and 
Jeld-Wen Ranches. Approved FRIMA funding of $44,727 leveraged a total 
project cost of $149,000. Species benefited included listed red-band 
trout and short-nosed sucker.
    Lakeshore Gardens: Fish screen project on a 2 cfs irrigation water 
diversion in the upper Klamath Basin near Klamath Falls, Oregon. 
Partners are the Lakeshore Gardens Drainage District and ODFW. Approved 
FRIMA funding of $5,691 leveraged a total project cost of $18,970. 
Species benefited included red-band trout, short-nosed sucker and Lost 
River sucker.
                               conclusion
    Increasing appropriations for FRIMA will fill a vital funding gap 
for fish screens and fish passage projects that are needed to better 
protect sensitive, threatened, and endangered fish species, which also 
benefits the economy, local communities, and the environment we share. 
FRIMA funds projects that are ready to be constructed and will provide 
immediate improved protections for fish and immediate jobs for the 
construction of the projects. Dollar-for-dollar, providing screening 
and fish passage at diversions is one of the most cost-effective uses 
of restoration dollars, creating fishery protection at low cost, with 
low risk and significant benefits.
    The return of a robustly funded FRIMA program will catalyze 
cooperative partnerships and innovative projects that provide immediate 
and long-term benefits to irrigators, fishery agencies, and local 
communities throughout the Pacific Northwest. We respectfully request 
an appropriation of $15 million for U.S. Fish and Wildlife Service's 
Fisheries Restoration Irrigation Mitigation Act program for fiscal year 
2020.

    [This statement was submitted by April Snell, Executive Director.]
                                 ______
                                 
Prepared Statement of Organizations in Support of the Forest Inventory 
         and Analysis Program Funded by the USDA Forest Service

May 17, 2019

 
 
 
The Honorable Lisa Murkowski                The Honorable Tom Udall
Chair, Appropriations Subcommittee on       Ranking Member,
 Interior, Environment, and Related          Appropriations Subcommittee
 Agencies                                    on Interior, Environment,
U.S. House of Representatives                and Related Agencies
Washington, DC 20515                        U.S. House of
                                             Representatives
                                            Washington, DC 20515
 


Dear Chair Murkowski and Ranking Member Udall,

    The undersigned organizations are strong supporters of the Forest 
Inventory and Analysis (FIA) program funded by the USDA Forest Service 
(Forest Service). We rely on the inventory data and analysis of 
America's forests provided by the program, which make up the backbone 
of scientific knowledge on the current state of the Nation's forests. 
This critical information is needed to support sound policy and forest 
management decisions, both public and private, and is increasingly 
important for decisions regarding new and expanding markets. We urge 
the Congress to support the FIA program and request funding for the 
program in fiscal year 2020 of at least $83 million to move the program 
toward providing an accurate and timely inventory of America's forests. 
We also urge the inclusion of language ensuring that this funding 
would, at minimum, maintain historic remeasurement cycles--every 7 
years in the east and every 10 years in the west--as referenced by the 
administration.
    The data and information collected by FIA serves as the basis for: 
identifying trends in forest ownership; measuring carbon stocks; 
assessing fish and wildlife habitat; evaluating wildfire, insect, and 
disease risk; predicting the spread of invasive species; determining 
capital investment in existing forest products facilities and selecting 
locations for new forest product facilities; and identifying and 
responding to priorities identified in State Forest Action Plans.
    The FIA program is utilized by a large set of diverse stakeholders 
interested in the state of America's forests. These include forest 
resource managers at mills, land managers, conservation groups, 
university students and faculty, and State and Federal agencies, such 
as the U.S. Environmental Protection Agency (EPA).
    The undersigned organizations would like to work with Congress to 
further explore program potential. An annual funding level of $83 
million would support a seven-year annualized program in the east, and 
a 10-year program in the west as recommended in the Forest Service's 
2007 FIA Strategic Plan. In 2015 the Forest Service released an updated 
FIA Strategic Plan, which outlines a variety of potential program 
deliverables at funding levels. While we are supportive of at least $83 
million in funding for fiscal year 2020, the 2015 Strategic Plan calls 
for $103 million to implement the 5-year annualized program called for 
in the 1998 Farm Bill. This reduction in cycle length would provide 
more accurate data to support important forest resource decisions.
    As engaged partners, we are interested in working with Congress and 
the Forest Service to make program delivery as efficient as possible 
and to support additional Federal investment to implement many of the 
useful tools outlined in the new FIA Strategic Plan, such as, urban 
inventory, increased plot density, and improved carbon and biomass 
estimates. Further, the 2018 Farm Bill called for ``finding 
efficiencies in the program operations through the use of remote 
sensing technologies, where appropriate.'' We look forward to working 
with the Agency as this direction is implemented. There is a need to 
make FIA data more robust and more useful for emerging uses, such as 
accurate information regarding carbon stocks, forest sustainability 
monitoring, wildlife habitat assessments, and much more. Given the 
increasing pressures facing our forests-from wildfire, insects and 
disease, and development-the FIA program is more important now than 
ever before. Funding the FIA program at $83 million for fiscal year 
2020 would move toward providing for our growing data needs.

Sincerely,

Alabama Forestry Association
American Forest & Paper Association
American Forest Foundation
American Forests
American Wood Council
American Woodcock Society
Arkansas Forestry Association
Association of Consulting Foresters
BB&S Treated Lumber of New England
Boise Cascade Company
Ecological Society of America
Empire State Forest Products Association
Florida Forestry Association
Fontana Wood Preserving
Forest Products Industry National Labor Management Committee
Forest Resources Association
Forestry Association of South Carolina
Gross & Janes Co.
Hancock Natural Resource Group
Idaho Forest Group
IN Chapter of the Ruffed Grouse Society
Indiana Forestry & Woodland Owners Association
Kentucky Forest Industries Association
L&C Carbon
Massachusetts Forest Alliance
McCord Tie and Timber, Inc.
Mississippi Forestry Association
National Alliance of Forest Owners
National Association of Forest Service Retirees
National Association of State Foresters
National Audubon Society
National Wild Turkey Federation
Ohio Forestry Association, Inc.
Pennsylvania Forestry Association
Rayonier
Ruffed Grouse Society
SC Pole and Piling Inc
SFP
Society for Range Management
Society for the Protection of NH Forests
Society of American Foresters
Sustainable Forestry Initiative
Tank Fab Inc
The Hardwood Federation
The Nature Conservancy
The Westervelt Company
Treated Wood Council
Vermont Woodlands Association
Viance LLC
      
                                 ______
                                 
 Prepared Statement of Organizations in Support of Investments in Key 
  Federal Programs That Support State and Private Forestry Activities 
                      Throughout the United States

March 15, 2019

 
 
 
The Honorable Betty McCollum                The Honorable Lisa Murkowski
Chairman, Appropriations Subcommittee on    Chairman, Appropriations
 Interior, Environment and Related           Subcommittee on Interior,
 Agencies                                    Environment and Related
U.S. House of Representatives                Agencies
50 Independence Avenue SW, Room 2007        U.S. Senate
Washington, DC 20515                        100 Constitution Avenue NE,
                                              Room 131
                                            Washington, DC 20510
 
The Honorable David Joyce                   The Honorable Tom Udall
Ranking Member, Appropriations              Ranking Member,
 Subcommittee on Interior, Environment and   Appropriations Subcommittee
 Related Agencies                            on Interior, Environment
U.S. House of Representatives                and Related Agencies
15 Independence Avenue SE, Room 1016        U.S. Senate
Washington, DC 20515                        The Capitol, Room S-146A
                                            Washington, DC 20510
 


Dear Chairwomen McCollum and Murkowski and Ranking Members Joyce and 
Udall:

    As Congress begins the process of drafting the fiscal year 2020 
budget, we appreciate that spending choices must be made that coincide 
with our Nation's priorities. As the Committee seeks to maximize the 
effectiveness of every Federal dollar, we would like to highlight the 
role effective partnerships can play in addressing our Nation's forest 
challenges. For this reason, the undersigned organizations support 
investments in key Federal programs that support State and private 
forestry activities throughout the United States. A critically-
important component of the Forest Service's budget, these programs help 
tackle some of the most pressing issues in forestry while conserving 
and improving America's forestlands; enhancing and protecting our 
drinking water; contributing to healthy, livable communities; and 
encouraging forest product innovation and utilization. Even further, 
these investments help the Nation deliver important economic growth 
across the sector, especially in rural communities.
    The USDA's Forest Service State and Private Forestry Program area 
(S&PF) has a long history as an important part of the Forest Service 
and the profession of forestry. Private forests constitute most of the 
Nation's forests and over 90 percent of our domestically-produced 
forest products. Providing this important technical and financial 
assistance to private landowners and the resource managers responsible 
for managing more than 60 percent of America's forests helps to 
increase the pace of work and on-the- ground results, improve the 
resilience of the Nation's forests, and protect communities and the 
environment from forest pests, invasive species, and wildland fires.
    In fiscal year 2020, funding for the following State and Private 
Forestry and related programs that support them will help improve the 
health of the Nation's forests and encourage economic growth in a 
sector that sustains more than one million jobs in the United States. 
Our funding level requests include:

  --$29 million for the Forest Stewardship Program: Administered in 
        cooperation with State forestry agencies, this program plays a 
        fundamental role in keeping forests as forests. Forest insects, 
        diseases, and wildfire know no bounds between Federal and non-
        Federal forests and assisting some of the 22 million private 
        forest owners in managing non-Federal forests can help minimize 
        the impacts to Federal lands, ultimately saving the Federal 
        taxpayer millions of dollars. A forest landowner with a forest 
        stewardship plan is almost three times more likely to actively 
        manage their land than one without a plan, in turn creating 
        jobs and developing the rural economies on which private forest 
        lands rely to produce ninety percent of the Nation's wood 
        supply. Additionally, landowners with stewardship plans are 
        actively managing their lands, producing even more benefits for 
        wildlife, clean water, and forest health.
  --$51 million for Forest Health Management on Cooperative Lands: 
        Pests and disease are national problems affecting private and 
        public lands. Nationally, their impact is in the tens of 
        billions of dollars. The USFS Forest Health Management Program 
        supports efforts to prevent, contain, and eradicate these 
        costly and dangerous pests and pathogens affecting trees and 
        forests. Since these pests know no bounds, it is critical to 
        maintain robust funding for forest health management in both 
        Federal and cooperative lands accounts.
  --$87 million for State Fire Assistance and $18 million for Volunteer 
        Fire Assistance Programs: Ninety percent of the Nation's 
        wildfires are human-caused and most of these starts are on 
        State and private lands (which often spread to Federal lands). 
        Initial attack is the key to reducing large fire costs and 
        these programs are critical to these suppression efforts. State 
        and volunteer fire crews provide much of that initial attack 
        response and are deployed to assist on Federal fires and other 
        emergency or disaster situations, in compliance with national 
        safety and training standards.
  --$20 million for Landscape Scale Restoration: The USFS works 
        collaboratively with States and other partners using State 
        Forest Action Plans to target limited resources to the highest 
        priority forest needs across ownerships to achieve results with 
        meaningful local, regional, and national impacts. The 2018 Farm 
        Bill officially codified the Landscape Scale Restoration 
        program and authorized $20 million in annual appropriations, 
        the amount of our request. In an era when our forests are 
        facing an increasing number of challenges, this program allows 
        for a small Federal investment to be matched and leveraged by 
        States and put towards the most pressing threats to the forests 
        that sustain American communities.
  --$83 million for Forest Inventory and Analysis: This is our 
        country's forest census, which has been ongoing since 1930. The 
        collection and reporting of this information in a timely manner 
        is vital for forest industry and others in planning their 
        future economic investments based on availability of forest raw 
        materials, as well as for keeping our Nation's forests healthy 
        by tracking impacts to forests from fire, insects and disease, 
        urbanization and development, and other threats.

    While not specifying suggested budget levels, we want to also call 
your attention to the need for funding research, which provides the 
basis for policies that improve the health and quality of urban and 
rural communities, including helping to expand markets. A combination 
of responsible forest management combined with a healthy forest market 
will benefit the forest landscape and the communities that live in and 
around them.
    Thank you for your consideration.

Sincerely,

Alabama Forestry Association
American Forest & Paper Association
American Forest Foundation
American Forests
American Wood Council
American Woodcock Society
Arkansas Forestry Association
Boise Cascade Company
Empire State Forest Products Association
Florida Forestry Association
Fontana Wood Preserving
Forest Products Industry National Labor Management Committee
Forest Resources Association
Forestry Association of South Carolina
Gross & Janes Co.
Hancock Natural Resource Group
Idaho Forest Group
Indiana Chapter of the Ruffed Grouse Society
Indiana Forestry & Woodland Owners Association
Kentucky Forest Industries Association
L&C Carbon
Massachusetts Forest Alliance
McCord Tie and Timber, Inc.
Mississippi Forestry Association
National Alliance of Forest Owners
National Association of Forest Service Retirees
National Association of State Foresters
National Audubon Society
National Wild Turkey Federation
Ohio Forestry Association, Inc.
Pennsylvania Forestry Association
Rayonier
Ruffed Grouse Society
SC Pole and Piling Inc
Society for the Protection of New Hampshire Forests
Society of American Foresters
Spartanburg Forest Products
Sustainable Forestry Initiative
The Hardwood Federation
Tank Fab Inc
The Westervelt Company
The Nature Conservancy
Vermont Woodlands Association
Treated Wood Council
Virginia Forestry Association
Viance LLC
Western Pennsylvania Conservancy
      
                                 ______
                                 
 Prepared Statement of Organizations in Support of the United States' 
                Engagement in the World Heritage Program

May 14, 2019

 
 
 
The Honorable Lisa Murkowski                The Honorable Tom Udall
Chairman                                    Ranking Member
Subcommittee on Interior, Environment and   Subcommittee on Interior,
 Related Agencies                            Environment and Related
Committee on Appropriations                  Agencies
United States Senate                        Committee on Appropriations
Washington, D.C. 20510                      United States Senate
                                            Washington, D.C. 20510
 


Dear Chairman Murkowski and Ranking Member Udall:

    As organizations dedicated to the protection and preservation of 
the historic and cultural resources of our Nation including but not 
limited to World Heritage Sites, we write in support of the United 
States' engagement in the World Heritage Program. We urge you to 
appropriate $1.926 million for the National Park Service's 
International Park Affairs including at least $1.25 million for the 
Office of International Affairs (OIA) to ensure our robust involvement 
with the program and to support many United States communities and 
sites seeking nomination to the World Heritage List. We also urge 
Congress to reject the administration's proposal to drastically reduce 
overall program funding for International Park Affairs while also 
shifting the Southwest Border Resource Protection Program into OIA. For 
the past three fiscal years, Congress has consistently appropriated 
$1.648 million for International Park Affairs, including $942,000 for 
the OIA. We believe that a modest increase to $1.926 million for 
International Park Affairs including at least $1.25 million for the 
Office of International Affairs is appropriate and merited.
    The United States led the creation of the World Heritage Program in 
1972 and was the first to ratify the Convention in 1973. Two of our 
national parks--Yellowstone National Park and Mesa Verde National 
Park--were among the first dozen sites inscribed on the World Heritage 
List in 1978. Today, just 23 out of the 1,092 sites inscribed on the 
World Heritage List are in the United States, of which 18 are managed 
by the National Park Service (NPS). Many more sites of cultural and 
natural importance remain on the U.S. World Heritage Tentative List, 
and still others are eligible for nomination.
    The Office of International Affairs within the NPS works to support 
protection and enhancement of parks around the world, responds to 
issues relating to existing World Heritage Sites, and selects eligible 
sites for the World Heritage Tentative List and shepherds them through 
the detailed nomination process. Inadequate funding hinders OIA's 
ability to support the increasing numbers of communities in the United 
States who seek nominations to the World Heritage List despite the 
considerable effort and financial expenditure required. Significant 
sites such as the Hopewell Ceremonial Earthworks in Ohio; Frank Lloyd 
Wright Buildings in Arizona, California, Illinois, New York, Oklahoma, 
Pennsylvania, and Wisconsin; and Civil Rights Movement Sites in Alabama 
remain on the U.S. World Heritage Tentative List. Inclusion on the 
World Heritage List brings communities and sites substantial cultural, 
economic, and social benefits. Increased funding for OIA would enable 
more American sites with international significance to be added to the 
World Heritage List.
    The recent tragic fire at the Notre-Dame de Paris, also a World 
Heritage Site, reminds all of us of the importance of our collective 
history--and the need to safeguard and honor it. The severe damage to 
Notre Dame rouses us to protect other irreplaceable places that tell 
our human story. We must preserve these sites now so that they may 
remain for future generations.
    We believe that it is of critical importance for the United States 
to remain robustly engaged in and supportive of the World Heritage 
Program. We urge you to provide funds to both support nominations of 
American sites to the World Heritage List and to demonstrate engagement 
in the important work of ensuring global peace through the mutual 
respect of heritage of outstanding universal value worldwide.
    We greatly appreciate the strong support Congress has shown for the 
preservation of our Nation's heritage. We look forward to working with 
you through the appropriations process and thank you for your 
consideration.

For questions, please contact:
    Destry Jarvis, Advocacy Chair, US/ICOMOS
    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9df9f8eee9efe4f7fcefebf4eeafddf0f8b3fef2f0">[email&#160;protected]</a>

                  or

    Tom Cassidy, Vice President, Government Relations
    National Trust for Historic Preservation
    <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6c380301332f0d1f1f0508152c0218041c42031e0b">[email&#160;protected]</a>

Sincerely,

US/ICOMOS (US National Committee for the International Council on 
    Monuments and Sites)
National Trust for Historic Preservation
National Parks Conservation Association
Coalition to Protect America's National Parks
Archeology Southwest
The Coalition for American Heritage
National Association of Tribal Historic Preservation Officers
Ohio History Connection
                                 ______
                                 
  Prepared Statement of Organizations Supporting Increased Funding in 
       Investment in USDA Forest Service Research and Development

May 17, 2019

 
 
 
The Honorable Lisa Murkowski                The Honorable Tom Udall
Chair, Appropriations Subcommittee on       Ranking Member,
 Interior, Environment, and Related          Appropriations Subcommittee
 Agencies                                    on Interior, Environment,
U.S. Senate                                  and Related Agencies
Washington, DC 20515                        U.S. Senate
                                            Washington, DC 20515
 


Dear Chair McCollum and Ranking Member Joyce:

    Improving the future health and sustainability of the Nation's 
forests and grasslands requires a strong investment in USDA Forest 
Service Research and Development (R&D), with benefits to forests, 
wildlife, and fish. The undersigned organizations and professional 
societies urge Congress to increase funding for all Forest Service R&D 
to a minimum of $310 million in fiscal year 2020 including all 
necessary increases for the Forest Inventory and Analysis program and 
at least $227 million for the remaining Forest and Rangeland Research 
program areas.
    Building on over 100 years of critically important research, Forest 
Service R&D programs inform policy and land-management decisions that 
improve health and use of the Nation's forests and grasslands, 
including aquatic systems. Funding for these important activities is 
critical to sustaining the Nation's natural resources. Showing value in 
this investment requires R&D leaders and scientists be attuned and 
responsive in providing relevant and timely information and support 
with an ability to effectively deliver assistance to all users. Notable 
recent Forest Service R&D contributions include:
Using Science to Guide Drought Management Response
    Forest Service R&D has been a leader in reviewing impacts of 
drought on U.S. forests and rangelands to help better manage for 
drought resiliency and adaptation going forward. Forest Service R&D 
assessments and guidance offers assistance to Federal, State, and 
private organizations in implementation strategies to sustain healthy, 
resilient ecosystems that continue to produce vital goods and services.
Helping to Identify Pragmatic Solutions for Species at Risk
    Through long-term monitoring and collaborative research efforts 
with State agencies and other partners, Forest Service R&D informs land 
management decisions that benefit wildlife and people by providing an 
understanding of wildlife-habitat relationships for multiple species 
and communities. This includes informing conservation efforts that have 
helped to avoid Endangered Species Act listings for several forest and 
rangeland wildlife species.
Improving Smoke and Fire Management Capabilities
    The Prescribed Fire Combustion and Atmospheric Dynamics Research 
Experiment is a landmark study improving predictions of fire spread and 
smoke behavior. This behavior prediction tool with the Blue Sky Smoke 
Management Model allows fire managers to better understand where flames 
and smoke from wildland fires will go to alert affected communities 
sooner and reduce human health effects.
Developing Innovative Solutions to Managing Invasive Species
    Forest Service R&D also develops innovative solutions to manage 
invasive pathogens and species that can decimate native plant and 
animal populations. These investments resulted in a cost-effective way 
to quickly identify presence or absence of invasive species in an 
aquatic environment; trees with a natural resistance to emerald ash 
borers; and the first nonlethal treatment for white-nose syndrome--a 
lethal fungal disease that has reduced bat populations by upwards of 80 
percent in certain parts of the country.
Expanding and Protecting U.S. Market Opportunities for Forest Resources
    The Forest Products Laboratory drives innovation and expansion of 
commercial applications for forest products. The work at the Lab on 
woody biofuels, advanced composites and wood structures, and value-
added wood products promotes healthy forest ecosystems and economies by 
creating, enhancing, and protecting markets for forest products. In 
partnership with universities, scientists from Research Stations across 
the country, and partners in the private sector, the Lab is exploring 
potential of mass timber structures by conducting work on building 
codes and wood utilization models to increase use of wood in building 
construction and invigorate existing and create new markets for wood 
products.
Calculating the Value of Urban Forests and Trees
    City leaders can calculate the value of new tree plantings in terms 
of property value increases, future energy savings, air pollutant 
uptake, and storm water runoff reduction helping cities protect and 
restore environmental quality and enhance economic opportunity.
Quantifying the Role of Forests in Providing Clean Air and Water
    This research directly linking trees to clean air and water 
underscores the economic value and benefits trees and forests provide 
to all residents and communities. Recent R&D work shows that forests, 
which make up 26 percent of U.S. land area, are the source of 46 
percent of the U.S. water supply--generating far better returns than 
other land uses. This understanding of how to manage forested 
landscapes to enhance production of sustained, low cost clean water 
supplies and improved air quality are cost effective and critically 
important to human health providing a value of nearly $7 billion every 
year.
    Advancing forest science is integral to improving the health and 
welfare of U.S. forests and citizens, increasing the competitiveness of 
U.S. products in the global marketplace, and adapting to unforeseen 
future challenges. Continuing the trend of reductions in the R&D budget 
will result in significant gaps in the knowledge base and data sets 
necessary to address the many threats facing our Nation's forests and 
associated wildlife could result in competitive losses in the global 
economy. Therefore, our organizations request a funding level of $310 
million for USFS R&D with particular emphasis on research projects 
uniquely suited to R&D expertise and the furthering of agency and 
partner objectives.

Sincerely,

American Forests
American Wood Council
American Woodcock Society
Arkansas Forestry Association
Boise Cascade Company
Ecological Society of America
Empire State Forest Products Association
Florida Forestry Association
Fontana Wood Preserving
Forest Resources Association
Forestry Association of South Carolina
Gross & Janes Co.
Hancock Natural Resource Group
Idaho Forest Group
IN Chapter of the Ruffed Grouse Society
Indiana Forestry & Woodland Owners Association
Kentucky Forest Industries Association
L&C Carbon
McCord Tie and Timber, Inc.
Mississippi Forestry Association
National Alliance of Forest Owners
National Association of Forest Service Retirees
National Audubon Society
National Wild Turkey Federation
Ohio Forestry Association, Inc.
Pennsylvania Forestry Association
Rayonier
Ruffed Grouse Society
SC Pole and Piling Inc
SFP
Society for Range Management
Society for the Protection of NH Forests
Society of American Foresters
Sustainable Forestry Initiative
Tank Fab Inc
The Hardwood Federation
The Nature Conservancy
The Westervelt Company
Treated Wood Council
Vermont Woodlands Association
Viance LLC
      
                                 ______
                                 
  Prepared Statement of the Partnership for the National Trails System
Madame Chair and Members of the subcommittee:

    The Partnership for the National Trails System appreciates your 
support over the past 25 years, through operations funding and 
dedicated Challenge Cost Share funds, for the national scenic and 
historic trails administered by the National Park Service. We also 
appreciate your increased allocation of funds to support the trails 
administered and managed by the Forest Service and for the trails in 
the Bureau of Land Management's National Conservation Lands System.
    2018 was the 50th year since Congress established the National 
Trails System as a bold experiment in public/private collaboration for 
public benefit. While most of the trail making is done by tens of 
thousands of citizen stewards increased funding is needed to close gaps 
in these trails. To continue the progress that you have fostered and to 
begin the next 50 years with an increased investment in the National 
Trails System, the Partnership requests that you provide annual 
operations funding for each of the 30 national scenic and historic 
trails for fiscal year 2020 through these appropriations:

  --National Park Service: $16.426 million for administration of 23 
        trails and for coordination of the long-distance trails program 
        by the Washington office. Construction and Maintenance: 
        $357,200 for the Ice Age Trail, $175,000 for the Arizona Trail, 
        and $200,000 for the Pacific Crest Trail.
  --USDA Forest Service: $100 million for trails construction and 
        maintenance (CMTL) with $8.826 million of it to administer 6 
        trails and $1.3 million to manage parts of 16 trails 
        administered by the NPS or BLM. $3 million for Iditarod Trail 
        construction and maintenance.
  --Bureau of Land Management: $2.812 million to administer three 
        trails and for coordination of the National Trails program and 
        $7.14 million to manage portions of 13 trails administered by 
        the Park Service or the Forest Service and for operating five 
        National Historic Trail interpretive centers. Construction: 
        $100,000 for the Iditarod Trail. Maintenance: $200,000 for the 
        Iditarod Trail, $125,000 for the Arizona Trail, and $300,000 
        for the Pacific Crest Trail.

    We ask you to appropriate $900,000,000 from the Land and Water 
Conservation Fund and allocate $33,408,000 of it to these agencies to 
purchase 41 tracts along six national scenic and six national historic 
trails:

  --Bureau of Land Management: $2,895,000
  --U.S. Fish and Wildlife Service: $5,419,000
  --U.S. Forest Service: $7,237,000
  --National Park Service: $17,857,000
                         national park service
    The $16.426 million we request for Park Service operations includes 
increases for some of the trails to continue the progress and new 
initiatives made possible by the additional funding Congress provided 
several years ago. We request an increase of $68,000 to $450,000 for 
the National Trails System Program account to provide stronger support 
for the 23 national trails administered by the Park Service. An 
increase of $570,000 for the Old Spanish Trail will enable the Park 
Service to begin implementing the Trail's new Comprehensive 
Administrative Strategy working with the Old Spanish Trail Association 
to increase volunteer participation in signing, interpreting, and 
educating the public about the trail. The Park Service will be better 
able to collaborate with the Bureau of Land Management in administering 
the trail and to consult with other agencies to protect the cultural 
and natural resources along it from destruction by energy projects.
    We request an increase of $660,000 to expand Park Service efforts 
to protect cultural landscapes at more than 200 sites along the Santa 
Fe Trail, to develop GIS mapping, and to fund public educational and 
community outreach programs of the Santa Fe Trail Association. 
Increases of $313,224 for the Oregon Trail and $255,192 for the 
California Trail will enable the Park Service to work with the Oregon-
California Trails Association to develop digital and social media to 
connect with youth in the cities along these trails providing 
information about their many layers of history and to better protect 
the historical and cultural heritage sites and landscapes along them 
from destruction by energy development in the West. Congress doubled 
the length of the Trail of Tears in 2009, but provided no additional 
funding to manage the additional trail. An increase of $165,000 to 
$656,000 will provide for management of this additional trail and more 
support for the work of Trail of Tears Association volunteers.
    We request an increase of $173,000 to $300,000 for the New England 
Trail to strengthen the outreach and community engagement of the 
Connecticut Forests & Parks Association and the Appalachian Mountain 
Club along the trail and support trail relocations and reconstruction 
work of these organizations' volunteers. We request a modest increase 
to $2,050,000 for the Lewis & Clark Trail to administer the Eastern 
Legacy extension along the Ohio River authorized by Congress in S. 47.
    We request an increase of $300,000 to $833,000 for the Ala Kahakai 
Trail to enable the Park Service to work with E Mau Na Ala Hele, the 
Ala Kahakai Trail Association, and other community organizations to 
care for resources on the land and with the University of Hawaii to 
conduct archaeological and cultural landscape studies along this trail.
    The $1,020,000 we request for the 4,200 mile North Country Trail 
will enable the Park Service to provide greater support for the 
regional GIS mapping, trail building, trail management, and training of 
volunteers led by the North Country Trail Association. The $1,500,000 
we request for the Ice Age Trail includes a $665,000 increase to build 
partner and citizen capacity for building new and maintaining existing 
trail, protecting the natural and cultural resources on the lands 
purchased for the trail, and to provide the Park Service with a planner 
to accelerate planning of the land protection corridor for the trail.
    Construction and Maintenance: We request that you provide $357,200 
for the Ice Age Trail to build 10 miles of new trail and several 
trailhead parking lots and repair damage from catastrophic floods; 
$175,000 for maintenance of the National Park Service segments of the 
Arizona Trail; and $200,000 for trail construction projects on National 
Park Service segments of the Pacific Crest Trail.
                          usda--forest service
    We ask you to appropriate $100 million for trails construction and 
maintenance (CMTL) to begin to address the considerable maintenance 
backlog on the trails in the National Forest System. Within this 
appropriation we request that you provide $8.826 million as a separate 
budgetary item specifically for the Arizona, Continental Divide, 
Florida, Pacific Crest, and Pacific Northwest National Scenic Trails 
and the Nez Perce National Historic Trail within the over-all 
appropriation for Capital Improvements and Maintenance for Trails. 
Recognizing the on-the-ground management responsibility the Forest 
Service has for 1024 miles of the Appalachian Trail, more than 650 
miles of the North Country Trail, and sections of the Ice Age, Anza, 
Caminos Real de Tierra Adentro and de Tejas, Lewis & Clark, California, 
Iditarod, Mormon Pioneer, Old Spanish, Oregon, Overmountain Victory, 
Pony Express, Trail of Tears and Santa Fe Trails, we ask you to 
appropriate $1.3 million specifically for these trails.
    We ask that you provide direction to the Forest Service to 
specifically allocate the funding appropriated for the administered and 
managed national scenic and historic trails directly to those trails.
    The Partnership's request of $8.826 million includes $1.5 million 
to enable the Forest Service and Florida Trail Association to continue 
trail maintenance, to control invasive species, do ecosystem 
restoration, and otherwise manage 4,625 acres of new Florida Trail 
land. The $8.826 million request also includes $2.5 million for the 
Pacific Crest Trail, $2 million for the Continental Divide Trail, $1 
million for the Pacific Northwest Trail, $926,000 for the Nez Perce 
Trail, and $900,000 for the Arizona Trail. The additional funds 
requested will enable the Forest Service to develop Comprehensive 
Management Plans for the latter three trails. We also request $3 
million of additional funding for construction and for maintenance of 
sections of the Iditarod Trail in the Chugach National Forest.
                       bureau of land management
    Although considerably more money is needed to fully administer the 
National Conservation Lands System and protect its resources, we 
request that you appropriate $84 million in base funding for the 
System. We ask that you appropriate as new permanent base funding 
$250,000 for National Trails System Program Coordination, $1,000,000 
for the Iditarod Trail, $230,000 for El Camino Real de Tierra Adentro 
Trail, $1,332,000 for the Old Spanish Trail, and $4,000,000 for the 
Bureau to manage 4,645 miles of 13 other national scenic and historic 
trails. We request $100,000 to construct new sections of the Iditarod 
Trail and to maintain these trails: Iditarod Trail--$200,000, Arizona 
Trail--$125,000, and Pacific Crest Trail--$300,000. We also request 
$3,140,000 to operate five historic trails interpretive centers.
    To promote greater management transparency and accountability for 
the National Trails and the whole National Landscape Conservation 
System (NLCS), we urge you to request expenditure and accomplishment 
reports for each of the NLCS Units for fiscal year 2019 and fiscal year 
2020 and to direct the Bureau to include unit-level allocations within 
major sub-activities for each of the scenic and historic trails, and 
wild and scenic rivers--as the Bureau has done for the national 
monuments, wilderness, and conservation areas--within a new activity 
account for the National Landscape Conservation System in fiscal year 
2020. The Bureau's lack of a unified budget account for National Trails 
prevents the agency from efficiently planning, implementing, reporting, 
and taking advantage of cost-saving and leveraging partnerships and 
volunteer contributions for every activity related to these national 
resources.
                    land and water conservation fund
    The Partnership strongly supports full funding of the Land and 
Water Conservation Fund at the authorized $900 million for the 
component Federal and State programs funded under LWCF. Within this 
amount we request that you appropriate $33,408,000 to acquire 41 
parcels along these 12 national scenic and historic trails:

Bureau of Land Management: $2,895,000 | 12 parcels | 1,845 acres
    Nez Perce National Historic Trail (ID) $2,295,000 to protect 
riparian ecosystems and migratory corridors with habitat for sage 
grouse, pronghorn antelope, and elk, and historic and cultural 
resources.
    Pacific Crest National Scenic Trail (OR) $600,000 for trail and 
resource protection within the Cascade Siskiyou National Monument in 
Southern Oregon.
U.S. Fish and Wildlife Service: $5,419,000 | 6 parcels | 1,790 acres
    California National Historic Trail (ID): $1,570,000 to protect the 
largest breeding concentration of Sandhill Cranes and a haven for other 
waterfowl near Grays Lake NWR from agricultural development.
    Captain John Smith Chesapeake National Historic Trail (VA) 
$3,000,000 to preserve and provide access to sites of historic 
encounters between John Smith and indigenous peoples and protect major 
eagle and migratory bird stopover habitat in the Rappahannock River and 
James River NWRs.
    Lewis and Clark National Historic Trail (WA) $849,000 to preserve a 
wealth of unique ecosystems and enhance ecosystem connectivity between 
State-protected lands and the Steigerwald NWR.
U.S. Forest Service: $7,237,000 | 15 parcels | 2,219 acres
    Appalachian National Scenic Trail (NC, TN, VA,) $4,582,000 to 
protect miles of several trout streams, relocate trail segments, 
preserve trail viewsheds, and provide habitat for rare birds and 
ecological connectivity and watershed protection near or adjacent to 
the Pisgah NF State-protected lands.
    Arizona National Scenic Trail (AZ) $200,000 for an easement in 
Little Casa Blanca Canyon closing a gap in the trail and removing it 
from a dangerous road.
    Continental Divide National Scenic Trail (CO) $2,300,000 to acquire 
land around Muddy Pass to enable 14 miles of the trail to be relocated 
from a busy highway near Steamboat Springs and $65,000 to protect 
alpine headwaters of the Rio Grande River in San Juan County, Colorado.
    Florida National Scenic Trail (FL) $90,000 to fill trail gaps and 
provide connectivity between protected areas along the Withlacoochee 
River and adjacent to Suwannee River State Park.
National Park Service: $17,857,000 | 8 parcels | 5,720 acres
    Ala Kahakai National Historic Trail (HI): $6,000,000 to protect 444 
archaeological sites at an ancient coastal indigenous gathering area 
that hosts a wealth of native plants and wildlife both above and below 
ground in lava tubes.
    Appalachian National Scenic Trail (MA, ME) $3,357,000 to protect 
the remaining 8 miles of shoreline and enable public access for Bald 
Mountain Pond, to enable multiple trail re-routings, to preserve 
delicate habitats for threatened and endangered species, to support 
connectivity of riparian and forest habitats, and to preserve iconic 
scenic viewsheds.
    Ice Age National Scenic Trail (WI) $1,500,000 to help acquire 
several parcels within the Cross Plains Unit of the Ice Age National 
Scientific Reserve in Dane County.
    Captain John Smith Chesapeake National Historic Trail (VA) 
$4,000,000 to purchase 1000 acres.
    Washington-Rochambeau Revolutionary Route National Historic Trail 
(NY) $3,000,000 for preservation of a Revolutionary War-era supply 
depot site and cemetery.
         private sector support for the national trails system
    Public-spirited partnerships between private citizens and public 
agencies have been a hallmark of the National Trails System since its 
inception. These partnerships create the enduring strength of the 
Trails System and the trail communities that sustain it by combining 
the local, grass-roots energy and responsiveness of volunteers with the 
responsible continuity of public agencies. They also provide private 
financial support for public projects, often resulting in a greater 
than equal match of funds.
    The private trail organizations' commitment to the success of these 
trail-sustaining partnerships grows even as Congress' support for the 
trails has grown. In 2018 the trail organizations fostered 978,034 
hours of documented volunteer labor valued at $24,147,660 to help 
sustain the national scenic and historic trails. The organizations also 
raised private sector contributions of $14,489,472 for the trails.

    [This statement was submitted by Gary Werner, Executive Director.]
                                 ______
                                 
               Prepared Statement of Preservation Action
    Chairman Murkowski, Ranking Member Udall and Members of the 
subcommittee, on behalf of Preservation Action's more than 3,000 
members and supporters, I appreciate the opportunity to present written 
testimony on the Department of Interior's fiscal year 2020 for the 
National Park Service and its historic preservation programs. Founded 
in 1974, Preservation Action is a 501(c)4 nonprofit organization 
created to serve as the national grassroots advocacy organization for 
historic preservation. We represent an active and engaged grassroots 
constituency from across the country, and we appreciate the opportunity 
to provide their perspective.
    The U.S. Congress listened to the American people in 1966 when it 
enacted the National Historic Preservation Act. Today, the Federal 
legislation and programs created through it serve as the backbone for 
the historic preservation industry. For over 50 years, the NHPA and the 
historic preservation field has demonstrated a proven track record of 
saving places Americans value, revitalizing communities, reusing 
infrastructure, telling American history for the public benefit of all. 
Continued funding to the National Park Service and the programs it 
executes is vitally important for America's past to help shape our 
future.
    Preservation Action's mission is to make historic preservation a 
national priority. For 45 years we've advocated for sound preservation 
policy, including two of the most important tools for historic 
preservation--the Historic Preservation Fund and the Federal Historic 
Rehabilitation Tax Credit (HTC).
National Park Service: Historic Preservation Fund
    The Historic Preservation Fund (HPF) is the principal source of 
funding to implement the Nation's historic preservation programs. Since 
1976 the HPF has helped to recognize, save, revitalize and protect 
America's historic resources. Preservation Action is extraordinarily 
grateful for the strong support Congress and especially this Committee, 
have shown for the HPF in recent years, including fiscal year 2019's 
$102.66 million, the highest level of HPF funding in history. The HPF 
provides funding to States and Tribes to carry out their federally 
mandated duties and supports critically important competitive grant 
programs that empowers States and local communities to preserve places 
that help to tell a more complete American story.
    Preservation Action urges this subcommittee to fund the Historic 
Preservation Fund in fiscal year 2020's Department of Interior budget 
at the following level:

  --$60 million for State Historic Preservation Officers (SHPOs) for 
        heritage preservation and protection programs that create jobs, 
        economic development, and community revitalization. In 
        partnership with the Federal Government, SHPOs carry out the 
        primary functions of the National Historic Preservation Act 
        including--finding and documenting America's historic places, 
        making nominations to the National Register, providing 
        assistance on rehabilitation tax credit projects, reviewing 
        impacts of Federal projects, working with local governments, 
        and conducting preservation education and planning. 
        Additionally, States are required to match at least 40 percent 
        of the money they receive from the HPF.
  --$20 million for Tribal Historic Preservation Officers (THPOs). 
        THPOs are designated by federally recognized Tribal governments 
        that have entered into an agreement with the Department of the 
        Interior to assume the Federal compliance role of the SHPO on 
        their respective Tribal lands. Tribal historic preservation 
        plans are based on traditional knowledge and cultural values, 
        and may involve projects to improve Indian schools, roads, 
        health clinics and housing. Funding levels have not kept pace 
        with the growing number of Indian Tribes with THPO programs, 
        resulting in a lower average grants per Tribe.
  --$5 million for competitive grants for SHPOs and THPOs to invest in 
        geographic information systems-based mapping of historic 
        resources (New program). 21st century digital maps would allow 
        project planners to know where cultural resources have already 
        been located and where they are likely to be identified. It 
        would encourage early participation in project planning, 
        enabling SHPOs and THPOs to work with project sponsors to plan, 
        design, and develop projects that avoid harm to historic 
        resources, lessen conflict, and expedite project delivery.
  --$30 million for Civil Rights Initiative Competitive Grants. A 
        competitive grant program to preserve the sites and stories of 
        Civil Rights in America. $20 million of these funds would have 
        to be used to preserve the sites and stories of the African 
        American Civil Rights movement.
  --$10 million for Historically Black Colleges and Universities. 
        Funding would provide grants to Historically Black Colleges and 
        Universities (HBCUs) to preserve and repair historic buildings 
        on the campuses of HBCUs.
  --$15 million for Save America's Treasures Program. Save America's 
        Treasures grants program help preserve nationally significant 
        historic properties and collections that convey our Nation's 
        rich heritage to future generations of Americans
  --$7.5 million for Historic Revitalization Subgrant Program. The 
        purpose of the program is to rehabilitate and preserve historic 
        resources, while fostering economic development of rural 
        communities.
  --$1 million for the Under-Represented Communities Grant Program. 
        These competitive grants support the survey and nomination of 
        properties to the National Register of Historic Places and as 
        National Historic Landmarks associated with communities 
        currently under-represented.

  Total Historic Preservation Fund Request: Fiscal year 2020 $148.5 
        million

Federal Historic Rehabilitation Tax Credit
    The Historic Rehabilitation Tax Credit (HTC), administered by SHPOs 
and the NPS, is the most significant Federal investment in historic 
preservation. Since its creation more than 35 years ago, the HTC has 
been a catalyst for development with the rehabilitation of more than 
44,000 buildings across the Nation. Since inception, the HTC has 
created over 2.5 million jobs and leveraged over $144 billion in 
private investment. In addition to revitalizing communities and 
spurring economic growth, the HTC returns more to the Treasury than it 
costs. In fact, Treasury receives $1.25 in tax revenue for every dollar 
invested. The HTC has helped to rehabilitate historic structures and 
revitalize communities in all 50 States, the District of Columbia, 
Puerto Rico and the U.S Virgin Islands. From helping to rehabilitate 
the Brown and Hawkins building in Seward, AK, the oldest store in 
Alaska, to the Mill No. 1 project in Baltimore, Maryland, the Historic 
Tax Credit is helping communities rebound and recapture their economic 
vitality as well as provide creative uses for old buildings and 
stimulate job growth.
    In 2017, tax reform legislation preserved the 20 percent HTC, but 
changed it so that it is spread over 5 years at 4 percent per year. 
While we are incredibly grateful the HTC was retained, the changes made 
decreased the overall value of the tax credit. Preservation Action and 
its national members urge Congress to protect the Historic Tax Credit, 
look for opportunities to improve and enhance the program, and continue 
to support the HTC by sufficiently funding SHPOs and the NPS who 
administer the program.
Preservation Partnership Program: National Heritage Areas
    We'd also like to express our support for the Preservation 
Partnership Program which supports National Heritage Areas nationwide. 
Designated by Congress, National Heritage Areas (NHAs) are community-
driven sites that weave cultural, natural, and historic resources 
together to tell nationally significant stories. NHAs rely on public-
private funding where every Federal dollar allocated is matched with an 
average of $5.50 in public and private funds. Preservation Action 
greatly appreciates Congress and this Committee's continued support of 
NHAs, especially considering the program was proposed for significant 
cuts or elimination the last few years.
    We'd also like to thank Congress and this committee for their 
passage of S.47, John D. Dingell, Jr. Conservation, Management, and 
Recreation Act. This bill included several important pieces of 
legislation such permanent reauthorization of the Land and Water 
Conservation Fund (LWCF) and authorization of the HBCU preservation 
program. Additionally, S.47 established 6 new National Heritage Areas.
    While we appreciate the importance shown by recognizing these 6 new 
NHAs, funding has not kept pace. Since 2004 the number of NHAs have 
doubled while funding for the program has only increased by 33 percent.
    To bring funding in line with the increased number of NHAs, 
Preservation Action requests, in accordance with the National Alliance 
of National Heritage Areas, $32 million for National Heritage Areas 
through the Preservation Partnership Program in the fiscal year 2020 
Department of Interior's budget.
Conclusion
    Preservation Action appreciates the opportunity to provide our 
views on the fiscal year 2020 Department of Interior budget. We work 
closely with a broad cross-section of preservation professionals from 
the State and local level and are pleased to be able to add their 
perspective as the Committee considers funding levels.
    Preservation Action continues to value the dedicated work of 
National Park Service employees, the partnership of the Advisory 
Council on Historic Preservation as well as the instrumental work of 
SHPOs and THPOs in preserving America's cultural heritage.
    Thank you for valuing the input of the preservation community as 
you consider the fiscal year 2020 Department of Interior budget. We 
look forward to working with the committee and are happy to answer any 
questions you may have.

    [This statement was submitted by Russ Carnahan, President.]
                                 ______
                                 
     Prepared Statement of the Public Employees for Environmental 
                             Responsibility

February 25, 2019

 
 
 
Sen. Lisa Murkowski                         Sen. Joe Manchin
Chairman                                    Ranking Member
Committee on Energy and Natural Resources   Committee on Energy and
304 Dirksen Senate Building                  Natural Resources
Washington, DC 20510                        306 Hart Senate Office
                                             Building
                                            Washington D.C. 20510
 
Sen. Tom Udall                              Rep. Raul M. Grijalva
Ranking Member                              Chairman
Appropriations Subcommittee on Department   Natural Resources Committee
 of the Interior, Environment, and Related  1324 Longworth House Office
 Agencies                                    Building
531 Hart Senate Office Building             Washington, DC 20515
Washington DC, 20510
 
Rep. Rob Bishop                             Rep. Deb Haaland
Ranking Member                              Chairman
Natural Resources Committee                 Natural Resources
123 Cannon House Office Building             Subcommittee on National
Washington, DC 20515                         Parks, Forests, and Public
                                             Lands
                                            1237 Longworth House Office
                                             Building
                                            Washington, DC 20515
 
Rep. Betty McCollum                         Rep. David Joyce
Chair                                       Ranking Member
Appropriations Subcommittee on Interior,    Appropriations Subcommittee
 Environment, and Related Agencies           on Interior, Environment,
2007 Rayburn House Office Building           and Related Agencies
Washington, DC 20515                        1337 Longworth House Office
                                             Building
                                            Washington, DC 20515
 


Dear Members:

    I am writing you on behalf of Public Employees for Environmental 
Responsibility (PEER) to alert you to unannounced developments within 
the National Park Service (NPS) which, we believe, merit your 
attention. Numerous sources have informed us that NPS is quietly moving 
to reduce the training required of its permanent law enforcement 
rangers.
    We are attaching a report written by retired agency law enforcement 
professionals. It details the steps the NPS is taking steps to abandon 
mandatory attendance by its permanent law enforcement rangers in the 
academy at the Federal Law Enforcement Training Center (FLETC). The 
agency is instead seeking to principally rely on seasonal law 
enforcement training programs independently operated at non-NPS 
facilities, such as community colleges, across the country.
    Congress' charter for the FLETC declared that its purpose is to 
fill ``an urgent need for high-quality, cost-effective training by a 
cadre of professional instructors using modern training facilities and 
standardized course content.'' PEER believes that this NPS move 
undermines this express intent of Congress.
    Significantly, this shift would reverse a nearly 50-year trend 
towards steadily upgrading the training and professionalism in the NPS 
law enforcement ranger corps. As we understand it, the purpose of the 
NPS plan is to reduce training costs by--

  --Compressing a 16-week training regimen into 12 weeks;
  --Forcing rangers to pay for their own basic training. Seasonal 
        academy tuitions range from four to seven thousand dollars, 
        which not all can afford; and
  --Skimping on facilities and equipment. FLETC has a world-class 
        laboratory, driving range, and structures for realistic 
        simulations that seasonal facilities lack. For example, at one 
        school trainees must use their personal vehicles for traffic 
        stops. Others simulate stops with classroom chairs.

    Apart from reduced levels of training, the report raises questions 
about the quality of training offered by these seasonal academies which 
claim to be accredited but--

  --Accreditation addresses standardization of curriculum and does not 
        assure equivalency of training or the student's actual learning 
        experience; and
  --Many instructors are recruited ``ad hoc'' from nearby law 
        enforcement agencies and are frequently unfamiliar with Federal 
        law and/or NPS policies and manual requirements.

    Under this plan, the Park Service would be the only Federal land 
management agency not using FLTEC. Moreover, the U.S. Forest Service, 
Fish & Wildlife Service, and the Bureau of Land Management all train 
their permanent law enforcement personnel at FLETC, typically in 
classes including NPS ranger cadets. Removal of the NPS contingent 
would constrain the training schedules for these other agencies.
    It should be noted that national park rangers have one of the most 
dangerous jobs in Federal service. The challenges facing today's law 
enforcement rangers are increasingly varied and complex, demanding more 
and better training, not less.
    In addition, park ranger ranks have steadily fallen over the past 
decade even as the number of park units and visitation keeps rising. 
Thus, today's rangers are required to handle more cases and cover more 
ground with ever falling force levels.
    This sea-change is taking place behind closed doors without 
consulting affected staff. Nor do we believe that the NPS has informed 
Congress about this move--hence this letter.
    PEER requests that you contact the NPS about this subject and 
request a full briefing on its plans. In addition, we believe that a 
public airing of this plan would be beneficial. Your oversight would be 
most timely if initiated before this stealth downgrade is completed. As 
you know, the National Park Service still lacks a confirmed director. 
PEER maintains that major changes like these should await the arrival 
of permanent leadership.
    Thank you for your attention to this matter. Should you desire any 
additional information please do not hesitate to contact me.

Sincerely,
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Jeff Ruch
Executive Director
                                 ______
                                 
          Prepared Statement of the Puyallup Tribe of Indians
    Thank you for the opportunity to provide written testimony 
concerning the fiscal year 2020 appropriations for American Indian and 
Alaskan Native programs. My name is David Z. Bean, Vice Chairman of the 
Tribal Council for the Puyallup Tribe of Indians. The Puyallup Tribe is 
an independent sovereign nation having historically negotiated with 
several foreign nations, including the United States in the Medicine 
Creek Treaty of 1854. This relationship is rooted in Article I, Section 
8, of the United States Constitution, Federal laws and numerous 
Executive Orders. The governing body of the Puyallup Tribe of Indians 
is the Puyallup Tribal Council which upholds the Tribe's sovereign 
responsibility of self-determination and self-governance for the 
benefit of the 5,427 Puyallup Tribal members and the 25,000 plus 
members from approximately 355 federally recognized Tribes who utilize 
our services. The Puyallup Reservation is located in the urbanized 
Seattle-Tacoma area of the State of Washington. The 18,061-acre 
reservation is a ``checkerboard'' of Tribal lands, Indian-owned fee 
land and non-Indian owned fee land. Our reservation land includes parts 
of six different municipalities (Tacoma, Fife, Milton, Puyallup, 
Edgewood and Federal Way).
    The Puyallup Tribe operates healthcare, social services, law 
enforcement and corrections, education, and myriad other programs and 
services for its Tribal citizens and individuals within its program and 
service areas. These programs depend on continued resources and support 
through Federal appropriations--which reflect the Federal trust and 
treaty obligations with American Indian and Alaska Native people and 
our Tribes. This subcommittee is well aware of how years of 
chronically-inadequate funding for Indian program and the effects of 
inflation have impacted Tribes' ability to fully exercise self-
determination and self-governance. We are certainly feeling those 
effects at the Puyallup Tribe. We therefore appreciate this 
subcommittee's continued rejection of worrying statements and budget 
requests from the administration to reduce or zero-out critical Indian 
programs. We also urge the subcommittee to build on the increases 
included in the recent Consolidated Appropriations Act of 2019 to help 
close the gap between available funding and Tribes' actual needs.
    We also applaud Congress' use of indefinite appropriations for 
contract support costs and support the continued use of this practice.
                           specific concerns
Department of Interior--Bureau of Indian Affairs
    Public Safety & Justice: Tribal and BIA detention and corrections 
funding is of critical importance to the Puyallup Tribe. In fiscal year 
2009, the Puyallup Tribe received a $7.9 million Department of Justice 
ARRA grant to construct a 28-bed adult corrections facility. 
Construction on the facility was completed in February 2014 and came 
online in May 2014. Since then, the Puyallup Tribe has worked closely 
with the BIA-Office of Justice Services National and Regional staff to 
identify the operating and staffing costs associated with the Puyallup 
Tribe's new adult corrections facility. When the Tribe submitted its 
initial Public Law 93-638 contract request to the BIA, the agreed upon 
estimated cost of operating the facility (including Pre-Award, Start-
up, Transitional funding, Staffing, and O&M) was set at $2.6 million 
annually. However, the BIA only offered approximately $715,136 to the 
Tribe in fiscal year 2018 base funding. This represents only 27 percent 
of the Tribe's actual need for running the facility. The Tribe is 
currently in the process of submitting an updated contract request to 
continue with the program, and we expect that the BIA will still only 
pay a small fraction of our actual need.
    In this context, we are concerned with the administration's 
repeated requests to reduce appropriations for BIA Public Safety & 
Justice, including Detention & Corrections--this funding already is not 
sufficient to allow the BIA to fund programs at true need. We 
appreciate the subcommittee's increase of $2.5 million above the fiscal 
year 2018 enacted level for fiscal year 2019, rather than accepting the 
administration's requested cuts, and urge the subcommittee to build on 
this increase in fiscal year 2020. Public safety is especially critical 
in Indian Country, but we also have a duty to provide a safe 
environment for corrections personnel and individuals serving a period 
of incarceration.
    In addition, we operate a Tribal Court program through a Public Law 
93-638 contract with the BIA. Our base BIA funding for this program has 
remained at $194,996 since fiscal year 2015. Like the Detention & 
Corrections funding, this amount represents only a small amount of the 
Tribe's needs to fully operate the Tribal Court program. For fiscal 
year 2019, the Tribe has allocated $1.923 million of Tribal funds for 
the Tribal Court budget. We therefore commend the subcommittee on its 
effort to reject the administration's request to reduce appropriations 
for this important program by $8 million and instead increase it by 
$1.6 million for the fiscal year 2019 appropriations, and suggest that 
the subcommittee continue to support increased appropriations for 
Tribal Courts.
    Natural Resources Management: The Puyallup Tribe is the steward for 
the land and marine waters of our homeland, including our usual and 
accustomed fishing places and shellfish and wildlife areas. The United 
States has treaty, trust, and governmental obligations and 
responsibilities to manage natural resources for uses that are 
beneficial to the Tribal membership and the regional communities. Our 
resource management responsibilities cover thousands of square miles in 
the Puget Sound region of the State of Washington with an obligation to 
manage production of anadromous, non-anadromous fish, shellfish and 
wildlife resources. Unfortunately, despite our diligent program 
efforts, the fisheries resource is degrading, causing economic losses 
on Native and Non-native fishermen, as well as the surrounding 
communities.
    Existing levels of appropriations are simply inadequate to reverse 
the trend of resource/habitat degradation in Puget Sound and in other 
areas. A minimum funding level of $17.146 million is necessary for BIA 
Western Washington (Bolt) Fisheries Management program, and we urge the 
subcommittee to meet or exceed this amount for fiscal year 2020 
appropriations. Any increase in funding would provide new monies for 
shellfish, groundfish, enforcement, habitat, wildlife and other natural 
resource management needs. As the aboriginal owners and guardians of 
our lands and waters it is essential that adequate funding is provided 
to allow Tribes to carry out our inherent stewardship of these 
resources.
    The Puyallup Tribe also continues to operate a several salmon 
hatcheries in the Pacific Northwest/Puget Sound. These hatcheries 
benefit both Indian and non-Indian commercial and sport fisheries. We 
work cooperatively with the Northwest Indian Fisheries Commission, 
neighboring Tribes, Federal agencies and State fishery managers to 
insure the success and sustainability of our hatchery programs. We are 
confident that the subcommittee will continue to reject the 
administration's requests for cuts to the Fish Hatcheries Operations 
and Fish Hatchery Maintenance budgets, and urge the subcommittee to 
fund these programs at or above $10.3 million for fiscal year 2020.
    And finally, the Timber, Fish and Wildlife (TFW) Supplemental and 
U.S./Canada Pacific Salmon Treaty programs have allowed for the 
expansion of Tribal participation in the State forest practice rules 
and regulations, as well as allowed Tribes to participate in inter-
Tribal organizations to address specific treaties and legal cases which 
relate to multi-national fishing rights, harvest allocations, and 
resource management practices. We appreciate the $65 million fiscal 
year 2019 appropriation for Pacific Salmon recovery programs, and 
support continued and additional appropriations to implement the TFW 
Supplemental and Pacifica Salmon Treaty programs.
    Education: The Puyallup Tribe operates the pre-K to 12 Chief Leschi 
Schools which included a verified 2018-2019 School student enrollment 
of 640 + students, including the ECEAP and FACE programs. With an 
increasing number of pre-kindergarten enrollment, Chief Leschi Schools 
will exceed design capacity in the near future and additional education 
facility space will be necessary to provide quality educational 
services to the students and Tribal community. And in the meantime, the 
costs of operation and maintenance--including supplies, energy, 
structural, and student transportation--continue to increase. In fiscal 
year 2018, the Puyallup Tribe provided a $2.6 million subsidy for the 
operations and maintenance of Chief Leschi Schools.
    We are pleased that the subcommittee rejected the administration's 
proposed fiscal year 2019 $741 million budget request for the Bureau of 
Indian Education (BIE), which would have represented a decrease of $173 
million from the fiscal year 2018 enacted level. However, the fiscal 
year 2019 enacted level of $904.5 million will not meet the actual 
operational needs of Tribal education programs.
    The Puyallup Tribe strongly supports additional funding for the 
BIE, including at least $78 million for Tribal Grant Support Costs for 
Tribally Operated Schools; $109 million in facilities operations and 
$76 million in facilities maintenance for the School Facilities 
Account; $73 million for Student Transportation; and $431 million for 
Indian School Equalization Program formula funds.
    The BIA's great failing over the years, to our children's 
detriment, has been its recurring failure to request sufficient funds 
from Congress to maintain Tribally- and BIA-operated school facilities.
    Operations of Indian Programs & Tribal Priority Allocations: We are 
pleased that the subcommittee did not accept the administration's 
request to cut the BIA Operation of Indian Programs budget by $26.5 
million and instead increased the appropriation to $2.414 billion, an 
increase of $3.3 million above the fiscal year 2018 enacted level. This 
funding is critical to the Puyallup Tribe and Tribes across the 
country. Tribal Priority Allocations (TPA) within the Operations of 
Indian Programs include the majority of funding used to support ongoing 
services at the ``local Tribal'' level, including; natural resources 
management, child welfare, other education, housing, and other Tribal 
government services. These functions have not received adequate and 
consistent funding to allow Tribes the resources to fully exercise 
self-determination and self-governance. Further, the small increases 
TPA has received over the past few years have not been adequate to keep 
pace with inflation. The Puyallup Tribe requests that the subcommittee 
increase funding for the Operation of Indian Programs and TPA at levels 
that reflect the increasing fixed costs, as well as inflation, and 
reject any requests to make cuts to the BIA budget.
    Department of Health and Human Services--Indian Health Service: 
Inadequate funding of the Indian Health Service is the most substantial 
impediment to the current Indian Health system. The Puyallup Tribe has 
been operating healthcare programs since 1976 through the Indian Self-
determination Act, Public Law 93-638. The Puyallup Tribal Health 
Authority (PTHA) operates a comprehensive ambulatory care program to 
the Native American population in Pierce County, Washington. The 
current patient load exceeds 9,000, of which approximately 1,700 are 
Tribal members. There are no Indian Health Service hospitals in the 
Portland Area, so all specialties and hospital care have been paid for 
out of our contract care allocation. The Purchased/Referred Care (PRC) 
allocation to PTHA remains inadequate to meet the actual need. In 
fiscal year 2018, the Puyallup Tribe subsidized PRC with a $6.2 million 
contribution. In fiscal year 2019, the Tribal subsidy has grown to 
$10.9 million. Given that the PTHA service population is only comprised 
of 17 percent Puyallup Tribal members, Tribal budget priorities in 
fiscal year 2011 through 2018 has made continued subsidies to the PTHA 
financially difficult for the Puyallup Tribe.
    Given the importance of the PRC allocation, we urge the 
subcommittee to continue providing increased funding above and beyond 
the $2.1 million increase included in the recent fiscal year 2019 
appropriations measure. IHS funding, both PRC and otherwise, continues 
to lag far behind actual need; according to the National Indian Health 
Board (NIHB), IHS funding provides only about 1/5 of the total Tribal 
needs budget of $30 billion.
    As with the BIA and BIE, the IHS also continues to request too few 
funds to operate and maintain Tribally-operated and IHS-operated health 
facilities. In Indian Country, facility space is precious and must be 
maintained if Tribes are to provide essential government services to 
their members and other eligible American Indian and Alaska Native 
beneficiaries.
    The enacted fiscal year 2019 budget of $5.804 billion for the IHS 
is a step in the right direction, and we urge the subcommittee to 
continue on that path.

    [This statement was submitted by David Z. Bean, Vice-Chairman.]
                                 ______
                                 
       Prepared Statement of the Ramah Navajo School Board, Inc.
    Honorable Chairwoman and subcommittee Members, Ya'aht'eeh. I am 
Beverly J. Coho, President of the Ramah Navajo School Board, Inc., On 
behalf of the Ramah Navajo people I would like to thank you for the 
opportunity to provide our oral testimony.
    The People comprising the Ramah Band of Navajos--Tl' ohchini Dine'e 
the People of the Place of Wild Onions--have arrived in the 21st 
century intact, proud and independent. Having overcome a century of 
traumatic history that began with our ancestors perched on the 
precipice of extinction, followed by expropriation by foreign settlers 
of our ancestral lands and then decades of neglect by the institutions 
of Federal and Tribal governments, the Ramah Navajos made their mark in 
the last four decades of the 20th century by taking control of their 
own destiny--beginning with the establishment of the first Indian 
community school governed by an all-Indian, locally-controlled school 
board. The Federal Government recognizes the Ramah Navajo Community as 
a separate group, the Ramah Band of Navajo Indians, which has allowed 
the Community's institutions to apply directly for funding from various 
Federal sources, such as Workforce Development Services and Title IV 
programs. With over 40 years of institutional history, the Ramah Navajo 
School Board, Inc. has developed a unique capacity to administer its 
own programs and--true to its founding vision--to educate its own 
people. The Ramah Navajo School Board, Inc., has become a vital 
organization in providing education, medical, mental and a myriad of 
social and community services needed in western portion of New Mexico 
and by helping us, we help all at less cost and better services.

    In order to continue to provide these vital services we ask 
Congress for the following:

    1.  The Government Shutdown has had a disruptive impact on our 
organization. In order to prevent future harm, we ask that Congress 
provide advance appropriations for the Indian Health Service and Bureau 
of Indian Affairs. There was little impact on our school, because most 
BIE accounts are forwarded funded (on a school year schedule).
    2.  Part of providing these services means having safe, adequate 
and usable facilities. Ours are not. We immediately need temporary 
portables to address the fact that both our kindergarten and library 
had to be closed because of black mold and also to address 
overcrowding--our middle school and high school are currently crammed 
into one building. In addition, dramatically and consistently increased 
funding under the BIA's Education Construction Budget is needed for 
Facilities Improvement and Repair; Replacement School Construction; and 
Replacement Facility Construction. The fiscal year 2019 Indian Affairs 
Budget Justification says there is a $634 million deferred maintenance 
backlog. With regard to school replacement, we understand that the BIA 
is just now finishing construction on the 2004 replacement priority 
list and has made some headway on the 2016 list. This progress is 
possible only because this subcommittee increased Education 
Construction appropriations. More is needed, however. Despite the fact 
that our school and supporting infrastructure are in desperate need of 
substantial repairs, most buildings need outright replacement, and our 
schools drinking water system is long past the end of its useful (and 
safe) lifespan, we did not make it onto either replacement list. Our 
school is unfortunately, like many others in the BIE system that have 
noncompliant access, safety and health issues.
    3.  With the trend of multiple school shootings, we are very 
concerned for the safety of our students and staff. Our campus is 
readily accessible without a security fence. We need to have control of 
who enters our campus.
                       how we serve our community
    Ramah Navajo School Board, Inc., being located in the western 
county of Cibola, has grown to not only provide services to its people, 
but to other non-Native people residing in neighboring counties of 
McKinley and Catron on the western portion of New Mexico. Our lands are 
``checker boarded'' composed of private, State, Tribal, Federal, and 
Individual Indian Allotments. People have been moving into the area and 
require educational and health services. For instance, our Emergency 
Medical Services covers a 100-mile radius and has even responded to 
emergencies in the eastern State line of Arizona. We have worked hard 
in improving our EMS and we currently partnered with the University of 
New Mexico EMS Consortium to provide training and Emergency management 
oversite. This partnership has produced one of our own to become a 
paramedic and we are planning on having our paramedic be certified to 
become a trainer and have an UNM-EMS training center on-site in our 
community to assist five volunteer fire departments and other first 
responders. Our EMS is operating out of our federally qualified health 
center, Pine Hill Health Center (PHHC) which is the only ambulatory 
health center in the western portion of Cibola County. The closest IHS 
hospitals are in the Pueblo of Zuni, 90-mile round trip and in the town 
of Gallup, 120-mile round trip. In our area we have two national parks, 
three tribes, five to six villages and 5-6 volunteer fire departments.
                              our history
    These feisty, determined and independent accomplishments will come 
as no surprise to any serious student of the historical and political 
circumstances confronted by the Ramah Navajo People. Dating from the 
time of the return to their ancestral homelands by the survivors of 
Hweeldi, the Long Walk of the 1860s that had removed hundreds of Navajo 
families from their homes and incarcerated them in the inhospitable 
plains of Bosque Redondo near Ft. Sumner in eastern New Mexico, the 
customary lands of the Ramah Navajos--Tl' ohchini--were never included 
in the lands established for the Navajo Reservation in the Treaty of 
1868 between the United States and the Navajo Tribe. Navajo occupancy 
of the lands to the north and in the vicinity of the current Village of 
Ramah was not legally recognized for many decades, and these lands were 
thus made available as ``open range'' for homesteading by non-Indian 
settlers. Mormon settlers began moving into the valley in 1876, and a 
series of land acquisitions by the settlers--legally recognized under 
American law--effectively pushed the Ramah Navajos onto the less 
fertile lands to the southeast.
                               conclusion
    The Ramah Navajo People have come a long way on the road to self-
determination and to establishing the capacity to govern and educate 
its own people and provide services to three counties in New Mexico. 
There is still a way to go on that road, and the best way to stay the 
course and to continue to make progress is to maintain the current 
institutional relationships that the community has forged with its 
Tribal, Federal and State partners.
    We look forward to your favorable consideration and plan to follow 
up on our testimony that we provided today. With your help, Ramah 
Navajo School Board, Inc., will continue to help all in our area.

Thank you.

    To illustrate how a very modest Federal investment in our critical 
infrastructure could make a tremendous difference in the health and 
well-being of our students, our Priority Projects and Cost Estimates 
follow. These projects are essential and reflect our immediate needs.
Project, Description and Estimated Cost
    1.  School Library Building
          a.  Leaking roof
          b.  Mold abatement

       Estimated Cost of Repair--$850,000

    2.  Kindergarten Building
          a.  Leaking roof
          b.  Mold Remediation
          c.   Asbestos Abatement
          d.  Window replacements
          e.   Bathrooms
          f.   Carpet replacement
          g.  HVAC

       Estimated Cost of Repair--$300,000

    3.  School Gymnasium
          a.  Leaking roof
          b.  Mold abatement
          c.   Insulation replacement
          d.  Floor Damage
          e.   Locker rooms renovation/replacement

       Estimated Cost of Repairs--$1,300,000

    4.  Campus Security
          a.  Perimeter Security Fence
          b.  Interior Security fence
          c.   Entrance Control
          d.  Security Cameras
          e.   Computers
          f.   Telephone

       Estimated Cost--$500,000

    5.  Water System Upgrade
          a.  Preliminary Engineer Report
          b.  Architecture and Engineer Design
          c.   Construction

       Estimated Cost--$4,450,000

TOTAL PRIORITY PROJECT BUDGET--$7,400,000
                                 ______
                                 
              Prepared Statement of the Recording Academy
    My name is Neil Portnow, I am the President/CEO of the Recording 
Academy, an organization that represents thousands of individual music 
creators and professionals--songwriters, performers, studio 
professionals, and others creatively involved in making music. I 
appreciate the opportunity to submit this testimony to the Senate 
Committee on Appropriations Subcommittee on Interior, Environment, and 
Related Agencies. For fiscal year 2020, I urge the subcommittee to fund 
the National Endowment for the Arts (NEA) at $167.5 million. For fiscal 
year 2020, I urge the subcommittee to concur with the recently marked-
up House Appropriations bill and fund the National Endowment for the 
Arts (NEA) at $167.5 million.
    Throughout my tenure at the Recording Academy, it has been a 
privilege to support the NEA and its mission to provide all Americans 
with access to the arts. Every day the NEA enriches our culture and 
empowers our communities through music and art. As appropriators you 
have the power to ensure that the NEA can continue to strengthen the 
creative capacity of our towns, counties and cities--all for less than 
$1 per American per year.
    At a funding level of $167.5 million, the NEA will be able to 
spread diverse opportunities for arts participation across all 50 
States, while expanding its grant-making capacity that has proven to be 
a sound investment. In 2016, NEA funds yielded more than $500 million 
in matching support--leveraging outside funds at a ratio of 9:1. The 
agency is a lynchpin in America's arts economy that now accounts for 
more than $700 billion in economic activity.
    When it comes to music, the NEA is responsible for preserving 
America's rich musical legacy and remains invaluable in the development 
and education of our future music creators. Over the last decade, the 
NEA has supported more than $53 million in music related grants across 
all 50 States. From the Sitka Summer Music Festival in Alaska ($15,000, 
2018) to the Tallahassee Youth Orchestra ($10,000, 2017) in Florida; 
and from the Outpost Performance Space in New Mexico ($25,000, 2018) to 
the Yellow Barn ($10,000, 2018) in Vermont, the NEA has brought music 
to your back yard. It must be funded to ensure that Americans in all 
walks of life can continue to enjoy and participate in the American 
musical experience.
    I urge the subcommittee, and your colleagues in the Senate, to 
fully fund the NEA at $167.5 million, so that the agency can execute 
its mission and enshrine America's commitment to the arts and to music.
                                 ______
                                 
    Prepared Statement of the Regional Air Pollution Control Agency

April 23, 2019

The Honorable Lisa Murkowski, Chair
Subcommittee on Interior, Environment, and Related Agencies
U.S. Senate
Dirksen Office Building, SD-131
Washington, DC 20510

Senator Murkowski:

    This letter is written to express this agency's concern with the 
administration's fiscal year 2020 budget request to Congress which 
calls for steep cuts in funding to EPA, including a 33-percent 
reduction in Federal grants to State and local air pollution control 
agencies under Sections 103 and 105 of the Clean Air Act (CAA), for a 
total of $152 million. Such cuts would be devastating for many 
programs, including to the Regional Air Pollution Control Agency 
(RAPCA) in Dayton, Ohio.
    RAPCA appreciates the work by Congress to avoid budget cuts to 
State and local clean air agencies in fiscal year 2019, however RAPCA 
urges Congress to approve additional funding in fiscal year 2020 to 
carry out our important public health responsibilities.
    Federal grants to State and local air quality agencies are the same 
now as they were 15 years ago in fiscal year 2004--$228 million. If 
adjusted for inflation, level funding would translate to approximately 
$310 million in today's dollars. Therefore, we ask Congress to increase 
State and local air grants by $82 million above fiscal year 2019 levels 
(i.e., approximately $158 million above the administration's request), 
for a total of$310 million.
    RAPCA is part of the Public Health--Dayton and Montgomery County 
organization and is the local air pollution control agency serving 
Clark, Darke, Greene, Miami, Montgomery and Preble counties in 
southwest Ohio. RAPCA is directly funded by U.S. EPA to implement the 
Clean Air Act and we work closely with Ohio EPA to accomplish the 
functions of issuing required air permits, conducting facility 
inspections and monitoring air quality, among other Clean Air Act 
requirements.
    While great strides have been made in cleaning up the environment, 
air pollution remains a serious threat to public health. It causes tens 
of thousands of premature deaths in our country every year, as well as 
tens of millions of cases of adverse health impacts, such as cancer and 
damage to respiratory, cardiovascular, neurological and reproductive 
systems. Under the Clean Air Act, State and local air pollution control 
agencies have the ``primary responsibility'' for preparing 
implementation strategies to address air pollution problems. These 
tasks include, among others, air quality monitoring, planning and 
modeling, compiling air emission inventories, adopting regulations, 
analyzing data, and inspecting facilities. In southwest Ohio, for 
example, we are particularly concerned about ozone pollution and 
assuring compliance of high-profile facilities such as the Stony Hollow 
Landfill and the Fairborn Cement Plant in addition to being responsive 
to industry business needs with regards to assisting facilities with 
obtaining requisite construction air permits. Accordingly, we work with 
the local Multi-Jurisdictional Planning Organization (MPO), the Miami 
Valley Regional Planning Commission to alert the public by issuing 
ozone air pollution advisories when air quality levels are concerning. 
We also perform enhanced inspections and ambient air monitoring of 
high-profile facilities, while continuing to meet ``routine'' Clean Air 
Act requirements.
    There are many challenges facing our agency in meeting the Clean 
Air Act requirements. Reductions in staffing levels and training, as 
well as staff retirements and retention are major obstacles to 
accomplishing our mission to protect public health. Since 2012, RAPCA 
has reduced staff by over 35 percent and additional cuts of the 
magnitude proposed by the administration would devastate our program 
and our ability to protect vulnerable populations from the harmful 
effects of air pollution as well as provide timely services to the 
regulated communities.
    Maintaining the air pollution control program locally provides 
stakeholders in our region with oppmiunities for input to a local 
entity responsible for the air program. RAPCA staff is committed to 
serving the community in which we live and dedicated to being more 
responsive to the requests from the public, the media, the business 
community, and to providing timelier service than the State. RAPCA is 
part of the Dayton region and we seek to improve the quality of life 
for all residents.
    RAPCA is doing its best to improve air quality and provide quality 
services to the regulated community but adequate Federal funding is 
critical. Please help promote public health by ensuring Federal grants 
to State and local air quality agencies are increased to keep pace with 
inflation. RAPCA recommends Congress provide fiscal year 2020 grants in 
the amount of $310 million ($158 million above the administration's 
request) to maintain level funding from fiscal year 2004 levels, 
adjusted to inflation. Thank you for any assistance you can offer in 
this matter.
                                 ______
                                 
 Prepared Statement of Riverside-San Bernardino County Indian Health, 
                                  Inc.
    I am Teresa Sanchez and I am the Board Vice-President for 
Riverside-San Bernardino County Indian Health, Inc., located in 
Southern California. I am also a member of the California Area Tribal 
Advisory Council and a member of the Morongo Band of Mission Indians. 
Thank you for the opportunity to submit written testimony concerning 
the health needs of Native Americans funded through appropriations to 
the Indian Health Service (IHS). The Riverside-San Bernardino County 
Indian Health, Inc., is a Tribal organization that provides health 
services to our member Tribes, including behavioral health, dental, 
diabetes programs, eye care, general medicine, nutrition, outreach and 
pediatrics.
                  increased funding for tribal clinics
    There is a desperate need for increased funding for Tribal clinics 
to keep pace with inflation and population growth. Despite the large 
increases in the overall IHS budget in fiscal year 2018, our Tribal 
organization received no increase above our fiscal year 2017 
allocation. We had anticipated a $1.5 million to $2 million increase 
based on the national IHS budget receiving an overall 9.9 percent 
increase that year, but instead we were flat funded. Even worse, we did 
not find out the final amount we would receive until the last day of 
the fiscal year--after services had been provided and costs had been 
incurred. This situation is untenable if we are going to continue 
providing the same level of services to the over 15,000 patients we 
serve each year. For this reason, we support advance appropriations.
    This problem has been exacerbated by agency decisions to reallocate 
funds that were appropriated to ensure Tribal clinics can keep up with 
the rising costs of medical care. For instance, in fiscal year 2018, 
the Acting IHS Director reallocated $25 million of inflation funding to 
pay for the unfunded costs of new section 105(l) leases. These funds 
should have come to the clinics for base direct services funding. 
Instead, IHS issued a consultation request with only 12 working days to 
respond after the July 4th holiday. That is not meaningful 
consultation. And, to compound matters, IHS did not inform the Tribes 
of its final funding decision until mid-September. Moreover, IHS had 
$33 million of unspent funding in the discretionary CHEF account (more 
on that below), which they could have used to cover this shortfall, but 
instead chose to roll that over into the next fiscal year, leaving 
Tribal clinics coming up short. We raised the lack of transparency at 
the national IHS level with the Acting Director and have received 
unsatisfactory responses.
    We ask that funds be appropriated for general base increases for 
population growth and inflation rather than specific targeted increases 
that the agency considers ``non-recurring'' or that only benefit 
special projects.
 increased purchased/referred care (prc) funding for ``prc dependent'' 
                                 areas
    Four of the 12 Indian Health Services (IHS) Areas are designated 
``PRC dependent,'' meaning they have little or no access to an IHS or 
tribally-operated hospital, and therefore must purchase all or a large 
portion of inpatient and specialty healthcare from non-Tribal providers 
at significantly higher cost.
    Our region, the California Area, has no Tribal hospitals and since 
we receive only limited PRC funding, we often run out of funds well 
before the end of each fiscal year. This leads to the outright denial 
or rationing of critically-needed inpatient and other specialty health 
services. However, the formula used to allocate PRC funding to 
different IHS Areas tends to treat our clinics just like those in the 
remaining eight IHS areas, where PRC dollars are used to supplement 
care provided at nearby IHS hospitals.
    The current IHS PRC allocation formula places the ``PRC Dependent'' 
designation and ability to access care factor in the lowest-priority 
Program Increases category. Since the Base Funding category gets funded 
first, followed by the Annual Adjustment category, and then the Program 
Increases category, the Program Increases category hardly ever receives 
an increase.
    The large appropriations for the Indian Health Care Improvement 
Fund in recent years has failed to change this situation, even though 
eliminating inequities in funding for PRC is a key goal of that Fund. 
See 25 U.S.C Sec. 1621(a)(4). We ask that IHS be directed to address 
access to care issues and prioritize this factor in the PRC formula so 
we no longer have to deny necessary care to our patients due to funding 
shortfalls.
                changing the threshold for chef funding
    For years, Tribal advocates have pushed for lowering the threshold 
to access the Catastrophic Health Emergency Fund (CHEF). This fund pays 
for catastrophic medical costs that rise above $25,000; any bills that 
do not reach that limit are the sole responsibility of Tribal clinics 
using their limited PRC funding. The IHS Acting Director has not moved 
forward on the recommendation to reduce the threshold from $25,000 to 
$19,000, which would provide some relief to Tribal PRC budgets, even 
though the issue has gone out for comments twice in the Federal 
Register.
    The Acting IHS Director justified his actions by stating that in 
order to change the threshold, the agency must consider an inflation 
factor and with the inflation factor they were using, it would take 10 
years to catch up to the existing threshold of $25,000, leaving access 
to the funds limited by Tribal clinics in the meantime. However, Tribal 
representatives pointed out that a great deal could change over the 
next 10 years and the program had a $33,000,000 surplus for fiscal year 
2018, so there is no reason to starve Tribal programs that in turn have 
to cut services or deny care entirely due to a lack of funding. We ask 
that you instruct the agency to lower the CHEF threshold.
    We thank you for your time and consideration.

    [This statement was submitted by Teresa Sanchez, Board Vice-
President.]
                                 ______
                                 
              Prepared Statement of the Sac and Fox Nation
    On behalf of the Sac and Fox Nation, thank you for the opportunity 
to present our requests for the fiscal year 2020 Budgets for the Bureau 
of Indian Affairs (BIA), the Indian Health Service (IHS), and for the 
Environmental Protection Agency (EPA). The Sac and Fox Nation has 
participated in Self-Governance within the Department of the Interior 
since 1991, and in 1993, became the very first Tribe to enter into a 
Self-Governance compact with Indian Health Service. Historically, the 
Indian Affairs budget requests have given very little consideration to 
the funding needs of Self-Governance Tribes. Although efforts had been 
underway to change that, the current administration removed Tribal 
unmet needs from budget consideration. Self-Governance Tribes are 
operating Federal programs; we request that the BIA be required to 
include documentation of Tribal unmet needs with all budget requests. 
We further request the removal of appropriations language that 
prohibits Tribal access to shares of the BIA Central Office as provided 
for in the Indian Self-Determination Education Assistance Act. The Sac 
and Fox Nation requests advance, mandatory appropriations for Tribal 
programs, especially BIA and IHS line items. The recent extended 
shutdown of the Federal Government placed an unnecessary financial 
burden on Tribes at the local level where services are actually 
provided and most needed. At a minimum, BIA and IHS funding for Tribal 
programs should be exempt from any budget rescissions, sequestrations 
and unilateral budget reductions that are not equally assessed to all 
other funding beneficiaries.
Tribal Specific Requests:
    A.  +$35,000 increase to our Tribal General Assistance Program 
(GAP)--EPA--The GAP program the Sac and Fox Nation is currently 
administering is $115,000.
    B.  +$20,000 increase to our solid waste and recycling funding
    C.  +$35,000--EPA--The country's largest system of pipeline 
infrastructure (the ``Pipeline Crossroads of the World'' in Cushing OK) 
is in Sac and Fox jurisdiction and we need funding to monitor our 
natural resources and ensure the safety of our citizens.
    D.  $4.95 million to Fully Fund Operations and Maintenance of the 
Sac and Fox Nation Juvenile Detention Center (SFNJDC)--Public Safety 
and Justice--Office of Justice Services--Detention/Corrections Facility 
Operations and Maintenance Account--BIA
    E.  +$120,000 recurring funding increase specifically for Tribal 
Court to fund one (1) additional FTE and additional court dates to 
cover the increased caseload from expansion of VAWA and TLOA 
authorities.
    F.  +$180,000 recurring funding increase for Indian Child Welfare 
to fund additional licensed social workers due to dramatically 
increased caseload.
Tribal Specific Requests
    A.  +$35,000 to our Tribal General Assistance Program (GAP)--EPA
          We request a $35,000 increase to support sufficient staff 
(1.5-2 FTEs) and to meet the needs of the community. The demand for our 
Office of Environmental Services has dramatically escalated and created 
a shortage of available resources to meet the demand. Base should be at 
least $175,000. The program's purpose is to assist Tribes in building 
capacity to assume EPA responsibilities. The funding needs to be 
provided as stable base funding, complete with CSC, through the 
Nation's funding agreement instead of as a grant.
    B.  +$20,000 increase to fund solid waste and recycling--EPA
          In May of 2013, the EPA released the GAP Guidance, to help 
set a national framework for how GAP funding may be used. Included was 
the directive that GAP funds could no longer be spent on the operation 
and maintenance of solid waste implementation activities. EPA required 
that Tribes build self-sustaining solid waste programs supported by 
other funding sources by 2017. Tribal leaders expressed concern that 
the 2017 deadline would be too quick to transition to an alternative 
model to fund solid waste management. No other funding sources were set 
in place of GAP to cover the services that Tribes had been providing 
for their communities since 2002. In the fiscal year 2016 Consolidated 
Appropriations Act, an extension was granted, giving Tribes until 2020 
to transition to different funding sources for their solid waste 
operations and backhaul. Beginning in fiscal year 2021, Tribal solid 
waste programs will no longer be able to use GAP funds for these 
specific efforts. Sac and Fox Nation supported the lifting of the 2020 
moratorium, so we would no longer be prohibited from using GAP funding 
to support solid waste programs. However, after the moratorium was 
lifted, the budget was then cut by $10,000.00. There still remains a 
lack of adequate funding for our solid waste and recycling program.
    C.  $35,000--Pipeline Crossroads of the World--Located in the Sac 
and Fox jurisdiction--funding needed to ensure that we can monitor our 
natural resources and ensure the safety of our citizens.
          The environmental impacts to our community can be significant 
and life threatening. We have been collaborating with the private 
pipeline entities in the area; we are the best party to monitor our 
natural resources. Adequate funding will allow us to do this and remove 
barriers to economic development while ensuring safety of our citizens 
and preservation of our land.
    D.  $4.95 million to Fully Fund Operations and Maintenance of the 
Sac and Fox Nation Juvenile Detention Center (SFNJDC)--Bureau of Indian 
Affairs--Public Safety and Justice--Office of Justice Services--
Detention/Corrections Facility Operations and Maintenance Account
          In 1996, the Sac and Fox Nation Juvenile Detention Center 
(SFNJDC) opened its doors as the first regional juvenile facility 
specifically designed for American Indians/Alaska Natives (AI/AN), as 
well as the first juvenile facility developed under Public Law 100-472, 
the Self-Governance Demonstration Project Act. At that time, the BIA 
made a commitment to fully fund the SFNJDC operations; however, this 
commitment was never fulfilled. Even though the Nation continues to 
receive and use Federal dollars to address the issue of juvenile 
delinquency and detention for Tribes in the Southern Plains Region and 
Eastern Oklahoma Region, it has never received sufficient funds to 
operate the facility at its fullest potential, including funds for 
proper facility maintenance. We do not understand the Federal 
Government's desire to fund the construction of more detention 
facilities while our beds remain empty.
          The SFNJDC is a 50,000+ square foot, full service, 24 hour, 
60 bed (expandable to 120 beds) juvenile detention facility that 
provides basic detention services, utilizing a classification system 
based on behavioral needs to include special management, medium and 
minimal security. Through a partnership with the local high school, 
students are afforded an education. Additionally, the Sac and Fox 
Nation has an on-site Justice Center providing Law Enforcement and 
Tribal Court services and the Nation also operates an on-site health 
clinic which provides outstanding medical services that include 
contract service capabilities for optometry, dental and other health-
related services.
          Full funding would allow the Nation to provide full 
operations including (but not limited to):

        -- Juvenile placement and detention services at no cost to the 
        46 Tribes in Oklahoma, Kansas, Texas, Louisiana, Missouri and 
        Arkansas.
        -- Re-establish and fully fund programs we have lost such as: 
        On-site Mental Health Counseling; Transitional Living, 
        Vocational Training, Horticulture, Life Skills, Arts and 
        Crafts, Cultural Education and Activities, Spiritual Growth and 
        Learning;
        -- Maintain and expand staff training to improve retention and 
        allow for continuity in operations and service delivery.

          Inadequate funding and decreases in base funding have 
resulted in underutilization and erosion of the programs our facility 
was built to offer. The current funding level represents only 
approximately 10 percent of what is needed to fully fund the SFNJDC 
operations and maintenance. Additional funding in the amount of $4.6 
million, over what Sac and Fox already receives in base funding 
($354,622), would fully fund the facility at a level sufficient to 
address the juvenile placement and detention needs in the six-State 
area.
    E.  $120,000 recurring funding increase for Tribal Court Expanded 
authorities under VAWA and TLOA have dramatically increased the 
Nation's Court case workload. The Nation requests a recurring funding 
increase to cover the expense of one (1) new FTE at the Tribal Court 
and the expense of additional monthly court dates to meet demand.
    F.  $180,000 recurring funding increase for Indian Child Welfare
          The Nation's current caseload involves over 100 children for 
two (2) social workers. The recommended number of cases per social 
worker is 17, whereas ours is 50+. The requested funding increase would 
allow the hiring of additional social workers at competitive pay and 
also decrease the individual workload, thereby increasing the quality 
of services.
2. NATIONAL REQUESTS--BUREAU OF INDIAN AFFAIRS
    A.  Concern: lack of access to administrative law judges for 
probate.
    B.  Fully fund all provisions of the TLOA that authorizes 
additional funding for law and order programs that affect Tribal 
Nations.
    C.  Allocate $83 million in additional funding to the BIA to 
increase base funding for Tribal courts, including courts in Public Law 
280 jurisdictions, and to incrementally move towards fully meeting the 
need for Tribal court funding.
    D.  Increase funding for Bureau of Indian Affairs (BIA) law 
enforcement and detention by at least $200 million over the fiscal year 
2017 funding level of $353 million, including an increase in funds for 
officer recruitment and training and for Tribal detention facilities 
operations and maintenance.
    E.  Increase Tribal Base Funding (instead of through grants). 
Provide increases via Tribal base funding instead of through grants to 
Tribal governments. Grant funding, particularly inside the BIA, is not 
consistent with the intent of Tribal self-determination.
3. NATIONAL REQUESTS--INDIAN HEALTH SERVICE
    A.  $6.4 billion Mandatory Funding (maintain current services) a 26 
percent increase over the fiscal year 2017 enacted amount. IHS should 
be considered an essential function, and be exempt from government 
shutdowns.
    B.  Opioid Funding--Increase funding and include Tribal set asides 
in any funding decisions to states. Addressing the opioid epidemic is a 
nationwide priority. American Indians and Alaska Natives (AI/AN) face 
opioid related fatalities three times the rate for Blacks and Hispanic 
Whites.
    C.  Oppose moving Special Diabetes Program for Indians (SDPI) into 
the discretionary spending from the mandatory account.
    The Sac and Fox Nation supports the National Requests of the 
National Congress of American Indians, the National Indian Health Board 
and the National Indian Education Association. Thank you for allowing 
me to submit these requests on the fiscal year 2020 Budgets.

    [This statement was submitted by the Honorable Kay Rhoads, 
Principal Chief.]
                                 ______
                                 
  Prepared Statement of the Shenandoah Valley Battlefields Foundation
Madam Chair Murkowski & Ranking Member Udall:

    The attached statement is respectfully submitted on behalf of the 
Shenandoah Valley Battlefields Foundation urging the subcommittee to 
include fiscal year 2020 report language advising the National Park 
Service that the agency has mistakenly classified the National Historic 
District as a ``National Heritage Area'' contrary to the clear 
congressional intent.
    Title VI of Public Law 104-333 established the Shenandoah Valley 
Battlefields National Historic District with the explicit intent of 
creating a first-of-its kind public-private partnership for protection 
and management of nationally significant cultural heritage landscapes, 
referred to in the statute as a new ``management entity'', instead of 
authorizing the National Park Service to acquire and manage the lands 
in all of the Valley battlefields, as would have been the traditional 
approach.
    This new management entity is the Shenandoah Valley Battlefields 
Foundation (SVBF).
    Section 606 (j) of Public Law 104-333 includes authorization of 3 
separate line-items of funding for the programs and activities of the 
``management entity''--the Foundation:

  --Not more than $2 million annually for grants and technical 
        assistance,
  --not more than $2 million annually for land acquisition, and
  --to the management entity not more than $500,000 annually.

    As stated in the 2019 House Department of Interior, Environment & 
Related Agencies Appropriations Bill at https://www.congress.gov/115/
crpt/hrpt765/CRPT-115hrpt765.pdf.
    ``Shenandoah Valley Battlefields National Historic District.--The 
Committee recognizes the Shenandoah Valley Battlefields National 
Historic District covering eight counties in the Commonwealth of 
Virginia, and the Shenandoah Valley Battlefields Foundation that 
manages and protects it, as a unique model for the protection and 
preservation of nationally significant sites. The Committee urges the 
National Park Service to work with the District and the authorizing 
committees of jurisdiction to ensure that authorities provided under 
the District's enabling legislation are fully utilized to maximize the 
effectiveness of this unique and proven public-private partnership.''
    The National Park Service, in our view, has mistakenly classified 
SVBF, both our programs and funding, as a national heritage area (NHA) 
and has only sought funding in the President's budget for SVBF as a 
discretionary allocation from the lump-sum line-item appropriated to 
support all of the NHA programs.
    54 USC Ch. 3201 clearly classifies the Shenandoah Valley 
Battlefields National Historic District as a National Battlefield Site 
and NOT as a National Heritage Area. http://uscode.house.gov/
view.xhtml?req=granuleid%3AUSC-prelim-title54-
chapter3201&edition=prelim
    We believe SVBF should have a distinct line-item appropriation as 
do the other listed National Battlefield Sites and be increased towards 
the level of funding that Congress intended to provide. We hope that 
both Congress and the administration would recognize that for this 
unique model to be successful and to affirm the authorization of this 
``better way'' to conserve and manage nationally significant heritage 
landscapes for the future through public-private partnerships, the 
funding levels that Congress intended are essential.
    By every measure the Foundation has been a success. Over 8,000 
acres have been preserved throughout the Shenandoah Valley. The 
Foundation manages over 5,000 of those acres; has developed and manages 
battlefield parks; is constructing a visitor's center in Winchester and 
operates the Shenandoah Valley Civil War Museum. The Foundation 
provides renowned conferences tours and interpretive programs; 
routinely engages community and youth groups; generate hundreds of 
thousands of dollars in private donations and has increased tourism in 
a measurably significant way throughout the historic district.
What is important about the programs of SVBF?
    Preserving Our Battlefields Preserves Our Nation's Story.--The 
preservation and interpretation of our Nation's Civil War Battlefields 
is increasingly more important. These protected lands serve as outdoor 
classrooms where generations can gather together and draw meaning, 
strength, and inspiration from our past. Continual national reflection 
and introspection is essential for the future of our country. Our 
battlefields provide us with a tangible link to our history of 
sacrifice and struggle and give us the forum to discuss ideas and 
ideals. The preservation of our Civil War battlefields is more about 
our future than our past--ensuring that the memory of that conflict is 
never forgotten, and the lessons never lost.
    These preservation efforts also result in many environmental 
outdoor recreation benefits. Improvement of water quality, protection 
of rural agricultural landscapes, and development of historic walking 
trails all benefit the American citizens.
What is unique about SVBF?
    The Shenandoah Valley Battlefields National Historic District was 
established by Congress in 1996 as an idea ahead of its time--an idea 
whose time has come. The District was established as a public private 
partnership--a Federal entity to be managed in perpetuity by a private 
non-profit organization, the Shenandoah Valley Battlefields Foundation.
    The genius of this model is that it combined the mission and 
operational directives of traditional units of the National Park System 
with the efficiency and effectiveness of the private sector. This 
allowed for the building of more robust partnerships; the generation of 
millions of dollars in private funding; quick reaction to preservation 
opportunities; and business systems that allow for lean and cost-
effective operation. Unlike National Heritage Areas, the Shenandoah 
Valley Battlefields National Historic District was tasked with 
purchasing and protecting in perpetuity large swaths of open space and 
historic sites. In addition to promoting and generating heritage 
tourism like traditional National Heritage Areas, the District was 
created to provide directly for the experience of visitors--more like a 
National Park. Trails, interpretive signage, and visitor centers along 
with original educational programing and partner support were all 
envisioned as part of District's unique model.
    It's a model that's worked at a fraction of the cost to the Federal 
Government when compared to more traditional NPS approaches to 
battlefield management and interpretation.
Accomplishments on behalf of the American people:
    The Shenandoah Valley Battlefields Foundation has facilitated the 
preservation of over 8,000 acres of Civil War Battlefields and today 
manages over 5,200 acres. The SVBF has installed and maintained over 10 
miles of interpretive and recreational trails; designed and installed a 
district-wide system of historic markers; produced visitor's guides; 
driving tours and wayfinding aids; published original histories and 
interpretive booklets; and provided educational programing to youth and 
adults alike. The lands managed by the SVBF have provided outdoor 
recreation opportunities for visitors and local residents and have been 
maintained with as much concern for the natural resources that they 
contain as the historic resources they protect.
    The SVBF has opened six visitor orientation centers, one 
battlefield visitor center, and a museum; preserved collections of 
artifacts, rare books, letters, documents and furnishings; and opened 
Battlefield parks, restoring much of their 19th century appearance with 
historic fencing, cannon and vegetation. The SVBF interprets and 
provides visitor services at 20 Civil War battlefields and hundreds of 
related historic sites throughout the Valley, including major sites at 
McDowell, Cross Keys, Fisher's Hill, Cedar Creek, and Second 
Winchester, the 600-acre Third Winchester Battlefield Park and Third 
Winchester Visitor Center, five interpretive trails, and the Shenandoah 
Valley Civil War Museum.
    Interpretive programs include conferences, tours, major events, 
interpretive markers, driving tours, booklets, films, panels, signage, 
and exhibits. SVBF education and outreach programs serve pre-K through 
college age youths with on-site, interactive, and in-school 
initiatives, printed and web-based resources, and support for home 
school programs and school systems throughout the District.
What is the economic impact of the National Historic District?
    The Valley's numerous battlefields and related historic sites are 
major heritage tourism attractions. The consulting firm of Tripp Umbach 
was recently retained by the Heritage Development Partnership to 
measure the economic, employment, and government revenue impacts of 
operations and research of 5 national heritage areas including the 
Shenandoah Valley Battlefields National Historic District. Tripp Umbach 
stated our historic district generates $293.2 million in economic 
impact, supports 3,930 jobs and generates $20.4 million in tax revenue. 
These numbers will only go up with the projects planned for the future.
    Our outstanding work on behalf of the Congress of the United States 
has resulted in achieving the aims of the Congress at reduced cost from 
NPS sites and even more can be accomplished such as:
    Preservation.--Preserving additional battlefield property through 
fee simple acquisition or donated easements. Any Federal money expended 
through the American Battlefield Protection Program is leveraged by 
State matching funds and private donations.
    Stewardship.--Employing the highest and best standards for the 
treatment of historic and natural landscapes; protecting resources 
while providing for the enjoyment thereof through greater public 
access.
    Heritage Tourism.--Enhancement of existing or creation of 
additional battlefield parks throughout the valley. These battlefield 
parks are beacons for tourism and history education; often used heavily 
by the local population for outdoor recreation.
    Interpretation.--Meaningful upgrades to the District's 
interpretation including new exhibits that highlight not only military 
history but also the war-time experience of women, children and free 
and enslaved African-Americans; and new virtual and augmented reality 
programs, an electric map and hands-on exhibits.

    [This statement was submitted by Keven Walker, CEO.]
                                 ______
                                 
         Prepared Statement of the Shoalwater Bay Indian Tribe
    The requests of the Shoalwater Bay Indian Tribe (Tribe) for the 
fiscal year 2020 Interior, Environment, and Related Agencies budget are 
as follows:

  --Support appropriation of funds through the Tribe's self-government 
        agreement with the BIA to address additional planning efforts 
        for a necessary Tribal relocation.
  --Continue full funding for Contract Support Costs (CSC).
  --Maintain adequate funding for Section 105(l) Clinic Leases
  --Fund IHS in advance in parity with the Veterans Administration
  --Maintain mandatory funding for the Special Diabetes Program for 
        Indians (SDPI)
                               background
    Thank you for inviting the Shoalwater Bay Indian Tribe to provide 
testimony today. My name is Charlene Nelson, and I am the Chairwoman of 
the Shoalwater Bay Indian Tribe which is located 2,800 miles west by 
northwest of where we are meeting today on the beautiful north shore of 
Willapa Bay, facing out to the Pacific Ocean. As the Chairwoman of the 
Tribe, and in my former career as an educator and commercial fisherman, 
I have learned firsthand that vibrant and successful Indian communities 
are not possible without first attending to human health of the 
community members and also ensuring the health of the environment. I 
appreciate that this Committee is also responsible for those same 
priorities, and it is in that shared spirit of community responsibility 
that I speak to you today.
                         relocation assistance
    My first priority today is to ask you to ensure that BIA planning 
and assistance funds are available for our critical and ongoing fight 
to protect our Tribe against the imminent danger of coastal erosion and 
tsunami inundation, which could wipe out our entire reservation. Our 
reservation, with one small exception, is no higher than 6 feet above 
the ordinary high water mark of the Willapa Bay tides, and this low 
elevation places the entire reservation squarely within a tsunami zone. 
Think about that for a moment-an entire Tribe wiped out in an instant. 
This danger is aggravated by climate change which is increasing sea 
levels and the intensity of extreme weather events that, in addition to 
tsunami danger, threaten our coastal community.
    One way that we are addressing this immediate threat is through the 
construction of a 50-foot tsunami evacuation tower using funds from 
FEMA and the Tribe that is designed to allow our Tribal members and 
other local residents to survive a tsunami event. However, this project 
will only protect the lives of those that are able to reach it in time, 
and will not prevent the flooding of our homes, schools, roads and 
infrastructure.
    That is why the Tribe is continuing its efforts to permanently 
relocate to higher elevation land that the Tribe already owns. The 
Tribe seeks funds to continue the engineering, planning and 
construction of a road to an upland elevation, out of the tsunami zone, 
and to begin the relocation process of the Tribe. The costs to carry 
out this next phase of work are very high, and the Tribe seeks this 
subcommittee's support in ensuring funds are available to support these 
efforts through the Tribe's existing BIA self-governance compact. The 
new road will provide access to a higher elevation land base that is 
safe from the threats of coastal erosion and tsunami. This relocation 
project will require a number of partners that have a stake in ensuring 
the safety of the Tribe: the Tribe, Washington State, Department of 
Interior and the Army Corps of Engineers.
    While our request today is for planning and implementation funds 
for the Tribe from the BIA, other temporary efforts are under serious 
consideration. For instance, realizing how dire she situation is, the 
State and Corps of Engineers are working together to define a joint 
project for a dynamic revetment to help protect the berm to prevent 
further erosion and encroachment of water on our reservation lands. 
However, the Tribe also needs its own resources to be actively involved 
in what ultimately is our own relocation.
    We appreciate that the 2019 House Interior Appropriations report 
specifically highlights the needs of coastal Tribes and gave the 
following direction: ``The Committee supports the Bureau of Indian 
Affairs' efforts to address the needs of coastal Tribal communities by 
working to address threats to public safety, natural resources, and 
sacred sites. Consistent with the Federal Government's treaty and trust 
obligations, the Committee directs the Bureau of Indian Affairs to work 
with at-risk Tribes to identify and expedite the necessary resources.'' 
We ask the subcommittee to follow-up with the BIA on this directive.
                        contract supports costs
    We greatly appreciate the House and Senate Interior appropriations 
subcommittees work over the past several years in making a reality the 
full payment of Contract Support Costs (CSC) by both the IHS and the 
BIA. We are also very pleased that the administration has continued to 
request that CSC be maintained as a separate appropriations account in 
IHS and in BIA, and with an indefinite funding of ``such sums as may be 
necessary''. This action has been crucial to the strengthening of 
Tribal governments' ability to successfully exercise their rights and 
responsibilities as sovereign governments.
                      section 105(l) clinic leases
    We are gratified that IHS has been funding Section 105(l) leases 
for tribal health clinics under its responsibility as confirmed by the 
2016 Federal court decision in Maniilaq v. Burwell, which held that 
section 105(l) of the ISDEAA provides an entitlement to full 
compensation for leases of Tribal facilities used to carry out ISDEAA 
agreements. We appreciate your supplemental appropriations in fiscal 
year 2019 to cover these costs, and we ask that funding continue to be 
made available for these important leases. This Committee has invited 
IHS to submit a report on the budget impact of meeting its 
responsibility. We oppose any appropriations rider, such as those 
included in the administration's budget proposals for fiscal year 2018 
and fiscal year 2019, which would allow IHS to avoid its responsibility 
to fully compensate Tribes. Tribes and Tribal organizations 
increasingly rely on section 105(l) leases to address chronically 
underfunded facilities operation, maintenance, and replacement costs. 
Congress declined to include such a provision in the fiscal year 2019 
IHS appropriation and we ask that you treat this year's upcoming 
proposal the same way.
                       ihs advance appropriations
    We thank Ranking Member Udall. Representative Don Young, and House 
Interior Appropriations Chair McCollum and Ranking Member Joyce for 
introducing legislation to authorize advance appropriations for IHS and 
programs in the BIA and BIE. Under advance appropriations we would know 
a year in advance what the budget would be and importantly, would not 
be continue to be constrained by the start and stop level funding of 
Continuing Resolutions, each of which requires the same processing and 
manpower for each partial payment as one full apportionment. When IHS 
funding is subject to a Continuing Resolution, we receive only a 
portion of annual funding at a time, making it particularly difficult 
to implement long-range planning and staffing. Even if CRs had not 
become the norm, having advance notice of funding levels would aid 
greatly in our health programs planning, recruitment, retention, and 
leveraging of funds. Finally, we note again that the Veterans 
Administration health accounts have been receiving advance 
appropriations since fiscal year 2010. Both the VA and the IHS provide 
direct medical care and both are the result of Federal policies. The 
IHS budget should be afforded the same status as the VA.
              special diabetes program for indians (sdpi)
    Last year, the administration proposed, with no real explanation of 
why, that a number of health programs funding be changed from a 
mandatory to a discretionary status. Among them was the SDPI program. 
Congress rejected this proposal and we thank you for that. We are 
relieved that the fiscal year 2020 budget does not repeat this request. 
We were concerned that discretionary funding could lead to a reduction 
in funding for this critical program which has demonstrated good 
results in Indian Country. The current SDPI authorization extends 
through fiscal year 2019 and we hope that the authorization can be made 
permanent and at an increased funding level of $200 million or higher. 
A permanent reauthorization with mandatory annual funding of $200 
million would allow us to recruit and retain personnel to deliver 
badly-needed services to more of our members.
                               conclusion
    Thank you for your consideration of the concerns and requests of 
the Shoalwater Bay Indian Tribe. I would be happy to provide any other 
additional information as requested by the subcommittee.

    [This statement was submitted by Charlene Nelson, Tribal 
Chairwoman.]
                                 ______
                                 
  Prepared Statement of the Shoshone-Paiute Tribes of the Duck Valley 
                           Indian Reservation
    The Shoshone-Paiute Tribes of the Duck Valley Indian Reservation 
appreciate the opportunity to submit written testimony concerning the 
fiscal year 2020 budget for the BLM, BIA, and IHS. The Shoshone-Paiute 
Tribes are grateful for this subcommittee's long standing support of 
Indian Tribes and for sharing its understanding of Indian Country with 
your Senate colleagues.
    As Congress has done for fiscal year 2019, and for each year of the 
current administration, we ask that the subcommittee reject the 
administration's ill-conceived fiscal year 2020 budget, which calls for 
unwarranted reductions of 14 percent for the Department of the Interior 
and the programs critical to Tribes in the Office of Indian Programs 
(OIP). If enacted the budget would cause great harm to the Duck Valley 
Indian Reservation and to most Native Americans who, more than most 
Americans, rely heavily on Federal appropriations across multiple 
Federal agencies, not just Interior and DHHS. We encourage this 
subcommittee to build on the increases in the fiscal year 2019 
appropriation for these essential Tribal programs.
    The Duck Valley Reservation is a large, rural and very remote 
reservation comprising 450 square miles located on the Nevada and Idaho 
border. The Reservation is 140 miles south of Boise, Idaho, and 100 
miles north of Elko, Nevada. Many of our 2,500 Tribal members make 
their living as farmers and ranchers, though a number of them are 
employed by the Tribes. We assume most duties of the BIA and IHS under 
self-governance compacts, although the BIA continues to provide law 
enforcement, detention and road maintenance services on our 
Reservation.
    In too many instances, however, our success in program delivery is 
largely dependent on Federal appropriations which, in turn, determine 
whether economic and social conditions on the Duck Valley Indian 
Reservation improve or worsen. While we contribute Tribal resources to 
these endeavors as best we can, we look to our Federal partner for 
support. If we fall short in available funding, our Tribal citizens 
suffer. For that reason, I write to express our Tribes' strong 
opposition to the President's fiscal year 2020 budget for BIA, IHS, BLM 
and the other programs funded under the Interior, Environment and 
Related Agencies appropriations that face deep cuts. Our priorities for 
fiscal year 2020 include:
    1. Increase funding for the BIA Public Safety and Special 
Initiatives Program.--The BIA struggles to provide adequate law 
enforcement on our 450 square mile Reservation. For that reason, we 
applaud the fiscal year 2019 enacted appropriations levels for Public 
Safety and Justice totaling $411 million, and urge the Committee to 
support sensible increases next year. We reject the administration's 
unwise proposed cuts to BIA Public Safety funding. We have seen in 
increase in alcohol and substance abuse and resulting juvenile 
delinquency on our Reservation. The BIA Western Region has reduced the 
BIA Law Enforcement Officers serving Duck Valley from eight to three 
full-time officers. This leaves us short staffed, especially after 
hours. We request an increase of funding to BIA Criminal Investigations 
and Police Services to restore our police department to appropriate 
levels. The BIA Construction budget for fiscal year 2020 is also 
insufficient to address the pressing need for modern detention 
facilities and housing for law enforcement and detention personnel.
    We are also witnessing an increase in alcohol and substance abuse 
on our reservation, and resulting juvenile delinquency.
    We renew our request for statutory language in the fiscal year 2020 
appropriation to make clear that ``Law Enforcement Special 
Initiatives'' funds may be used for the purchase or lease temporary 
trailers or modular units to house personnel associated with law 
enforcement, corrections, probation, Tribal courts and other 
professionals serving Tribal communities. For rural communities like 
Duck Valley, housing is often the linchpin to program success. This 
request will give us the flexibility we need to use Special Initiatives 
funding for housing law enforcement and corrections personnel.
    2. Increase BIA Road Maintenance Program funds (Eastern Nevada BIA 
Roads Program of the Western Regional Office).--We respectfully ask for 
at least a $10 million increase in the BIA Road Maintenance Program for 
fiscal year 2020 so that the BIA Eastern Nevada Agency Roads Department 
can purchase a road grader, backhoe, a front-end loader, a D7 
Caterpillar dozer, ten-wheel dump truck and other heavy equipment. We 
appreciate the fiscal year 2019 increase, but it alone will not provide 
sufficient funds to replace obsolete heavy equipment required for 
maintenance. It has been over 25 years since BIA sought supplemental 
funds for one-time heavy equipment purchases for road maintenance. The 
1980's blade road grader and backhoe are broken down and parts are 
difficult to find. The dozer is a 1960's model, and the front-end 
loader and backhoe are from the 1970's.
    Our Region, the BIA Western Region, has the largest percentage of 
BIA-owned roads at 21 percent. The BIA Eastern Nevada Agency covers the 
roads maintenance need for the 600 miles of public roads on the Duck 
Valley Reservation and the road maintenance needs on five other 
reservations which are hundreds of mile apart throughout northeastern 
Nevada. The requested increase we request will help our Region 
tremendously. Road maintenance allows fire trucks and equipment to 
access fires that occur in the mountains and desert areas of the Duck 
Valley Reservation, thereby protecting reservation lands and property.
    3. Telecommunications (fiber optics).--The Tribes continue to need 
fiber infrastructure over 5 miles for connectivity among Fish, Wildlife 
& Parks, Tribal Headquarters, Detention Center, Fire Station and the 
Owyhee Community Health Facility. The health center serves as the Wide 
Area Network (WAN) hub for the Tribes' and health center's computer 
network. Connectivity among these facilities and programs would 
alleviate the long-term monthly recurring cost we pay to an Ethernet 
Circuit provider ($96,000 annually). We require $500,000 in Federal 
funding to construct new fiber networks and cover construction 
inspection fees. We urge the subcommittee to increase appropriations 
within the BIA and IHS budgets so that Duck Valley can improve our 
telecommunications networks. Education IT is not the only program in 
need of an upgrade.
    4. IHS.--The Tribes appreciate the $266 million increase Congress 
provided for fiscal year 2019 for the Indian Health Service (IHS), 
above the fiscal year 2018 level. We seek fiscal year 2020 increases, 
especially in the area of clinical services, including Purchased/
Referred Care and facilities construction. The Tribes continue to 
support full funding of Contract Support Costs (CSCs) for IHS and BIA, 
and thank the subcommittee for its work to fully fund these costs 
without jeopardizing program funding for health services. Our members, 
like other Native Americans, continue to have a disproportionate 
disease burden greater than other Americans. We encourage the 
Subcommittee to continue its bipartisan efforts to raise the health 
status of Native Americans.
    5. Fund the Owyhee Initiative within the Bureau of Land Management 
(BLM).--The Owyhee Initiative is a joint effort by ranchers, 
recreationalists, county and State officials, and the Shoshone-Paiute 
Tribes to protect known Tribal sacred sites, and to manage and 
appropriately use public lands in southwestern Idaho. In 2009, Congress 
passed the Omnibus Public Land Management Act, Public Law 111-11. Since 
2010, we have worked jointly with BLM to protect cultural resources and 
increase public understanding and appreciation of these resources as a 
part of the Cultural Resources Protection Plan authorized by the Owyhee 
Initiative. Recreational use and encroachment by visitors within the 
Owyhee River Wilderness Area and other Federal lands continues to 
increase and threatens important cultural resources.
    The BLM's Boise District manages 3 million acres of land in this 
rough remote area and they have 3-4 Rangers in their entire district. 
Over the last few years, BLM funding to the Tribes for Tribal Cultural 
programs have dwindled and ceased. We have had to eliminate the Tribal 
Chief Ranger position that was critical to protecting culturally 
significant sites in Owyhee County. For this reason, we oppose the 
administration's plan to reduce BLM funding for fiscal year 2020 by 
more than $150 million below the fiscal year 2019 level.
    One-time BLM funding a number of years ago allowed us to purchase 
two Cessna planes, ATV equipment, a truck, and hire a Chief Ranger to 
patrol public lands and report violations of cultural and religious 
sites to BLM officials. One of the two planes is a trainer (Cessna 150) 
and its engine is beyond its service life per FAA requirements. We work 
closely with BLM and County officials to coordinate compatible 
recreation use within BLM lands in Owyhee County, especially within the 
wilderness areas where we seek to protect cultural resource sites 
important to our Tribes. The Ranger, Cultural Resources Director, and 
Tribal Chairman, while on patrols occasionally report wildfires to BLM 
officials before they cause greater damage to sensitive, remote public 
lands. These resources are no longer available to us, our program 
outreach is limited, and the equipment we purchased is now aging and 
requires replacement.
    We seek recurring BLM funds to continue this important work to 
protect cultural sites and establish a Reserve Ranger Program to engage 
Tribal youth in cultural and related activities during the summer. It 
is essential that we hire and train replacement staff, including a 
pilot, to continue this important work. We need funds to hire an 
Assistant Director, one adult Tribal Ranger and two part-time Youth 
Rangers, train a qualified applicant as an additional pilot, purchase 
ATVs and camp trailers to permit Tribal personnel to remain in the 
field, and repair the planes to meet FAA regulations. For several 
years, we requested $500,000 to construct a hangar at the Owyhee 
Airport to centralize our operation and increase surveillance flights. 
We contribute 100 percent of the required budget for our Cultural 
Resources Director but cannot sustain important cultural resources 
programs without Federal support. Please increase available BLM and BIA 
programs to help pay for this important work which helps build self-
esteem in our members, especially Tribal youth. It is a wise investment 
in people.
    We support additional funding for BLM Cultural Resources Management 
and other BLM accounts used to manage and protect archaeological and 
historic properties on public lands. BLM lands contain the remnants of 
campsites, villages, hunting blinds and rock inscriptions that tell the 
story of the Shoshone-Paiute and other Tribes. After speaking with 
Shoshone-Bannock Tribal officials, together with northern tier Nevada 
Tribes (including the Te-Moak Bands, Battle Mountain, South Fork, Elko, 
and Wells) and the Goshute Tribes, we seek BLM funds to form a Tribal 
work group to spread best practices for cultural resources management 
and protection that we have learned over decades of experience. Please 
fund the multi-Tribal task force which can develop strategies for on 
the ground protection of Native American cultural resources for the 
Upper Great Basin and High Plateau of the tri-State area of Nevada, 
Oregon and Idaho.
    6. Native Plant Program/Greenhouse.--In cooperation with BLM, the 
Tribes gather, propagate and make available seed and other native plant 
materials that are indigenous to the region. Through a series of 
assistance agreements with BLM, we built three greenhouses and are 
growing seedlings (including sagebrush and bitterbrush seedlings) for 
planting on adjacent public lands. This program assists BLM and other 
agencies in their efforts to restore lands damaged by wildfires with 
native species and helps employ Tribal members. In prior years, we set 
as our goal 80,000 containerized grasses and shrub seedlings, together 
with willow and other riparian plant cuttings and local vegetables for 
sale and distribution through our ``Honor Our Elders'' program.
    We seek Interior Department appropriations of $450,000 in fiscal 
year 2020 to build additional greenhouses and a facility to house 
equipment to dry, clean and store seed and to hire part-time greenhouse 
staff for marketing and finances. The Tribes request $200,000 in each 
of fiscal year 2020 and fiscal year 2021 for staff and operations to 
expand our program and be a reliable supplier of native plants and 
seedlings on BLM-managed public lands.
    We thank the subcommittee for its work on behalf of American 
Indians and Alaska Natives. We urge the subcommittee to build on its 
fiscal year 2019 budget for Interior, Environment and Related Agencies 
to meet Tribal health and safety needs that strengthen our community in 
fiscal year 2020 and beyond.
    The Shoshone-Paiute Tribes of Duck Valley Indian Reservation thank 
you for the opportunity to submit written testimony regarding our 
funding needs.
                                 ______
                                 
     Prepared Statement of the Skokomish Tribe of Washington State
    The Skokomish Tribe would like to thank the subcommittee for the 
opportunity to present written testimony on the fiscal year 2020 
appropriations for the Interior Department, Indian Health Service (IHS) 
and Environmental Protection Agency (EPA). The Skokomish Indian Tribe 
is responsible for providing essential governmental services to the 
residents of the Skokomish Indian Reservation. We are a rural community 
located at the base of the Olympic Peninsula with a population of over 
2,000 people, including approximately 740 Tribal members.
    The Tribe provides Education, Healthcare services, Housing, Public 
Safety, and Social Services. We also have one of the premier Tribal 
Natural Resources programs in the country. Thus, adequate Federal funds 
are critical to the Tribe's ability to address the extensive unmet 
needs of our community. An area of overall concern is that the Tribe's 
Self-Governance compact has not received a programmatic increase in 
years. Consequently, while we are expected to do more with these 
programs, we are not provided any increases in funding to do this work.
I. BUREAU OF INDIAN AFFAIRS
    Law Enforcement.--The Skokomish Department of Public Safety (SDPS) 
provides 24/7 law enforcement services for the Tribe. SDPS is 
responsible for patrolling and enforcing justice both within the 
Tribe's 5,300-acre Reservation, and throughout the Tribe's 2.2 million-
acre Treaty area where the Tribe has Treaty-protected hunting, fishing 
and gathering rights.
    There are 700 plus square miles of ocean and 7 plus miles of river 
to patrol. During harvest season, Tribal fishermen are often confronted 
by non-Tribal individuals. There are active attempts to interfere with 
fishing. Many times, with the resources available, SDPS can only be 
reactive. Today, 7 full-time officers and 1 part-time officer are 
available for day-to-day patrol duties. Consequently, individual 
officers are spread far too thin over 10 hour shifts and often work 
alone over this vast area.
    This staffing level exposes both community members in need of 
assistance and SDPS officers to increased risk. Constant adjustments to 
the duty roster create coverage gaps where no officers are on duty. 
These gaps range from as little as 2 hours to as many as 12 hours. 
Unfortunately, this is reality for SDPS. To meet mandated 
responsibilities, staffing must be increased for the SDPS.
    Like other communities, narcotics and its related issues are a 
priority. The impact on our community has been devastating. However, 
staffing limitations make it very difficult to conduct proactive drug 
operations and investigations. As a result, SDPS have had to rely on 
the Sheriff's Office Narcotics Team which is now disbanded due to 
budget cuts at the county level.
    With the limited amount we receive as a self-governance Tribe, we 
have to use Tribal funds to hire the 5 officers who we use for regular 
patrol and 2 who are responsible for natural resource enforcement. The 
Tribe urges the Committee to appropriate additional funding for 
criminal investigations and police services. The BIA has requested 
essentially level funding in this program when the need throughout 
Indian country is far greater.
    Tribal Courts.--For too long the BIA failed to provide funding to 
Tribes in Public Law 280 States. Recently, Congress recognized this 
deficiency and provided for the first time to address our need. We 
would urge Congress to maintain this funding level in fiscal year 2020. 
The Skokomish Tribal Court handles Civil, Criminal, Indian Child 
Welfare, and School Attendance cases. The Skokomish Tribal Court 
appoints attorneys for all people charged with criminal offenses in 
Tribal Court.
    One of our critical judicial dockets is our child welfare cases. As 
of February 27, 2019, the Tribal Court has 32 (thirty-two) active Child 
in Need of Care cases and 46 (forty-six) active Guardianship cases. 
Eight (8) Child in Need of Care cases and 6 (six) Guardianship cases 
were filed in fiscal year 2018. The Skokomish Tribe set a goal to 
provide attorneys to low income Tribal Members who are involved in 
Indian Child Welfare cases. We need increased BIA Tribal court funding 
to support this effort.
    Natural Resources.--The Skokomish Tribe strongly supports 
increased, Natural Resources funding, which is necessary to foster 
sustainable stewardship and development of natural resources and 
support our fishing, hunting and gathering rights on and off-
Reservation. These resources are essential to our people, who depend on 
natural resources for their livelihood, not to mention their identity 
as Indians.
    One area of critical concern is fish hatchery cyclical maintenance 
and fish hatchery operations. This funding is invaluable for supporting 
the Federal Government's investment in Tribal hatcheries. Most Tribal 
hatcheries are underfunded and each year brings more decay to the 
facilities. Adequate funding for hatchery maintenance is imperative to 
prevent these important pieces of the salmon restoration puzzle from 
crumbling away. Because of habitat destruction, the only reason we 
continue to have salmon for Treaty-harvest activities is through the 
operation of salmon hatcheries. Congress cannot allow the main pillar 
of this all important Treaty right to take a reduction in funding. We 
urge Congress to increase funding for this critical program which 
provides jobs as well as a critical food source--and mainstay of our 
diet--to our members.
    In recent decades, the Tribe has noticed a precipitous drop in the 
elk populations upon which the Tribe depends for subsistence and 
ceremonial needs. In 2008, the Tribe was able to cobble together a 
wildlife program to remedy this problem thanks to a U.S. Fish and 
Wildlife Tribal grant that the Tribe has been successful in obtaining 
only twice. Unfairly, once a Tribe has received the funding they are 
automatically placed further down the grant priority list and are less 
likely to receive the money again. The wildlife program is now 
partially funded by Timber, Fish, and Wildlife funds with the Tribe 
scrounging to find the remaining money internally necessary to complete 
this work, let alone take on new tasks such as the reintroduction of 
fishers into the Olympia National Forest.
    The Tribe needs wildlife program funds not only to support 
biologists, but additional funding is required to dedicated wildlife 
enforcement officers who will not only enforce the Tribes' regulations, 
but ensure that poaching of the wildlife resources does not occur from 
outside entities who sometimes fail to recognize Tribal Treaty rights. 
We request additional funds in the amount of $240,000 so we will have 
stable funding for a complete wildlife program including a biologist, 
technician and three wildlife officers. Without a more robust program, 
the wildlife populations will continue to decline at the current 
alarming rate.
    The Tribe has also been under attack by shellfish growers who 
blatantly steal the Treaty-protected geoduck, oyster and clam resources 
in Hood Canal. It is imperative that the Federal Government increase 
funding so the Tribe may increase its enforcement presence and seek 
reparations though the courts. As with wildlife, shellfish issues are 
often overlooked because of the popularity of salmon, but the 
availability of this equally-important resource to the Tribe is 
dwindling and action must be taken now to prevent a further decline. We 
suggest an additional $250,000 for shellfish management and rights 
protection in fiscal year 2020. This would allow for additional 
population surveyors, harvest monitors, and enforcement officers. 
Shellfish companies and private citizens are gobbling up this limited 
resource, blocking the Tribe from obtaining its fair share of 
shellfish. Only by securing these lands will they be preserved in 
perpetuity for generations to come.
    The Skokomish Tribe wants to express support for continued climate 
change funding. We see its impact on every aspect of our life. For 
example, due to ocean acidification, shellfish cannot produce a shell, 
leaving them deformed and non-viable, and in the Hood Canal we have had 
to close all but ceremonial crab fisheries due to low oxygen levels. It 
is imperative that funding be provided to focus on the impact of 
climate change on trust resources.
II. INDIAN HEALTH SERVICE
    We operate a small ambulatory health program with a staff of 27. As 
a Tribally run clinic, we provide direct care services as well as 
purchased/referred care. Our health program integrates medical, dental, 
and behavioral health services (mental health and substance use 
disorder), and we continue to support the integration of these 
services.
    We continue to use the Indian Health Service's Tele-Behavioral 
Health Center of Excellence for mental health services with limited 
success. Our data reports show that we have increased patient case-
loads for our on-site mental health personnel. We do not have the money 
available in our limited compact funding to hire additional staff even 
though there continues to be an increase in need.
    We continue to see the effects of heroin use and opioid abuse in 
all ages at an alarming rate. The Skokomish Tribe struggles to find the 
resources to adequately address the treatment and long term needs of 
those members struggling with addiction. We see the need for more long 
term treatment facilities to address the needs of individuals who can 
benefit from such treatment programs so that they may continue their 
journey of wellness far beyond the current 30 to 45-day in-patient 
treatment process. A short-term stay is often not adequate time to be 
healed from addiction and our Tribal members, who have no alternate 
housing, often return to the community only to re-establish their old 
habits and slip back into addiction.
    The Skokomish Tribe is a grantee of the 5-year SAMSHA Native 
Connections project and its focus on improving mental health services 
and addressing substance use disorder as a way to prevent suicide has 
the promise to raise the overall health status of our Tribal members. 
Our program has been effective through outreach to provide suicide 
prevention information to the grant required identified group of 10-24 
year olds. Based on feedback from this group, we see the increased need 
for outreach to assist with bullying, ``vaping,'' ``cutting,'' and 
other harmful and dangerous habits.
    We support an increase in the small ambulatory facility program for 
fiscal year 2020 since this is the only IHS funding that Northwest 
Tribes have been able to access for construction projects due to the 
current facilities' priority system that favors larger health programs.
III. ENVIRONMENTAL PROTECTION AGENCY
    The environment has always been a point of emphasis for Tribes and 
the Skokomish Tribe is no different. The President's proposed cut to 
the EPA would be devastating to the progress already made in keeping 
the tradition of fishing alive for Skokomish Tribal members. Fishing 
has been a mainstay for the generations of Tribal members who rely on 
it as a means to put food on the table. Fish and shellfish are a part 
of the regular diet for Tribal members and their families. It has been 
cited in various literature that Coastal indigenous communities eat 
about 15 times more seafood than the rest of the population. In order 
to maintain this healthy diet, the fish need to be able to swim in 
clean water. This large consumption of fish and shellfish has been a 
reason that the Skokomish Tribe has had one of the lowest rates of 
diabetes among the Northwest Tribes.
    Thank you for the opportunity for the Skokomish Tribe to submit 
testimony.
                                 ______
                                 
           Prepared Statement of the Southcentral Foundation
    My name is Donna Galbreath and I am the Medical Director of Quality 
Assurance for the Southcentral Foundation (SCF). SCF is the Alaska 
Native Tribal health organization designated by Cook Inlet Region, Inc. 
and 11 federally-recognized Tribes--the Aleut Community of St. Paul 
Island, Igiugig, Iliamna, Kokhanok, McGrath, Newhalen, Nikolai, 
Nondalton, Pedro Bay, Telida, and Takotna--to provide healthcare 
services to beneficiaries of the Indian Health Service (IHS) pursuant 
to a government-to-government contract with the United States under 
authority of the Indian Self-Determination and Education Assistance Act 
(ISDEAA), Public Law 93-638. SCF is a two-time recipient of the Malcolm 
Baldridge National Quality Award for health (2011 and 2017).
    SCF, through our 2,300 employees, provides critical health 
services, including pediatrics, obstetrics and gynecology, Native men's 
wellness, dental, behavioral health and substance abuse treatment to 
over 65,000 Alaska Native and American Indian patients. This includes 
52,000 people living in the Municipality of Anchorage, the Matanuska-
Susitna Borough to the north, and 13,000 residents of 55 rural Alaska 
Native villages. Our service area encompasses over 100,000 square 
miles, an area the size of Wyoming. More so than any other affiliation 
of Tribes, Alaska Native people have assumed the broadest 
responsibilities under the ISDEAA to own and manage healthcare systems 
which, together with the Alaska Public Health System, serve 150,000 
Alaska Native and American Indian people and thousands of non-Native 
residents in rural Alaska.
    I want to thank this subcommittee for its continued leadership in 
securing significant increases in Federal appropriations for the Indian 
Health Service. The recent Consolidated Appropriations Act of 2019's 
increase of total appropriations for IHS to $5.804 billion, a $266.4 
million increase over the fiscal year 2018 enacted level represents 
continued movement in the right direction. My remarks today are simple: 
continue to increase Federal appropriations for IHS programs and 
services until health disparities between Alaska Native and American 
Indian people and other Americans are extinguished. At present, IHS per 
capita spending on healthcare for Alaska Native and American Indian 
people is about one-third of the average national per capita healthcare 
spending level. Today, we are also fighting an opioid epidemic which is 
taking a disproportionate toll on Alaska Native people. As Congress has 
noted, the opioid epidemic has devastated communities and torn apart 
families across our country. This is just as true in our communities in 
Alaska. With a service population of 65,000, our resources are wholly 
insufficient in comparison to the crisis.
    We are extremely troubled by the current administration's continued 
comments and actions that seek to undermine the sovereign status of 
Alaska Native and American Indian Tribes. We therefore ask that the 
subcommittee reject any efforts by the administration to eliminate or 
cut appropriations to Indian healthcare programs. Investing in Native 
healthcare will only improve the health of the Nation's first peoples, 
and we applaud this subcommittee's commitment to that goal.

1.  Reduce the Disparity in Federal Healthcare Expenditures for Alaska 
        Native and American Indian People

    We recommend that subcommittee prioritize general program increases 
which are shared equally by all Tribal programs. We are pleased to see 
that in fiscal year 2019 appropriations for the IHS, Congress included 
significant increases shared by all Tribal programs, such as a $102 
million increase for Hospitals and Health Clinics, an $8 million 
increase for Indian health professions, a $2 million increase for Urban 
Indian Health, and a $4.1 million increase for Public Health Nursing. 
We do note, however, that Congress only moderately increased the 
appropriations for Purchased/Referred Care by $2.1 million and did not 
increase the amounts available for Facilities Maintenance and 
Improvement, which are critical budget items in need of increased 
resources. By the estimate of the National Indian Health Board (NIHB), 
IHS funding is only about 1/5 of the total Tribal needs budget of $30 
billion. So long as appropriations for the Indian Health Service reside 
within the Interior, Environment and Related Agencies, this 
subcommittee will always be challenged to appropriate sufficient funds 
to address the healthcare disparities that exist between Alaska Native 
and American Indian people and the rest of the population. We 
appreciate the subcommittee's efforts to help tackle this ongoing 
challenge.

2.  Continue to Support Increases for Section 105(l) Lease Payments

    We recommend that the subcommittee create within the Direct 
Operations account a new subaccount to pay required Section 105(l) 
lease payments to Tribes and Tribal organizations that make tribally-
owned or leased facilities available for IHS-financed health programs. 
Even in the face of two Federal court decisions addressing IHS's legal 
obligation to fund Section 105(l) leases, and the unrelenting challenge 
we face to deliver health services with insufficient facility space, 
the administration has repeatedly asked Congress for statutory text, 
included in the Administrative Provisions concerning the IHS, to 
legislatively override Section 105(l), and Federal court decisions in 
favor of Tribes, and insert a ``notwithstanding'' clause which would 
make all lease payments by the Secretary entirely discretionary on the 
part of the IHS. In short, the IHS would secure the right to use Tribal 
facilities to operate IHS-funded programs without paying us for them. 
The IHS seeks to memorialize in statutory text its unjustified 
practice, which they had been doing for years, and to short-fund the 
Village Built Clinic lease program. The administration's action is so 
short-sighted and contrary to best practices to well maintain limited 
health facility space.
    We urge the subcommittee to again reject IHS's efforts to repeal a 
key provision of the ISDEAA through the appropriations process. This 
subcommittee fully appreciates the challenges we face to build and 
maintain hospitals and clinics in unforgiving climates. Too often, lack 
of funds shortens the useful life of these vitally important 
structures. The cost to replace a hospital or clinic in Alaska is 
staggering. If Tribes and Tribal organizations are to extend the useful 
life of hospitals and clinics, retain key healthcare professionals, and 
improve the quality of health to our Tribal citizens, we must be given 
the resources to properly operate and maintain existing facilities. 
Facilities worth having are worth maintaining and worth paying for. If 
these lease payments cease, the delivery of healthcare in Alaska will 
suffer another setback.
    Also, despite the obligation of the IHS to fully fund 105(l) 
leases, we have found the IHS to be slow to finalize these leases 
because they are not given enough money to fund all of the leases they 
are now clearly required to pay for. We urge you to increase 
appropriations for Section 105(l) leases.

3.  Provide Advance Appropriations for the Indian Health Service

    Calls from Tribes and Tribal organizations for advance 
appropriations for Indian programs, including the Indian Health Service 
are not new, but the recent 35-day government shutdown has underscored 
the need for this change. The delays in funding had deeply-felt impacts 
in Alaska Native and American Indian communities across the country. As 
Ranking Member Udall has said: ``Because of the unique government-to-
government relationship between Tribes and the United States, Native 
communities . . . across the country are among those hit hardest when 
the appropriations process'' breaks down. We completely agree that 
``The Indian Programs Advance Appropriations Act will offer certainty 
to Tribes and Federal law enforcement, healthcare, and child welfare 
services employees working in Indian country . . . [and] . . . make 
sure the budget process meets [the] Federal trust and treaty 
obligations going forward.''
    Much has been said in this subcommittee, year after year, about how 
the programs and departments subject to this appropriations process are 
reflections of the trust relationship the Federal Government has with 
American Indian and Alaska Native people. The problems that arise from 
shutdowns and other delays in the context of a lack of advance 
appropriations exacerbate the problems caused by the funding shortfalls 
and disparities discussed above.
    We therefore applaud Ranking Member Udall and other Senators and 
House Members for their sponsorship of measures in the current Congress 
to provide advance appropriations for the IHS.

4.  Continue to Provide Increases for Behavioral Health Programs

    We cannot state strenuously enough how important it is to increase 
available funds for behavioral health. Alaska Native and American 
Indian people are disproportionately represented in substance abuse, 
especially opioid addiction, and suicide statistics. According to the 
Centers for Disease Control (CDC), and confirmed by IHS Chief Medical 
Officer, Rear Admiral Michael E. Toedt, Alaska Native and American 
Indian people ``had the highest drug overdose death rates in 2015 and 
the largest percentage increase in the number of deaths over time from 
1999-2015 compared to other racial and ethnic groups.'' During that 
time, deaths rose more than 500 percent among Alaska Native and 
American Indian people. The CDC also found that the suicide rate among 
Alaska Native people is almost four times the U.S. general population 
rate and at least six times the national average in some parts of the 
State.
    The recent Consolidated Appropriations Act contained a combined 
$17.7 million increase in fiscal year 2019 for the Mental Health and 
Alcohol and Substance Abuse program (to $245.5 million), a 5 percent 
increase over the fiscal year 2018 enacted level. In addition, the 
measure also includes an increase of $10 million to combat the opioid 
epidemic with direction to use the additional funds to create a 
``Special Behavioral Health Pilot Program modeled after the Special 
Diabetes Program for Indians.'' These are steps in the right direction, 
and we urge the subcommittee to build on this effort and increase these 
programs by at least 15 percent above the fiscal year 2019 enacted 
level. Behavioral health funds are critical to our most vulnerable 
population--our youth. SCF runs several programs that provide mental 
healthcare for Alaska Native youth which focus on building academic, 
vocational and leadership skills through culturally-appropriate 
methods. It is our firm conviction that only by addressing the root 
causes that drive individuals to drug misuse and addiction--domestic 
and child abuse, poverty and unemployment--can we heal them.
    We also support specific appropriations for an Opioid Prevention, 
Treatment and Recovery program for Alaska Native and American Indian 
people. We recommend that these funds be distributed among Tribes and 
Tribal organizations as additions to our self-governance compacts and 
contracts. Alaska Native healthcare providers, like SCF, recognize that 
the size of the opioid and substance abuse problem in Alaska demands 
resources. However, with insufficient funds to address behavioral 
health challenges, we cannot reach those who suffer from substance 
abuse, our military veterans struggling with PTSD, or victims of 
violent crime. Prevention, education, and timely medication-assisted 
treatment (MAT) programs remain our most potent tools to raise a new 
generation of Alaska Native people who practice positive, life-
affirming behavioral traits and who will, in turn, pass on these life 
skills to their children and grandchildren.
    With our available funds, we established The Pathway Home, a 
voluntary, comprehensive, and individualized mental health program for 
adolescents aged 13 to 18 years. The Pathway Home teaches life skills 
to these Alaska Native youths so that they discontinue harmful 
behavior. Many of these youths have already experienced childhood 
trauma or seen family members struggle with drug and alcohol 
dependency, which puts them at greater risk of turning to drugs and 
alcohol. The Pathway Home creates a loving and supportive community 
environment and it is heartwarming to see how proud the graduates of 
this program are to go back out into the world with these new skills 
and new hope.

5.  Contract Support Costs

    With regards to Contract Support Costs, we appreciate Congress' use 
of an indefinite appropriation. In recent years, we have witnessed the 
IHS making unilateral policy changes concerning its CSC policy, already 
an overly complicated process. It requires Tribes to submit additional 
documentation to IHS and engage in two separate CSC negotiations each 
year. We urge the subcommittee to direct the agency to simplify its CSC 
policy and not attempt to reduce the award of CSC funds to Tribes 
through an unnecessarily complex methodology which diverts our 
administrative personnel from their primary focus--the efficient and 
professional delivery of health services.
    Thank you again for the opportunity to provide testimony on behalf 
of Southcentral Foundation and the people we serve.
                                 ______
                                 
 Prepared Statement of the Southeast Alaska Regional Health Consortium
    My name is Charles Clement and I serve as the President/CEO for the 
Southeast Alaska Regional Health Consortium (SEARHC). I am honored for 
the opportunity to provide written testimony about SEARHC's priorities 
for the fiscal year 2020 appropriations for the Indian Health Service, 
and I thank the subcommittee for the opportunity to do so.
    SEARHC is an inter-Tribal consortium of 15 federally-recognized 
Tribes situated along the southeast panhandle of Alaska. Our service 
area stretches over 35,000 square miles, and with no roads connecting 
many of the rural communities we serve, we work hard to provide quality 
health services to our communities. These services include medical, 
dental, mental health, physical therapy, radiology, pharmacy, 
laboratory, nutritional, audiology, optometry and respiratory therapy 
services. We also provide supplemental social services, substance abuse 
treatment, health promotion services, emergency medical services, 
environmental health services and traditional Native healing. We 
provide these services through a network of community clinics and the 
Mt. Edgecumbe Hospital located in Sitka, Alaska.
    The urgent healthcare needs across Indian Country are well known 
and the challenges in meeting those needs are heightened in areas like 
Southeast Alaska where communities are isolated and transportation and 
facilities costs are high. SEARHC applauds the administration for 
recognizing these needs by increasing the IHS budget. It is vital that 
these increases be preserved. But even these increases will not be 
enough to allow SEARHC and other Tribal organizations to meet the 
healthcare needs of the people we serve. We will meet these challenges, 
but to do so we will need your help.
                           facilities funding
    Our greatest need is for increased facilities funding. We have 
repeatedly reported to this Committee on this topic, and another year 
of use has only increased those needs. At nearly 70 years old, the Mt. 
Edgecumbe Hospital is the oldest facility in Alaska and one of the 
oldest in the Nation. It was constructed toward the end of World War II 
by the War Department and focused largely on tuberculosis treatment 
through the 1950s. The hospital is in poor condition and ill-suited to 
a 21st century model of healthcare dominated by primary and ambulatory 
care facilities. Replacing or repairing Mt. Edgecumbe should be a 
priority, together with developing a critical access hospital to serve 
the Prince of Wales Island communities (including Craig and Klawock).
    According to the report the IHS produced as required by this 
Committee in Report language for the Department of the Interior, 
Environment, and Related Agencies Appropriations Bill, 2017, the cost 
to update SEARHC's facilities alone is $34 million. The estimated cost 
to address the inventoried code deficiencies and backlog of maintenance 
and repairs over the next 10 years is nearly $80 million. And we are 
not unique. Estimates place IHS facilities funding needs at well over 
$8 billion, a number that keeps rising because IHS lacks sufficient 
funding to maintain these facilities. In the Report language for the 
recent Consolidated Appropriations Act of 2019, the Committee directed 
the IHS to work with Tribes and Tribal organizations to assess the 
updated facilities needs in Alaska as well as provide recommendations 
for alternative financing options which could help address this crisis. 
We urge the Committee to continue to push IHS to find solutions that 
will help us provide care to our patients in appropriate facilities 
both now and in the future. We do our best to patch the problem, but 
the bottom line is that without adequate facilities, SEARHC cannot 
provide adequate health services.

    We request the Committee do four things.

  --Replace Aging IHS Facilities.--We need a commitment from Congress 
        to start replacing aging IHS facilities. This will require 
        reordering the current facilities priority list, which was 
        created on a first come, first served basis. All rankings 
        should be based on true need.
  --Increase Facilities Funding in the Current Budget Proposal.--The 
        President's budget proposes to cut funding for facilities 
        programs funding, including a proposed cut of $77 million for 
        the Health Care Facilities Construction Program. In the context 
        of the massive backlog of facilities needs for SEARHC and the 
        IHS, these proposed cuts are unwise and would only serve to 
        further the facilities construction, replacement, and deferred 
        maintenance crisis. We strongly encourage the Committee to 
        increase the facilities funding in the IHS budget and share 
        Chairwoman Murkowski's concern with the administration's 
        proposed reduction.
  --The Indian Health Care Improvement Act (IHCIA) Renovation 
        Program.--We recommend the Committee provide funding for 
        tribally renovated IHS buildings, pursuant to section 1634 of 
        the IHCIA. The IHCIA allows Tribes to renovate IHS facilities 
        and authorizes IHS to provide staffing and equipment for the 
        newly renovated structure. However, Congress has never funded 
        this program. We strongly urge the Committee to realize the 
        promise of this program by providing $10 million to fund it. We 
        would be delighted to do an Alaska demonstration project for 
        this new initiative.
  --Joint Venture Projects.--The JV project provides IHS funds to staff 
        facilities built with Tribal funds. SEARHC submitted a proposal 
        in the most recent Joint Venture project funding round. Despite 
        receiving a very high score, our proposal to build a facility 
        on Prince of Wales Island was not selected. And in fact, of the 
        37 applications submitted, only 13 were put on a list to 
        eventually receive funding. The fact that qualified projects 
        were not selected is evidence that the need for such facilities 
        far outstrips IHS's ability to enter into these agreements.

    Our situation is a good example. Currently, our hospital in Sitka 
serves people living as far away as Klawock. Travel to Sitka requires a 
lengthy combination of automobile, ferry, and airplanes and takes at 
least a day and often is an overnight trip. If weather is bad, as it 
often is in Southeast Alaska, it can take even longer. The only 
alternative are costly air ambulance flights. We proposed to construct 
a Critical Access Hospital in Klawock. This would have strengthened the 
primary care service in the area, while for the first time also 
offering complex diagnostic services and acute and emergency care to 
one of the remotest, most rural areas of the Nation. Despite this 
substantial need for these services, our project was rejected.
    In order to provide funding for this project, as well as the other 
JV projects that were not selected in the last round, we urge this 
Committee to support IHS's effort to enter into more Joint Venture 
Agreements.
                         advance appropriations
    The 35-day government shutdown has provided yet another example of 
why Indian and Alaska Native programs must be held outside of regular 
appropriations processes that are subject to the whims yearly political 
processes. SEARHC strongly supports advance appropriations for the IHS. 
The delays in funding, and the lack of Federal personnel and support, 
during the shutdown had deeply-felt impacts in Alaska Native and 
American Indian communities across the country. As Subcommittee Vice 
Chairman Udall has said, ``Because of the unique government-to-
government relationship between Tribes and the United States, Native 
communities in New Mexico and across the country are among those hit 
the hardest'' during a shutdown, disrupting the delivery of essential 
government services to Tribal members. These sorts of impacts come each 
shutdown, CR, or other funding issue, but the recent shutdown should be 
a wake-up call for Congress regarding the need to act on this issue.
    SEARHC therefore strongly supports efforts by Vice Chairman Udall 
and other Members of the Senate to provide advance appropriations for 
IHS.
                             105(l) leases
    Two recent Federal court decisions have addressed IHS's legal 
obligation to fund Section 105(l) leases. Even so, the administration 
has repeatedly asked Congress for statutory text to legislatively 
override Section 105(l), and the courts, and insert a 
``notwithstanding'' clause which would make all lease payments by the 
Secretary entirely discretionary on the part of the IHS. In short, the 
IHS would secure the right to use Tribal facilities to operate IHS-
funded programs without paying for them. IHS had been doing for years 
by short-funding Village Built Clinic leases, and Congress should not 
let them continue. We urge the Committee to again reject IHS's efforts 
to repeal a key provision of the ISDEAA through the appropriations 
process.
    In addition, and just as important, we urge the Committee to 
provide additional funding for the 105(l) lease program so that there 
are sufficient appropriations to fund the all of the leases IHS is now 
required to fully pay for.
                         contract support costs
    In recent years, much progress has been made on the issue of 
contract support costs, thanks in large part to this Committee. We 
appreciate the Committee's use of an indefinite appropriation for IHS 
contract support costs in the Consolidated Appropriations Act for 
Fiscal Year 2019, and we urge the Committee to do so again for fiscal 
year 2020. However, the IHS has repeatedly over-complicated the process 
for contract support costs, adding burdens on SEARHC and other 
providers which distract, delay, and otherwise hinder our ability to 
spend our time and resources where they belong--on patient care. We ask 
that you direct the IHS to simplify its CSC policy, rather than 
attempting to reduce the award of CSC funds through overly-complex 
methodologies.
    Thank you for the opportunity to present to the Committee on 
SEARHC's priorities.
                                 ______
                                 
             Prepared Statement of the Squaxin Island Tribe
    On behalf of the Squaxin Island Tribal Leadership and citizens, it 
is an honor to provide our funding priorities and recommendations for 
the fiscal year 2020 Budgets for the Bureau of Indian Affairs (BIA) and 
Indian Health Service (IHS). We ask that this Committee supports our 
historical trust and treaty relationship with the United States and 
honor the fiduciary obligations that were a part of the negotiations 
with our Tribal Leaders. We ask that this Committee:

    1.  Exempts Tribal program funding throughout the Federal 
Government from future sequestrations, rescissions and disproportionate 
cuts;
    2.  Ensures stable Federal funding for essential Tribal services by 
supporting the Indian Programs Advanced Appropriations Act for the 
Bureau of Indian Affairs, Bureau of Indian Education and the Indian 
Health Service; and,
    3.  Supports the Special Diabetes Program for Indians 
reauthorization at $200 million annually for 5 years. Efforts by the 
administration to change the funding from mandatory to discretionary 
spending must require Tribal consultation before any changes occur.
SQUAXIN ISLAND TRIBE Specific Requests
    1.  $500,000 Shellfish Management Program--BIA
    2.  $3.0 Million Increase for Northwest Indian Treatment Center 
(NWITC) Residential Program in IHS
REGIONAL Requests and Recommendations
    1.  $110 million for Pacific Coastal Salmon Recovery Fund
    2.  Supports the Regional Budget Requests of the Affiliated Tribes 
of Northwest Indians (ATNI), the Northwest Portland Area Indian Health 
Board (NPAIHB) and the Northwest Indian Fisheries Commission (NWIFC)
NATIONAL Requests and Recommendations--Bureau of Indian Affairs
    1.  BIA Rights Protection--Increase funding to $52 million for the 
BIA Rights Protection Implementation
    2.  Fully Fund Fixed Costs and Tribal Pay Costs
    3.  Increase Tribal Base Funding (instead of through grants
NATIONAL Requests and Recommendations--Indian Health Service
    1.  IHS mandatory funding (maintaining current services).--Provide 
a total of $6.4 billion for the Indian Health Service in fiscal year 
2020, a 33 percent increase over the fiscal year 2016 planning base
    2.  $150 million for Opioid Funding.--Increase funding and include 
Tribal set asides in any funding decisions to States
    3.  Purchased and Referred Care (PRC).--Provide an increase of 
$474.4 million
    4.  $158 Million for Mental Health.--For behavioral health services 
to increase the ability of Tribes to further develop innovative and 
culturally appropriate prevention and treatment programs that are so 
greatly needed in Tribal communities.
Squaxin Island Tribe Background
    We are native people of South Puget Sound and descendants of the 
maritime people who lived and prospered along these shores for untold 
centuries. We are known as the People of the Water because of our 
strong cultural connection to the natural beauty and bounty of Puget 
Sound going back hundreds of years. The Squaxin Island Indian 
Reservation is located in southeastern Mason County, Washington and the 
Tribe is a signatory to the 1854 Medicine Creek Treaty. We were one of 
the first 30 federally-recognized Tribes to enter into a Compact of 
Self-Governance with the United States.
    Our treaty-designated reservation, Squaxin Island, is approximately 
2.2 square miles of uninhabited forested land, surrounded by the bays 
and inlets of southern Puget Sound. Because the Island lacks fresh 
water, the Tribe has built its community on roughly 26 acres at 
Kamilche, Washington purchased and placed into trust. The Tribe also 
owns 6 acres across Pickering Passage from Squaxin Island and a plot of 
36 acres on Harstine Island, across Peale Passage. The total land area 
including off-reservation trust lands is 1,715.46 acres. In addition, 
the Tribe manages roughly 500 acres of Puget Sound tidelands.
    The Tribal government and our economic enterprises constitute the 
largest employer in Mason County with over 1,250 employees. The Tribe 
has a current enrollment of 1,040 and an on-reservation population of 
426 living in 141 homes. Squaxin has an estimated service area 
population of 2,747; a growth rate of about 10 percent, and an 
unemployment rate of about 30 percent (according to the BIA Labor Force 
Report).
Squaxin Island Tribe Specific Requests/Justifications
    1.  $500,000--Shellfish Management--BIA
        The Squaxin Island Tribe faces an ongoing budget deficit to 
maintain and operate the shellfish program at its current level of 
operation-a level that leaves 20 percent of treaty-designated State 
lands and 80-90 percent of private tidelands unharvested due to lack of 
funding. To address this shortfall and enable effective growth and 
development of the program, an annual minimum increase of $500,000 is 
requested. Shellfish have been a mainstay for the Squaxin Island people 
for thousands of years and are important today for subsistence, 
economic and ceremonial purposes. The Tribe's right to harvest 
shellfish is guaranteed by the 1854 Medicine Creek Treaty. Today, we 
are unable to fully exercise our treaty rights due to lack of Federal 
support for our shellfish management program.
    2.  $3 Million Increase to the Base Funding for the Northwest 
Indian Treatment Center (NWITC) Residential Program--IHS

      ``D3WXbi Palil'' meaning ``Returning from the Dark, Deep Waters 
to the Light"

        The Squaxin Island Tribe has been operating the Northwest 
Indian Treatment Center (NWITC) since 1994. The Center, given the 
spiritual name ``D3WXbi Palil'' meaning ``Returning from the Dark, Deep 
Waters to the Light'', is a residential chemical dependency treatment 
facility designed to serve Native Americans who have chronic relapse 
patterns related to unresolved grief and trauma. NWITC serves adult 
clients from Tribes located in Oregon, Washington, Idaho and Alaska. We 
facilitate Medication Assisted Treatment (MAT)--suboxone and vivitrol 
injections which are cutting edge components of opioid addictions. 
Since the original congressional set-aside in the IHS budget for 
alcohol and substance abuse treatment for residential facilities and 
placement contracts with third-party agencies in 1993, NWITC has not 
received an adequate increase in the base IHS budget. With the well-
documented nation-wide rise in prescription opioid and heroin abuse, it 
is more critical than ever to increase the NWITC's annual base in order 
to sustain the current services to the Tribes of the Northwest. AI/AN 
face opioid related fatalities three times the rate of non-Natives.
        An increase of $3.0 million would restore lost purchasing 
power, ensure adequate baseline operating funds and allow NWITC to 
continue to meet the needs of those who are struggling to recovery and 
return to their families and Native communities.
NATIONAL Requests and Recommendations--Bureau of Indian Affairs
    1.  BIA Rights Protection--Increase funding to $52 million.--This 
Subactivity Account has a clear and direct relationship with the 
Federal trust obligation to Tribes. This program ensures compliance 
with Federal court orders by implementing effective Tribal self-
regulatory and co-management systems. The benefits of these programs 
accrue not only to Tribes, but to the larger communities as well. In 
addition, this program supports implementation of the United States/
Canada Pacific Salmon Treaty.
    2.  Fully Fund Fixed Costs and Tribal Pay Costs.--Partial funding 
or failing to fund Pay Costs for Tribes has devastated Tribal 
communities by causing critical job losses. Over 900 Tribal jobs have 
been lost and an estimated 300 more jobs will be permanently lost on an 
annual basis if 100 percent Pay Costs are not provided. The Tribal 
losses are being further exacerbated by recent projections of costs 
that have been significantly underestimated. We strongly urge full 
funding of fixed costs and Tribal pay costs.
    3.  Increase Tribal Base Funding (instead of through grants).--
Grant funding, particularly inside the BIA, is not consistent with the 
intent of Tribal self-determination. Tribal leaders have grown 
increasingly frustrated by the increase in Indian Affairs funding offer 
through grants. Allocating new funds via grants marginalizes and 
impedes Tribal Self-Determination and Self-Governance. Provide 
increases via Tribal base funding instead of through grants to Tribal 
governments
NATIONAL Requests and Recommendations--Indian Health Service
    1.  IHS mandatory funding (maintaining current services)--Provide a 
total of $6.4 billion for fiscal year 2020, a 33 percent increase over 
2016 planning phase.--If these mandatory requirements are not funded, 
Tribes have no choice but to cut health services, which further reduces 
the quantity and quality of healthcare services available to AI/AN 
citizens.
    2.  $150 million for Opioid Funding.--Increase funding and include 
Tribal set asides in any funding decisions to States. Addressing the 
opioid epidemic is a nationwide priority. American Indians and Alaska 
Natives face opioid related fatalities three times the rate on non-
Indians. Tribal governments must be included in major agency-wide 
funding decisions, including to States, to treat and prevent opioid 
misuse.
    3.  Purchased and Referred Care (PRC)--Provide an increase of 
$474.4 million.--The Purchased/Referred Care program pays for urgent 
and emergent and other critical services that are not directly 
available through IHS and Tribally-operated health programs when no IHS 
direct care facility exists, or the direct care facility cannot provide 
the required emergency or specialty care, or the facility has more 
demand for services than it can currently meet.
NATIONAL Requests and Recommendations
    Squaxin Island Tribe supports the National Budget Requests of the 
National Congress of American Indians (NCAI) and the National Indian 
Health Board (NIHB).
    Thank you for accepting the fiscal year 2020 budget requests and 
recommendations for the Squaxin Island Tribe.

    [This statement was submitted by Ray Peters, Intergovernmental 
Affairs Liaison.]
                                 ______
                                 
          Prepared Statement of the Standing Rock Sioux Tribe
    I am Ira Taken Alive, Vice-Chairman of the Standing Rock Sioux 
Tribe. The Tribe appreciates the opportunity to submit written 
testimony to the Senate Appropriations Subcommittee on Interior, 
Environment and Related Agencies concerning the Tribe's fiscal year 
2020 funding needs financed through appropriations to the Bureau of 
Indian Affairs (BIA), Bureau of Indian Education (BIE), and Indian 
Health Service (IHS).
    I want to begin by telling you a little bit about the Standing Rock 
Sioux Tribe and our relationship with the United States which is based 
on the Treaties that we signed in 1851 and 1868. These Treaties 
underscore the ongoing promises and obligations of the United States to 
the Tribe, and our testimony is submitted with those promises and 
obligations in mind. To that end, the Tribe wishes to express its 
support for Ranking Member Udall's legislation to provide advance 
funding for the BIA and IHS. Tribal programs should not suffer because 
of the political challenges in Washington, D.C. All too often, the 
success or failure of Tribal programs are dependent on Federal 
appropriations.
    Despite the Tribe's best efforts, our unemployment rate remains 
above 50 percent. In fact, over 40 percent of Indian families on our 
Reservation live in poverty--more than triple the average U.S. poverty 
rate. The disparity is worse for children, as 52 percent of the 
Reservation population under age 18 lives below poverty, compared to 16 
percent and 19 percent in North and South Dakota, respectively.
    These statistics are daunting. They can leave our people, 
especially our children without hope, so I want to share with you, just 
one story of a person who did something to give our children hope. It 
is my story. I am telling you this story not because I want praise or 
thanks, but because I want you to know that the programs that you fund 
in the budgets of the BIA and the IHS make a difference and your work 
in deciding which programs of the BIA, BIE and IHS to increase and 
expand is critical to the future success of Indian communities and must 
continue.
    In the fall of 2014, I started a cheer team at my former high 
school in McLaughlin, SD. I had to struggle to find five girls who 
wanted to participate and who could commit to the work that it took to 
actively participate on a school cheer team.
    With the support of another rural small school, the Newall School, 
the girls worked hard and learned the routines. They kept their grades 
up and they committed themselves to the daily practices. Our goal at 
the start of the year was that if our girls' high school basketball 
team went to the State tournament, we would be in position to the win 
the coveted South Dakota Spirit of Six Award. This award is in memory 
of a cheer team who tragically died in a plane crash on their way to 
State.
    Well, like a Hollywood movie, my girls made it to the State 
championship tournament. To win the Spirit of Six Award, the team was 
judged at all times, whether they were cheering or not.
    Just to remind you, these young women had rarely left the 
Reservation, let alone competed on a State-wide stage with crowds as 
large as 2,000 people and live TV coverage. To be in the running, they 
had to be poised, respectful and joyful at all times. I am still so 
proud to say that bucking the odds, the first year cheer team from 
McLaughlin, SD won the award.
    I cannot tell you the importance to these young women and to the 
community of McLaughlin, SD to have this high caliber positive 
recognition of the hard work and dedication the girls from Standing 
Rock exhibited.
    This story demonstrates that it is community based programs like 
this that can make such an important difference in children's lives and 
positively affect their future development.
    This story also demonstrates that these programs must be developed 
in close consultation with the Tribal governments and the communities 
that they are intended to serve. Moreover, these programs must be 
intertwined with one another. A person needs help at school, after 
school, in her home, and when she wants to leave home for higher 
education and other opportunities.
    This is why creating a new initiative like the mental health/
substance abuse pilot program, based on the Special Diabetes for 
Indians Program, is such a good idea. A pilot program of dedicated, 
targeted funds for Tribes to develop culturally appropriate tools to 
address substance abuse and mental health needs in their communities 
will put Tribes in the driver seat to combat these challenges and 
create positive futures for Native children.
    Community based programs make a real difference in the lives of 
children and play an important role in helping them success in future. 
Programs that build self-esteem in Tribal youth, and which provide them 
with important coping skills, are programs that will have a lasting 
impact on them throughout their lives. As a Tribal leader, school board 
member, and cheer team coach, I can tell you that this is the best way 
for governments to deliver services to their citizens.
    Thank you for the opportunity to present this testimony.
                                 <greek-l>
                                 ______
                                 
Prepared Statement of Support of the Underrepresented Communities Civil 
                           Rights Grant deg.
Prepared Statement in Support of the Underrepresented Communities Civil 
                              Rights Grant
May 28, 2019

 
 
 
The Honorable Lisa Murkowski                The Honorable Tom Udall
Chairman                                    Ranking Member
Subcommittee on Interior, Environment and   Subcommittee on Interior,
 Related Agencies                            Environment and Related
Senate Committee on Appropriations           Agencies
131 Dirksen Senate Office Building          Senate Committee on
Washington, DC 20510                         Appropriations
                                            131 Dirksen Senate Office
                                             Building
                                            Washington, DC 20510
 


Chairman Murkowski and Ranking Member Udall,

    Asian and Pacific Islander Americans in Historic Preservation, 
Hispanic Access Foundation, Latinos in Heritage Conservation, and the 
undersigned 43 groups and 66 individuals encourage the Committee on 
Appropriations to support the Underrepresented Communities Civil Rights 
Grant with a $30 million appropriation for fiscal year 2020.
    Funded through the National Park System's Historic Preservation 
Fund (HPF), the Underrepresented Communities Civil Rights Grant program 
would use non-tax payer dollars to partner with States and Tribes to 
help save important places in our communities. The HPF provides 
matching grants to State and Tribal historic preservation offices to 
support surveys of historic resources, training, nominations to the 
National Register of Historic Places, and grants to local 
jurisdictions. HPF was established in 1977, is currently authorized at 
$150 million per year, and is funded by Outer Continental Shelf oil 
lease revenues, not tax dollars. These funds are spent locally on 
preservation projects, with selection decisions made at the State 
level. In short, it makes preservation possible.
    Historic preservation projects assisted by grants like the existing 
African American Civil Rights Grant Program generate billions of 
dollars in heritage tourism annually, while helping public and private 
partners tell unique and powerful stories of the African American 
struggle for equality in the 20th Century.
    The expansion of the program to the Underrepresented Communities 
Civil Rights Grants will increase the program's impact by not only 
documenting, interpreting, and preserving the sites and stories related 
to a more inclusive story of American history, but also increasing the 
audience appeal for such projects. This proposed program expansion is 
an opportunity to multiply the economic impact of the existing program 
across the United States.
    A review by the National Historic Landmarks Committee found that 
less than 8 percent (8 percent) of designated landmarks specifically 
represented the stories of Native Americans, African Americans, 
American Latinos, Asian Americans, Pacific Islanders, women, LGBTQ, and 
other underrepresented groups. There are few sites associated with 
these groups despite their long histories in the United States from the 
earliest settlement of the country to the economic development of the 
West to the desegregation of public schools in the 20th century and 
political influence in the 21st.
    Including women, these groups make up more than 50 percent of the 
U.S. population. Representation matters; this Federal grant will allow 
us to narrate our stories, which may be misrepresented or otherwise 
ignored within a larger society, with accuracy and dignity. This 
promotes understanding and compassion and has the power to lessen 
social inequalities.
    All Americans should be able to see themselves, their history, and 
their potential in both our collective story and our national 
landscape. As you consider fiscal year 2020 funding levels, we hope 
that you will continue the broad bi-partisan support for this National 
Park Service grant program that is vitally important to preserving so 
many more of our great American stories.

Sincerely,

Asian and Pacific Islander Americans in Historic Preservation
Hispanic Access Foundation
Latinos in Heritage Conservation

Co-Signed by:

                             ORGANIZATIONS

2021
African American Community, Cultural, and Educational Society
Alamo City Democracy Project
American Anthropological Association
American Association for State and Local History
American Cultural Resources Association
Asian American Studies Department and Center, UCLA
Coalition for American Heritage
Connecticut Trust for Historic Preservation
Curba
Chispa, League of Conservation Voters
Documents of Resistance
Esperanza Peace and Justice Center
Filipino American National Historical Society--Metro New York City 
Chapter
Filipino American National Historical Society
GLBT Historical Society
Hispanic Federation
Indiana Landmarks
Landmarks Illinois
Latino Outdoors
National LGBTQ Center for the Arts
National Parks Conservation Association
National Trust for Historic Preservation
Native American Land Conservancy
Native Womens Wilderness
Nature For All
OCA Greater Chicago
Pratt Institute
Preservation Chicago
Preservation Texas
Society for American Archaeology
Society for Historical Archaeology
Spanish Heritage Foundation of Riverside
St. Mary's University
Tataviam Land Conservancy
The National Council of Asian Pacific Americans (NCAPA)
Turning Wheel--University of San Diego
UC Davis Library/Bulosan Center for Filipino Studies
University of California, Riverside Public History Program
University of Houston
University of Maryland, College Park
UT Austin
Westside Preservation Alliance

                              INDIVIDUALS

Stuart Berman
Cathie Bond
Tanya Bowers
Caroline Calderon
Antonia Castaneda, PhD
Marsh Davis
Rachel Delgado
Lisa DiChiera
John Dichtl
xenia diente
Doreen Duran
Maria Espinosa
Henry Flores
Moises Garcia
John Gonzalez
Jaylyn Gough
Sarah Zenaida Gould, PhD
Catherine Gudis, PhD
Estella Habal, PhD
Lawana Holland-Moore
Celeste Hong
Judy Jauregui
Rita Jirasek
Nicole Johnson
Lewis Kasner
Alvina Lai
Kristi Lin
Kelly Lizarraga
Mary Losh
Jose Madrid
Michelle Magalong, PhD
Magda Mankel
Nancy Melendez
Mabel Menard
Ward Miller
Jane Montanaro
Helen Mora
Beatrice Moreno
Sehila Mota Casper
Ron Muriera
Adam Natenshon
Kim Orbe
Gregg Orton
Alberto Pulido
Ray Rast, PhD
Paul ruiz
RoxanneRyce-Paul
Graciela Isabel Sanchez
Allan Jason Sarmiento
Erica Schultz
Mary Lu Seidel
Antonio Serna
Carol Shull
Monica Sosa
Alan Spears
Roberto Tejada
Evan Thompson
Edward Torrez
Joseph Trujillo
Sharon Trujillo-Kasner
Karen Umemoto, PhD
Luis Villa
Bill Watanabe
Shayne Watson
Lily Anne Welty Tamai
      
                                 ______
                                 
     Prepared Statement of the Sustainable Urban Forests Coalition
    May 17, 2019

 
 
 
The Honorable Lisa Murkowski                The Honorable Tom Udall
Chairman                                    Ranking Member
House Committee on Appropriations           House Committee on
Interior, Environment, and Related           Appropriations
 Agencies                                   Interior, Environment and
                                             Related Agencies
 


Dear Chairman McCollum, Ranking Member Joyce, and Honorable Committee 
Members:

    The Sustainable Urban Forests Coalition (SUFC) is comprised of more 
than 35 national organizations and corporations representing hundreds 
of thousands of professionals--and millions of supporters--who care for 
and support sustainable trees and green infrastructure in our Nation's 
communities. We thank you for the fiscal year 2019 funding levels, 
especially the increased funding for the USDA Forest Service Urban and 
Community Forestry program. Collectively, we urge support for several 
programs across various agencies under the Interior Subcommittee's 
jurisdiction that support urban and community forests and green 
infrastructure.
    Our Nation's urban and community forests impact over 190 million 
Americans and are vital to creating and maintaining healthy, livable 
communities of all sizes by providing many scientifically proven 
social, economic, and environmental benefits to people. The ability to 
reduce air pollution and stormwater runoff, decrease energy 
consumption, mitigate the heat island effect, improve human health have 
directly or indirectly reduced costs in communities by millions of 
dollars. The collective value and benefits of community trees equals 
over $10 billion nationwide. With a projected 394 million Americans 
living in urbanized areas by 2050, investing in trees and better ways 
to grow trees to create livable communities needs to happen now.
    The Federal support and leadership through the USDA Forest Service 
and overarching Urban and Community Forestry program leverages funds 
ranging from two to five times for each dollar invested in projects and 
grants. The Federal ``seed'' money is often the key to implementing 
these programs at the State and local level. Most smaller communities 
do not have the resources to practice urban tree management. The 
Federal funds utilized by the States provides the resources to initiate 
their programs to manage the trees in their communities. These same 
funds set the bar for urban tree management in larger communities and 
at the State level, reducing redundancy and allowing consistency of 
care across the Nation. The cumulative benefit to the country from each 
community achieves a national improvement to be recognized at the 
Federal level.
USDA Forest Service: State and Private Forestry
  --Urban and Community Forestry Program (U&CF)

          U&CF directly assists State government, nonprofit 
        organizations, and partners that manage and steward our 
        Nation's urban and community forests. Working with the State 
        forestry agencies, the program provides technical, financial, 
        research, and educational support and services to local 
        government, nonprofit organizations, community groups, 
        educational institutions, and Tribal governments.
          In fiscal year 2018, U&CF assisted 7,951 urban and rural 
        communities and nearly 206 million people in all 50 States, the 
        District of Columbia, U.S. Territories, and affiliated Pacific 
        Island Nations. U&CF is a high-impact program and a smart 
        investment, as Federal support is often leveraged 2:1 (or in 
        many cases significantly more) by States and partner 
        organizations. There are 9,121 communities that have adopted 
        and can present documentation of local/Statewide ordinances or 
        policies that focus on community trees. In fiscal year 2017, 33 
        percent of the communities served were rural. U&CF engages 
        citizens in cities and towns, brings together diverse partners 
        with public and private resources, and demonstrates that 
        Federal investment can have huge and lasting impacts on 
        communities of all sizes.
          SUFC is deeply concerned by past proposals to defund the U&CF 
        program. Zeroing out this important program would completely 
        erode the capacity that has been developed in cities and towns 
        of all sizes and jeopardize many local public and private 
        partnerships and collaborative projects where Federal 
        assistance is essential. SUFC recommends the Urban and 
        Community Forestry Program be funded at $35 million in fiscal 
        year 2020.

  --Landscape Scale Restoration (LSR)

          National priority Landscape Scale Restoration (LSR) projects 
        are a key way that States, in collaboration with the USDA 
        Forest Service and other partners, address critical forest 
        priorities across the landscape. LSR projects focus on the most 
        critical priorities identified in each State's Forest Action 
        Plan and on achieving national goals as laid out in the State 
        and Private Forestry national themes. The competitive grant 
        process ensures innovative approaches to restoration work are 
        proposed and priority is given to projects that further the 
        advancement of State Forest Action Plans. As a result, LSR 
        contributes to achieving results across the landscape and 
        making meaningful local, regional, and national impacts. SUFC 
        recommends funding the Landscape Scale Restoration program at 
        $20 million in fiscal year 2020.

  --Community Forests and Open Space Conservation Program (CFP)

          CFP has made substantial progress in preserving forests by 
        increasing opportunities for Americans to connect with forests 
        in their own communities and fostering new public-private 
        partnerships. Since its first grant round in fiscal year 2012, 
        CFP has supported 51 community forest projects across 21 States 
        and territories and leveraged more than twice the Federal 
        investment. Thanks to these partnerships, more than 12,300 
        acres of private forestlands--much of it in rural areas--have 
        been, or soon will be, acquired to create new--or expand 
        existing--community forests. SUFC recommends an increase in 
        funds to $5 million in fiscal year 2020.

  --Forest Health Management

          Forests across the country are threatened by increasing 
        numbers of insects and disease pathogens introduced from abroad 
        and entering this country through urban ports. As a result, 
        municipal governments across the U.S. are spending an estimated 
        $2.4 billion each year to remove trees on city property killed 
        by non-native pests. Homeowners are spending an additional $1 
        billion to remove and replace trees on their properties and are 
        absorbing an additional $1.5 billion in reduced property 
        values. The pests often spread from the cities to rural and 
        wildland forests, where the full spectrum of forest values is 
        at risk. This program provides essential expertise and 
        assistance to State and municipal agencies and private 
        landowners working to prevent these pests' spread and minimize 
        the damage they cause. We recommend $48 million for cooperative 
        lands programs under the Forest Health Management program in 
        fiscal year 2020.
USDA Forest Service: Forest and Rangeland Research
 SUFC urges the subcommittee to provide $315 million for the overall 
        R&D program for fiscal year 2020.
  --Urban and Community Forestry Research

          The Forest Service Research and Development (R&D) program 
        provides critical financial support for urban forestry research 
        activities to develop information and tools for understanding 
        conditions and trends in our Nation's urban and community 
        forests. USDA Forest Service researchers have made huge strides 
        in recent years through collaborative efforts to develop new 
        tools, such as i-Tree, for mapping current tree cover, 
        assessing trends, developing local strategies, and building 
        greater understanding of the environmental, economic, and 
        social services that trees and forests provide to communities. 
        We urge the subcommittee to continue including language in 
        Interior Appropriations reports encouraging the USDA Forest 
        Service to maintain a strong and vibrant urban forest research 
        program.

  --Non-Native Insects and Diseases Research

          Among the major research challenges facing R&D is the 
        destruction of our Nation's urban forests caused by non-native 
        insects and diseases. People who value urban forests join 
        supporters of rural and wildland forests in depending on USDA 
        Forest Service R&D to develop better tools for pest detection 
        and protective strategies, including chemical and biological 
        controls and breeding of trees resistant to pests. The most 
        recent data available to us indicate that USDA Forest Service 
        research stations allocate only about $3 million for research 
        on non-native insects and diseases--less than 1 percent of its 
        total budget. In the absence of a budget line item for invasive 
        species research, we urge the subcommittee to include language 
        in its Interior Appropriations report encouraging the USDA 
        Forest Service to increase funding for research targeting non-
        native insects and pathogens.

  --Urban Forests in Forest Inventory and Analysis (FIA)

          The collaborative efforts between SUFC and the USDA Forest 
        Service brought urban forest data into the mainstream of the 
        agency's national data-collection program. FIA has long 
        provided the Nation's forest census, but it had not 
        historically included urban areas because of its definition of 
        forests. We ask the subcommittee to encourage the USDA Forest 
        Service to continue and strengthen its efforts to integrate 
        urban forest data into FIA so that its critical data-collection 
        efforts address all of our Nation's forests, including our 
        current and expanding 138 million acres of urban forest land.
Environmental Protection Agency
  --Clean Water State Revolving Funds (CWSRF)

          Green infrastructure, including urban forests, can be a cost-
        effective and resilient approach to managing stormwater. The 
        use of green infrastructure for stormwater control also 
        provides many community co-benefits enumerated above. SUFC is 
        pleased that EPA supports the use of green infrastructure for 
        stormwater management and that green infrastructure is an 
        eligible use under the CWSRF--a critical financing program for 
        local communities investing in water infrastructure. SUFC 
        supports robust funding for CWSRF, along with efforts to expand 
        the use of green infrastructure to 20 percent to meet Clean 
        Water Act goals.
The National Park Service
  --Outdoor Recreation Legacy Partnership Program (ORLPP)

          The State and Local Assistance Program provides matching 
        grants to States and localities for protection and development 
        of parks and recreation resources. It is the primary Federal 
        investment tool to ensure that families have easy access to 
        urban forests in parks and open space, as well as neighborhood 
        recreation resources. This nationally competitive program 
        complements the existing State and local assistance program by 
        creating opportunities for outdoor play while developing or 
        enhancing outdoor recreation partnerships in cities. SUFC 
        requests robust funding for the State and local assistance 
        program, which includes $20 million for ORLPP in fiscal year 
        2020.

                        Supporting SUFC Members

Alliance for Community Trees
American Forests
American Planning Association (APA)
American Society of Consulting Arborists
American Society of Landscape Architects (ASLA)
Arbor Day Foundation (ADF)
Bartlett Tree Foundation
Center for Invasive Species Prevention
Corazon Latino
Green Infrastructure Center
International Society of Arboriculture (ISA)
Keep America Beautiful (KAB)
National Association of Clean Water Agencies (NACWA)
National Association of Counties (NACo)
National Association of Conservation Districts (NACD)
National Association of Landscape Professionals (NALP)
National Association of State Foresters (NASF)
National Recreation and Park Association (NRPA)
OPEI Foundation
Professional Grounds Maintenance Society
The Davey Foundation
The Nature Conservancy
Society of American Foresters (SAF)
Society of Municipal Arborists (SMA)
Student Conservation Association (SCA)
Tree Care Industry Association (TCIA)
TREE Fund
Trees Forever
The Trust for Public Land
Water Environment Federation (WEF)
Wildlife Habitat Council
      
                                 ______
                                 
           Prepared Statement of the Tanana Chiefs Conference
    The Tanana Chiefs Conference (TCC) appreciates the opportunity to 
submit written testimony to the subcommittee regarding our priorities 
for fiscal year 2020 concerning appropriations for the Bureau of Indian 
Affairs (BIA) and Indian Health Service (IHS). We are grateful for this 
subcommittee's bipartisanship reflected in the Consolidated 
Appropriations Act of 2019's rejection of previous calls from the 
administration for deep cuts to Alaska Native and American Indian 
programs and services. We appreciate the positive results the 
subcommittee has made possible in Alaska, and we ask the subcommittee 
to build on its successes realized in the fiscal year 2019 budget when 
deciding on funding for BIA and IHS programs for fiscal year 2020.
    TCC is a non-profit intertribal consortium of 37 federally-
recognized Indian Tribes and 41 communities located across Alaska's 
interior. TCC serves approximately 18,000 Alaska Natives in Fairbanks 
where TCC headquarters is located, and in the rural villages in 
Alaska's vast interior, located along the 1,400 mile Yukon River and 
its tributaries.
    To give you an idea of that great distance, Washington, D.C. is 
only around 1,000 miles from Kansas City, Missouri, which Senator Blunt 
represents. There's a lot of country between Washington, D.C. and 
Kansas City--and TCC's region is much larger than that area. Imagine 
how our 41 Alaska Native communities feel in Alaska's vast Interior. 
These villages are remote, often inaccessible by car. Alaska Native 
residents must overcome many challenges to sustain healthy communities, 
educate their children, ensure their health and safety, and care for 
their elders and themselves. This subcommittee, better than most, 
understands the great unmet needs in healthcare, public safety, 
education and job training faced by Alaska Native communities which 
struggle to provide essential services to maintain their members and 
culture.
    Not too long ago, Congressman Cole of Oklahoma laid out the stark 
truth; 2016 Federal per capita healthcare spending on Alaska Natives 
and American Indians, compared to Federal spending on Medicare, 
Veterans, and Medicaid recipients was ``at the absolute bottom, and not 
by a little bit, but by a lot.'' The figures don't lie: $2,834 in per 
capita spending for IHS medical care expenditures per person versus 
$12,744 in Medicare spending for 2016. That is about four and-a-half 
times the per capita expenditure level by the IHS. Federal 
appropriations for the IHS would need to more than triple just to match 
the per capita national health spending level of $9,990 per person. The 
Congressman could not understand the basis for the administration 
proposed cuts to IHS funding the administration proposed that year and 
neither could we. He stated that a $300 million cut in IHS funding was 
``not defensible or acceptable.''
    Recent increases have helped stop the healthcare gap from widening 
into even more of a chasm, but the underlying concerns remain.
    For this reason, TCC supports the administration's proposed 
increase of $140 million above the fiscal year 2019 enacted amount for 
IHS, but more is needed. TCC supports the recommendation of the 
National Indian Health Board (NIHB) to fully fund the IHS through the 
enactment of a true ``needs based budget,'' phased in over 12 years, 
with at least a 36 percent increase (to $7 billion) in IHS funding for 
fiscal year 2020, as well as providing advance appropriations for the 
IHS. So long as the IHS budget is part of the Interior appropriation, 
such increases will remain our great collective challenge. In addition, 
the subcommittee should continue to reject the administration's calls 
to eliminate funding for the Health Education program and cut $39 
million from the Community Health Representative program.
    Nonetheless, we urge the Committee to continue its bipartisan work 
and increase fiscal year 2020 appropriations above the fiscal year 2019 
enacted level to reduce continued healthcare disparities between Alaska 
Native and American Indians and non-Natives. According to the IHS:

  --Alaska Natives and American Indians born today have a life 
        expectancy that is 4.4 years less than the U.S. all races 
        population (73.7 years to 78.1 years);
  --Alaska Natives and American Indians continue to die at higher rates 
        than other Americans in many categories, including chronic 
        liver disease and cirrhosis (nearly 5 times the rate), diabetes 
        mellitus (3 times), unintentional injuries (2.5 times), 
        assault/homicide (2 times), suicide (2 times), and alcohol-
        induced death (7 times);
  --According to a 2016 study examining behavioral health programs and 
        Medicaid in Alaska: ``Statewide gaps in the continuum of care 
        combined with gaps in healthcare coverage perpetuate a cycle of 
        crisis response and create costly inefficiencies.''
  --According to the CDC, the suicide rate among Alaska Natives is 
        almost four times the U.S. general population rate and at least 
        six times the national average in some parts of the State.
  --According to the Alaska Department of Health and Social Services, 
        in 2011, over 50 percent of some 4,500 reports of maltreatment 
        substantiated by Alaska's child protective services, and over 
        60 percent of nearly 800 children removed from their homes were 
        Alaska Native children.

    We must stop this cycle of abuse and destruction. Alaska Native 
villages require the resources to build healthy families and 
communities. They do so by ensuring Alaska Native families have such 
basic necessities as housing, healthcare and public safety services. 
This Subcommittee has worked in a bipartisan manner to increase funds 
for Alaska Native villages and Tribes in such areas in recognition of 
the great unmet needs faced by Alaska Native communities. For rural 
interior Alaska Native communities facing a State budget crisis for 
fiscal year 2020, Federal appropriations make the difference between 
the success and failure of our efforts and, in turn, the wellness of 
our Tribal members. We have faith that this Committee will defend and 
increase fiscal year 2020 Federal funding levels for Indian Country.
1. Improve Tribal Health Care Quality and Access (IHS)
    Build on the Fiscal Year 2019 Enacted Budget for IHS.--TCC greatly 
appreciates the $266.4 million increase over the fiscal year 2018 
enacted level for the IHS included in the Consolidated Appropriations 
Act of 2019, and full payment of Contract Support Costs. However, more 
is needed to address the critical health needs in our Alaska Native 
communities, and reduce the health disparities they experience. Major 
increases are needed especially for purchased and referred care and for 
small ambulatory clinics construction and staffing. TCC remains one of 
the only Tribal health entities in Alaska that does not have a regional 
hospital, so our members are more dependent on village clinics to 
provide routine and emergency healthcare. We also rely heavily on P/RC 
funds. We also appreciate your acknowledgment that housing shortages in 
Alaska contribute to the high vacancy rates for medical personnel, 
especially in rural areas.
    TCC cannot understand why the administration proposes in fiscal 
year 2020 to eliminate funding for the Health Education Program, or 
reduce funding for the Community Health Representatives program. Nor 
can we understand the administration cutting IHS Facilities program 
funding some $77 million when our needs are so great. We are confident 
that the subcommittee with reject these cuts, but such reversals must 
be met with increased appropriation based on the continued unmet needs 
for clinical facilities and hospitals in Alaska and throughout Indian 
country.
    TCC greatly appreciates the administration including $150 million 
in the fiscal year 2020 budget for the Special Diabetes Program for 
Indians (SDPI). We recommend that Congress move this appropriation to 
``mandatory'' and increase the program to at least $200 million for 
fiscal year 2020.
    With respect to the payment of full Contract Support Costs, we are 
appreciative of the Committee's use of an indefinite appropriations. 
Unfortunately, however, the IHS has made its CSC policy unduly 
complicated and we urge the subcommittee to continue to monitor that 
the agency faithfully implements direction from the subcommittee on 
this subject as well as Supreme Court holdings. Full payment of CSCs 
means just that and the IHS should not be permitted, by its policies, 
to undermine that essential goal.
2. Expand Public Safety and Tribal Court in Interior Alaska
    As our Chief and President, Victor Joseph, testified last year, we 
cannot stress enough the importance village leaders place protecting 
our children, and all Tribal members from sexual abuse, domestic 
violence and substance abuse. TCC is on record with numerous 
resolutions to express our members' exasperation over insufficient 
public safety services in our remote Alaska Native Villages. We cannot 
state it any clearer: Interior Alaska's rates of sexual abuse, domestic 
violence, and child rape are among the highest in the Nation. We have a 
crisis.
    For that reason, we oppose the proposed cuts to the BIA budget 
included in the administration's fiscal year 2020 budget. These 
proposed cuts are unwise, and reflect an abandonment of the Federal 
trust responsibility to Indian Tribes and American Indian and Alaska 
Native people. TCC appreciates the fiscal year 2019 enacted increase of 
$2.5 million for Public Safety and Justice funds and cannot understand 
how the administration can justify its proposal to cut $10 million from 
this funding for fiscal year 2020.
    We also appreciate the Committee's continued appropriations for 
Public Law 280 courts and Report language that expresses the 
Committee's ``concern'' about Tribal courts' needs identified in the 
Indian Law and Order Commission's November 2013 report, which 
highlighted the fact that ``Federal investment in Tribal justice in 
'Public Law 280' States [like Alaska,] has been more limited than 
elsewhere in Indian Country.'' The Committee directed the BIA to work 
with Tribes and Tribal organizations in Public Law 280 States to 
consider options that promote, design, or pilot Tribal court systems 
for Tribal communities that are subject to full or partial State 
jurisdiction under Public Law 280.
    TCC has limited recurring funds to pay for our Village Public 
Safety Officer (VPSO) program which works in conjunction with Alaska 
State Troopers. Our VPSOs are the ``First Responders in the Last 
Frontier'' and they respond to emergency calls, fire, EMS and search 
and rescue. With limited funds for public safety, the role of Tribal 
Courts in Alaska Native villages is critical. It allows our villages to 
address public safety concerns at the community level and break the 
cycle of arrest, prosecution and incarceration.
    We urge the Committee to provide increased funds for Public Law 280 
courts so that we may better address public safety issues in our remote 
Interior Alaska Tribal communities.
3. Expand Tribal Opportunities for Job Training and Economic 
        Development
    TCC continues its mission to assist hundreds of Tribal members in 
Fairbanks and in our Native villages with CDL classes, employment 
training in such areas as facility maintenance, flooring and cabinet 
installation, plumbing, plastic and cooper pipe fitting, wildland 
firefighting training, and cooking. With unemployment rates among 
Alaska Natives and American Indians multiple times the current national 
unemployment rate of 3.6 percent, we cannot understand the continued 
lack of funding within the BIA's Community and Economic Development 
Programs. Nor can we expect that, under the administration's proposal 
to massively cut the BIA budget, sufficient funding will be available 
for Job Placement and Training programs. We are confident that the 
subcommittee will continue to improve appropriations for these critical 
areas; there is great dignity in learning a trade and providing for 
your family.
    Please provide meaningful increases to the BIA budget for these and 
related programs in the Interior Department's fiscal year 2020 
appropriations to help promote job creation in our rural Native 
villages where work is seasonal and unemployment remains high. Our 
current resources are simply inadequate to the task at hand.
    Thank you for permitting the Tanana Chiefs Conference the 
opportunity to submit written testimony.
                                 ______
                                 
         Prepared Statement of the Theatre Communications Group
    Madame Chairman and distinguished members of the subcommittee, 
Theatre Communications Group--the national service organization for the 
American theatre--is grateful for this opportunity to submit testimony 
on behalf of our over 500 not-for-profit member theatres across the 
country and the approximately 44 million audience members that the 
theatre community serves. We urge you to support funding at $167.5 
million for the National Endowment for the Arts for fiscal year 2020.
    The entire not-for-profit arts industry stimulates the economy, 
creates jobs, and attracts tourism dollars. The not-for-profit arts 
generate $166.3 billion annually in economic activity, support 4.6 
million jobs, and return $27.5 billion in government revenue. Art 
museums, exhibits, and festivals combine with performances of theatre, 
dance, opera, and music to draw tourists and their consumer dollars to 
communities nationwide. Federal funding for the arts creates a 
significant return, generating nine dollars in matching funds for each 
Federal dollar awarded, and is clearly an investment in the economic 
health of America. In an economy where corporate donations and 
foundation grants to the arts are diminished and increased ticket 
prices would undermine efforts to broaden and diversify audiences, 
these Federal funds simply cannot be replaced. Maintaining the strength 
of the not-for-profit sector, along with the commercial sector, is 
vital to supporting the economic health of our Nation.
    Our country's not-for-profit theatres present new works and serve 
as catalysts for economic growth in their local communities. These 
theatres also nurture and provide artistic homes for the development of 
the current and future generations of acclaimed writers, actors, 
directors, and designers working in regional theatre, on Broadway, and 
in the film and television industries. Our theatres develop innovative 
educational activities and outreach programs, providing millions of 
young people, including ``at-risk'' youth, with important skills for 
the future by expanding their creativity and developing problem-
solving, reasoning, and communication abilities--preparing today's 
students to become tomorrow's citizens. At the same time, theatres have 
become increasingly responsive to their communities, serving as healing 
forces in difficult times and producing work that reflects and 
celebrates the strength of our Nation's diversity.
Here are some recent examples of NEA grants and their community impact:
    Cleveland Public Theatre in Ohio has received a $10,000 ArtWorks 
grant from the NEA to support the development and premiere of The Mask 
of Flight. The play is inspired by the ways we cover and uncover 
ourselves. The ensemble will investigate the theme of masking through 
various examples of veiling--for instance, how we veil racism, how 
politically correct language can be a veil, how women cover for modesty 
and religious reasons vs. being forced to veil, how someone may veil 
their gender identity--and how these situations relate and intersect. 
The Mask of Flight will be a collage of short pieces springing from 
various works created for Cleveland Public Theatre's annual community 
events including Station Hope, a celebration of Cleveland's role in the 
Underground Railroad and an exploration of contemporary social justice 
issues. Annually, Cleveland Public Theatre engages over 800 children 
and families in public housing, teens from families defined as low-
income, and formerly homeless men in recovery. These participants 
create original productions that are attended by 4,000 community 
members.
    Park Square Theatre in Minnesota has received a $10,000 Challenge 
America grant from the NEA to support the residency of Theatre Mu and 
their world premiere commission of The Korean Drama Addict's Guide to 
Losing Your Virginity by May Lee-Yang and to support community outreach 
programming. Theatre Mu engaged the local audience with talk-back 
discussions after performances and other engagement activities related 
to contemporary Korean and Hmong culture. Pay As You Are and other 
discounted tickets were offered for the entire three week run in order 
to make the performances as accessible as possible.
    Perseverance Theatre in Alaska has received a $15,000 ArtWorks 
grant from the NEA for the world premiere of Whale Song, by Cathy 
Tagnak Rexford (Inupiaq). The play explores the love of Inupiaq people 
for the bowhead whale, examining myth, gender roles, and the balance of 
duty to oneself versus duty to others. Featuring a primarily Alaska 
Native cast, Whale Song is part of Perseverance Theatre's 40th 
anniversary season. The theatre will offer Pay-As-You-Can previews and 
performances, student matinees, and a post-show discussion. Cathy 
Tagnak Rexford (Inupiaq) is a member of The Playwright's Circle, a 
group of 15 playwrights with the goal of developing diverse, new 
Alaskan plays and representing voices that were previously unheard. 
Perseverance Theatre serves over 17,000 artists, students, and 
audiences annually.
    Portland Stage Company in Maine has received a $15,000 ArtWorks 
grant from the NEA to support the world premiere of Babette's Feast, 
conceived and developed by Abbie Killeen, written by Rose Courtney, and 
adapted from the short story by Isak Dinesen. Babette's Feast tells the 
story of a refugee who transforms a closed religious community by 
sacrificing all she has in order to throw a lavish dinner party. The 
three-week run included 3 Pay-What-You-Can performances. Portland Stage 
also offered student matinees followed by talk back discussions; the 
theatre serves more than 7,000 students annually through its Student 
Matinee Program. Portland Stage Literacy and Education departments 
created Babette's Feast Playnotes--an extensive resource guide for 
students, teachers, and other audience members who wished to delve more 
deeply into the play. Babette's Feast was also a part of the Curtain 
Call Discussion Series, in which audience members had the opportunity 
to talk about the production with the performers. Throughout the run of 
the play, Portland Stage partnered with Wayside Food Program to run a 
food drive, with the goal of reaching 500 pounds of food.
    These are only a few examples of the kinds of extraordinary 
programs supported by the National Endowment for the Arts. Indeed, the 
Endowment's Theatre Program is able to fund only 60 percent of the 
applications it receives, so 40 percent of applying theatres are turned 
away--in part because available funds are insufficient. Theatre 
Communications Group urges you to support a funding level of $167.5 
million for fiscal year 2020 for the NEA; to maintain citizen access to 
the cultural, educational, and economic benefits of the arts; and to 
advance creativity and innovation in communities across the United 
States.
    The arts infrastructure of the United States is critical to the 
Nation's well-being and economic vitality. It is supported by a 
remarkable combination of government, business, foundation, and 
individual donors and represents a striking example of Federal/State/
private partnership. Federal support for the arts provides a measure of 
stability for arts programs nationwide and is critical at a time when 
other sources of funding are diminished. Further, the American public 
favors spending Federal tax dollars in support of the arts.
    Despite the President's proposal to eliminate the agency, the 
subcommittee and Congress approved a $2 million increase in fiscal year 
2019, which accounts for the NEA's current funding at $155 million in 
the fiscal year 2019 budget. We thank the subcommittee for its 
leadership in supporting the work of the NEA. Please stand firm against 
the President's second proposal to eliminate the NEA. We urge the 
subcommittee to fund the NEA at a level of $167.5 million to preserve 
the important cultural programs reaching Americans across the country.
    Thank you for considering this request.

    [This statement was submitted by Laurie Baskin, Director of 
Research, Policy & Collective Action.]
                                 ______
                                 
       Prepared Statement of the Tribal Law and Policy Institute
    A recent assessment from the U.S. Civil Rights Commission has found 
that ``Federal funding for Native American programs across the 
government remains grossly inadequate to meet the most basic needs the 
Federal Government is obligated to provide.'' \1\ Tribal leaders and 
citizens have known this for decades, and we urge Congress to fully 
fund the U.S. Government's treaty and statutory obligations.
---------------------------------------------------------------------------
    \1\ U.S. Comm'n on Civil Rights, Broken Promises: Continuing 
Federal Funding Shortfall for Native Americans, (2018) https://
www.usccr.gov/pubs/2018/12-20-Broken-
Promises.pdf.
---------------------------------------------------------------------------
    While Congress has dealt with a spending environment hampered by an 
austerity fiscal policy, including sequestration and tight limits on 
discretionary accounts, the Federal trust and treaty obligations to 
Indian country are no less imperative. The fact that these solemn 
agreements that are funded in the Federal budget have been subject to 
political impasses, including a recent 35-day Federal Government 
shutdown, highlights the need for solutions to protect vital Tribal 
governmental services from interruptions.
    The Tribal Law and Policy Institute (TLPI) is a 100 percent Native 
American operated non-profit corporation organized to design and 
deliver education, research, training, and technical assistance 
programs which promote the enhancement of justice in Indian country and 
the health, well-being, and culture of Native peoples. Our mission is 
to enhance and strengthen Tribal sovereignty and justice while honoring 
community values, protecting rights, and promoting well-being.
    The Indian Health Service (IHS) and Bureau of Indian Affairs (BIA) 
provide core governmental services for Tribal nations, including 
hospitals, schools, law enforcement, child welfare programs, social 
services, and more. For many Tribal nations, most Tribal governmental 
services are funded by Federal sources as part of the treaty and trust 
responsibility. This is particularly important because Tribal nations 
lack the tax base and parity in tax authority under Federal law to 
raise governmental revenue to deliver services. Federal funding remains 
critical to ensure essential government services are delivered to 
Tribal citizens. In addition to the appropriations requests below, TLPI 
urges Congress to fund BIA and IHS through advance appropriations to 
protect Tribal governments and citizens from future shutdowns as well 
as cash flow problems that regularly occur at the start of the fiscal 
year.
                        bureau of indian affairs
    Along with the IHS, the BIA is one of the primary agencies 
responsible for providing services throughout Indian Country, either 
directly or through compacts or contracts with Tribal governments. As 
part of the fiscal year 2020 budget formulation process, Tribes from 
each BIA region completed a survey to outline which ten budget lines 
they would prefer to provide increased funding to and why. The 
formulation process provides a window into which program areas Tribes 
would prefer to see increases designated. The results of this process 
show that BIA Social Services, Indian Child Welfare Act (ICWA), Tribal 
Courts, Aid to Tribal Government, Scholarships and Adult Education, 
Criminal Investigations/Policing, Road Maintenance, Housing, Johnson 
O'Malley, Detentions and Corrections, and Welfare Assistance made up 
the top 11.
    For Public Safety and Justice Programs, one of the most fundamental 
aspects of the Federal Government's trust responsibility is the 
obligation to protect public safety on Tribal lands. Congress and the 
United States Supreme Court have long acknowledged this obligation, 
which Congress most recently reaffirmed in the Tribal Law and Order Act 
expressly ``acknowledging the Federal nexus and distinct Federal 
responsibility to address and prevent crime in Indian Country.'' In 
2018 the U.S. Commission on Civil Rights found that there continues to 
be ``systematic underfunding of Tribal law enforcement and criminal 
justice systems, as well as structural barriers in the funding and 
operation of criminal justice systems in Indian Country'' that 
undermine public safety.\2\ Tribal justice systems simply need the 
resources to put their tools to work so they can protect women, 
children and families, address substance abuse, rehabilitate first-time 
offenders, and put serious criminals behind bars.
---------------------------------------------------------------------------
    \2\ Id. at 32.
---------------------------------------------------------------------------
    The underfunding of Tribal law enforcement and justice systems is 
well-documented. Most recently, the BIA submitted a report to Congress 
in 2017 estimating that to provide a minimum base level of service to 
all federally-recognized Tribes $1 billion is needed for Tribal law 
enforcement, $1 billion is needed for Tribal courts, and $222.8 million 
is needed to adequately fund existing detention centers.\3\ Based on 
recent appropriation levels, BIA is generally funding Tribal law 
enforcement at about 20 percent of estimated need, Tribal detention at 
about 40 percent of estimated need, and Tribal courts at a dismal 3 
percent of estimated need.
---------------------------------------------------------------------------
    \3\ Bureau of Indian Affairs, Office of Justice Services. ``Report 
to Congress on Spending, Staffing, and Estimated Funding Costs for 
Public Safety and Justice Programs in Indian Country,'' (Aug, 16, 
2016), https://www.bia.gov/cs/groups/xojs/documents/document/idc2-
051817.pdf.
---------------------------------------------------------------------------
    TLPI recommends an increase in base funding for Tribal courts, for 
a total of $83 million, which would must include courts in PL 280 
jurisdictions. The BIA estimates that full funding for Tribal courts 
would cost $1 billion. fiscal year 2018 funding for Tribal courts was 
$30.6 million, or 3 percent of the estimated need. TLPI also recommends 
an increase to BIA Law Enforcement of $200 million, for a total of $573 
million, which also must include Public Law 280 Tribes.
    BIA Social Services help to address the underlying conditions such 
as drug addiction, poverty, and violence that tend to create and 
perpetuate the circumstances that produce victims. Sub-activities 
include services in the areas of family and domestic violence, child 
abuse and neglect, and protective services. However, many Tribes' 
Social Services departments are understaffed and experience high 
turnover rates. A lack of increased yearly funding tends to hinder 
these protective services. TLPI recommends $55 million for BIA Social 
Services in fiscal year 2020.
                         indian health service
    The Federal responsibility for healthcare is rooted in the treaty 
and trust promises.\4\ Yet, the Federal Government has never fully 
lived up to this responsibility. Appropriations for the IHS have never 
been adequate to meet basic patient needs, and healthcare is delivered 
in mostly third world conditions. The Indian healthcare delivery system 
faces significant funding disparities, notably in per capita spending 
between the IHS and other Federal healthcare programs. The IHS has been 
and continues to be a critical institution in securing the health and 
wellness of Tribal communities. In fiscal year 2017, the IHS per capita 
expenditures were just $4,078, compared to $8,109 for Medicaid, $10,692 
for the Veterans Health Administration (VHA), and $13,185 for 
Medicare.\5\ New healthcare insurance opportunities and expanded 
Medicaid in some States may expand healthcare resources available to 
AI/ANs.
---------------------------------------------------------------------------
    \4\ See e.g. Geoffrey D. Strommer, Starla K. Roels, and Caroline P. 
Mayhew, Tribal Soverign Authority and Self-Regulation of Health Care 
Services: The Legal Framework and the Swinomish Tribe's Dental Health 
Program, 21:2 J. of Health Care Law and Policy 115 (2018).
    \5\ U.S. Gov't Accountability Office, Indian Health Service: 
Spending Levels and Characteristics of IHS and Three Other Federal 
Health Care Programs, GAO-19-74R, 5 (Dec. 10, 2018), https://
www.gao.gov/assets/700/695871.pdf
---------------------------------------------------------------------------
    TLPI recommends the amount requested by the IHS Tribal Budget 
Formulation Workgroup for fiscal year 2020, a total of $7.03 billion 
for the Indian Health Service in fiscal year 2020. This amount would 
include an increase to maintain current services and other binding 
obligations and allow for program expansions, as listed in the 
Workgroup's fiscal year 2020 report. Further, IHS should be provided 
advance appropriations, and be exempted from Federal Government 
shutdowns and sequestrations, much like the comparably situated VHA.
                               conclusion
    We look forward to working with this subcommittee on a nonpartisan 
basis to protect the Federal trust and treaty obligations in the 
budget. Thank you for your consideration of this testimony.

                 Tribal Law and Policy Institute Staff

Executive Director
Jerry Gardner (Cherokee)

Deputy Director
Heather Valdez Freedman

Operations Director
Jessica Harjo (San Carlos Apache)

Tribal Courts Specialist
Chia Halpern Beetso (Spirit Lake Dakota)

Tribal Law Specialist
Lauren van Schilfgaarde (Cochiti Pueblo)

Victim Advocacy Specialist
Bonnie Clairmont (Ho-Chunk)

Tribal Justice Specialist
Kori Cordero (White Mountain Apache)

Victim Advocacy Legal Specialist
Kelly Stoner (Cherokee)

Tribal Youth Specialist
Stephanie Autumn (Hopi/Irish)

Tribal Victim Resource Specialist
Lonna Hunter (Tlingit, Sisseton Wahpeton Dakota)

Tribal Wellness Specialist
Kristina Pacheco (Laguna Pueblo)

Tribal Youth Legal Specialist
Precious Benally (Dine)

Tribal Youth Legal Specialist
Anna Clough (Muscogee, Creek/Yuchi)

Tribal Research Specialist
Jeremy Braithwaite

Tribal Law and Policy Specialist
Jordan Martinson (La Courte Oreilles)

Administrative Coordinator
Marlon Footracer (Dine)

Administrative Assistant
Chad Jackson (Cocopah)

Program Assistant
Cindy Wlasowich (Sincagu/Oglala)

Program Assistant
Ashley Sarracino (Laguna Pueblo)

Program Assistant
April Russel (Ho--Chunk/Rosebud Lakota)

Program Assistant
Laura Smith

Graphics Specialist
Cheyenne Cordero (White Mountain Apache)

Computer Tech/Webmaster
Lou Sgroi

Staff Accountant
Jan Langer

Bookkeeper
Uno Lawthong

                           Board of Directors

President: Abby Abinanti (Yurok)

Vice President: David Raasch (Stockbridge-Munsee)

Secretary-Treasurer: Margrett Oberly Kelley (Osage/Comanche)

Ed Reina (Pima/Maricopa)

Patricia Sekaquaptewa (Hopi)

Michael Jackson (Tlingit/Haida)

Lucille Echohawk (Pawnee Nation of Oklahoma)
                                 ______
                                 
            Prepared Statement of The Trust for Public Land
    Chairwoman Murkowski, Ranking Member Udall and distinguished 
Members of the subcommittee:

    Thank you very much for the opportunity to submit testimony on 
behalf of The Trust for Public Land in support of programs under your 
jurisdiction for the fiscal year 2020 appropriations process. The Trust 
for Public Land (TPL) is a national nonprofit land conservation 
organization working to protect land for people in communities across 
the Nation. We are extremely grateful for the steadfast support members 
of this subcommittee have shown for Federal conservation programs 
during these challenging fiscal times.
    We recognize that the subcommittee will face enormous challenges in 
meeting the broad range of priority needs in the Interior and 
Environment bill this year. The President's budget request for fiscal 
year 2020 once again proposes drastic program reductions and 
elimination of core Federal conservation programs that have long had an 
impact in communities across the country. Our work in many of your 
districts and elsewhere shows that there is tremendous support for 
conservation and access to recreation at the local, State and Federal 
level, and the programs under your jurisdiction play a critical role in 
bringing those community visions to reality while supporting a robust 
outdoor recreation economy. We urge you to once again reject the 
President's budget and make investments in programs that support 
conservation and outdoor recreation on our public lands, from local 
parks to national parks.
    The major programs under your jurisdiction that we count on year in 
and year out are the entire suite of Land and Water Conservation Fund 
(LWCF) programs: BLM, FWS, NPS, and USFS acquisitions, NPS State and 
local grants--especially the competitive grants program for city 
parks--Forest Legacy Program, Cooperative Endangered Species 
Conservation Fund, Highlands Conservation Act grants, and American 
Battlefield Protection Program. Other programs include the North 
American Wetlands Conservation Act, Community Forest Program, National 
Endowment for the Arts, and Brownfields grants.

    Land and Water Conservation Fund.--We are thrilled that Congress 
voted overwhelmingly to permanently reauthorize the Land and Water 
Conservation Fund, after two unfortunate expirations of this effective 
and popular program. We urge the subcommittee to work towards fully 
funding LWCF so that the original promise of LWCF investments in 
conservation and outdoor recreation needs across the country can 
finally be met. In the recent fiscal year 2019 omnibus appropriations 
bill, Congress furnished the program with $435 million, and we thank 
you for the $10 million increase over the previous year. For fiscal 
year 2020, we respectfully ask that you increase LWCF in total to $600 
million, with that plus-up shared among all programs. At two-thirds of 
LWCF's authorized funding level and still less than is deposited each 
year into the LWCF account, we believe this increase represents a sound 
investment that spreads limited resources wisely across urgent and 
diverse priorities. It also makes real progress toward the goal of 
fully funding this critical program. Recent conference agreements have 
done an excellent job of fairly allocating LWCF funds between Federal 
and State needs, and we encourage you to maintain that split.
    The appropriations committees also included important conference 
report language in fiscal year 2018 and 2019 that instructed the four 
Federal land management agencies and Forest Legacy Program to continue 
ranking projects annually, and to make those lists available to the 
committee by March 1. These ranked project priorities reflect needs 
across the country and we urge you to request agency project lists that 
total greater than the enacted level for each land management account, 
if necessary. The fact that the President's budget does not include 
project lists has complicated the process, but we are confident that 
you will be attentive to this matter and look forward to working with 
you to ensure that you have the best information possible on which to 
base your funding decisions. The agencies should not be allowed to 
limit their lists, as that imposes an artificial limit on the work of 
the subcommittee to review project needs and allocate LWCF dollars 
accordingly. We greatly appreciate the key role your subcommittee plays 
in ensuring that LWCF is used for high-priority strategic investments 
and appreciate that in challenging budgetary times you have maintained 
a commitment to this bipartisan program.
    Within the LWCF total, individual programs bring specific and 
complementary conservation benefits to the American public. These key 
programs are:

    BLM/FWS/NPS/USFS: Land Acquisitions.--Every year tens of millions 
of Americans, as well as visitors to our country, enjoy our Federal 
public lands--national parks, forests, wildlife refuges and BLM 
conservation lands. Strategic inholding and other acquisitions in these 
Federal areas through LWCF ensure recreation access and nature 
education; foster vital economic growth; protect clean water and other 
community resources; enhance the incomparable natural and scenic 
treasures that belong to all Americans; and frequently resolve complex 
land-use conflicts and produce management savings. Without adequate 
funding, the unfortunate alternative often is an irretrievable loss of 
public use and enjoyment of these areas and irreversible damage to the 
resources we all care about. We strenuously oppose the budget proposal 
eliminating all funds for land protection projects and urge you to 
increase allocations to each land acquisition account using the 
comprehensive agency project priority lists discussed above.
    We applaud the inclusion of recreational access line items in 
recent appropriations bills for each of the four land management 
agencies--with particular emphasis on BLM and USFS--and support 
similarly focused funding in the fiscal year 2020 bill to address 
opening up and improving public access to the outdoors. The President's 
budget reduced recreational access funding for all four land management 
agencies by 95 percent. We urge you to restore it.

    USFS: Forest Legacy Program.--For almost 30 years, the Forest 
Legacy Program has been an extraordinarily effective program, providing 
assistance to States and localities seeking to preserve important 
working forests. It has protected over 2.5 million acres of forestland 
and has leveraged above and beyond the required 25 percent match. 
Forest Legacy projects provide multiple public benefits through forest 
protection--clean water, wildlife protection, climate change adaptation 
and mitigation, public access to recreation, economic development and 
sustainable forestry. Working with States, landowners and other 
partners, we have worked to submit a number of projects to protect 
recreation access for snowmobilers and hikers, ensure jobs in the 
woods, buffer important Federal and State conservation areas and 
provide strategic land conservation that fits a larger goal. Among 
these are projects to protect the recreational access and critical 
wildlife habitat in Montana and working forests along Hood Canal and 
Puget Sound in Washington. We strongly oppose the administration's 
elimination of this program and instead urge your continued support for 
sustained investment in this strategic and successful program by 
increasing FLP funding to $100 million, which reflects demand from the 
States.

    USFWS: Cooperative Endangered Species Conservation Fund.--We are 
grateful for the subcommittee's support for the Cooperative Endangered 
Species Conservation Fund (CESCF), which leverages State and private 
funds to protect threatened and endangered species habitat across the 
Nation. Two components of this program are funded via LWCF: the Habitat 
Conservation Plan (HCP) Land Acquisition program and the Recovery Land 
Acquisition (RLA) program. The CESCF has been critical to communities 
in California, Montana and other States where landowners and public 
wildlife managers are working together through integrated planning to 
foster species recovery and appropriate economic development. The land 
acquisition portion of this program was eliminated in the President's 
Budget. We support at least the House-proposed level of $40 million for 
the HCP and RLA land acquisition programs in fiscal year 2020.

    NPS: State and Local Assistance grants.--Since 1965, the State and 
local assistance grant program has provided over $4 billion in Federal 
funds for more than 42,000 projects in States and local communities for 
park protection and development of recreation facilities. This program 
reaches deep into communities across our Nation, supporting citizen-led 
efforts to conserve places of local importance and opportunities for 
close-to-home recreation. The Trust for Public Land works with local 
communities to create, build, design, fund and care for parks, trails 
and playgrounds. As we our work with many of these communities to meet 
these needs, we hope the subcommittee will continue to provide funding 
to this important program. We are also very grateful for the 
subcommittee's continued support for allocating a portion of LWCF State 
and local assistance funds to the nationwide competitive program, the 
Outdoor Recreation Legacy Program. In fiscal year 2019, you once again 
demonstrated your commitment to this program by funding competitive 
grants at $20 million. We support increasing that allocation to at 
least $30 million in fiscal year 2020, given the demand from 
communities all across the country for funds that will help bring 
people in underserved areas closer to the outdoors--often within a ten 
minute walk from home.

    NPS: American Battlefield Protection Program.--We applaud the 
subcommittee for its longstanding commitment to this important program, 
which complements acquisitions of threatened Civil War, Revolutionary 
War, and War of 1812 properties in national park units with non-Federal 
land protection of key battlefield sites. We hope that Congress can 
provide an increase to the program to the $20 million level in fiscal 
year 2020.

    USFWS: Highlands Conservation Act.--We greatly appreciate the 
increase provided in fiscal year 2019 to the Highlands Conservation Act 
grant program and urge the subcommittee to maintain the $20 million 
level of funding in fiscal year 2020, in order to address important 
outdoor recreation and water protection needs in the four-State area 
authorized by Congress.

    Beyond LWCF, we urge the subcommittee to provide adequate funding 
to other conservation programs including:

    USFWS: North American Wetlands Conservation Act.--We respectfully 
request your support for program funding at the enacted level of $42 
million in fiscal year 2020. The North American Wetlands Conservation 
Act (NAWCA) provides much-needed matching grants to carry out wetlands 
conservation, restoration and enhancement projects. NAWCA is a highly-
leveraged program with a substantial record of success and is an 
important Federal tool to protect critical wetland habitat.

    USFS: Community Forest Program.--Contrary to the President's 
Budget, which eliminates the program, we urge your continued support 
for the Community Forest Program (CFP), which complements existing 
conservation programs by helping communities and Tribes identify, 
purchase, and manage locally important forestlands that are threatened 
with development. These community forests can be tailored to local 
needs, from timber revenue for municipal or county budgets to 
recreation access and outdoor education. Every Federal dollar from CFP 
is at least evenly matched by funding from State, local, and private 
sources. The Forest Service has now approved 35 grants in 17 States and 
territories--including the North Falmouth Community Forest in 
Cumberland County, Maine and the Chimacum Community Forest in Jefferson 
County, Washington--for innovative local and Tribal projects, and the 
program has generated significant interest from local entities 
concerned about the future of their close-to-home forests. Given the 
strong interest in community forests from coast to coast, we urge you 
to include at least $5 million in the fiscal year 2020 bill for this 
innovative conservation tool.

    National Endowment for the Arts.--Since its establishment by 
Congress in 1965, the National Endowment for the Arts (NEA) has 
provided strategic leadership and investment in the arts. Through 
partnerships with State arts agencies, local leaders, other Federal 
agencies, and the philanthropic sector, the NEA supports arts learning, 
affirms and celebrates America's rich and diverse cultural heritage, 
and extends its work to promote equal access to the arts in every 
community. NEA provides not only critical funding and resources to the 
arts community but also significant investments in parks and community 
development through its Art Works and Our Town grants. According to 
analysis by Americans for the Arts, every $1 of NEA funding leverages 
$9 in private and public dollars and fuels a dynamic cultural economy 
and generates millions of American jobs. We strongly urge the inclusion 
of $167.5 million for the agency in fiscal year 2020 in order to 
preserve access to the cultural, educational, and economic benefits of 
the arts.

    EPA: Brownfields.--The EPA's Brownfields Program is a results-
oriented program that has changed the way contaminated property is 
perceived, addressed, and managed. This Program is designed to empower 
States, communities, and other stakeholders to work collaboratively to 
prevent, assess, clean up, and sustainably reuse brownfields--often 
converting the sites into parks and vital open space. The Trust for 
Public Land supports at least the enacted level of funding for these 
programs in fiscal year 2020.
    The programs highlighted here are critical to the future of 
conservation at the local, State and Federal levels; reflect the 
continued demand on the part of the American people for access to 
outdoor recreation; and help sustain our economy and reflect the true 
partnership that exists in Federal conservation efforts. As ever, we 
are deeply thankful for the subcommittee's recognition of the 
importance of these programs and urge you to maintain robust funding 
for them in the fiscal year 2020 Interior, Environment and Related 
Agencies bill. Thank you for your help and support, and for your 
consideration of our requests.

    [This statement was submitted by Kathy DeCoster, Vice President and 
Director of Federal Affairs.]
                                 ______
                                 
 Prepared Statement of the United States Section of the Pacific Salmon 
                               Commission
    Madam Chair, and Honorable Members of the Committee, I am Ron 
Allen, the Alternate Tribal Commissioner and Chair of the Finance and 
Administration Committee for the U.S. Section of the Pacific Salmon 
Commission (PSC). The U.S. Section prepares an annual budget for 
implementation of the Pacific Salmon Treaty (PST). The United States 
and Canada recently completed the revision of five of the Annex 
Chapters to the PST. The Annex Chapters contain the details for 
operations of fisheries under the Treaty and will be in operation for 
the next 10 years.
    Funding to implement the PST comes from the Departments of 
Interior, Commerce, and State. The integrated budget details program 
needs and costs for Tribal, Federal, and State agencies involved in the 
Treaty. Tribal participation in the Treaty process is funded within the 
Bureau of Indian Affairs budget as a line item within Rights Protection 
Implementation.

          In order to meet the increased obligations under the Pacific 
        Salmon Treaty Agreement, the 25 affected Tribes identified 
        costs at $5,200,000 for Tribal research projects and 
        participation in the U.S.-Canada Pacific Salmon Treaty process. 
        This represents an increase of $857,278 from fiscal year 2017 
        levels. The funding for Tribal participation in the Pacific 
        Salmon Treaty is a line item in the BIA's budget under Rights 
        Protection Implementation.

    Under U.S. Fish and Wildlife Service programs, the U.S. Section 
identified funding needs as follows:

          USFWS participation in the Treaty process was funded at 
        $372,362 for fiscal year 2017. The Pacific States Marine 
        Fisheries Commission's Regional Mark Center (PSMFC) receives 
        support from the USFWS to provide data services to the PSC 
        process at $236,189 for fiscal year 2017. The U.S. Section 
        recommends increasing the funding for PSMFC by $150,000. The 
        recommended total for the two programs for fiscal year 2020 is 
        $758,551.

    The base funding for the USFWS supports critically important on-
going work and participation in the process. The funding for Pacific 
States Marine Fisheries Commission's Regional Mark Processing Center is 
utilized to meet Treaty requirements concerning data exchange with 
Canada. These program recommendations are integrated with those of 
participating State and Federal agencies to avoid duplication of effort 
and provide for the most efficient expenditure of limited funds.
    The U.S. Section of the PSC is recommending an adjustment in 
funding to support the work carried out by the 25 treaty Tribes' 
participating in implementation of the Treaty. Programs carried out by 
the Tribes are closely coordinated with those of participating State 
and Federal agencies. Tribal programs are essential for the United 
States to meet its international obligations. Tribal programs have 
taken on additional management responsibilities over time. The revised 
Chinook Chapter includes a new metric for evaluating terminal area 
fisheries. The CYER (Calendar Year Exploitation Rate) metric requires 
additional data collection and data management by the affected Tribes. 
All participating agencies need to be adequately supported to achieve a 
comprehensive U.S. effort to implement the Treaty.
    The USFWS activities are essential, so the U.S. can maintain the 
coded wire tag database necessary to implement the Treaty. The work of 
the Regional Mark Processing Center includes maintaining and updating a 
coastwide computerized information management system for salmon harvest 
data as required by the Treaty. This work has become even more 
important to monitor the success of management actions aimed at 
reducing impacts on ESA-listed salmon populations. Canada has a 
counterpart database. The U.S. database will continue to be housed at 
the Pacific States Marine Fisheries Commission.
    Funding to support activities under the Pacific Salmon Commission 
comes from the Departments of Interior, State, and Commerce. The U.S. 
Section can provide a cross-cut budget summary to the Committee. 
Adequate funding from all three Departments is necessary for the U.S. 
to meet its Treaty obligations. All the funds are needed for critical 
data collection and research activities directly related to the 
implementation and are used in cooperative programs involving Federal, 
State, and Tribal fishery agencies and the Department of Fisheries and 
Oceans in Canada. The commitment of the United States is matched by the 
commitment of the Government of Canada.
    Madam Chair, the United States and Canada established the Pacific 
Salmon Commission, under the Pacific Salmon Treaty of 1985, to conserve 
salmon stocks, provide for optimum production of salmon, and to control 
salmon interceptions. After 35 years, the work of the Pacific Salmon 
Commission continues to be essential for the wise management of salmon 
in the Pacific Northwest, British Columbia, and Alaska. For example, 
upriver bright fall Chinook salmon from the Hanford Reach of the 
Columbia River are caught in large numbers in Alaskan and Canadian 
waters. Tribal and non-Tribal fishermen harvest sockeye salmon from 
Canada's Fraser River in the Strait of Juan de Fuca and in Puget Sound. 
Canadian trollers off the west coast of Vancouver Island catch 
Washington coastal Coho salmon and Puget Sound Chinook salmon. In the 
Northern Boundary area between Canada and Alaska, fish from both 
countries are intercepted by the other country in large numbers. The 
Pacific Salmon Commission provides a forum to ensure cooperative 
management of salmon populations. The United States and Canada reached 
agreements for revised Annex Chapters for management of Chinook, Coho, 
Chum and transboundary salmon populations for the next 10 years. The 
Annex Chapter for management of Fraser River Sockeye and Pink salmon 
expires at the end of 2019 and an update is expected to be completed 
soon. It is critically important to have adequate resources for U.S. 
participants to implement the revised agreements and protect our Tribal 
Treaty resources.
    Before the Treaty, fish wars often erupted with one or both 
countries overharvesting fish that were returning to the other country, 
to the detriment of the resource. At the time the Treaty was signed, 
Chinook salmon were in a severely depressed State because of 
overharvest in the ocean as well as environmental degradation in the 
spawning rivers. Under the Treaty, both countries committed to rebuild 
the depressed runs of Chinook stocks and recommitted to that goal in 
1999 when adopting a coastwide abundance-based approach to harvest 
management. Under this approach, harvest management has complemented 
habitat conservation and restoration activities undertaken by the 
States, Tribes, and other stakeholders in the Pacific Northwest to 
address the needs of salmon listed for protection under the Endangered 
Species Act. The updated Annex Chapters continue these commitments. The 
combination of these efforts is integral to achieving success in 
rebuilding and restoring healthy, sustainable salmon populations.
    Finally, you should consider that the value of the commercial 
harvest of salmon subject to the Treaty, managed at productive levels 
under the Treaty, supports the infrastructure of many coastal and 
inland communities. The value of the commercial, recreational 
fisheries, and the economic diversity they provide for local economies 
throughout the Pacific Northwest and Alaska, is immense. The Commission 
funded an economic study of the fisheries and determined that this 
resource creates thousands of jobs and is a multi-billion dollar 
industry. The value of these fish to the 24 treaty Tribes in 
Washington, Oregon, and Idaho goes far beyond their monetary value, to 
the cultural and religious lives of Indian people. A significant 
monetary investment is focused on salmon due to the listings of Pacific 
Northwest salmon populations under the Endangered Species Act. Given 
these resources, we continue to utilize the Pacific Salmon Commission 
to develop recommendations that help with the development and 
implementation of solutions to minimizing impacts on listed stocks. We 
continue to work towards the true intent of the Treaty, and with your 
support, we will manage this shared resource for mutual enhancements 
and benefits.
    Madam Chair, that concludes my written testimony submitted for 
consideration by your Committee. I want to thank the Committee for the 
support that it has given the U.S. Section in the past. Please feel 
free to contact me, or other members of the U.S. Section to answer any 
questions you or Committee members may have regarding the U.S. Section 
of the Pacific Salmon Commission budget.
                                 ______
                                 
                Prepared Statement of the USGS Coalition
    The USGS Coalition appreciates the opportunity to provide testimony 
about fiscal year 2020 appropriations for the United States Geological 
Survey (USGS). The USGS Coalition requests that Congress fund the USGS 
at $1.2 billion in fiscal year 2020. The requested funding would allow 
the agency to sustain current efforts in scientific discovery and 
innovation and to make strategic investments that will produce the 
impartial knowledge and decision support tools needed by decision-
makers across the country. The President's budget request represents a 
more than a 15 percent cut to the fiscal year 2019 enacted budget.
    The USGS is uniquely positioned to provide information and inform 
responses to many of the Nation's greatest challenges. The USGS is an 
agency that has a distinctive capacity to deploy truly 
interdisciplinary teams of experts to gather data, conduct research, 
and develop integrated decision support tools that improve ecosystem 
management, ensure accurate assessments of our water quality and 
quantity, reduce risks from natural and human-induced hazards, deliver 
timely assessments of mineral and energy resources, and provide 
emergency responders with accurate geospatial data and maps.

The USGS Coalition is an alliance of more than 85 organizations united 
by a commitment to the continued vitality of the United States 
Geological Survey to provide critical data and services. Coalition 
members include scientific organizations, universities, businesses, and 
natural resource managers.
                   essential services for the nation
    Established by Congress as a branch of the Department of the 
Interior in 1879, the USGS has a national mission that extends beyond 
the boundaries of the Nation's public lands to positively impact the 
lives of all Americans. The USGS plays a unique role within the 
Department of the Interior, conducting research across a broad array of 
scientific disciplines and providing data that informs responses to 
many of the Nation's greatest challenges. To highlight just a few 
examples, USGS scientists:

  --Reduce risks from natural hazards--including earthquakes, tsunamis, 
        landslides, volcanic eruptions, flooding, drought, and 
        wildfires--that jeopardize human lives and result in billions 
        of dollars in damages annually. USGS not only works to improve 
        the scientific understanding of these hazards, but also works 
        to relay these findings to Federal, state, and local decision 
        makers in order to better adapt response protocols in the event 
        of an emergency. Recent disasters, such as the Camp, Carr and 
        Woolsey wildfires and Hurricanes Michael and Florence, 
        highlight the Nation's continued vulnerability to natural 
        disasters and their catastrophic economic losses.
  --Inform management of freshwater resources--both above and below the 
        land surface--for drinking water, agriculture, and commercial, 
        industrial, recreational, and ecological purposes.
  --Inform sound management of natural resources on Federal and State 
        lands, including control of invasive species and wildlife 
        diseases that cause billions of dollars in economic losses. 
        This information is shared with other Interior bureaus and 
        State agencies to allow for adequate monitoring and management.
  --Provide vital geospatial and mapping data used in economic 
        development, environmental management, infrastructure projects, 
        and scientific applications by States, Federal agencies, and 
        the private sector.
  --Help predict the impacts of land use and climatic conditions on the 
        availability of water resources and the frequency of wildfires. 
        The Landsat satellites have collected the largest archive of 
        remotely sensed land data in the world, which informs 
        agriculture production and our Nation's response to and 
        mitigation of natural hazards.
  --Help make decisions about the Nation's economic and energy future 
        by assessing mineral and energy resources--including rare earth 
        elements, coal, oil, unconventional natural gas, and 
        geothermal. The USGS is the sole Federal source of information 
        on mineral potential, production, and consumption.
                                funding
    Over the years, Congress has worked in a bipartisan fashion to 
provide essential funding to the USGS. These efforts have paid 
dividends and helped the USGS provide answers to the challenging 
questions facing decision-makers across the country. As a science 
agency, much of the USGS budget is dedicated to salaries and equipment 
that must be maintained and updated to ensure the continuity of data 
acquisition and that the data gathered are reliable and available for 
future scientific investigations. We believe that the leadership of the 
USGS is doing all they can to contain costs while continuing to deliver 
high quality science. Any cuts in fiscal year 2020 or beyond would come 
at the expense of scientific programs.
    One strength of the USGS is its partnerships with many other 
Federal agencies, States, local governments, educational institutions 
and private entities. These relationships, however, should not be 
mistaken as a means to transfer Federal activities to other entities. 
The work of the USGS is uniquely tied to the agency, as shown in the 
following examples:

  --Expected losses from natural hazards in the U.S. have averaged more 
        than $20 billion per year over the past 2 decades. These losses 
        can be significantly reduced through informed decisions guided 
        by the most current and thoroughly-researched understanding of 
        the hazards, risks, and cost of mitigation. The USGS Science 
        Application for Risk Reduction Project was created to innovate 
        the application of hazard science for the safety, security, and 
        economic well-being of the Nation by directing new and existing 
        scientific research toward addressing gaps in vulnerability to 
        help communities build resilience to natural hazards.
  --Precise elevation data is needed for a variety of applications, 
        including farming, infrastructure construction, flood 
        mitigation, and aviation safety. The U.S., however, does not 
        yet have national coverage of high-quality topographic data. 
        Given its expertise in mapping, the USGS is the lead entity for 
        the 3D Elevation Program, which will acquire precise national 
        elevation data coverage within 8 years. The program is 
        estimated to provide benefits worth $1.1 billion a year to 
        government and private entities.
  --Nearly half of America's drinking water comes from underground 
        aquifers. The large size of some aquifers, which can span the 
        boundaries of multiple States, puts them beyond the scope of 
        local water authorities. The USGS is evaluating water quality 
        in 20 principal aquifers as part of the National Water-Quality 
        Assessment Project. The program is testing for contaminants, 
        such as pesticides, pharmaceuticals, and other pollutants that 
        threaten human health.
  --The Landsat satellites have accumulated the largest archive of 
        remotely sensed land data in the world, providing an important 
        resource of land use planning, agriculture, assessing water 
        resources and addressing the impacts from natural hazards.
  --According to analysis completed by USGS, State fish and wildlife 
        agencies have identified more than 16,000 species as at risk or 
        in need of additional monitoring. USGS Cooperative Research 
        Unit scientists work to bring State agency and U.S. Fish and 
        Wildlife Service scientists and decision makers together on 
        cooperative research projects, trainings, and workshops before 
        these species reach the point of Endangered Species Act 
        listing.
  --Recent research by the USGS identified the potential for avian flu 
        to move between Europe and North America when migratory birds 
        congregate in Iceland during their migration. Wildlife diseases 
        threaten not only the ecosystem and economic values of wild 
        animals, but can also jeopardize human health. The USGS has 
        unique technical expertise for surveillance and diagnosis of 
        wildlife disease, such as identifying a potential transmission 
        route of a deadly disease.
                               conclusion
    We recognize the financial challenges facing the Nation, but losing 
irreplaceable data can increase costs to society today and in the 
future. Data not collected and analyzed today is data lost forever. 
This is particularly significant for environmental monitoring systems, 
where the loss of a year's data can limit the scope and reliability of 
long-term dataset analysis--resulting in a cascading effect for private 
and public partners that rely on this information to make regulatory 
and financial decisions. Moreover, the United States Geological Survey 
has a national mission that extends beyond the boundaries of the 
Nation's public lands to positively impact the lives of all Americans. 
For these reasons, the USGS Coalition requests that Congress provide 
$1.2 billion for USGS in fiscal year 2020.
    The USGS Coalition appreciates the subcommittee's past leadership 
in strengthening the United States Geological Survey. Thank you for 
your thoughtful consideration of this request.

    [This statement was submitted by Elizabeth Duffy, Chair.]
                                 ______
                                 
            Prepared Statement of the WateReuse Association
    Thank you for the opportunity to present our fiscal year 2020 
funding requests. The WateReuse Association (WRA) is a not-for-profit 
trade association for water utilities, businesses, industrial and 
commercial enterprises, non-profit organizations, and research entities 
that engage in and on water reuse. WRA and its State and regional 
sections represent more than 200 water utilities serving over 60 
million customers, and over 300 businesses and organizations across the 
country. WRA's mission is to engage its members in a movement for safe 
and sustainable water supplies, to promote acceptance and support of 
recycled water, and to advocate for policies and funding that increase 
water reuse. As you begin the fiscal year 2020 appropriations cycle, we 
submit the following requests for your consideration:
      america's water infrastructure act (awia) of 2018 provisions
Agency: U.S. Environmental Protection Agency
Account: State and Tribal Assistance Grants (STAG)
    We request following amounts for fiscal year 2020 for three 
programs newly authorized in AWIA:

  --$4 million for SEC. 2005--Drinking Water Infrastructure Resilience 
        and Sustainability Program;
  --$10 million for SEC. 2007--Innovative Water Technology Grant 
        Program
  --$25 million for SEC. 2013--Community Water System Risk and 
        Resilience Program
  --$225 million for SEC. 4106--Sewer Overflow Control Grants

    These four programs were created in the America's Water 
Infrastructure Act of 2018. fiscal year 2020 will be the first 
opportunity to provide a Federal investment under the new 
authorizations. These programs will provide tools and resources to 
support innovation in addressing unique local challenges in water 
supply and water quality, including practices involving the use of 
recycled wastewater effluent, captured stormwater, and other 
alternative water sources in all States.
                    clean water state revolving fund
Agency: U.S. Environmental Protection Agency
Account: State and Tribal Assistance Grants (STAG)
    The successful Clean Water State Revolving Fund (CWSRF) program is 
the primary source of Federal financing assistance for clean water 
infrastructure. The CWSRF is an important tool used across all 50 
States and in communities of all sizes to help communities make 
investments more affordably. Our Nation's water infrastructure faces 
significant infrastructure investment challenges with utilities 
challenged to maintain and upgrade aging infrastructure, comply with 
Federal obligations, protect public health and serve as environmental 
stewards in their community--all while maintaining affordable rates for 
critical services. A significant increase in funding for the CWSRF 
would provide tools and resources to help meet these growing needs. We 
therefore request a doubling of funding for the CWSRF to $3.388 billion 
in fiscal year 2020.
          water infrastructure finance and innovation program
Agency: U.S. Environmental Protection Agency
Account: Water Infrastructure Finance and Innovation Fund
    The Water Infrastructure Finance and Innovation Program accelerates 
investment in our Nation's water infrastructure by providing long-term, 
low-cost supplemental loans for regionally and nationally significant 
projects. EPA estimates that a $50 million Water Infrastructure Finance 
& Innovation Act (WIFIA) appropriation can be leveraged into $5 billion 
in low-interest Federal loans and $10 billion in new water 
infrastructure projects. A small increase in appropriated dollars for 
this program can go a very long way toward advancing water reuse and 
recycling across the country. Already, WIFIA has made major investments 
in innovative water recycling projects, and we expect to see this trend 
continue into the future. We therefore request $70 million in fiscal 
year 2020 for the Water Infrastructure Finance and Innovation Program.
                  drinking water state revolving fund
Agency: U.S. Environmental Protection Agency
Account: State and Tribal Assistance Grants (STAG)
    Following the 1996 Amendments to the Safe Drinking Water Act, 
Congress demonstrated its commitment to safe drinking water and 
economic growth by providing more than $19 billion to the Drinking 
Water SRF program, resulting in $35.4 billion in assistance to water 
systems that have supported roughly 13,800 drinking water improvement 
projects nationwide, and been an almost 2:1 return on investment for 
American taxpayers. Despite the large investment, the need for drinking 
water infrastructure improvements far exceeds available dollars. An 
increase in fiscal year 2020 would help address that need. We therefore 
request $1.3 billion in fiscal year 2020 for the Drinking Water State 
Revolving Fund.
            national priorities water research grant program
Agency: U.S. Environmental Protection Agency
Account: Science & Technology
    The water sector in the United States is vital for supporting 
healthy families and thriving communities. Today, the water sector is 
facing unprecedented challenges, including extreme drought, 
catastrophic flooding, failing infrastructure, emerging contaminants, 
and dramatic changes in population. Water research will play a critical 
role in developing cost-effective solutions to these challenges to 
ensure thriving, resilient communities, create jobs, and support 
healthy families. In the past 2 years, Congress has appropriated 
between $600-$700 million for EPA research, but less than 15 percent of 
EPA's Science and Technology Account funding is dedicated to water 
related research. Less than 1 percent of these funds supports applied 
research for water utilities. We therefore request an increase in 
funding to $20 million for the National Priorities Water Research grant 
program in order to better reflect the urgent research needs of the 
water sector.
                                 ______
                                 
        Prepared Statement of the Western Governors' Association
    Chairman Murkowski, Ranking Member Udall, and Members of the 
subcommittee, the Western Governors' Association (WGA) appreciates the 
opportunity to provide written testimony on the appropriations and 
activities of the Bureau of Land Management (BLM), U.S. Fish and 
Wildlife Service (FWS), National Park Service (NPS), U.S. Forest 
Service (USFS) and Environmental Protection Agency (EPA). WGA is an 
independent organization representing the Governors of 19 western 
States and 3 U.S territories in the Pacific. The Association is an 
instrument of the Governors for bipartisan policy development, 
information-sharing and collective action on issues of critical 
importance to the western United States.
    The agencies within the subcommittee's jurisdiction wield 
significant influence over vast areas of the American West. Ninety-four 
percent of all Federal lands are located in the western States, and the 
Federal Government owns over 46 percent of the land within active WGA 
States. The work of this subcommittee is of vital importance to Western 
Governors, as it establishes how these lands are managed and how 
Federal agencies interact with other levels of government and the 
public.
    There is a tension between State and Federal Government, one that 
is embedded in the fabric of our Constitution. These sovereign 
governments must have a close and productive working relationship to 
increase efficiencies and maximize returns on taxpayer investments. The 
promotion of a greater partnership between States and the Federal 
Government is central to the mission of WGA and is reflected in WGA 
Policy Resolution 2017-01, Building a Stronger State-Federal 
Relationship, which I commend to your attention.
    In last year's House Committee report accompanying the Interior, 
Environment, and Related Agencies fiscal year 2019 appropriations bill 
(H. Rpt. 115-765), the Federal agencies funded by the Interior bill 
were directed to provide appropriate feedback on Tribal input received 
by agencies through meaningful consultation in their decisionmaking 
processes. Similar direction to Federal agencies for consultation with 
States, which is required pursuant to Executive Order 13132, would 
improve the co-sovereign relationship between States and the Federal 
Government. The Governors have also urged the Department of the 
Interior (DOI) to engage in meaningful, substantive consultation with 
States on departmental reorganization and appreciate the direction to 
DOI regarding the necessity of this consultation. Reorganization offers 
an excellent opportunity to improve State and Federal consultation, 
coordination, and communication.
    The promotion of greater partnership between States and the Federal 
Government is central to the mission of WGA and a key theme of several 
WGA projects, including the Species Conservation and Endangered Species 
Act Initiative, the National Forest and Rangeland Management 
Initiative, and the current Biosecurity and Invasive Species Intiative. 
Responsible land management can only occur when Federal, State and 
local stakeholders work collaboratively to improve the health and 
resilience of our lands. Likewise, fish and wildlife conservation is 
only possible through the cooperative efforts of State and Federal 
officials across multiple disciplines.
    Western Governors believe that States should be full partners in 
the implementation of the Endangered Species Act (ESA) and have the 
opportunity to participate in listing decisions, critical habitat 
designations, recovery planning and delisting decisions. The Act is 
premised on a strong State-Federal partnership. Section 6(a) of the ESA 
States that: ``In carrying out the program authorized by the Act, the 
Secretary shall cooperate to the maximum extent practicable with the 
States.'' WGA submits that such cooperation should involve meaningful 
opportunities for States to comment, participate, or undertake 
proactive measures before the Federal Government takes action under the 
ESA.
    States possess primary authority to manage most fish and wildlife 
within their borders, and they are the principal recipients of economic 
benefits associated with healthy species and ecosystems. At the same 
time, species listings and their associated prohibitions and 
consultations can affect the efforts of western States to promote 
economic development, accommodate population growth, and maintain and 
expand infrastructure. Consequently, States should have the right to 
intervene in judicial and administrative proceedings regarding the ESA. 
Western Governors urge the subcommittee to support the legal standing 
of States to participate in administrative and judicial actions 
involving ESA that, by their nature, implicate State authority and 
resources.
    For the past several years, the subcommittee has adopted report 
language directing Federal land managers to use State fish and wildlife 
data and analyses as principal sources to inform land use, land 
planning and related natural resource decisions. Western Governors are 
deeply appreciative of your commitment to promote a positive 
relationship between the States and the Federal Government in the use 
of wildlife data while respecting the limitations of State data privacy 
laws. Federal managers need data-driven science, mapping and analyses 
to effectively manage wildlife species and habitat, and in many cases 
States generate the best available wildlife science. Western Governors 
encourage continued coordination between Federal and State agencies on 
wildlife data collection to avoid spending scarce resources on 
duplicative data collection efforts.
    WGA recommends the enactment and full funding of a permanent and 
stable funding mechanism for the Payment in Lieu of Taxes (PILT) 
program administered by DOI. PILT funding does not represent a gift to 
local jurisdictions; rather it provides important compensation for the 
disproportionate acreage of non-taxable Federal lands in the West. 
Similarly, payments under the Secure Rural Schools and Community Self-
Determination Act (SRS) compensate communities whose timber industries 
have been negatively impacted by actions and acquisitions of the 
Federal Government. Western Governors request that you appropriate full 
funding for both PILT and SRS payments in fiscal year 2020.
    Data for water management and drought response planning is critical 
to western States. Western Governors request adequate funding levels 
for the Cooperative Water Program and National Streamflow Information 
Program, both administered by the U.S. Geological Survey. This data is 
integral to the water supply management decisions of States, utilities, 
reservoir operators and farmers. They are also used for flood forecasts 
and are, accordingly, essential for risk assessment and water 
management. These programs are important elements of a robust water 
data management framework in western States and provide needed support 
for drought mitigation efforts throughout the West.
    Infrastructure management is another crucial element of drought 
response. The Environmental Protection Agency's (EPA) Clean Water and 
Drinking Water State Revolving Funds (SRFs) provide necessary support 
for communities to maintain and enhance their water infrastructure. 
Western Governors' Policy Resolution 2018-12, Water Quality in the 
West, encourages adequate funding for SRFs.
    Western Governors continue to be concerned about the number of wild 
horses and burros on BLM lands. This number is presently estimated to 
be more than triple the current Appropriate Management Level (AML). 
Overpopulation can degrade rangeland, negatively affecting wildlife and 
domestic livestock, as well as the habitat of threatened and endangered 
species. WGA supports a process to establish, monitor and adjust AMLs 
for wild horses and burros that is transparent to stakeholders, 
supported by scientific information (including State data), and 
amenable to adaptation with new information and environmental and 
social change.
    WGA remains concerned about the spread of invasive mussels in the 
West and have chosen to highlight this issue through the Western 
Governors' Biosecurity and Invasive Species Initiative. Of particular 
concern are invasive quagga and zebra mussels, which continue to be a 
major threat to western water resources. To combat this threat, Western 
Governors request that the BLM, FWS, and NPS be provided with the 
resources and statutory authority required to implement mandatory 
inspection of all high-risk watercraft and decontamination of 
watercraft infested with quagga and zebra mussels leaving waterbodies 
under their jurisdiction.
    Western Governors applaud NPS for its efforts to preserve iconic 
landscapes, habitats and cultural resources. WGA is concerned, however, 
that the significant maintenance backlog across all National Parks will 
impede responsible natural and cultural resources management. WGA 
encourages adequate funding to support ongoing NPS operations and 
address critical infrastructure needs.
    Western Governors had previously expressed concern regarding the 
development of the 2015 Clean Water Rule by the EPA and U.S. Army Corps 
of Engineers' (USACE), as States were not adequately consulted by the 
agencies during the rulemaking process. EPA and USACE have promulgated 
new language to clarify the jurisdictional boundaries of the Clean 
Water Act and have taken positive steps to engage WGA and individual 
States with respect to this issue. WGA looks forward to working with 
the agencies to further develop and implement a new rule that takes 
into account the viewpoints of Western Governors and adequately 
protects States' primary authority over the management and allocation 
of water resources.
    States have exclusive authority over the allocation and 
administration of rights to groundwater located within their borders 
and are primarily responsible for protecting, managing, and otherwise 
controlling the resource. The regulatory reach of the Federal 
Government was not intended to, and should not, be applied to the 
management and control of groundwater resources. WGA encourages 
Congress to include express and unambiguous language protecting States' 
authority over groundwater resources in any water-related legislation, 
as well as clear direction to administrative agencies to respect such 
authority. WGA appreciates the language included by the subcommittee in 
prior Appropriations Acts addressing existing statutory authorities for 
groundwater protection. Federal agencies should work through existing 
State authorities to address their groundwater-related needs and 
concerns. Such collaboration will help ensure that Federal efforts 
involving groundwater recognize and respect State primacy and comply 
with all statutory authorities.
    States also possess delegated authority from EPA to manage air 
quality within their borders. Congress and EPA should recognize State 
authority under the Clean Air Act (CAA) and accord States sufficient 
flexibility to create air quality and emissions programs tailored to 
individual State needs, industries, and economies. State CAA programs 
require financial support from Congress, yet funding has declined since 
the CAA's enactment. In addition, given the unique character of the 
West and the region's attainment challenges, funding should be 
appropriated for EPA to assist western States in research on 
background, interstate and transported ozone. More frequent and intense 
wildfires are steadily reducing the West's gains in air quality 
improvement. Smoke from wildfires causes exceedances under National 
Ambient Air Quality Standards for particulate matter and ozone, 
negatively affecting public health, safety and transportation. 
Prescribed fire can reduce these effects but is currently underused in 
many areas.
    Western States depend on a safe, reliable and resilient network of 
infrastructure to move goods, people, energy, and agricultural products 
to meet growing demands across our Nation and world. Because a 
significant portion of the West is federally-owned, Federal processes 
impact the region's infrastructure. Congress should clarify that State, 
local and Tribal governments, as well as their political subdivisions, 
have unique and critical duties to serve their citizens and are not 
stakeholders or members of the public for purposes of the National 
Environmental Policy Act (NEPA) process. In addition, existing State 
environmental review processes can supplement and inform Federal NEPA 
reviews; Federal agencies should work directly with States to obtain 
and use up-to-date State data and analyses as critical sources of 
information in the NEPA process.
    Western Governors and Federal land management agencies deal with a 
complex web of interrelated natural resource issues. It is an enormous 
challenge to judiciously balance competing needs in this environment, 
and Western Governors appreciate the difficulty of the decisions this 
subcommittee must make. The foregoing recommendations are offered in a 
spirit of cooperation and respect, and WGA is prepared to assist you in 
discharging these critical and challenging responsibilities.

    [This statement was submitted by James D. Ogsbury, Executive 
Director.]
                                 ______
                                 
        Prepared Statement of the Wildlife Conservation Society
    The Wildlife Conservation Society would like to thank Chairman 
Murkowski and Ranking Member Udall for providing this opportunity to 
offer testimony in support of funding in the fiscal year 2020 Interior, 
Environment and Related Agencies Appropriations Act for the 
Multinational Species Conservation Fund (MSCF), Office of International 
Affairs (IA), Office of Law Enforcement (OLE), and Cooperative 
Landscape Conservation Program (CLCP) accounts at the U.S. Fish and 
Wildlife Service (FWS), and the International Forestry program at the 
U.S. Forest Service (FS-IP).
    WCS was founded with the help of Theodore Roosevelt in 1895 with 
the mission of saving wildlife and wild places worldwide. Today, WCS 
manages the largest network of urban wildlife parks in the United 
States, led by our flagship, the Bronx Zoo. Globally, our goal is to 
conserve the world's largest wild places, focusing on 16 priority 
regions that are home to more than 50 percent of the world's 
biodiversity. We work in almost 60 countries and manage more than 200 
million acres of protected areas around the world.
    The American conservation tradition is based on promoting 
sustainable use of our natural resources in order to preserve the 
world's species and environment for future generations. In recognition 
of the current fiscal constraints, it is important to note that 
effective natural resources management and conservation has indirect 
but significant economic benefits, including contributing to local 
economies through tourism and other means. Internationally, by 
supporting conservation, the U.S. is increasing the capacity of other 
nations to respond to extreme weather, drought, and wildfires, thus 
strengthening governance in these developing nations, which improves 
U.S. national security. That is why WCS and partners have launched the 
Natural Security Campaign (www.naturalsecurity.us) to demonstrate that 
investments in international conservation can help prevent global 
conflicts, reduce international crime, guard against natural disaster, 
and promote legal and fair trade.
    FWS--Multinational Species Conservation Fund--$15 Million: Global 
priority species, such as tigers, rhinos, African and Asian elephants, 
great apes, and marine and freshwater turtles and tortoises, face 
constant danger from poaching, habitat loss, and other serious 
concerns. MSCF programs have helped to sustain wildlife populations by 
controlling poaching, reducing human-wildlife conflict, and protecting 
essential habitat--all while promoting U.S. economic and security 
interests in far reaching parts of the world. These programs are highly 
efficient, granting them an outsized impact because they consistently 
leverage two to four times as much in matching funds from organizations 
like WCS, foreign governments, local NGOs, and private foundations.
    WCS has had great success on projects using funds from the MSCF. 
One Great Ape award to WCS in fiscal year 2017 is supporting a 5-year 
project to secure the Cross River gorilla population in Nigeria and 
Cameroon. WCS is protecting the intact, old growth forest that is home 
to the less than 300 gorillas that remain and a number of forest 
dependent communities by establishing an effective network of core 
protected areas and corridors linking habitat between the two countries 
despite pressures from Chinese developers and the provincial 
government's interest in building a ``Super Highway'' through this 
critical habitat.
    WCS is grateful that the Committee appropriated $11.6 million for 
the program in fiscal year 2019, an increase of $500,000 from the 
previous year and the first increase of any kind for the program in 3 
years. Regrettably, the President's budget proposes to roll back this 
gain by cutting funding for the MSCF by more than 40 percent. Poaching 
and wildlife trafficking remain a serious threat to all of the species 
covered by the Species funds. The illegal killing of rhinos for horns 
and African elephants for ivory continues, and there is growing concern 
that endangered Asian elephants are being poached for their skin, which 
is used in jewelry and for specious medicinal purposes in rural areas 
in Southeast Asia. It is also important to mention that with the 
passage of the Chairman's lands bill, the John D. Dingell, Jr. 
Conservation, Management, and Recreation Act, the MSCF has been 
expanded to include tortoises and freshwater turtles. About 60 percent 
of all of the 330 modern species of tortoises and freshwater turtles 
are listed as threatened, endangered, or are already extinct in the 
wild according to the International Union for the Conservation of 
Nature. Ten species are known to have wild populations of less than 100 
individuals. The statutory language in the Dingell Act ensures that no 
cuts would occur to grants to marine turtle projects, meaning that 
additional funding is necessary to ensure that grant funding is 
available for the newly added species. WCS hopes that the subcommittee 
will consider these points and allocate $15 million for the MSCF to 
match the amount proposed in the House draft bill.
    FWS--International Affairs--$18 Million: The FWS IA program 
supports efforts to conserve our planet's rich wildlife diversity by 
protecting habitat and species, combating illegal wildlife trade, and 
building capacity for landscape-level wildlife conservation. The 
program provides oversight of domestic laws and international treaties 
that promote the long-term conservation of plant and animal species by 
ensuring that international trade and other activities do not threaten 
their survival in the wild. Within IA, the FWS Regional Programs for 
Africa, Eurasia, and the Western Hemisphere seek to address grassroots 
wildlife conservation problems from a broad, landscape perspective, 
building regional expertise and capacity while strengthening local 
institutions.
    The IA program works hand-in-glove with the MSCF, supporting the 
conservation of species that are not specifically addressed by the 
species funds and providing support for conservation of entire 
habitats, even in cases where they happen to cross political 
boundaries. Big cats like jaguars and snow leopards are examples of why 
this program is important. These species need large territories to 
provide the prey they need to survive and thrive, and protection from 
poachers and others that infringe upon protected areas to conduct 
illegal activities. The IA program supports WCS projects that are 
striving to help these species through scientific study, habitat 
conservation, and working with local communities to conserve these 
animals.
    The final fiscal year 2019 bill contained level funding for the 
International Affairs program. WCS asks that the subcommittee increase 
funding for the program to $18 million so that this program can better 
support efforts to conserve landscapes and vulnerable species.
    FWS--Office of Law Enforcement--$85 Million: The U.S. remains one 
of the world's largest markets for wildlife and wildlife products, both 
legal and illegal. A small group of dedicated officers at OLE are 
tasked with protecting fish, wildlife, and plant resources by 
investigating wildlife crimes--including commercial exploitation, 
habitat destruction, and industrial hazards--and monitoring 
international trade to intercept illegal wildlife and timber products. 
As the U.S. developed and implemented a comprehensive strategy to 
combat the growing crisis of wildlife trafficking over the last several 
years, many of the new responsibilities placed on FWS are enforced by 
OLE, and WCS supports increasing funding for the agency to $85 million. 
Additional funding for the program will support its efforts to maximize 
the scope and effectiveness of FWS' response to the international 
wildlife trafficking crisis. It will ensure OLE has an adequate number 
of law enforcement agents deployed to enforce laws against wildlife 
trafficking in the U.S. effectively and allow the agency to continue to 
support coordinated enforcement actions against wildlife trafficking 
overseas through the deployment of 11 FWS attaches in U.S. embassies in 
countries where substantial trafficking in wildlife occurs. Additional 
funding will allow at least 2 additional personnel to be stationed in 
embassies and missions that serve as key transit points for illegal 
wildlife and enable stronger enforcement against illegal timber and 
wildlife products entering the United States.
    FWS--Cooperative Landscape Conservation--$13 Million: Many of the 
domestic conservation programs in this bill provide funding to States 
to implement their conservation goals. But wildlife does not recognize 
political boundaries, and scarce conservation dollars can best be spent 
when effective planning and coordination takes place across entire 
ecosystems. The CLCP funds a network of 22 Landscape Conservation 
Cooperatives in the U.S. and Canada, which use a collaborative approach 
between Federal, State, Tribal, and local partners to identify 
landscape scale conservation solutions and work collaboratively to meet 
unfilled conservation needs, develop decision support tools, share data 
and knowledge, and facilitate and foster conservation partnerships. The 
landscape-based conservation strategy is particularly valuable in large 
States like Alaska, which participates in 4 LCCs, and New Mexico, which 
works with 3, because of the significant variations in the ecosystems 
in different parts of the States. The final fiscal year 2019 
appropriations bill cut funding for this program by approximately 
$500,000. WCS encourages the Committee to return funding to the fiscal 
year 2018 level of $13 million.
    WCS is working to compliment the efforts of the CLCP through our 
Climate Adaptation Fund. Established by a generous grant from the Doris 
Duke Charitable Foundation, the Climate Adaptation Fund supports ground 
breaking, science-based projects, using traditional and new 
conservation tools applied in strategic ways to help wildlife and 
ecosystems adapt to a range of climate impacts in the United States.
    USFS--International Forestry--$10 Million: The U.S. economy has 
lost approximately $1 billion per year and over 200,000 jobs due to 
illegal logging, which is responsible for 15-30 percent of all timber 
by volume. FS-IP works to level the playing field by reducing illegal 
logging and improving the sustainability and legality of timber 
management overseas, translating to less underpriced timber 
undercutting U.S. producers. Through partnerships with USAID and the 
Department of State, FS-IP helps to improve the resource management in 
countries of strategic importance to U.S. economic and national 
security. WCS supports an appropriation of $10 million for fiscal year 
2020, a small but important increase in funding for this program.
    With technical and financial support from FS-IP, WCS has been 
working to conserve a biologically rich temperate forest zone called 
the Primorye in the Russian Far East for over a decade, focusing on the 
Amur tiger and Far Eastern leopard and their habitat, species with 
approximately 400 and 40 individuals remaining the wild, respectively. 
Human encroachment, illegal logging, and widespread use of agricultural 
burning fracture and threaten the habitat of these endangered animals 
and increase human wildlife conflicts. Since the Amur tiger and Far 
Eastern leopard are dependent on large tracts of intact, functional 
forest ecosystems, WCS has been focusing on these two species as a 
means to address larger biodiversity conservation and scientific-
technological capacity building goals throughout the region.
    Building on its strong international partnerships, the FS-IP also 
supports collaborative research aimed to control and prevent invasive 
species that significantly threaten the health of U.S. forests and 
inflict massive economic costs. In the forest products industry alone, 
approximately $4.2 billion is lost each year to invasive insect pests 
and pathogens. In one project, FS-IP is working with partners in Europe 
to prevent the spread of the European wood wasp, which has already been 
documented in pine forests in New York and now threatens to spread into 
the Southeast U.S., where drier and warmer temperatures could allow the 
species to devastate pines in the region.
    In conclusion, WCS believes that the conservation of public lands 
is an American tradition. As far back as 1909, Theodore Roosevelt 
recognized that the management of our natural resources requires 
coordination between all nations. Continued investment in conservation 
will reaffirm our global position as a conservation leader, while 
improving our national security and building capacity and good 
governance in developing countries.
                                 ______
                                 
               Prepared Statement of The Wildlife Society
    The Wildlife Society (TWS) appreciates the opportunity to provide 
testimony concerning the fiscal year 2020 budgets for the U.S. 
Geological Survey (USGS), U.S. Fish and Wildlife Service (FWS), Bureau 
of Land Management (BLM), and U.S. Forest Service (USFS). Founded in 
1937, TWS represents approximately 15,000 wildlife professions with a 
mission to inspire, empower, and enable wildlife professionals to 
sustain wildlife populations and habitat through science-based 
management and conservation. Appropriations for the following programs 
within the jurisdiction of the subcommittee on Interior, Environment, 
and Related Agencies will affect the current and future status of 
wildlife and wildlife professionals in North America. To enable the 
appropriate use of science within these programs and beyond, TWS 
respectfully requests the following programmatic funding in fiscal year 
2020.

 FISCAL YEAR 2020 INTERIOR APPROPRIATION REQUESTS--THE WILDLIFE SOCIETY
------------------------------------------------------------------------
                                            Fiscal Year     Fiscal Year
     Agency              Program           2019 Enacted      2020 TWS
------------------------------------------------------------------------
                 Ecosystems Mission Area         156.9 M           174 M
USGS
                 Cooperative Research             18.4 M            25 M
                  Units.
------------------------------------------------------------------------
                 State & Tribal Wildlife          64.6 M            90 M
                  Grants.
                 National Wildlife               488.3 M           586 M
                  Refuge System.
                 Ecological Services....         251.8 M           257 M
FWS              NAWCA..................            42 M            44 M
                 NMBCA..................           3.9 M           6.5 M
                 Partners for Fish and            51.6 M          54.4 M
                  Wildlife.
                 Migratory Bird                   46.4 M            50 M
                  Management.
------------------------------------------------------------------------
                 Wildlife & Aquatic                126 M           128 M
                  Management.
BLM
                 Wild Horse & Burro               80.5 M      \1\ 80.5 M
                  Management.
------------------------------------------------------------------------
USFS             Research & Development.           300 M           311 M
------------------------------------------------------------------------
\1\ BLM Wild Horse & Burro Management funding request accompanies
  request to remove an associated policy rider

                         u.s. geological survey
    The Wildlife Society supports the critical and unique mission of 
USGS to provide objective scientific research and data collection on 
the complex environmental and associated societal issues facing our 
Nation. TWS specifically requests at least $174 million for the 
Ecosystems Mission Area, which contains programmatic resources for 
fisheries, wildlife, invasive species, and the Cooperative Research 
Units (CRU).
    Within the Ecosystems Mission Area, TWS supports at least $25 
million for the CRU program. This program fosters Federal, State, NGO, 
and academic partnerships to provide actionable science tailored to the 
needs of natural resource managers on the front lines. The support of 
many State agencies, universities, and NGOs has allowed the program to 
leverage more than three dollars in outside funds for every Federal 
dollar invested. By housing USGS scientists in Land Grant universities, 
this program also develops the next generation of wildlife 
professionals and provides them with an understanding of actionable 
science responsive to stakeholder needs. An increase of funding to $25 
million would allow the CRUs to fill a record 38 CRU scientist 
vacancies (32 percent). If inflation-adjusted funding is once again 
neglected by Congress, this problem may continue to increase in scope. 
The increase of $1 million in the final fiscal year 2019 language 
failed to provide the funds needed to make a sizable impact in filling 
these vacancies.
    Within the Land Resources Mission Area, the Climate Adaptation 
Science Centers program responds to regional wildlife, ecosystems, and 
community-based stakeholder needs in the face of a changing climate. 
TWS encourages Congress to retain this program within the Land 
Resources Mission Area, where its existing framework has effectively 
leveraged millions in funding from nonFederal partners to provide 
stakeholders with a better understanding of how resources will react 
and respond to climate change.
    The Wildlife Society is encouraged by discussions surrounding the 
public lands maintenance backlog by the administration and Congress. 
However, TWS is concerned that USGS, which provides added scientific 
capacity for Federal public lands agencies, is not being considered 
within these conversations. With a maintenance backlog of over $400 
million, the facilities needs of USGS have to be addressed for them to 
remain responsive to Federal public lands agencies and partners. TWS 
encourages inclusion of USGS in funding conversations on the 
maintenance backlog.
                     u.s. fish and wildlife service
    The State and Tribal Wildlife Grants Program (STWG) is the Nation's 
only program that encourages developing and implementing State Wildlife 
Action Plans, thereby directly supporting States in preventing wildlife 
from being listed under the Endangered Species Act (ESA). Collectively, 
STWG funds support strong partnerships among Federal, State, Tribal, 
private, and nonprofit entities that enable wildlife professionals to 
implement on-the-ground conservation activities that benefit over 
12,000 at-risk species. In fiscal year 2010, appropriations were at $90 
million for the program--allowing States to complete more of the 
projects deemed necessary for monitoring and recovery of at-risk 
species. Subsequent budget reductions in STWG, however, have not 
allowed this highly successful program to reach its full potential. The 
Wildlife Society requests Congress once again reach prior funding 
levels for this highly effective program by providing at least $90 
million in fiscal year 2020. TWS also requests the competitive funding 
portion be open to all States and Tribes working on at-risk species 
recovery, and not be funded exclusively for implementing Interior 
Secretarial Order 3362.
    The Wildlife Society requests at least $586 million for the 
National Wildlife Refuge System's (NWRS) operations and maintenance 
accounts in fiscal year 2020. The NWRS has long been an economic 
driver, generating approximately $4.87 in economic activity for every 
$1 appropriated by Congress. However, the Cooperative Alliance for 
Refuge Enhancement, to which TWS is a member, estimates NWRS needs at 
least $900 million in annual operations and maintenance funding to 
properly administer its 567 units, 38 wetland management districts, and 
5 marine national monuments spanning over 850 million acres of land and 
water. Without adequate funding, ecosystems are not restored; invasive 
species are left unchecked; infrastructure for multiple use 
opportunities such as hunting, fishing, and hiking are not realized; 
and illegal activities such as poaching are not addressed.
    Through the Ecological Services Program (ESP), the USFWS works with 
diverse public and private partners to help identify species facing 
extinction and reduce threats to their populations so that the 
requirement of Federal protection can be removed. Wildlife 
professionals in FWS are working on new strategies to increase efficacy 
of ESP and reduce regulatory burdens on private partners. To 
efficaciously move species through all components of the ESA listing 
and delisting process, TWS requests at least $23 million for Listing, 
$108 million for Planning and Consultation, $35 million for 
Conservation and Restoration, and $96 million for Recovery.
    Further promoting FWS' partnership with private landowners is the 
Partners for Fish and Wildlife Program. This program allows voluntary 
habitat restoration goals, aligned with identified strategic 
priorities, on private lands to be achieved through cost-efficient 
financial and technical assistance. For the role this program plays in 
improving private lands wildlife stewardship while working to preempt 
ESA listings, TWS supports the administration's request of $54.4 
million for PFW in fiscal year 2020.
    The North American Wetlands Conservation Act (NAWCA) is a non-
regulatory, incentive-based program that has demonstrated success in 
maintaining and restoring wetlands, waterfowl, and other migratory bird 
populations by conserving more than 33.4 million acres since 1989. This 
program has remained chronically underfunded despite its demonstrated 
effectiveness. TWS greatly appreciates the $2 million increase in 
fiscal year 2019 and asks that Congress provide a similar increase in 
fiscal year 2020 with an appropriation of $44 million.
    Since 2002, the Neotropical Migratory Bird Conservation Act (NMBCA) 
has provided more than $66 million in grants to support 570 projects in 
36 countries that enable wildlife professionals to conserve 
approximately 400 migratory bird species on 4.5 million acres in the 
U.S., Mexico, Central America, South America, and the Caribbean. 
Moreover, NMBCA has achieved a partner match ratio of nearly 4:1 
despite requiring only a 3:1 match. The needs of U.S. migratory bird 
species and conservation efforts to keep these species common extends 
to landscapes far beyond U.S. borders. As a result, TWS recommends 
Congress increase funding to at least $6.5 million in fiscal year 2020 
to achieve greater proactive conservation results under the program.
    The Migratory Bird Joint Ventures (MBJV), part of FWS' Migratory 
Bird Management program, are locally-directed partnerships that develop 
and implement science-based habitat conservation strategies for all 
species of birds across North America. These partnerships have 
leveraged Federal funds at 31:1 to enhance and conserve over 27 million 
acres of avian habitat. TWS supports $50 million for Migratory Bird 
Management, including $19.9 million for enhancing and promoting MBJV.
                       bureau of land management
    The Wildlife and Aquatic Management program maintains and restores 
fish, wildlife, and their habitat across a large portion of America's 
western landscapes. This includes projects to balance effects of 
multiple public land uses, such as energy development and livestock 
grazing, with needs of native species. With the continued expansion of 
energy development on BLM lands--and the associated mitigation 
challenges--TWS recommends Congress support the Wildlife and Aquatic 
Management program with at least $128 million in fiscal year 2020.
    The Wildlife Society would also like to stress the importance of 
the threatened and endangered species work of the BLM, and urges 
Congress to maintain this work as a separately funded line item. 
Approximately 480 ESA listed species and at least 31 species that are 
candidates for ESA listing occur on BLM-managed lands. TWS encourages 
Congress to increase overall funding for Threatened and Endangered 
Species Management and reject efforts by the administration to absorb 
this program into other line items.
    The Wildlife Society recognizes free-ranging horses and burros in 
the U.S. as ecologically invasive, feral species. Free-ranging horse 
and burro populations on the range reached >82,000 individuals in March 
2018, exceeding BLM's estimated threshold for ecological sustainability 
by over 50,000 animals. To achieve ecologically sustainable levels of 
horses and burros on BLM rangelands without substantial budget 
increases, the current policy rider limiting sale and/or destruction of 
unwanted or unadoptable wild horses and burros must be removed from the 
Interior Appropriations bill. Until Congress enables BLM to responsibly 
manage free-ranging horses and burros by removing this text from the 
appropriations bill, Federal funds will continue to be wasted 
warehousing over 50,000 animals, rather than spent on productive 
rangeland management activities. Given the current management direction 
Congress has provided to the BLM, TWS recommends flat funding at $80.5 
million in fiscal year 2020. TWS recognizes that removal of this 
appropriations rider will ultimately allow this program's budget to be 
reduced as requested by the administration.
                          u.s. forest service
    The Wildlife Society thanks congressional conferees for their 
interest in the research priorities of USFS Research and Development 
(R&D). TWS encourages an acknowledgement of wildlife science and 
management within R&D priorities and hopes the administration will 
better reflect this work in future budget requests. Improving the 
future health and sustainability of the Nation's forests and grasslands 
through collaboration with States and other partners requires a strong 
investment in R&D. TWS encourages Congress to increase funding for all 
Forest Service R&D to a minimum of $305 million in fiscal year 2020, 
including at least $227 million directed to Forest and Rangeland 
Research program areas exclusive of Forest Inventory and Analysis.

    [This statement was submitted by Darren Miller, President.]
                                 ______
                                 
            Prepared Statement of the Yakutat Tlingit Tribe
    The Yakutat Tlingit Tribe (hereinafter ``YTT'' or ``Tribe'') makes 
the following requests for the fiscal year 2020 Indian Health Service 
(IHS) and Indian Affairs appropriations:

  --Continue funding for the IHS Joint Venture Program and ensure that 
        funds for staffing packages for completed programs are timely 
        made available.
  --Appropriate funds to fully cover Section 105(l) leases for 
        healthcare facilities.
  --Put in place a plan to achieve full funding for the IHS, including 
        increases for the Indian Health Care Improvement fund and the 
        Purchased/Referred Care program.
  --Continue support for the Special Diabetes Program for Indians via 
        mandatory appropriations and a multi-year authorization.
  --Continue to fully fund Contract Support Costs.
  --Allow BIE to provide education funding in Alaska.
  --Ensure BIA has adequate funds for tribal courts and public safety 
        programs.
  --Remove `Trust Land Restrictions' for Department of Energy, Office 
        of Indian Energy grant opportunities.
  --Removal of legislative language that has been put in place in 
        Transportation, Housing and Urban Development and Related 
        Agencies Appropriations Acts since fiscal year 2005, which 
        prevents Tribes in Alaska to be direct recipients to NAHASDA 
        funding.

    The Yakutat Tlingit Tribe appreciates the opportunity to submit 
testimony on the fiscal year 2020 appropriations for several important 
programs. The Tribe is a federally recognized Indian Tribe located on 
the eastern shores of the Gulf of Alaska in the City and Borough of 
Yakutat, Alaska. We are in a very remote area 225 miles northwest of 
Juneau and 220 miles southeast of Cordova, Alaska, and can be accessed 
only by boat or air travel. Because of our geographic isolation, it is 
absolutely critical that we are able to provide high quality health 
services in Yakutat. We currently operate the Yakutat Community Health 
Center (YCHC), at which we provide a substantial and increasing number 
of community healthcare, counseling and prevention services.
    The YCHC is funded in part through a community health center grant 
with the Health Resources and Services Administration, and we are a co-
signer to the Alaska Tribal Health Compact under which we receive 
funding from the IHS under the Indian Self-Determination and Education 
Assistance Act (ISDEAA) self-governance program. Other funding comes to 
us through the State of Alaska and third-party collections such as 
Medicaid and private health insurance. Also, we have for many years 
received funding from the Universal Service Administration Company to 
support our information technology needs to provide health services and 
maintain critical connectivity, including our tele-health services and 
coordination with Tribal health programs throughout Alaska. The City 
and Borough of Yakutat operates a volunteer Emergency Medical Services 
squad, but the YCHC is the only healthcare provider in the community. 
The Yakutat Borough is in a Medically Underserved Area and is 
designated as a Health Professional Shortage Area for medical, dental 
and mental health.
    Fund the IHS Joint Venture Program.--As you know, YTT is currently 
working toward building a new healthcare facility using its own Tribal 
funds. We really appreciate Chairman Murkowski's exchange with the 
Indian Health Service at your May 1, 2019, hearing regarding the 
importance of determining the proper funding level for a staffing 
package for our facility.
    Our facility is under the IHS Joint Venture Construction Program 
(JVCP), authorized by Section 818(e) of the Indian Health Care 
Improvement Act. The program involves a competitive pool of Tribes and 
Tribal organizations who agree to construct, acquire or renovate a 
Tribal healthcare facility while IHS commits to funding the initial 
equipment and a staffing package for the operation and maintenance of 
the new facility. We were selected for the program among a competitive 
pool of applicants, and IHS has not only committed to staffing the new 
facility, but also to providing equipment funding. The IHS will thus be 
responsible under the program for providing recurring funding for 
staffing on completion of the construction project.
    The new 20,000 square foot facility will be built on land owned by 
the Tribe in Yakutat. The facility will allow the Tribe to provide 
improved and increased health service delivery in our remote area, and 
we intend to expand our primary care services and dental care. We will 
also have space available for visiting specialty providers to use, as 
well as space for our health aides, behavioral healthcare providers, 
preventive care and our administrative staff.
    The Tribe has secured multi-tiered financing through a combination 
of a USDA direct loan and guaranty loan. We have additionally leveraged 
in private financing to serve as interim construction finance and to 
fund the USDA guaranty loan. We have the process identified to control 
construction costs, and are looking to begin construction this building 
season in Yakutat.
    The Tribe asks the subcommittees to support the continued funding 
for the IHS JVCP, and in particular asks that staffing funds be 
appropriated and made available to the IHS on a timely basis, so the 
Tribe can afford to open and staff the new facility on completion of 
construction without delay. Tribes like YTT have to commit far in 
advance to the construction costs and rely heavily on the funding for 
staffing to be available to them as quickly as possible on completion 
of the facility. Otherwise, it would be impossible for YTT to plan for 
and operate the new healthcare facility once it is complete. We need 
the security of knowing that the funding for staffing will be made 
available to us on a timely basis, so that we can advertise for and 
select new healthcare professionals and other staff needed for the 
expanded services, and to allow them time to relocate to Yakutat, 
Alaska.
    Fund Section 105(l) Health Facility Leases.--In 2018, YTT submitted 
requests for two Section 105(l) leases with the IHS. We believe that 
being able to exercise that authority under the ISDEAA is imperative to 
our and other Tribe's ability to carry out health programs in a safe 
and effective environment. Tribes and Tribal organizations are 
increasingly relying on Section 105(l) leases to address chronically 
underfunded facilities operation, maintenance, and replacement costs. 
This is not just an issue in Alaska, as there are Tribes outside of 
Alaska who also desperately need funding for their healthcare 
facilities. We greatly appreciate your recognition of the Maniilaq v. 
Burwell decision as evidenced by the $36 million fiscal year 2019 
appropriation for clinic leases.
    However, we are concerned that the administration will again ask 
that Congress amend the ISDEAA so that the IHS does not have to fully 
fund such leases. In Maniilaq Association v. Burwell, 170 F. Supp. 3d 
243 (D.D.C. 2016), the court confirmed Section 105(l) of the ISDEAA 
requires full compensation for leases of tribal facilities used to 
carry out ISDEAA agreements. Funding such leases should not be placed 
wholly in IHS's discretion as it proposes. And we ask that the Congress 
again reject the proposal.
    Support Funding for the Indian Health Service IHCIF and PRC.--YTT 
is one of the most disparately funded Tribes within the Indian Health 
Service. Our per capita IHS base funding for basic medical care 
services is under $700 per active user; if you add medical services 
provided through our regional hospital, this amount is estimated at 
$1,500, well below the national 2017 spending for all other Americans 
of $9,207 per person and the IHS average of $3,332 per active user for 
medical care. We strongly support full funding for the IHS as requested 
within the National Tribal Budget Formulation fiscal year 2020 request. 
Until that full funding is realized, we support continuing funding for 
the Indian Health Care Improvement Fund, which is intended to help 
reduce these IHS funding disparities within Indian Country for the 
neediest Tribes. It is unrealistic to expect our Tribe to fund our 
primary care services with a recurring medical services base funding 
from the IHS of only $309,000; while we have been successful in 
supplementing these funds with grant and other resources, unlike our 
IHS dollars these are not guaranteed to be sustainable from year to 
year.
    We also support increases to the Purchased/Referred Care budget. We 
are currently negotiating with the Alaska IHS Area Office to receive 
our share of PRC funding; the estimated amount we likely will receive 
annually is under $300,000/year. We are concerned that this amount will 
not cover our annual costs for medevacs and routine referrals to the 
nearest Tribal hospital in Anchorage. Increasing the PRC funding will 
be critical to ensuring that we have funds to cover costs for these 
emergency and routine transports without bankrupting our budgets which 
provide resources needed to cover our primary care operating and 
facilities expenses.
    Mandatory Funding For the Special Diabetes Program For Indians 
(SDPI).--The Tribe very much appreciates that Congress has reauthorized 
the SDPI through fiscal years 2018 and 2019 at the mandatory funding 
level of $150 million each year. The SDPI continues to provide critical 
funding for diabetes treatment and prevention programs for the Tribe's 
AI/AN patients. We continue to see significant outcomes in our 
community in terms of increased access to treatment and prevention 
services and decreased incidence of new diabetes diagnoses. We strongly 
recommend that the subcommittees support maintenance of the SDPI as 
mandatory-funded program and were glad to learn that the administration 
did not propose in its fiscal year 2020 budget to change the program's 
funding to a discretionary basis.
    Continue Full Funding of Contract Support Costs (CSC).--Again, we 
extend our sincere gratitude to Congress for fully funding CSC in the 
past four fiscal years, and for making it an indefinite amount that is 
in a separate account in the IHS and Bureau of Indian Affairs' budgets. 
The full funding of CSC has made a significant different in our ability 
to successfully carry out our ISDEAA agreements and realize our rights 
and responsibilities under self-governance.
    Support BIE Funding for Education in Alaska.--In the 1980's, 
Congress passed a rider to an appropriations bill that returned Tribal 
schools to the State of Alaska. And since then, BIE has not provided 
funding, other than Johnson O'Malley, to schools in Alaska. Given the 
State's current budget crisis, we ask Congress to reconsider this 
limitation and allow Tribes to get these funds.
    Support BIA Funding for Tribal Courts and for Public Safety.--The 
federally-appointed Alaska Rural Justice and Law Enforcement Commission 
examined various aspects of rural justice services, and found serious 
deficiencies. With reduced State funding, YTT asks Congress to increase 
funding to various grant programs, including BIA and DOJ grants, to 
ensure our communities are safe. This funding can also support Tribal 
courts. There is a significant disparity when comparing the lower 48 
Tribes and Alaskan Tribes. 20-30 percent of lower 48 Tribes' base 
funding is funneled into Tribal Court sustainability for operations and 
maintenance. In Alaska there is no parity with the treatment in 
comparison to lower 48 Tribes. According to the fiscal year 2019 BIA 
Green Book for Alaskan 638 Tribes, TPA base funding allocated to Tribal 
Courts and Public Safety is .0001 percent or $2,364. For Alaskan Self-
Governance Tribes there is a slight improvement but not much with these 
respective Tribes' base funding at .0027 percent or $109,610. We ask 
that Alaskan Tribes be treated with parity.
    Support Telecommunications Connectivity Funding From USAC In Rural 
Areas.--As you know, Internet connectivity is critical to providing 
healthcare services to our remote villages. Last year you heard from us 
and other organizations throughout Alaska regarding the cap on 
Universal Service rural healthcare funds. We appreciate the work that 
was done to eliminate the cap. We remain concerned about the quality of 
Internet. We ask Congress to work towards increasing broadband for 
rural communities.
    Request Support for Removal of Legislative Language That Has Been 
Put in Place in Transportation, Housing and Urban Development Acts 
(THUDS) Since Fiscal Year 2005, Which Prevents Tribes in Alaska To Be 
Direct Recipients of NAHASDA Funding.--The current funding distribution 
for Alaska Tribes to receive their Native American Housing Block Grant 
funding is from the Alaska Regional Housing Authorities, whose funding 
comes from the U.S. Department of Housing and Development (HUD). Prior 
to fiscal year 2005, Tribes in Alaska had the option to either to 
receive their Native American Housing Block Grant funding from Regional 
Housing Authorities or directly from HUD. The fiscal year 2005 
Appropriation legislative language prohibits federally recognized 
Tribes in Alaska to be direct recipients. The language is included in 
fiscal year 2006--H.R. 2577--Transportation, Housing and Urban 
Development Appropriations Act, Section 214, ``The funds made available 
for Native Alaskans under the heading ``Native American Housing Block 
Grants'' in title II of this Act shall be allocated to the same Native 
Alaskan housing block grant recipients that received funds in fiscal 
year 2005.''
    Thank you very much for your time and consideration of the concerns 
and requests made by the Yakutat Tlingit Tribe.

    [This statement was submitted by John Buller, Chairman.]
                                 ______
                                 
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
